Nos. 19-1231 and 19-1241

In the Supreme Court of the United States
FEDERAL COMMUNICATIONS COMMISSION, ET AL.,
PETITIONERS

v.
PROMETHEUS RADIO PROJECT, ET AL.
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
PETITIONERS

v.
PROMETHEUS RADIO PROJECT, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

JOINT APPENDIX

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel of Record
for Petitioners
FCC, et al.
(No. 19-1231)

RUTHANNE M. DEUTSCH
Deutsch Hunt, PLLC
300 New Jersey Ave., N.W.
Suite 900
Washington, D.C. 20001
rdeutsch@deutschhunt.com
(202) 868-6915
Counsel of Record
for Respondents
Prometheus Radio Project,
et al.

PETITIONS FOR WRITS OF CERTIORARI FILED: APR. 17, 2020
CERTIORARI GRANTED: OCT. 2, 2020

Additional Counsel Listed on Inside Cover

HELGI C. WALKER
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
hwalker@gibsondunn.com
(202) 887-3599
Counsel of Record
for Petitioners
National Association of
Broadcasters, et al.
(No. 19-1241)

ANDREW JAY SCHWARTZMAN
1341 G Street N.W.
Fifth Floor
Washington, D.C. 20005
andyschwartzman@gmail.com
(202) 241-2408
Counsel of Record
for Respondents
Benton Institute for
Broadband & Society, et al.
JACK N. GOODMAN
Law Offices of Jack N. Goodman
1200 New Hampshire Ave. N.W.
Suite 600
Washington, D.C. 20036
jack@jackngoodman.com
(202) 776-2045
Counsel of Record
for Respondent
Independent Television Group
DENNIS LANE
Stinson LLP
1775 Pennsylvania Ave., N.W.
Suite 800
Washington, D.C. 20006
dennis.lane@stinson.com
(202) 572-9906
Counsel of Record
for Respondents
Multicultural Media, Telecom
and Internet Council, et al.

TABLE OF CONTENTS

Page
Court of appeals docket entries (17-1107) .............................. 1
Court of appeals docket entries (17-1109) ............................ 35
Court of appeals docket entries (17-1110) ............................ 38
Court of appeals docket entries (17-1111) ............................ 39
Court of appeals docket entries (18-1092) ............................ 40
Court of appeals docket entries (18-1669) ............................ 47
Court of appeals docket entries (18-1670) ............................ 49
Court of appeals docket entries (18-1671) ............................ 50
Court of appeals docket entries (18-2943) ............................ 52
Court of appeals docket entries (18-3335) ............................ 55
FCC 2014 Review, 29 FCC Rcd 4371 (Apr. 15, 2014)
(excerpts) ................................................................................ 58
FCC 2016 Order, 31 FCC Rcd 9864 (Aug. 25, 2016) ............. 101
FCC Incubator Order, 33 FCC Rcd 7911 (Aug. 3, 2018) ...... 577

(I)

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 17-1107
PROMETHEUS RADIO PROJECT AND MOVEMENT
ALLIANCE PROJECT, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
1/18/17 AGENCY CASE DOCKETED.
filed by Media Mobilizing Project and Prometheus Radio Project transferred from D.C.
Circuit pursuant to Order entered 1/11/17.
Certificate of Service dated 01/18/2017. Service made by ECF.
(TYW) [Entered:
01/18/2017 10:08 AM]
1/18/17 CLERK ORDER By Order entered January
11, 2017, the U.S. Court of Appeals for the
D.C. Circuit transferred 5 petitions for review
seeking review of the FCC’s Second Report
and Order regarding the 2014 Quadrennial
Regulatory Review, FCC NO. 16-107, 2016
WL 4483722 (rel. Aug. 25, 2016). The petitions will remain consolidated for purposes of
the joint appendix, scheduling, and disposition. Petitioners are encouraged to consult
with one another regarding the contents of
their briefs as the Court disfavors repetitive
(1)

2
DATE

PROCEEDINGS

briefs. The parties may file a consolidated
brief or join in or adopt portions by reference.
See Fed. R. App. P. 28(i). Respondent may
elect to file a consolidated brief. The full caption for the consolidated cases will be: PROMETHEUS RADIO PROJECT v. FEDERAL COMMUNICATIONS COMMISSION; UNITED STATES OF AMERICA
Prometheus Radio Project and Media Mobilizing Project, Petitioners in 17-1107 News Media Alliance, Petitioner in 17-1108 Multicultural Media, Telecom and Internet Counsel
and National Association of Black Owned
Broadcasters, Inc., Petitioners in 17-1109 The
Scranton Times, L.P., Petitioner in 17-1110
Bonneville International Corporation, Petitioner in 17-1111 All pending Motions to Intervene and the Certified Index to Record will be
filed in the consolidated cases. It is noted
that the parties filed Statements of Intent to
proceed on a deferred appendix. The statements will be docketed as motions in this
court. The parties are hereby directed to
electronically file documents on the Court’s
docket as follows: Petitioners: All case
opening forms, motions, and briefs must be
filed only in the appeal number assigned to the
filer’s petition. If a document is being filed
jointly by multiple Petitioners, the document
must be filed only in the appeal numbers assigned to the filing Petitioners. Respondent:

3
DATE

PROCEEDINGS

All case opening forms must be filed in all appeals in which the appellee intends to participate. All motions should be filed only in
those cases for which the relief is being requested. All responsive briefs should be filed
only in the appeal to which the Respondent is
responding. If Respondent is filing a consolidated response brief, the brief must be filed
in all appeals to which the Respondent is responding. The consolidated joint appendix
must be filed in all appeal numbers. The parties are further advised that failure to file documents in the appropriate [17-1107, 17-1108, 171109, 17-1110, 17-1111] (TYW) [Entered:
01/18/2017 03:13 PM]
1/18/17 CERTIFIED INDEX TO RECORD (D.C.
Circuit granted leave to file on 1/11/17), filed.
(TYW) [Entered: 01/18/2017 10:13 AM]
1/18/17 MOTION filed by Proposed Intervenor Respondent National Association of Broadcasters for Leave to Intervene on behalf of Petitioners. (Filed in D.C. Circuit on 12/2/16)
Clerk’s Office made service on 01/18/2017.
Service made by ECF. [17-1107, 17-1108,
17-1109, 17-1110, 17-1111] (TYW) [Entered:
01/18/2017 03:38 PM]
1/18/17 MOTION filed by Prometheus Radio Project;
Media Mobilizing Project; Office of Communication of the United Church of Christ, Inc.;
National Association of Broadcast Employees
and Technicians-Communications Workers of

4
DATE

PROCEEDINGS

America; National Organization for Women
Foundation; Media Alliance; Media Council
Hawai’i; Benton Foundation; and Common
Cause for leave to intervene on behalf of Respondents (filed in D.C. Circuit on 12/12/16)
Clerk’s Office made service on 1/18/17. Service made by ECF.
[17-1107, 17-1108,
17-1109, 17-1110, 17-1111] (TYW) [Entered:
01/18/2017 03:45 PM]
* * * * *
1/18/17 ORDER (Clerk) granting motions for leave to
intervene pursuant to Fed. R. App. P. 15(d)
are granted except that Prometheus Radio
Project and Media Mobilizing Project shall be
Petitioners only in Case No. 17-1107. The
motion for leave to file a deferred appendix is
also granted. The appendix must be filed and
served within 21 days of the date of service of
Respondent’s brief. On or before the established briefing deadlines, the parties must file
and serve only the electronic version of the
briefs containing references to the record.
The parties must re-file and re-serve the electronic version of the briefs and file all required
paper copies containing references to the appendix within 14 days of the date the appendix
is filed. See Fed. R. App. P. 30(c)(2)(B); 3d
Cir. L.A.R. 31.1(a).
[17-1107, 17-1108,
17-1109, 17-1110, 17-1111] (TYW) [Entered:
01/18/2017 03:54 PM]

5
DATE

PROCEEDINGS

* * * * *
1/26/17 ECF FILER: Motion filed by Cox Media
Group, LLC to proceed as Intervenor in support of Appellant/Petitioner. Certificate of
Service dated 01/26/2017. [17-1107, 17-1108,
17-1109, 17-1110, 17-1111] (DEM) [Entered:
01/26/2017 02:25 PM]
2/1/17

2/7/17

* * * * *
ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Media
Mobilizing Project and Prometheus Radio
Project, filed. (AJC) [Entered: 02/01/2017
01:52 PM]
* * * * *
ORDER (Clerk) granting Motion by Cox Media Group LLC to intervene on behalf of Petitioners Scranton Times, L.P. and Bonneville
International Corp, filed. [17-1107, 17-1108,
17-1109, 17-1110, 17-1111] (TYW) [Entered:
02/07/2017 11:53 AM]

* * * * *
2/15/17 ECF FILER: Motion filed by Respondent
FCC in 17-1107, 17-1108, 17-1109, 17-1110,
17-1111 to Hold Case in Abeyance. Certificate of Service dated 02/15/2017. Service
made by ECF. [17-1107, 17-1108, 17-1109,
17-1110, 17-1111] (JML) [Entered:
02/15/
2017 05:22 PM]

6
DATE

PROCEEDINGS

* * * * *
2/27/17 ECF FILER: Response filed by Intervenor
Respondents Benton Foundation, Common
Cause, Media Alliance, Media Council Hawaii,
National Organization for Women Foundation,
Office of Communication of the United Church
of Christ Inc and Petitioners Media Mobilizing
Project and Prometheus Radio Project in
17-1107, Intervenor Respondents Benton
Foundation, Common Cause, Media Alliance,
Media Council Hawaii, Media Mobilizing Project, National Organization for Women Foundation, Office of Communication of the United
Church of Christ Inc and Prometheus Radio
Project in 17-1108, 17-1109, 17-1110, 17-1111 to
Motion stay request. Certificate of Service
dated 02/27/2017. [17-1107, 17-1108, 17-1109,
17-1110,
17-1111]
(AJC)
[Entered:
02/27/2017 06:07 PM]
3/6/17 ECF FILER: Reply by Respondent FCC in
17-1107, 17-1108, 17-1109, 17-1110, 17-1111 in
support of holding case in abeyance, filed.
Certificate of Service dated 03/06/2017. Service made by ECF [17-1107, 17-1108, 17-1109,
17-1110, 17-1111]—[Edited 03/07/2017 by
TYW] (JMC) [Entered:
03/06/2017 04:51
PM]
6/12/17 ORDER (AMBRO, SCIRICA and FUENTES,
Circuit Judges) Respondent Federal Communications Commission is requested to supplement
its motion to hold in abeyance by identifying

7
DATE

PROCEEDINGS

specific areas of overlap, if any, between the
pending National Association of Broadcasters’
motion for reconsideration and the female/
minority ownership rules on which Petitioners
are focused. Respondent shall file its supplement of not more than ten pages on or before
June 27, 2017. Any response also shall be no
more than ten pages and shall be filed by July
7, 2017. Ambro, Authoring Judge. [17-1107,
17-1108, 17-1109, 17-1110, 17-1111] (TYW)
[Entered: 06/12/2017 03:32 PM]
* * * * *
6/27/17 ECF FILER: SUPPLEMENTAL Motion
filed by Respondent FCC in 17-1107, 17-1108,
17-1109, 17-1110, 17-1111 to supplement the
February 15, 2017 Motion to hold cases in
abeyance.
Certificate of Service dated
06/27/2017. Service made by ECF. [17-1107,
17-1108, 17-1109, 17-1110, 17-1111] (JMC)
[Entered: 06/27/2017 11:09 AM]
7/7/17

* * * * *
ECF FILER: Response filed by Petitioners
Media Mobilizing Project and Prometheus Radio Project to Supplemental Motion. Certificate of Service dated 07/07/2017. [17-1107,
17-1108, 17-1109, 17-1110, 17-1111]—[Edited
07/07/2017 by CJG] (AJC) [Entered: 07/07
/2017 11:53 AM]

8
DATE

PROCEEDINGS

12/1/17 ECF FILER: Letter dated 12/01/2017 , filed
pursuant to Rule 28( j) from counsel for Respondent FCC in 17-1107, 17-1108, 17-1109,
17-1110, 17-1111.
Service made by ECF.
This document will be SENT TO THE MERITS PANEL, if/when applicable. [17-1107,
17-1108, 17-1109, 17-1110, 17-1111] (JMC)
[Entered: 12/01/2017 11:36 AM]
12/11/17 ECF FILER: Response filed by Petitioners
Media Mobilizing Project and Prometheus Radio Project in 17-1107 to Rule 28( j) letter.
Certificate of Service dated 12/11/2017. Service made by ECF. This document will be
SENT TO THE MERITS PANEL, if/when
applicable.
[17-1107, 17-1108, 17-1109,
17-1110,
17-1111]
(AJS)
[Entered:
12/11/2017 04:53 PM]
1/17/18 ECF FILER: Letter dated 01/17/2018, filed
pursuant to Rule 28( j) from counsel for Petitioners Multicultural Media Telecom and Internet Council and National Association of
Black Owned Broadcasters in 17-1109. Service made by ECF. This document will be
SENT TO THE MERITS PANEL, if/when
applicable.
[17-1107, 17-1108, 17-1109,
17-1110, 17-1111] (DL) [Entered: 01/17/2018
12:32 PM]
1/18/18 ECF FILER: Motion filed by Petitioners
Media Mobilizing Project and Prometheus Radio Project in 17-1107 & 18-1092 to consolidate
for all purposes. Certificate of Service dated

9
DATE

PROCEEDINGS

01/18/2018.
Service made by ECF.
[17-1107, 18-1092]—[Edited 01/18/2018 by
MB] (AJS) [Entered: 01/18/2018 12:42 PM]
2/7/18

* * * * *
ORDER (AMBRO, SCIRICA and FUENTES,
Circuit Judges) denying Emergency Petition
for Writ of Mandamus filed by Petitioners
Prometheus Radio Project and Media Mobilizing Project as Petitioners have not satisfied
the exacting standard for obtaining such relief.
See In re: Howmedica Osteonics Corp., 867
F.3d 390, 401 (3d Cir. 2017) (observing that a
writ of mandamus “may issue only if the petitioner shows (1) a clear and indisputable abuse
of discretion or [] error of law, (2) a lack of an
alternative avenue or adequate relief, and (3)
a likelihood of irreparable injury.”) (citation
and internal quotation marks omitted). The
Court notes that the exact design of the FCC’s
new incubator program is subject to public
comment through Apri. 9, 2018. As such, the
petitions for reveiw pending at Nos. 17-1107
and 18-1092 shall be stayed for a perod of 6
months from the date of this Order. The
FCC is hereby directed to file a report on or
before August 6, 2018 regarding the status of
the incubator program, filed.
Panel No.:
ECO-023-E.
Ambro, Authoring Judge.
[17-1107, 18-1092, 18-1167] (MB) [Entered:
02/07/2018 03:21 PM]

10
DATE

8/6/18

9/4/18

9/7/18

PROCEEDINGS

* * * * *
ECF FILER: STATUS REPORT received
from Respondent FCC in 17-1107 & 18-1092.
Certificate of Service dated 08/06/2018. Service made by ECF. [17-1107, 18-1092]—[Edited 08/23/2018 by MB]—[Edited 08/23/ 2018
by MB] (WS) [Entered: 08/06/2018 03:52
PM]
MOTION filed by Petitioners Media Mobilizing Project and Prometheus Radio Project in
18-2943 to consolidate new petition with existing
cases. Certificate of Service dated 08/31/2018.
Service made by US mail. [18-2943, 17-1107,
18-1092]—[Edited 09/05/2018 by MB] (MB)
[Entered: 09/04/2018 04:12 PM]
* * * * *
ORDER (AMBRO, SCIRICA and FUENTES,
Circuit Judges) The foregoing Motions by Petitioner to consolidate cases 17-1107, 18-1092
and 18-2943 are granted. The three cases are
hereby consolidated for all purposes., filed.
AMBRO, Authoring Judge. [17-1107, 18-1092,
18-2943] (DW) [Entered: 09/07/2018 11:24
AM]

* * * * *
10/12/18 TEXT ONLY ORDER (Clerk) [17-1107,
17-1108, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943] The administrative record has been filed and the appeals

11
DATE

PROCEEDINGS

are ready to proceed to briefing. In light of
the Court’s order consolidating the three appeals by Prometheus, all cases will be briefed
together. The parties are hereby ordered to
file a proposed briefing schedule within 14
days of the date of this order. (KAG) [Entered: 10/12/2018 02:24 PM]
10/22/18 CLERK ORDER The petitions for review at
Nos. 17-1109 and 18-3335 are hereby consolidated for all purposes. The petitions remain
consolidated with the petitions at Nos. 17-1107
el al. for all purposes of scheduling, joint appendix, and disposition. The administrative
record filed in case No. 18-2943 will be filed in
No. 18-3335 as the date the petition is docketed in this Court, filed. [17-1109, 17-1107,
17-1108, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (MB) [Entered: 10/22/2018 11:21 AM]
10/26/18 ECF FILER: Response filed by Respondent FCC to Clerk order of 10/12/18 in 17-1107,
17-1108, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335 to
clerk order.
Certificate of Service dated
10/26/2018.
[17-1107, 17-1108, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671,
18-2943,
18-3335]—[Edited
10/29/2018
by
MB]
(WS)
[Entered:
10/26/2018 04:44 PM]
11/20/18 ORDER (Clerk) Petitioner News Media Alliance’s motion to stay Case N0. 17-1108 is

12
DATE

PROCEEDINGS

hereby granted. The case is stayed pending
disposition of Nos. 17-1107, 18-1092, 18-2943,
and all other consolidated cases.
Within
thirty (30) days of the date the mandate issued
in Nos. 17-1107, et al., the parties must advise
the Court, in writing, the effect, if any, the decisions in the related cases have on No.
17-1108. As for the other cases, the following
briefing schedule shall apply: Step 1: Opening briefs of the three (3) groups of Petitioners, not to exceed 10,000 words each, to be filed
and served on or before December 21, 2018.
The three Petitioners’ briefs will be filed by
the following: 1) Common Cause, FreePress,
Media Mobilizing Project, National Association of Broadcast Employees and Technicians
Communications Workers of America, Office
of Communication Inc. of the United Church
of Christ, and Prometheus Radio Project; 2)
Independent Television Group; and 3) Multicultural Media, Telecom and Internet Counsil
and National Association of Black-Owned
Broadcasters.
Step 2:
Consolidated Response brief, not to exceed 30,000 words, by
Respondents Federal Communications Commission and United States of America, to be
filed and served on or before February 14,
2018; and Intervenor-Respondent brief(s), not
to exceed a combined total of 20,000 words, to
be filed and served on or before February 14,
2019. Step 3: Reply brief by the three groups
of Petitioners, not to exceed 5,000 words each,

13
DATE

PROCEEDINGS

to be filed and served on or before March 8,
2019. As a deferred appendix is being filed in
these cases, on or before the established briefing deadlines, the parties must file and serve
on the electronic version of the briefs containing the references to the record. The joint
appendix must be filed on or before March 22,
2019. The parties must also re-file and reserve the electronic version of the briefs and
file all required papers copies containing refereces to the appendix, on or before March 29,
2019, filed. [17-1107, 17-1108, 17-1109, 18-3335,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943] (MB) [Entered: 11/20/2018
04:29 PM]
* * * * *
ELECTRONIC PROOF
12/21/18 ECF FILER:
BRIEF with Addendum attached on behalf of
Petitioners Media Mobilizing Project and Prometheus Radio Project in 17-1107, 18-1092,
Petitioners Common Cause, Free Press, National Association of Broadcast Employees
and Technicians Communications Workers
of America and Office of Communication Inc
of the United Church of Christ in 18-1671,
18-2943, filed. Certificate of Service dated
12/21/2018 by ECF. [17-1107, 18-1092, 18-1671,
18-2943]—[Edited 12/21/2018 by KAG]—
[Edited 01/07/2019 by EAF—Text edited
tomspecify Addendum attached] (CAL) [Entered: 12/21/2018 04:32 PM]

14
DATE

PROCEEDINGS

* * * * *
ELECTRONIC PROOF
3/22/19 ECF FILER:
BRIEF with Addendum attached on behalf of
Respondent FCC in 17-1107, 17-1109, 17-1110,
17-1111, 18-1092, Respondents FCC and USA
in 18-1669, 18-1670, 18-1671,18-2943, 18-3335,
filed. Certificate of Service dated 03/22/2019
by ECF. [17-1107, 17-1108, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943, 18-3335] (Edited 4/23/19 by MB removing from 17-1108 per text order dated
4/23/19)—[Edited 04/23/2019 by MB] (WS)
[Entered: 03/22/2019 02:26 PM]
ELECTRONIC JOINT
3/22/19 ECF FILER:
PROOF BRIEF on behalf of all Intervenors—
Intervenor Respondent National Association
of Broadcasters in 18-2943, Intervenor petitioner National Association of Broadcasters in
17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-3335, filed. Certificate of Service dated
03/22/2019 by ECF. [18-2943, 17-1107, 17-1108,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-3335]—[Enry edited by
the Clerk to reflect the correct event]—
[Edited 03/25/2019 by MS] (Edited 4/23/19 by
MB from 17-1108 per text order dated
4/23/19)—[Edited 04/23/2019 by MB] (HCW)
[Entered: 03/22/2019 03:31 PM]
*

*

*

*

*

15
DATE

PROCEEDINGS

4/12/19 ECF FILER: Joint Motion to File Supplemental Appendices in support of Reply Briefs
of Petitioners. Certificate of Service dated
04/12/2019. Service made by 3rd party.—
[Edited 04/18/2019 by EAF—Text edited and
spread to 17-1107, 17-1110, 17-1111, 18-1669,
18-1671, 18-2943]—[Edited 04/19/2019 by
EAF]—[Edited 04/23/2019 by MB] (Edited
4/23/19 by MB removing from 17-1108 per text
order of 4/23/19)—[Edited 04/23/2019 by MB]
—[Edited 05/08/2019 by EAF—Attachment
removed as it is a duplicate filing] (DL) [Entered: 04/12/2019 12:13 PM]
4/12/19 ECF FILER: JOINT Motion filed by ALL
Petitioners to File Supplemental Appendices
of Reply Briefs. Certificate of Service dated
04/12/2019. Service made by ECF.—[Edited
04/19/2019 by EAF—Event and text edited]
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1671, 18-2943] (Edited 4/23/19 by MB removing from 17-1108 per text order dated
4/23/19)—[Edited 04/23/2019 by MB]—
[Edited 05/08/2019 by EAF—Text edited and
entry spread to 18-1669, 18-1670, 18-3335]
(CAL) [Entered: 04/12/2019 12:53 PM]
4/12/19 ECF FILER: ELECTRONIC JOINT SUPPLEMENTAL APPENDIX on behalf of Petitioners Media Mobilizing Project and Prometheus Radio Project in 17-1107, 18-1092, Petitioners Common Cause, National Association

16
DATE

PROCEEDINGS

of Broadcast Employees and Technicians Communications Workers of America and Office of
Communication Inc of the United Church of
Christ in 18-1671, 18-2943, filed. Certificate
of service dated 04/12/2019 by ECF.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1671, 18-2943] (Edited 4/23/19 by MB removing from 17-1108 per text order dated
4/23/19)—[Edited 04/23/2019 by MB] (CAL)
[Entered: 04/12/2019 12:59 PM]
4/12/19 ECF FILER: ELECTRONIC PROOF REPLY BRIEF on behalf of Petitioners Media
Mobilizing Project and Prometheus Radio
Project in 17-1107, 18-1092, Petitioners Common Cause and National Association of Broadcast Employees and Technicians Communications Workers of America in 18-1671, 18-2943,
filed. Certificate of Service dated 04/12/2019
by ECF. [17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1671, 18-2943] (Edited 4/23/19 by
MB removing from 17-1108 per text order of
4/23/19)—[Edited 04/23/2019 by MB] (CAL)
[Entered: 04/12/2019 01:01 PM]
* * * * *
4/22/19 ECF FILER: Response filed by Intervenors
News Media Alliance, Fox Corporation, National Association of Broadcasters, News Corporation, Sinclair Broadcase Group Inc., Bonneville International Corporation, The Scranton
Times L.P., and Connoisseur Media LLC in
opposition to Petitioners’ Joint Motion to File

17
DATE

PROCEEDINGS

Supplemental Appendices.
Certificate of
Service dated 04/22/2019. [18-1092, 17-1107,
17-1109, 17-1110, 17-1111, 18-1670, 18-1671,
18-2943,
18-3335]
(KFK)
[Entered:
04/22/2019 06:09 PM]
* * * * *
Letter Motion Requesting
4/26/19 ECF FILER:
Joint Appendices in Prior Cases (08-3078 and
15-3863) be Made Available Electronically in
Current 10 Cases filed by Intervenor Respondent Common Cause and Petitioners Media Mobilizing Project and Prometheus Radio
Project in 17-1107, Intervenor Respondent
Common Cause in 17-1109, 17-1110, 17-1111,
Petitioners Media Mobilizing Project and Prometheus Radio Project in 18-1092, Petitioners
Free Press, Office of Communication Inc of
the United Church of Christ and National Association of Broadcast Employees and Technicians Communications Workers of America in
18-1671, 18-2943.
Certificate of Service
dated 04/26/2019. Service made by ECF.—
[Edited 05/08/2019 by EAF—text edited and
relief added] [17-1107, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943, 18-3335] (CAL) [Entered: 04/26/2019
06:36 PM]
4/26/19 ECF FILER: ELECTRONIC JOINT APPENDIX on behalf of Petitioners Media Mobilizing Project and Prometheus Radio Project
in 17-1107, 18-1092, Petitioners Common Cause,

18
DATE

PROCEEDINGS

National Association of Broadcast Employees
and Technicians Communications Workers of
America and Office of Communication Inc
of the United Church of Christ in 18-1671,
18-2943, filed. Certificate of service dated
04/26/2019 by ECF.
[17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1671,
18-1670, 18-2943, 18-3335] (CAL) [Entered:
04/26/2019 06:48 PM]
4/29/19 ECF FILER: Reply by Petitioners Multicultural Media Telecom and Internet Council
and National Association of Black Owned
Broadcasters in 18-3335, 17-1109, Intervenor
petitioners Multicultural Media Telecom and
Internet Council and National Association of
Black Owned Broadcasters in 18-1092, 18-1670
to Response to Motion to File Supplemental
Appendices, filed.
Certificate of Service
dated 04/29/2019.
Service made by ECF
[18-3335, 17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943]
(DL) [Entered: 04/29/2019 02:25 PM]
4/29/19 ECF FILER: Joint Reply by Petitioners
Media Mobilizing Project and Prometheus Radio Project in 17-1107, 18-1092, 18-2943, Petitioners Common Cause, National Association
of Broadcast Employees and Technicians Communications Workers of America and Office of
Communication Inc of the United Church of
Christ in 18-1671 to Response to Motion to

19
DATE

5/3/19

5/3/19

PROCEEDINGS

File Supplemental Appendices, filed. Certificate of Service dated 04/29/2019. Service
made by ECF [17-1107, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-3335,
18-2943,
18-1671]
(CAL)
[Entered:
04/29/2019 05:32 PM]
ECF FILER: ELECTRONIC BRIEF on
behalf of Petitioners Multicultural Media Telecom and Internet Council and National Association of Black Owned Broadcasters in
18-3335, 17-1109, Intervenor petitioners Multicultural Media Telecom and Internet Council
and National Association of Black Owned
Broadcasters in 18-1092, 18-1670, filed. Certificate of Service dated 05/03/2019 by ECF.
[18-3335, 17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943]
(DL) [Entered: 05/03/2019 11:22 AM]
ECF FILER:
ELECTRONIC REPLY
BRIEF on behalf of Petitioners Multicultural
Media Telecom and Internet Council and National Association of Black Owned Broadcasters in 18-3335, 17-1109, Intervenor petitioners
Multicultural Media Telecom and Internet
Council and National Association of Black
Owned Broadcasters in 18-1092, 18-1670, filed.
Certificate of Service dated 05/03/2019 by
ECF. [18-3335, 17-1107, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943] (DL) [Entered:
05/03/2019 11:24
AM]

20
DATE

5/3/19

5/3/19

5/3/19

PROCEEDINGS

ECF FILER: ELECTRONIC BRIEF on
behalf of Intervenor Respondent National Association of Broadcasters in 18-3335, Intervenor petitioner National Association of Broadcasters in 17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-2943, filed. Certificate of Service
dated 05/03/2019 by ECF. [18-3335, 17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943] (HCW) [Entered:
05/03/2019 11:57 AM]
ECF FILER: ELECTRONIC BRIEF with
Addendum attached on behalf of Respondent
FCC in 17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943,
18-3335, filed. Certificate of Service dated
05/03/2019 by ECF.
[17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (WS) [Entered:
05/03/2019 02:22 PM]
ECF FILER: ELECTRONIC BRIEF on
behalf of Petitioners Media Mobilizing Project
and Prometheus Radio Project in 17-1107,
18-1092, 18-2943, Petitioners Common Cause,
National Association of Broadcast Employees
and Technicians Communications Workers of
America and Office of Communication Inc of
the United Church of Christ in 18-1671, filed.
Certificate of Service dated 05/03/2019 by
ECF. [17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-2943, 18-1671,

21
DATE

5/3/19

5/3/19

5/3/19

PROCEEDINGS

18-3335] (CAL) [Entered: 05/03/2019 03:42
PM]
ECF FILER:
ELECTRONIC REPLY
BRIEF on behalf of Petitioners Media Mobilizing Project and Prometheus Radio Project
in 17-1107, 18-1092, Petitioners Common
Cause, National Association of Broadcast Employees and Technicians Communications
Workers of America and Office of Communication Inc of the United Church of Christ in
18-1671, 18-2943, filed. Certificate of Service
dated 05/03/2019 by ECF. [17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (CAL) [Entered:
05/03/2019 03:44 PM]
* * * * *
ECF FILER:
FINAL ELECTRONIC
BRIEF with Addendum attached on behalf of
Petitioner Independent Television Group,
filed. Certificate of Service dated 05/03/2019
by ECF.
[18-1669, 17-1111, 17-1110,
18-1092, 18-1670, 17-1107, 18-2943, 18-3335,
18-1671, 17-1109]—[Edited 05/09/2019 by
MCW] (JNG) [Entered:
05/03/2019 08:36
AM]
ECF FILER: FINAL ELECTRONIC REPLY BRIEF on behalf of Petitioner Independent Television Group, filed. Certificate
of Service dated 05/03/2019 by ECF.
[18-1669,
17-1111,
17-1110,
18-1092,
18-1670, 17-1107, 18-2943, 18-3335, 18-1671,

22
DATE

PROCEEDINGS

17-1109]—[Edited 05/09/2019 by MCW] (JNG)
[Entered: 05/03/2019 08:38 AM]
* * * * *
5/13/19 ECF FILER: JOINT Motion filed by Petitioners Prometheus Radio Project and Media
Mobilizing Project in 17-1107, 18-1092, 18-2943,
Petitioners Common Cause, National Association of Broadcast Employees and Technicians
Communications Workers of America and Office of Communication Inc of the United
Church of Christ in 18-1671 to restyle Motion
to File Supplemental Appendices as a Motion
for Leave to file Addenda in Support of Reply
Briefs of Petitioners. Certificate of Service
dated 05/13/2019. Service made by ECF.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1670,
18-1669, 18-1092, 18-2943, 18-1671, 18-3335]—
[Edited 05/13/2019 by MS] (CAL) [Entered:
05/13/2019 12:09 PM]
* * * * *
5/21/19 CLERK’S LETTER to counsel written at the
direction of the Court. (Please See attached
letter for further information.)
[17-1107,
17-1108, 17-1109, 17-1110, 17-1111, 18-1092,
18-2943] (TLG) [Entered: 05/21/2019 11:13
AM]
* * * * *
5/22/19 ECF FILER: DIVISION OF TIME FORM
filed by Attorney Cheryl A. Leanza, Esq. for

23
DATE

PROCEEDINGS

Petitioners Media Mobilizing Project and Prometheus Radio Project in 17-1107, Attorney
Cheryl A. Leanza, Esq. for Petitioners Prometheus Radio Project and Media Mobilizing
Project in 18-1092, Attorney Cheryl A.
Leanza, Esq. for Petitioners Office of Communication Inc of the United Church of Christ,
National Association of Broadcast Employees
and Technicians Communications Workers
of America and Common Cause in 18-1671,
18-2943. Certificate of Service dated
05/22/2019. Service made by ECF. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (CAL)
[Entered: 05/22/2019 03:57 PM]
5/22/19 ECF FILER: SUMMARY OF ORAL ARGUMENT submitted by Attorney Cheryl A.
Leanza, Esq. for Petitioners Media Mobilizing
Project and Prometheus Radio Project in
17-1107, Attorney Cheryl A. Leanza, Esq. for
Petitioners Prometheus Radio Project and
Media Mobilizing Project in 18-1092, Attorney
Cheryl A. Leanza, Esq. for Petitioners Office
of Communication Inc of the United Church of
Christ, National Association of Broadcast
Employees and Technicians Communications
Workers of America and Common Cause in
18-1671, 18-2943. Case Summary: The Federal Communications Commission violated the
law and this Court’s previous remands because
it did not address the impact on ownership diversity of its decisions that relaxed broadcast

24
DATE

PROCEEDINGS

media ownership rules and created a radio incubator program..
Post Video:
YES.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-3335, 18-2943]
(CAL) [Entered: 05/22/2019 07:03 PM]
5/23/19 ECF FILER: SUMMARY OF ORAL ARGUMENT submitted by Attorney Dennis
Lane, Esq. for Petitioners Multicultural Media Telecom and Internet Council and National Association of Black Owned Broadcasters in 17-1109, Attorney Dennis Lane, Esq. for
Intervenor petitioners Multicultural Media
Telecom and Internet Council and National
Association of Black Owned Broadcasters in
18-1092, 18-1670, 18-3335. Case Summary:
The FCC failed to give notice of and a reasoned explanation for the comparable market
waiver in the radio incubator program, and unreasonably delayed deciding whether the cable
procurement rules can apply to the broadcasting industry.. Post Video: YES. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-3335, 18-2943] (DL) [Entered: 05/23/2019 01:24 PM]
5/28/19 ECF FILER: SUMMARY OF ORAL ARGUMENT submitted by Attorney William
Scher, Esq. for Respondent FCC in 17-1107,
17-1109, 17-1110, 17-1111, 18-1092, Attorney
William Scher, Esq. for Respondents FCC and
USA in 18-1669, 18-1670, 18-1671, 18-2943,
18-3335.
Case Summary:
Whether the

25
DATE

PROCEEDINGS

FCC easonably (1) updated its media ownership rules, (2) established an incubator program to promote ownership diversity, and (3)
retained its top-four prohibition?.
Post
Video: YES. [17-1107, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943, 18-3335] (WS) [Entered: 05/28/2019
02:25 PM]
5/28/19 ECF FILER: DIVISION OF TIME FORM
filed by Attorney William Scher, Esq. for Respondent FCC in 17-1107, 17-1109, 17-1110,
17-1111, 18-1092, Attorney William Scher,
Esq. for Respondents FCC and USA in
18-1669, 18-1670, 18-1671, 18-2943, 18-3335.
Certificate of Service dated 05/28/2019. Service made by ECF.
[17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (WS) [Entered:
05/28/2019 02:30 PM]
5/28/19 ECF FILER: SUMMARY OF ORAL ARGUMENT submitted by Attorney Mr. Jack N.
Goodman, Esq. for Petitioner Independent
Television Group in 18-1669. Case Summary:
Validity of FCC’s retention of a blanket ban on
common ownership of top-4 television stations.
Post Video:
YES.
[17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (JNG) [Entered:
05/28/2019 02:46 PM]
*

*

*

*

*

26
DATE

PROCEEDINGS

MINUTES
OF
ARGUED/
6/11/19 COURT
SUBMITTED CASES.
[17-1107, 17-1109,
18-3335, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943] (TLG) [Entered:
06/11/2019 01:19 PM]
6/11/19 ARGUED on Tuesday, June 11, 2019. Panel:
AMBRO, SCIRICA and FUENTES, Circuit
Judges. Matthew J. Dunne arguing for Respondent United States of America and Federal Communications Commission; Jack N.
Goodman arguing for Petitioner Independent
Television Group; Dennis Lane arguing for
Petitioner Multicultural Media Telecom and
Internet Council and Intervenor petitioner
Multicultural Media Telecom and Internet
Council; Cheryl A. Leanza arguing for Petitioners Media Mobilizing Project, Common
Cause and National Association of Broadcast
Employees and Technicians Communications
Workers of America; Jacob M. Lewis arguing
for Respondent United States of America; Jacob M. Lewis arguing for Respondent United
States of America; Arguing Person Information Updated for: Jacob M. Lewis arguing
for Respondents United States of America and
Federal Communications Commission; Helgi
C. Walker arguing for Intervenor Respondent
National
Association
of
Broadcasters.
[17-1107, 17-1109, 18-3335, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943]
(TLG) [Entered: 06/11/2019 01:42 PM]

27
DATE

PROCEEDINGS

* * * * *
6/25/19 ECF FILER: Transcript of oral argument
on 06/11/2019 prepared at the direction of the
Court. [17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943,
18-3335] (CAL) [Entered: 06/25/2019 02:36
PM]
9/23/19 PRECEDENTIAL OPINION Coram: AMBRO, SCIRICA and FUENTES, Circuit
Judges. Total Pages: 59. Judge: AMBRO Authoring, Judge: SCIRICA concurring in part and dissenting in part. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335]—[Edited
09/23/2019 by MB] (NDA regenerated to include No. 18-3335)—[Edited 09/23/2019 by
MB] (NDA regenerated with correct document attached)—[Edited 09/23/2019 by MB]
(MB) [Entered: 09/23/2019 10:01 AM]
9/23/19 JUDGMENT, ORDERED and ADJUDGED
by this Court that the 2016 Report & Order
and the Reconsideration Order are vacated
and remanded in their entirety, and the Incubator Order is vacated and remanded as to its
definition of eligible entities, the panel retains
jurisdiction over the remanded issues and all
other petitions for review and request for relief are denied. The parties to bear their own
costst. [17-1107, 17-1109, 18-3335, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,

28
DATE

9/23/19

9/23/19

9/25/19

9/27/19

PROCEEDINGS

18-2943] (MB) [Entered: 09/23/2019 10:11
AM]
ECF FILER: Motion filed by Petitioners
Media Mobilizing Project and Prometheus Radio Project in 17-1107, 18-1092, Petitioners
Common Cause, National Association of Broadcast Employees and Technicians Communications Workers of America and Office of Communication Inc of the United Church of Christ
in 18-1671, 18-2943 to correct judgment dated
09/23/2019.
Certificate of Service dated
09/23/ 2019.
Service made by ECF.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335]
(CAL) [Entered: 09/23/2019 09:55 PM]
Archived PDF of website(s) cited in opinion.
[17-1107, 17-1108, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943,
18-3335] (SB) [Entered:
10/09/2019 09:40
AM]
ECF FILER: Motion filed by Intervenor
Respondent Benton Foundation in 17-1107,
17-1108, 17-1109, 17-1110, 17-1111 to substitute Benton Institute for Broadband & Society, Intervenor. Certificate of Service dated
09/25/2019. Service made by ECF. [171107, 17-1108, 17-1109, 17-1110, 17-1111, 181092, 18-1669, 18-1670, 18-1671, 18-2943, 183335] (AJS) [Entered: 09/25/2019 05:10 PM]
ORDER (AMBRO, SCIRICA and FUENTES, Circuit Judges) filed. The motion for

29
DATE

PROCEEDINGS

leave to restyle the motion to file supplemental
appendices as a motion for leave to file addenda in support of the reply briefs of Petitioners is granted. The motion to file the addenda is hereby granted with filing of the addenda as of April 12, 2019. The letter motion
requesting that the joint appendices in prior
cases, Nos. 08-3078 and 15-3863, be made
available electronically in the current 10 cases
is granted in part. To the extent the Court
needed to review any materials from the appendices filed in Nos. 08-3078 and 15-3863 that
were cited in the parties’ briefs for these 10
cases, the electronic version of the meterials
was reviewed.
The appendices for Nos.
08-3078 and 15-3863 will not be re-docketed in
the above 10 cases. Thomas L. Ambro, Authoring Judge. [17-1107, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943, 18-3335] (MS) [Entered: 09/27/2019
10:50 AM]
9/27/19 ORDER (AMBRO, SCIRICA and FUENTES, Circuit Judges) granting motion to
amend judgment.
An amended judgment
will be filed contemporaneously with this order. Ambro, Authoring Judge. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (MB) [Entered: 09/27/2019 11:47 AM]

30
DATE

PROCEEDINGS

9/27/19 AMENDED JUDGMENT, ORDERED and
ADJUDGED by this Court that the Reconsideration Order and the Incubator Order are vacated and remanded in their entirety, and the
2016 Report and order is vacated and remanded as to its definition of eligible entities,
the panel retains jurisdiction over the remanded issues and all other petitions for review and requests for relief are denied. The
parties to bear their own costs. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (MB) [Entered: 09/27/2019 11:55 AM]
* * * * *
10/8/19 ORDER (Clerk) granting motion to substitute
party filed by Intervenor Benton Foundation
in Nos. 17-1107, 17-1108, 17-1109, 17-1110 &
17-1111. Benton Institute for Broadband &
Society shall be substituted for the Benton
Foundation. The dockets will be amended to
reflect the substitution. [17-1107, 17-1108,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (MB) [Entered: 10/08/2019 09:16 AM]
11/7/19 ECF FILER: Petition filed by Respondent
FCC in 17-1107, 17-1109, 17-1110, 17-1111,
18-1092, Respondents FCC and USA in
18-1669, 18-1670, 18-1671, 18-2943, 18-3335
for Rehearing before original panel and the
court en banc. Certificate of Service dated
11/07/2019.
Service made by ECF.

31
DATE

PROCEEDINGS

[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335]-[Edited 11/07/2019 by MB] (WS) [Entered:
11/07/2019 10:18 AM]
11/7/19 ECF FILER: Petition filed by Intervenor
Respondent National Association of Broadcasters in 18-1092, Intervenor petitioner National Association of Broadcasters in 17-1107,
17-1109, 17-1110, 17-1111, 18-2943, 18-3335 for
Rehearing before original panel and the court
en banc.
Certificate of Service dated
11/07/2019.
Service made by ECF.
[18-1092, 17-1107, 17-1109, 17-1110, 17-1111,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335]—
[Edited 11/20/2019 by ARR to remove from
No. 17-1108.] (HCW) [Entered: 11/07/2019
01:46 PM]
11/20/19 ORDER (SMITH, Chief Judge, MCKEE, AMBRO, CHAGARES, JORDAN, SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS, SCIRICA* and FUENTES*, Circuit Judges) denying the petitions
for rehearing filed by Respondents and Intervenors in support of Respondents. *(Senior
Judges Scirica and Fuentes are limited to
panel rehearing only).
Ambro, Authoring
Judge. [17-1107, 17-1109, 17-1110, 17-1111,
18-1092, 18-1669, 18-1670, 18-1671, 18-2943,
18-3335] (ARR) [Entered: 11/20/2019 05:35
PM]

32
DATE

PROCEEDINGS

11/29/19 MANDATE ISSUED. [17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (DW) [Entered:
11/29/2019 08:09 AM]
* * * * *
4/21/20 NOTICE from U.S. Supreme Court. Petition for Writ of Certiorari filed by Federal
Communications Commission on 04/17/2020
and placed on the docket 04/20/2020 as Supreme Court Case No. 19-1231. [17-1107,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943, 18-3335]—[Edited
05/12/2020 by AWI] (CND) [Entered:
04/21/2020 02:52 PM]
4/23/20 NOTICE from U.S. Supreme Court. Petition for Writ of Certiorari filed by National
Association of Broadcasters on 04/17/2020 and
placed on the docket 04/22/2020 as Supreme
Court Case No. 19-1241. [17-1107, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (CND) [Entered:
04/23/2020 02:58 PM]
6/4/20 ECF FILER: UNOPPOSED Motion filed
by Petitioner Media Mobilizing Project in
17-1107, 18-1092, 18-2943 to substitute Media
Mobilizing Project, Petitioner. Certificate of
Service dated 06/04/2020. Service made by
ECF. [17-1107, 17-1108, 17-1109, 17-1110,
17-1111, 18-1092, 18-1669, 18-1670, 18-1671,

33
DATE

PROCEEDINGS

18-2943,
18-3335]
(CAL)
[Entered:
06/04/2020 01:21 PM]
6/23/20 ORDER (Clerk) granting motion by Petitioner Media Mobilizing Project to substitute
party. Movement Alliance Project shall be
substituted for Media Mobilizing Project.
The dockets will be amended to reflect the
substitution.
[17-1107, 17-1108, 17-1109,
17-1110, 17-1111, 18-1092, 18-1669, 18-1670,
18-1671, 18-2943, 18-3335] (MB) [Entered:
06/23/2020 10:49 AM]
* * * * *
10/2/20 NOTICE of U.S. Supreme Court disposition at
No. 19-1231. Petition for Writ of Ceriorari
filed by Federal Communications Commission
granted on 10/02/2020. The petition for a
writ of certiorari in No. 19-1241 is granted.
The cases are consolidated, and a total of one
hour is alloted for oral argument. VIDEO.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335]
(AWI) [Entered: 10/03/2020 07:17 AM]
10/2/20 NOTICE of U.S. Supreme Court disposition at
No. 19-1241. Petition for Writ of Ceriorari
filed by Federal Communications Commission
granted on 10/02/2020. The petition for a
writ of certiorari in No. 19-1231 is granted.
The cases are consolidated, and a total of one
hour is alloted for oral argument. VIDEO.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,

34
DATE

PROCEEDINGS

18-1669, 18-1670, 18-1671, 18-2943, 18-3335]
(AWI) [Entered: 10/03/2020 07:21 AM]
11/3/20 MOTION filed by Intervenor National Hispanic Media Coalition (NHMC) to correct
docket entry. Response due on 11/13/2020.
Certificate of Service dated 11/03/2020. Service made by ECF.
[17-1107, 17-1109,
17-1110,
17-1111,
18-1092,
18-1669,
18-1670, 18-1671, 18-2943, 18-3335] (MB) [Entered: 11/03/2020 09:22AM]
11/3/20 ORDER (Clerk) granting motion to correct
docket entry by National Hispanic Media Coalition. The Clerk’s order of January 18,
2017 is amended to reflect that National Hispanic Media Coalition was a party to the motion to intervene that was transferred to this
Court and was granted Intervenor status.
[17-1107, 17-1109, 17-1110, 17-1111, 18-1092,
18-1669, 18-1670, 18-1671, 18-2943, 18-3335]
(MB) [Entered: 11/03/2020 10:42 AM]

35
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 17-1109
MULTICULTURAL MEDIA TELECOM AND INTERNET
COUNCIL AND NATIONAL ASSOCIATION OF BLACK
OWNED BROADCASTERS, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
1/18/17 AGENCY CASE DOCKETED.
filed by Multicultural Media Telecom and Internet Council and National Association of
Black Owned Broadcasters transferred from
D.C. Circuit pursuant to order entered
1/11/17.
Certificate of Service dated
01/18/2017. Service made by ECF. (TYW)
[Entered: 01/18/2017 12:28 PM]
2/3/17

* * * * *
ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Multicultural Media Telecom and Internet Council
and National Association of Black Owned
Broadcasters. (DL) [Entered: 02/03/2017
08:26 AM]
* * * * *

36
DATE

PROCEEDINGS

ELECTRONIC PROOF
12/21/18 ECF FILER:
BRIEF on behalf of Petitioners Multicultural
Media Telecom and Internet Council and National Association of Black Owned Broadcasters in 18-3335, 17-1109, 18-1670 and Intervenor petitioners Multicultural Media Telecom
and Internet Council and National Association
of Black Owned Broadcasters in 18-1092, filed.
Certificate of Service dated 12/21/2018 by
ECF.—[Edited 01/04/2019 by EAF—Text edited and removed from 17-1107, 17-1108,
17-1110, 17-1111, 18-1669, 18-1671, 18-2943]
(DL) [Entered: 12/21/2018 10:59 AM]
* * * * *
4/12/18 ECF FILER: ELECTRONIC PROOF REPLY BRIEF on behalf of Petitioners Multicultural Media Telecom and Internet Council and
National Association of Black Owned Broadcasters in 18-3335, 17-1109, 18-1670 and Intervenor Petitioner Multicultural Media Telecom
and Internet Council and National Association
of Black Owned Broadcasters in 18-1092, filed.
Certificate of Service dated 04/12/2019 by
ECF.—[Edited 04/19/2019 by EAF—Text edited and removed from 17-1107, 17-1108,
17-1110, 17-1111, 18-1669, 18-1671, 18-2943]
(DL) [Entered: 04/12/2019 12:24 PM]
ELECTRONIC SUPPL
4/12/18 ECF FILER:
MENTAL APPENDIX on behalf of Petitioners Multicultural Media Telecom and Internet
Council and National Association of Black

37
DATE

PROCEEDINGS

Owned
Broadcasters
in
18-3335,
17-1109, 18-1670 and Intervenor Petitioners
Multicultural Media Telecom and Internet
Council and National Association of Black
Owned Broadcasters in 18-1092, filed. Certificate of service dated 04/12/2019 by ECF.—
[Edited 04/18/2019 by EAF—Event and text
edited]—[Edited 04/19/2019 by EAF—Text
edited and removed from 17-1107, 17-1108,
17-1109, 17-1110, 17-1111, 18-1092, 18-1669,
18-1670, 18-1671, 18-2943] (DL) [Entered:
04/12/2019 12:27 PM]
* * * * *

38
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 17-1110
SCRANTON TIMES LP, PETITIONER
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
1/18/17 AGENCY CASE DOCKETED.
filed by Scranton Times LP transferred from
D.C. Circuit pursuant to order entered 1/11/17.
Certificate of Service dated 01/18/2017. Service made by ECF.
(TYW) [Entered:
01/18/2017 02:34 PM]
* * * * *
1/31/17 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioner Scranton Times LP, filed.
(KES) [Entered:
01/31/2017 12:46 PM]
*

*

*

*

*

39
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 17-1111
BONNEVILLE INTERNATIONAL CORP., PETITIONER
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
1/18/17 AGENCY CASE DOCKETED.
filed by Bonneville International Corp transferred from D.C. Circuit pursuant to order entered 1/11/17. Certificate of Service dated
01/18/2017. Service made by ECF. (TYW)
[Entered: 01/18/2017 02:54 PM]
* * * * *
1/31/17 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioner Bonneville International Corp, filed. (KES) [Entered: 01/31/2017 12:32 PM]
*

*

*

*

*

40
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-1092
PROMETHEUS RADIO PROJECT AND MOVEMENT
ALLIANCE PROJECT, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
1/16/18 AGENCY CASE DOCKETED.
filed by Media Mobilizing Project and Prometheus Radio Project. Certificate of Service
dated 01/16/2018. Service made by US mail.
USCA Receipt No. 3CA003721. Receipt date
01/17/2018.
(MB) [Entered:
01/17/2018
03:22 PM]
* * * * *
1/25/18 ECF FILER: Motion filed by National Association of Broadcasters to proceed as Intervenor in support of Appellee/Respondent.
Certificate of Service dated 01/25/2018.
[18-1092,
18-1167]
(HCW)
[Entered:
01/25/2018 09:34 PM]
* * * * *
1/26/18 ECF FILER: Motion filed by News Media
Alliance to proceed as Intervenor in support of

41
DATE

PROCEEDINGS

Appellee/Respondent. Certificate of Service
dated 01/26/2018. [18-1167, 18-1092] (RAL)
[Entered: 01/26/2018 05:45 PM]
Motion filed by Sinclair
1/26/18 ECF FILER:
Broadcast Group, Inc. to proceed as Intervenor in support of Appellee/Respondent. Certificate of Service dated 01/26/2018.
[181092, 18-1167] (JTD) [Entered: 01/26/2018
06:27 PM]
* * * * *
1/29/18 ECF FILER: Corrected Motion filed by
Proposed Intervenor Respondent National
Association of Broadcasters in 18-1167 &
18-1092 to proceed as Intervenor in support of
Appellee/Respondent with word count certification. Certificate of Service dated 01/29/
2018. [18-1167, 18-1092]—[Edited 01/29/2018
by MB] (HCW) [Entered: 01/29/2018 02:44
PM]
1/29/18 ECF FILER: Motion filed by Twenty-First
Century Fox, Inc. to proceed as Intervenor in
support of Appellee/Respondent. Certificate
of Service dated 01/29/2018. [18-1167, 18-1092]
(AS) [Entered: 01/29/2018 04:19 PM]
* * * * *
1/30/18 ECF FILER: Motion filed by Bonneville International Corporation to proceed as Intervenor in support of Appellee/Respondent. Certificate of Service dated 01/30/2018.
[18-

42
DATE

PROCEEDINGS

1092, 18-1167] (KES) [Entered:
03:03 PM]

01/30/2018

* * * * *
Motion filed by Nexstar
1/30/18 ECF FILER:
Broadcasting, Inc. to proceed as Intervenor in
support of Appellee/Respondent. Certificate
of Service dated 01/30/2018. [18-1092, 181167] (ER) [Entered: 01/30/2018 04:54 PM]
* * * * *
1/30/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Media
Mobilizing Project and Prometheus Radio
Project, filed.
[18-1092] (JTG) [Entered:
01/30/2018 05:52 PM]
1/30/18 ECF FILER: Motion filed by Connoisseur
Media, LLC to proceed as Intervenor in support of Appellee/Respondent. Certificate of
Service dated 01/30/2018. [18-1092, 18-1167]
(DHS) [Entered: 01/30/2018 05:57 PM]
* * * * *
1/30/18 ECF FILER: Motion filed by News Corporation to proceed as Intervenor in support of
Appellee/Respondent. Certificate of Service
dated 01/30/2018. [18-1092, 18-1167] (SJT)
[Entered: 01/30/2018 06:05 PM]
2/7/18

* * * * *
ECF FILER: Motion filed by Multicultural
Media, Telecom and Internet Council, Inc. and

43
DATE

PROCEEDINGS

National Association of Black-Owned Broadcasters to proceed as Intervenor in support of
Appellant/Petitioner. Certificate of Service
dated 02/07/2018. [18-1092] (DL) [Entered:
02/07/2018 01:36 PM]
* * * * *
2/12/18 ORDER (Clerk) granting Motions to proceed
as amicus/intervenor filed by National Association of Broadcasters, News Media Alliance,
Sinclair Broadcast Group, Inc., Twenty-First
Century Fox, Inc. Bonneville International
Corporation, Nexstar Broadcasting, Inc., Connoisseur Media, LLC, News Corporation, Muticultural Media, Telecom and Internet Council and National Association of Black-Owned
Broadcasters. Intervenors are directed to
consult with another and the supported parties
regarding the contents of their briefs as the
Court disfavors repetitive briefs. Intervenors may file a consolidated brief or join in or
adopt portions of other briefs by reference.
See Fed. R. App. P. 28(i), filed. (MB) [Entered: 02/12/2018 02:24 PM]
4/5/18

* * * * *
CLERK ORDER The above-captioned petitions for revew are hereby consolidated for
purposes of Respondents’ brief, joint appendix, scheduling and disposition. Petitioners
are encouraged to consult with one another regarding the contents of their briefs as the

44
DATE

PROCEEDINGS

Court disfavors repetitive briefs. The parties may file a consolidated brief or join in or
adopt portions by reference. See Fed. R.
App. P. 28( j).
The stay imposed by the
Court’s Order of February 7, 2018 in case No.
18-1092 shall apply to the transferred petitions
docketed at Nos. 18-1669, 18-1670, and
18-1671. As the agency proceedings remain
ongoing, Respondent must file the administrative record (or the certified index) within
thirty (30) days of the date the stay is lifted.
The parties are hereby directed to electronically file documents on the Court’s docket as
follows:
Petitioners:
All case opening
forms, motions, and briefs must be filed only
in the appeal number assigned to the filer’s petition for review. If a document is being filed
jointly by multiple petitioners, the document
must be filed only in the appeal number assigned to the filing petitioners. Respondents: All case opening forms must be filed in
all appeals in which the Respondent intends to
participate. All motions should be filed only
in those cases for which the relief is being requested. Respondents’ brief must be filed in
all cases. The consolidated joint appendix
must be filed in all appeal numbers. The parties are hereby advised that failure to file documents in the appropriate case may result in
the issuance of a noncompliance order. If
any party is unsure how to file a particular

45
DATE

PROCEEDINGS

document, he or she should call the case manager prior to filing the document, filed.
[18-1092, 18-1669, 18-1670, 18-1671] (MB) [Entered: 04/05/2018 10:50 AM]
* * * * *
9/11/18 ORDER (Clerk) directing the agency to file
the record or certified list in lieu of record.
[18-1092, 18-1669, 18-1670, 18-1671] (MB) [Entered: 09/11/2018 10:22 AM]
* * * * *
10/11/18 ECF FILER: Agency Certified Index/List
transmitted.
[18-1092, 18-1669, 18-1670,
18-1671] (WS) [Entered: 10/11/2018 04:09
PM]
* * * * *
3/22/19 ECF FILER: Motion filed by Intervenor
Respondent Twenty First Century Fox Inc in
18-1092, 18-3335, 18-2943 to substitute Fox
Corporation, Intervenor. Certificate of Service dated 03/22/2019. Service made by ECF.
[18-1092, 18-3335, 18-2943] (AS) [Entered:
03/22/2019 02:06 PM]
* * * * *
3/26/19 ORDER (Clerk) granting motion by Fox Corporation to be substituted as Intervenor Respondent for Twenty First Century Fox Inc.
Fox Corporation is hereby substituted for
Twenty First Centrury Fox Inc. as an Intervenor Respondent in the above-docketed

46
DATE

PROCEEDINGS

cases, filed. [18-1092, 18-3335, 18-2943] (MB)
[Entered: 03/26/2019 09:43 AM]
*

*

*

*

*

47
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-1669
INDEPENDENT TELEVISION GROUP, PETITIONER
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

4/3/18

4/5/18

PROCEEDINGS

AGENCY CASE DOCKETED. Petition for
reveiw filed by Independent Television Group,
transferred from the United States Court of
Appeals for the District of Columbia Circuit,
Case No. 18-1050. Transferred by order entered March 23, 2018.
(MB) [Entered:
04/03/2018 11:20 AM]
* * * * *
ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioner Independent Television Group in 18-1669, filed.—
[Edited 04/05/2018 by MB] (JNG) [Entered:
04/05/2018 02:30 PM]

* * * * *
ELECTRONIC PROOF
12/20/18 ECF FILER:
BRIEF with Addendum containing Declarations on behalf of Petitioner Independent Television Group, filed. Certificate of Service

48
DATE

PROCEEDINGS

dated 12/20/2018 by ECF.—[Edited 01/04/2019
by EAF—Text edited to reflect attachments]
[18-1669] (JNG) [Entered: 12/20/2018 04:16
PM]
* * * * *
4/12/19 ECF FILER: ELECTRONIC PROOF REPLY BRIEF on behalf of Petitioner Independent Television Group, filed. Certificate of
Service dated 04/12/2019 by ECF. [18-1669]
(JNG) [Entered: 04/12/2019 02:16 PM]
*

*

*

*

*

49
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-1670
MULTICULTURAL MEDIA TELECOM AND INTERNET
COUNCIL AND NATIONAL ASSOCIATION OF BLACK
OWNED BROADCASTERS, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

4/5/18

PROCEEDINGS

AGENCY CASE DOCKETED.
Petition
filed by Multicultural Media Telecom and Internet Council and National Association of
Black Owned Broadcasters transferred from
the United States Court of Appeals for the
District of Columbia Circuit, Case No.
18-1071.
Transferred by order entered
March 23, 2018.
Service made by ECF.
(MB) [Entered: 04/05/2018 09:52 AM]

* * * * *
4/11/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Multicultural Media Telecom and Internet Council
and National Association of Black Owned
Broadcasters in 18-1670.
(DL) [Entered:
04/11/2018 09:03 AM]
*

*

*

*

*

50
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-1671
FREE PRESS; OFFICE OF COMMUNICATION INC. OF THE
UNITED CHURCH OF CHRIST; NATIONAL ASSOCIATION
OF BROADCAST EMPLOYEES AND TECHNICIANS
COMMUNICATIONS WORKERS OF AMERICA AND
COMMON CAUSE, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

4/5/18

PROCEEDINGS

AGENCY CASE DOCKETED. Petition filed
by Common Cause, Free Press, National Association of Broadcast Employees and Technicians Communications Workers of America
and Office of Communication, Inc. of the United
Church of Christ transferred from the United
States Court of Appeals for the District of
Columbia Circuit, Case No. 18-1072. Transferred by order entered March 23, 2018.
Certificate of Service dated 04/05/2018. Service made by ECF.
(MB) [Entered:
04/05/2018 10:23 AM]

* * * * *
4/18/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Common Cause, National Association of Broadcast

51
DATE

PROCEEDINGS

Employees and Technicians Communications
Workers of America and Office of Communication Inc of the United Church of Christ, filed.
[18-1671] (CAL) [Entered: 04/18/2018 08:24
PM]
* * * * *
4/19/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioner Free
Press, filed.
[18-1671] (JJG) [Entered:
04/19/2018 02:01 PM]
*

*

*

*

*

52
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-2943
PROMETHEUS RADIO PROJECT AND MOVEMENT
ALLIANCE PROJECT, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

8/31/18 AGENCY CASE DOCKETED. Petition filed
by Media Mobilizing Project and Prometheus
Radio Project. Certificate of Service dated
08/31/2018.
Service made by US mail.
USCA Receipt No. 3CA004644. Receipt date
08/31/2018.
(MB) [Entered:
09/04/2018
03:57 PM]
* * * * *
9/11/18 ORDER (Clerk) directing the agency to file
the record or certified list in lieu of record.
(MB) [Entered: 09/11/2018 10:32 AM]
* * * * *
9/17/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Media
Mobilizing Project and Prometheus Radio
Project, filed. [18-2943] (CAL) [Entered:
09/17/2018 03:48 PM]

53
DATE

PROCEEDINGS

* * * * *
9/25/18 ECF FILER: Motion filed by National Association of Broadcasters to proceed as intervenor in support of Appellee/Respondent.
Certificate of Service dated 09/25/2018.
[18-2943] (HCW) [Entered: 09/25/2018 03:27
PM]
* * * * *
9/26/18 ECF FILER: Motion filed by News Media
Alliance to proceed as intervenor in support of
Appellee/Respondent. Certificate of Service
dated 09/26/2018. [18-2943] (RAL) [Entered:
09/26/2018 05:28 PM]
* * * * *
9/28/18 ECF FILER: Motion filed by Bonneville International Corporation to proceed as intervenor in support of Appellee/Respondent.
Certificate of Service dated 09/28/2018.
[18-2943] (KES) [Entered: 09/28/2018 10:10
AM]
9/28/18 ECF FILER: Motion filed by Twenty-First
Century Fox, Inc. to proceed as intervenor in
support of Appellee/Respondent. Certificate
of Service dated 09/28/2018. [18-2943] (AS)
[Entered: 09/28/2018 03:47 PM]
* * * * *
Motion filed by Nexstar
9/28/18 ECF FILER:
Broadcasting, Inc. to proceed as intervenor in
support of Appellee/Respondent. Certificate

54
DATE

PROCEEDINGS

of Service dated 09/28/2018. [18-2943] (ER)
[Entered: 09/28/2018 04:22 PM]
* * * * *
10/1/18 ORDER (Clerk) granting Motions to proceed
as intervenor by National Association of Broadcasters, News Media Allilance, Bonneville International Corporation, Twenty-First Century Fox, Inc. & Nexstar Broadcasting Inc.
Intervenors’ briefing deadline will be the same
as Respondents. Intervenors and Respondents shall consult with one another regarding
the content of their briefs in order to avoid unnecessary duplication. The parties are encouraged to file a consolidate brief, or join in
or adopt parts of another’s brief by reference
to the greatest extent possible. See Fed. R.
App. P. 28(i), filed. (MB) [Entered:
10/01/2018 08:54 AM]
* * * * *
10/10/18 ECF FILER: Agency Certified Index/List
transmitted.
[18-2943] (WS) [Entered:
10/10/2018 03:53 PM]
*

*

*

*

*

55
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Docket No. 18-3335
MULTICULTURAL MEDIA TELECOM AND INTERNET
COUNCIL AND NATIONAL ASSOCIATION OF BLACK
OWNED BROADCASTERS, PETITIONERS
v.
FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA, RESPONDENTS
DOCKET ENTRIES
DATE

PROCEEDINGS

Petition
10/22/18 AGENCY CASE DOCKETED.
filed by Multicultural Media Telecom and Internet Council and National Association of
Black Owned Broadcasters transferred from
D.C. Circuit pursuant to order entered
10/18/18. (MB) [Entered: 10/22/2018 10:46
AM]
* * * * *
10/22/18 CERTIFIED LIST IN LIEU OF RECORD,
filed. (MB) [Entered: 10/22/2018 11:41 AM]
10/22/18 MOTION filed by Intervenor Respondent National Association of Broadcasters for Leave
to Interveneon behalf of FCC Respondent.
Response due on 11/01/2018. Certificate of
Service dated 10/22/2018. Service made by
ECF.—[Edited 10/22/2018 by MB] (MB) [Entered: 10/22/2018 11:45 AM]

56
DATE

PROCEEDINGS

10/22/18 MOTION filed by Intervenor Respondent
News Media Alliance for Leave to Intervene
on behalf of FCC Respondent. Response due
on 11/01/2018. Certificate of Service dated
10/22/2018. Service made by ECF.—[Edited
10/22/2018
by
MB]
(MB)
[Entered:
10/22/2018 11:47 AM]
* * * * *
10/26/18 ECF FILER: Motion filed by Twenty-First
Century Fox, Inc. to proceed as intervenor in
support of Appellee/Respondent. Certificate
of Service dated 10/26/2018. [18-3335] (AS)
[Entered: 10/26/2018 04:02 PM]
* * * * *
11/8/18 ECF FILER: AGENCY INFORMATION
STATEMENT on behalf of Petitioners Multicultural Media Telecom and Internet Council
and National Association of Black Owned
Broadcasters in 18-3335.—[Edited 11/14/2018
by MB] (DL) [Entered:
11/08/2018 03:15
PM]
* * * * *
11/20/18 ORDER (Clerk) granting Motions by National
Association of Broadcasters, News Media Alliance and Twenty-First Century Fox, Inc. for
leave to Intervene on behalf of Respondents.
Internenors’ briefing deadline will be the same
as Respondents. Intervenors and Respondents shall consult with one another regarding

57
DATE

PROCEEDINGS

the content of their briefs in order to avoid unnecessary duplication. The parties are encouraged to file a consolidated brief or join in
or adopt parts of another's brief by reference
to the greatest exent possible. See Fed. R.
App. P. 28(i)., filed. (MB) [Entered: 11/20/
2018 10:10 AM]
*

*

*

*

*

58
BEFORE THE
FEDERAL COMMUNICATIONS COMMISSION
WASHINGTON, D.C. 20554

MB Docket Nos. 14-50, 09-182, 07-294, 04-256
IN THE MATTER OF 2014 QUADRENNIAL REGULATORY
REVIEW—REVIEW OF THE COMMISSION’S BROADCAST
OWNERSHIP RULES AND OTHER RULES ADOPTED
PURSUANT TO SECTION 202 OF THE TELECOMMUNICATIONS ACT OF 1996; 2010 QUADRENNIAL REGULATORY
REVIEW—REVIEW OF THE COMMISSION’S BROADCAST
OWNERSHIP RULES AND OTHER RULES ADOPTED
PURSUANT TO SECTION 202 OF THE TELECOMMUNICATIONS ACT OF 1996; PROMOTING DIVERSIFICATION OF
OWNERSHIP IN THE BROADCASTING SERVICES; RULES
AND POLICIES CONCERNING ATTRIBUTION OF JOINT
SALES AGREEMENTS IN LOCAL TELEVISION MARKETS
Adopted: Mar. 31, 2014
Released: Apr. 15, 2014
FURTHER NOTICE OF PROPOSED RULEMAKING
AND REPORT AND ORDER
Comment Date:
eral Register]

[45 days after publication in the Fed-

Reply Comment Date:
Federal Register]

[75 days after publication in the

By the Commission: Chairman Wheeler and Commissioners Clyburn and Rosenworcel issuing separate
statements; Commissioners Pai and O’Rielly dissenting
and issuing separate statements.

59
TABLE OF CONTENTS

Heading

Paragraph#

I.
INTRODUCTION .......................................................... 1
II. BACKGROUND ............................................................. 9
III. MEDIA OWNERSHIP RULES ................................. 15
A. Local Television Ownership Rule ......................... 15
B. Local Radio Ownership Rule ................................ 74
C. Newspaper/Broadcast Cross-Ownership Rule ..... 113
D. Radio/Television Cross-Ownership Rule............... 200
E. Dual Network Rule................................................... 226
IV. DIVERSITY ORDER REMAND ............................. 242
A. Introduction .......................................................... 242
B. Background ........................................................... 246
C. Discussion .................................................................. 263
V.
DISCLOSURE OF SHARED SERVICE
AGREEMENTS ......................................................... 320
A. Introduction .......................................................... 320
B. Background ........................................................... 321
C. Discussion .................................................................. 328
VI. REPORT AND ORDER ............................................ 340
A. Attribution of Television JSAs............................ 340
B. Filing Requirements and Transition
Procedures ............................................................ 366
C. National Sales Representatives .............................. 368
VII. PROCEDURAL MATTERS ..................................... 373
VIII. ORDERING CLAUSES ............................................ 383

APPENDIX A — Final Rule Changes
APPENDIX B — Proposed Rule Changes
APPENDIX C — Final Regulatory Flexibility
Analysis

60
APPENDIX D — Supplemental Initial Regulatory
Flexibility Analysis
I.

INTRODUCTION

1.
Today we take another major step in our review
of our broadcast ownership rules. Our ongoing 2010
Quadrennial Review has generated a high level of interest and participation, creating an extensive record that
continues to attract significant and substantive input
well after the formal comment periods have expired.
Such participation demonstrates that our broadcast
ownership rules continue to be of importance and interest to market participants, public watchdogs, and consumers alike. We wish to build on that record to resolve the ongoing 2010 proceeding, and we are cognizant
of our statutory obligation to review the broadcast ownership rules every four years. To accomplish both objectives, with this Further Notice of Proposed Rulemaking (“FNPRM”) we are initiating this 2014 Quadrennial
Review; incorporating the existing 2010 record into this
proceeding; proposing rules that are formulated based
on our evaluation of that existing record; and seeking
new and additional information and data on market conditions and competitive indicators as they exist today.
Ultimately, the rules we adopt in this 2014 proceeding
will be based on a comprehensive, refreshed record that
reflects the most current evidence regarding the media
marketplace. We also consider related issues posed in
our 2010 Quadrennial Review proceeding concerning
the attribution and disclosure of agreements between
broadcast stations, and in the accompanying Report and
Order (“Order”), we determine that certain television
joint sales agreements (“JSAs”) are attributable.

61
2.
The existing record demonstrates not only the
dynamic changes that are taking place in the media marketplace but also the continued and vital importance of
traditional media outlets to local communities. The
proliferation of broadband Internet connections and
other technological advances have changed the ways in
which many consumers access entertainment, news, and
information programming. Yet traditional media outlets are still essential to achieving the Commission’s
goals of competition, localism, and viewpoint diversity.
In particular, the record demonstrates that broadcast
television and newspapers continue to be the most significant sources of local news content.1144And while the
popularity of news websites unaffiliated with traditional
media is increasing, the overwhelming majority of local
news content available online originates from newspapers and local broadcast television stations.2145
3.
In addition, the record demonstrates that some
broadcasters continue to generate significant and increasing local advertising revenue and improve their bottom
lines with online advertising revenue. While nearly every
industry struggled through the recent global financial
crisis, some broadcasters have rebounded in a significant way and appear poised to grow stronger. At the
same time, other broadcasters are less well positioned
and continue to struggle, often in crowded major markets. The forthcoming voluntary incentive auction of
broadcast television spectrum, which is critically important to the Commission’s efforts to unleash the full
transformative potential of broadband Internet, will
provide those and other broadcasters with a new and
1
2

See infra ¶¶ 130-131.
See infra ¶¶ 130-131.

62
unique financial opportunity.3146 We anticipate that the
incentive auction will both free up significant spectrum
for mobile broadband and result in an even healthier
broadcast industry.4147
4.
While broadband Internet has impacted the
lives of many consumers in myriad ways, including access to media content, millions of Americans continue to
lack access to broadband at speeds necessary to take advantage of online content available via streaming or
download.5 148 For these Americans—disproportionately
those in rural areas, in low-income groups, on Tribal
lands, and in U.S. Territories—traditional media still
may be their only source of entertainment and local
news and information content.6149

3
See Expanding the Economic and Innovative Opportunities of
Spectrum Through Incentive Auctions, GN Docket No. 12-268, Notice of Proposed Rulemaking, 27 FCC Rcd 12357, 12359, 12364, ¶ 4,
16 (2012) (“Incentive Auctions NPRM”).
4
See id at 12359, ¶ 14. The incentive auction is likely to affect the
broadcast television industry in a number of respects, and, as discussed herein, we seek comment on the significance of these potential changes in the context of this quadrennial review proceeding.
We anticipate being able to conduct the incentive auction in 2015.
5
See Inquiry Concerning the Deployment of Advanced Telecommunications Capability to All Americans in a Reasonable and
Timely Fashion, and Possible Steps to Accelerate Such Deployment
Pursuant to Section 706 of the Telecommunications Act of 1996, as
Amended by the Broadband Data Improvement Act, GN Docket No.
¶¶-121, Eighth Broadband Progress Report, 27 FCC Rcd 10342,
10369, ¶ 44 (2012) (“Eighth Broadband Progress Report”) (finding
that approximately 19 million Americans lack access to fixed broadband meeting the 4 Mbps/1 Mbps speed benchmark).
6
Id.

63
5.
It is clear that the impact of new technologies
on the media marketplace is already significant. If
broadband penetration continues to rise, which is a policy priority of the Commission, it may have major implications for a future review of our broadcast ownership
rules. At this time, however, we believe that the broadcast ownership rules proposed herein remain necessary
to protect and promote the Commission’s policy goals in
local markets.
6.
With these considerations in mind, we issue this
FNPRM to seek additional comment on the appropriateness of the broadcast ownership rules to today’s evolving
marketplace. We seek comment on whether to eliminate two rules that under prevailing market conditions
no longer appear to be supported by their original rationales, and we propose to modernize and streamline
additional rules. Specifically, as explained in greater
detail below, we seek comment on whether to eliminate
restrictions on newspaper/radio combinations because,
on the record developed in the 2010 Quadrennial Review
proceeding, the link between those limitations and the
Commission’s goal of promoting viewpoint diversity appears to be too tenuous to justify retaining the limitations. We seek comment on whether to eliminate the
radio/television cross-ownership rule in favor of reliance
on the local radio rule and the local television rule. We
propose to retain the current local television ownership
rule with a minor modification to update the previous
analog contour provision in light of the digital transition.
We seek comment on whether to retain the prohibition
on the cross-ownership of newspapers and television
stations, and if so, should we reform the restriction to
consider waivers for newspaper/television combinations. We propose to retain the current local radio

64
ownership rule and the dual network rule without modification. We seek comment on these proposals.
7.
Also, we seek additional comment on issues referred to us in the Third Circuit’s remand in Prometheus II of certain aspects of the Commission’s 2008 Diversity Order.7 150 Specifically, we tentatively conclude
that the revenue-based eligible entity standard should
be reinstated, as well as the associated measures to promote the Commission’s goal of encouraging small business participation in the broadcast industry, which we
believe will cultivate innovation and enhance viewpoint
diversity. As directed by the court, we consider the socially and economically disadvantaged business definition as a possible basis for favorable regulatory treatment, as well as other possible definitions that would
expressly recognize the race and ethnicity of applicants.8151 We tentatively conclude that the record from
the 2010 Quadrennial Review proceeding does not satisfy the demanding legal standards the courts have said
must be met before the Government may implement
preferences based on such race- or gender-conscious
definitions and we seek further comment. We discuss
the Commission’s recent initiatives to foster diversity,
including efforts to promote minority and female participation in communications industries, the release of mi-

Prometheus Radio Project v. FCC, 652 F.3d 431, 437 (3d Cir.
2011) (“Prometheus II”); see also Promoting Diversification of
Ownership in the Broadcasting Services, MB Docket No. 07-294,
Report and Order and Third Further Notice of Proposed Rulemaking, 23 FCC Rcd 5922 (2008) (“Diversity Order” and “Diversity
Third FNPRM”).
8
Prometheus II, 652 F.3d at 471-73.
7

65
nority and female broadcast ownership data, the ongoing study of Hispanic television, and the recent clarification of the Commission’s policies and procedures for
evaluating potential foreign investment in broadcast licensees. We seek comment on these proposals and
conclusions.
8.
Finally, we take steps herein to address concerns about the use of a variety of sharing agreements
between independently owned television stations. First,
this FNPRM proposes to define a category of sharing
agreements designated as Shared Service Agreements
(“SSAs”) and proposes to require commercial television
stations to disclose those SSAs. We believe that this
action will lead to more comprehensive information about
the prevalence and content of SSAs between television
stations. The current lack of information impedes the
Commission’s and the public’s assessment of the level of
influence and control that these agreements may confer
over independent stations. In addition, in the Order,
we adopt attribution standards for a specific category of
sharing agreements, television JSAs. Consistent with
Commission precedent with respect to radio JSAs, as
well as radio and television local marketing agreements
(“LMAs”), we find that certain agreements convey sufficient influence to be akin to ownership and we will
therefore attribute to the brokering station same-market television JSAs that cover more than 15 percent of
the weekly advertising time for the brokered station.

66
II.

BACKGROUND

9.
The media ownership rules subject to this quadrennial review are the local television ownership rule,
the local radio ownership rule, the newspaper/broadcast
cross-ownership rule, the radio/television cross-ownership rule, and the dual network rule.9152 Congress requires
the Commission to review these rules every four years
to determine whether they “are necessary in the public
interest as the result of competition” and to “repeal or
modify any regulation [the Commission] determines to
be no longer in the public interest.”10153The Third Circuit
has instructed that “necessary in the public interest” is
a “ ‘plain public interest’ standard under which ‘necessary’ means ‘convenient,’ ‘useful,’ or ‘helpful,’ not ‘essential’ or ‘indispensable.’ ”11 154 There is no “ ‘presumption
in favor of repealing or modifying the ownership
rules.’ ”12 155 Rather, the Commission has the discretion

These rules are found, respectively, at 47 C.F.R. §§ 73.3555(b),
(a), (d), and (c) and 47 C.F.R. § 73.658(g).
10
Telecommunications Act of 1996, Pub. L. No. 104-104, § 202(h),
110 Stat. 56, 111-12 (1996); Consolidated Appropriations Act, 2004,
Pub. L. No. 108-199, § 629, 118 Stat. 3, 99-100 (2004) (“Appropriations Act”) (amending Sections 202(c) and 202(h) of the 1996 Act).
In 2004, Congress revised the then-biennial review requirement to
require such reviews quadrennially. See Appropriations Act § 629,
118 Stat. at 100.
11
Prometheus Radio Project v. FCC, 373 F.3d 372, 394 (3d Cir.
2004) (“Prometheus I”). The court also concluded that the Commission is required “to take a fresh look at its regulations periodically in order to ensure that they remain ‘necessary in the public
interest.’ ” Id. at 391.
12
CBS NPRM Comments at 3 (citing Fox Television Stations v.
FCC, 280 F.3d 1027, 1048 (D.C. Cir. 2002); Sinclair Broad Group,
Inc. v. FCC, 284 F.3d 148, 159 (D.C. Cir. 2002)). The court in Pro9

67
“to make [the rule] more or less stringent.”13156This 2014
Quadrennial Review will focus on identifying a reasoned
basis for retaining, repealing, or modifying each rule
consistent with the public interest.14157
10. The Commission began the 2010 proceeding with
a series of workshops held between November 2009 and
May 2010. Participants in the workshops discussed the
scope and content of the review process. Thereafter
the Commission released a Notice of Inquiry (“NOI”)
on May 25, 2010, seeking comment on a wide range of
issues to help determine whether the current media
ownership rules continue to serve the Commission’s policy goals.15 158 Subsequently, the Commission commissioned eleven economic studies, conducted by outside
researchers and Commission staff, which were peer reviewed and then released to the public, in order to pro-

metheus I determined that Section 202(h) does not carry a presumption in favor of deregulation. See Prometheus I, 373 F.3d at
395 (rejecting the “misguided” findings in Fox and Sinclair regarding a “ ‘deregulatory presumption’ ” in Section 202(h)); see also
Prometheus II, 652 F.3d at 444-45 (confirming the standard of review under Section 202(h) adopted in Prometheus I).
13
Prometheus I, 372 F.3d at 395; see also Prometheus II, 652 F.3d
at 445.
14
See Prometheus I, 373 F.3d at 395; Prometheus II, 652 F.3d at
445.
15
See 2010 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996, MB
Docket No. 09-182, Notice of Inquiry, 25 FCC Rcd 6086 (2010)
(“NOI”).

68
vide data on the impact of market structure on the Commission’s policy goals of competition, localism, and diversity.16159
11. After the release of the NOI, the Court of Appeals for the Third Circuit issued its opinion in Prometheus II, which considered appeals from the Commission’s review of the media ownership rules in the 2006

Media Bureau Announces the Release of Requests for Quotation for Media Ownership Studies and Seeks Suggestions for Additional Studies in Media Ownership Proceeding, MB Docket No.
09-182, Public Notice, 25 FCC Rcd 7514 (Med. Bur. 2010); FCC Releases Five Research Studies on Media Ownership and Adopts
Procedures For Public Access to Underlying Data Sets, MB
Docket No. 09-182, Public Notice, 26 FCC Rcd 8472 (Med. Bur.
2011); FCC Releases Three Additional Research Studies on Media
Ownership, MB Docket No. 09-182, Public Notice, 26 FCC Rcd
10240 (Med. Bur. 2011); FCC Releases the Final Three Research
Studies on Media Ownership, MB Docket No. 09-182, Public Notice, 26 FCC Rcd 10380 (Med. Bur. 2011). The media ownership
studies for the 2010 Quadrennial Review proceeding are available
at http:/www.fec.zovicyclopedia/2010-media-ownership-studies.
In the NPRM, the Commission sought formal comment on the
studies. 2010 Quadrennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, MB Docket No. 09-182, Notice of Proposed Rulemaking,
26 FCC Rcd 17489, 17556-64, ¶¶ 171-93 (2011) (“NPRM”). Few
commenters provided specific criticisms of individual studies,
though the University of Southern California Annenberg School
for Communications & Journalism (“USC”) provided an all-around
critique of the studies. USC NPRM Comments at 5 (submitted on
behalf of the Communication Policy Research Network). Overall,
we find that the studies provide useful data and analysis regarding
the impact of market structure on the Commission’s policy goals,
and we will discuss the studies in the context of the relevant rule
sections below.
16

69
Quadrennial Review Order.17160The court affirmed the
Commission’s decision to retain the local television and
radio rules in order to protect competition in local media
markets.18161 The court also affirmed the Commission’s
retention of the dual network rule based on potential
harm to competition that would result from mergers
among the top four networks.19162 In addition, the court
affirmed the Commission’s conclusion to retain the radio/
television cross-ownership rule based on its contribution
to the Commission’s diversity goal.20163The Third Circuit
vacated and remanded the newspaper/broadcast crossownership rule as modified by the Commission in the
2006 Quadrennial Review Order on procedural grounds,
concluding that the Commission had failed to comply
with the notice and comment provisions of the Administrative Procedure Act (“APA”).21164Finally, the court vacated and remanded a number of measures adopted in
the Commission’s 2008 Diversity Order.22165Specifically,
the court vacated and remanded measures adopted in

Prometheus II, 652 F.3d at 431; 2006 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996, MB Docket No. 06-121, Report and Order
and Order on Reconsideration, 23 FCC Rcd 2010, 2016-17, ¶ 19
(2008) (“2006 Quadrennial Review Order”).
18
Prometheus II, 652 F.3d at 460-61, 462-63. The local radio rule
was also retained, in part, to help promote the Commission’s diversity goal. See id. at 462-63.
19
Id. at 463-64.
20
Id. at 456-58.
21
Id. at 453. The court did not address the substantive modifications to the rule.
22
Id. at 471.
17

70
the Diversity Order that were designed to increase ownership opportunities for “eligible entities,” including
minority- and women-owned entities, because it determined that the Commission’s revenue-based eligible entity definition was arbitrary and capricious.23166 The court
directed the Commission to address this issue in the
course of the 2010 Quadrennial Review.
12. On December 22, 2011, the Commission released
the NPRM, in which the Commission proposed modest,
incremental changes to the broadcast ownership rules
and sought comment on those changes. The Commission also sought comment in the NPRM on the aspects
of the Commission’s 2008 Diversity Order that the Third
Circuit had remanded in Prometheus II, as well as other
actions that the Commission might take to increase the
level of broadcast station ownership by minorities and
women. Finally, the Commission sought comment on
various attribution issues that define which interests in
a licensee must be counted in applying the broadcast
ownership rules. In particular, the Commission sought
comment on the impact of certain programming or other
sharing agreements between stations and whether it
should modify the broadcast attribution rules to account
for such agreements or adopt disclosure requirements.
In doing so, the Commission referenced its pending proceeding regarding the potential attribution of television
JSAs. In that proceeding, the Commission had tentatively concluded that television JSAs have the same effects in local television markets that radio JSAs do in
local radio markets and that the Commission should
therefore attribute television JSAs.

23

Id.

71
13. On November 14, 2012, the Media Bureau released a report on the ownership of commercial broadcast stations (“2012 323 Report”).24 167 Consistent with
other data and extensive comment already in the record,
the 2012 323 Report confirmed low levels of broadcast
station ownership by women and minorities—a fact long
recognized by the Commission.25168On December 3, 2012,
the Commission granted the request of several parties
for “an additional, formal opportunity to comment on
the [2012 323 Report].”26169 On May 30, 2013, the Minority Media and Telecommunications Council (“MMTC”)
submitted a study titled “The Impact of Cross Media

See 2010 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996, MB
Docket No. 09-182, Report on Ownership of Commercial Broadcast
Stations, 27 FCC Rcd 13814 (Med. Bur. 2012) (“2012 323 Report”).
The 2012 323 Report is based on ownership information, as of November 1, 2009, and October 1, 2011, submitted by broadcasters in
their biennial Form 323 filings. See FCC Form 323, Ownership
Report for Commercial Broadcast Stations, available at http:/
transition.fec.gov/FormsForm323/323.pidf; see also 47 C.F.R.
§ 73.3615.
25
See, e.g., Diversity Order, 23 FCC Rcd at 5924, ¶ 1 (noting that
“minority- and women-owned businesses” historically have not been
“well-represented in the broadcasting industry”); Policies and
Rules Regarding Minority and Female Ownership of Mass Media
Facilities, MM Docket No. 94-149, Notice of Proposed Rulemaking,
10 FCC Rcd 2788, 2789, ¶ 5 (1995) (“[D]espite the Commission’s efforts to increase minority ownership of broadcast and cable facilities,
minorities today remain significantly underrepresented among mass
media owners.”).
26
See Commission Seeks Comment on Broadcast Ownership Report, MB Docket No. 09-182, Public Notice, 27 FCC Rcd 15036 (Med.
Bur. 2012) (“2012 323 Report Comments PN”).
24

72
Ownership on Minority/Women Owned Broadcast Stations” (“MMTC Cross-Ownership Study”).27170 The Commission sought comment on this study during the summer of 2013.28171
14. Policy Goals. The media ownership rules have
consistently been found to be necessary to further the
Commission’s longstanding policy goals of fostering competition, localism, and diversity. We seek additional comment on the NPRM’s tentative conclusion that these
policy goals continue to be the appropriate framework
within which to evaluate and address minority and female interests as they relate to the broadcast ownership
rules.29172

Letter from David Honig, President, MMTC, to Chairwoman Mignon Clyburn, Commissioner Ajit Pai, and Commissioner Jessica
Rosenworcel, FCC (May 30, 2013) (attaching Mark Fratrik,
BIA/Kelsey, The Impact of Cross Media Ownership on Minority/
Women Owned Broadcast Stations (May 30, 2013) (“MMTC CrossOwnership Study”)) (“MMTC May 30, 2013 Ex Parte Letter”).
28
Media Bureau Invites Comments on Study Submitted by the
Minority Media and Telecommunications Council in 2010 Quadrennial Review of Broadcast Ownership Rules, Public Notice, 28
FCC Rcd 8244 (Med. Bur. 2013) (“Public Notice Seeking Comment
on MMTC Cross-Ownership Study”).
29
26 FCC Rcd at 17497, ¶ 21. Based on the record developed in
response to the NPRM, we continue to believe that the longstanding
policy goals of competition, localism, and diversity are broadly defined to promote the core responsibilities of broadcast licensees.
See id. We are not persuaded by the comments in the record that
it would be appropriate to adopt any additional formal policy goals.
See, e.g., Diversity and Competition Supporters (“DCS”) NPRM
Comments at 5 (proposing that the Commission adopt the goals of
remedying the present effects of past discrimination and preventing
future discrimination); Don Schellhardt (“Schellhardt”) NPRM
Comments at 6 (urging the Commission to add promoting “robust
27

73
*

*

*

*

*

70. Minority and Female Ownership. The Commission sought comment on the impact of the proposed
local television ownership rule on minority and female
ownership opportunities, as well as the impact of diverse
television ownership on viewpoint diversity.173 We tentatively find that the local television ownership rule proposed in this FNPRM is consistent with our goal to promote minority and female ownership of broadcast television stations. We seek comment on this tentative
conclusion.
71. In response to the NPRM, public interest commenters asserted that minorities and women continue to
be underrepresented in broadcast television ownership
and argued that the Commission should not relax the local television ownership rule, as additional consolidation
could reduce the already low levels of minority and female ownership.174 In addition, NHMC et al. and UCC
et al. suggested the Commission tighten the television
employment” as a policy goal); Writers Guild of America, East,
AFL-CIO (“WGAE”) NPRM Comments at 2-3 (asserting that the
Commission must add the additional goal of increasing the resources
devoted to diverse local news programming in order to effectively
promote the core policy goals of competition, localism, and diversity). We seek comment on this tentative conclusion.
*****
NPRM, 26 FCC Rcd at 17511, ¶ 59; see also 2012 323 Report
Comments PN (requesting comment on the ownership data in the
2012 323 Report).
174
See Alliance for Women in Media, Inc. (“AWM”) NPRM Comments at 3; DCS NPRM Comments at 7; Free Press NPRM Comments at 19-20; Free Press NPRM Reply at 47-48; The Leadership
Conference on Civil and Human Rights (“LCCHR”) NPRM Comments at 2; NHMC et al. NPRM Comments at 2-3.
173

74
ownership limits in order to create new ownership opportunities for minorities and women.175 With respect
to the impact of diverse ownership on viewpoint diversity, NHMC et al. argued that station ownership impacts the issues covered by a station and the way in
which those issues are covered.176 They asserted that,
because station ownership does not generally reflect the
diversity of local communities, television programming
inadequately represents issues of importance to minorities and rural Americans; they argued that, therefore,
the Commission should adopt rules to promote diverse
television ownership.177
72. Commenters also have expressed concern that
the Commission’s forthcoming incentive auction will lead
to increased consolidation and a decrease in the number
of television stations owned by minorities and women.178
Moreover, UCC et al. contended that the incentive auction is likely to have a negative impact on ownership diversity and that therefore the Commission should assess
the impact of the incentive auction in the context of this

See NHMC et al. NPRM Comments at 3-5; UCC et al. NPRM
Comments at 24; see also Free Press NPRM Comments at 44 (asserting that tightening the television ownership limits could promote
ownership diversity by creating ownership opportunities for new entrants); Free Press NPRM Reply at 19.
176
NHMC et al. NPRM Comments at 2-3.
177
See id.
178
See NHMC et al. NPRM Comments at 34-35; Free Press 323
Report Comments at 23; LCCHR 323 Report Comments at 3; Media
Alliance 323 Report Comments at 2-3; National Association of BlackOwned Broadcasters (“NABOB”) 323 Report Comments at 14 n.30;
UCC et al. 323 Report Comments at ii, 17-22; Association of Free
Community Papers (“AFCP”) et al. 323 Report Reply at 4.
175

75
quadrennial review or, at a minimum, maintain the existing ownership rules until the impact of the incentive
auction is fully established.179 By contrast, other commenters asserted that the incentive auction will have no
more than a collateral impact on television ownership
and does not provide a basis for deferring action on our
ownership rules.180
73. As discussed above, we tentatively find that the
2010 Quadrennial Review record demonstrates that the
existing local television ownership rule remains necessary to promote competition among broadcast television
stations in local markets. Moreover, we believe the
competition-based rule would also indirectly advance
our viewpoint diversity goal by helping to ensure the
presence of independently owned broadcast television
stations in the local market, thereby increasing the likelihood of a variety of viewpoints.181 In addition, while

UCC et al. 323 Report Comments at 16-18, 22-24; see also AFCP
et al. 323 Report Reply at 5 (urging the Commission to publish “analysis on projected Spectrum Auction participation, license transfer
and subsequent market-specific valuations”).
180
See Bonneville International Corporation and The Scranton
Times, L.P. (“Bonneville/Scranton”) 323 Report Reply at 10.
181
See Media Ownership Study 9, A Theoretical Analysis of the Impact of Local Market Structure on the Range of Viewpoints Supplied
2-3, by Isabelle Brocas, Juan D. Carrillo, and Simon Wilkie (2011)
(“Media Ownership Study 9”) (finding, based on theoretical analysis,
that the presence of more independently owned outlets can increase
viewpoint diversity in a market). Premised on the reasonable assumption that there is more than one viewpoint on many issues, Media Ownership Study 9 supports the related conclusion that information transmission is improved when there is competition among
firms with similar viewpoints. Id. at 26-27. Similarly, Media Ownership Study 2 examines the effects of media market structure on
179

76
we do not propose to retain the rule with the specific
purpose of preserving the current levels of minority and
female ownership, we tentatively find that retaining the
existing rule would effectively address the concerns of
those commenters who suggested that additional consolidation would have a negative impact on minority and
female ownership of broadcast television stations. 182
We seek comment on how any developments since the
NPRM may affect these tentative findings. In addition, we seek comment on whether the incentive auction
has the potential to impact minority and female broadcast ownership and whether any such impacts should affect our 2014 Quadrennial Review.183
consumer demand and welfare, finding that “the representative consumer values different viewpoints in the reporting of information on
news and current affairs, more information on community news, and
more information that reflects the interests of women and minorities.” Media Ownership Study 2, Consumer Valuation of Media as
a Function of Local Market Structure 0, by Scott J. Savage and Donald M. Waldman (2011) (“Media Ownership Study 2”). It finds, using simulation techniques, that any negative effects on diversity associated with common ownership of television stations in a market
are smaller in markets with multiple independent television voices.
See Media Ownership Study 2 at 49.
182
We note also that we propose to retain without modification the
current failed/failing station waiver policy, including the out-of-marketbuyer solicitation requirement—the failed station solicitation rule
(“FSSR”)—which promotes new entry in a market by ensuring that
out-of-market entities interested in purchasing a station, including
minorities and women, will have an opportunity to bid. See 1999
Ownership Order, 14 FCC Rcd at 12937, ¶ 74.
183
The Commission released the Incentive Auctions NPRM in
September 2012 and has not yet adopted final rules for the incentive
auction. We contemplate conducting the auction itself sometime in
2015. The Commission has recognized the potential for the incentive auction to impact broadcasters’ ongoing compliance with our

77
*

*

*

*

*

108. Minority and Female Ownership. The Commission sought comment on how the radio rule affects
minority and female ownership opportunities, including
specific comment on the results of Media Ownership
Study 7, which analyzes the relationship between ownership structure and the provision of radio programming targeted to African-American and Hispanic audiences.279 We tentatively find that the radio ownership
rule proposed in this FNPRM is consistent with our goal
to promote minority and female ownership of broadcast
radio stations. We seek comment on this tentative conclusion.
109. In the 2010 Quadrennial Review proceeding,
public interest commenters asserted that minorities and

media ownership rules. See Incentive Auctions NPRM, 27 FCC
Rcd at 12474, ¶ 356. Accordingly, the Commission proposed, in the
Incentive Auctions NPRM, to grandfather any station combinations
that would no longer comply with our media ownership rules as a
result of the auction. Id. In addition, the Commission invited comment, in the context of the incentive auction proceeding, on “measures that the Commission might take outside of the context of the
multiple ownership rules to address any impact on diversity that
may result from the incentive auction.” Id. at 12474, ¶ 357.
* * * * *
See NPRM, 26 FCC Rcd at 17563-54, ¶ 193 (discussing the findings of Media Ownership Study 7 with respect to minority and female ownership and seeking comment on the same); see also 2012
323 Report Comments PN (requesting comment on the ownership
data in the 2012 323 Report).
279

78
women continue to be underrepresented in broadcast radio ownership.280 They urged the Commission to avoid
loosening the radio ownership limits, as additional consolidation could reduce the already low levels of minority and female ownership of broadcast radio stations,
and to take steps to increase minority and female ownership.281 A2IM and FMC asserted also that the AM/FM
subcaps should be retained because they promote new
entry, particularly for minorities and women.282
110. DCS supported the findings of Media Ownership Study 7 regarding programming preferences for
minority audiences, as compared to the listening preferences of the White population, and the positive relationship between minority ownership of radio stations and
the total amount of minority radio programming available in the market.283 These findings, according to DCS,
suggest that minority audiences benefit from increased
minority ownership of radio stations, which supports the

AWM NPRM Comments at 3; DCS NPRM Comments at 7;
Free Press NPRM Comments at 20-21; LCCHR NPRM Comments
at 2.
281
See AWM NPRM Comments at 3; DCS NPRM Comments at 7;
FMC NPRM Comments at 4; Free Press NPRM Comments at 2021; LCCHR NPRM Comments at 2-4.
282
A2IM NPRM Comments at 3; FMC NPRM Comments at 6.
283
DCS NPRM Comments at 6-7; see also NPRM, 26 FCC Rcd at
17518, 83 (“Acknowledging that Black and Hispanic listeners have
different viewing preferences from the . . . White population, the
data suggest that there is a positive relationship between minority
ownership of radio stations and the total amount of minority radio
programming available in the market.”); Media Ownership Study 7
at 13, 24.
280

79
Commission’s goal to promote minority media ownership.284 In addition, NHMC et al. argued that station
ownership impacts the issues covered by a station and
the way in which those issues are covered.285 They asserted that because station ownership does not generally reflect the diversity of local communities, radio programming inadequately represents issues of importance
to minorities and rural Americans.286 Therefore, they
concluded that the Commission should adopt rules to
promote diverse radio ownership, including tightening
the numerical ownership limits.287
111. As noted above, we tentatively find that retaining the existing competition-based numerical limits
would indirectly promote our viewpoint diversity goal,
in part by preserving ownership opportunities for new
entrants, including minority- and female-owned businesses. Moreover, part of the rationale for our proposal to retain the AM/FM subcaps is to promote new
entry, particularly in the AM band, which has historically provided low-cost ownership opportunities for new
entrants, including minorities and women.
112. We tentatively decline to tighten the local radio
rule’s ownership limits in order to promote increased
minority and female ownership, as some recommend.
While we remain committed to promoting minority
and female ownership, it is one of many—sometimes
competing—goals that we must balance when setting
our numerical ownership limits. As discussed above,
284
285
286
287

DCS NPRM Comments at 7-8.
NHMC et al. NPRM Comments at 2-3.
Id.
See id. at 3-5.

80
we believe that tightening the local radio rule's ownership limits would ignore the benefits of consolidation in
the radio industry and therefore be inconsistent with the
1996 Act. 288 Furthermore, we believe that tightening
the local radio rule would require divestitures that
would be disruptive to the radio industry.289 In addition, while we do not propose to retain the rule specifically to preserve the current levels of minority and female ownership, we tentatively find that retaining the
existing rule effectively would address the concerns of
those commenters who suggest that additional consolidation would have a negative impact on minority and female ownership of broadcast radio stations.
Ultimately, we tentatively find that, based on the record in
the 2010 Quadrennial Review proceeding, the current
competition-based limits reflect an appropriate balance
of our policy goals and that retaining these limits would
serve the public interest and simultaneously promote
viewpoint diversity. We seek comment on our tentative conclusions and invite commenters to provide any
evidence bearing on this issue that has become available
since the NPRM.
*

*

*

*

*

See supra ¶ 91 (discussing the benefits of consolidation in the
radio industry).
289
See supra ¶ 93 (finding that divestiture would be required if the
radio ownership limits were tightened because the public interest
would not be served in these circumstances by grandfathering existing ownership combinations).
288

* * * * *

81
d. Minority and Female Ownership

189. Background. The Commission has provided
several opportunities for public input on issues pertaining to minority and female ownership. It sought comment in the NPRM on how the proposed revisions to the
NBCO rule could affect minority and female ownership
opportunities. 551 Further, it asked how promotion of
diverse ownership promotes viewpoint diversity. The
Commission also sought comment on the minority and
female ownership data contained in the 2012 323 Report.552 In addition, the Commission invited comment
on the MMTC Cross-Ownership Study which seeks to
examine “whether, and to what extent, cross-ownership
might have a material adverse impact on minority and
women ownership.”553 To inform our 2014 Quadrennial
NPRM, 26 FCC Rcd at 17532, 117.
See 2012 323 Report Comments PN.
553
Public Notice Seeking Comment on MMTC Cross-Ownership
Study, 28 FCC Rcd at 8244. MMTC commissioned BIA/Kelsey to
conduct the study and submitted it to the Commission on May 30,
2013. See MMTC May 30, 2013 Ex Porte Letter at 1-2. On July
25, 2013, MMTC submitted additional data regarding the MMTC
Cross-Ownership Study. See Letter from David Honig, President
of MMTC, to Marlene H. Dortch, Secretary, FCC (July 25, 2013);
see also Letter from David Honig, President of MMTC, to Marlene
H. Dortch, Secretary, FCC (Aug. 1, 2013) (providing an expanded
response to the Commission’s question regarding peer review).
Subsequently, pursuant to a Commission protective order, MMTC
provided a list of the stations solicited to complete the study. Letter from Kenneth Mallory, Esq., MMTC Staff Counsel, to Marlene
H. Dortch, Secretary, FCC (July 29, 2013). See 2010 Quadrennial
Regulatory Review—Review of the Commission's Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of
the Telecommunications Act of 1996, MB Docket No. 09-182, Protective Order, 28 FCC Rcd 10979 (Med. Bur. 2013).
551
552

82
Review, we seek further comment below on the relationship of the NBCO rule to minority and female ownership.
190. Discussion. Some commenters criticized the
Commission for proposing to relax the NBCO rule without first determining that there would be no negative
impact on levels of minority and female ownership. 554
We recognize that the Third Circuit directed the Commission to address certain portions of the Diversity Order in the context of its quadrennial review.555 We have
considered carefully whether there is evidence in the
current record that modifications to the NBCO rule, such
as those we seek comment on above, would likely adversely affect minority and female ownership, and we
tentatively conclude, as discussed below, that the current record does not establish that such harm is likely.
We tentatively find that the information in the current
record asserting a potential impact would not change
our underlying analysis regarding the possible rule
modifications set forth above. 556 Moreover, we reject

See, e.g., Free Press NPRM Comments at 9-10; National Association of Latino Independent Producers (“NALIP”) NPRM Reply
at 1-2; AFCP et al. 323 Report Reply at 2-5; see also CWA NPRM
Reply at 6; Free Press 323 Report Comments at 2-6, 11-12; Free
Press 323 Report Reply at 1-6.
555
See Tribune NPRM Reply at 3-6 (construing the Third Circuit’s
mandate in these terms).
556
As discussed below, the Commission is continuing to improve its
collection of data on minority and female broadcast ownership, and
the ongoing data collection will contribute to future quadrennial review proceedings. See infra ¶ 262. Our proposals and tentative
conclusions in this FNPRM are supported by the current record and
the most accurate data available. We invite commenters to provide
554

83
the argument that the Prometheus II decision requires
us to take no action unless we can show definitively that
a rule change would have no negative impact on minority
ownership levels. In any case, considering the low levels of minority and female ownership reflected in the
2012 323 Report, we do not believe the record evidence
shows that the cross-ownership ban has protected or
promoted minority or female ownership of broadcast
stations in the past 35 years, or that it could be expected
to do so in the future. We seek comment on these
views.
191. We note that commenters in the 2010 Quadrennial
Review record did not focus on the impact of newspaper/
radio cross-ownership in particular.557 None of these
commenters seriously contended or provided any data
showing that newspaper mergers with minority/femaleowned radio stations would harm viewpoint diversity in
local markets.558 As discussed above, we do not believe
that the vast majority of radio stations contribute significantly to viewpoint diversity.559 Moreover, we have no
evidence in the current record suggesting that minority/
any new information or data that would be useful for our 2014 Quadrennial Review.
557
Bonneville/Scranton 323 Report Reply at 4-5 (noting the dearth
of comment in support of the newspaper/radio cross-ownership restriction).
558
NABOB argued that a merger with a newspaper would enable
an owner of multiple radio stations to enhance its competitive advantage in obtaining advertising. NABOB 323 Report Comments
at 10-11. NABOB did not, however, assert that newspaper/radio
combinations would harm viewpoint diversity, and the Commission
has found that the NBCO rule is not necessary to promote its competition goal.
559
See supra ¶¶ 145-148.

84
female-owned radio stations contribute more significantly
to viewpoint diversity or broadcast greater amounts of
local news on which consumers rely as a primary source
of information than other radio stations.560 Even if they
did, we could not conclude that it would therefore be reasonable to restrain the ability of owners of all commercial radio stations to make business decisions to exit the
market or to combine with a newspaper should the record otherwise support allowing such combinations. We
invite commenters to provide any new relevant information, data, or evidence that should inform our 2014
Quadrennial Review.
192. With respect to newspaper/television combinations, the current record reflects varying opinions concerning the impact of a rule modification on minority
and female ownership. Several commenters made generalized assertions that cross-ownership hinders ownership opportunities for minorities and women,561 but they
As discussed further in the Diversity section below, several of
the most recent media ownership studies concluded that there is a
positive relationship between minority station ownership and the
provision of certain types of minority-oriented content or the consumption of broadcast content by minority audiences. See infra
¶ 253 (citing Media Ownership Study 8B at 15-17; Media Ownership
Study 7 at 12-13, 19-21; Media Ownership Study 6 at 28). Several
commenters also raised this issue. See NABOB 323 Report Comments at 4; LCCHR 323 Report Comments at 4; DCS 323 Report
Comments at 4. That observation, however, does not alter our belief that radio stations—be they minority-owned or not—do not contribute significantly to local news and, thus, to viewpoint diversity.
561
See, e.g., CWA NPRM Comments at 8; CWA NPRM Reply at 13; Free Press NPRM Comments at 22; Free Press NPRM Reply at
54; Free Press 323 Report Comments at 4-5, 12; Free Press 323 Report Reply at 6-10; NABOB 323 Report Comments at 10-11. See
also NHMC et al. NPRM Comments at 4-22 (using the examples of
560

85
did not provide convincing evidence tying the NPRM’s
specific proposals for this rule to any likelihood of such
an effect. Some public interest organizations claimed
that 19 minority-owned full-power commercial television stations would become prime acquisition targets if
the rule was loosened as proposed in the NPRM because
they are located in the top 20 DMAs and are not ranked
among the top-four television stations in their respective markets.562 NAA asserted, in contrast, that newspaper owners would not perceive any efficiencies to be
gained by combining with most minority-owned stations
because most such stations have niche programming
formats, which often feature foreign language or religious programming, rather than general-interest local
Los Angeles and the Rio Grande Valley to illustrate the extent of
consolidation and the lack of minority ownership in the media industry); but see Tribune NPRM Reply at 17-20 (disputing NHMC et al.’s
claims).
562
Letter from Angela J. Campbell, Institute for Public Representation, Georgetown Law, counsel for UCC et al., to Marlene H.
Dortch, Secretary, FCC at 2 (Nov. 23, 2012); Free Press 323 Report
Comments at 4, 13-15, 23 (finding that 46 percent of what it calculates to be 43 minority-owned television stations would be potential
targets for purchase). We note that Free Press estimated a total of
43 minority-owned stations after making several adjustments, including the exclusion of stations in Puerto Rico, to the Commission’s
calculation of 69 minority-owned stations. Free Press 323 Report
Comments at 13-15. We reject the recommendation of AFCP et al.
that the Commission create a map or table of all newspaper/television combinations in the top 20 DMAs that would qualify for a favorable presumption if a presumptive waiver standard is adopted.
AFCP et al. 323 Report Reply at 5. In proposing a demarcation
point for market tiers, we carefully analyzed the diversity levels of
the top 20 DMAs, and we believe it unnecessary to list every possible
hypothetical newspaper/television combination that would qualify
for a favorable presumption in those markets. See supra 168-171.

86
news.563 NAA contended that, among the minority-owned
televisions stations that would qualify under the waiver
standard for the favorable presumption proposed in the
NPRM, only two might be potential acquisition targets
given that they regularly broadcast local news in English.564
The National Association of Media Brokers (“NAMB”)
added that revising the NBCO rule would not likely
spark interest in the purchase of minority-owned stations by newspaper companies given the large inventory
of stations currently available for sale and the recent
movement by companies, such as Media General, away
from cross-ownership.565 Despite some lingering concerns, DCS concluded that the cross-ownership restriction has little practical impact on minority ownership.566
193. While we agree with the commenters that current levels of minority and female ownership are discouragingly low, we are not persuaded by evidence in
the current record that the NBCO modifications we seek
comment on above would adversely affect minority and
NAA 323 Report Comments at 3-5.
Id.; see also NAB 323 Report Reply at 7-8. But see Free Press
323 Report Reply at 6-9 (disputing NAA’s premise that minorityowned television stations that broadcast primarily foreign language
or religious content would not be acquisition targets); UCC et al. 323
Report Reply at 11-12 (arguing that television stations may be attractive acquisition targets for reasons, such as their must-carry
rights, unrelated to their current programming, which a new owner
may decide to replace anyway).
565
NAMB 323 Report Comments at 5-6; see also NAB 323 Report
Reply at 8-9.
566
DCS NPRM Comments at 40-43. Accordingly, it did not oppose relaxation of the NBCO rule provided that any changes do not
discourage or decrease minority ownership. Id.
563
564

87
female ownership levels. Even assuming that some minority-owned stations would become acquisition targets
if the rule were loosened, we do not believe that such a
possibility necessarily would preclude rule modifications that are otherwise consistent with our statutory
mandate. To the extent that governmental action to
boost ownership diversity is appropriate and in accordance with the law, we do not believe that any such action
should be in the form of indirect measures that have no
demonstrable effect on minority ownership and yet constrain all broadcast licensees.567 We seek comment on
this tentative conclusion and its impact on any decision
to modify our cross-ownership rules. Several commenters argued that promoting access to capital would advance minority ownership more effectively than either
limiting the number of potential buyers for minority
broadcast owners interested in selling or preventing minority broadcast owners from experimenting with print
publication.568 We address related proposals below.569
194. At this time, we are not convinced by the unsupported claim made by Free Press and UCC et al. that a
top-four restriction, if adopted as part of a presumptive
waiver standard, would decrease minority ownership.570
See, e.g., NAA 323 Report Comments at 1-2 (arguing that there
is “no rational linkage” between minority ownership of broadcast
stations and cross-ownership).
568
See, e.g., NAMB 323 Report Comments at 6-8; NAA 323 Report
Comments at 9-11; Bonneville/Scranton 323 Report Reply at 10-14;
Morris 323 Report Reply at 3-6; NAB 323 Report Reply at 7-9; Tribune NPRM Reply at 18-19.
569
See infra Section IV.C.3.
570
Free Press NPRM Comments at 21-22; Free Press NPRM Reply at 53-54; UCC et al. NPRM Comments at 26-27; UCC et al. 323
Report Comments at 19.
567

88
Those commenters predicted that minority-owned television stations, the majority of which are stand-alone
stations unaffiliated with a network, would be likely targets for acquisition if top-four television stations were
excluded from cross-ownership.571 As Tribune observed,
however, a newspaper publisher that is foreclosed from
buying a top-ranked television station may not necessarily seek to purchase a lower-ranked station. 572 In
any event, station owners would not be compelled to sell
their stations as a result of a modification to the NBCO
rule. Moreover, a station owner that wishes to exit the
market is not prevented from selling its station under
the current NBCO ban, which merely eliminates newspaper owners as potential buyers. We note that the
commenters’ concern is in tension with the more frequent complaint that the Commission has not been aggressive enough in encouraging investment in minority
broadcasters.573 The changes we seek comment on today could permit stand-alone stations without a network
Free Press NPRM Comments at 21-22; Free Press NPRM Reply at 53-54; UCC et al. NPRM Comments at 26-27.
572
Tribune NPRM Reply at 31.
573
A newspaper owner may wish to make an attributable investment in a minority-owned station with no intent to influence programming content. Organizations representing minority-owned broadcasters generally seek forms of regulatory relief that will facilitate
such investment. See, e.g., DCS Supplemental NPRM Comments
at 4-10, 26-27 (urging the Commission to promote investment by, inter alia, waiving local radio limits for entities that incubate a socially
and economically disadvantaged business (“SDB”), relaxing the foreign ownership restrictions, and providing structural rule waivers
for financing the construction of an SDB's unbuilt station); Diversity
Order, 23 FCC Rcd at 5931-37, 5943, 5945, ¶¶ 17-34, 56, 62-63 (responding to the concerns of organizations representing minority
groups by, inter alia, easing attribution limits, awarding duopoly
571

89
affiliation to compete better in the market and to improve their local news offerings by combining resources
with an in-market daily newspaper, if they so desired
and such an opportunity were available. We seek comment on the likelihood of such an effect.
195. In addition, commenters arguing that minorityowned broadcasters are competitively disadvantaged in
the presence of large media conglomerates pointed to
alleged effects of multiple station ownership, not crossownership of newspapers and broadcast stations.574 As
the Commission has found, newspapers and broadcast
stations generally do not compete in the same product
markets, and we do not believe that an owner of a
newspaper/television combination would possess any
greater ability to impede local competition among local
television stations than the well-capitalized owner of a
single media property. Free Press pointed to various
financial pressures that it claims have forced a number
of minority owners to exit the market.575 To the extent
that Free Press alleged that these financial difficulties
stemmed from or were exacerbated by media consolidation, the consolidation to which Free Press refers is not

priority to entities with incubator programs, and organizing an access to capital conference).
574
See, e.g., Free Press 323 Report Comments at 9-12, 21-22; NABOB 323 Report Comments at 10-11; UCC et al. 323 Report Reply
at 12-13.
575
Free Press 323 Report Comments at 17-23 (providing examples
of minority owners it claims struggled to compete or were forced out
of business because they were in bankruptcy or overwhelmed by expenses such as the costs of the DTV transition, increasing programming costs, and the costs of paying competitive employee salaries).

90
related to the NBCO rule.576 Given that an NBCO restriction did not prevent the minority owners Free
Press identified from leaving the market and in light of
the Commission's finding that newspapers and broadcast stations generally do not compete in the same product market, we seek further comment specifically on the
relationship between the NBCO rule and minority and
female ownership.
196. The MMTC Cross-Ownership Study stated that
“the impact of cross-media ownership on minority and
women broadcast ownership is probably negligible.” 577
MMTC indicated that the study surveyed both minorityand/or female-owned broadcast stations in markets with
cross-owned media, along with non-minority/non-femaleowned broadcast stations in the same markets, to explore whether there was a difference in the responses of
the two groups regarding the importance of local crossowned media.578 According to MMTC, the study’s findings showed a lack of concern by almost all of the respondents about the presence of cross-owned media in
the market. 579 MMTC acknowledged, however, that
the study was “not intended as a comprehensive random
sample survey” and cautioned that the limited number of

Id. at 9-12 (citing research that purports to explore the effects
on ownership diversity of rule changes that allowed television duopolies and increased local ownership caps in television and radio).
577
MMTC Cross-Ownership Study at 10.
578
MMTC Cross-Ownership Study at i, 2-5, 9; see also MMTC
May 30, 2013 Ex Parte Letter at 1-2.
579
MMTC Cross-Ownership Study at i, 5-11; see also MMTC May
30, 2013 Ex Parte Letter at 1-2.
576

91
responses warrants “great care” in reaching any conclusions.580
197. A number of commenters argued that the MMTC
Cross-Ownership Study was critically flawed in its methodology and analysis and that the Commission cannot
rely on the study as a basis for policy making.581 These
commenters identified the following as failures of the
MMTC Cross-Ownership Study: (1) an inadequately
described sample and the conflation of multiple types of
broadcast owners;582 (2) a limited sample size;583 (3) an

MMTC Cross-Ownership Study at 9.
Free Press MMTC Cross-Ownership Study Comments at 3-4;
UCC et al. MMTC Cross-Ownership Study Reply at 7; UCC et al.
MMTC Cross-Ownership Study Comments at 2, 6; Media Action
Grassroots Network MMTC Cross-Ownership Study Reply at 2;
Free Press MMTC Cross-Ownership Study Reply at 2-3, 11; NABOB MMTC Cross-Ownership Study Comments at 5-6.
582
Free Press MMTC Cross-Ownership Study Comments at 4-13;
Free Press MMTC Cross-Ownership Study Reply at 7; UCC et al.
MMTC Cross-Ownership Study Comments at 6.
583
NABOB MMTC Cross-Ownership Study Comments at 5-6;
UCC et al. MMTC Cross-Ownership Study Comments at 5-6; Letter
from The Leadership Conference on Civil and Human Rights, to
Acting Chairwoman Mignon Clyburn, FCC, at 4 n.4 (“LCCHR July
23, 2013 Ex Parte Letter”); Free Press MMTC Cross-Ownership
Study Reply at 3-4; UCC et al. MMTC Cross-Ownership Study Reply at 3. See also Philip M. Napoli, Fordham University (“Napoli”)
MMTC Cross-Ownership Study Reply at 3 (stating that the most
significant shortcoming of the study is the low response rate).
580
581

92
exclusion of markets with cross-owned combinations receiving waivers;584 (4) overdrawn conclusions about television markets;585 (5) overreliance on online survey responses;586 (6) a dismissal of survey responses from owners that perceive cross-ownership as negatively impacting their businesses;587 and (7) a lack of transparency in
the peer review process.588 UCC et al. and other commenters asserted that the Commission should not rely
on the MMTC Cross-Ownership Study because it fails
to address why an increase in cross-ownership would
Free Press MMTC Cross-Ownership Study Comments at 14;
UCC et al. MMTC Cross-Ownership Study Comments at 6.
585
For example, Free Press argued that the MMTC Cross-Ownership
Study draws conclusions about the impact of cross-ownership on television station owners when the study focuses on the radio market.
Additionally, Free Press asserted the study does not provide enough
information, including the number of television station owners surveyed, to make “sweeping conclusions” about the impact of the Commission’s ownership rules on diversity in the television market.
Free Press MMTC Cross-Ownership Study Comments at 15. See
also Free Press MMTC Cross-Ownership Study Reply at 8 (stating
the study primarily focused on the radio market with only two television station owners participating in the study).
586
Free Press MMTC Cross-Ownership Study Comments at 15-16;
Free Press MMTC Cross-Ownership Study Reply at 8.
587
UCC et al. MMTC Cross-Ownership Study Reply at 4; Free
Press MMTC Cross-Ownership Study Reply at 2; Free Press
MMTC Cross-Ownership Study Comments at 17; Letter from Matthew F. Wood, Free Press Policy Director, to Marlene H. Dortch,
Secretary, FCC, at 3 (June 26, 2013).
588
Free Press MMTC Cross-Ownership Study Comments at 18;
Free Press MMTC Cross-Ownership Study Reply at 10-11. See also
Letter from Lauren M. Wilson, Free Press Policy Counsel, et al., to
Marlene H. Dortch, Secretary, FCC, at 3-4 (Sept. 23, 2013) (stating
the study’s peer review departed from the typical peer review process).
584

93
harm ownership opportunities for minorities and women;
it is limited in scope; and it draws conclusions that are
unsupported by the evidence.589
198. In response, MMTC recognized that the MMTC
Cross-Ownership Study is not dispositive but argued
that it provides useful evidence about the impact of
cross-ownership, noting the record was previously devoid of any such data.590 MMTC defended the methodology, sample size, and peer review process of its study,
and argued that the study’s findings provide an indication that cross-ownership does not have a disparate impact on minority and female broadcast ownership.591 Several industry commenters supported MMTC’s efforts
and argued that the study lends support for eliminating
cross-ownership restrictions.592 Other commenters asserted that the study demonstrates that cross-ownership
UCC et al. MMTC Cross-Ownership Study Comments at 2, 4-6;
UCC et al. MMTC Cross-Ownership Study Reply at 2; Free Press
MMTC Cross-Ownership Study Reply at 3; LCCHR July 23, 2013
Ex Parte Letter at 4 n.4. UCC et al. asserted that while the MMTC
study examines a limited question—whether minority or female owners in cross-owned markets respond differently to perceived competition than non-minority and non-female owners in the same market
—the study's authors focused on the broader question of whether
the existence of cross-owned media has a disparate impact on minority and female ownership. UCC et al. MMTC Cross-Ownership
Study Comments at 5; UCC et al. MMTC Cross-Ownership Study
Reply at 3-4.
590
MMTC MMTC Cross-Ownership Study Comments at 2-3;
MMTC MMTC Cross-Ownership Study Reply at 3-4, 8-9.
591
MMTC MMTC Cross-Ownership Study Comments at 2-3;
MMTC MMTC Cross-Ownership Study Reply at 3-4.
592
Bonneville/Scranton MMTC Cross-Ownership Study Comments at 1-4; Morris MMTC Cross-Ownership Study Comments at
1-2, 4-6; NAB MMTC Cross-Ownership Study Comments at 6; NAB
589

94
is not a competitive concern of minority broadcasters.593
NAB noted that the study participants’ responses focused
on “general business concerns that all radio and television stations have in all markets regardless of the demographic makeup of their ownership” and is evidence of
the competitive marketplace faced by broadcasters of
various backgrounds. 594 Given the limitations of the
study that even MMTC acknowledges, we do not believe
we can draw definitive conclusions about the impact of
cross-ownership on minority and female ownership from
the MMTC Cross-Ownership Study alone. We invite
commenters to provide additional evidence that bears on

MMTC Cross-Ownership Study Reply at 3-4; NAA MMTC CrossOwnership Study Comments at 1-2, 4. In addition, LaSalle County
Broadcasting et al. noted that their experiences as an owners of
cross-owned properties mirrored the MMTC Cross-Ownership
Study’s findings that cross-ownership in a market has little, if any,
impact on minority and female ownership. LaSalle County Broadcasting et al. MMTC Cross-Ownership Study Comments at 2; LaSalle
County Broadcasting et al. MMTC Cross-Ownership Study Reply at
1-2.
593
LaSalle County Broadcasting et al. MMTC Cross-Ownership
Study Comments at 6; LaSalle County Broadcasting et al. MMTC
Cross-Ownership Study Reply at 3; Bonneville/Scranton MMTC
Cross-Ownership Study Comments at 5; NAA MMTC CrossOwnership Study Comments at 1-2.
594
NAB MMTC Cross-Ownership Study Comments at 4-6; NAB
MMTC Cross-Ownership Study Reply at 1-2, 4; see also Morris
MMTC Cross-Ownership Study Comments at 5-6. But see Free
Press MMTC Cross-Ownership Study Comments at 16 (arguing the
study participants’ responses generally reflect the same concerns
that are exacerbated by cross-ownership).

95
this issue, especially any evidence arising since MMTC’s
filing of the study.595
199. Finally, we emphasize that, as proposed above,
no newspaper/television combination would be permitted without a Commission waiver of a general rule prohibiting such combinations. Even a waiver request that
would be granted a favorable presumption under a presumptive waiver standard would be subject to denial if
the Commission found that the proposed transaction

595
Furthermore, we note that any attempt to conduct an empirical
study of the relationship between cross-ownership restrictions and
minority and female ownership would face obstacles that likely would
make such study impractical and unreliable. A rigorous econometric analysis would require that we observe a sufficient number of
markets in which cross-ownership and/or minority and female ownership levels recently have shown variation. Due to the Commission’s cross-ownership restrictions having been in place for such a
long period of time and to low levels of minority and female ownership, however, both cross-ownership and minority and female ownership levels show very little variation, making empirical study of
the relationship between these multiple variables extremely difficult. In addition, any study necessarily would be based on a very
small dataset for the same reasons. As a result of these limitations,
any estimation of the relationship between cross-ownership restrictions and minority and female ownership is likely to be imprecise. Given such imprecision, we do not believe that a study could
extrapolate with any degree of confidence the effect that changing
the Commission's cross-ownership rules would have on minority and
female ownership levels, and any attempt to do so would be misleading. Variation in ownership structure over time, resulting from additional cross-owned entities, could provide additional data points to
study in the future. We seek comment on these views concerning
the inherent challenges to conducting comprehensive research on
these issues.
* * * * *

96
was likely to harm viewpoint diversity in the local market. A case-by-case waiver approach under either option we offer for comment would allow for close Commission examination of the particular circumstances of a
proposed combination. Where the newspaper purchase
of a television station, minority/female-owned or otherwise, would disserve the public interest, the Commission
would deny the request for a rule waiver. We seek
comment on whether a waiver requirement would provide adequate protection when the particular circumstances of a proposed merger run counter to our diversity goals.
*

*

*

*

*

222. Minority and Female Ownership. We also
sought comment in the NPRM on the effect that eliminating the radio/television cross-ownership rule would
have on our efforts to foster ownership diversity among
minorities and females.659 Further, the Commission
sought comment on the minority and female ownership
data contained in the 2012 323 Report.660 In addition, interested parties had the opportunity to comment on the
MMTC Cross-Ownership Study, as discussed in the context of the NBCO rule above.661 In response, several
commenters criticized the Commission for proposing to
relax any of its rules, including the radio/television crossownership rule, without first determining that there will

659
660
661

Id. at 17538, ¶ 134.
See 2012 323 Report Comments PN.
See supra ¶¶ 196-198.

97
be no negative impact on minority and female ownership.662 We have considered carefully whether there is
evidence in the current record that elimination of the radio/
television cross-ownership rule would likely adversely
affect minority and female ownership, and we believe, as
discussed below, that the current record does not establish that such harm is likely. Furthermore, we do not
believe that record evidence shows that the cross-ownership ban has protected or promoted minority or female ownership of broadcast stations, or that it could be
expected to do so in the future. Nevertheless, we invite
commenters to submit further data on the connection, if
any, between the radio/television cross-ownership rule
and minority and female ownership.
223. Notably, radio/television cross-ownership combinations were not the focus of commenters’ concerns
raised in response to the NPRM. In fact, no commenter to the NPRM presented empirical data or other
analyses that established that repeal of this rule would
harm competition, localism, or viewpoint diversity in local markets. As discussed above, we tentatively conclude that the rule is not necessary to promote competition or localism, and the record reflects that most radio
commercial stations do not broadcast significant amounts
of local news and information. The current record does
See NABOB 323 Report Comments at 2-3; Free Press NPRM
Comments at 9-10; NALIP NPRM Reply at 1-2; see also CWA
NPRM Reply at 6 (arguing that the Commission should not relax
any ownership rules because it has not studied minority and female
ownership issues adequately). As noted above in the context of the
NBCO rule, we tentatively reject arguments that the Prometheus II
decision requires us to take no action unless we can show definitively
that a rule change will have no negative impact on minority ownership levels. See supra ¶ 190.
662

98
not suggest that minority/female-owned radio stations
contribute more significantly to viewpoint diversity than
other radio stations or broadcast more meaningful
amounts of local news on which consumers rely as a primary source of information.663 We seek comment on
these views.664 Recognizing that repeal of the rule would
potentially allow for the acquisition of a limited number
of additional radio stations in some markets by incumbent television broadcasters, we seek comment on the
impact that elimination of the rule would have on media
consolidation and thus on small broadcast owners, including minority and women owners. As noted above,
the current radio/television rule already allows for a significant degree of cross-ownership of radio and television stations in a market. Second, the cross-ownership

663
NAB asserted that the “Commission cannot rely on the unproven
assertion of a causal connection between the structural rules . . .
and the levels of minority and female ownership as rationale for retaining the existing rules.” NAB 323 Report Rely at 5; see also Prometheus I, 373 F.3d at 395 (stating that “Section 202(h) requires the
Commission periodically to justify its existing regulations . . . [a]
regulation deemed useful when promulgated must remain so”).
664
As discussed further in the Diversity section below, several of
the media ownership studies in this proceeding concluded that there
is a positive relationship between minority station ownership and the
provision of certain types of minority-oriented content or the consumption of broadcast content by minority audiences. See infra ¶
253 (citing Media Ownership Study 8B at 15-17; Media Ownership
Study 7 at 12-13, 19-21; Media Ownership Study 6 at 28). Several
commenters also raised this issue. See NABOB 323 Report Comments at 4; LCCHR 323 Report Comments at 4; DCS 323 Report
Comments at 4. This observation, however, does not alter our view
that radio stations—be they minority-owned or not—do not contribute significantly to local news. We seek comment on whether recent evidence shows otherwise.

99
rule has always been accompanied by the ownership limitations contained in the local television and local radio
rules, which we propose to retain substantively unchanged in order to protect competition in local markets. We seek comment on whether the local ownership rules are sufficient to protect minority and female
broadcast owners from the competitive effects of media
consolidation.
224. Moreover, while we acknowledge the concerns
raised by NABOB and others advocating for additional
minority ownership opportunities, we agree with commenters, including NAB, that the low level of minority
and female broadcast ownership cannot be attributed
solely or primarily to consolidation.665 Nor has any
commenter shown that these low levels of ownership are
a result of the existing radio/television cross-ownership
rule. We recognize the presence of many disparate factors, including, most significantly, access to capital, as
longstanding, persistent impediments to ownership diversity in broadcasting. 666 As discussed below, such
factors require further study and consideration.
225. In this FNPRM, we reaffirm our commitment
to broadcast ownership diversity as an important goal.
The 2010 Quadrennial Review record, however, does not
appear to establish that elimination of the radio/televi-

See, e.g., NAB NPRM Comments at 56.
Free Press agreed, in part, with this assessment, stating that
“there are myriad factors contributing to the abysmal state of diverse ownership, including but not limited to institutional discrimination in financing and access to capital and deals . . . [h]owever,
market consolidation is chief among these factors and even exacerbates the other barriers.” Free Press 323 Report Reply at 4.
665
666

100
sion cross-ownership rule would adversely affect ownership diversity. 667 We ask commenters to provide any
demonstrable evidence of such a link that may have become available since the 2010 Quadrennial Review.
*

*

*

*

*

NAMB contended that relaxation of the radio/television crossownership rule would not cause minority-owned stations to become
likely take-over or purchase targets for large station groups. Even
if this were to occur, NAMB added minority broadcasters should
have the same market opportunities to sell their stations as nonminority broadcasters. NAMB 323 Report Comments at 6. Likewise, NAMB asserted that eliminating the rule would not significantly reduce the inventory of stations available for interested minority purchasers and that the inventory of stations following elimination of the rule would be plentiful. Id. at 5; see also NAB 323 Report reply at 8.
667

101
BEFORE THE
FEDERAL COMMUNICATIONS COMMISSION
WASHINGTON, D.C. 20554

MB Docket Nos. 14-50, 09-182, 07-294, 04-256
IN THE MATTER OF 2014 QUADRENNIAL REGULATORY
REVIEW—REVIEW OF THE COMMISSION’S BROADCAST
OWNERSHIP RULES AND OTHER RULES ADOPTED
PURSUANT TO SECTION 202 OF THE TELECOMMUNICATIONS ACT OF 1996; 2010 QUADRENNIAL REGULATORY
REVIEW—REVIEW OF THE COMMISSION’S BROADCAST
OWNERSHIP RULES AND OTHER RULES ADOPTED PURSUANT TO SECTION 202 OF THE TELECOMMUNICATIONS
ACT OF 1996; PROMOTING DIVERSIFICATION OF OWNERSHIP IN THE BROADCASTING SERVICES; RULES AND
POLICIES CONCERNING ATTRIBUTION OF JOINT SALES
AGREEMENTS IN LOCAL TELEVISION MARKETS
Adopted: Aug. 10, 2016
Released: Aug. 25, 2016
SECOND REPORT AND ORDER

By the Commission: Commissioner Clyburn issuing a
statement; Commissioners Pai and O’Rielly dissenting
and issuing separate statements.

102
TABLE OF CONTENTS

Heading

Paragraph#

II. INTRODUCTION .......................................................... 1
II. BACKGROUND ............................................................. 6
III. MEDIA OWNERSHIP RULES ................................. 17
A. Local Television Ownership Rule ......................... 17
B. Local Radio Ownership Rule ................................ 82
C. Newspaper/Broadcast Cross-Ownership Rule ..... 129
D. Radio/Television Cross-Ownership Rule............... 198
E. Dual Network Rule................................................... 216
IV. DIVERSITY ORDER REMAND ............................. 234
A. Commission Diversity Initiatives and Data
Collection Efforts ................................................. 237
B. Remand Review of the Revenue-Based
Eligible Entity Standard ..................................... 271
C. Remand Review of a Race- or GenderConscious Eligible Entity Standard ...................... 287
D. Additional Proposals Related to Minority and
Female Ownership .................................................... 317
V.
SHARED SERVICE AGREEMENTS .................... 337
A. Introduction .......................................................... 337
B. Background ........................................................... 339
C. Discussion .................................................................. 341
VI. PROCEDURAL MATTERS ..................................... 378
VII. ORDERING CLAUSES ............................................ 381

APPENDIX A — Final Rule Changes
APPENDIX B — Final Regulatory Flexibility Analysis
I.

INTRODUCTION

1.
With this Second Report and Order (Order), we
bring to a close the 2010 and 2014 Quadrennial Review

103
proceedings.1 In this Order, we maintain strong media
ownership rules, take steps to help promote small business participation in the broadcast industry, and adopt
rules that will help to promote transparency in local television markets. The Commission has built a substantial record that evidences both the existence of a dynamic
media marketplace and the continuing importance of traditional media outlets in their local communities. We
recognize that broadband Internet and other technological advances have changed the ways in which many consumers access entertainment, news, and information
programming. Traditional media outlets, however, are
still of vital importance to their local communities and
essential to achieving the Commission’s goals of competition, localism, and viewpoint diversity. This is particularly true with respect to local news and public interest
programming, with traditional media outlets continuing
to serve as the primary sources on which consumers
rely.

See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., MB Docket No. 14-50, Further Notice of Proposed Rulemaking and Report and Order, 29 FCC Rcd 4371 (2014) (FNPRM and
Report and Order); 2010 Quadrennial Regulatory Review—Review
of the Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act of
1996 et al., MB Docket No. 09-182, Notice of Proposed Rulemaking,
26 FCC Rcd 17489 (2011) (NPRM); 2010 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996, MB Docket No. 09-182, Notice of Inquiry,
25 FCC Rcd 6086 (2010) (NOI).
1

104
2.
Moreover, for television broadcasters, theirs is
an industry on the precipice of great change. The ongoing voluntary incentive auction of broadcast television
spectrum, which is critically important to the Commission’s efforts to unleash the full transformative potential
of broadband Internet, provides television broadcasters
with a new and unique financial opportunity. We anticipate that the auction will both free up significant spectrum for mobile broadband and result in an even healthier broadcast industry. While the auction may have a
dramatic impact on the television landscape in many local markets, based on our assessment of the record and
the ongoing nature of the auction, we find that it is too
soon to quantify this impact; accordingly, it would be
premature to change our media ownership rules in anticipation of the incentive auction’s impact at this time.2
We will soon commence our evaluation of the broadcast
marketplace post-auction, and we expect that these issues will feature prominently in future media ownership
reviews.
3.
Based on our careful review of the record, we
find that the public interest is best served by retaining
our existing rules, with some minor modifications. These
rules promote competition and a diversity of viewpoints
in local markets, thereby enriching local communities
through the promotion of distinct and antagonistic voices.
Ideally, our media landscape should be diverse because
our population is diverse, and retaining the existing media ownership rules is one way in which the Commission
can help to promote such diversity. The record in this

For additional discussion of the incentive auction, see paragraphs
79-81, infra.
2

105
proceeding leads us to conclude that retaining the existing rules is the best way to promote our policy goals in
local markets at this time. In addition, following the
Third Circuit’s decision in Prometheus III, we are readopting the Television Joint Sales Agreement (JSA) Attribution Rule adopted in the Report and Order in this
proceeding.3
4.
We also address in this Order the Third Circuit’s remand in Prometheus II of certain aspects of the
Commission’s 2008 Diversity Order. 4 Specifically, we
reinstate the revenue-based eligible entity standard, as
well as the associated measures to promote the Commission’s goal of encouraging small business participation
in the broadcast industry, which we believe will cultivate
innovation and enhance viewpoint diversity. Also, as
directed by the court, we have considered the socially
and economically disadvantaged business definition as a
possible basis for favorable regulatory treatment, as
well as other possible definitions that would expressly
recognize the race and ethnicity of applicants.5 However, we find that the demanding legal standards the
courts have said must be met before the Government
may implement preferences based on such race- or genderconscious definitions have not been satisfied.

See infra para. 15.
Prometheus Radio Project v. FCC, 652 F.3d 431, 437 (3d Cir.
2011) (Prometheus II); see also Promoting Diversification of Ownership in the Broadcasting Services, Report and Order and Third
Further Notice of Proposed Rulemaking, 23 FCC Rcd 5922 (2008)
(Diversity Order and Diversity Third FNPRM).
5
Prometheus II, 652 F.3d at 471-73.
3
4

106
5.
Finally, we take steps to address concerns
about the use of a variety of sharing agreements between independently owned commercial television stations. Specifically, we adopt a definition of Shared Service Agreements (SSAs) and require commercial television stations to disclose those SSAs by placing the
agreements in each station’s online public inspection
file. This action will lead to more comprehensive information about the prevalence and content of SSAs between television stations, which will improve the Commission’s and the public’s ability to assess the potential
impact of these agreements on the Commission’s rules
and policies.
II.

BACKGROUND

6.
The media ownership rules subject to this Quadrennial Review are the Local Television Ownership
Rule, the Local Radio Ownership Rule, the Newspaper/
Broadcast Cross-Ownership Rule, the Radio/Television
Cross-Ownership Rule, and the Dual Network Rule.6 Congress requires the Commission to review these rules
every four years to determine whether they “are necessary in the public interest as the result of competition”
and to “repeal or modify any regulation [the Commission] determines to be no longer in the public interest.”7
These rules are found, respectively, at 47 CFR §§ 73.3555(b),
(a), (d), and (c) and 47 CFR § 73.658(g).
7
Telecommunications Act of 1996, Pub. L. No. 104-104, § 202(h),
110 Stat. 56, 111-12 (1996) (1996 Act); Consolidated Appropriations
Act, 2004, Pub. L. No. 108-199, § 629, 118 Stat. 3, 99-100 (2004) (Appropriations Act) (amending Sections 202(c) and 202(h) of the 1996
Act). In 2004, Congress revised the then-biennial review requirement to require such reviews quadrennially. See Appropriations
Act § 629, 118 Stat. at 100.
6

107
The Third Circuit has instructed that “necessary in the
public interest” is a “ ‘plain public interest’ standard under which ‘necessary’ means ‘convenient,’ ‘useful,’ or
‘helpful,’ not ‘essential’ or ‘indispensable.’ ”8 There is no
“presumption in favor of repealing or modifying the
ownership rules.” 9 Rather, the Commission has the
discretion “to make [the rules] more or less stringent.”10
This review focuses on determining whether there is a
reasoned basis for retaining, repealing, or modifying
each rule consistent with the public interest.”11
7.
The Commission began the 2010 proceeding
with a series of workshops held between November 2009
and May 2010. Participants in the workshops discussed
the scope and content of the review process. Thereafter the Commission released a Notice of Inquiry (NOI)
on May 25, 2010, seeking comment on a wide range of
issues to help determine whether the current media
8
Prometheus Radio Project v. FCC, 373 F.3d 372, 394 (3d Cir.
2004) (Prometheus I). The court also concluded that the Commission is required “to take a fresh look at its regulations periodically
in order to ensure that they remain ‘necessary in the public interest.’ ” Id. at 391.
9
CBS Corp. NPRM Comments at 3 (CBS) (citing Fox Television
Stations v. FCC, 280 F.3d 1027, 1048 (D.C. Cir. 2002); Sinclair Broad.
Group, Inc. v. FCC, 284 F.3d 148, 159 (D.C. Cir. 2002) (Sinclair)).
The court in Prometheus I determined that Section 202(h) does not
carry a presumption in favor of deregulation. See Prometheus I,
373 F.3d at 395 (rejecting the “misguided” findings in Fox and Sinclair regarding a “deregulatory presumption” in Section 202(h)); see
also Prometheus II, 652 F.3d at 444-45 (confirming the standard of
review under Section 202(h) adopted in Prometheus I).
10
Prometheus I, 372 F.3d at 395; see also Prometheus II, 652 F.3d
at 445.
11
See Prometheus I, 373 F.3d at 395; Prometheus II, 652 F.3d at
445.

108
ownership rules continue to serve the Commission’s policy goals. 12 Subsequently, the Commission commissioned 11 economic studies, conducted by outside researchers and Commission staff, which were peer reviewed and then released to the public for comment, in
order to provide data on the impact of market structure
on the Commission’s policy goals of competition, localism, and diversity.13
8.
After the release of the NOI, the Court of Appeals for the Third Circuit issued its opinion in Prome-

See NOI, 25 FCC Rcd at 6086.
Media Bureau Announces the Release of Requests for Quotation for Media Ownership Studies and Seeks Suggestions for Additional Studies in Media Ownership Proceeding, Public Notice,
25 FCC Rcd 7514 (MB 2010); FCC Releases Five Research Studies
on Media Ownership and Adopts Procedures For Public Access to
Underlying Data Sets, Public Notice, 26 FCC Rcd 8472 (MB 2011);
FCC Releases Three Additional Research Studies on Media Ownership, Public Notice, 26 FCC Rcd 10240 (MB 2011); FCC Releases
the Final Three Research Studies on Media Ownership, Public Notice, 26 FCC Rcd 10380 (MB 2011). The media ownership studies
for the 2010 Quadrennial Review proceeding are available at http://
www.fcc.gov/encyclopedia/2010-media-ownership-studies. In the
NPRM, the Commission sought formal comment on the studies.
NPRM, 26 FCC Rcd at 17556-64, paras. 171-93. Few commenters
to the NPRM provided specific criticisms of individual studies, though
the University of Southern California Annenberg School for Communications & Journalism (USC) provided an all-around critique
of the studies. University of Southern California Annenberg School
for Communications & Journalism NPRM Comments at 5 (submitted on behalf of the Communication Policy Research Network) (USC).
Overall, we find that the studies provide useful data and analysis
regarding the impact of market structure on the Commission’s policy goals, and we will discuss the studies in the context of the relevant rule sections below.
12
13

109
theus II, which considered appeals from the Commission’s review of the media ownership rules in the 2006
Quadrennial Review Order.14 The court affirmed the
Commission’s decision to retain the Local Television and
Radio Rules in order to protect competition in local media markets.” 15 The court also affirmed the Commission’s retention of the Dual Network Rule based on potential harm to competition that would result from mergers among the top four networks.16 In addition, the
court affirmed the Commission’s conclusion to retain the
Radio/Television Cross-Ownership Rule based on its
contribution to the Commission’s diversity goal.17 The
Third Circuit vacated and remanded the Newspaper/
Broadcast Cross-Ownership Rule as modified by the
Commission in the 2006 Quadrennial Review Order on
procedural grounds, concluding that the Commission
had failed to comply with the notice and comment provisions of the Administrative Procedure Act (APA).18 Finally, the court vacated and remanded a number of
measures adopted in the Commission’s 2008 Diversity
Prometheus II, 652 F.3d at 431; 2006 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996 et al., Report and Order and Order on Reconsideration, 23 FCC Rcd 2010, 2016-17, para. 9 (2008) (2006 Quadrennial Review Order).
15
Prometheus II, 652 F.3d at 460-61, 462-63. The local radio rule
was also retained, in part, to help promote the Commission’s diversity goal. See id. at 462-63 (affirming the Commission’s decision to
retain the local radio ownership rule).
16
Id. at 463-64.
17
Id. at 456-58.
18
Id. at 453. The court did not address the substantive modifications to the rule.
14

110
Order.19 Specifically, the court vacated and remanded
measures adopted in the Diversity Order that were designed to increase ownership opportunities for “eligible
entities,” including minority- and women-owned entities, because it determined that the Commission’s revenue-based eligible entity definition was arbitrary and
capricious.20 The court directed the Commission to address this issue in the course of the 2010 Quadrennial
Review.
9.
On December 22, 2011, the Commission released the Notice of Proposed Rulemaking (NPRM), in
which the Commission proposed modest, incremental
changes to the broadcast ownership rules and sought
comment on those changes. The Commission also
sought comment in the NPRM on the aspects of the
Commission’s 2008 Diversity Order that the Third Circuit had remanded in Prometheus II, as well as other
actions that the Commission might take to increase the
level of broadcast station ownership by minorities and
women. Finally, the Commission sought comment on
various attribution issues that define which interests in
a licensee must be counted in applying the broadcast
ownership rules. In particular, the Commission sought
comment on the impact of certain programming or other
sharing agreements between stations and whether it
should modify the broadcast attribution rules to account
for such agreements or adopt disclosure requirements.
In doing so, the Commission referenced its pending proceeding regarding the potential attribution of television

19
20

Id. at 471.
Id.

111
JSAs.21 In that proceeding, the Commission had tentatively concluded that television JSAs have the same effects in local television markets that radio JSAs do in
local radio markets and that the Commission should
therefore attribute television JSAs.
10. On November 14, 2012, the Media Bureau released a report on the ownership of commercial broadcast stations (2012 323 Report).22 Consistent with other
data and extensive comment already in the record, the
2012 323 Report confirmed low levels of broadcast station ownership by women and minorities-a situation long
recognized by the Commission.23 On December 3, 2012,
the Commission granted the request of several parties

Rules and Policies Concerning Attribution of Joint Sales Agreements in Local Television Markets, Notice of Proposed Rulemaking,
19 FCC Rcd 15238 (2004).
22
See 2010 Quadrennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Report on Ownership of Commercial Broadcast Stations, 27
FCC Rcd 13814 (MB 2012) (2012 323 Report). The 2012 323 Report is based on ownership information, as of November 1, 2009,
and October 1, 2011, submitted by broadcasters in their biennial
Form 323 filings. See FCC, Form 323, Ownership Report for
Commercial Broadcast Stations, http://transition.fec.gov/Forms/
Form323/323.pdf, see also 47 CFR § 73.3615.
23
See, e.g., Diversity Order, 23 FCC Rcd at 5924, para. 1 (noting
that “minority- and women-owned businesses” historically have
not been “well-represented in the broadcasting industry”); Policies
and Rules Regarding Minority and Female Ownership of Mass
Media Facilities, Notice of Proposed Rulemaking, 10 FCC Rcd
2788, 2789, para. 5 (1995) (“[D]espite the Commission’s efforts to
increase minority ownership of broadcast and cable facilities, minorities today remain significantly underrepresented among mass
media owners.”).
21

112
for “an additional, formal opportunity to comment on
the [2012 323 Report].”24 On May 30, 2013, the Multicultural Media, Telecom and Internet Council (MMTC)
submitted a study titled “The Impact of Cross Media
Ownership on Minority/Women Owned Broadcast Stations” (MMTC Cross-Ownership Study). 25 The Commission sought comment on this study during the summer of 2013.26
11. On April 15, 2014, the Commission released the
Further Notice of Proposed Rulemaking (FNPRM)
(adopted March 31, 2014), which, building upon the record collected in the 2010 Quadrennial Review proceeding, initiated the 2014 Quadrennial Review proceeding.27
The FNPRM incorporated the existing 2010 record into
the 2014 proceeding; proposed rules that were formulated based on evaluation of that existing record; and

See Commission Seeks Comment on Broadcast Ownership Report et al., Public Notice, 27 FCC Rcd 15036 (MB 2012).
25
Letter from David Honig, President, Multicultural Media, Telecom and Internet Council (MMTC), to Chairwoman Mignon Clybum,
Commissioner Ajit Pai, and Commissioner Jessica Rosenworcel,
FCC (May 30, 2013) (MMTC May 30, 2013 Ex Parte Letter) (attaching Mark Fratrik, BIA/Kelsey, The Impact of Cross Media Ownership on Minority/Women Owned Broadcast Stations (May 30, 2013)
(MMTC Cross-Ownership Study)).
26
Media Bureau Invites Comments on Study Submitted by the
Minority Media and Telecommunications Council in 2010 Quadrennial Review of Broadcast Ownership Rules et al., Public Notice,
28 FCC Rcd 8244 (MB 2013).
27
FNPRM, 29 FCC Rcd 4371. Prior to the release of the
FNPRM, an Order was circulated by the Commission that would
have resolved the 2010 Quadrennial Review Proceeding. That Order, however, did not achieve a majority and was removed from consideration.
24

113
sought new and additional information and data on market conditions and competitive indicators. As part of
the same item, the Commission released the Report and
Order, which adopted attribution rules for certain television JSAs.28
12. In May 2014, multiple parties (Petitioners)
sought appellate review of the FNPRM and Report and
Order in both the D.C. Circuit and the Third Circuit.29
Petitioners challenged the JSA Attribution Rule and the
agency’s decision to defer resolution of certain issues
concerning its media ownership rules until it updates
the record in this proceeding. In addition, Prometheus
Radio Project asserted that the Commission failed to
comply with the Third Circuit’s order to justify or modify the Commission’s method of boosting minority ownership or to propose new measures to do so. The D.C.
Circuit was originally selected to hear the cases, but
transferred the consolidated proceeding to the Third
Circuit. Oral arguments in the Third Circuit were held
on April 19, 2016.
13. On June 27, 2014, the Media Bureau released a
further report on the ownership of commercial broadcast stations (2014 323 Report).30 Consistent with the

Report and Order, 29 FCC Rcd at 4527-45, paras. 340-72.
See, e.g., Petition for Review of Final Order on Television Joint
Sales Agreements, Howard Stirk Holdings, LLC v. FCC, No. 14-1090
(D.C. Cir. May 30, 2014).
30
See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996 et
al., Report on Ownership of Commercial Broadcast Stations, 29 FCC
Rcd 7835 (MB 2014) (2014 323 Report). The 2014 323 Report is based
28
29

114
2012 323 Report and other data and extensive comment
in the record, the 2014 323 Report confirmed low-and
generally stable-levels of broadcast station ownership
by women and minorities. Also on June 27, 2014, the
Media Bureau released an Order in this proceeding extending the comment and reply deadlines on the FNPRM,
which also provided interested parties with an opportunity to provide comment on “any facts, information, or
positions that are implicated by the content of the 2014
323 Report.”31
14. On May 12, 2016, the Media Bureau and the Office of Strategic Planning and Policy Analysis released
and sought public comment on the Hispanic Television
Study (as well as the associated peer review report), a
Commission study designed to examine the nexus between ownership, programming, and viewing, in order
to expand the discussion and understanding of these interrelationships, particularly among Hispanic television
station owners and Hispanic audiences. 32 Initially, comments were due on May 26, 2016, and replies on June 3,
on ownership information, as October 1, 2013, submitted by broadcasters in their biennial Form 323 filings. See FCC Form 323, Ownership Report for Commercial Broadcast Stations, http://transition.fcc.
gov/Forms/Form323/323.pdf; see also 47 CFR § 73.3615.
31
See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Order, 29 FCC Rcd 7911 (MB 2014).
32
Media Bureau Seeks Comment on Hispanic Television Study
as Part of Quadrennial Review of Media Ownership Rules and
Diversity of Ownership of Broadcast Stations, Public Notice, DA
16-534 (OSP/MB May 12, 2016). Prior to peer review, the study was
posted on the Commission’s website. Press Release, FCC, FCC
Posts Hispanic Television Study for Review (Apr. 28, 2016), https://
apps.fcc.gov/edocs_public/attachmatch/DOC-339106A1.pdf.

115
2016; however, the Commission subsequently extended
the deadlines to June 2, 2016, and June 9, 2016, respectively.33
15. On May 25, 2016, the Third Circuit issued a decision (Prometheus III) addressing the various challenges to the FNPRM and Report and Order. The
court remanded the eligible entity issues to the Commission and ordered the Commission and certain public interest petitioners to engage in mediation to set a timetable for reaching final agency action on the eligible entity definition. The court also vacated the Television
JSA Attribution Rule—adopted in the Report and Order—finding that the Rule was adopted prematurely
because the Commission had not yet determined
whether the Local Television Ownership Rule remains
necessary pursuant to Section 202(h). The court stated
that the Rule could be readopted if the Commission were
to conclude, following completion of its Section 202(h)
review, that the existing Local Television Ownership
Rule should be retained or replaced with a new rule.34
16. Policy Goals. We continue to find that the
longstanding policy goals of competition, localism, and
diversity represent the appropriate framework within
See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Order, DA 16-586 (MB May 26, 2016).
34
See generally Prometheus Radio Project v. FCC, 824 F.3d 33
(3d Cir. 2016) (Prometheus III). The court also rejected the argument that the Commission acted “arbitrarily and capriciously by
not attributing all . . . SSAs” in the Report and Order, crediting the Commission’s argument that it needed to study SSAs more
closely before making an attribution decision. Id. at 60 n.18.
33

116
which to evaluate our media ownership rules. Accordingly, we reject suggestions in the record that the Commission should adopt any additional or different policy
goals. 35 While those proposals generally represent
worthwhile pursuits, we do not believe that they can be
meaningfully promoted through the structural ownership rules and/or are outside the Commission’s statutory
authority.
III. MEDIA OWNERSHIP RULES
A.

Local Television Ownership Rule
1. Introduction

17. The current Local Television Ownership Rule
allows an entity to own two television stations in the
same Nielsen Designated Market Area (DMA) only if
there is no Grade B contour overlap between the commonly owned stations, or at least one of the commonly
owned stations is not ranked among the top-four stations in the market (top-four prohibition) and at least
eight independently owned television stations remain in
the DMA after ownership of the two stations is combined (eight-voices test). Based on the record that was

See, e.g., Diversity and Competition Supporters NPRM Comments at 5 (DCS) (proposing that the Commission adopt the goals of
remedying the present effects of past discrimination and preventing
future discrimination); Don Schellhardt NPRM Comments at 6 (urging the Commission to [promote/add] “robust employment” as a policy goal); Writers Guild of America, East, AFL-CIO NPRM Comments at 2-3(WGAE) (asserting that the Commission must add the
goal of increasing the resources devoted to diverse local news programming in order to effectively promote the core policy goals of
competition, localism, and diversity). We note that remedying past
discrimination is discussed in Section IV.C.2.b., infra.
35

117
compiled for the 2010 and 2014 Quadrennial Review proceedings, we find that the current Local Television Ownership Rule, with a limited contour modification, remains necessary in the public interest.36 As discussed
below, we find that the Local Television Ownership Rule
remains necessary to promote competition and that this
competition-based rule will continue to promote viewpoint diversity by helping to ensure the presence of independently owned broadcast television stations in local
markets and is consistent with our localism goal as competition also incentivizes television stations to select
programming responsive to the interests and needs of
the local community. In addition, we find that the Local Television Ownership Rule continues to be consistent with our goal of promoting minority and female
ownership of broadcast television stations. Moreover,
we find that a limited modification of the rule—replacing the Grade B contour overlap test with a digital noise
limited service contour (NLSC) overlap test—will better promote competition and reflect the current television marketplace, and that the benefits of this approach
outweigh any burdens, which will be minimized by our
decision to grandfather existing combinations as described below. In addition, we retain the existing
failed/failing station waiver policy. Finally, we clarify
the application of the top-four prohibition to “affiliation
swaps” that would result in a single entity obtaining control over two of the top-four-rated stations in a market.

See Telecommunications Act of 1996, Pub. L. No. 104-104,
§ 202(h), 110 Stat. 56, 111-12 (1996); NPRM, 26 FCC Rcd at 17498,
para. 26; FNPRM, 29 FCC Rcd at 4377, para. 15; see also 2006 Quadrennial Review Order, 23 FCC Rcd at 2060, para. 87.
36

118
Overall, we find that the benefits of the rule we adopt
today outweigh any burdens.
18. Under our revised Local Television Ownership
Rule, an entity may own up to two television stations in
the same DMA if: (1) the digital NLSCs of the stations
(as determined by Section 73.622(e) of the Commission’s
rules) do not overlap; or (2) at least one of the stations is
not ranked among the top-four stations in the market
and at least eight independently owned television stations would remain in the DMA following the combination.37 In calculating the number of stations that would
remain post-transaction, only those stations whose digital NLSCs overlap with the digital NLSC of at least one
of the stations in the proposed combination will be considered.
2. Background

19. In the FNPRM, the Commission proposed to
retain the existing Local Television Ownership Rule, but
with a single modification—replacing the analog Grade
B contour overlap provision (i.e., the test for determining whether to apply the top-four prohibition and the
eight-voices test) with a digital NLSC overlap test.38 The
Commission proposed to retain the remainder of the rule,
specifically, the top-four prohibition, the eight-voices
test, and the numerical limits. 39
In addition, the
FNPRM sought comment on: the application of the
top-four prohibition to transactions commonly referred
to as “affiliation swaps”; potential modifications to the

37
38
39

See Appendix A; see also 47 CFR § 73.622(e).
FNPRM, 29 FCC Rcd at 4383-84, paras. 26-29.
Id. at 4386-94, paras. 35-55.

119
failed/ failing station waiver criteria; the impact of multicasting (including dual affiliations via multicasting) on
local markets; and the impact of the proposed rule on
minority and female ownership.40
20. Broadcast commenters generally oppose the retention of the Local Television Ownership Rule on the
basis of its effect on small market television stations.41
In particular, Nexstar Broadcasting, Inc. (Nexstar) argues that the rule serves only to prevent television
broadcasters in medium and small markets from effectively competing with other integrated, multi-platform
video programming distributors.42 Broadcasters state
that the rules do more harm than good in smaller markets by preventing stations from realizing the benefits
of joint ownership and sharing arrangements.43 The
National Association of Broadcasters (NAB) also argues
that the ownership rules do not promote the independent production of local news programming.44
21. Other commenters support the Commission’s
proposal to retain the rules because of the continuing
Id. at 4390-93, 4395-4401, paras. 45-50, 56-73.
Nexstar Broadcasting, Inc. FNPRM Comments at 17 (Nexstar);
Stainless Broadcasting, L.P. et al., FNPRM Comments at 2-3, 5-6
(Broadcast Licensees). In addition, LIN and the Broadcast Licensees argue that as more video is delivered over wireless spectrum,
there should be regulatory parity between the wireless and broadcast industries. LIN Television Corp. d/b/a LIN Media FNPRM
Comments at 6 (LIN); Broadcast Licensees FNPRM Comments at
3.
42
Nexstar FNPRM Comments at 17.
43
Coalition of Smaller Market Television Stations FNPRM Comments at 4 (Smaller Market Coalition); see also National Association
of Broadcasters FNPRM Comments at 39 (NAB).
44
NAB FNPRM Comments at 9-10.
40
41

120
need to prevent excessive consolidation of television stations.45 Commenters supporting retention of the rule
cite the increase in television consolidation both at the
local and national levels that has adversely affected programming diversity. 46 Free Press states that television consolidation results in the same company owning
multiple media outlets in the same community such that
changing the channel brings the same content from the
same company, packaged with slightly different graphics
and sometimes delivered by a different reporter.47 Free
Press argues that the public interest in ensuring programming diversity should outweigh any efficiencies
broadcasters claim are gained through consolidation
and points out that broadcast television has an obligation to serve the public interest because of its use of the
public airwaves and thus is not a purely commercial endeavor. 48 It also questions broadcasters’ arguments
that efficiencies lead to public interest benefits such as
additional local news programming.49
3. Discussion

22. Section 202(h) of the 1996 Act requires the Commission to review whether the Local Television Ownership
Rule continues to be “necessary in the public interest as

Free Press FNPRM Comments at 9-10; Block Communications,
Inc. FNPRM Comments at 3 (Block); Morgan Wick FNPRM Comments at 8 (Wick).
46
Free Press FNPRM Comments at 10; Block FNPRM Comments at 3.
47
Free Press FNPRM Comments at 9.
48
Free Press FNPRM Reply at 8.
49
Id. at 8-9.
45

121
a result of competition.” 50 For the reasons discussed
below, we conclude that the current rule, with the modifications and clarifications adopted herein, meets that
standard. We also conclude that it is appropriate to
maintain the current television market definition and
numerical limits on television ownership based on our
examination of the record before us. We modify the existing contour approach for application of the Local Television Ownership Rule by replacing the analog Grade
B contour with the digital NLSC, while grandfathering
any existing ownership combinations that exceed the numerical limits as a result of the change of methodology.
We retain the top-four prohibition and clarify that transactions involving changes of network affiliation must
comply with the top-four prohibition. We also retain
the eight-voices test and the existing waiver standard.
Finally, we decline to regulate dual network affiliations
via multicast at this time.
23. Market. The FNPRM tentatively found that
the Local Television Ownership Rule continues to be
necessary to promote competition among broadcast television stations in local television viewing markets. 51
We also tentatively found that the video programming
market remained distinct from the radio listening market and declined to expand the market definition to include all forms of media. 52 We sought comment on
these tentative conclusions.

Telecommunications Act of 1996, Pub. L. No. 104-104, § 202(h),
110 Stat. 56, 111-12 (1996).
51
FNPRM, 29 FCC Rcd at 4379-83, paras. 20-25.
52
Id. at 4380, para. 21.
50

122
24. The Writers Guild of America, West, Inc. (WGAW)
asserts that online video offerings are not yet meaningful substitutes for local broadcast television. WGAW
states that broadcast television continues to dominate in
terms of total viewing hours and advertising revenue.
WGAW cites Pew’s State of the Media Report which
found that broadcast television remains the primary
news source for the majority of consumers.53 WGAW
also argues that television remains the dominant platform for advertisers, representing $72 billion in revenue
in 2013, while advertisers spent only approximately $3
billion on online video advertising.54
25. By contrast, several broadcast commenters argue that our market definition is outdated and that the
video marketplace has expanded greatly to include online, cable, and direct-broadcast satellite (DBS) video offerings.55 Given the options that consumers have today
compared to when the rules were last updated, Nexstar
argues that the Commission should adopt a rule that ensures that local broadcasters, especially those in smaller
markets, are governed by a rational rule that affords
them the opportunity to compete effectively with all of
the other video content providers.56 NAB argues that
competition for audiences and advertisers from other
sources of video—such as from multichannel video programming distributors (MVPDs) and from Internet and
mobile video providers—creates adequate competitive
Writers Guild of America, West, Inc. FNPRM Comments at 6
(WGAW).
54
Id. at 6-7.
55
Nexstar FNPRM Comments at 6, 9-10; NAB FNPRM Comments at 41; Broadcast Licensees FNPRM Comments at 2.
56
Nexstar FNPRM Comments at 7.
53

123
pressures so that the harms associated with consolidation do not occur, especially in smaller markets.57 Additionally, NAB objects to our proposed market definition and, in support of this opposition, submits a study
that challenges the market definition used by the Department of Justice (DOJ) in its antitrust review by purporting to demonstrate that joint sales agreements and
duopoly ownership arrangements have not resulted in
increased advertising prices (the Singer/Caves study).58
26. As discussed below, we find that the record supports the conclusion that non-broadcast video offerings
still do not serve as meaningful substitutes for local
broadcast television.59 Accordingly, our analysis regarding the Local Television Ownership Rule must continue
to focus on promoting competition among broadcast television stations in local television viewing markets.
Competition within a local market motivates a broadcast
television station to invest in better programming and
to provide programming tailored to the needs and interests of the local community in order to gain market
share.60 By thus strengthening its position in the local
NAB FNPRM Comments at 47-50; NAB FNPRM Reply at 3.
See also Letter from Rick Kaplan, General Counsel and Executive
Vice President, and Jerianne Timmerman, Senior Vice President
and Deputy General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC (June 6, 2016) (NAB June 6 Ex Parte).
58
NAB FNPRM Comments at 42; NAB FNPRM Reply at 2. The
Singer/Caves study is provided at Attachment A of NAB’s FNPRM
comments.
59
See infra paras. 27-28, 30.
60
Community-tailored programming, which includes local news and
public interest programming, is largely limited to broadcast television as online video and cable network programming is largely national in scope.
57

124
market, a television broadcaster also strengthens its
ability to compete for advertising revenue and retransmission consent fees, an increasingly important source
of revenue for many stations. As a result, viewers in
the local market benefit from such competition among
numerous strong rivals in the form of higher quality programming.
27. While we recognize the popularity of video programming delivered via MVPDs, the Internet, and mobile devices, we find that competition from such video
programming providers remains of limited relevance for
the purposes of our analysis. Video programming delivered by MVPDs such as cable and DBS is generally
uniform across all markets, as is online video programming content. Unlike local broadcast stations, such programming providers are not likely to make programming
decisions based on conditions or preferences in local markets. No commenter in this proceeding offered evidence
of non-broadcast video programmers modifying their
programming decisions based on the competitive conditions in a particular local market. This strengthens
our determination that, while non-broadcast video programming may offer consumers additional programming options in general, they do not serve as a meaningful substitute in local markets due to their national focus. Unlike broadcast television stations, national programmers are not responsive to the specific needs and
interests of local markets, and as the Commission has
previously stated, competition among local rivals most
benefits consumers and serves the public interest.61

See FNPRM, 29 FCC Rcd at 4405, para. 83 (citing 2002 Biennial Regulatory Review—Review of the Commission’s Broadcast
61

125
28. In addition, we find that broadcast television’s
strong position in the local advertising market supports
our view that non-broadcast video programming distributors are not meaningful substitutes in local television
markets. NAB argues that advertisers no longer distinguish local broadcast television from non-broadcast
sources of video programming when choosing how to allocate spending for local advertising. 62 The current
data do not support this claim, as advertising revenues
for broadcast television stations remain strong and are
projected to grow through 2019.63 While advertising revenues on cable, satellite, and digital platforms have risen,
those gains do not appear to be at the expense of broadcast television stations.64 We find that broadcast tele-

Ownership Rules and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996, Report and Order and
Notice of Proposed Rulemaking, 18 FCC Rcd 13620, 13716, para.
246 (2003) (2002 Biennial Review Order)).
62
NAB FNPRM Comments at 47-50.
63
See Pew Research Center, State of the News Media 2015 at 46
(2015), http://www.iournalism.org/files/2015/04/FINAL-STATE-OFTHE-NEWS-MEDIA1.pdf (Pew State of the News Media 2015) (“In
2014 total on-air ad revenue for local stations reached $20 billion,
according to consulting firm BIA/Kelsey, up 7 percent from the year
before and down 3 percent compared with 2012, the last election
year.”); see also FNPRM, 29 FCC Rcd at 4381-82, para. 24. We
note that the slight decline from 2012 to 2014 is likely attributed to
the fact that 2012 was a presidential election year, in which political
ad spending is generally higher than non-presidential election cycles. See Pew State of the News Media 2015 at 46.
64
See Pew State of the News Media 2015 at 46 (finding that “[l]ocal
TV stations continued to fare well economically”); FNPRM, 29 FCC
Rcd at 4381-82, para. 24 (noting that from 2008 through 2011, local
broadcast television’s advertising revenue market share actually in-

126
vision continues to play a significant role in the local advertising market, particularly when it comes to political
advertising.65
29. With regard to the Singer/Caves study, we do
not find the study relevant or informative in this proceeding for multiple reasons. First, we find significant
issues with the statistical methods employed within the
study and with the interpretation of those results. For
example, based on our analysis, the cross-sectional regression analyses are likely to suffer from missing variable bias that could reverse the results on which the authors rely. The fixed effects regression analyses (which
may mitigate these statistical issues) merely show a lack
of statistical significance, which can result from measurement issues or a lack of variation in the relevant variable, as opposed to a lack of a relationship, as the authors’ interpret it. Also, their measure of JSAs/SSAs
is admittedly imprecise (except in one regression that
shows a lack of statistical significance), and this kind of
mismeasurement can lead to a host of statistical problems so that a regression based on imprecisely-measured data cannot be relied on. In addition, the study
critiques the local broadcast television market relied on
by DOJ in its merger reviews pursuant to Section 7 of
creased and achieved the highest levels since 2004). Broadcast stations receive considerable revenue from political advertising every
other year, which further highlights broadcast television’s unparalleled value to advertisers for reaching local markets. See Pew State
of the News Media 2015 at 46.
65
See Pew State of the News Media 2015 at 46 (“[Political advertising spending] seems to guarantee windfalls to local TV stations
in even-numbered years. In 2014 total on-air ad revenue for local
stations reached $20 billion, according to consulting firm BIA/
Kelsey. . . . ”).

127
the Clayton Act-which focuses solely on the impact of
the transaction in the local advertising market—and not
the market definition relied on by the Commission for
analyzing its Local Television Ownership Rule pursuant
to Section 202(h), as discussed herein. While the Commission’s market definition for purposes of the Local
Television Ownership Rule is similar to the market definition used by DOJ when evaluating broadcast television mergers, in that the scope of our rule is limited to
broadcasters, DOJ focuses on competition for advertising, whereas our rule is premised on multiple factors,
including audience share.66 Therefore, we find that the
Singer/Caves study does not inform the current proceeding.
30. Based on the record in this proceeding, we conclude that broadcast television stations continue to play
a unique and vital role in local communities that is not
meaningfully duplicated by non-broadcast sources of
video programming. In addition to providing viewers
with the majority of the most popular programming on
television, broadcast television stations remain the primary source of local news and public interest programming.67 Moreover, 34 million Americans, or 10 percent
of the United States population, lack broadband access

See, e.g., FNPRM, 29 FCC Rcd at 4383, para. 25 n.62 (noting the
similar market definitions).
67
See id. at 4426, para. 130 & n.344; Pew State of the News Media
2015 at 44 (providing viewership numbers for local television news
and noting that viewership for local television stations increased
slightly in 2014); see also infra para. 148 (discussing the role of local
broadcast television stations in providing local news in the context
of the NBCO Rule).
66

128
at speeds sufficient to stream or download video programming available via the Internet. 68 Accordingly,
we conclude that, for purposes of determining whether
our local TV rule remains necessary in the public interest, the relevant product market is the delivery of local
broadcast television service. Next, we evaluate whether
the rule remains necessary in the public interest.
31. Contour Overlap/Grandfathering Existing
Ownership Combinations. The FNPRM proposed to
retain the existing DMA and contour overlap approach
for application of the Local Television Ownership Rule,
as opposed to the DMA-only approach detailed in the

Inquiry Concerning the Deployment of Advanced Telecommunications Capability to All Americans in a Reasonable and Timely
Fashion, and Possible Steps to Accelerate Such Deployment Pursuant to Section 706 of the Telecommunications Act of 1996, as Amended by the Broadband Data Improvement Act, 2016 Broadband Progress Report and Notice of Inquiry on Immediate Action to Accelerate Deployment, 31 FCC Rcd 699, 731-32, para. 79 (2016) (2016
Broadband Progress Report) (finding that approximately 34 million
(10 percent of) Americans lack access to fixed broadband meeting
the 25 Mbps/3 Mbps speed benchmark adopted by the Commission).
While we do not take the position that broadband deployment and
adoption must be universal before we will consider Internet delivered video to be included in the market for the Local Television Ownership Rule, we find that the current level of penetration of broadband service remains relevant when considering the extent to which
online platforms may be meaningful substitutes for local broadcast
television stations. The Report also found that, with regard to mobile broadband access, that 1.7 million (one percent of ) Americans
do not have access to a mobile provider using LTE technology, and
that 171.5 million (53 percent of ) Americans do not have access to
mobile service provider with a LTE technology service with a minimum advertised speed of 10 Mbps/1 Mbps. See id. at 734-35.
68

129
NPRM. 69 In addition, the FNPRM proposed to replace the analog Grade B contour with the digital NLSC
and proposed to grandfather existing ownership combinations that would exceed the numerical limits under
the revised approach.70 No comments were submitted
on this issue.
32. Consistent with our tentative conclusions in the
FNPRM, we decline to adopt the DMA-only approach.71
Instead, we will retain the existing DMA and contour
overlap approach but replace the analog Grade B contour with the digital NLSC, which the Commission has
treated as the functional equivalent of the Grade B contour in previous proceedings.72 We find that this modified approach accurately reflects current digital service

69
FNPRM, 29 FCC Rcd at 4383, para. 26; see also NPRM, 26 FCC
Rcd at 17502, para. 37.
70
FNPRM, 29 FCC Rcd at 4383, 4384-85, paras. 26, 30.
71
No commenter advocated for the DMA-only approach.
72
See, e.g., Stephen Diaz Gavin, Esq., Letter, 25 FCC Rcd 1851,
1857-58 (MB 2010); Advanced Television Systems and their Impact
Upon the Existing Television Broadcast Service, Seventh Report
and Order and Eighth Further Notice of Proposed Rulemaking, 22
FCC Rcd 15581 (2007) (discussion of “DTV Power” in DTV Table
Appendix B treats the Grade B and NLSC contours as comparable
by using the Grade B contour for stations that did not have a DTV
channel); Implementation of the Satellite Home Viewer Extension
and Reauthorization Act of 2004, Report and Order, 20 FCC Rcd
17278, 17292, para. 31 (2005); Second Periodic Review of the Commission’s Rules and Policies Affecting the Conversion to Digital
Television, Report and Order, 19 FCC Rcd 18279, 18311, para. 72
(2004); Review of the Commission’s Rules and Policies Affecting the
Conversion to Digital Television, Report and Order and Further
Notice of Proposed Rulemaking, 16 FCC Rcd 5946, 5956, para. 22
(2001). By contrast, there is no digital counterpart to a station’s an-

130
areas while minimizing any potential disruptive impact.
In addition, consistent with previous Commission decisions, we find that retaining the DMA and contour overlap approach serves the public interest by promoting local television service in rural areas.73 That is, such an
alog city grade contour, which is an aspect of the Commission’s satellite station inquiry. Accordingly, consistent with case law developed after the digital transition, we continue to evaluate all future
requests for new or continued satellite status on an ad hoc basis.
See, e.g., Television Satellite Stations Review of Policy and Rules,
Report and Order, 6 FCC Rcd 4212, 4213, paras. 3-4 (1991) (defining
satellite stations and explaining how satellite stations are generally
exempt from the ownership restrictions set forth in Section 73.3555
(a)-(d) of the Commission’s rules) (subsequent history omitted) (Television Satellite Stations); HBK NV LLC, Memorandum Opinion
and Order, 25 FCC Rcd 2354 (MB 2010); see also Television Satellite
Stations, 6 FCC Rcd at 4215.
73
See Review of the Commission’s Regulations Governing Television Broadcasting, Report and Order, 14 FCC Rcd 12903, 12928-29,
paras. 51-53 (1999) (1999 Ownership Order); 2006 Quadrennial Review Order, 23 FCC Rcd at 2067-68, para. 104. In the 2002 Biennial
Review Order, in which the Local Television Ownership Rule was
relaxed, the Commission eliminated the contour overlap provision
and relied solely on DMAs. 2002 Biennial Review Order, 18 FCC
Rcd at 13691-92, paras. 185-87. However, in recognition of the
unique circumstances involving stations without Grade B contour
overlap, the Commission adopted waiver criteria that would permit
common ownership if the applicant could demonstrate “that the stations have no Grade B overlap and that the stations are not carried
by any MVPD to the same geographic area.” Id. at 13692, para. 187.
The revised rule adopted in the 2002 Biennial Review Order was
overturned on appeal for reasons unrelated to the waiver criteria.
Prometheus I, 373 F.3d at 418-21. Because the waiver criteria were
necessitated previously by the absence of a contour-overlap component in the rule and because we retain the existing DMA and contour
overlap approach, we find that those criteria are unnecessary and
therefore decline to consider or adopt such waiver criteria. Furthermore, no commenter advocated for this alternate approach.

131
approach continues to allow station owners in rural areas to build or purchase an additional station in remote
portions of the DMA, so long as there is no digital NLSC
overlap.74
33. We confirm that the digital NLSC is an accurate measure of a station’s current service area and thus
is an appropriate standard. It is important that the
Local Television Ownership Rule take into account the
current digital service area of a station. Thus, we continue to define the geographic dimensions of the local
television market by referring to DMAs under the modified rule we adopt today but replace the analog Grade
B contour with the digital NLSC, with the effect that
within a DMA an entity may own or operate two stations
in a market if the digital NLSCs of those stations do not
overlap.75 Where digital NLSC overlap exists, the combination will be permitted only if it satisfies the top-four
prohibition and the eight-voices test.
34. We also adopt the proposal to grandfather existing ownership combinations that would exceed the numerical limits by virtue of the revised contour approach
instead of requiring divestiture.76 Under these circumstances, we do not believe that compulsory divestiture is

See 2006 Quadrennial Review Order, 23 FCC Rcd at 2068,
para. 104.
75
The Commission previously determined that the DMA is the most
appropriate definition of the geographic dimensions of the local television market, and we do not disturb that finding. 1999 Ownership
Order, 14 FCC Rcd at 12926, para. 47. The approach we adopt in
this Order is consistent with our approach under the prior Local Television Ownership Rule.
76
FNPRM, 29 FCC Rcd at 4385, para. 33.
74

132
appropriate.77 We continue to believe that the disruption to the marketplace and hardship for individual owners resulting from forced divestiture of stations would
outweigh any benefits of forced divestiture to our policy
goals, including promoting ownership diversity. Furthermore, we note that the replacing the Grade B contour with the digital NLSC-given the similarity in the
contours-effectively maintains the status quo for most,
if not all, owners of duopolies formed as a result of the
previous Grade B contour overlap provision.
35. However, we conclude that where grandfathered
combinations are sold, the ownership rule governing television stations in effect at the time of the sale must be
complied with. If the digital NLSC of two stations in
the same DMA overlap, then the stations serve the same
area, even if there was no Grade B contour overlap prior
to the digital transition. Accordingly, requiring that a
grandfathered combination be brought into compliance
with the new standard at the time of sale is consistent
with our rationale for adopting the digital NLSC-based
standard and does not cause hardship by requiring
premature divestiture. Consistent with Commission
precedent, we find that the public interest would not be
served by allowing grandfathered combinations to be
In the Local Radio Ownership Rule section, we confirm the disruptive impact of compulsory divestitures but determine that divestitures would be appropriate if we tightened the local radio ownership
limits. Infra para. 106. In adopting the digital NLSC standard, we
are not reducing the number of stations that can be commonly owned
by all licensees; rather, we are adopting a technical change that may
result in a small number of station combinations no longer complying
with the criteria necessary to permit such common ownership. Accordingly, compulsory divestiture is not appropriate in these circumstances.
77

133
freely transferable in perpetuity where a combination
does not comply with the ownership rules at the time of
transfer or assignment.78
36. Numerical Limits. The FNRPM tentatively
found that the current numerical limits permitting the
ownership of up to two stations in a market, or a “duopoly,” serves the public interest by allowing for efficiencies through owning more than one station while also
promoting competition and diversit.79 We sought comment on whether to retain the existing numerical limits
subject to the other requirements proposed in the
FNPRM.80
37. Free Press supports retention of the rule’s numerical limits but would prefer a return to the one station per market rule (or, single license rule) that was in
effect prior to the relaxation of the Local Television
Ownership Rule in 1999, which it asserts would free up

Amendment of Sections 73.34, 73.240, and 73.636 of the Commission’s Rules Relating to Multiple Ownership of Standard, FM and
Television Broadcast Stations, Second Report and Order, 50 FCC
2d 1046, 1076, para. 103 (1975) (1975 Second Report and Order); see
also 2002 Biennial Review Order, 18 FCC Rcd at 13809-10, para. 487
(finding that allowing grandfathered combinations to be freely transferable “would hinder [the Commission’s] effort to promote and ensure competitive markets” and that “[g]randfathered combinations,
by definition, exceed the numerical limits that . . . promote the
public interest as related to competition”). Under our adopted approach, we continue to allow grandfathered combinations to survive
pro forma changes in ownership and involuntary changes of ownership due to death or legal disability of the licensee. 1975 Second
Report and Order, 50 FCC 2d at 1076, para. 103.
79
FNPRM, 29 FCC Rcd at 4387-88, para. 39-40.
80
Id. at 4386, para. 35.
78

134
stations for purchase by new entrants.81 Free Press contends that duopolies “have all but wiped out” diverse
ownership in the large urban markets where they are
currently permitted. 82 Also, Free Press argues that
multicasting eliminates the need to acquire an additional
television station and that a single license rule would encourage a station to make more efficient use of its broadcast spectrum.83 In the absence of a return to the single license rule, Free Press urges the Commission not
to relax the local television rule further, especially as local television remains a top source for news.84
38. We conclude that the local television marketplace has not changed sufficiently to justify tightening
the current numerical limits of the rule and returning to
a single-license television rule. 85 The data demonstrate that the duopolies permitted subject to the restrictions of the current rule have created tangible public interest benefits for viewers in local television markets that offset any potential harms that are associated
with common ownership.86 Such benefits include substantial operating efficiencies, which potentially allow a
Free Press FNPRM Comments at 9.
Id. at 8.
83
Free Press FNPRM Reply at 9.
84
Free Press FNPRM Comments at 8. According to studies cited
by Free Press, more people look to their local television news station, either live on-air or online, than any other news source. Id. at
9.
85
FNPRM, 29 FCC Rcd at 4387-88, para. 39 (tentatively finding
that the record established evidence of public interest benefits arising from duopolies permitted under the current rule).
86
See, e.g., Belo Corp. NOI Comments at 6-9 (Belo) (providing evidence of increased local news and information programming, including increased news staff in certain markets, that Belo asserted are
81
82

135
local broadcast station to invest more resources in news
or other public interest programming that meets the
needs of its local community.87 Moreover, as discussed
in greater detail in the paragraphs below on multicasting, we believe that the ability to multicast is not a
substitute for common ownership of multiple stations
and therefore does not justify tightening the existing
numerical limits.
39. Likewise, we do not find that there have been
sufficient changes in the local television marketplace
to justify ownership of a third in-market station. Commenters in favor of loosening the Local Television Ownership Rule cite growing competition from non-broadcast alternatives and the economic efficiencies of owning
multiple stations as the reasons why the Commission
should permit ownership of more than two stations. As
discussed above in connection with our decision to define
the relevant product market as broadcast television, we
conclude that it is not appropriate to consider competition from non-broadcast sources in evaluating whether
the rule remains necessary. 88 Despite the aforemen-

the result of efficiencies gained from common ownership); LIN
NPRM Comments at 17-19, Attach. 1 (providing evidence of increased local news and public interest programming, including locally produced local sports programming, and niche programming
that LIN asserted are the result of efficiencies gained from common
ownership); Nexstar NPRM Comments at 15, 18, 23-24 (providing
evidence of increased local news and information programming that
Nexstar asserted are the result of efficiencies gained from common
ownership); see also NAB NPRM Reply at 7-8; Smaller Market Coalition NPRM Reply at 5-7.
87
FNPRM, 29 FCC Rcd at 4387-88, para. 39.
88
See supra paras. 27-28, 30.

136
tioned benefits that duopolies can create, excessive consolidation remains likely to threaten the Commission’s
competition and diversity goals by jeopardizing small
and mid-sized broadcasters. Without significant evidence of the public interest benefits that could result
from the ownership of three stations in a local market
that are not already available from the ownership of two
stations, we do not believe that there is adequate justification at this time for increasing the numerical limits.
40. Top-Four Prohibition.
The FNRPM proposed to retain the top-four prohibition, which prohibits
mergers involving two top-four rated stations in a market, and it tentatively concluded that affiliation swaps
should be subject to the top-four prohibition.89 We tentatively found that the top-four prohibition remains necessary to promote competition in the local television marketplace, as mergers involving two of the top-four stations in a market would be the most deleterious to competition.90 In addition, we tentatively found that scenarios whereby a licensee could obtain control over two
top-four stations in a market through a transaction or
series of transactions, referred to as “affiliation swaps,”
should be subject to the top-four prohibition, as these
transactions would otherwise circumvent the intent of
the top-four prohibition rule and are not in the public
interest.91 We sought comment on the tentative decisions both to retain the existing prohibition and to apply
the prohibition to affiliation swaps.92

89
90
91
92

FNPRM, 29 FCC Rcd at 4388, 4390, paras. 41, 45.
Id. at 4388-89, paras. 41, 44.
FNPRM, 29 FCC Rcd at 4390, para. 45.
Id.

137
41. The American Cable Association (ACA), United
Church of Christ (UCC) et al., and WGAW support the
Commission’s conclusion that the top-four prohibition
remains necessary to preserve competition in local television markets. 93 ACA states that mergers involving
two top-four stations in a market would minimize competition between the commonly owned stations, and
thereby reduce the incentives for each station to improve its programming. 94 UCC et al. likewise argue
that mergers between two top-four stations would result
in a reduction of viewpoint diversity, competition, and
localism by eliminating an important independent source
of local news.95 WGAW states that television mergers
and acquisitions in 2013 totaled $12.4 billion alone, compared to the total volume ($13.2 billion) over the last five
years, and that these transactions have concentrated
ownership among the largest broadcast group owners,
such as Sinclair, Gray, and Nexstar.96 WGAW asserts
that the Commission’s station ownership limits likely
serve as the only measure preventing further concentration that would harm competition and, therefore, the
public interest.97

American Cable Association FNPRM Comments at 6 (ACA); Office of Communication, Inc. of the United Church of Christ, Media
Alliance, National Organization for Women Foundation, Communications Workers of America, Common Cause, Benton Foundation,
Media Council Hawai’i, Prometheus Radio Project, and Media Mobilizing Project FNPRM Comments at 27 (UCC et al.); WGAW
FNPRM Comments at 2, 7.
94
ACA FNPRM Comments at 6.
95
UCC et al. FNPRM Comments at 27.
96
WGAW FNPRM Comments at 7.
97
Id. at 2, 7.
93

138
42. Broadcast commenters, on the other hand, oppose retention of the top-four prohibition. NAB submits revenue data in support of its assertion that no significant break exists between the fourth and fifth ranked
stations in a market.98 NAB argues that its data demonstrate the arbitrary nature of the top-four restriction
and that a combination of two top-four stations would
not harm competition in a local market.99 NAB argues
that allowing two top-four stations to combine would enhance competition, especially in medium and small markets, by permitting the creation of a more viable competitor to higher ranked stations.100 Nexstar argues that
common ownership leads to investment in better programming by maximizing owners’ revenues from advertising and retransmission consent; therefore, the topfour prohibition is detrimental to promoting the public
interest. 101 According to Nexstar, the top-four restriction rests on the Commission’s outdated findings and

NAB FNPRM Comments at 51; see also Letter from Rick
Kaplan, General Counsel and Executive Vice President, and Jerianne Timmerman, Senior Vice President and Deputy General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC, at 5-6 (June 21,
2016) (NAB June 21 Ex Parte); Letter from Rick Kaplan, General
Counsel and Executive Vice President, NAB, to Marlene H. Dortch,
Secretary, FCC, at 2 (June 14, 2016) (NAB June 14 Ex Parte).
99
Id. at 51-54.
100
Id. at 54.
101
Nexstar FNPRM Comments at 11. For example, Nexstar claims
that its second stations in the Champaign and Little Rock DMAs
were only able to add local news and sports programming because of
Nexstar’s ownership of more than one station in each market. Id.
at 13.
98

139
flawed assumptions regarding the incentives of commonly owned stations.102
43. We conclude that the top-four prohibition remains necessary to promote competition in the local television marketplace; accordingly, we retain the top-four
prohibition in the Local Television Ownership Rule.
First, we continue to find that audience share is the appropriate metric for purposes of the top-four prohibition, and the record does not offer persuasive reason to
depart from this determination.103 Second, we find that
there typically remains a significant “cushion” of audience share points that separates the top-four stations in
a market from the fifth-ranked station.104 We are not
Id. at 11-12. Nexstar points out that a significant portion of a
station’s programming is provided by its affiliated network, which
competes aggressively against other networks for the highest network ratings and advertising revenues. Nexstar argues that even
commonly owned stations in the same market would be similarly motivated to air different programming so as to attain the highest viewership of local news for the stations collectively. Id. at 12-13.
103
See 2002 Biennial Review Order, 18 FCC Rcd at 13692, para.
188 (“The public is best served when numerous rivals compete for
viewing audiences. [R]ivals profit by attracting new audiences and
by attracting existing audiences away from competitors’ programs.
The additional incentives facing competitive rivals are more likely to
improve program quality and create programming preferred by existing viewers.”); Prometheus I, 373 F.3d at 417-18 (upholding the
Commission’s top-four restriction).
104
FNPRM, 29 FCC Rcd at 4390, para. 44 (citing Staff analysis of
Nielsen audience share data that found a significant cushion between the fourth- and fifth-rated broadcast television stations in
each DMA with at least five full-power television stations)). Further, the court has twice upheld the Commission’s rationale for retaining the top-four prohibition. Prometheus II, 652 F.3d at 46061; Prometheus I, 373 F.3d at 417-18. We note that the Commission
has never based the top-four prohibition solely on the existence of
102

140
persuaded by NAB’s assertions regarding the revenue
of fourth- and fifth-ranked stations in a market. As we
noted in the FNPRM, NAB’s analysis evaluates revenue
share and does not sufficiently examine audience share,
which the Commission has utilized when evaluating the
need for the top-four prohibition. 105 We continue to
find that it is the ability to attract mass audiences that
distinguishes the top ranked stations in local television
markets, which is why it is appropriate that ratings serve
as the basis for the top-four prohibition. 106 Therefore,
NAB’s evidence does not disturb the Commission’s previous determinations that the relevant metric for purposes of the top-four prohibition is audience share and
does not rebut the evidence in this proceeding that a
the ratings cushion in every market. In the 2002 Biennial Review
Order, the Commission determined that the cushion existed in twothirds of the markets with five or more full-power commercial television stations. 18 FCC Rcd at 13694-95, para. 195. The court in
Prometheus I cited specifically to this finding as evidence to support
the Commission’s line-drawing decision. 373 F.3d at 418. Therefore, we find unconvincing any claim that the top-four prohibition
cannot be supported because the ratings cushion is not present in
every market. The cushion continues to exist in most markets and,
as such, it continues to support our decision to retain the top-four
prohibition. See FNPRM, 29 FCC Rcd at 4390, para. 44.
105
FNRPM, 29 FCC Rcd at 4389, para. 43 n.103.
106
See 2002 Biennial Review Order, 18 FCC Rcd at 13695, paras.
195-96. The only data NAB offers regarding audience share relate
to the shares of the third and fourth ranked stations in comparison
to the top ranked station in Nielsen markets, but do not compare
them to the fifth ranked station in the market. See NAB FNPRM
Comments at 52. We note that the court in Prometheus I rejected
a similar argument when upholding the Commission’s decision to retain the top-four prohibition. 373 F.3d at 417-18; see also Prometheus II, 652 F.3d at 461-62 (upholding, again, the Commission’s decision to retain the top-four prohibition).

141
cushion still exists between the fourth- and fifth-ranked
stations in most markets.107
44. We reaffirm our belief that top-four combinations would generally result in a single firm obtaining a
significantly larger market share than other firms in the
market and that such combinations would create welfare
harms.108 Top-four combinations reduce incentives for
local stations to improve their programming by giving
once strong rivals incentives to coordinate their programming in order to minimize competition between the
commonly owned stations.109 We are not persuaded by
Nexstar’s assertions that commonly owned stations have
no incentive to coordinate their programming based solely on anecdotal showings from Nexstar-owned stations
in two DMAs.110 While we recognize that duopolies permitted subject to the restrictions of the current rule can
create operating efficiencies, which allow the commonly
owned stations to invest in news and other local programming, we find that this potential benefit is outweighed by the harm to competition where a single firm
obtains a significantly larger market share through a

See FNPRM, 30 FCC Rcd at para. 44 (providing a staff analysis
of Nielsen ratings data to confirm the continued existence of a cushion between the fourth- and fifth-rated stations in most markets); see
also 2002 Biennial Review Order, 18 FCC Rcd at 13695, para. 195
(finding a 60 percent drop in audience share between the fourthranked and the fifth-ranked national networks and noting that such
a gap represents a significant breakpoint upon which we base our
rule).
108
FNRPM, 29 FCC Rcd at 4389-90, para. 44
109
See ACA FNPRM Comments at 6.
110
See Nexstar FNPRM Comments at 13.
107

142
combination of two top-four stations. 111 Accordingly,
we find that the public interest is best served by retaining the top-four prohibition.112
45. Affiliation Swaps. ACA, Block Communications, Inc. (Block), and UCC et al. support application of
the top-four prohibition to affiliation swaps. ACA states
that affiliation swaps result in the identical harm the
top-four prohibition is meant to prevent.113 ACA states
that the Commission should prohibit affiliation swaps
that result in an entity holding an attributable interest
in two top-four stations in a local television market. 114
Otherwise, ACA explains, an owner of a top-four station
and a non-top-four ranked station can create a prohibited duopoly by swapping the affiliation of its previously
non-top-four ranked station for a top-four network affiliation, thus, turning the second station into a top-four

See 2006 Quadrennial Review Order, 23 FCC Rcd at 2067 (“The
top four prohibition minimizes the likelihood that the market share
of two merged stations will significantly overtake the market share
of the largest station in a local market, which, as discussed in the
2002 Biennial Review Order, could create welfare harms.”) (citation
omitted); Prometheus II, 652 F.3d at 460-61 (upholding the Commission’s retention of the top-four restriction).
112
See WGAW FNPRM Comments 7-10 (“The Commission’s station ownership limits, including the Top-Four Prohibition and the
Eight-Voices Test, remain vital to promoting competition and localism.”); UCC et al. FNPRM Comments at 27-28 (“The Commission
should retain the top-four prohibition because mergers between two
top-four stations would result in a reduction of viewpoint diversity,
competition and localism by eliminating an independent source of local news.”).
113
ACA FNPRM Comments at 3.
114
Id. at 4.
111

143
station in a market without opportunity for Commission
review.115
46. Raycom Media, Inc. (Raycom) and LIN Television Corporation d/b/a LIN Media (LIN) oppose application of the top-four prohibition to affiliation swaps.
Raycom characterizes the Commission’s proposed action as reversing course and asserts that it would constitute an unlawful interference in the network affiliation marketplace.116 Raycom characterizes the proposal
described in the FNPRM as amounting to content regulation since it would potentially prevent a non-top-four
ranked station in a duopoly from obtaining certain
content—namely content from the network affiliate of a
top-four ranked station. 117 As support for its opposition to extending the top-four prohibition, Raycom cites
the Commission’s statement in the 1999 Ownership Order that any entity acquiring a duopoly while complying
with the top-four prohibition at the time of transaction
would not be required to divest if the two merged stations both become ranked among the top-four stations
in the market subsequent the transaction.118 In addition, LIN asserts that support by MVPDs for the application of the top-four prohibition to affiliation swaps is
part of an ongoing effort by MVPDs to degrade the quality and variety of free, over-the-air programming.119 LIN
argues that MVPDs naturally would be better served if
broadcasters, which provide a free alternative to MVPDs,

115
116
117
118
119

Id. at 5.
Raycom Media, Inc. FNPRM Comments at 4 (Raycom).
Id.
Id. at 2-3.
LIN FNPRM Comments at 7.

144
are limited to broadcasting less popular programming. 120 LIN warns that, if the Commission permits
MVPDs to degrade the quality and variety of programming available on free, over-the-air television, more content will move to behind the paywalls of MVPDs and
wireless providers.121
47. We find that application of the top-four prohibition to affiliation swaps is consistent with previous Commission action and policy; we are merely closing a potential loophole and preventing circumvention of the Commission’s rules. 122 In the 1999 Ownership Order that
Id. at 8.
Id. We find LIN’s assertions unpersuasive because preventing
affiliation swaps in the circumstances proposed would not impact the
quality of network programming but merely require a different licensee to air the programming.
122
Raycom states that the Commission has no explicit statutory
authority to regulate affiliation swaps. See Raycom NPRM Comments at 1-2. However, parties can achieve through an affiliation
swap the same result as a transfer of control or assignment of license, which would be subject to Commission review and be required
to comply with the Local Television Ownership Rule. See FNRPM,
29 FCC Rcd at 4391, para. 47. Accordingly, absent our action today,
parties could utilize affiliation swaps to achieve a result otherwise
prohibited by the Local Television Ownership Rule. Therefore, we
find that our statutory authority to extend the Local Television Ownership Rule to include affiliation swaps derives from the same general rulemaking authority that supports all of our broadcast ownership rules, as the Supreme Court has repeatedly held. FCC v. Nat’l
Citizens Comm. for Broad, 436 U.S. 775, 793-94 (1978) (holding that
Section 303(r) and Section 4(i) of the Communications Act, 47 CFR
§§ 153(i), 303(r), provide authority for ownership rules restricting
same-service ownership as well as newspaper-broadcast cross-ownership); id. at 796 (“[S]o long as the regulations are not an unreasonable means for seeking to achieve these [public interest] goals, they
fall within the general rulemaking authority recognized in the Storer
120
121

145
adopted the top-four prohibition, the Commission did
not make a statement regarding its authority to require
divestiture if two merged stations both became ranked
among the top-four rated stations in the market; it
stated only that it would refrain from doing so in order
to further certain, specific public interest benefits. 123
By allowing combinations between a large station and a
small station, the Commission sought to enable the
smaller station to improve its operations and local program offerings.124 The Commission wanted to avoid penalizing a station whose operations improved to the point
that it became a top-four station. By contrast, the Commission was concerned that mergers involving top-four
stations would harm competition and viewpoint diversity.125 Affiliation swaps, by their design, implicate the
specific harms to public interest that led the Commission to adopt the top-four prohibition.126
Broadcasting and National Broadcasting cases.”); see also United
States v. Storer Broad. Co., 351 U.S. 192, 202-03 (1956) (“The challenged [multiple ownership] Rules contain limitations against licensing not specifically authorized by statute. But that is not the limit
of the Commission’s rulemaking authority. 47 U.S.C. § 154(i) and §
303(r), 47 U.S.C.A. §§ 154(i), 303(r), grant general rulemaking power
not inconsistent with the Act or law.”); Nat’l Broad Co. v. United
States, 319 U.S. 190, 219 (1943) (“In the context of the developing
problems to which it was directed, the Act gave the Commission not
niggardly but expansive powers.”).
123
See 1999 Ownership Order, 14 FCC Rcd at 12933-34, paras. 6466.
124
Id. at 12933-34, paras. 65-66.
125
Id. at 12933, para. 66.
126
Id. (“The ‘top four ranked station’ component of this standard
is designed to ensure that the largest stations in the market do not
combine and create potential competition concerns. These stations
generally have a large share of the audience and advertising market

146
48. Moreover, the Commission cautioned in 1999
that future transactions, such as license transfers, that
do not satisfy the top-four prohibition may not be granted.127 This demonstrates that the Commission sought
to distinguish instances where a station organically becomes a top-four station through station improvement
from situations where a station actively transacts to become a top-four station via an ownership transfer or assignment.128 While it said that the top-four determination would be made at the time of the initial transaction,

in their area, and requiring them to operate independently will promote competition.”). Aside from the assignment/transfer of a station license, an affiliation swap is essentially indistinguishable in its
effect on the policy underlying our duopoly rule from a top-four merger described by the Commission in the 1999 Ownership Order.
See FNPRM, 29 FCC Rcd at 4391, para. 47 (“In general, national
network affiliation is a significant driver of a station’s audience
share. . . . Accordingly, an affiliation swap involving a top-four
station and a non-top-four station will nearly always result in the
non-top-four station becoming a top-four station after the swap.”).
If there is compelling evidence that an affiliation swap involving a
top-four station and a non-top-four station would not result in the
non-top-four station becoming a top-four station after the swap (e.g.,
a station’s top-four ratings are driven by non-network programming
that is unaffected by the affiliation swap), the parties are free to seek
a waiver of this prohibition under Section 1.3 of the Commission’s
rules. 47 CFR § 1.3.
127
1999 Ownership Order, 14 FCC Rcd at 12933, para. 64 (“[A] duopoly may not automatically be transferred to a new owner if the
market does not satisfy the eight voice/top four-ranked standard.”).
128
See id. As we said in the FNPRM, acquiring control over a
second in-market top-four station through affiliation swap transactions can be distinguished easily from other, legitimate actions a station may undertake to increase ratings at the expense of a competitor, such as producing higher quality or more extensive local programming or acquiring higher quality syndicated programming. See

147
the Commission signaled its intent to review future
transactions involving assignments or transfers of ownership resulting in a single entity owning two top-four
stations in the same market.129 Although the Commission decided in 1999 not to prohibit licensees from owning two top-four stations when a station’s top-four status
resulted from organic growth, transactions involving the
sale or swap of network affiliations between in-market
stations that result in an entity holding an attributable
interest in two top-four stations serve as the functional
equivalent of a transfer of control or assignment of license.130 Therefore, affiliation swaps undermine the purpose of the top-four prohibition and the Local Television
FNRPM, 29 FCC Rcd at 4392, para. 50 n.126. Moreover, the extension of the top-four prohibition we adopt today would not apply
in situations where a network offers an existing duopoly owner (one
top-four station and one station ranked outside the top four) a topfour-rated affiliation for the lower-rated station, perhaps because
the network is no longer satisfied with the existing affiliate station
and the duopoly owner has demonstrated superior station operation
(i.e., earned the affiliation on merit). Such a circumstance represents organic growth of the station and not a transaction that is the
functional equivalent of an assignment or transfer of control.
129
A contrary conclusion would greatly diminish the effectiveness
of the top-four prohibition, as an entity could essentially transact to
acquire a top-four station through an affiliation swap as soon as the
Commission approved the initial duopoly. See UCC et al. FNPRM
Reply at 16 (“It would be irrational to interpret [the 1999 Ownership
Order] as endorsing affiliation swaps given that they accomplish the
exact same end that the top-four prohibition was intended to prevent.”).
130
See FNPRM, 29 FCC Rcd at 4391, 4394, paras. 47, 50 n.127
(“The approach we propose today would clarify that the top-four prohibition would apply to certain agreements that are the functional
equivalent of a transfer of control or assignment of license.”) (emphasis added).

148
Ownership Rule as a whole. Application of the top-four
prohibition to affiliation swaps is necessary to prevent
circumvention of the Local Television Ownership Rule.
49. We disagree with commenters that argue that
extending the top-four prohibition to affiliation swaps
amounts to impermissible content regulation and is subject to strict scrutiny. The clarifying amendment adopted today does not regulate content any more than the
top-four prohibition and the media ownership rules that
consistently have been upheld by the courts, and it is
therefore subject to rational basis review. The decision to prohibit affiliation swaps involving two top-four
stations, as described herein, does not consider content
but rather the content’s ratings only. In that regard,
the extension of the top-four prohibition to affiliation
swaps operates exactly as the existing top-four prohibition does. The rule is predicated entirely on contentneutral objectives, primarily the public interest goal of
promoting competition in local markets. The rule does
not limit a licensee’s discretion to air the content of its
choice but rather limits the number of stations in a single market that a licensee may own if common ownership would result in significantly reduced competition.
50. The Prometheus II court found under the rational basis standard of review that the media ownership
rules do not violate the First Amendment “because they
are rationally related to substantial government interests in promoting competition and protecting viewpoint
diversity.” 131 The court rejected broadcasters’ claims
that the rules “are impermissible attempts by the FCC
to manipulate content” and rejected Sinclair’s argument
131

Prometheus II, 652 F.3d at 464.

149
that the Local Television Ownership Rule “violates the
First Amendment because it ‘singles out television stations.’ ” 132 Instead, the court recognized that “[t]hese
rules apply regardless of the content of the programming.”133 The extension of the top-four prohibition that
we adopt today merely clarifies that the top-four prohibition applies to agreements that are the functional
equivalent of a transfer of control or assignment of license from the standpoint of our Local Television Ownership Rule.134 Accordingly, this application of the topfour prohibition remains subject to the same constitutional analysis, and the amended rule is rationally related to the substantial government interests in promoting competition and diversity. Pursuant to that constitutional analysis, courts repeatedly have found that the
Local Television Ownership Rule, which includes the
top-four prohibition, does not violate the First Amendment.135
51. We also disagree that extension of the top-four
prohibition constitutes unlawful interference in the network affiliation marketplace. Raycom argues that extending the top-four prohibition to affiliation swaps
Id. at 465; see also Sinclair, 284 F.3d at 168-69 (finding that the
Local Television Ownership Rule does not violate the First Amendment under the rational basis review standard and rejecting arguments that the rule should be subject to either intermediate or strict
scrutiny).
133
Prometheus II, 652 F.3d at 465.
134
The Commission noted in the 1999 Ownership Order that “a duopoly may not automatically be transferred to a new owner if the
market does not satisfy the eight voice/top four-ranked standard.”
1999 Ownership Order, 14 FCC Rcd at 12933, para. 64.
135
Prometheus II, 652 F.3d at 465; see also Prometheus I, 373 F.3d
at 402; Sinclair, 284 F.3d at 168-69.
132

150
would prevent a non-top-four ranked station in a duopoly from negotiating to obtain packages of content
from other in-market stations merely because the content sought is too popular.136 We do not believe that our
action is likely to have a significant impact on the marketplace, as affiliation swaps are, at this point, rare.137 Evidence in the record demonstrates that the negotiation of
affiliation agreements typically does not involve affiliation swaps; therefore, most negotiations will be unaffected by our amendment clarifying the top-four prohibition.138 While affiliation swaps have not occurred often to date, given the potential of such transactions to
undermine the Local Television Ownership Rule, we
find that the application of the top-four prohibition to
such transactions is necessary to ensure the continued
effectiveness of that rule.139 Such action is necessary
because we do not believe there is a reliable marketplace
solution that would restrain the future use of affiliation
swaps to evade the top-four prohibition should we now
decline to extend the top-four prohibition to affiliation
swaps, nor is there a less restrictive means to accomplish our goal.140
Raycom FNPRM Comments at 4.
Indeed, the record demonstrates only a single instance of an affiliation swap that would be subject to the rule we adopt herein. See
FNPRM, 29 FCC Rcd at 4391-92, para. 48.
138
FNRPM, 29 FCC Rcd at 4392, para. 50 n.126; see also Sinclair
Broad. Grp. NPRM Comments at 17-18 (Sinclair). We confirm that
extension of the top-four prohibition to affiliation swaps would not
prevent a station from obtaining an affiliation through negotiating
with a national network outside the context of an affiliation swap.
139
FNRPM, 29 FCC Rcd at 4392, para. 50 n.126.
140
Id. No commenter proposed a less restrictive means. See
Raycom FNPRM Comments at 5 (stating only that the Commission
136
137

151
52. Accordingly, in order to close this loophole, we
find that affiliation swaps must comply with the top-four
prohibition at the time the agreement is executed.
Specifically, an entity will not be permitted to directly
or indirectly own, operate, or control two television stations in the same DMA through the execution of any
agreement (or series of agreements) involving stations
in the same DMA, or any individual or entity with a cognizable interest in such stations, in which a station (the
“new affiliate”) acquires the network affiliation of another station (the “previous affiliate”), if the change in
network affiliations would result in the licensee of the
new affiliate, or any individual or entity with a cognizable interest in the new affiliate, directly or indirectly
owning, operating, or controlling two of the top-four
rated television stations in the DMA at the time of the
agreement.141 We will find any party that directly or
indirectly owns, operates, or controls two top-four stations in the same DMA as a result of such transactions
to be in violation of the top-four prohibition and subject
to enforcement action.142

should carry out its regulations in the least restrictive means necessary to promote a compelling state interest but offering no examples
of a less restrictive means).
141
47 CFR § 73.3555(b)(1)(i). In addition, for purposes of making
this determination, the new affiliate’s post-consummation ranking
will be the ranking of the previous affiliate at the time the agreement
is executed, determined in accordance with Section 73.3555(b)(1)(i)
of the Commission’s rules. Id.
142
Application of this rule to affiliation swaps is prospective; therefore, all future transactions will be required to comply with the Commission’s rules then in effect. Parties that acquired control over a
second in-market top-four station by engaging in affiliation swaps

152
53. Eight-Voices Test. In the FNRPM, we proposed to retain the eight-voices test. We tentatively
concluded that a merger between two in-market stations
with overlapping contours should continue to be prohibited unless at least eight independently owned commercial and noncommercial television stations remain in the
market post-transaction, and at least one station involved in the transaction is not a top-four station. 143
We sought comment on this proposal.
54. UCC et al. and WGAW support retention of the
eight-voices test as part of their support for retaining
the existing ownership rules. UCC et al. assert that in
markets with eight or fewer independent owners the
loss of one or more stations would present serious harms
to competition and diversity.144 WGAW states that ongoing consolidation in the broadcast station market
makes the Commission’s limits on station ownership increasingly relevant.145
55. NAB, Sinclair Broadcast Group, Inc. (Sinclair),
and Nexstar oppose retention of the eight-voices test.
For example, NAB argues that many small markets do
not have stations affiliated with all four major networks,
let alone any additional stations, and that even some stations affiliated with major networks often struggle to
maintain profitability. 146 NAB states that the eightvoices test prevents stations in smaller markets from
prior to the release date of this Order will not be subject to divestiture or enforcement action.
143
FNRPM, 29 FCC Rcd at 4393, para. 51.
144
UCC et al. FNPRM Comments at 28.
145
WGAW FNPRM Comments at 7.
146
NAB FNPRM Comments at 55-56.

153
forming efficient, profitable ownership structures.147 Sinclair asserts that, because not all markets have at least
Id.; see also NAB June 21 Ex Parte at 4-5; NAB June 14 Ex
Parte at 2. On July 19, 2016, NAB submitted an economic study—
commissioned from the same authors of the Singer/Caves Study—
offering a new argument for elimination of the eight-voices test.
Letter from Rick Kaplan, General Counsel and Executive Vice President, and Jerianne Timmerman, Senior Vice President and Deputy
General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC, at 2,
Attach. at 3 (July 19, 2016). In response, UCC et al. argue that the
study should not be considered in this proceeding as it constitutes a
substantive comment filed well after the comment period had closed.
Letter from Andrew Jay Schwartzman et al., Counsel, UCC et al., to
Marlene H. Dortch, Secretary, FCC, at 1-2 (July 22, 2016) (citing 47
C.F.R. § 1.415(d) (“No additional comments may be filed [after the
close of the comment period] unless specifically requested or authorized by the Commission.”)); see also id. at 3 (arguing that even if
considered by the Commission, cursory review of the study shows
that it fails to undermine the Commission’s public interest justification for the eight-voices test). UCC et al. add that NAB’s belated
submission on July 19, 2016, is especially inappropriate given that
the Commission had publicly committed (as far back as early 2014)
to circulating a draft order in this proceeding by June 30, 2016, and
had, in fact, circulated a draft order on June 27, 2016. Id. at 2 (noting that “NAB is one of the parties appealing the FCC’s failure to
complete the 2010 Quadrennial Review”). UCC et al. further assert
that consideration of the study at this point would require a reasonable period for review and comment by interested parties, which
would result in an unreasonable delay in the completion of this proceeding. Id. at 4. NAB responds that its economic submission is
not a new substantive argument but rather supports statements
NAB has previously made. Letter from Rick Kaplan, General
Counsel and Executive Vice President, and Jerianne Timmerman,
Senior Vice President and Deputy General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC, at 1-2 (July 28, 2016) (NAB July 28
Ex Parte Letter). We agree with UCC et al. that it would be inappropriate to consider NAB’s late-filed study in this proceeding.
While the Commission has an obligation to respond to all significant
147

154
eight stations and the Commission has not allotted at
least eight stations in all markets, no harm can come
from having fewer than eight independent television
voices in certain other markets.148
56. We do not find that there have been any changes
in the local television marketplace that would warrant
modification of the eight-voices test at this time.149 Nearly

comments filed during the comment period, Perez v. Mortgage Bankers Ass’n, 135 S. Ct. 1199, 1203, 191 L. Ed. 2d 186 (2015), it is not obligated to consider late-filed comments. Verizon v. FCC, 770 F.3d
961, 968 (D.C. Cir. 2014); see also Globalstar, Inc. v. FCC, 564 F.3d
476, 484 (D.C. Cir. 2009) (Commission lacked “fair opportunity” to
pass on new argument raised on the same day an order was adopted).
Here, NAB submits a complex econometric study that would require
significant Commission resources and time to properly evaluate, as
well as a reasonable opportunity for interested parties to comment.
NAB has not provided an adequate justification for submitting this
study so egregiously late—indeed, after it knew the Report and Order had already been circulated and after there were reports that
three Commissioners had voted for the item. While NAB states
that the study “took longer to complete, given the extensive data acquisition from multiple sources needed to conduct the study,” we
note that the study could have been conducted at any time during
the proceeding, and NAB has not explained why it initiated the study
at such a late stage. See NAB July 28 Ex Parte Letter at 2. Nor
has NAB explained how further delaying this proceeding is consistent with its own criticisms that the Commission has failed to resolve this proceeding in a timely manner. Ultimately, we find that
consideration of this extremely late-filed study would cause undue
delay and would be contrary to the Third Circuit’s expectation that
the Commission will move quickly to resolve this proceeding and the
Commission’s commitment to do so. See Prometheus III, 824 F.3d
at 53-54. Therefore, we decline to consider it.
148
Sinclair FNPRM Comments at 8.
149
Commenters generally have asserted only that competition from
non-broadcast programming has changed. See supra para. 25. As

155
every market with eight or more full-power television
stations—absent a waiver of the Local Television Ownership Rule or unique circumstances-—continues to be
served by each of the Big Four networks and at least
four independent competitors unaffiliated with a Big
Four network. 150
Competition among these independently owned stations serves an important function
by motivating both the major network stations and the
independent stations to improve their programming, including increased local news and public interest programming. 151 This competition is especially valuable
during the parts of the day in which local broadcast stations do not transmit the programming of affiliated
broadcast networks and rely on local content uniquely
relevant to the stations’ communities.
57. We continue to believe the minimum threshold
maintained by the eight-voices test helps to ensure robust competition among local television stations in the
markets where common ownership is permitted under
the rule. The eight-voices test increases the likelihood
that markets with common ownership will continue to be
served by stations affiliated with each of the Big Four
networks as well as at least four independently owned
and operated stations unaffiliated with these major networks. 152 Also, because a significant gap in audience
discussed above, we do not find it appropriate to consider competition from non-broadcast sources for the purposes of evaluating
whether the Local Television Ownership Rule remain necessary.
See supra para. 30.
150
See FNRPM, 29 FCC Rcd at 4394, para. 54.
151
2006 Quadrennial Review Order, 23 FCC Rcd at 2065, para. 99.
152
Id. at 2044-45, 2065, paras. 60, 99 (providing the rationale for
selecting the number eight as the appropriate benchmark for the

156
share persists between the top-four stations in a market
and the remaining stations in most markets—demonstrating the dominant position of the top-four-rated stations in the market-—we continue to believe that it is
appropriate to retain the eight-voices test, which helps
to promote at least four independent competitors for the
top-four stations before common ownership is allowed.153
Accordingly, we retain the eight-voices test.
58. We also sought comment on whether the Sinclair opinion compels us to include other voices in addition to full-power television stations in the eight-voices
test.154 We find that it does not. In Sinclair, the court
rejected the eight-voices test, finding that the Commission had failed to justify its decision to define voices differently in the radio-television cross-ownership rule and
the Local Television Ownership Rule.155 As stated above,
the primary purpose of the Local Television Ownership
Rule and the eight-voices test is to promote competition
among broadcast television stations in local television
major media voice count). In addition, we disagree with Sinclair’s
interpretation that the eight-voices test implies that at least “eight
competing over-the-air TV stations are the minimum necessary to
ensure competition” and so each market must have at least eight independent stations. See Sinclair FNPRM Comments at 8. The
eight-voices test only establishes the minimum level necessary to
permit common ownership of stations in a market, subject to the
other requirements in the rule. Therefore, markets with fewer
than eight independent stations can still maintain a significant level
of competition given the absence of duopolies in these markets.
153
FNRPM, 29 FCC Rcd at 4394, para. 54.
154
Id at 4394-95, para. 55.
155
Sinclair, 284 F.3d at 162-65 (holding that the Commission did
not demonstrate why exclusion of non-broadcast media from the
eight-voices test served the public interest under § 202(h) of the Act)

157
viewing markets.156 By contrast, the primary purpose
of the radio-television cross-ownership rule is to promote viewpoint diversity;157 therefore, it is appropriate
to consider a broader range of voices there than in the
context of the Local Television Ownership Rule. Accordingly, we continue to include only full-power television stations in the voice count for purposes of the Local
Television Ownership Rule.
59. We note that our conclusion adheres to Prometheus II, where the court upheld the Commission’s rationale in the 2006 Quadrennial Review proceeding for
limiting voices in the Local Television Ownership Rule
to full-power television stations. The Commission had
determined in that proceeding that the primary goal of
the Local Television Ownership Rule was to promote
competition among local television stations, and not to
foster viewpoint diversity because there were other outlets for diversity of viewpoint in local markets. Therefore, although other types of media contribute to viewpoint diversity, the Commission determined that they
should not be counted as voices under the Local Television Ownership Rule.158 The court agreed and upheld
the Commission’s decision.159
60. Attribution of Television JSAs. In the Report
and Order, we adopted a rule that attributed television
See supra paras. 17, 57; see also 2006 Quadrennial Review Order, 23 FCC Rcd at 2066, para. 100.
157
See infra para. 142; see also FNRPM, 29 FCC Rcd at 4465, para.
211.
158
See 2006 Quadrennial Review Order, 23 FCC Rcd at 2066,
para. 100.
159
Prometheus II, 652 F.3d at 460.
156

158
JSAs under which a television station (the broker) sold
more than 15 percent of the weekly advertising time for
another same-market television station (the brokered
station). Pursuant to the new rule, in such circumstances, the brokering station was deemed to hold an attributable interest in the brokered station. Among
other implications associated with attribution, this resulted in counting the brokered station toward the brokering station’s permissible ownership totals.160 In addition, we provided a two-year period from the effective
date of the Report and Order (March 31, 2014) for parties to existing, same-market television JSAs whose attribution resulted in a violation of the ownership limits
to terminate or amend those JSAs or otherwise come
into compliance with the ownership rules.161 Following
the adoption of the Report and Order, Congress twice
extended this compliance period, ultimately extending the
relief through September 30, 2025.162

Report and Order, 29 FCC Rcd at 4527, para. 340. While one
purpose of the attribution rules is to determine compliance with the
Commission’s various broadcast ownership rules, including the Local Television Ownership Rule, we note that the Commission’s attribution rules are relevant in many other contexts, as well (e.g.,
Form 323 ownership reporting, auctions, retransmission consent negotiations, and foreign ownership). But see Prometheus III, 824
F.3d at 59 (asserting that if there were no ownership caps, the Commission would not need to have attribution rules). Accordingly,
even if the Commission were to eliminate all its ownership caps, the
attribution rules would remain relevant in connection with a large
number of other rules. As such, it is important that the Commission
retain the ability to update its attribution rules, as appropriate.
161
Report and Order, 29 FCC Rcd at 4542, para. 367.
162
Consolidated Appropriations Act, 2016, § 628, P.L. 114-113
(2015).
160

159
61. The Third Circuit vacated the Television JSA
Attribution Rule in Prometheus III, finding that the
adoption of the rule was procedurally invalid as a result
of the Commission’s failure to also determine that the
Local Television Ownership Rule served the public interest.163 The court stated that the Commission could
readopt the rule if it was able to justify readopting the
ownership rules to which television JSA attribution applies or to adopt new ownership rules.164 The court specifically noted that it “offer[ed] no opinion” on substantive challenges to the Television JSA Attribution Rule.165
62. Consistent with Prometheus III, having concluded that the Local Television Ownership Rule (with
minor modifications) continues to serve the public interest, we now readopt the Television JSA Attribution Rule
first adopted in the Report and Order.166 In so doing,
we incorporate by reference the rationale articulated in
the Report and Order for the adoption and application
of the rule.167 We continue to find that it is appropriate
to attribute certain television JSAs under the Commission’s attribution standards.168 We find that readopt-

Prometheus III, 824 F.3d at 60.
Id. at 55.
165
Id.
166
We note that television JSA attribution is also relevant in the
other broadcast ownership rules we adopt today that involve ownership of a broadcast television station.
167
See Report and Order, 29 FCC Rcd at 4527-45, paras. 340-72.
168
See Letter from Cheryl A. Leanza, Policy Advisor, UCC, to
Marlene H. Dortch, Secretary, FCC (filed July 20, 2016) (supporting
JSA attribution) (UCC July 20, 2016 Ex Parte Letter); Letter from
James L. Winston, President, NABOB, to Marlene H. Dortch, Secretary, FCC, at 1 (filed July 11, 2016) (supporting JSA attribution)
163
164

160
ing the rule serves the public interest by ensuring compliance with our broadcast ownership rules, and there is
anecdotal evidence to suggest that the attribution of television JSAs has helped promote minority and female
ownership opportunities.169
63. In addition, we are adopting different transition
procedures than those adopted in the Report and Order.
Specifically, we retain the previous effective date for application of the grandfathering relief—March 31, 2014—
and we will extend the compliance period through September 30, 2025.170 Until that time, such grandfathered

(NABOB July 11, 2016 Ex Parte Letter). But see Letter from Rick
Kaplan, General Counsel and Executive Vice President, and Jerianne Timmerman, Senior Vice President and Deputy General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC (filed July 29, 2016)
(arguing that JSA attribution is arbitrary and capricious as well as
not in the public interest). Upon the effective date of this Order,
the following rules, which were not modified or removed from the
CFR, shall again be effective as they relate to television JSAs: 47
CFR § 73.3555, Note 2(k)(2)-(3) and 47 CFR § 73.3613(d)(2).
169
See Chairman Tom Wheeler & Commissioner Mignon Clyburn,
Making Good on the Promise of Independent Minority Ownership of
Television Stations (Dec. 4, 2014), https://www.fcc.gov/newsevents/
blog/2014/12/04/making-good-promise-independent-minority-ownershiptelevision-stations. For additional discussion of television JSAs in
the diversity context, see paragraph 238, infra.
170
Any television JSAs adopted or revised following the Third Circuit’s decision to vacate the Television JSA Attribution Rule are not
provided any transition relief and must immediately be brought into
compliance with the Commission’s rules. This is consistent with the
treatment of television JSAs executed after the release of the Report
and Order, which were not provided any transition period. FNPRM,
29 FCC Rcd at 4542, para. 367 n.1130. We believe that it is reasonable to adopt a similar measure here given that parties were on notice following Prometheus III that the Commission could readopt

161
agreements will not be counted as attributable, and parties will be permitted to transfer or assign these agreements to other parties without terminating the grandfathering relief.171 While we note that this grandfathering relief is not typical of the relief normally provided by
the Commission-generally grandfathered combinations
cannot be assigned or transferred unless they comply
with the ownership rules in effect at the time172—we believe that the relief is warranted given the various expressions of Congressional will in this regard.173
64. In addition to readopting the Television JSA
Attribution Rule, we find that such attribution does not
change our determination here that the existing Local
Television Ownership Rule should be retained, with a

the Television JSA Attribution Rule if the Commission were to conclude, following completion of its Section 202(h) review, that the existing Local Television Ownership Rule should be retained or replaced with a new rule—which we have done herein. See Prometheus III, 824 F.3d at 60.
171
In addition, any television JSA that previously lost grandfathering relief as a result of a condition imposed by the Commission in the
approval of a transaction may seek to have the condition rescinded.
Upon request of the transferee or assignee of the station license, we
will rescind the condition and permit the licensees of the stations
whose advertising was jointly sold pursuant to such agreement to
enter into a new JSA—to the extent that both parties wish to enter
into the agreement-—on substantially similar terms and conditions
as the prior agreement. We delegate authority to the Media Bureau to review these requests and grant relief, as appropriate.
172
See supra note 78 and accompanying text.
173
See, e.g., Consolidated Appropriations Act, 2016, § 628, P.L.
114-113 (2015); Letter from Roy Blunt et al., United States Senator,
to Tom Wheeler, Chairman, FCC, OLA Docket No. 16-9, at 1 (filed
Mar. 15, 2016).

162
minor contour modification.174 The analysis underlying
the various components of the Local Television Ownership Rule (e.g., the numerical limits, the top-four prohibition, and the eight-voices test) assumes that independently owned and operating stations are just that—
independent. The Commission’s attribution rules are
designed to help to ensure that independence, or, stated
differently, to reflect a determination of when stations
are not truly independent, because of common ownership or other relationships that provide the ability to exercise influence or control over another station’s core
operating functions.175 The attribution of certain tele-

Report and Order, 29 FCC Rcd at 4527-45, paras. 340-72.
The Local Television Ownership Rule is a bright-line rule designed to promote competition. Accordingly, our analysis focuses
on concepts that are generally applicable across all markets. In response to the NOI, broadcast commenters expressed support for
this approach, noting that a bright-line rule provides transaction
participants with greater certainty and predictability, which in turn
reduces transaction costs and expedites the Commission’s review
process. See NAB NOI Comments at 91; Hearst NOI Comments at
6-7. The bright-line approach, however, precludes full “consideration of changing economic conditions within a particular local market
or all of the variations that may exist across markets.” NOI, 25
FCC Rcd at 6114, para. 92. To take account of such considerations,
the Commission would need to adopt a case-by-case approach.
However, such an approach provides less certainty to the market,
imposes higher administrative burdens on the Commission than the
bright-line approach, and may delay Commission decision-making,
which could ultimately chill marketplace activity. Id. at 6115, paras.
93-94. We do not find any support in the record for such an approach. Accordingly, arguments that the Commission’s analysis regarding the Local Television Ownership Rule and/or television JSAs
fails to account for market-by-market differences are unavailing, as
174
175

163
vision JSAs, which prevents those agreements from being used to circumvent the ownership limits by compromising the independence of a same-market station,
helps to ensure that the goals of the Local Television
Ownership Rule are realized.176 The Commission’s responsibility under Section 202(h) is to ensure that the
Local Television Ownership Rule continues to serve the
public interest, not to manipulate the rule to counterbalance the attribution of television JSAs. As discussed
in this section, we find that the rule we adopt here serves
the public interest.
65. Waiver Policy.
The FNPRM proposed to
keep the existing failing/failed station waiver test and
sought comment on whether to relax the criteria or to
establish additional grounds for waiver. 177 We tentatively concluded that a market size waiver standard is
not necessary. Instead, we found that retention of the
existing failed/failing station waiver policy would serve
the public interest. 178 Under this policy, to obtain a
waiver of the local television rule, an applicant must
an approach that takes those differences into account would be inconsistent with the bright-line rule favored by broadcasters.
176
We note that this applies to any circumstances in which an individual or entity has an attributable interest in more than one station
in a market. The arguments that television JSAs should not be attributed because they produce public interest benefits are essentially indistinguishable from arguments that the ownership limits
should be relaxed because common ownership produces public interest benefits. We acknowledge and address these arguments throughout; however, we have ultimately determined that the Local Television Ownership Rule should be retained, with a minor modification
to the contour standard.
177
FNRPM, 29 FCC Rcd at 4395, para. 56.
178
Id.

164
demonstrate that one of the broadcast television stations involved in the proposed transaction is either failed
or failing and that the in-market buyer is the only reasonably available candidate willing and able to acquire
and operate the station; and selling the station to an outof-market buyer would result in an artificially depressed
price.179 A station is considered to be “failed” if it has
not been in operation due to financial distress for at least
four consecutive months immediately prior to the application, or is a debtor in an involuntary bankruptcy or insolvency proceeding at the time of the application; a television station is considered to be “failing” if it has an
all-day audience share of no more than four percent and
it has had negative cash flow for three consecutive years
immediately prior to the application.180 We sought further comment on whether we should relax the waiver
criteria or establish additional grounds for waiver.181
66. NAB opposes retention of the current failed/
failing station waiver criteria. NAB proposes that the
Commission change the waiver test by: (1) eliminating
the four percent audience share standard and basing
waiver eligibility on financial factors, (2) requiring a
showing of only one year of negative cash flow, and (3)
adopting a 180-day shot clock for waiver request reviews.182 However, UCC et al. argue that NAB’s proposal for a one-year negative cash flow requirement
47 C.F.R. § 73.3555, Note 7.
Id. Under the failing station standard, the applicants must
also demonstrate that “consolidation of the two stations would result
in tangible and verifiable public interest benefits that outweigh any
harm to competition and diversity.” Id.
181
FNRPM, 29 FCC Rcd at 4396, para. 60.
182
NAB FNPRM Comments at 60-61.
179
180

165
would not sufficiently demonstrate that a station is failing due to the cyclical nature of the broadcast industry.183 UCC et al. therefore supports retention of the
current waiver criteria.184
67. Waiver of our rules is meant to be exceptional
relief, and we find that the existing waiver criteria effectively establish when relief from the rule is appropriate.
We remain concerned that loosening the existing failed/
failing station waiver criteria—such as by eliminating
the four percent audience share requirement or by reducing the negative cash flow period from three years to
one—would result in a waiver standard that is more vulnerable to manipulation by parties seeking to obtain a
waiver. Also, such changes may not be rationally related to improving the Commission’s ability to evaluate
the viability of a station subject to the waiver request.
For example, we agree that examination of a station’s
cash flow for only one year does not adequately account
for the cyclical nature of broadcast television and would
not necessarily indicate that a station is failing. 185 A
petitioner thus would increase the likelihood of a waiver
petition being granted simply by timing the waiver petition to coincide with a station’s cyclical downturn. We
anticipate that adopting the waiver standard proposed
by NAB would significantly expand the circumstances in
which a waiver of the Local Television Ownership Rule
UCC et al. FNPRM Reply at 17.
Id.
185
According to recent research, many stations receive a windfall
during election years that could more than offset any negative cash
flow in other years. Pew State of the News Media 2015 at 46 (finding that political advertising spending “seems to guarantee windfalls
to local TV stations in even-numbered years”).
183
184

166
would be granted, without sufficiently demonstrating
that the stations could not effectively compete in the
market. Such relaxation of the waiver standard would
be inconsistent with our determination that the public
interest is best served by retaining the existing television ownership limits in order to promote competition.
Therefore, we conclude that the existing waiver standard is not unduly restrictive and that it provides appropriate relief in all television markets.186
68. Multicasting. We tentatively concluded in the
FNPRM that the ability to multicast multiple program
streams on a digital broadcast television signal does not
justify imposition of a ban on owning more than one station in a market. In addition, the FNPRM tentatively
declined to regulate dual affiliations via multicast at this

We also decline to adopt a 180-day shot clock for waiver request
reviews. See NAB FNPRM Comments at 60-61. NAB does not
provide any evidence that waiver requests are subject to undue delay; on the contrary, we believe that the current process works effectively and that applications are processed in a timely and efficient
manner. In addition, we note that the Commission currently endeavors to complete action on assignment and transfer of control applications (including those requesting a failed/failing station waiver)
within 180 days of the public notice accepting the applications. Routine applications are typically decided within the 180-day mark, and
all applications are processed expeditiously as possible consistent
with the Commission’s regulatory responsibilities. However, several factors could cause the Commission’s review of a particular application to exceed 180 days. See FCC, Informal Timeline for Consideration of Applications for Transfers or Assignments of Licenses
or Authorizations Relating to Complex Mergers, https://
www.fcc.gov/general/informal-timeline-consideration-applicationstransfers-or-assignments-licenses-or. Certain cases will present
difficult issues that require additional consideration, and we do not
believe that it is appropriate to artificially constrain our review.
186

167
time.187 The FNPRM sought comment on these tentative decisions and on any new developments that would
require re-evaluation of our conclusions.188
69. LIN and Sinclair support the Commission’s
proposal not to regulate dual affiliations via multicast.
LIN characterizes MVPD support for Commission action to restrict broadcasters’ ability to choose programming as an effort to degrade the quality and variety of
free, over-the-air programming.189 Sinclair states that
the Commission has approved of its multicasting practices and questions why the Commission permits multicasting but restricts ownership of multiple stations.190
70. ACA, Block, and Free Press oppose the Commission’s tentative conclusions. ACA and Block concede that benefits can accrue from dual affiliations in
smaller markets or markets with unique characteristics
that leave them unable to carry all Big Four networks
on separate full-power television stations. However,
they nevertheless argue that the potential harm of dual
Big Four affiliations in larger markets warrants Commission action.191 ACA and Block state that dual affiliation through multicasting, especially of two top-four
network affiliates, creates the same harm that the duopoly prohibition aims to prevent and that control over
multiple Big Four networks via multicasting could result in higher retransmission consent fees, which would

187
188
189
190
191

FNRPM, 29 FCC Rcd at 4398, para. 66.
Id. at 4396, 4398, paras. 61, 66.
LIN FNPRM Comments at 7.
Sinclair FNPRM Comments at 9.
ACA FNPRM Comments at 12; Block FNPRM Comments at 11.

168
harm consumers. 192 ACA proposes that the Commission prohibit dual affiliations via multicast of two topfour networks unless there is an insufficient number of
full-power commercial television broadcast stations in a
DMA to affiliate with each of the top four networks separately.193 Free Press cites Sinclair’s argument as an
implicit concession that multicasting is practically the
same as dual ownership.194
71. We find that the ability to multicast does not justify tightening the current numerical limits. Based on
evidence in the record, broadcasting on a multicast stream
does not typically produce the cost savings and additional revenue streams that can be achieved by owning
a second in-market station.195 Therefore, tightening
the numerical limits might prevent those broadcasters
in markets where common ownership is permitted under
the existing rule from achieving the efficiencies and related public interest benefits associated with common
ownership. Accordingly, our view, based on the most
recent record, is that it is not appropriate to adjust the
numerical limits as a result of stations’ multicasting capability.
72. As proposed in the FNPRM, we decline to regulate dual affiliations via multicast, including dual affiliation with more than one Big Four network, at this time.
A significant benefit of the multicast capability is the
ability to bring more local network affiliates to smaller
markets, thereby increasing access to popular network
192
193
194
195

ACA FNPRM Comments at 12; Block FNPRM Comments at 11.
ACA FNPRM Comments at 13.
Free Press FNPRM Reply at 10.
FNRPM, 29 FCC Rcd at 4397, para. 64.

169
programming and local news and public interest programming tailored to the specific needs and interests of
the local community. We find that the strongest public
interest concerns posed by dual affiliations via multicasting involve affiliations between two Big Four networks. However, based on the record, dual affiliations
involving two Big Four networks via multicasting are
generally limited to smaller markets where there are
not enough full-power commercial television stations to
accommodate each Big Four network or where there are
other unique marketplace factors responsible for creating the dual affiliation. 196 Marketplace incentives, at
present, appear to limit the occurrence of dual affiliations via multicasting involving multiple Big Four networks largely to these smaller markets.197 Therefore,
we conclude that the nature of the local television market supports our decision to decline regulation of dual
affiliations via multicasting at this time. 198 However,

Id. at 4399-4400, para 69.
Id. at 4400, para. 69.
198
The factors that justify our decision not to restrict dual affiliations via multicast are not present in circumstances involving affiliation swaps, discussed above. Dual affiliations via multicasting do
not result in an entity owning two television stations rated in the top
four in the market in violation of the Local Television Ownership
Rule, which is the case with affiliation swaps now subject to the topfour prohibition, and there are no marketplace forces that would
limit affiliation swaps absent our action today. Indeed, considering
the marketplace conditions that tend to give rise to dual affiliations,
prohibiting dual affiliation with more than one Big Four network
could result in some Big Four networks becoming unavailable over
the air in certain markets because there are not enough commercial
television stations to accommodate each Big Four network in these
markets. Prohibiting affiliation swaps would not create such a result
196
197

170
we will continue to monitor this issue and take action in
the future, if appropriate; moreover, we note that the
Commission has the ability to consider issues that impact the Commission’s policy goals in the context of individual transactions such as transfers of control or assignments of licenses.199
73. Minority and Female Ownership.
The
FNPRM tentatively concluded that the proposed Local
Television Ownership Rule was consistent with the
Commission’s goal to promote minority and female ownership of broadcast television stations and sought comment on the potential impact of the incentive auction on
minority and female ownership and whether that impact
should affect the 2014 Quadrennial Review.200
74. UCC et al. state that the spectrum auctions will
have a negative effect on ownership opportunities for
minorities and women because of the loss of spectrum
for low power television (LPTV) stations.201 UCC et al.
do not believe that retaining the existing ownership
rules is enough to safeguard minority and female ownership from broadcast consolidation. 202 The Smaller
Market Coalition argues that more flexible ownership
and operating arrangements (e.g., JSAs and SSAs)

since affiliation swaps, by definition, involve separate licensees affiliated with each network.
199
See Applications for Consent to Transfer of Control from
Shareholders of Belo Corp. to Gannett Co., Inc., Memorandum Opinion and Order, 28 FCC Rcd 16867, 16879, paras. 29-30 (MB 2013).
200
FNRPM, 29 FCC Rcd at 4400, 4401-02, paras. 70, 73.
201
UCC et al. FNPRM Comments at 28.
202
Id. at 30.

171
would increase minority and female ownership,203 a contention that has been much disputed in the record.”204
75. We affirm our tentative conclusion that the current rule remains consistent with the Commission’s goal
to promote minority and female ownership of broadcast
television stations.
While we retain the existing Local
Television Ownership Rule for the reasons stated above,
to promote competition among broadcast television stations in local markets, and not with the purpose of pre-

Smaller Market Coalition FNPRM Comments at 13-14.
See, e.g., Letter from Bob Butler, President, National Association of Black Journalists, to Tom Wheeler, Chairman, FCC (filed
Mar. 10, 2014); Letter from Andrew Jay Schwartzman, Institute of
Public Representation, to Marlene H. Dortch, Secretary, FCC (filed
Mar. 21, 2014) (recounting support of National Association of Broadcast Employees and Technicians-CWA, and Communications Workers of America, AFL-CIO, for attribution of JSAs and arguing that
enforcement of attribution rules will promote diversity); Letter from
Cheryl A. Leanza, Policy Advisor, UCC, to Marlene H. Dortch, Secretary, FCC (filed Mar. 21, 2014) (joining National Hispanic Media
Coalition (NHMC) in support of the attribution of JSAs, alleging
harm to diversity, localism, and competition); Letter from S. Derek
Turner, Research Director, Free Press, to Mignon Clyburn, Commissioner, FCC (filed Mar. 24, 2014) (supporting attribution of JSAs
and refuting argument that JSAs lead to new and diverse ownership); Letter from Terry O’Neil, President, National Organization
for Women, to Tom Wheeler, Chairman, FCC (filed Mar. 24, 2014)
(supporting attribution of JSAs and arguing that JSAs have not created true opportunities for female ownership); Letter to Tom
Wheeler, Chairman, FCC (filed Mar. 24, 2014) (letter on behalf of
multiple public interest groups, including National Association of
Hispanic Journalists, Center for Media Justice, UCC, Common
Cause, and Media Literacy Project, urging attribution of JSAs and
other related agreements in order to promote greater diversity of
voices in the broadcast television industry).
203

204

172
serving or creating specific amounts of minority and female ownership, we find that retaining the existing rule
nevertheless promotes opportunities for diversity in local television ownership.205 The competition-based rule
helps to ensure the presence of independently owned
broadcast television stations in the local market, thereby indirectly increasing the likelihood of a variety of
viewpoints and preserving ownership opportunities for
new entrants.206

205
We note also that we retain without modification the current
failed/failing station waiver policy, including the requirement that
the waiver applicant attempt to first solicit an out-of-market buyer,
which promotes possible new entry in a market by ensuring that outof-market entities interested in purchasing a station are aware of
station sale opportunities. See 1999 Ownership Order, 14 FCC Rcd
at 12937, para. 74.
206
See Media Ownership Study 9, A Theoretical Analysis of the
Impact of Local Market Structure on the Range of Viewpoints Supplied 2-3, by Isabelle Brocas, Juan D. Carrillo, and Simon Wilkie
(2011) (Media Ownership Study 9) (finding, based on theoretical
analysis, that the presence of more independently owned outlets can
increase viewpoint diversity in a market). Premised on the reasonable assumption that more than one viewpoint exists on many issues,
Media Ownership Study 9 supports the related conclusion that competition among firms with similar viewpoints improves information
transmission. Id. at 26-27. Similarly, Media Ownership Study 2
examines the effects of media market structure on consumer demand and welfare, finding that “the representative consumer values
different viewpoints in the reporting of information on news and current affairs, more information on community news, and more information that reflects the interests of women and minorities.” Media
Ownership Study 2, Consumer Valuation of Media as a Function of
Local Market Structure 0, by Scott J. Savage and Donald M. Waldman (2011) (Media Ownership Study 2). It finds, using simulation
techniques, that any negative effects on diversity associated with
common ownership of television stations in a market are smaller in

173
76. We are unconvinced by the Smaller Market Coalition’s argument that sharing agreements, such as
JSAs and SSAs, promote minority and female ownership.207 While the record demonstrates that some stations that are owned by minorities and women participate in JSAs, the record also indicates that many such
stations do not.208 Moreover, there is no evidence that
current minority or female station owners utilized such
agreements to acquire those stations. To the contrary,
anecdotal evidence suggests that JSAs, in particular,
have been used by large station owners to foreclose entry into markets and that the Commission’s decision to
attribute JSAs has actually led to greater ownership
diversity209—a proposition supported by multiple commenters throughout this proceeding.210 As discussed in
Section V, many joint operating agreements are not attributable under the Commission’s current rules, allowing for a meaningful level of cooperation for cost-saving
purposes so long as the independence of the brokered
station is preserved.
Therefore, the Commission’s
rules do not prevent minority- and women-owned entities or other small business owners or new entrants
markets with multiple independent television voices. See Media
Ownership Study 2 at 49.
207
We discuss sharing agreements in Section V.
208
See Smaller Market Coalition FNPRM Comments at 13-14.
The Smaller Market Coalition provides statistics regarding only full
power television stations owned by women and African Americans.
By their own data, the majority of stations owned by women do not
participate in JSAs; moreover, they do not offer any statistics for
stations owned by other minority groups, which make up the largest
portion of minority station owners. See 2014 323 Report.
209
See supra note 169.
210
See supra note 204.

174
from utilizing such agreements to facilitate station ownership, to the extent that such agreements are beneficial
and do not result in ownership rule violations.
77. Additionally, we find the claim that tightening
the Local Television Ownership Rule will promote increased opportunities for minority and female ownership to be both speculative and unsupported by existing
ownership data. 211 The National Telecommunications
and Information Administration (NTIA) ownership data
from 1990-2000 identified 32 minority-owned full power
television stations in 1998 (racial and ethnic minorities)—
the year before the Commission relaxed the former rule
that had restricted ownership to a single television station in a market.212 Following a decline in the 1999/2000
211
See, e.g., National Hispanic Media Coalition et al. NPRM Comments at 3-5 (NHMC et al.); UCC et al. NPRM Comments at 24; see
also Free Press NPRM Comments at 44 (asserting that tightening
the television ownership limits could promote ownership diversity by
creating ownership opportunities for new entrants); Free Press
NPRM Reply at 19. We note that combining older data with more
recent data from FCC Form 323 biennial ownership reports (beginning in 2009) introduces potential variation from differences in the
way the data were collected rather than actual changes in the marketplace. However, in the absence of a continuous, unified data
source, the Commission must rely on the available data, and our findings herein are consistent with the data.
212
U.S. Dep’t of Commerce, Nat’l Telecomms and Info. Admin.,
Changes, Challenges, and Charting new Courses: Minority Commercial Broadcast Ownership in the United States 39 (2001) (NTIA
2001 Minority Ownership Report); see also 1999 Ownership Order,
14 FCC Rcd at 12924-43, paras. 42-91. This was down from a previous peak of 38 minority-owned full-power television stations in
1995 and 1996/97. NTIA 2001 Minority Ownership Report at 39.
The Commission has previously acknowledged that NTIA’s data collection methodology did “not insure a complete listing of all commercial radio and television stations owned by minorities” and the data

175
NTIA data to 23 stations, 213 the Commission’s recent
Form 323 ownership data demonstrate that minority
ownership has grown since that rule was eliminated:
60 stations in 2009; 70 stations in 2011; and 83 stations
in 2013.214 Data provided by Free Press similarly show
an increase in minority ownership after the Commission
relaxed the Local Television Ownership Rule in 1999.215 No
data provided in the record support a contention that
the duopoly rule has reduced minority ownership or suggest that a return to the one-to-a-market rule would increase ownership opportunities for minorities and women.
did not include separate data on female ownership. 1998 Biennial
Regulatory Review—Streamlining of Mass Media Applications,
Rules, and Processes, Report and Order, 13 FCC Rcd 23056, 2309697, para. 100 (1998). However, these are the only data from that
time period that are available for purposes of comparison and evaluation of claims that relaxation of the Local Television Ownership
Rule reduced minority ownership.
213
NTIA 2001 Minority Ownership Report at 39.
214
See 2014 323 Report, 29 FCC Rcd at 7838, paras. 6-7; 2012 323
Report, 27 FCC Rcd at 13816-17, paras. 5-6 (updated in footnote 20
of the 2014 323 Report to correct African American ownership total
from 10 to 11). As stated in footnote 16 of the 2014 323 Report, the
number of minority-owned stations was temporarily increased by 14
stations because an Asian individual indirectly held a majority interest in these stations while the entity that owned the stations was in
bankruptcy. This individual’s interest was terminated in November 2013, which eliminated the temporary increase. Even discounting those 14 stations, there were 69 minority-owned stations in 2013
based on the 323 data, which is more than double the number in 1998.
215
See, e.g., S. Derek Turner & Mark Cooper, Out of the Picture
2007: Minority & Female TV Station Ownership in the United States
(Oct. 2007), http://www.freepress.net/sites/default/files/fp-legacy/
otp2007.pdf (Turner/Cooper TV Study) (finding that minorities
owned 43 commercial full-power television stations as of October
2007).

176
78. On the other hand, while the data reflect an increase in minority ownership following relaxation of the
Local Television Ownership Rule, we have no evidence
in the record that would permit us to infer causation and
thus we decline to loosen the rule on this basis.
79. Finally, we find that it is impossible at the present time to analyze the implications of the incentive
auction for the Local Television Ownership Rule generally, or minority and female ownership specifically.216 In
the auction proceeding, the Commission has considered
the effects of the auction on diversity, stating that “[v]oluntary participation in the reverse auction, via a channel
sharing, ultra-high frequency (UHF)-to-very-high frequency (VHF), or high-VHF-to-low-VHF bid, offers a
significant and unprecedented opportunity for these
owners to raise capital that may enable them to stay in
the broadcasting business and strengthen their operations.”217

The broadcast incentive auction will comprise of two separate
but interdependent auctions—a reverse auction, which will determine the price at which broadcasters will voluntarily relinquish their
spectrum usage rights; and a forward auction, which will determine
the price companies are willing to pay for flexible use wireless licenses to deliver high-speed data services. Television stations have
a number of options by which they can participate: they can choose
to go off the air and relinquish their license entirely or relinquish
their current channel to share a channel with another station, or they
can move from their current channel to a channel in a different band.
The lynchpin joining the reverse and the forward auctions is the “repacking” process. Repacking involves reassigning channels to the
remaining television stations in order to create contiguous blocks of
cleared spectrum suitable for flexible use.
217
Expanding the Economic and Innovation Opportunities of
Spectrum Through Incentive Auctions, Report and Order, 29 FCC
216

177
80. The broadcast television incentive auction is ongoing and its implications—including, for example, which
stations will relinquish their spectrum entirely and which
will relinquish their current channel in order to share a
channel with another station(s)—will not be known for
some time. Broadcasters interested in participating in
the reverse auction filed their applications in January
2016.218 Entities interested in bidding in the forward
auction on the spectrum made available through the reverse auction filed applications in February 2016.219 The
clock round bidding for the reverse auction commenced
on May 31, 2016, and concluded on June 29, 2016; the
Commission announced August 16, 2016, as the start
date for the initial stage of the forward auction.220 Un-

Rcd 6567, 6850, para. 695 (2014) (Incentive Auctions Report and Order). A licensee’s participation in the reverse auction does not mean
it has decided to exit the business, even if its bid is accepted. The
auction provides for bid options that allow the licensee to obtain a
share of auction proceeds but still remain on the air: (i) channel
sharing; (ii) a UHF station could bid to move to a VHF channel; and
(iii) a high VHF station (channels 7-13) could bid to move to a low
VHF channel (2-6).
218
Incentive Auction Task Force Releases Revised Baseline Data
and Prices for Reverse Auction; Announces Revised Filing Window
Dates, Public Notice, 30 FCC Rcd 12559 (2015).
219
Forward Auction Application Filing Window Opens Today at
Noon After One-Day Weather Delay; FCC Form 175 Deadline Extended to February 10, 2016, Public Notice, 31 FCC Rcd 313 (2016).
220
See Broadcast Auction Scheduled to Begin March 29, 2016;
Procedures for Competitive Bidding in Auction 1000, Including Initial Clearing Target Determination, Qualifying to Bid, and Bidding in Auctions 1001 (Reverse) and 1002 (Forward), Public Notice,
30 FCC Rcd 8975 (2015); 62 Applicants Qualified to Bid in the Forward Auction (Auction 1002) of the Broadcast Television Incentive

178
der statute, the identities of the broadcasters participating in the reverse auction are confidential.221 After the
conclusion of the auction—the date of which is unknown—
the Commission will release a public notice announcing
the reverse and forward auction winners, and identifying those television stations that will be reassigned to
new channels (or “repacked”). Reassigned stations
will have up to 39 months after release of that public notice to complete the transition to their new channels,
while winning bidders who will relinquish their spectrum entirely or move to share a channel with another
station must do so within a specified number of months
from receipt of their incentive payment.222
81. In light of these factors, and due to the fact that
the incentive auction is a unique event without precedent, we cannot evaluate or predict the likely impacts of
the auction at this time. As noted above, we will soon
commence our evaluation of the broadcast marketplace
post-auction, and we expect that the Commission will
address the implications of the incentive auction for the
media ownership rules in the context of future quadrennial reviews. Further, the court in Prometheus III indicated that “the Commission should consider how the
Auction; Clock Phase Bidding to Begin on August 16, 2016, AU
Docket No. 14-252, Public Notice, DA 16-796 (July 15, 2016).
221
Middle Class Tax Relief and Job Creation Act of 2012, Pub. L.
No. 112-96, § 6403(a)(3) (codified at 47 U.S.C. § 1452), 126 Stat. 156
(2012) (requiring “all reasonable steps necessary to protect the confidentiality of Commission-held data of a licensee participating in the
reverse auction . . . , including withholding the identity of such
licensee until the [spectrum] reassignments and reallocations . . .
become effective”)
222
Incentive Auctions Report and Order, 29 FCC Rcd at 6580,
para. 34.

179
ongoing broadcast incentive auction affects minority
and female ownership.”223 Consistent with this direction and our previous requests for comment on this issue, we have evaluated the record and the status of the
ongoing incentive auction, and it is our determination
that it is too soon to assess the impact of the auction on
minority and female ownership.
B.

Local Radio Ownership Rule
1. Introduction

82. Based on the record in the 2010 and 2014 Quadrennial Review proceedings, we find that the current
Local Radio Ownership Rule remains necessary in the
public interest and should be retained without modification.224 We find that the rule remains necessary to promote competition and that the radio ownership limits
promote viewpoint diversity “by ensuring a sufficient
number of independent radio voices and by preserving a
market structure that facilitates and encourages new
entry into the local media market.” 225 Similarly, we
find that a competitive local radio market helps to promote localism, as a competitive marketplace tends to
lead to the selection of programming that is responsive
to the needs and interests of the local community. 226
Prometheus III, 824 F.3d at 54 n.13.
1996 Act § 202.
225
2006 Quadrennial Review Order, 23 FCC Rcd at 2077, para. 127
(citing 2002 Biennial Review Order, 18 FCC Rcd at 13739, paras.
305-06).
226
2006 Quadrennial Review Order, 23 FCC Rcd at 2075, para.
124; 2002 Biennial Review Order, 18 FCC Rcd at 13738, para. 304
(citing generally Revision of Radio Rules and Policies, Report and
Order, 7 FCC Rcd 2755 (1992) (1992 Radio Ownership Order);
Amendment of Section 73.3555 of the Commission’s Rules, the
223
224

180
Also, we find that the Local Radio Ownership Rule is
consistent with our goal of promoting minority and female ownership of broadcast television stations. We
find that these benefits outweigh any burdens that may
result from retaining the rule without modification. In
addition, as discussed in greater detail below, we adopt
certain clarifications and other actions proposed in the
FNPRM that are designed to fulfill the intent of the revisions to the Local Radio Ownership Rule adopted in
the 2002 Biennial Review Order.227
83. Accordingly, the Local Radio Ownership Rule
will continue to permit the following: An entity may
own (1) up to eight commercial radio stations in radio
markets with 45 or more radio stations, no more than
five of which can be in the same service (AM or FM); (2)
up to seven commercial radio stations in radio markets
with 30-44 radio stations, no more than four of which can
be in the same service (AM or FM); (3) up to six commercial radio stations in radio markets with 15-29 radio
stations, no more than four of which can be in the same
service (AM or FM); and (4) up to five commercial radio
stations in radio markets with 14 or fewer radio stations,
no more than three of which can be in the same service
(AM or FM), provided that an entity may not own more
than 50 percent of the stations in such a market, except
that an entity may always own a single AM and single
FM station combination.228

Broadcast Multiple Ownership Rules, First Report and Order, 4
FCC Rcd 1723 (1989)).
227
See FNPRM, 29 FCC Rcd at 4410-12, paras. 94-97.
228
47 CFR § 73.3555(a).

181
2. Background

84. The FNPRM proposed to retain the Local Radio Ownership Rule without modification. It sought
comment on that proposal and on the application of the
rule, including clarification of certain aspects adopted in
the 2002 Biennial Review Order. 229 Specifically, the
FNPRM sought comment on the relevant market for review as well as on the proper approach for determining
market size and setting numerical limits based on market size tiers.230 We also sought comment in the FNPRM
on the retention of numerical limits in each market-sized
tier, the retention of AM/FM subcaps, and the adoption
of specific waiver criteria for the Local Radio Ownership
Rule.231 Finally, we sought comment on the rule’s impact on minority and female ownership of local radio
broadcast stations.232
85. Various public interest and public advocacy
commenters supported the Commission’s decision to retain the existing rule.233 In addition, UCC et al. support tightening the local radio ownership limits and ending the grandfathering of existing combinations that exceed the rule’s limits, which they assert would better

FNPRM, 29 FCC Rcd at 4402, 4410, paras. 74-75, 94.
Id. at 4404, 4407, paras. 79, 85.
231
Id. at 4408, 4412, 4415, paras. 89, 98, 107.
232
Id. at 4416, para. 108.
233
National Association of Black Owned Broadcasters, Inc.
FNPRM Comments at 3, 17 (NABOB); Thomas C. Smith FNPRM
Comments at 2; UCC et al. FNPRM Comments at 30.
229
230

182
serve the Commission’s competition, diversity, and minority and female ownership goals.234
86. Broadcast commenters generally oppose the
FNPRM ’s proposal to retain the existing Local Radio
Ownership Rule.235 These commenters argue that the
rule should be eliminated or relaxed as a result of competition from non-broadcast audio sources, such as satellite radio, Internet-based audio services, and other
obile audio services.236 NAB also questions the efficacy
UCC et al. FNPRM Comments at 30. The Finger Lakes Alliance for Independent Media (FLAIM), asserts that the Commission
should examine and revise the interim contour-overlap methodology
for non-Nielsen Audio Metro areas because the current interim
methodology allows for too much consolidation in certain markets.
Curt R. Dunnam FNPRM Comments at 1-2 (FLAIM). We find no
basis on which to revisit the interim contour-overlap methodology
here. As the Commission stated when it adopted the methodology,
conducting case-by-case analysis would create significant regulatory
uncertainty and adopting a “proxy” geographic market without proper consideration could produce unforeseeable distortions. See 2002
Biennial Review Order, 18 FCC Rcd at 13729, para. 284 (adopting
the interim contour-overlap methodology and noting that “its temporary use during the pendency of the rulemaking proceeding cannot be avoided” and that it is “well understood” and “would allow for
the orderly processing of radio station applications”). We find that
FLAIM has not provided adequate justification for us to depart from
the Commission’s previous conclusion. We also note that there is a
separate open docket regarding this issue; FLAIM’s concerns are
more properly addressed in that proceeding. Id. at 13729, paras.
283-84.
235
Connoisseur Media, LLC FNPRM Comments at 1-2 (Connoisseur); NAB FNPRM Comments at 61-66, 68.
236
NAB cites a report that found that 124 million people listened
to online radio in the last month, with 94 million listening weekly.
NAB FNPRM Comments at 62 (citing Edison Research and Triton
Digital, The Infinite Dial 2014 at 5, 7 (2014), http://www.edisonresearch.
234

183
of the Local Radio Ownership Rule with regard to promoting localism and diversity.237
3. Discussion

87. Under Section 202(h), we consider whether the
Local Radio Ownership Rule continues to be “necessary
in the public interest as a result of competition.” In determining whether the rule meets that standard, we consider whether the rule serves the public interest. For
the reasons discussed below, we conclude that the current rule, without modification, meets that standard.
While we believe that the competition-based Local Radio Ownership Rule is consistent with our other policy
goals and may promote such goals in various ways, we
do not rely on these other goals as the basis for retaining

com/wo)-content/uploads/2014/03/The-Infinite-Dial-2014-from-EdisonResearch-and-Triton-Digital.pdf) (Infinite Dial 2014). NAB states
that smartphone penetration has been growing rapidly over the last
five years, which gives more consumers access to mobile/online audio
services, such Pandora. Id. In addition, NAB states that companies such as Google, Apple, and Amazon now offer audio services,
and the digital subscription service Spotify is expected to exceed 38
million subscribers in 2014. Id. at 62-63. In response to NAB’s assertions regarding competition from non-broadcast radio, the National Academy of Recording Arts and Sciences (NARAS) asserts
that radio broadcasters enjoy a financial advantage over satellite
and Internet radio because broadcast radio stations do not have to
pay performance rights fees. According to NARAS, this discrepancy distorts the market, and broadcasters should pay performance
right fees in order to “level the playing field with other music services.” National Academy of Recording Arts and Sciences FNPRM
Comments at 1-2. We note that issues regarding performance rights
fees are outside the scope of the Commission’s media ownership
rules and will not be considered in this proceeding.
237
NAB FNPRM Comments at 66-67.

184
the rule. 238 Consistent with Commission-precedent,
upheld by the court in Prometheus II, we find that the
Local Radio Ownership Rule continues to be necessary
to protect competition, which provides a sufficient ground
on which to retain the rule.239
88. Market. We tentatively concluded in the
FNPRM that the relevant product market for review of
the Local Radio Ownership Rule is the radio listening
market and that it is not appropriate to include nonbroadcast audio sources in that market. Public interest commenters generally support the Commission’s proposal to retain the rule along with the current relevant
market definition.240
89. Other commenters oppose the Commission’s
proposal to continue to exclude non-broadcast audio
sources from the relevant market.241 NAB states that
online audio services are meaningful competitors to
broadcast radio and that the Commission has recognized
the impact online audio has on AM stations; NAB argues
that this recognition should extend to FM stations as

See NAB FNPRM Comments at 66-68 (arguing that the Commission failed to establish that the current local radio ownership rule
is necessary to promote localism, viewpoint diversity, or program diversity).
239
2006 Quadrennial Review Order, 23 FCC Rcd at 2069, para. 110
(“[W]e conclude that the current local radio ownership rule . . .
remains ‘necessary in the public interest’ to protect competition in
local radio markets.”); Prometheus II, 652 F.3d at 462-63 (upholding
the Commission’s decision to retain the existing local radio ownership rule).
240
UCC et al. FNPRM Comments at 30.
241
Connoisseur FNPRM Comments at 1-2; NAB FNPRM Comments at 63-66.
238

185
well. 242 NAB also disputes the Commission’s distinction of non-broadcast audio from local radio stations as
national platforms because the national platforms still
have a competitive impact on broadcast radio stations
with regard to audience share and advertising revenue.243
90. We adopt our tentative conclusion that the radio listening market remains the relevant market for review of the Local Radio Ownership Rule and that it is
not appropriate to expand the market to include nonbroadcast audio. When determining the appropriate
market definition for the Local Radio Ownership Rule,
we must determine whether alternate audio platforms
provide consumers with a meaningful substitute for local broadcast radio stations.244 For purposes of our review, it is important to consider the nature of broadcast
radio when determining whether an alternate source of
audio programming provides a meaningful substitute
for broadcast radio—the ability to access audio content
alone is not sufficient to demonstrate substitution.
Broadcast radio stations provide free, over-the-air programming tailored to the needs of the stations’ local
markets. In contrast, Internet radio requires either a
fixed or mobile broadband Internet connection, and satellite radio requires a monthly subscription to access
programming. Neither of these sources is as universally and freely available as broadcast radio, and neither
NAB FNPRM Comments at 63-64 (citing Revitalization of the
AM Radio Service, Notice of Proposed Rulemaking, 28 FCC Rcd
15221, 15222-23, para. 4 (2013) (AM Radio Revitalization NPRMV)).
243
NAB FNPRM Comments at 64-65.
244
See 2002 Biennial Review Order, 18 FCC Rcd 13715-16, paras.
245-46.
242

186
typically provides programming tailored to the needs
and interests of specific local markets.
91. As we noted in the FNPRM, despite the growing popularity of non-broadcast platforms such as satellite radio and Internet-delivered audio in the commercial audio industry, broadcast radio continues to dominate in its reach among listeners.245 For instance, the
percentage of Americans age 12 or older who listen to
broadcast radio has remained constant at over 90 percent over the last decade.246 Moreover, no commenter
submitted data refuting the findings stated in the
FNPRM, and recent data confirm that broadcast radio
listenership remains essentially unchanged.247 In addition, the vast majority of Americans prefer to use broadcast radio as their in-car audio entertainment over new
FNPRM, 29 FCC Rcd at 4404-05, para. 82; see also Pew Research Center, Audio: Spotify and Pandora Active Users (2014), http://
journalismandmedia.com/media-indicators/audio-spotify-and-pandoraactive-users/ (last visited June 8, 2016) (reporting that online audio
services Spotify and Pandora reported 60 million and 81.5 million active users respectively in 2014); Pew State of the News Media 2015
at 57 (finding that Sirius XM, the only satellite radio platform available in the United States, reported a 7 percent growth in subscriber
numbers from 2013).
246
FNPRM, 29 FCC Rcd at 4405, para. 82 (“In 2012, 92 percent of
Americans age 12 or older listened to broadcast radio. . . . ”); see
also The Pew Research Center’s Project for Excellence in Journalism, The State of the News Media 2013: An Annual Report on
American Journalism, Audio Data (2013), http://www.stateofthemedia.
org/2013/.
247
In 2014, 91 percent of Americans ages 12 and older listened to
broadcast radio. Pew State of the News Media 2015 at 57. By contrast, in 2015, 53 percent of Americans age 12 or older listened to
online radio on a monthly basis, up from 47 percent the previous
year. Id.
245

187
technology options.248 Lastly, we note that the growth
of online radio listening likely includes audiences that
are listening to streams of broadcast radio stations
online instead of or in addition to listening over the air.249
Ultimately, broadcast radio remains the most easily accessible and popular way for consumers to listen to audio programming, and the only one that focuses on the
needs and interests of local markets.250
92. In addition, we disagree with NAB’s assertion
regarding the lack of significance of non-broadcast radio’s national platform. The local character of broadcast radio is a significant aspect of the service that must
be considered when determining whether alternate audio platforms provide a meaningful substitute. The
record fails to demonstrate that non-broadcast radio
programmers make programming decisions to respond
to competitive conditions in local markets. As the
Commission has stated previously, competition among
FNPRM, 29 FCC Rcd at 4405, para. 82 & n.208; see also Infinite
Dial 2014 at 29-30 (finding that AM/FM radio “dominates” in-car media and is used far more frequently than other in-car audio options);
Press Release, Ipsos, Ipsos Tunes in With Americans: AM/FM Radio Continues to Make Waves in the In-Car Environment (April 9,
2015), http://www.ipsosna.com/download/pr.aspx?id=14412 (finding
that, in an in-car environment, 84 percent of Americans use AM/FM
radio as their audio entertainment).
249
The data cited by NAB to establish the competitive impact of
online radio define online radio as “[l]istening to AM/FM radio stations online and/or listening to streamed audio content available only
on the Internet.” See NAB FNPRM Comments at 62 (citing Infinite Dial 2014). To the extent that online audio merely allows listeners to access broadcast radio station content over the Internet
rather than over the air, it may not be a true alternative to broadcast
radio.
250
Pew State of the News Media 2015 at 57.
248

188
local rivals most benefits consumers and serves the public interest.251
93. We also disagree with NAB’s characterization
that the Commission has recognized non-broadcast radio programming as meaningful substitutes for broadcast radio simply by virtue of the Commission’s acknowledgment of the potential impact of alternate audio platforms on AM radio.252 While the Commission has recognized that AM radio is susceptible to audience migration due to its technical shortcomings, recognition of this
fact does not mean that non-broadcast audio alternatives are a meaningful substitute for AM radio, specifically, or broadcast radio, in general. As discussed earlier, non-broadcast audio alternatives do not respond to
competitive conditions in local markets and are not
available to all consumers in a local market to the same
extent as broadcast radio, which are critical considerations when determining substitutability.253

FNPRM, 29 FCC Rcd at 4405, para. 83 (citing 2002 Biennial
Review Order, 18 FCC Rcd at 13716, para. 246).
252
NAB Comments at 64 (citing AM Radio Revitalization
NPRM, 28 FCC Rcd at 15222-23, para. 4).
253
For example, a significant portion of U.S. households lack a
fixed Internet connection capable of streaming Internet-delivered
audio programming. See 2016 Broadband Progress Report, 31
FCC Rcd at 767-69, Append. F, Table 1 & Table 2 (finding that, excluding satellite services, approximately 16.080 million Americans in
the United States lack access to fixed 4 Mbps/1 Mbps and that the
adoption rate for the U.S. as a whole for at least fixed 4 Mbps/1 Mbps
is approximately 58 percent). When satellite services are considered, the number of Americans in the United States lacking access
to fixed 4 Mbps/1 Mbps drops to approximately 1.376 million, though
the adoption rate also drops to 56 percent. Id. While we do not
251

189
94. Ultimately, we find that the record demonstrates
that alternative sources of audio programming are not
currently meaningful substitutes for broadcast radio
stations in local markets; therefore, we decline to depart
from our tentative conclusion to exclude non-broadcast
sources of audio programming from the relevant market
for the purposes of the Local Radio Ownership Rule.254
We find that the Local Radio Ownership Rule should
continue to focus on promoting competition among
broadcast radio stations in local radio listening markets.

take the position that advanced telecommunications/broadband deployment and adoption must be universal before we will consider Internet-delivered audio programming to be a competitor in the local
radio listening market, we find that the current level of penetration
and adoption of broadband service remains relevant when considering the extent to which this platform is a meaningful substitute for
broadcast radio stations.
254
Our proposal to limit the relevant market to broadcast radio stations in local radio listening markets is consistent with current Department of Justice (DOJ) precedent in evaluating proposed mergers involving broadcast radio stations. See, e.g., Complaint, para.
9, United States v. Cumulus Media Inc:, No. 1:11CV01619 (D.D.C.
Sept. 8, 2011) (“The relevant markets . . . are the sale of radio
advertising time to advertisers targeting listeners in two separate
Nielsen Audio Metro Survey Areas (‘MSAs’) by radio stations in
those MSAs.”); see also Department of Justice February 20, 2014
NPRM Ex Parte Comments at 5, 8 (confirming that the relevant
markets for antitrust review are the broadcast radio spot advertising market in the stations’ specific geographic market); Timothy J.
Brennan & Michael A. Crew, Gross Substitutes vs. Marginal Substitutes: Implications for Market Definition in the Postal Sector,
in The Role of the Postal and Delivery Sector in a Digital Age 1-15
(2013) (arguing that the loss of customers to a new technology does
not necessarily mean that the new technology should be included in
the market definition of the existing technology).

190
95. Market Size Tiers.
We proposed in the
FNPRM to retain the existing approach of setting numerical limits based on market size tiers and of determining the market size based on the number of commercial and noncommercial radio stations in the local market. No commenters objected to the proposal to retain
the market size tiers approach.
96. As we said in the FNPRM, the Commission’s
experience in applying the Local Radio Ownership Rule
supports retention of the existing framework in order to
promote competition. The Commission consistently has
found that setting numerical ownership limits based on
market size tiers remains the most effective method for
preventing the acquisition of market power in local radio
markets.255 This bright-line approach helps to keep the
limited available radio spectrum from becoming “locked
up” in the hands of one or a few radio station owners.256
Furthermore, we believe that this approach benefits
transaction participants by expediting the processing of
See, e.g., 2006 Quadrennial Review Order, 23 FCC Rcd at 2072,
para. 116; Prometheus I, 373 F.3d at 431-32; 2002 Biennial Review
Order, 18 FCC Rcd at 13730-34, paras. 288-91.
256
See 2006 Quadrennial Review Order, 23 FCC Rcd at 2072, para.
116 (finding that “numerical limits on radio station ownership help
to keep the available radio spectrum from becoming ‘locked up’ in
the hands of one or a few owners, thus helping to prevent the formation of market power in local radio markets”); Prometheus I, 373
F.3d at 431-32 (accepting “the Commission’s rationale for employing
numerical limits”); 2002 Biennial Review Order, 18 FCC Rcd at
13730-3 1, para. 288 (finding that in radio markets, “barriers to entry
are high because virtually all available radio spectrum has been licensed” and that the “closed entry nature of radio suggests that the
extent of capacity that is available for new entry plays a significant
role in determining whether market power can develop in radio
broadcasting”).
255

191
assignment or transfer of control applications and by
providing clear guidance on which transactions comply
with the local radio ownership limits.
97. Two commenters propose alternative methodologies for determining market size tiers. Mid-West Family proposes that the Commission assign different values
to stations of different classes when calculating how
many stations an entity owns in a local market (e.g.,
Class C FM station = 1 station; Class A FM station =
.5 station).257 According to Mid-West Family, the disparity in coverage area related to station class puts owners of smaller stations at a competitive disadvantage because they cannot equal the audience reach of larger
competitors. 258 Alternatively, Mid-West Family proposes a case-by-case analysis that would allow a station
owner to acquire more stations than otherwise permitted under the rule in order to equalize the population
coverage achieved by an in-market competitor.259 Connoisseur proposes that acquisitions involving stations in
embedded markets—smaller radio markets that are located within the boundaries of a larger radio market
(parent market)—should not be required to include stations owned in other embedded markets when demonstrating compliance with the ownership limits of a parent market.260
Mid-West Family Stations FNPRM Comments at 3-7 (MidWest Family).
258
Id. at 2, 6-7.
259
Id. at 7.
260
Connoisseur FNPRM Comments at 8; Letter from David Oxenford, Counsel, Connoisseur Media, to Marlene H. Dortch, Secretary,
FCC (June 16, 2016) (Connoisseur June 16 Ex Parte); Letter from
David Oxenford, Counsel, Connoisseur Media, to Marlene H.
257

192
98. We decline to adopt Mid-West Family’s proposals. First, we disagree with Mid-West Family’s contention that the Prometheus I decision mandates an adjustment to the rule’s current methodology in the way
proposed by Mid-West Family.261 Second, as the Com-

Dortch, Secretary, FCC (June 7, 2016) (Connoisseur June 7 Ex
Parte); see also Letter from David D. Oxenford, Connoisseur Media,
to Marlene H. Dortch, Secretary, FCC (filed Aug. 5, 2016) (reiterating Connoisseur’s initial proposal and emphasizing the need for an
explicit presumption regarding embedded markets); Letter from
Steven Price, Townsquare Media, to Marlene H. Dortch, Secretary,
FCC (filed Aug. 10, 2016) (supporting Connoisseur’s proposal); Letter from Lawrence M. Miller, Pamal Broadcasting, Ltd. to Marlene
H. Dortch, Secretary, FCC (filed Aug. 10, 2016) (supporting Connoisseur’s proposal).
261
Mid-West Family contends that “[t]he Commission’s approach
overlooks distinctions in the size, revenue, and audience share of radio stations,” and that this approach is inconsistent with the guidance provided by the court in Prometheus I to “consider marketplace realities in setting the ownership rules.” Mid-West Family
FNPRM Comments at 3-4. The language referred to by Mid-West
Family from Prometheus I concerns one particular line of reasoning
that was subsequently abandoned by the Commission in favor of a
different set of rationales in the 2006 Quadrennial Review Order, a
shift in approach that the Prometheus II court noted and upheld.
See Prometheus II, 652 F.3d at 462 (finding that “the FCC has demonstrated that the existing numerical limits are necessary in the
public interest”); see also Prometheus I, 373 F.3d at 433-34 (finding
that the Commission’s decision to retain the numerical limits was not
supported by the theory that they ensure five equal-sized competitors in most markets). The Prometheus I language cited by MidWest Family is therefore inapplicable to the current approach, which
was first adopted in the 2006 Quadrennial Review Order, and which
was upheld by Prometheus II. Id. Mid-West Family further argues that the Prometheus II decision is not controlling because no
party raised the specific issue now identified by Mid-West Family,
and thus the Prometheus II court did not address the issue in its

193
mission has said previously, adopting Mid-West Family’s approach would permit potentially significant consolidation in local radio markets, which would be inconsistent with the rationale for our retention of the existing numerical ownership limits discussed below.262 Specifically, Mid-West Family’s proposal to assign different
values to stations of different classes does not account
for the possibility of a relatively low power radio station
potentially reaching a larger audience than a station
with a larger service contour. For example, a station
with a small service contour that encompasses a densely
populated area may have a population reach similar to
or greater than a station in the same market with a
larger service contour that also covers more sparsely
populated areas outside the main population center.
Such a scenario would not support counting the lower
powered station as half of a higher powered station.
99. Moreover, service contour (and the associated
population coverage) is just one of many aspects of station operations that may impact the ability to compete
in a local market. For example, experienced management, programming quality, and on-air talent, among
other factors, may all impact a station’s ability to compete. Each station serves as a voice in its local market,
and we are not inclined to discount the value of certain
voices, particularly based on criteria that may have a
decision. Mid-West Family FNPRM Comments at 6 n.10. We do
not need to reach this argument, however, as we have considered—
and rejected—Mid-West Family’s proposal herein, and the rule we
retain is consistent with the court’s decision in Prometheus II. Id.
(finding that the rule adopted was supported by reasoned analysis
and the evidence before the Commission).
262
FNPRM, 29 FCC Rcd at 4407, para. 88.

194
limited impact on a station’s ability to compete. For
these reasons, we decline to change the methodology for
determining market size tiers, as proposed by Mid-West
Family.
100. We also decline to adopt Mid-West Family’s
proposal for a case-by-case analysis of population coverage. As discussed above, we do not believe that population coverage alone is an appropriate basis on which to
judge the competitiveness of a station (or cluster of stations) or the impact of these voices in the local market.
The existing rule already provides for economies of scale
that help stations compete; we do not believe it is appropriate (or even possible) to revise the rule based on population coverage in an attempt to achieve a competitive
equilibrium, which is effectively what Mid-West Family
seeks. Moreover, the ability to seek a waiver of the
ownership limits already provides parties with an opportunity to assert that special circumstances justify deviation from the rule in a particular case.
101. We also decline to adopt Connoisseur’s proposal. Under the current methodology for determining market size tiers, owners wishing to acquire a radio
station in an embedded market must satisfy the numerical limits in both the embedded market and the overall
parent market. Connoisseur proposes that, where a parent market encompasses multiple embedded markets,
the ownership analysis for an acquisition in one embedded market should not include stations owned in other
embedded markets within the same parent market. 263
Connoisseur argues that embedded markets within the
same parent market may reach different populations
263

Connoisseur FNPRM Comments at 8.

195
and that stations within different embedded markets
have little or no contour overlap.264 Connoisseur provides examples of embedded markets from the San
Francisco, New York, and Washington, D.C., markets,
with an analysis of only the New York embedded markets.265
102. In the 2002 Biennial Review that adopted the
Nielsen Audio Metro (formerly Arbitron Metro) methodology for determining radio markets, the Commission
specifically declined to treat embedded markets differently. 266 The Commission found that requiring proposed combinations to comply with the Local Radio
Ownership Rule in each Nielsen Audio Metro implicated
by the proposed combination (i.e., in both the embedded
and parent markets) “comports with our general recognition that [Nielsen Audio’s] market definitions are the
recognized industry standard.” 267 We find that Connoisseur has not presented evidence of changes in the

Id. at 7.
See id. at Attachs. A-E.
266
2002 Biennial Review Order, 18 FCC Rcd at 13725, para. 277 &
n.583. In the 2002 Biennial Review Order, the Commission concluded that “[Nielsen Audio’s] market definitions are an industry
standard and represent a reasonable geographic market delineation
within which radio stations compete,” and that “[g]iven the longstanding industry recognition of the value of [Nielsen Audio’s] service, . . . there is strong reason to adopt a local radio market definition that is based on this established industry standard.” Id. at
13725, para. 277.
267
Id. at 13725, n.583. The Commission rejected a proposal to apply a different test for embedded markets because it concluded that
the proposed scheme would be inconsistent with the general reliance
on Nielsen Audio’s market definition and cumbersome to administer.
Id.
264
265

196
radio industry that would warrant an across-the-board
departure from our longstanding reliance on Nielsen
Audio’s market analysis as reported by BIA as the basis
for multiple ownership calculations for embedded and
parent markets. In these situations, a station’s abovethe-line listing in the parent market (i.e., stations that
are listed by BIA as “home” to that Metro) reflects a
determination by Nielsen Audio and BIA that the station at issue competes in the parent market.268 For this
reason, all embedded market stations that are listed as
“home” to the parent market, like any other above-theline stations, must be taken into account when demonstrating multiple ownership compliance in the parent
market.269 In its comments, Connoisseur conflates the
embedded and parent market analyses, suggesting that
the parent market analysis erroneously introduces stations from one embedded market to another, which may
have tenuous economic or listenership ties to the first.
This contention misses the point that, as a separate application of our multiple ownership rules, the parent
market analysis necessarily includes all stations that
compete in that market, whether or not they also compete in another embedded Metro market.
103. That said, we recognize Connoisseur’s concerns
that Nielsen Audio and BIA’s practice of designating all

See id. at 13727, para. 279.
This principle is consistent with our treatment of stations whose
communities of license are outside the geographic boundaries of a
Metro but are listed by BIA as “home” to the Metro. Such stations
must comply with the multiple ownership limits in both the Metro
market in which they are listed as “home” and the market in which
their community of license is located, because they are considered to
compete in both. See id. at 13727-8, para. 280 & nn.595-96.
268
269

197
embedded market stations as “home” to the parent market—regardless of actual market share—could result in
certain stations being counted for multiple ownership
purposes in a market in which they do not actually compete. Although we do not believe that the record justifies a blanket exception to the rule, we will entertain
market-specific waiver requests under Section 1.3
demonstrating that the BIA listings in a parent market
do not accurately reflect competition by embedded market stations and should thus not be “counted” for multiple ownership purposes.270 However, we decline to alter the methodology for determining market size tiers
as proposed by Connoisseur.271
104. Numerical Limits.
We proposed in the
FNPRM to retain the existing numerical limits in each
market-sized tier and sought comment on any data that
would support changing the existing limits. No commenter provided any such data, nor did any commenter
propose specific numerical limits to replace the limits
proposed in the FNPRM. NAB argues that the Commission must justify the necessity of the numerical limits given the increasingly competitive audio marketplace.272
105. We conclude that the competitive conditions in
the radio marketplace that supported the Commission’s
decision to retain the existing numerical limits in the
2006 Quadrennial Review Order and to propose to retain the limits in the 2014 Quadrennial Review FNPRM
See Connoisseur June 16 Ex Parte at 5; Connoisseur June 7
Ex Parte at 4-5.
271
See Connoisseur FNPRM Comments at 8
272
NAB FNPRM Comments at 69 n.220.
270

198
remain largely unchanged.273 As demonstrated in the
record, following the relaxation of the local radio ownership limits by Congress in the 1996 Act, there was substantial consolidation of radio ownership both nationally
and locally.274 In local markets, the largest firms continue to dominate in terms of audience and revenue
share.275
106. We also conclude that the record in this proceeding does not reflect changes in the marketplace that
warrant reconsideration of the Commission’s previous
decision not to make the limits more restrictive. We
continue to believe that tightening the restrictions
would disregard the previously identified benefits of
consolidation in the radio industry and would be inconsistent with the guidance provided by Congress in the
1996 Act.276 Further, we continue to find that tightening the rule, absent grandfathering, would require di-

See FNPRM, 29 FCC Rcd at 4409, para. 92 & n.235; 2006 Quadrennial Review Order, 23 FCC Rcd at 2073, para. 118. We note that
no commenter provided data to contradict this conclusion. See
FNPRM, 29 FCC Rcd at 4409, para. 92 (seeking comment on “whether
there are any more recent data that point to a different conclusion”).
274
FNPRM, 29 FCC Rcd at 4409, para. 92 & n.235; see also 2006
Quadrennial Review Order, 23 FCC Rcd at 207273, para. 118.
275
FNPRM, 29 FCC Rcd at 4409, para. 92.
276
See Prometheus II, 652 F.3d at 462 (crediting the Commission’s
conclusion that tightening the limits would be inconsistent with Congress’s recognition that a certain level of consolidation can be efficient as well as its decision to relax the limits in the 1996 Act); 2006
Quadrennial Review Order, 23 FCC Rcd at 2074, para. 119 (acknowledging the “benefits that consolidation has brought to the financial stability of the radio industry”).
273

199
vestitures that we believe would be disruptive to the radio industry and would upset the settled expectations of
individual owners. 277 No commenter provided information on whether the benefits derived from tightening
the limits would outweigh these countervailing considerations. For these reasons, and consistent with prior
decisions, we conclude that tightening the limits would
not be in the public interest.278
107. Clarification of Application of Local Radio Ownership Rule. In the FNPRM, we sought comment on
clarifications to certain aspects of the Local Radio Ownership Rule adopted in the 2002 Biennial Review Order.
Specifically, the FNPRM sought comment on (1) a clarification to the exception to the two-year waiting period
for certain Nielsen Audio Metro changes; (2) an exemption from the Note 4 grandfathering requirements for
“intra-Metro” community of license changes; and (3) a
redefinition of the Puerto Rico market.279
108. In the 2002 Biennial Review Order, the Commission established safeguards to deter parties from attempting to manipulate Nielsen Audio Metro market
definitions for purposes of circumventing the Local Radio Ownership Rule. Specifically, the restrictions prohibit a party from receiving the benefit of a change in
2006 Quadrennial Review Order, 23 FCC Rcd at 2074, paras.
119-20; see also Prometheus I, 652 F.3d at 462 (crediting the Commission’s conclusion that tightening the limits would undermine settled expectations and unduly disrupt the industry).
278
See Prometheus II, 652 F.3d at 462; 2006 Quadrennial Review
Order, 23 FCC Rcd at 2074, para. 119.
279
FNPRM, 29 FCC Rcd at 4410-12, paras. 94-97. No comments
were submitted regarding the two-year waiting period or the exemptions to Note 4.
277

200
Nielsen Audio Metro boundaries or “home” market designation unless that change has been in place for at least
two years (or unless the station’s community of license
is within the Metro, in the case of a “home” designation
change). 280 In general, a licensee seeking to demonstrate multiple ownership compliance may rely upon the
removal of a station from BIA’s list of “home” stations
in a Metro, without a two-year waiting period, when the
exclusion results from an FCC-approved change in the
community of license from a community that is within a
Metro’s geographic boundaries to one that is outside the
Metro.281 In the FNPRM, the Commission proposed to
clarify that this exception applies only where the community of license change also involves the physical relocation of the station facilities to a site outside the relevant Nielsen Audio Metro market boundaries.282 Otherwise, the licensee of a station currently located in a
Nielsen Audio Metro market could use the exception to
reduce the number of its stations listed as “home” to
that Metro, without triggering the two-year waiting period and without any change in physical coverage or
market competition, merely by specifying a new community of license located outside the Metro. 283 No commenter objected to this clarification of the exception to
the two-year waiting period. Accordingly, we adopt
this clarification as it will ensure that the local radio
2002 Biennial Review Order, 18 FCC Rcd at 13726, para. 278.
See, e.g, WFGE(FM), Tyrone, PA, Letter Order, 28 FCC Rcd
16489, 16491 (MB 2013) (WFGE(FM) Decision); FCC Form 314, Application for Consent to Assignment of Broadcast Station Construction Permit or License, Instructions, Worksheet #3 at 3.
282
FNPRM, 29 FCC Rcd at 4411, para. 95.
283
Id.; see also 2002 Biennial Review Order, 18 FCC Rcd at
13726, para. 277 n.585.
280
281

201
ownership limits cannot be manipulated based on Nielsen Audio market definitions.
109. Note 4 to Section 73.3555 of the Commission’s
rules (Note 4) grandfathers existing station combinations that do not comply with the numerical ownership
limits of Section 73.3555(a). However, we recognize
that certain circumstances require applicants to come
into compliance with the numerical ownership limits despite the fact that the relevant station may have been
part of an existing grandfathered cluster. One such
circumstance is a community of license change, which
occasionally can lead to difficulty when an applicant with
a grandfathered cluster of stations seeks to move a station’s community of license outside the relevant Nielsen
Audio Metro market. Given that the Commission relies on the BIA database for information regarding Nielsen Audio Metro “home” designations, such an applicant
cannot concurrently demonstrate compliance with the
multiple ownership limits at the time of application filing, because the station proposing to change its community will continue to be listed by BIA as “home” to the
Metro.284 To resolve this administrative issue, we adopt
the proposal in the FNPRM to allow a temporary waiver
of the radio multiple ownership limits in this limited instance for three months from grant of the community of
license modification application to allow BIA sufficient
time to change the affected station’s “home” designation
following a community of license relocation. Grant of
the application will be conditioned on coming into compliance with the applicable multiple ownership limits
within three months. In the event that the relevant
station is still listed by BIA as “home” to the Metro at
284

See WGFE(FM) Decision, 28 FCC Rcd at 16491.

202
the end of this temporary waiver period, we will rescind
grant of the application and re-specify the original community of license.285
110. We also proposed to exempt “intra-Metro” community of license changes from the requirements of
Note 4. In 2006, the Commission introduced a streamlined procedure allowing an FM or AM broadcast licensee or permittee to change its community of license by
filing a minor modification application. 286 We have
found that strict application of Note 4 has produced disproportionately harsh results from what is now otherwise a minor and routine application process. 287 One
commenter, Results Radio, suggests that the reasoning
supporting the proposed exemption applies not only to
community of license changes within the physical
boundaries of the Metro market, but to any community
of license change where the station remains designated
as “home” to the Metro market.288 We agree that such
See id; Enid Public Radio Association, Letter Order, 28 FCC
Rcd 2837 (MB 2013) (rescinding grant of a license renewal application due to licensee’s failure to comply with the terms of the renewal
grant).
286
See Revision of Procedures Governing Amendments to FM Table of Allotments and Changes of Community of License in the Radio Broadcast Services, Report and Order, 21 FCC Rcd 14212
(2006).
287
See, e.g., Galaxy Communications, L.P., Letter Order, 21 FCC
Rcd 2994 (MB 2006), dismissed as moot Galaxy Communications,
L.P. Application for Modification of License Station WTKV(FM),
Oswego, NY, Memorandum Opinion and Order, 29 FCC Rcd 4254
(2014).
288
Letter from Michael Beder, Counsel to Results Radio, LLC
(Results Radio), to Marlene H. Dortch, Secretary, FCC, MB Docket
No. 14-50, Attach. at 1 (filed May 11, 2016); Letter from Michael
Beder, Counsel to Results Radio, to Marlene H. Dortch, Secretary,
285

203
an exemption would, in limited circumstances, provide
equitable relief from the divestiture requirements of
Note 4. Moreover, we find that such intra-market community of license changes in most cases will have little
or no impact on the concentration of ownership within
the local market. Accordingly, we adopt these exemptions to Note 4.289
111. Since 2003, the Commission has regularly
waived the Nielsen Audio Metro market definition for
Puerto Rico, which defines Puerto Rico as a single market, instead relying on a contour overlap analysis for
proposed transactions. The Commission has held that
the unique characteristics of Puerto Rico present a compelling showing of special circumstances that warrant
departing from the Nielsen Audio Metro as the presumptive definition of the local market. 290 This practice is based on Puerto Rico’s extremely mountainous
topography, large number of radio stations and station
owners, and division into eight Metropolitan Statistical
Areas (MSAs) as defined by the Office of Management
and Budget (OMB), which demonstrate that Puerto Rico
has more centers of economic activity than are accounted for by the single Puerto Rico Nielsen Audio
Metro definition.291 In its comments filed in the 2010
FCC, MB Docket No. 14-50, Attach. at 1 (filed May 23, 2016); Letter
from Michael Beder, Counsel to Results Radio, to Marlene H.
Dortch, Secretary, FCC, MB Docket No. 14-50, Attach. at 1 (filed
May 25, 2016).
289
See Appendix A; 47 CFR § 73.3555, Note 4.
290
MSG Radio, Inc., Assignor, and WIAC FM, Inc., Assignee,
Application for Assignment of License for WTOK-FM San Juan,
Puerto Rico, Letter Order, 27 FCC Rcd 7066, 7073 (MB 2014).
291
Id. at 7072-74

204
Quadrennial Review as well as in response to the
FNPRM, the Arso Radio Corporation (Arso) renewed
its longstanding request that the Commission redefine
local radio markets for Puerto Rico.292 Arso supports
abandoning Nielsen Audio’s treatment of Puerto Rico as
a single market and creating a new definition based on
contour overlap.293 Arso states that it would also support any of the other approaches set forth in the FNPRM,
such as relying on the eight MSAs or using the three
Combined Statistical Areas defined by OMB.294
112. In previous waiver proceedings involving the
Puerto Rico radio market, the Commission utilized the
contour-overlap methodology that normally applies to
defining markets in non-Nielsen Audio rated markets.295
Under the contour-overlap methodology, the relevant
radio market is defined by the area encompassed by the
mutually overlapping principal community contours of
the stations proposed to be commonly owned. 296 The
Commission has determined previously that this methodology was appropriate to apply when examining the
Puerto Rico radio market because of Puerto Rico’s unique

Arso Radio Corp. FNPRM Comments at 6 (Arso Radio); see
also Arso Radio NPRM Comments at 4.
293
Arso Radio FNPRM Comments at 6.
294
Id.; see also FNPRM, 29 FCC Rcd at 4411, para. 97.
295
The contour-overlap methodology is generally permitted to define the local radio market only when a station’s community of license is located outside of a Nielsen Audio Metro boundary. 2002
Biennial Review Order, 18 FCC Rcd at 13729, para. 284.
296
See id. at 13729-30, paras. 284-86.
292

205
characteristics as discussed above.297 Therefore, we conclude that adoption of the contour-overlap market definition will facilitate the most appropriate application of
the Local Radio Ownership Rule in Puerto Rico, and we
note that no commenters oppose this proposal. Accordingly, we adopt the market definition based on contour overlap for Puerto Rico that we have applied consistently in previous waiver proceedings.
113. AM/FM Subcaps. The AM/FM subcaps limit
the number of stations from the same service—AM or
FM—that an entity may own in a single market. For
example, in a market where an entity may own up to
eight commercial radio stations, no more than five stations can be in the same service. The FNPRM tentatively concluded that it was still appropriate to retain
the existing AM/FM subcaps based on differences between AM and FM stations that continue to justify limits on the concentration of ownership in each service.298
Specifically, we found that the subcaps remained necessary to promote new entry and to account for the technological and marketplace differences between AM and
FM stations and thereby promote competition. 299 We
See, e.g., Luis A. Soto, Letter Order, 22 FCC Rcd 2549, 2551-53
(MB 2007).
298
See FNPRM, 29 FCC Rcd at 4412-15, paras. 98-106; see also
Prometheus II, 652 F.3d at 462-63.
299
See FNPRM, 29 FCC Rcd at 4414, para. 102 (noting that “AM
signal propagation varies with the time of day . . . and many AM
stations are required to cease operation at sunset”); Prometheus II,
652 F.3d at 462-63 (finding that the Commission provided an “adequate explanation” for retaining the AM/FM subcaps, which included
specifically recognizing the significant technical and marketplace
differences between AM and FM stations); 2006 Quadrennial Review Order, 23 FCC Rcd at 2080, para. 134 (noting “AM stations’
297

206
sought comment on the impact of the digital radio transition on the AM/FM subcaps, as well as issues regarding the aggregation of multiple AM stations to provide
signal coverage in large geographic areas or in areas
with mountainous terrain.
114. Just as we have found that the public interest is
served by retaining the existing numerical limits, we
find it appropriate to retain the existing subcaps. The
subcaps, as originally adopted by Congress, were premised on the ownership limits adopted in the 1996 Act.300
As the Commission has stated previously, tightening one
or both of the subcaps absent a corresponding change to
the numerical ownership limits (or a tightening of one
subcap absent a loosening of the other) would result in
an internal inconsistency in the rule, as such a tightening would result in an entity not being permitted to own

lesser bandwidth, inferior audio signal, and smaller radio audiences
due to such technical differences”); 2002 Biennial Review Order, 18
FCC Rcd at 13733-34, para. 294. As discussed below, we continue
to find that, given their relative affordability, AM stations in general
offer a particularly viable path to ownership for new entrants and
represent significant radio voices in many of the top markets.
Moreover, we also continue to find that technological differences between FM and AM stations generally result in greater listenership
and revenues for FM stations. Recognizing these unique characteristics of each service, we continue to conclude that the AM and
FM subcaps promote entry and competition in the local radio market
and that there continue to be distinct reasons to separately limit the
number of AM or FM stations in a market that any one entity can
own.
300
See Telecommunications Act of 1996 § 202(b); see also 47 CFR
§ 73.3555.

207
all the stations otherwise permitted under certain numerical tiers.301 We also find that loosening or abolishing the subcaps would create public interest harms by
potentially permitting excessive consolidation of a particular service—an outcome the subcaps are designed to
prevent—and reducing opportunities for new entry with
in local radio markets.302
115. NAB opposes the proposal to retain the subcaps
and argues that removing the subcaps would give licensees more flexibility in structuring ownership.303 NAB
also states that the Commission should examine the necessity of the numerical subcap limits and explain why
the numerical limits remain necessary given the increasingly competitive audio marketplace.304 Alternatively,
NAB proposes removing the AM subcap to help address
challenges faced by AM broadcasters.305
116. We are not persuaded by suggestions that eliminating the subcaps would result in public interest benefits sufficient to justify that action. While flexibility
in ownership structuring may benefit existing licensees,

See FNPRM, 29 FCC Rcd at 4415, para. 106. We sought comment on whether there is any reason we should adopt different subcaps despite this potential inconsistency. Id. No commenter argued for tightening the subcaps.
302
See Prometheus II, 652 F.3d at 462-63 (finding that the Commission was “justified in retaining the AM/FM ‘subcaps’ to “‘prevent
one entity from putting together a powerful combination of stations
in a single service that may enjoy an advantage over stations in a
different service’).
303
NAB FNPRM Comments at 68-69.
304
Id. at 69 n.220.
305
Id. at 69.
301

208
such benefits may not extend to new entrants who potentially would see opportunities for radio ownership diminish through the increased concentration of ownership in a particular service that elimination of the subcaps would permit. We also do not agree that eliminating or modifying the AM subcap would be an effective
way to revitalize AM radio. 306 NAB’s assertion that
elimination of the subcap would revitalize AM radio is
unsupported, as NAB fails to explain how additional
consolidation of AM stations will improve the ability of
those stations to overcome existing technological and
competitive challenges.
117. We continue to believe that broadcast radio, in
general, remains the most likely avenue for new entry in
the media marketplace—including entry by small businesses and entities seeking to serve niche audiences—
as a result of radio’s ability to more easily reach certain
demographic groups and the relative affordability of radio stations compared to other mass media. As the
Commission has stated previously, AM stations are generally the least expensive option for entry into the radio
market, often by a significant margin, and therefore
permit new entry for far less capital investment than is
required to purchase an FM station.307 Nothing in the
record of this proceeding indicates that this market-

See Revitalization of the AM Radio Service, Report and Order,
Further Notice of Proposed Rulemaking, and Notice of Inquiry, 30
FCC Rcd 12145 (2015) (adopting six proposals to help revitalize AM
radio and seeking comment on additional proposals, which do not include relaxation of the radio ownership rules) (AM Revitalization
Order, AM Revitalization FNPRM, and AM Revitalization NOI).
307
FNPRM, 29 FCC Rcd at 4413, para. 101.
306

209
place characteristic has changed. Therefore, we conclude that the public interest remains best served by retaining the existing AM subcap, which limits concentration of AM station ownership and thereby promotes opportunities for new entry that further competition and
viewpoint diversity.308
118. Furthermore, despite the general technological
limitations of AM stations, there continue to be many
markets in which AM stations are “significant radio
voices.” 309 As noted in the FNPRM, throughout the
300 Nielsen Audio Metro markets at that time, there
were 187 AM stations ranked in the top five in terms of
all-day audience share.310 Also, AM stations are among

See id. at 4413, para. 101 (finding that “broadcast radio, in general, continues to be a more likely avenue for entry in the media marketplace-including entry by small businesses and entities seeking to
serve niche audiences-as a result of radio’s ability to more easily
reach certain demographic groups and the relative affordability of
radio stations compared to other mass media”); 2006 Quadrennial
Review Order, 23 FCC Rcd at 2079-80, para. 133; 2002 Biennial Review Order, 18 FCC Rcd at 13739, para. 306. In addition, we note
that FCC Form 323 data for 2011 and 2013 indicates that minority
and female ownership of radio stations (and AM stations, in particular) exceeds that of television stations. See generally 2014 323 Report, 29 FCC Rcd 7835; 2012 323 Report, 27 FCC Rcd 13814.
309
See Prometheus II, 652 F.3d at 463 (finding that “AM stations
are significant radio voices in many of the top markets, and that their
further consolidation could injure the public interest, including harm
to the goal of promoting minority and female ownership”); see also
NPRM, 26 FCC Rcd at 17516, para. 76 (noting that commenters “assert that many of the top stations in in large and small markets are
AM stations”).
310
FNPRM, 29 FCC Rcd at 4415, para. 105; see also Clear Channel
NOI Comments at 39 (citing Mark Fratrik, The Importance of AM
Stations in Local Radio Markets 2 (June 30, 2010) (Attachment D of
308

210
the top revenue earners in some of the largest radio
markets (e.g., New York, Chicago, and Los Angeles).311
We therefore find that, in addition to the general promotion of new entry across all markets described above,
retention of the existing AM subcaps is also necessary
to prevent a single station owner from acquiring excessive market power through concentration of ownership
of AM stations in those markets in which AM stations
are significant radio voices.
119. We also conclude that there continue to be technical and marketplace differences between AM and FM
stations that justify retention of both the AM and FM
subcaps in order to promote competition in local radio
markets. As the Commission has noted previously,
FM stations enjoy unique advantages over AM stations,
such as increased bandwidth, superior audio signal fidelity, and longer hours of operation.312 These technological differences often, but not always, result in greater
listenership and revenues for FM stations that justifies
a limit on the concentration of FM station ownership, in
particular. Nothing in the record of this proceeding indicates that we should depart from the tentative conclusions in the FNPRM regarding the differences between
AM and FM radio. Therefore, we conclude that retaining the existing FM subcap continues to serve the public

Clear Channel NOI Comments)). We note that no commenter offered data to refute our tentative conclusion in the FNPRM that AM
stations continue to be “significant radio voices” in many markets.
311
FNPRM, 29 FCC Rced at 4415, para. 105 & n.276.
312
See, e.g., id at 4413, para. 102; 2006 Quadrennial Review Order, 23 FCC Rcd at 2080, para. 134; 2002 Biennial Review Order,
18 FCC Rcd at 13733-34, para. 294.

211
interest as well. Accordingly, we retain both the AM
and FM subcaps without modification.
120. We also find that the digital radio transition and
the changes to the FM translator rules have not yet
meaningfully ameliorated the general differences between AM and FM stations, such that the justifications
described above have been rendered moot. 313 Recent
digital radio deployment data support previous findings
that FM stations are actually increasing the technological divide through greater adoption rates of digital radio
technology than AM stations.314 Also, the recent changes
to the FM translator rules, “to allow AM stations to use
currently authorized FM translator stations to retransmit their AM service within their AM stations’ current
coverage areas,” have not yet significantly impacted the
technological and marketplace differences between AM

See FNPRM, 29 FCC Rcd at 4414, paras. 103-04; Prometheus
II, 652 F.3d at 463 (“Although the digital transition may ultimately
have a significant effect on the technological and economic advantages of FM stations, it has not yet done so. Thus, the FCC
was justified in declining to rely on it in evaluating the rule.”).
314
See FNPRM, 29 FCC Rcd at 4414, para. 103 n.269. The
trends noted in the FNPRM have continued. Based on staff analysis of Consolidated Database System (CDBS) license data as of
October 30, 2015, and broadcast station totals as of September 30,
2015, of the 10,778 licensed FM stations (commercial and educational), 1,841 have notified the Commission that they have commenced digital operations (approximately 17.1 percent), while only
239 of the 4,692 licensed AM stations have filed such notifications
(approximately 5.1 percent). See Broadcast Station Totals as of
September 30, 2015, News Release (MB Oct. 9, 2015), http://transition.
fcc.gov/Daily_Releases/Daily_Business/2015/db1009/DOC335798A1. pdf.
313

212
and FM stations.315 While the change to the FM translator rule benefited many AM stations, more than half
of all AM stations continue to operate without associated
FM translators.316 We note that no commenter submitted objections or material in the record to refute our
findings; however, we will continue to monitor the impact of the digital radio deployment and the FM translator rule change in future media ownership proceedings.
121. Waiver Criteria.
We sought comment on
whether to adopt specific waiver criteria for the Local
Radio Ownership Rule and on our tentative decision declining to do so.317 Instead, we proposed to continue to
rely on the general waiver standard under Section 1.3 of
the Commission’s rules.
122. NAB opposes the Commission decision to continue to rely on the general waiver standard and supports adoption of a waiver standard that would permit
common ownership when such consolidation increases
the number of radio broadcast stations in operation
(e.g., the waiver would allow a dark radio station to return to the air, prevent a financially struggling station
Amendment of Service and Eligibility Rules for FM Broadcast Translator Stations, Report and Order, 24 FCC Rcd 9642,
9642, para. 1 (2009); see also Creation of a Low Power Radio Service and Amendment of Service and Eligibility Rules for FM
Broadcast Translator Stations, Fourth Report and Order and
Third Order on Reconsideration, 27 FCC Rcd 3364, 3394-95, paras.
66-70 (2012) (modifying date restriction on cross-service translators to include any additional new FM translator stations authorized from the 2003 filing window).
316
FNPRM, 29 FCC Rcd at 4414, para. 104.
317
Id. at 4415, para. 107.
315

213
from going off the air, or facilitate the construction of
unbuilt radio stations).318
123. We decline to adopt specific waiver criteria for
the Local Radio Ownership Rule and will continue to
rely on the general waiver standard. NAB has not provided sufficient information on which to evaluate why a
specific waiver standard would be necessary. Indeed,
we find that the considerations in NAB’s proposal can
be advanced adequately in the context of a general
waiver request under Section 1.3 of the Commission’s
rules.319 Therefore, we conclude that adoption of a specific waiver standard is not appropriate at this time.
124. Minority and Female Ownership. The FNPRM
tentatively concluded that the proposed Local Radio
Ownership Rule was consistent with the Commission’s
goal to promote minority and female ownership.320 The
FNPRM noted that part of the rationale for retaining
the AM/FM subcaps was to promote new entry, particularly in the AM band, which has historically provided
low-cost ownership opportunities for new entrants, including women and minorities. 321 The FNPRM also
tentatively declined to tighten the ownership limits in
order to promote minority and female ownership, as some

NAB FNPRM Comments at 69-70.
47 CFR § 1.3. The Commission has an obligation to take a hard
look at whether enforcement of a rule in a particular case serves the
rule’s purpose or instead frustrates the public interest. See Northeast Cellular Tel. Co., L.P. v. FCC, 897 F.2d 1164, 1166 (D.C. Cir.
1990) (Northeast Cellular); WAIT Radio v. FCC, 418 F.2d 1153, 1157
(D.C. Cir. 1969) (subsequent history omitted) (WAIT Radio).
320
FNPRM, 29 FCC Rcd at 4416, para. 108.
321
Id. at 4416, para. 111.
318
319

214
commenters had recommended, and found that retention of the existing ownership limits addressed the concerns of those commenters who believed that additional
consolidation would harm minority and female ownership.322 UCC et al. support the Commission’s proposal to
retain the existing Local Radio Ownership Rule; however, they assert that the Commission must do even
more to increase levels of minority and female ownership, including tightening the numerical limits or ending
the exemption for grandfathered combinations.323
125. We affirm our tentative conclusion that the current rule remains consistent with the Commission’s goal
to promote minority and female ownership of broadcast
radio stations. 324 While we retain the existing Local
Radio Ownership Rule for the specific reasons stated
above, we find that retaining the existing rule nevertheless promotes opportunities for diverse ownership in local radio ownership. This competition-based rule indirectly advances our diversity goal by helping to ensure
the presence of independently owned broadcast radio
stations in the local market, thereby increasing the likelihood of a variety of viewpoints and preserving ownership opportunities for new entrants. We have also retained the AM/FM subcaps, in part, to help promote new
entry-as noted, the AM band in particular has historically provided lower-cost ownership opportunities for
new entrants.
126. Consistent with our analysis of the local television ownership rule above, however, we find the claim
322
323
324

Id. at 4417, para. 112.
UCC et al. FNPRM Comments at 30.
See FNPRM, 29 FCC Rcd at 4416-17, paras. 108-12.

215
that tightening the Local Radio Ownership Rule would
promote increased opportunities for minority and female ownership to be speculative and unsupported by
existing ownership data.325 Notably, NTIA ownership
data from 1995-the year before the local radio ownership
limits were relaxed and set to the existing levels-identified 312 minority owned radio stations (racial and ethnic
minorities for both AM and FM stations).326 The data
demonstrate lower overall levels in 1996/97 (284 stations) and 1998 (305 stations); however, the total grew to
426 stations in 1999/2000, though NTIA attributes approximately half the growth between 1999 and 1999/
2000 to improved methodology for identifying minority
owned stations.327 The Commission’s Form 323 ownership data demonstrate that minority ownership has grown
—indeed, more than doubled—since the rule was relaxed:
644 stations in 2009; 756 stations in 2011; and
Combining older data with more recent data from FCC Form
323 biennial ownership reports (beginning in 2009) introduces potential variation based on differences in the way the data were collected
rather than actual changes in the marketplace. However, in the absence of a continuous, unified data source, the Commission must rely
on the available data, and our findings herein are consistent with the
data.
326
NTIA 2001 Minority Ownership Report at 38. As noted in the
discussion of the Local Television Ownership Rule, the Commission
has previously acknowledged that NTIA’s data collection methodology did “not insure a complete listing of all commercial radio and
television stations owned by minorities” and the data did not include
separate data on female ownership. However, these are the only
data from that time period that are available for purposes of comparison and evaluation of claims that tightening the local radio ownership limits would promote minority ownership. See supra note
212.
327
NTIA 2001 Minority Ownership Report at 37-38.
325

216
768 stations in 2013. 328 Data provided by Free Press
also show an increase in minority ownership after the
Local Radio Ownership Rule was relaxed in 1996. 329
No data in the record support a contention that tightening the local radio ownership limits would promote ownership opportunities for minorities and women.
127. In addition, we do not believe that Media Ownership Study 7, which considers the relationship between
ownership structure and the provision of radio programming targeted to African-American and Hispanic audiences, supports the contention that tightening the local
radio ownership limits would promote minority and female ownership. While the data suggest that there is a
positive relationship between minority ownership of radio stations and the total amount of minority-targeted
radio programming available in a market, the potential
impact of tightening the ownership limits on minority
ownership was not part of the study design, nor something that can be reasonably inferred from the data.
128. While the NTIA and Form 323 data discussed
above show an increase in ownership diversity since the
local radio ownership limits were relaxed in 1996, which
we have noted, we recognize some limits to their probative value. It is important to note that there is nothing
in these data or any other evidence in the record that
would permit us to infer causation; therefore, we decline
to loosen the existing ownership limits on the basis of
See 2014 323 Report, 29 FCC Rcd at 7846-47, 7848-49; 2012 323
Report, 27 FCC Rcd at 13824-25, 13826-27.
329
See S. Derek Turner, Off The Dial: Female and Minority Radio
Station Ownership in the United States 16 (June 2007) (finding that
minorities (racial and ethnic minorities) owned 776 commercial radio
stations as of February 2007).
328

217
any trend reflected in the data. In addition, as discussed above, we decline to loosen the current limits,
which place limits on consolidation, because we continue
to find that the existing rule remains necessary to promote competition in local radio markets. Consistent
with this conclusion, we remain mindful of the potential
impact of consolidation in the radio industry on ownership opportunities for new entrants, including small businesses, and minority- and women-owned businesses, and
we will continue to consider the implications in the context of future quadrennial reviews.
C.

Newspaper/Broadcast Cross-Ownership Rule
1. Introduction

129. The Newspaper/Broadcast Cross-Ownership
(NBCO) Rule prohibits common ownership of a daily
newspaper and a full-power broadcast station (AM, FM,
or TV) if the station’s service contour encompasses the
newspaper’s community of publication.330 In analyzing
the NBCO Rule under Section 202(h), our focus is on the
rule’s primary purpose—to promote viewpoint diversity
at the local level. As the Commission noted in adopting

See 1975 Second Report and Order, 50 FCC 2d at 1074-78, paras. 99-107. The rule currently in effect prohibits the licensing of
an AM, FM, or TV broadcast station to a party (including all parties
under common control) that directly or indirectly owns, operates, or
controls a daily newspaper, if the entire community in which the newspaper is published would be encompassed within the service contour
of the station, namely: (1) the predicted or measured 2 mV/m contour of an AM station, computed in accordance with Section 73.183
or Section 73.186; (2) the predicted 1 mV/m contour for an FM station, computed in accordance with Section 73.313; or (3) the Grade A
contour of a TV station, computed in accordance with Section 73.684.
See 47 CFR § 73.3555(d) (2002).
330

218
the NBCO Rule, “[i]f our democratic society is to function, nothing can be more important than insuring that
there is a free flow of information from as many divergent sources as possible.331 Broadcast stations and
daily newspapers remain the predominant sources of
the viewpoint diversity that the NBCO Rule is designed
to protect. The proliferation of (primarily national)
content available from cable and satellite programming
networks and from online sources has not altered the
enduring reality that traditional media outlets are the
principal sources of essential local news and information. The rapid and ongoing changes to the overall media marketplace do not negate the rule’s basic premise
that the divergence of viewpoints between a crossowned newspaper and broadcast station “cannot be expected to be the same as if they were antagonistically
run.”332 Some commenters argue that eliminating the
NBCO Rule would benefit localism and competition.
Because the purpose of the NBCO Rule hinges on viewpoint diversity, we find these arguments to be unpersuasive.
130. After careful consideration of the record, we
conclude that regulation of newspaper/broadcast crossownership within a local market remains necessary to
protect and promote viewpoint diversity. We continue
to find, however, that an absolute ban on newspaper/
broadcast cross-ownership is overly broad.333 Accordingly, and consistent with the Commission’s approach in
1975 Second Report and Order, 50 FCC 2d at 1079-80, para. 111.
Id.
333
2002 Biennial Review Order, 18 FCC Rcd at 13760, para. 355;
2006 Quadrennial Review Order, 23 FCC Rcd at 2021-22, paras.
18-19; see also Prometheus III, 824 F.3d at 51-52.
331
332

219
the 2006 proceeding, the rule we adopt today generally
prohibits common ownership of a broadcast station and
daily newspaper in the same local market but provides
for a modest loosening of the previous ban on cross-ownership consistent with our view that an absolute ban may
be overly restrictive in some cases. We find that the
benefits of the revised rule, outlined below, outweigh
any burdens that may result from adopting the rule.
131. First, although we maintain the rule’s general
prohibition, we modify its geographic scope to update its
analog parameters and to reflect more accurately the
markets that newspapers and broadcasters actually
serve. Specifically, in light of the fact that the transition to digital television service has rendered obsolete
the rule’s reliance on an analog contour to determine
when the newspaper/television cross-ownership restriction is triggered, we define the geographic scope of that
restriction using a television station’s digital principal
community contour (PCC) as defined in Section 73.625
of the Commission’s rules.334 More importantly, in order to focus the application of the rule more precisely on
the areas served by broadcast stations and newspapers,
we revise the trigger of the NBCO Rule to consider both
the contour of the television or radio station involved,
and whether the station and the newspaper are located
in the same Nielsen DMA or Audio Market (if any). As
discussed further below, we believe this will narrow the
application of the rule to those situations where the

47 CFR § 73.625. To the extent necessary as a result of the
contour change, we grandfather existing combinations, as discussed
below.
334

220
newspaper and broadcast station truly serve the same
local audience.
132. Second, in recognition of the fact that a proposed merger involving a failed or failing entity does not
present a significant risk to viewpoint diversity, we adopt
an explicit exception to the NBCO Rule for proposed
mergers involving a failed or failing broadcast station or
newspaper.
133. Third, we will consider waivers of the NBCO
Rule on a case-by-case basis and grant relief from the
rule if the applicants can show that the proposed merger
will not unduly harm viewpoint diversity in the market.
In recognizing that a complete ban was potentially overly
broad, the Commission in the 2006 Quadrennial Review
Order adopted a presumptive waiver standard that automatically favored some proposed mergers, but disfavored mergers in the vast majority of markets. We
continue to believe that adopting a waiver standard specifically in the context of the NBCO Rule will provide
appropriate relief from the complete ban; however we
reject a presumptive waiver approach and will instead
adopt a pure case-by-case approach. Such an approach
will allow the Commission to consider the individual
merits of a proposed merger, taking into consideration
the totality of the circumstances, in a manner that is better suited to evaluating the potential effects of a proposed merger on viewpoint diversity in the local market.
This approach will enable the Commission to focus its
attention immediately on the evidence that is most relevant for each waiver request. In addition, we will allow
for more timely and effective public participation in a
waiver proceeding by requiring that, if the owner of a
broadcast station seeks to acquire a newspaper under

221
conditions that trigger the NBCO Rule, it must file a
waiver request prior to consummating the acquisition,
rather than at the time of its license renewal as previously permitted.
134. Finally, while we adopt this rule in order to help
promote viewpoint diversity, we find that the rule we
adopt is consistent with our goal of promoting minority
and female ownership.
2. Background

135. In adopting the original NBCO Rule, the Commission’s paramount goal was to promote and preserve
a diversity of viewpoints at the local level, although the
Commission’s competition goal also factored into the decision.335 The Commission observed that “it is essential
to a democracy that its electorate be informed and have
access to divergent viewpoints on controversial issues.”336 The Supreme Court upheld the NBCO Rule
and found that the Commission acted reasonably by relying on separation of ownership as a means to promote
viewpoint diversity. 337 It approved the Commission’s
approach of measuring viewpoint diversity by looking at
media outlets that disseminate local news, rather than
those that primarily offer regional and national news.338

1975 Second Report and Order, 50 FCC 2d at 1048-49, 1074,
1080, paras. 10-11, 99, 112 (explaining that promoting competition is
correlative to the “higher” goal of promoting diversity).
336
Id. at 1074, para. 99.
337
FCC v. Nat’l Citizens Comm. for Broad., 436 U.S. 775, 796
(1978) (NCCB).
338
NCCB, 436 U.S. at 814-15; see also Cross-Ownership of Broadcast Stations and Newspapers, Order and Notice of Proposed
Rulemaking, 16 FCC Rcd 17283, 17287, para. 8 (2001) (2001 Cross335

222
136. Although the Commission twice attempted to
modify the NBCO Rule, it has never wavered from its
goal of promoting viewpoint diversity. In the 2002 Biennial Review Order, the Commission concluded that
the NBCO Rule was not necessary to promote its goals
of localism or competition, and might even hinder its localism goal.339 Nonetheless, to protect viewpoint diversity, the Commission continued to restrict cross-ownership by replacing the NBCO Rule with a set of crossmedia limits that were designed to ensure that a single
entity could not “dominate public debate” in a local media market.340 The cross-media limits, which applied a
more relaxed standard than the NBCO restriction, reflected the Commission’s conclusion that a cross-ownership ban may not be appropriate “in all communities and
in all circumstances.”341 The Third Circuit upheld the
Commission’s decision to retain limits on newspaper/
broadcast cross-ownership as necessary to protect viewpoint diversity. 342 The court, however, remanded the
cross-media limits after finding that the Commission
Ownership Notice) (identifying the local media marketplace as the
focus of the Commission’s newspaper/broadcast policies) (emphasis in original); 1998 Biennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of
1996, MM Docket No. 98-35, Biennial Review Report, 15 FCC Rcd
11058, 11105-06, para. 89 (2000) (1998 Biennial Review Report) (reiterating the Commission’s focus on promoting viewpoint diversity
at the local level).
339
2002 Biennial Review Order, 18 FCC Rcd at 13748-60, paras.
330-54.
340
Id. at 13760, 13790, paras. 355, 432.
341
Id. at 13760, para. 355.
342
Prometheus I, 373 F.3d at 400-01.

223
failed to support the new limits with a reasoned analysis.343 As a result of the remand, the prior cross-ownership ban remained in effect.
137. In the 2006 Quadrennial Review Order, the
Commission affirmed its findings that newspaper/
broadcast cross-ownership restrictions protect viewpoint diversity. 344 The Commission rejected the remanded cross-media limits and relied on the cross-ownership ban in the existing NBCO Rule as the starting
point for its oversight of newspaper/broadcast crossownership. 345 However, consistent with its previous
finding that a complete ban may be overly restrictive in
certain circumstances, the Commission adopted a waiver
approach that set forth circumstances under which it
would view a waiver request favorably.346 Specifically,
the Commission decided to award a favorable presumption to waiver requests for proposed combinations in the
20 largest Nielsen DMAs and, in the case of a proposed
newspaper/television combination, when the television
station was not ranked among the DMA’s top four television stations and when eight major media voices would
remain in the market.347

Id. at 402-13.
2006 Quadrennial Review Order, 23 FCC Rcd at 2038-39, paras. 47-49.
345
Id. at 2021, para. 17.
346
Id. at 2021-22, paras. 18-19.
347
Id. at 2021-22, 2040-46, paras. 19, 53-62. In all other cases, the
Commission would presume that the proposed merger was inconsistent with the public interest. Waiver applicants needed to overcome the “high hurdle” of a negative presumption with “clear and
convincing evidence” that the proposed combination would increase
343
344

224
138. Following the adoption of the 2006 Quadrennial Review Order, the Third Circuit vacated and remanded the revised NBCO Rule on procedural grounds,
namely that the Commission did not provide adequate
prior public notice of its proposed rule as required by
the Administrative Procedure Act.348 The court did not
address the Commission’s substantive modifications to
the rule. 349 Thus, notwithstanding the Commission’s
action in the 2006 quadrennial proceeding, the original
NBCO Rule is currently in effect.
139. In the FNPRM, consistent with the NPRM, we
sought comment on our tentative conclusion that some
restriction on newspaper/broadcast cross-ownership re-

diversity and competition in the relevant market. However, a negative presumption could be reversed when either: (1) the newspaper or broadcast outlet was failed or failing; or (2) the proposed combination would result in a significant new source of local news in the
market. 2006 Quadrennial Review Order, 23 FCC Rcd at 2047-49,
paras. 65-68. Under the 2006 Rule, all waiver requests, regardless
of the presumption that attached, were subject to a four-factor test.
Waiver applicants were required to show: (1) that the combined entity would increase significantly the amount of local news in the market; (2) that the newspaper and broadcast outlets each would continue to employ its own staff and exercise its own independent news
judgment; (3) the level of concentration in the Nielsen DMA; and (4)
the financial condition of the newspaper or broadcast station, and if
the newspaper or broadcast station was in financial distress, the proposed owner’s commitment to invest significantly in newsroom operations. 2006 Quadrennial Review Order, 23 FCC Rcd at 2049-54,
paras. 68-75.
348
Prometheus II, 652 F.3d at 445-53.
349
Id. at 445.

225
mains necessary to protect and promote viewpoint diversity in local markets. 350 Given the Commission’s
findings in previous reviews that application of the
NBCO Rule may not be necessary in every circumstance, we sought comment in the FNPRM on whether
we might consider relief without posing a threat to viewpoint diversity, and if so, when and how such relief
should be considered.351 First, we asked whether the
prohibition on newspaper/radio combinations could be
lifted without harming viewpoint diversity.352 Second,
although we proposed to maintain the newspaper/television cross-ownership restriction in all markets, we sought
comment on how to approach requests for waiver of the
restriction. 353 We asked whether we should consider
waiver requests on a purely case-by-case basis, assessing each request individually and considering the totality of the circumstances each proposed transaction

350
We explained that the Commission has described viewpoint diversity as “the availability of media content reflecting a variety of
perspectives.” FNPRM, 29 FCC Rcd at 4418, para. 114 n.295 (citing 2002 Biennial Review Order, 18 FCC Rcd at 13627, para. 19).
351
Id. at 4419-20, paras. 116-17; see also 2006 Quadrennial Review
Order, 23 FCC Rcd at 2021-22, paras. 18-19; 2002 Biennial Review
Order, 18 FCC Rcd at 13762-67, paras. 361-67. The Third Circuit
upheld the Commission’s finding that an absolute ban on all newspaper/broadcast combinations is overly broad. Prometheus I, 373
F.3d at 398-400.
352
FNPRM, 29 FCC Rcd at 4419, 4435-38, paras. 116, 144-49. We
proposed, in the event we retained the ban on newspaper/radio combinations, to favor waiver requests for such combinations within the
top 20 DMAs. NPRM, 26 FCC Rcd at 17526, para. 102; FNPRM,
29 FCC Rcd at 4445, para. 168 n.482.
353
FNPRM, 29 FCC Rcd at 4419-20, 4438-41, paras. 117, 150-56.

226
presented.354 Further, we sought comment on an alternative approach that would include presumptions to favor or disfavor waivers in accordance with certain prescribed guidelines.355
140. In addition, in recognition of the transition to
digital television, we proposed that any newspaper/television cross-ownership restriction be modified to replace the obsolete analog Grade A contour. We proposed to prohibit common ownership of a full-power television station and a daily newspaper when: (1) the tel-

Id. at 4419-20, 4439, paras. 117, 154.
Id. at 4420, 4441, paras. 118, 156. Specifically, as an alternative
to a pure case-by-case approach to waiver requests, the FNPRM
discussed the possibility of a presumptive waiver standard, which
would hold that an applicant would be entitled to a favorable presumption in the case of a newspaper/television combination consisting of one daily newspaper and one full-power television station provided that the combination was located in a top-20 Nielsen DMA and:
(1) the television station was not ranked among the top-four television stations in the DMA, based on the most recent all-day (9 a.m.midnight) audience share, as measured by Nielsen or by any comparable professional, accepted audience ratings service, and (2) at least
eight independently owned and operating major media voices would
remain in the DMA. Major media voices would include full-power
television broadcast stations and any newspapers that are published
at least four days a week within the DMA in the dominant language
of the market and have a circulation exceeding five percent of the
households in the DMA. In all other cases and in any DMA below
the top-20 there would be a presumption that granting a waiver to
permit a newspaper/television combination would be inconsistent
with the public interest, convenience, and necessity. A party seeking to overcome a presumption would carry the burden of proof that
the proposed combination would or would not unduly harm viewpoint
diversity within the DMA. We sought comment on all aspects of
this approach. FNPRM, 29 FCC Rcd at 4445-52, paras. 167-85.
354
355

227
evision station’s community of license and the newspaper’s community of publication are in the same Nielsen
DMA, and (2) the PCC of the television station, as defined in Section 73.625 of the Commission’s rules, encompasses the entire community in which the newspaper is published.356 Further, we proposed to adopt an
exception for merger applicants that demonstrate that
either the station or the newspaper has failed or is failing.357 Finally, we tentatively concluded that the NBCO
Rule does not have a significant impact on minority and
female broadcast ownership, and we expressed our belief that the potential revisions we put forth for comment
would be unlikely to have a disproportionate effect on
either minority or female owners.

47 CFR § 73.625. A daily newspaper is defined as “one which
is published four or more days per week, which is in the dominant
language in the market, and which is circulated generally in the community of publication.” Id. § 73.3555, Note 6 (clarifying that college
newspapers are not considered to be circulated generally). We proposed to grandfather any combinations that would become newly
non-compliant due to any rule revisions.
357
FNPRM, 29 FCC Rcd at 4453-54, para. 188. We proposed to
abandon the four-factor test previously required by waiver applicants under the 2006 rule. Id. at 4452 para. 184. We also proposed
to abandon the local news exception, previously contemplated by the
Commission in connection with the 2006 rule, pursuant to which the
Commission would reverse a negative presumption against a waiver
of the NBCO Rule if the proposed combination involved a broadcast
station that had not been offering local newscasts and the applicants
committed to airing at least seven hours of local news per week after
the transaction. Id. at 4452-53, paras. 186-87.
356

228
3. Discussion
a.

Policy Goals

141. Commenters continue to debate the Commission’s public interest rationale for the NBCO Rule, offering differing views regarding the rule’s effects on the
Commission’s policy goals of diversity, localism, and
competition. Positions range from an argument that
newspaper/broadcast combinations should be subject
only to antitrust rules358 to an argument that all three
public policy goals justify the rule because the goals are
“inextricably linked.”359
142. Viewpoint diversity. The record before us reaffirms our view that the NBCO Rule remains necessary
to promote diversity, specifically viewpoint diversity.360
The FNPRM commenters that oppose our position do
not present evidence persuading us to alter our tentative conclusion in the FNPRM that newspapers and
broadcast television stations, and their affiliated websites, continue to be the predominant providers of local
news and information upon which consumers rely.361 In
Thomas C. Smith FNPRM Comments at 2-3.
Association of Free Community Papers FNPRM Comments at
7-9 (AFCP).
360
See FNPRM, 29 FCC Rcd at 4435, para. 143.
361
See id at 4422, para. 123. Free Press supports the Commission’s view that newspapers and local television stations, in particular, remain the primary sources of local news and information.
Free Press FNPRM Comments at 10. NAB takes issue with what it
views as Free Press’ argument that the ban should be maintained
because viewers “trust” local broadcast news. NAB FNPRM Reply
at 11-12. In addition, the Newspaper Association of America (NAA)
argues that Free Press provides no support for its position and provides statistics about the growing number of Americans who obtain
358
359

229
addition, as discussed below, the record demonstrates that
broadcast radio stations continue to be an important
source of viewpoint diversity in local markets. For the
most part, opponents of the rule reiterate the two principal arguments put forth by commenters to the initial
NPRM, namely that: (1) “ownership does not necessarily influence viewpoint” and (2) “an array of diverse
viewpoints is widely available from an abundance of outlets, particularly via the Internet.”362 We addressed these
arguments extensively in the FNPRM, and we do not
find them any more persuasive after reviewing the
FNPRM comments.363
143. With regard to the first argument, NAB and
Newspaper Association of America (NAA) contend that
the Commission provides no evidence that commonly
owned newspapers and broadcast stations speak with a
single editorial voice. 364 NAA claims that commonly
owned newspapers and broadcast stations employ “independent editors and news directors who control the
news from electronic devices instead of print publications. Newspaper Association of America FNPRM Reply at 5-6 (NAA). We
note, however, that NAA does not identify the origin of most of the
news that is consumed electronically. For example, a consumer
may visit the website of the local newspaper instead of receiving a
print copy of the publication.
362
FNPRM, 29 FCC Rcd at 4422, para. 124.
363
See id. at 4422-29, paras. 124-33; see also 2006 Quadrennial Review Order, 23 FCC Rcd at 2038-39, para. 49 (finding that, although
a complete ban is not necessary, some cross-ownership limits are
still needed to protect viewpoint diversity because ownership has
the potential to influence viewpoint and because many online news
sources are affiliated with traditional news outlets and provide the
same local content as their affiliated outlet).
364
NAB FNPRM Comments at 79-83; NAA FNPRM Comments
at 17-18.

230
tone and direction of the news content,” even though
they may share administrative and newsgathering resources.365 NAB proffers a list of studies that it claims
show that the ideological predispositions of consumers,
not ownership, drive viewpoint diversity.366
144. In the FNPRM, we acknowledged that NPRM
commenters provided examples of instances when crossowned properties diverged in viewpoint.367 We noted,
however, that, although similar examples were provided
during the Commission’s 2002 and 2006 reviews, the
Commission continued to restrict newspaper/broadcast
cross-ownership given that an owner has the opportunity, ability, and right to influence the editorial process of media outlets it owns, regardless of the degree
to which it exercises that power.368 The Third Circuit
affirmed the Commission’s reasoning that the possibility of a connection between ownership and viewpoint is
not disproved by evidence that a connection is not always present.369 Moreover, the Commission has noted
previously the existence of ample evidence pointing in
NAA FNPRM Comments at 15; see also id. at 17-18 (claiming
that three studies commissioned by the Commission contradict the
notion that ownership influences viewpoint).
366
NAB FNPRM Comments at 79-81, Attach. C (summarizing the
conclusion of each study). In addition, NAB asserts that the media
ownership rules do not require broadcasters to produce local news,
and so the rule cannot be justified on the basis of sustaining traditional local news coverage. NAB FNPRM Reply at 9-10.
367
FNPRM, 29 FCC Rcd at 4422-24, paras. 125-27.
368
Id.; see also 2002 Biennial Review Order, 18 FCC Rcd at
13762-65, paras. 361-64; 2006 Quadrennial Review Order, 23 FCC
Rcd at 2038-39, para. 49.
369
See FNPRM, 29 FCC Rcd at 4423, para. 126 (citing Prometheus
I, 373 F.3d at 400-01).
365

231
the other direction, namely that ownership can affect
viewpoint.370 In any event, our goal is to maximize the
number of distinct voices in a market, which we believe
is achieved more effectively by relying on separate ownership rather than on a hope or expectation that owners
of cross-owned properties will maintain a distance from
the editorial process. Our concern is not alleviated by
NAB’s argument that consumers’ ideological preferences have a greater influence on editorial slant than
ownership does.371 Indeed, we believe that such influence only increases the importance of ensuring that a
multiplicity of voices are available to consumers.
145. With regard to the second argument, opponents
of the rule contend that today’s access to a multitude of
voices from numerous sources compels repeal of the
rule,372 and they describe how the media environment
has changed since the adoption of the NBCO Rule. 373
Bonneville/Scranton notes that, in addition to the rise of

See id.; see also 2002 Biennial Review Order, 18 FCC Rcd at
13762-65, paras. 361-64; 2006 Quadrennial Review Order, 23 FCC
Rcd at 2038-39, para. 49. There is recent evidence of allegations of
inappropriate interference with content by new ownership. See Sydney Ember, In Sheldon Adelson’s Newsroom, Looser Purse Strings
and a Tighter Leash, N.Y. Times (May 22, 2016), http://www.nytimes.
com/2016/05/23/business/media/in-adelsons-newsroom-looser-pursestrincs-and-a-tighter-leash.html.
371
See NAB FNPRM Comments at 79-82.
372
See, e.g., Delmarva Broad. Co. et al. FNPRM Comments at 5
(Delmarva et al.) (providing the number of newspapers and broadcast stations available in Lancaster County, Pennsylvania).
373
Morris Communications FNPRM Comments at 32-41 (Morris);
NAB FNPRM Comments at 70-73; Delmarva et al. FNPRM Comments at 2-5.
370

232
cable and satellite television and the Internet, the number of broadcast facilities has nearly tripled since the
rule’s adoption.374 NAA argues that the Commission’s
tentative conclusion that the Internet has not eliminated
the need for cross-ownership restrictions contradicts
the Third Circuit’s conclusion in 2004 that cable and the
Internet supplement the viewpoint diversity provided
by broadcasters and newspapers.375 Cox states that it
“has watched the diversity of news and entertainment
sources explode, as its markets have been flooded with
new entrants.” 376 Morris contends that the Commission’s statutory obligations require it to look beyond traditional media and consider the “full panoply” of addi-

Bonneville Int’l Corp. and The Scranton Times, LP FNPRM Reply at 4 n.7 (Bonneville/Scranton). Bonneville/Scranton asserts
that since the late 1960s, the number of full-power television stations
has grown from 851 to 1,783; the number of full-power radio stations
has grown from 6,197 to 15,406; and that 774 new LPFM radio stations, 429 Class A stations, and 2,035 LPTV stations have been created. It also notes that multicasting technology allows for simultaneous multiple broadcasts on certain stations. Id.
375
NAA FNPRM Comments at 15-16. In addition, NAA argues
that the NBCO Rule violates the First Amendment because it is not
rationally related to a substantial governmental interest. NAA argues that the rule fails to meet the test regardless of the validity of
the scarcity doctrine because each of the governmental interests at
issue—localism, competition, diversity of ownership, and viewpoint
diversity—would be better served without the rule. Id. at 19-20.
Arguments that the NBCO Rule violates the First Amendment have
been routinely rejected by the courts, and we reject NAA’s assertion
that the Commission’s policy goals would be better served by eliminating the rule. See Prometheus II, 652 F.3d at 464-65; Prometheus I, 373 F.3d at 401-02.
376
Cox Media Grp. FNPRM Comments at 8-9 (Cox).
374

233
tional sources available as a result of the digital revolution.377 Similarly, NAB claims the Commission is acting
arbitrarily and capriciously by focusing on only two types
of traditional media as the “true” sources of viewpoint
diversity.378
146. In particular, several commenters argue that
the Internet renders the NBCO Rule obsolete. They
point to various ways in which the Internet has made it
possible to access news and information anywhere at
any time.379 NAB argues that the ability of consumers
to access local information sources directly through the
Internet undermines the Commission’s view that traditional news outlets continue to dominate local news production and consumption.380 Delmarva et al. cites studies claiming that Americans access digital and online
Morris FNPRM Comments at 4; see also id. at 32-35 (arguing
that various public statements of the Chairman and Commissioners
demonstrate their recognition of the “transformative changes” rendered by the digital revolution).
378
NAB FNPRM Comments at 78-79 (contending that the Commission cannot “ignore or discount the profound effects” of the Internet just because not all Americans use it); see also Morris FNPRM
Comments at 36-41 (criticizing the Commission’s consideration of
“the popularity or weight” that each medium carries).
379
Morris FNPRM Comments at 32-41 (also noting the wide variety of devices that consumers use to access information); Delmarva
et al. FNPRM Comments at 3-5; NAB FNPRM Reply at 4-8.
380
NAB FNPRM Comments at 77-78 (arguing that “past concerns
about traditional media agenda-setting or gatekeeping are no longer
relevant” in light of consumers’ ability to obtain information directly
from government agencies, political campaigns and candidates, educational entities, or health and safety organizations); NAB FNPRM
Reply at 9 (noting that the Internet provides opportunities to engage
in discussions of local and hyper-local public issues and to shape public conversation in ways that limit the gatekeeping power of media);
377

234
sources more often than radio or newspapers for daily
news and that social media surpasses newspapers and
equals television as a primary source of daily news for
Americans under the age of 30.381 NAA identifies several online news portals and claims that “consumers receive approximately 40 percent of their news from
online sources, up from 20 percent in 2003.” 382
147. In the FNPRM, we addressed NPRM commenters’ argument that the NBCO Rule is obsolete because today’s consumers have access to a vast array of
news sources.383 We tentatively concluded that a crossownership restriction remains necessary, despite the increase in media outlets.384 Supporters of the rule agreed
with us that traditional news providers, and their affiliated websites, continue to be the most relied-upon sources
of local news and information.385 In the FNPRM, we
Letter from Rick Kaplan, General Counsel and Executive Vice President, NAB, to Marlene H. Dortch, Secretary, FCC, MB Docket No.
14-50 et al., at 1-2 (filed May 16, 2016) (NAB May 16, 2016 Ex Parte)
(citing evidence of a rise in nontraditional outlets as a source of news
and information about politics and government); see also Delmarva
et al. FNPRM Comments at 5 (asserting that entry barriers no
longer exist in today’s digital world where anyone can engage in the
“free exchange of information and diversity of viewpoint” in ways
not contemplated in 1975).
381
Delmarva et al. FNPRM Comments at 4.
382
NAA FNPRM Comments at 15-17; see also Morris FNPRM
Comments at 36-41 (citing BuzzFeed, Mashable, Huffington Post,
and ProPublica as examples of news sources that compete with traditional media outlets).
383
See FNPRM, 29 FCC Rcd at 4424-29, paras. 128-33.
384
Id.
385
Id. at 4425, para. 129; see also id. at para. 130 (citing evidence
of consumers’ primary reliance on local television stations and newspapers (and their affiliated websites)).

235
pointed to evidence suggesting that, despite the Internet’s increased role in news distribution, traditional
news providers are still critical to ensuring viewpoint diversity at the local level.386 The record showed that independent online sources “currently do not provide a
substitute for the original reporting by professional
journalists associated with traditional local media.”387
148. After reviewing the FNPRM comments, which
raise substantially the same points that we addressed
in the FNPRM, our position is unchanged. Several
FNPRM commenters reiterate that our focus on traditional media is too narrow because other media outlets
contribute to viewpoint diversity. Evidence shows, however, that the contributions of cable, satellite, and Internet sources serve as a supplement, but not as a substitute, for newspapers and broadcasters providing local
news and information. 388 The news and information
Id. at 4424-29, paras. 128-33.
See id. at 4427-28, para. 131.
388
See, e.g., Knight Foundation, Part One—News Goes Mobile:
How People Use Smartphones to Access Information at 4, 6 (2016),
http://www.knightfoundation.org/media/uploads/publication_pdfs/
Topos_KF_Mobile-Report_Final_052616.pdf (News Goes Mobile)
(finding that television remains the most popular news source among
those who also access news through social media and that audiences
for the top news apps are flattening); Pew Research Center, Local
News in a Digital Age at 5 (2015), http://www.journalism.org/files/
2015/03/PJ_MediaEcology_completereport.pdf (Local News in a
Digital Age) (finding that, based on an examination of the local news
environments in three distinct U.S. metropolitan areas, “reliance on
nontraditional news outlets is still the exception rather than the
norm”); American Press Institute, The Personal News Cycle at 1-4
(2014), http://www.americanpressinstitute.org/wpcontent/uploads/
2014/03/The Media Insight Project The Personal News Cycle Final.pdf (The Personal News Cycle) (finding that people turn to local
386
387

236
provided by cable and satellite networks generally targets a wide geographic audience, and the record demonstrates that local news and information available online
usually originates from traditional media outlets.389 We
affirm our earlier finding that local, hyperlocal, and niche
websites generally do not fill the role of local television
stations or daily newspapers.390 Moreover, a May 2016

television and newspapers (print and online) most often for news
about their local town or city); see also AFCP FNPRM Comments
at 4-5 (supporting the Commission’s tentative finding that the Internet has not obviated the need for cross-ownership restrictions). A
U.S. District Court judge recently rejected an argument that online
sources of local news present sufficient competition to local newspapers in Orange County and Riverside County in Southern California.
The judge concluded that, as creators of local content, “local newspapers continue to serve a unique function in the marketplace” and
are not “reasonably interchangeable” with online sources of news.
He was “not convinced . . . that the [I]nternet renders geography and distinctions between kinds of news sources obsolete.”
United States v. Tribune Publ’g Co., No. 16 CV 01822 AB (PJWx)
(C.D. Cal. Mar. 18, 2016) (granting the application of the Department of Justice for a temporary restraining order to prevent Tribune Publishing Company from acquiring the assets of a bankrupt
publisher of two local newspapers in Southern California).
389
As discussed in the NPRM and FNPRM, considerable evidence
shows that most online sources of local news are affiliated with newspapers or broadcast stations or contain content that originates from
those traditional sources. See NPRM, 26 FCC Rcd at 17524-25,
para. 97; FNPRM, 29 FCC Rcd at 4426-28, paras. 130-31.
390
FNPRM, 29 FCC Rcd at 4429, para. 133; see also Local News
in a Digital Age at 5 (finding that the percentage of residents “who
often get local news from their main daily paper” ranged from 23
percent to 40 percent in three metropolitan areas, but “the portion
of [those] residents who often get local news from neighborhood associations, government agencies or officials, or digital-only outlets is
in the single digits”).

237
report based on the Radio Television Digital News Association’s (RTDNA) annual national survey of newsrooms showed that, in 2015, the number of television stations running local news reached a record high of 1,053;
the amount of local news on television reached a record
high, with an average amount of weekday news of 5.5
hours; the percentage of television stations adding a
newscast increased more than seven points from 2014;
and 33.2 percent of television news directors expect to
air more news in 2016.391 These findings are not surprising given evidence cited in the FNPRM that local
television remains Americans’ most popular source of local news and information.392 Local television continues
to dominate despite the increasing use of social media as
a source of news. 393 Moreover, the social media platforms that consumers turn to for news, such as Facebook, Twitter, and Google, generally aggregate news
stories from other sources and those sources do not focus necessarily on local new394
149. Even opponents of the NBCO Rule recognize
the continuing role of newspapers and broadcasters as
the primary producers of original reporting centered on
local news.395 In addition, although Bonneville/Scranton observes that broadcast facilities in the United
Bob Papper, RTDNA/Hofstra University, RTDNA Research:
Local News by the Numbers (2016), http://www.rtdna.org/article/
rtdna_research_local_news_by_the_numbers (Local News by the
Numbers).
392
FNPRM, 29 FCC Rcd at 4426-27, para. 130.
393
News Goes Mobile at 10.
394
See id.
395
See NAA FNPRM Comments at 12-13 (noting the continued
predominance of traditional media as the purveyor of local reporting
391

238
States have nearly tripled since the Commission originally contemplated the NBCO Rule,396 the record does
not reflect a significant increase in facilities since our
most recent ownership reviews in which the Commission
determined that continuing regulation of newspaper/
broadcast combinations was necessary to promote and
protect viewpoint diversity.397 Furthermore, Bonneville/
Scranton’s observation regarding a nationwide increase
in broadcast facilities does not provide a basis for lifting
the restriction, which is local in scope, because the increase may be spread unevenly across individual markets.
150. We conclude that the NBCO Rule should continue to apply to newspaper/radio cross-ownership.
We find that the newspaper/radio cross-ownership restriction serves the public interest because the record
before us shows that radio stations contribute in meaningful ways to viewpoint diversity within their communities. We are persuaded that radio adds an important

despite the rising number of blogs and aggregator websites); Delmarva et al. FNPRM Comments at 6 (recognizing that ease of access
does not equate to reliability, quality, or credibility). But see NAA
FNPRM Comments at 17 (arguing that restricting newspaper/
broadcast cross-ownership because independent websites generate
little local news content does not serve the goal of encouraging original reporting).
396
Bonneville/Scranton FNPRM Reply at 4 n.7 (providing broadcast totals showing a more than doubling of full-power television stations and radio stations since the late 1960s and a tripling of facilities
when low-power and Class A stations are included).
397
See Prometheus I, 373 F.3d at 400-01 (upholding the Commission’s decision to continue to regulate cross-media ownership in order to promote viewpoint diversity).

239
voice in many local communities such that lifting the restriction could harm viewpoint diversity. Although the
Commission tentatively concluded earlier in this proceeding that radio stations are not the primary outlets
that contribute to viewpoint diversity in local markets
and that consumers rely predominantly on other sources
for local news and information, 398 we find that radio’s
role in promoting viewpoint diversity is significant
enough to warrant retention of the restriction. Therefore, for the reasons explained in more detail below, we
decline to eliminate the restriction399 or to adopt a presumptive waiver standard, such as the one proposed in
the NPRM, favoring newspaper/radio mergers in the
top 20 DMAs.400
151. Supporters of the newspaper/radio cross-ownership restriction urge the Commission not to discount
radio’s contributions to viewpoint diversity. UCC et al.
argue that the legal standard in Section 202(h) does not
require a showing that repeal of the restriction would
harm viewpoint diversity, and they assert that it is sufficient for the Commission to find that the restriction is
useful in serving the public interest. 401 To that end,
UCC et al. cite studies finding that 33 percent of Americans listened to news radio “yesterday,” a higher percentage than those that read a newspaper the day before, and that 51 percent of people obtain local news on

NPRM, 26 FCC Rcd at 17529-30, para. 112; FNPRM, 29 FCC
Rcd at 4435-36, para. 145.
399
See NPRM, 26 FCC Rd at 17529-30, para. 112; FNPRM, 29
FCC Rcd at 4435-38, paras. 145-48.
400
NPRM, 26 FCC Rcd at 17526, para. 102.
401
UCC et al. FNPRM Comments at 42-43.
398

240
the radio at least once a week.402 In addition, UCC et
al. point to a study by the Pew Research Center showing
that over 4,000 radio stations identify themselves as
“news/talk/information” or “talk/personality” and that
these formats are second in popularity to country music
formats and enjoy the longest listening times among
their audiences.403 In addition, UCC et al. and NHMC
challenge the view that music format stations do not contribute to viewpoint diversity.404 UCC et al. provide examples of radio stations that would not be categorized
as news stations but that nonetheless air programs ad-

Id. at 33-35 (citing Laura Santhanam et al., Pew Research Center, Audio: Digital Drives Listening Experience (2013), http://stateof
themedia.org/2013/audio-digital-drives-listener-experience (Digital
Drives Listening Experience); Knight Foundation, How People Learn
About Their Local Community at 35 (2011), http://www.knight
foundation.org/publications/how-people-learn-about-their-localcommunity (How People Learn About Their Local Community)).
403
UCC et al. FNPRM Comments at 35 (citing Digital Drives Listening Experience). The study that UCC et al. cite distinguishes
news/talk/information and talk/personality radio stations from “allnews” radio stations, based on data from Nielsen Audio. It explains
that the stations identify their own programming category and that
no official rules or requirements govern the categories. The study
does not examine the extent to which news/talk broadcasts contain
local content, but it noted that previous research found an increase
in nationally syndicated programming on such stations. Digital Drives
Listening Experience at n.1 (asserting that news/talk stations often
provide local news and information).
404
UCC et al. FNPRM Comments at 35-39; NHMC FNPRM Comments at 6-7. Bonneville/Scranton notes that no commenter argues
that eliminating the newspaper/radio restriction would harm the formats or programs discussed by UCC et al. or NHMC. Bonneville/
Scranton FNPRM Reply at 7 n.20.
402

241
dressing issues of local concern, such as HIV/AIDS awareness and domestic violence.405 UCC et al. note also that
the Pew study observed that radio listeners of music or
sports programs likely are exposed to hourly headline
newscasts.406
152. UCC et al. and National Hispanic Media Coalition (NHMC) claim further that radio stations play an
important role for underserved communities. NHMC
asserts that the Latino community, in particular, relies
on radio as a source of news and information to a greater
degree than the general population.407 It provides data
showing that radio listenership is higher among Latinos
than other ethnic groups and that 56 percent of Latinos
obtain news from radio on a typical weekday.408 NHMC
argues that Latino-owned radio stations, both news/talk
stations and music format stations, provide news and information of interest to their local communities, and it

UCC et al. FNPRM Comments at 35-39; see also Letter from
Cheryl Leanza, Policy Advisor, United Church of Christ, Office of
Communication Inc., to Marlene H. Dortch, Secretary, FCC, MB
Docket No. 14-50 et al., at 2 (filed May 31, 2016).
406
UCC et al. FNPRM Comments at 33-35. The study that UCC
et al. cite notes, however, that hourly headline newscasts often disseminate from the corporate headquarters of a radio conglomerate
and are not produced locally. See Digital Drives Listening Experience.
407
NHMC FNPRM Comments at 6-8; but see Morris FNPRM Reply at 4-5 (citing findings that Hispanics turn to two or three news
media platforms a day and rely most heavily on television for news
and information).
408
NHMC FNPRM Comments at 7-8.
405

242
uses immigration issues as a prime example.409 Similarly, UCC et al. objects to the Commission’s statement
that the record does not suggest that minority- and female-owned stations contribute more significantly to
viewpoint diversity than other radio stations.410 In support, it cites a Pew study finding that the 2008 presidential candidates used black talk radio to reach the AfricanAmerican community.411 It points to a finding that the
more often that media outlets target a minority group,
the more likely that group is to vote.412 It contends further that the racial identity of the station owner is linked
to the voter participation of its listeners.413
153. Opponents of the newspaper/radio cross-ownership restriction agree with the Commission’s tentative
conclusion that radio stations are not the primary outlets that contribute to local viewpoint diversity.414 Morris
Id. at 8-11 (adding that ClearChannel stations also contribute to
viewpoint diversity, even though the views they disseminate are often harmful to Latinos).
410
UCC et al. FNPRM Comments at 42-43.
411
Id. at 39-41 (stating also that political advertising on radio has
increased 15 percent since 2008).
412
Id. at 40.
413
Id. (stating also that minority owners tend to target minority
listeners).
414
Cox FNPRM Comments at 4, 5-6; Bonneville/Scranton FNPRM
Comments at 4-5; NAB FNPRM Comments at 83-84; Stephens Capital Partners LLC FNPRM Comments at 3 (SCP); Letter from
Rosemary C. Harold, Counsel for Bonneville Int’l Corp. and The
Scranton Times, L.P., to Marlene H. Dortch, Secretary, FCC, MB
Docket No. 14-50 et al., at 2, Attach. B (filed June 6, 2016) (Bonneville/Scranton June 6, 2016 Ex Parte) (providing statistics showing
that radio’s level of original newsgathering and reporting is unchanged or slightly worse since 2014); Letter from John R. Feore,
Counsel for Cox Enterprises, Inc., to Marlene H. Dortch, Secretary,
409

243
and Stephens Capital Partners LLC (SCP) assert that
radio’s lesser role in promoting viewpoint diversity is reflected in the history of the NBCO Rule and the Commission’s past findings to that effect.415 Morris argues
further that the relevant question is not whether radio
stations provide any local news, but whether their contributions to viewpoint diversity are significant enough
to justify the restriction.416 Bonneville/Scranton claims
that radio stations generally engage in little local news
production.417 In addition, Morris argues that studies,
including the studies cited by UCC et al. and NHMC,
show that the reliance on radio for local news is decreasing and is considerably less than UCC et al. and NHMC
FCC, MB Docket No. 14-50 et al., at 2 (filed June 10, 2016) (Cox June
10, 2016 Ex Parte); see also Bonneville/Scranton FNPRM Reply at
1-3, 5-7, Attach. A (attaching a chronology of Commission statements showing the agency’s history of connecting viewpoint diversity with local news production). Several commenters argue that if
the Commission does not eliminate the NBCO Rule in its entirety, it
should at a minimum abolish the newspaper/radio cross-ownership
rule. Cox FNPRM Comments at 2; Cox June 10, 2016 Ex Parte at
1; Bonneville/Scranton FNPRM Comments at 1-2; Bonneville/
Scranton June 6, 2016 Ex Parte at 1; Morris FNPRM Comments at
2, 5, 9-16, 23; Morris FNPRM Reply at 1; see also NAB FNPRM
Comments at 83-84; Delmarva et al. FNPRM Comments at 2-6; SCP
FNPRM Comments at 2-5.
415
Morris FNPRM Comments at 5-10, 12-14; SCP FNPRM Comments at 2-3.
416
Morris FNPRM Reply at 4.
417
Bonneville/Scranton FNPRM Comments at 3-7; Bonneville/
Scranton FNPRM Reply at 6-8; see also Letter from Kenneth E.
Satten, Counsel to Bonneville/Scranton, to Marlene H. Dortch, Secretary, FCC, at 2-3, 4-5 (filed July 27, 2016) (refuting arguments that
the NBCO rule is necessary to maintain viewpoint diversity and can
be supported by the record) (Bonneville/Scranton July 27 Ex Parte
Letter).

244
suggest. 418 Bonneville/Scranton claims that supporters of the rule “muddy the Commission’s traditional understanding of diversity” by attempting to include radio
stations devoted to music and entertainment.419 It argues that the news contributions of music-format radio
stations do not equate to those of local daily newspapers.420 NAA argues that, although music radio personalities provide services vital to the community, they serve
a different function than a newspaper’s local reporter
and are not a substitute source for the original local news
offered by newspapers.421

418
Morris FNPRM Reply at 2-5 (stating, for example, that only
nine percent of Americans cite radio as a key source for breaking
news and weather and that radio places fourth among media outlets
as a breaking news source); see also Bonneville/Scranton FNPRM
Reply at 5 n.13, 8 n.24 (noting that UCC et al. fail to mention that
the number of Americans who listen to radio news has decreased
significantly over the years). Morris cites a 2013 Gallup poll showing that only six percent of Americans turn to radio as their main
news source and a Pew study finding that the percentage of Americans reporting that they got any news from radio on the previous
day fell from more than 50 percent in 1990 to 33 percent in 2012.
Morris FNPRM Comments at 14.
419
Bonneville/Scranton FNPRM Reply at 1-2, 5-8.
420
Id. at 5-9 (arguing that radio’s headline newscasts contain information that is not likely generated locally and that only two percent
or fewer of consumers consider radio a source for topics such as community events, schools, taxes, government activities, or jobs).
421
NAA FNPRM Reply at 4; see also Bonneville/Scranton FNPRM
Reply at 5-8 (arguing that NHMC and UCC et al. miss the point that
the NBCO Rule is premised on local news production). Bonneville/
Scranton cites a 2010 Pew study finding no original reporting on the
radio programs studied. Bonneville/Scranton FNPRM Reply at 7
n.21.

245
154. After careful consideration of the full record
and consistent with our initial proposal in the NPRM to
continue to include newspaper/radio restrictions in the
NBCO Rule,422 we will retain the newspaper/radio crossownership restriction in order to protect and promote
viewpoint diversity in local markets. Although we continue to find that, in general, newspapers and television
stations are the main sources that consumers turn to for
local news and information, we conclude that radio contributes sufficiently to viewpoint diversity to warrant
retention of the newspaper/radio cross-ownership restriction.423 As discussed in the FNPRM, this conclusion is consistent with the Commission’s longstanding
position that newspaper/radio combinations should be
prohibited even though radio generally plays a lesser
role in contributing to viewpoint diversity.424 A lesser
role does not mean that radio plays no role. The record
shows that broadcast radio stations produce a meaningful amount of local news and information content that is
relied on by a significant portion of the population and,
therefore, provide significant contributions to viewpoint
diversity.
155. With over 90 percent of Americans listening to
radio on a weekly basis, radio’s potential for influencing
viewpoint is great.425 Moreover, recent evidence suggests
See NPRM, 26 FCC Rcd at 17526, para. 102.
See, e.g., 2006 Quadrennial Review Order, 23 FCC Rcd at 202223, 2038-39, 2040, paras. 20, 49, 53 (including restrictions on newspaper/radio combinations in the revised NBCO Rule, which was adopted to promote viewpoint diversity).
424
FNPRM, 29 FCC Rcd at 4436-37, para. 147.
425
Pew State of the News Media 2015 at Audio: Fact Sheet
(finding that 91 percent of Americans aged 12 and older reported
422
423

246
that radio stations air a substantial amount of local news
programming. For example, RTDNA’s annual national
survey of newsrooms showed that radio stations in major markets air an average of 148.1 minutes (and a median of 74 minutes) of local news per weekday and radio
stations nationwide air an average of 77.4 minutes (and
a median of 50 minutes) of local news per weekday. 426
According to the report, 84.6 percent of commercial radio stations air local news, and 80 percent of local radio
groups include at least one station that airs local news.427
In addition, a 2014 study by the Media Insight Project
revealed that 65 percent of Americans used radio to get
news during the previous week and that Americans
across all generations continue to seek out traditional
sources of news, including radio, despite the availability
of news through social media and its accessibility on a
variety of devices and technologies.428

listening to traditional AM/FM radio during the week before they
were surveyed); see also Letter from Ted Kalo, Executive Director,
MusicFIRST Coalition, to Tom Wheeler, Chairman, FCC, at 1 (filed
July 27, 2016) (supporting retention of the cross-ownership rules by
citing radio’s ability to influence public access to viewpoints).
426
Local News by the Numbers. Of the 4,037 radio stations randomly surveyed, valid responses were provided by 484 radio news
directors and general managers representing a total of 1,316 radio
stations. The report’s author cautions that stations that air news
programming may be more likely to respond to the news survey than
those that do not. The report does not describe the types of content
that are included in the category of local news.
427
Id. (finding that 69.9 percent of all responding radio stations
air local news).
428
The Personal News Cycle at 2, 4, 6-7 (concluding that “techsavvy news consumers continue to use traditional platforms . . .
and are no more or less likely than everyone else to use print publi-

247
156. Moreover, there is some evidence in the record
that members of certain communities may rely more
heavily on broadcast radio stations for local news and information. For example, NHMC provides data that
demonstrate radio’s importance in Latino communities.
Among other findings, NHMC cites evidence that more
than half of Latinos regularly turn to radio for at least
some of their news.429 UCC et al. provide evidence that
radio stations played a meaningful role preceding the
2008 presidential election in disseminating political
news and increasing voter participation in the AfricanAmerican community.430 Such reliance may be especially
strong when radio stations target particular demographic
groups or offer news programs in a foreign language.
For example, a community radio station recently licensed in Minneapolis reports local news stories in the

cations, television, or radio to access the news”). The study reported the following percentages of respondents by age group that
used radio to get news during the previous week: 64 percent of
adults aged 60 and over; 74 percent of adults aged 40 to 59; 59 percent of adults aged 30-39; and 53 percent of adults aged 18-29. Id
at 25. These results differ considerably from the finding cited in the
FNPRM that 34 percent of respondents surveyed in 2010 reported
listening to news on the radio. Even though that finding represented
a dramatic drop from 54 percent in 1991, it nonetheless indicated that
at least a third of Americans obtain news and information from radio.
See FNPRM, 29 FCC Rcd at 4436, para. 146 (citing Steve Waldman
& the Working Group on Information Needs of Communities: The
Changing Media Landscape in a Broadband Age at 62 (2011),
https://transition.fcc.gov/osp/increport/The_Information_
Needs_of_Communities.pdf (Information Needs of Communities)).
429
NHMC FNPRM Comments at 6-11.
430
UCC et al. FNPRM Comments at 39-40 (citing evidence that
Radio One sponsored a voter registration drive that enrolled 30,000
voters in one day).

248
Somali language and provides information of particular
interest to the local Somali-American community.431
157. Evidence of reliance on broadcast radio for local
news and public information programming is important
for assessing radio’s contributions to viewpoint diversity; however, to be a meaningful source of viewpoint diversity in local markets, broadcast radio stations must
increase the diversity of local information, not simply its
availability.432 The record demonstrates that radio stations still contribute to viewpoint diversity by producing
a meaningful amount of local news and public interest
programming that is responsive to the needs and concerns of the community. Commenters state that original radio programs often address issues of local interest
involving, among other things, health care, politics, and
immigration.433 For example, NHMC discusses the influence of Latino radio stations in mobilizing support for
immigration rallies that were held across the country in

Hannah Weikel, New Radio Stations Broadcast to Underserved
Neighborhoods, The Washington Times (Dec. 19, 2015), http://www.
washingtontimes.com/news/2015/dec/19/new-radio-stations-broadcastto-undeserved-neighbo/?utm_source=RSS_Feed&utm_medium=RSS. Although the NBCO Rule does not apply to that particular station due to its low-power status, the example nonetheless
demonstrates the important contributions that radio can make to
viewpoint diversity.
432
See FNPRM, 29 FCC Rcd at 4429, para. 133 (“We tentatively
find that the diversity of local news coverage is not enhanced by the
fact that newspapers from around the world are only a click away.
Remote access to hometown sports scores and local weather reports
expands the availability, but not the diversity, of information.”).
433
See UCC et al. FNPRM Comments at 35-37, App. D; NHMC
FNPRM Comments at 8-11.
431

249
2006 in response to proposed federal legislation.434 UCC
et al. list HIV/AIDS awareness, domestic violence, and
hurricane safety among the topics addressed by a hiphop music station in the Washington, D.C., market. 435
In addition, UCC et al. submit numerous examples of
minority-owned radio stations in different parts of the
country that, in varying degrees, produce local news and
public affairs programming. 436 Moreover, invitations to
“call-in” to a radio program offer local residents unique
opportunities to participate interactively in a conversation about an issue of local concern. For example,
NHMC provides a description of a Colorado radio station serving the local Latino community that touts as its
most popular talk show a weekly call-in program centered on immigration law issues.437
158. For the foregoing reasons, we find that radio
provides an important contribution to viewpoint diversity such that lifting the newspaper/radio cross-ownership restriction in all markets across-the-board could
sweep too broadly.438 We find that we must take care
not to overlook the contributions to viewpoint diversity
offered by radio stations, particularly to the extent that
dedicated audiences of radio stations rely on radio as a
NHMC FNPRM Comments at 8-11.
UCC et al. FNPRM Comments at 36.
436
Id. at App. D (compiling examples of radio programming that
“expresses editorial viewpoint” from a review of the websites of numerous minority-owned stations).
437
NHMC FNPRM Comments at 8-9.
438
As discussed further below, to the extent an applicant believes
the loss of an independent radio voice in a particular market will not
unduly harm viewpoint diversity, it may request a waiver under our
new waiver standard based upon a showing to that effect.
434
435

250
valuable source of local news and information, and that
radio stations provide an additional opportunity for civic
engagement, as certain commenters attest. 439 Thus,
while the Commission previously has recognized that a
radio station generally cannot be considered the equal
of a newspaper or television station when it comes to
providing news, in fact, for a significant portion of the
population radio may play an influential role as a “source
for news or [ . . . ] the medium turned to for discussion of matters of local concern.”440
159. Accordingly, we find that radio stations can contribute in a meaningful way to viewpoint diversity within
local communities and that a newspaper’s purchase of a
radio station in the same local market could harm viewpoint diversity in certain circumstances. As a result,
we retain both the newspaper/radio and the newspaper/
television cross-ownership restrictions (for the reasons
discussed above). However, consistent with previous
Commission findings, we believe that enforcement of the
NBCO Rule may not be necessary to promote viewpoint
diversity in every circumstance and that there could be
situations where enforcement would disserve the public
interest.441 For example, a newspaper/radio combination might not pose a significant risk of harm in a market

See UCC et al. FNPRM Comments at 39-41; NHMC FNPRM
Comments at 6-8.
440
1975 Second Report and Order, 50 FCC 2d at 1083-84, paras.
115-16 (noting that radio may play a vital role particularly in communities where there are no local television stations).
441
Under Section 202(h) of the 1996 Act, we must repeal or modify
any media ownership regulation that no longer serves the public
interest. Telecommunications Act of 1996, Pub. L. No. 104-104,
§ 202(h), 110 Stat. 56, 111-12 (1996).
439

251
that contains numerous radio stations that offer a substantial amount of local news programming. Furthermore, we reaffirm the Commission’s earlier findings that
the opportunity to share newsgathering resources and
realize other efficiencies derived from economies of scale
and scope may improve the ability of commonly owned
media outlets to provide local news and information.”442
In certain circumstances, newspaper/broadcast crossownership may benefit the news offerings in a local market without causing undue harm to viewpoint diversity.
In recognition of this, as discussed below, we will ease
the application of the prohibition through a waiver process and other modifications to the scope of the rule.
160. Localism. Several opponents of the rule argue
that, as the Commission previously has recognized, newspaper/broadcast combinations can promote localism by
creating efficiencies that cross-owned properties can use
to produce a higher quantity and quality of news and information programming. 443 Citing Commission stud-

See FNPRM, 29 FCC Rcd at 4408, para. 89; see also 2006 Quadrennial Review Order, 23 FCC Rcd at 2032-33, para. 39; 2002 Biennial Review Order, 18 FCC Rcd at 13761-62, paras. 359-60.
443
Cox FNPRM Comments at 8-11; Morris FNPRM Comments at
10-11; NAB FNPRM Comments at 73-77; NAB FNPRM Reply at 910; NAA FNPRM Comments at 12-13; Bonneville/Scranton June 6,
2016 Ex Parte Letter at 2; see also NAA FNPRM Comments at 3-5
(citing research commissioned by the Commission). Cox asserts
that grandfathered combinations benefit the communities they serve
and that advocates of the rule have not produced contrary evidence.
Cox FNPRM Comments at 8-11 (pointing to improved coverage during Atlanta’s January 2014 winter storm due to the combined resources of Cox’s Atlanta newspaper, television station, and radio stations).
442

252
ies, NAA states that, on average, a cross-owned television station produces almost 50 percent more local news,
provides 30 percent more coverage of local and state political candidates, and airs 40 percent more time to candidates’ speeches and comments than other commercial
stations.444 Several commenters assert that the NBCO
Rule affirmatively harms local journalism by preventing
combinations that could enhance efficiencies in local
news production and distribution.445 In response, Free
Press argues that it is not surprising that cross-owned
television stations claim to have superior reporting abilities given their competitive advantage over stations unaffiliated with the local newspaper.446 Free Press points
NAA FNPRM Comments at 3-10 (providing examples in various cities, including Phoenix, Dayton, South Bend, Milwaukee, Cedar Rapids, Atlanta, and Spokane, in support of its position that crossownership leads to more comprehensive local news coverage across
all platforms); see also NAB FNPRM Comments at 73-77 (listing
studies dating from 1975 to 2011 that it claims show that cross-ownership promotes localism).
445
Cox FNPRM Comments at 10-11 (arguing that the NBCO Rule
“is simply standing in the way of local media properties that want to
offer consumers a better service and a deeper localism”); NAA
FNPRM Comments at 1-2 (claiming that the NBCO Rule is the type
of harmful regulation that Congress had in mind when it required
the Commission to review its media ownership rules periodically);
Delmarva et al. FNPRM Comments at 6 (contending that “the prohibition inhibits the ability of trained communications professionals
from deploying their skills and expertise across multiple distribution
channels to the detriment of the public”); Letter from Walter Isaacson, President & CEO, The Aspen Institute, to Marlene H. Dortch,
Secretary, FCC, at 1 (filed July 9, 2014) (arguing that broadcast
owners should be encouraged, not forbidden, to invest in newspapers
in order to promote strong local journalism); see also NAA FNPRM
Reply at 8 (supporting Isaacson’s position).
446
Free Press FNPRM Reply at 11-14.
444

253
to the finding in Media Ownership Study 4 and a previous Free Press study that even if a cross-owned television station itself produces more local news, the overall
effect of cross-ownership at the market level can be a
reduction in total local news available to the market due
to the so-called “crowding out effect.”447 However, as explained in the FNPRM, the results of Media Ownership
Study 4 were largely inconclusive.448
161. Cox and SCP argue that eliminating the newspaper/radio cross-ownership restriction would promote
localism by revitalizing local news on radio stations and
by allowing newspapers to maximize efficiencies of scale.449
Bonneville/Scranton also argues that allowing newspaper/
radio combinations would promote localism by providing
struggling newspapers with a broader base of financial
support and an increased ability to reach audiences.450
SCP and Delmarva et al. argue that the prohibition unnecessarily restricts investment that would benefit both
newspapers and radio stations and that allowing them to
share expertise, resources, and capital would bolster
their abilities to provide news and information.451 NAB
Id.
FNPRM, 29 FCC Rcd at 4430-31, paras. 135-37.
449
Cox FNPRM Comments at 4-5; SCP FNPRM Comments at 45; see also Morris FNPRM Comments at 11-12, 15.
450
Bonneville/Scranton FNPRM Comments at 7-9; Bonneville/
Scranton FNPRM Reply at 4; see also Morris FNPRM Comments
at 15, 24-30 (asserting that lifting the restriction will help struggling
newspapers by stimulating investment in print media).
451
Delmarva et al. FNPRM Comments at 2; SCP FNPRM Comments at 3-5; see also NAA FNPRM Comments at 22 (asserting that
cross-ownership improves the quality of local news on radio stations
by providing them access to the news and information gathered by
newspapers).
447
448

254
states that Commission studies have found that crossowned radio stations are more likely to air news and
public affairs programming and are four to five times
more likely to have a news format than a non-crossowned station. 452 Morris claims that its cross-owned
radio stations are the only radio stations in their respective markets providing local, news.453
162. We affirm our belief that “the nation’s interest
in maintaining a robust democracy through a ‘multiplicity of voices’ justifies maintaining certain NBCO restrictions even if doing so prevents some combinations that
might create cost-savings and efficiencies in news production.” 454 While FNPRM commenters proffer further examples in support of the proposition that such
cost-savings and efficiencies may allow cross-owned properties to provide a higher quality and quantity of local
news, these additional examples do not change our conclusion.455 The Commission has long accepted that proposition but also recognized that increased efficiencies do

NAB FNPRM Comments at 83-84.
Morris FNPRM Comments at 17-23 (describing in detail the
award-winning local news coverage of its cross-owned radio stations
in Topeka, Kansas, and Amarillo, Texas). Morris agrees with other
opponents of the rule that the restriction prevents partnerships that
would promote the Commission’s localism goal. Morris FNPRM
Comments at 41-43.
454
FNPRM, 29 FCC Rcd at 4431-32, para. 138.
455
In particular, nothing in the FNPRM record alters our view
that Media Ownership Study 4 produced inconclusive evidence that
newspaper/broadcast cross-ownership reduces the overall level of local news in a market. See id at 4430-31, paras. 135-37.
452
453

255
not necessarily lead to localism benefits.456 Furthermore,
even if cost-savings are used to increase investment in
local news production, the purpose of this rule is to promote and preserve the widest possible range of viewpoint; it is not, as NAB seems to suggest, to promote localism.457 We therefore disagree with NAB’s argument
that retaining cross-ownership restrictions will stymie
the rule’s intended benefits.458 Allowing media owners
to achieve economies of scale and scope may enable
them to disseminate a greater amount of local news over
one or both of their cross-owned properties, but the
costly result would be fewer independently owned outlets in the market. The loss of a local voice runs counter to our goal of promoting viewpoint diversity, regardless of whether cross-ownership is more or less likely to
produce localism benefits. Although the Commission
has found previously that the NBCO Rule is not necessary to promote its localism goal, that determination,
which we affirm today, does not undermine the viewpoint diversity rationale for the rule.459

See FNPRM, 29 FCC Rcd at 4430-32, paras. 135-38; but see
NAB FNPRM Comments at 73-77 (criticizing the Commission’s suggestion that cross-ownership does not guarantee localism benefits as
an impossible standard inconsistent with the requirements of Section 202(h)).
457
See NAB FNPRM Comments at 70-72, 78-79; NAB FNPRM
Reply at 12.
458
NAB FNPRM Comments at 70-72, 78-79; NAB FNPRM Reply at 12.
459
2002 Biennial Review Order, 18 FCC Rcd at 13753-60, paras.
342-54; 2006 Quadrennial Review Order, 23 FCC Rcd at 2038,
para. 46; see also FNPRM, 29 FCC Rcd at 4418-19, 4435-36, paras.
115, 145.
456

256
163. Competition. Promoting competition was not
the Commission’s primary concern when it considered
implementation of the NBCO Rule,460 and in its 2002 biennial review the Commission found that the rule was
not necessary to promote competition because newspapers and broadcast stations do not compete in the same
product markets.461 The National Association of Black
Owned Broadcasters, Inc. (NABOB) disputes the Commission’s longstanding conclusion and claims that radio
stations do compete with newspapers for advertisers.462
In response, NAA notes that the Commission adopted
its view from findings by the Department of Justice and
the courts that the advertising markets for broadcasters
and newspapers are distinct product markets.463 Bonneville/
Scranton asserts that NABOB provides data showing
merely the relative usage of different advertising platforms, not the degree of actual competition for advertisers.464 Morris and NAA argue that the fact that both
newspapers and radio stations earn local advertising
revenues does not make them economic substitutes.465

1975 Second Report and Order, 50 FCC 2d at 1048-49, 1074,
1080, paras. 11, 99, 112 (analyzing competition concerns in connection with the rule’s divestiture requirement but viewing diversification as the principal support for the rule’s prospective application).
461
2002 Biennial Review Order, 18 FCC Rcd at 13748-53, paras.
331-41.
462
NABOB FNPRM Comments at 13-15 (citing reports from
BIAKelsey and the Radio Advertising Bureau).
463
NAA FNPRM Reply at 3-4.
464
Bonneville/Scranton FNPRM Reply at 3 n.5; see also Bonneville/
Scranton June 6, 2016 Ex Parte Letter at 2.
465
Morris FNPRM Reply at 5-6 (citing Commission decisions,
court decisions, and a DOJ official); NAA FNPRM Reply at 3-4.
460

257
NAA contends that the pertinent issue is whether newspapers and radio stations compete against each other for
local news, not for advertising.466
164. A few FNPRM commenters raise concerns with
respect to competition arising from new forms of media,
as opposed to competition between newspapers and broadcasters. Commenters argue that repeal of the NBCO
Rule is essential to relieve the struggling newspaper
and broadcast industries, which they argue have suffered revenue declines and audience fragmentation, particularly as a result of the challenges that new technologies pose to traditional business models.467 Morris agrees
that the obstacles facing the traditional media industry
are part of a long-term trend and not a temporary effect
of the global recession.468 NAA attributes the steep decline in newspaper advertising revenues to the “disaggregation of advertising from news” caused by online
entities such as Craigslist and other non-news outlets.469
NAA and NAB urge the Commission to permit traditional news outlets to respond to these competitive challenges by achieving economies of scale through common

NAA FNPRM Reply at 3-4 (asserting that radio stations and
newspapers provide different local news products).
467
Morris FNPRM Comments at 24-30; NAB FNPRM Reply at 48. NAB cites evidence that the newspaper industry’s total advertising revenue, including online, was lower in 2013 than in 1954, adjusting for inflation. It also claims that newspapers’ print advertising revenues have dropped over 50 percent since 2008 and nearly 70
percent since 2003. NAB FNPRM Comments at 71; see also NAB
May 16, 2016 Ex Parte at 1.
468
Morris FNPRM Comments at 25-26 (pointing to the 2.6 percent
decline in overall revenues for newspapers from 2012 to 2013).
469
NAA FNPRM Comments at 11-12.
466

258
ownership of newspapers and broadcast stations.470 In
addition, Morris argues that allowing broadcasters to own
multiple television and/or radio stations puts newspaper
owners at an unfair competitive disadvantage.471
165. Proponents of the NBCO Rule counter that further media consolidation is not a desirable or necessary
strategy for reversing the declining fortunes of traditional news outlets. The Screen Actors Guild-American Federation of Television and Radio Artists (SAGAFTRA) warns that “[m]ore ownership concentration
means fewer jobs for media professionals, which results
in fewer independent news sources and editorial perspectives in news coverage.”472 It argues that the rapid
consolidation in the media marketplace is a reason to
strengthen the NBCO Rule, not weaken it.473 Free Press
contends that eliminating or weakening the NBCO Rule
would risk consumer harm unnecessarily because the
predicted “impending doom” of newspapers has not occurred. 474 It points to the splitting apart of several
NAA FNPRM Comments at 11-12; NAB FNPRM Comments
at 71-72; see also NAB FNPRM Reply at 12; NAA FNPRM Comments at 1 (noting that the newspaper industry is the only U.S. industry that federal law bars from investment by local television companies).
471
Morris FNPRM Comments at 41-43 (arguing that newspapers
typically have greater newsgathering resources than other local entities and thus are well-positioned to promote the Commission’s localism goal); see also NAA FNPRM Comments at 11-12 (the crossownership ban hinders competition by placing a constraint on newspapers and broadcasters but not their competitors).
472
Screen Actors Guild-American Federation of Television and
Radio Artists FNPRM Comments at 2 (SAG-AFTRA).
473
Id. at 3-4.
474
Free Press FNPRM Comments at 10.
470

259
newspaper/broadcast conglomerates as evidence of newspapers’ hopes for a more profitable future.475 Wick responds that the spinning off of newspaper assets reflects
an attempt to prevent struggling print enterprises from
dragging down the stock prices of the profitable businesses of media conglomerates.476
166. The FNPRM record does not change our longstanding position that the NBCO Rule is not necessary
to promote competition given that newspapers and
broadcasters do not compete in the same product markets.477 We agree with the view of several commenters
that NABOB has not presented a convincing case to the
contrary. 478 The fact that broadcasters and newspapers both sell to local advertisers does not mean they
compete with each other for advertising.
167. Although we do not find that the rule is necessary to promote competition, we have concluded that it
is necessary to promote viewpoint diversity. Therefore, we are not swayed by the media industry’s arguments that the NBCO Rule should be eliminated because it potentially limits opportunities for newspapers
and broadcasters to expand their businesses. As we
stated in the FNPRM, we do not believe that viewpoint
diversity in local markets should be jeopardized in order
Id. AFCP observes that Gannett Company is the latest media
conglomerate to divide its newspaper and broadcast operations, following similar action by News Corporation, Time Warner, Tribune,
and Media General. AFCP FNPRM Comments at 2-3 n.3.
476
Wick FNPRM Reply at 16.
477
See, e.g., 2002 Biennial Review Order, 18 FCC Rcd at 1374853, paras. 331-41.
478
See NAA FNPRM Reply at 3-4; Morris FNPRM Reply at 5-6;
Bonneville/Scranton FNPRM Reply at 3 n.5.
475

260
to enable media owners to increase their revenue by
pursuing cross-ownership within the same local market.479 Moreover, the application of the NBCO Rule has
a very limited geographic scope. Even if the potential
efficiencies of inter-market consolidation are fewer than
those to be gained from in-market acquisitions, the rule
does not prevent media owners that seek new revenue
streams from acquiring properties in other markets or
alternative media outlets that are not subject to the
NBCO Rule.
b.

The Scope of the Rule

168. Newspaper/Television Combinations. The current rule prohibits common ownership of a daily newspaper and a television station when the Grade A contour
of the station encompasses the entire community in
which the newspaper is published. 480
The trigger
for the newspaper/television cross-ownership restriction therefore relies on a station’s Grade A contour,
which was rendered obsolete by the transition to digital
television service. In the FNPRM, the Commission
tentatively concluded that the geographic scope of the
newspaper/television cross-ownership restriction should
be updated to reflect the fact that analog Grade A contours can no longer be used to determine when the rule
is triggered.481 Previously, in the NPRM, the Commission sought comment on whether the cross-ownership
prohibition should be triggered when a daily newspaper

FNPRM, 29 FCC Rcd at 4434-35, 4435-36, paras. 141-42, 145.
47 CFR § 73.3555(d)(1)(iii). The Commission retained the
Grade A contour approach when it revised the NBCO Rule in 2006.
2006 Quadrennial Review Order, 23 FCC Rcd at 2093, App. A.
481
FNPRM, 29 FCC Rcd at 4441, para. 157.
479
480

261
and a television station are in the same Nielsen DMA.482
In response to concerns that such an approach would expand the rule’s application too broadly, the Commission
instead proposed in the FNPRM that the rule be triggered for newspaper/television combinations when both:
(1) the television station and the newspaper are in the
same Nielsen DMA and (2) the PCC of the television station encompasses the entire community in which the
newspaper is published.483 The Commission’s proposed
approach received support, and no opposition, from
FNPRM commenters.484
169. We adopt our uncontested proposal in the
FNPRM to update the geographic scope of the restriction
by incorporating both a television station’s DMA and its
digital service contour. 485 Specifically, cross-ownership of a full-power television station and a daily news-

NPRM, 26 FCC Rcd at 17525, para. 99.
FNPRM, 29 FCC Rcd at 4441-42, para. 159.
484
Cox FNPRM Comments at 7-8; AFCP FNPRM Comments at 6.
485
FNPRM, 29 FCC Rcd at 4441-42, para. 159. Cox and AFCP
support the Commission’s combined approach, in part because incorporating the PCC of a television station will ensure that the rule’s
coverage does not extend to outlets located in distant parts of large
DMAs. Cox FNPRM Comments at 2-3, 7-8; AFCP FNPRM Comments at 6. Cox would prefer, however, that the Commission use a
digital equivalent to the analog Grade A contour instead of the PCC.
Cox FNPRM Comments at 7-8. As we explained in the FNPRM,
we rejected Cox’s suggestion because a digital equivalent to the analog Grade A contour has not been defined and the PCC is a defined
contour that can be verified in a straightforward manner, which ensures reliable service for the community of license. FNPRM, 29
FCC Rcd at 4442, para. 160 n.460. Cox did not dispute our reasoning in its further comments, and we affirm our rejection of its suggestion herein.
482
483

262
paper will be prohibited when: (1) the community of license of the television station and the community of publication of the newspaper are in the same Nielsen DMA,
and (2) the PCC of the television station, as defined in
Section 73.625 of the Commission’s rules, encompasses
the entire community in which the newspaper is published.486 Both conditions need to be met in order for
the cross-ownership prohibition to be triggered. The
DMA requirement ensures that the newspaper and television station serve the same media market, and the
contour requirement ensures that they actually reach
the same communities and consumers within that larger
geographic market.487
170. Newspaper/Radio Combinations. In the NPRM,
the Commission sought comment on whether the trigger
for the newspaper/radio cross-ownership restriction should
continue to rely on radio contours or whether Nielsen

47 CFR § 73.625. For the reasons provided in the FNPRM, we
will maintain the current definition of a daily newspaper as one
“which is published four or more days per week, which is in the dominant language in the market, and which is circulated generally in
the community of publication.” FNPRM, 29 FCC Rcd at 4443-44,
para. 164; see also 47 CFR § 73.3555, Note 6. We explained our disinclination to revise the definition, for example by imposing a minimum circulation requirement, and FNPRM commenters did not address the issue further.
487
See FNPRM, 29 FCC Rcd at 4441-42, para. 159; see also id. at
4442, para. 159 n.457 (noting the similarities with the local television
ownership rule). Cox agrees that using DMAs will provide an accurate way to define the market and will prevent the rule from triggering in situations where a station’s contour reaches a distinct and separate audience in a different DMA. Cox FNPRM Comments at 23, 7-8 (claiming that DMAs are “a better measure of audience reach
and economic market overlap than station contours”).
486

263
Audio market definitions should be used instead.488 Consistent with arguments made in the record, we will not
replace radio contours, but instead we will include an additional requirement that the radio station and the newspaper be located in the same Nielsen Audio Metro market, where one is defined.489 In circumstances in which
neither the radio station nor the newspaper is geographically located within a defined Nielsen Audio Metro market, then the trigger will be determined, as before, solely on the basis of the station’s service contour.490 We
agree with Morris that the added Nielsen Audio Metro
market condition will “serve a valid limiting role” because Nielsen Audio designations are based on listening
patterns, which will focus the restriction on properties
serving the same audience.491

NPRM, 26 FCC Rcd at 17530-31, paras. 113-14; see also
FNPRM, 29 FCC Rcd at 4435, para. 144 n.413. The current rule
prohibits cross-ownership when the entire community in which the
newspaper is published would be encompassed within the service
contour of: (1) the predicted or measured 2 mV/m contour of an AM
station, computed in accordance with Section 73.183 or Section
73.186, or (2) the predicted 1 mV/m contour for an FM station, computed in accordance with Section 73.313. See 47 CFR § 73.3555(d)
(2002).
489
Both Cox and Morris urge the Commission to use Nielsen Audio
Metro markets to help define the scope of any newspaper/radio
cross-ownership restriction that the Commission retains. Cox
NPRM Comments at 24-25; Cox FNPRM Comments at 7 n.16; Morris FNPRM Comments at 30-31; see also Morris NPRM Comments
at 21-22.
490
See Cox NPRM Comments at 25.
491
Morris FNPRM Comments at 30-31 (urging the Commission to
eliminate the newspaper/radio cross-ownership restriction, but supporting the condition in the event the Commission retained the restriction).
488

264
171. Specifically, in areas designated as Nielsen Audio Metro markets, cross-ownership of a full-power radio station and a daily newspaper will be prohibited
when: (1) the radio station and the community of publication of the newspaper are located in the same Nielsen Audio Metro market, and (2) the entire community
in which the newspaper is published is encompassed
within the service contour of the station, namely: (a)
the predicted or measured 2 mV/m groundwave contour
of an AM station, computed in accordance with Section
73.183 or Section 73.186; or (b) the predicted or measured 1 mV/m contour for an FM station, computed in accordance with Section 73.313. Both conditions need to
be met in order for the cross-ownership restriction to
apply, except when both the community of publication of
the newspaper and the community of license of the radio
station are not located in a Nielsen Audio Metro market,
then only the second condition need be met. Consistent with the Local Radio Ownership Rule, we will
rely on Nielsen to determine whether a radio station is
in the same Nielsen Audio Metro market as the newspaper’s community of publication.492 Specifically, for purposes of this rule, a radio station will be counted as part
The Local Radio Ownership Rule relies, in part, on Nielsen Audio Metro markets in applying the radio ownership limits. In that
context, the Commission has developed certain procedural safeguards
to deter parties from attempting to manipulate Nielsen Audio market definitions to evade the Local Radio Ownership Rules. By relying on Nielsen Audio Metro markets, where available, our revised
NBCO Rule is susceptible to similar manipulation by parties; accordingly, we will apply the procedures adopted in the context of the
Local Radio Ownership Rule to the NBCO Rule we adopt today.
See, e.g., 2002 Biennial Review Order, 18 FCC Rcd at 13726, para.
278; supra para. 108 (adopting additional procedures in the Local
Radio Ownership Rule context).
492

265
of the Nielsen Audio Metro market in which the station’s
community of license is geographically located and any
other Nielsen Audio Metro market in which the station
is listed by BIA as “home” to that market.493 This approach will ensure that a radio station is considered to
be part of each Nielsen Audio Metro market in which
that station is either geographically located or competes.
We believe Nielsen’s determination of a radio market’s
boundaries is useful in considering whether particular
communities rely on the same media voices. We believe
that such a determination, combined with the actual service areas of the respective facilities, gives a stronger
picture of the relevant market and instances in which we
should prohibit common ownership.
Therefore, as
Morris notes in its comments, we believe that including
consideration of the Nielsen Audio Metro market (if one
exists) in the determination of when the cross-ownership
prohibition is triggered will help focus the restriction specifically on those circumstances where the newspaper
and broadcast facility truly serve the same audience.494
c.

Exception for Failed and Failing Broadcast Stations and Newspapers

172. In the FNPRM, the Commission sought comment on whether to create an exception to the NBCO
Rule, regardless of the waiver standard adopted, when
one of the entities in the proposed combination is either

See 2002 Biennial Review Order, 18 FCC Rcd at 13726-28, paras. 279-81 (discussing methodology for determining which stations
are counted as part of a Nielsen Audio market).
494
Morris FNPRM Comments at 30-31.
493

266
failed or failing.495 The Commission asked whether it
should adopt the criteria used in the 2006 rule for failed/
failing entities. 496 The Commission posited that “the
continued operation of a local news outlet under common
ownership would cause less harm to viewpoint diversity
than would its complete disappearance from the market.”497 FNPRM commenters did not address the specifics of the issue, but the Association of Free Community Papers (AFCP) supports the concept of taking into
account whether a proposed merger involves a failed/
failing entity.498
173. Consistent with our proposal in the FNPRM,
we will adopt an express exception for proposed combi-

FNPRM, 29 FCC Rcd at 4453-54, para. 188. In the FNPRM,
the Commission proposed not to adopt the 2006 exception for proposed mergers involving a broadcast station that does not offer local
newscasts but that commits to airing at least seven hours of local
news per week after the transaction. Id. at 4453, para. 187. FNPRM
commenters did not address this issue. For the reasons expressed
in the FNPRM, we will not create such an exception. Id. at 445253, paras. 186-87. Our current approach will not preclude waiver
applicants from attempting to show how such a commitment could
enhance viewpoint diversity in the local market. However, applicants seeking a waiver in part or in whole on that basis should recall
our previously stated concerns that such a commitment would be
impracticable to enforce and arguably might require us to make
content-based assessments. See id. at 4453, para. 187.
496
Id. at 4453-54, para. 188.
497
Id. The Commission discussed the issue with respect to
newspaper/television combinations, but the same policy concerns apply to radio stations.
498
AFCP FNPRM Comments at 7.
495

267
nations involving a failed or failing newspaper, television station, or radio station.499 It stands to reason that
a merger involving a failed or failing newspaper or
broadcast station is not likely to harm viewpoint diversity in the local market. If the entity is unable to continue as a standalone operation, and thus contribute to
viewpoint diversity, then preventing its disappearance
from the market potentially can enhance, and will not
diminish, viewpoint diversity.
174. We adopt failed/failing criteria consistent with
those proposed in the FNPRM, which are similar to
those used for the Local Television Ownership Rule and
the Radio/Television Cross-Ownership Rule. 500 That
is, a “failed” newspaper or broadcast station must show
that, as applicable, it had stopped circulating or had
been dark due to financial distress for at least four
months immediately prior to the filing of the assignment
or transfer of control application, or that it was involved
in court-supervised involuntary bankruptcy or involuntary insolvency proceedings.501 To qualify as “failing,”
the applicant would have to show that: (1) if a broadcast television station is the failing entity, that it has had
a low all-day audience share (i.e., 4 percent or lower); (2)
the financial condition of the newspaper or broadcast

For the reasons explained below in connection with the timing
of a waiver request, we will require television and radio licensees to
file for an exception to the NBCO Rule prior to consummating the
acquisition of a newspaper. See infra at para. 183.
500
See 2006 Quadrennial Review Order, 23 FCC Rcd at 2047-48,
para. 65; 47 CFR § 73.3555, Note 7.
501
FNPRM, 29 FCC Rcd at 4453-54, para. 188 (citing 2006 Quadrennial Review Order, 23 FCC Rcd at 2047-48, para. 65).
499

268
station was poor (i.e., a negative cash flow for the previous three years); and (3) the combination would produce
public interest benefits.502 In addition, the applicants
must show that the in-market buyer is the only reasonably available candidate willing and able to acquire and
operate the failed or failing newspaper or station and that
selling the newspaper or station to any out-of-market
buyer would result in an artificially depressed price.503
175. Because we are creating an exception to the
NBCO Rule, rather than a waiver opportunity, applicants seeking a failed/failing entity exception need not
show, either at the time of their application or during
502
Id.; see also 2006 Quadrennial Review Order, 23 FCC Rcd at
2047-48, para. 65. In addition, as with the exemption for satellite
television stations pursuant to Note 5 of Section 73.3555, in the event
of an assignment of license or transfer of control of the broadcast/
newspaper combination, the proposed assignee or transferee would
need to make an appropriate showing demonstrating compliance
with the elements of the failed/failing entity exception at the time of
the assignment or transfer if it wishes to continue the common ownership pursuant to this exception. Further, although we are not including this failed/failing exception in Note 7 of Section 73.3555 of
the Commission’s rules (which addresses the failed/failing waiver
criteria applicable to the local television ownership rule and the radio/
television cross-ownership rule), given the similarities, the precedent established in the application of Note 7 shall apply to the application of the NBCO failed/failing criteria, as appropriate.
503
FNPRM, 29 FCC Rcd at 4453-54, para. 188; see also 2006 Quadrennial Review Order, 23 FCC Rcd at 2048, para. 65; 47 CFR
§ 73.3555, Note 7. One way to satisfy this requirement would be to
provide an affidavit from an independent broker affirming that active and serious efforts had been made to sell the newspaper or
broadcast station, and that no reasonable offer from an entity outside the market had been received. FNPRM, 29 FCC Rcd at 4454,
para. 188 n.550 (citing 2006 Quadrennial Review Order, 23 FCC Rcd
at 2048, para. 65 n.217).

269
subsequent license renewals, that the tangible and verifiable public interest benefits of the combination outweigh any harms.504 As we have concluded that the exception serves the public interest in diversity simply by
preserving a media outlet, it is not necessary for licensees to demonstrate that the additional benefits outweigh the potential harms. Recognizing that an absolute ban on newspaper/broadcast cross ownership is
overly broad, we believe it is appropriate to provide
greater flexibility and certainty in the context of this
rule. Thus, we believe a clear exception to the rule for
failed and failing entities, rather than a waiver requiring
a balancing of the harms and benefits, is appropriate to
provide certainty for relief, as we believe such combinations will have a minimal impact on viewpoint diversity.505
d.

Waiver Standard

176. In the NPRM and the FNPRM, the Commission proposed to retain the general prohibition on newspaper/broadcast combinations, subject to various waiver
criteria, rather than to revise the restriction to allow
combinations under certain expressly prescribed circumstances.506 In the FNPRM, we sought comment on
two different approaches for handling waiver requests:
a pure case-by-case approach entailing a review of the
Cf, FNPRM, 29 FCC Rcd at 4454, para. 188 n.549; 1999 Ownership Order, 14 FCC Rcd at 12939, para. 81; 47 CFR § 73.3555, Note
7; 2006 Quadrennial Review Order, 23 FCC Rcd at 2047-48, para. 65
n.216.
505
See also 1999 Ownership Order, 14 FCC Rcd at 12939, para.
81.
506
NPRM, 26 FCC Rcd at 17526-27, paras. 101-04; FNPRM, 29
FCC Rcd at 4438-39, paras. 150-52.
504

270
totality of circumstances of each individual case, and a
case-by-case approach guided by a set of presumptions
favoring or disfavoring proposed combinations depending on whether they meet certain criteria. 507 As described below, the Commission also sought comment on
whether it should retain the waiver criteria that the
Commission contemplated in connection with its divestiture requirement when it first adopted the NBCO
Rule. 508 Finally, the Commission asked whether a licensee should be required to file a waiver request at the
time it seeks to acquire a newspaper, rather than at the
time of its license renewal, in order to enable a timely public response to the proposed merger.509
177. In the FNPRM, we sought comment on various
criteria that could be included if we were to adopt a presumptive waiver standard. 510
Borrowing from the
FNPRM, 29 FCC Rcd at 4439-41, paras. 154-56.
FNPRM, 29 FCC Rcd at 4440, para. 155. At the time it adopted the NBCO Rule, the Commission required the divestiture of a
number of newspaper/broadcast combinations, but it indicated that
a waiver of its divestiture requirement might be appropriate where:
(1) there was an inability to dispose of an interest to conform to the
rules; (2) the only possible sale was at an artificially depressed price;
(3) separate ownership of the newspaper and station could not be
supported in the locality; or (4) the purposes of the rule would be
disserved by divestiture. 1975 Second Report and Order, 50 FCC
2d at 1084-85, paras. 117-19.
509
See FNPRM, 29 FCC Rcd at 4439, para. 153.
510
The FNPRM proposed not to subject waiver requests to the
four-factor test that applied to all waiver requests under the 2006
rule. It tentatively concluded that the factors were vague, subjective, difficult to verify, and costly to enforce. Id. at 4452, para. 184.
The four-factor test examined: (1) the likelihood that the combined
entity would increase significantly the amount of local news in the
market; (2) the extent to which the newspaper and the broadcast
507
508

271
waiver standard in the 2006 rules, the FNPRM first
asked whether the Commission should favor waiver requests for newspaper/broadcast combinations within
the top 20 DMAs and disfavor waiver requests for newspaper/broadcast combinations in all other markets. 511
Second, it sought comment on whether proposed newspaper/television combinations should be granted a favorable presumption only if they involved a television
station that was not ranked among the top four television stations in the DMA.512 The FNPRM tentatively
concluded that viewpoint diversity in even the largest
markets could be harmed if a top-four television station
merged with a newspaper because those stations typically generate more local news than lower-ranked stations. 513 Third, the FNPRM proposed to favor only
those transactions where at least eight independently
owned and operated “major media voices” would remain
in the DMA post-transaction.514 The FNPRM further
proposed to retain the current definition of major media
voices, which includes only full-power television stations
and newspapers published at least four days a week
outlets each would continue to employ its own staff and exercise its
own independent news judgment; (3) the level of concentration in the
Nielsen DMA; and (4) the financial condition of the newspaper or
broadcast station, and if the newspaper or broadcast station was in
financial distress, the proposed owner’s commitment to invest significantly in newsroom operations. See 2006 Quadrennial Review
Order, 23 FCC Rcd at 2049-54, paras. 68-75.
511
FNPRM, 29 FCC Rcd at 4445-46, para. 168. The Commission
sought comment on the advisability of a top-20 DMA demarcation
for newspaper/radio combinations in the event it decided to retain a
restriction on such combinations. Id. at 4445, para. 168 n.482.
512
Id. at 4448-49, paras. 174-77.
513
Id. at 4448, para. 174.
514
Id. at 4450, para. 179.

272
within the DMA in the dominant language of the market
and circulated to more than five percent of the DMA’s
households.515
178. Proponents of the rule support a general prohibition with no built-in or codified exemptions.516 In contrast, other commenters argue that adding exemptions
would not narrow the rule enough; instead, they urge
the Commission to eliminate the entire restriction.517
179. Commenters also disagree about the type of
waiver approach that the Commission should use if it decides to retain the general prohibition but grant waivers

Id. at 4450-51, paras. 179-81; see also 2006 Quadrennial Review
Order, 23 FCC Rcd at 2042, para. 57; 47 CFR § 73.3555(c)(3)(iii).
UCC et al. agree with the Commission that major media voices
should comprise only full-power television stations and major newspapers. UCC et al. FNPRM Comments at 44. Bonneville/Scranton argues that UCC et al.’s position is a tacit acknowledgment that
radio stations do not contribute significantly to viewpoint diversity.
Bonneville/Scranton FNPRM Reply at 8 n.25.
516
See UCC et al. FNPRM Comments at 44 (asserting that a general prohibition is appropriate); WGAW FNPRM Comments at 10
(arguing that current consolidation in the video distribution market
shows that relaxation of the ban would lead to more mergers and a
decrease in unique local news outlets); AFCP FNPRM Comments
at 5-6 (claiming that a case-by-case waiver approach already exists).
517
See NAB FNPRM Comments at 72-73 (argues that retaining
the current absolute prohibition after repeatedly finding it unnecessary would be arbitrary and capricious and noting that the Third
Circuit has upheld the Commission’s finding that a blanket ban does
not serve the public interest); NAA FNPRM Comments at 18-22
(contending that an investor is not likely to commit resources to a
transaction that requires a lengthy and uncertain approval process);
NAA FNPRM Reply at 5-7 (arguing that waiver requests can be
prohibitively expensive and time-consuming).
515

273
when appropriate.518 Free Press supports a pure caseby-case waiver approach and opposes awarding favorable presumptions for any waiver requests.519 Free Press
warns that a presumptive waiver standard would invite
gamesmanship among broadcasters “to match deals
against a set of pre-fabricated factors.” 520 It asserts
that an examination of the facts of each case would be
the best protection against the loss of an independent
voice.521 Similarly, WGAW favors retention of the crossownership ban without the inclusion of any specific waiver
criteria.522 WGAW argues that the Commission’s prop-

No FNPRM commenters object to the Commission’s proposal
to require a television station to file a waiver request at the time of
a newspaper acquisition and that such waiver requests be placed on
public notice. AFCP and UCC et al. support such a requirement.
AFCP FNPRM Comments at 5-6; UCC et al. FNPRM Comments at
44.
519
Free Press FNPRM Comments at 10-11 (reiterating its opposition to all three presumptions included in the 2006 rule (i.e., market
tiers divided at the top-20 DMAs, a top-four television restriction,
and an eight voices test)); Free Press FNPRM Reply at 10-11.
520
Free Press FNPRM Comments at 11; Free Press FNPRM
Reply at 10-11.
521
Free Press FNPRM Comments at 11. Free Press appears to
equate a pure case-by-case approach with the Commission’s traditional waiver standard, which it argues is best suited to serve the
rule’s purpose. Free Press FNPRM Comments at 11; Free Press
FNPRM Reply at 10-11. It argues that a case-by-case approach with
presumptive guidelines is essentially a revised, bright-line rule,
which it notes the Commission tentatively has rejected. Free Press
FNPRM Comments at 11-12.
522
WGAW FNPRM Comments at 10.
518

274
osition to allow a favorable presumption for waiver requests in the top 20 DMAs would not support diversity
or localism.523
180. On the other hand, Cox opposes a pure case-bycase waiver approach, which it views as a retreat from
the Commission’s previous presumptive waiver standards.524 Cox argues that businesses need a predictable
waiver standard in order to develop effective business
plans and to encourage the expensive planning and investment required for integrating news operations.525 Cox
re-submits its own proposal for a presumptive waiver
standard, which it argues should apply to NBCO waiver
requests in all markets. Cox argues that the first part
of its two-part test would protect diversity by requiring
that at least 20 independently owned major media voices
remain in the market following a newspaper/broadcast
combination. Cox would consider major media voices
to include independently owned daily newspapers, fullpower television and radio stations, cable and satellite
television systems (counted as one voice), and the Internet (counted as one voice). Arguing that the Commission confuses its diversity policy with its localism policy,
Cox believes that these outlets should be counted regardless of the extent to which they provide local news
and information. The second part of Cox’s test, intended to preserve localism, would require that at least three
independent media voices that produce and distribute
local news and information programming, other than the
Id.
Cox FNPRM Comments at 11-13 (asserting that a pure caseby-case waiver approach is “the equivalent of no waiver standard at
all”).
525
Id. at 11-12; see also Cox June 10, 2016 Ex Parte at 1-2.
523
524

275
combining properties, remain in the market post-transaction. Cox dismisses the Commission’s concern that
qualifying an outlet as a producer of local news would be
a content-based determination.526
181. There is little support for the presumptive waiver
approach that the Commission offered for consideration. Cox and NAA claim that a favorable presumption
only for the top 20 markets would harm small and midsized markets where investment in local newsrooms may
be most needed.527 In addition, NAA is critical of a topfour television restriction, which it argues would deny
relief to those television stations most likely to produce
local news and therefore most likely to benefit from the
economies of scale of merging with a newspaper.528 In
contrast, AFCP would prefer that the Commission adopt
a neutral, rather than a favorable, approach for proposed
newspaper/television combinations in the top 20 DMAs
and for those involving television stations ranked below

Cox FNPRM Comments at 13-18.
NAA FNPRM Comments at 20-21; NAA FNPRM Reply at 5;
Cox FNPRM Comments at 13-18. NAA cites the Information Needs
of Communities report for the finding that the vast majority of the
200 newspapers that closed or eliminated their print edition were in
markets of small or medium size. NAA FNPRM Comments at 2021 (also pointing to evidence in the report showing that television
stations in small or medium-sized markets are likely to air fewer
minutes of local news than their counterparts in larger markets).
See also Letter from Danielle Coffey and Kurt Wimmer, NAA, to
Marlene H. Dortch, Secretary, FCC (filed Aug. 9, 2016) (arguing
that the NBCO Rule should be eliminated and rejecting that a waiver
would lessen the harms of the NBCO Rule).
528
NAA FNPRM Comments at 21; NAA FNPRM Reply at 5.
NAA sees little reason for a station that does not produce local news
to combine with a newspaper. NAA FNPRM Comments at 21.
526
527

276
the top four stations in the DMA.529 It recommends a
“strong” negative presumption for proposed mergers
not meeting those criteria.530 AFCP supports the eight
voices test but recommends that the Commission consider requiring a higher number of voices in the very
largest markets.531
182. Consistent with our tentative conclusion in the
FNPRM, we decline to adopt a bright-line rule that
would exempt certain combinations from the newspaper/
broadcast cross-ownership rule based on a certain set of
criteria.532 Given the variability among local markets,
we maintain our view that blanket exemptions should
not be built into the rule. As we explained in the FNPRM,
while a rule with built-in exemptions might lend greater
certainty to parties considering a merger, it would not
lead necessarily to the best result in an individual market.533 We reiterate our concern that such a rule would
be “too blunt an instrument” to be used for these types
of mergers because, for example, “allowing certain combinations only in the top 20 DMAs could foreclose merger opportunities in smaller markets where viewpoint
diversity is sufficiently robust” and, conversely, “permit
combinations in a top 20 DMA that would harm the public interest.”534 Rather, we believe that the more prudent way to ease the rule’s application is through a case-

529
530
531
532
533
534

AFCP FNPRM Comments at 6-7.
Id.
Id.
See FNPRM, 29 FCC Rcd at 4438-39, paras. 151-52.
Id. at 4438, para. 151.
Id.

277
by-case waiver process with a particular focus on the impact the proposed merger would have on viewpoint diversity in the market.
183. Therefore, consistent with our other efforts to
ease the rule’s application, we provide for the consideration of waiver requests of the NBCO Rule on a case-bycase basis.535 We believe a case-by-case waiver approach
will “produce sensible outcomes and also improve transparency and public participation in the process.”536 To
facilitate public participation further, we will require
television and radio licensees to file a request for waiver
of the NBCO Rule prior to consummating the acquisition of a newspaper, rather than at the time of the station’s license renewal. 537
As we explained in the
FNPRM, a broadcast licensee that triggered the NBCO
Rule with the purchase of a newspaper previously was
required, absent a waiver, to dispose of its station within
one year or by the time of its next renewal date, whichever was longer.538 Alternatively, it could have pursued
a waiver in conjunction with its license renewal, at which
point interested parties could comment on the waiver re-

See 2006 Quadrennial Review Order, 23 FCC Rcd at 2021-22,
paras. 18-19; 2002 Biennial Review Order, 18 FCC Rcd at 13762-67,
paras. 361-67; see also Prometheus I, 373 F.3d at 398-400 (upholding
the Commission’s finding that an absolute ban on all newspaper/
broadcast combinations is overly broad).
536
FNPRM, 29 FCC Rcd at 4439, para. 153.
535

Id. FNPRM commenters support this requirement. AFCP
FNPRM Comments at 5-6; UCC et al. FNPRM Comments at 44.
538
FNPRM, 29 FCC Rcd at 4439, para. 153; see also 1975 Second
Report and Order, 50 FCC 2d at 1076, para. 103 n.26.
537

278
quest. As a result, the opportunity to comment on a licensee’s acquisition of a newspaper might have arisen
years after the purchase. Our remedy will enable the
public to comment on such acquisitions in a timely and
effective manner before the purchase is consummated.
Moreover, by requiring prior approval, this approach
will provide certainty to transaction participants that
the proposed combination will not be subject to potential
divestiture after the operations already have been integrated-a certainty that is not provided by the current
approach. To alert interested parties to a proposed
newspaper acquisition, we will require that the Media
Bureau place such waiver requests on public notice and
solicit public comment on the proposed acquisition.
184. With regard to the two case-by-case options
that we described in the FNPRM for considering waivers, we adopt what we termed a “pure” case-by-case approach.539 That is, we will evaluate waiver requests by
assessing “the totality of the circumstances for each individual transaction, considering each waiver request
anew without measuring it against a set of defined
criteria or awarding the applicant an automatic presumption based on a prima facie showing of particular
elements.”540 Waiver applicants will have the flexibility
FNPRM, 29 FCC Rcd at 4439-41, paras. 154-56.
Id. at 4439, para. 154. Free Press and WGAW support a pure
case-by-case approach with no presumptive waiver criteria. Free
Press FNPRM Comments at 10-12 (arguing that a case-by-case approach with presumptive guidelines is essentially a revised, brightline rule, which the Commission tentatively rejected); Free Press
FNPRM Reply at 10-11; WGAW FNPRM Comments at 10 (asserting that the Commission’s proposition to allow a favorable presumption for waiver requests in the top 20 DMAs would not support diversity or localism).
539
540

279
to present their most compelling reasons why strict application of the rule is not necessary to promote the goal
of viewpoint diversity in that particular local market.541
Thus, an applicant seeking a waiver under this approach
will have to show that grant of the waiver will not unduly
harm viewpoint diversity. Likewise, opponents of a transaction can respond with a range of arguments and evidence they consider most pertinent to that case. We
believe this approach will provide the Commission the
flexibility needed to allow due consideration of all factors relevant to a case, without spending time and resources assessing presumptive criteria that may not be
useful for a particular review.542 Thus, the Commission
541
Furthermore, consistent with our tentative conclusion in the
FNPRM, we decline to adopt the four-factor test that applied to
waiver requests under the 2006 rule because we conclude that the
factors would be vague, subjective, difficult to verify, and costly to
enforce. See FNPRM, 29 FCC Rcd at 4452, para. 184. UCC et al.
agree that the four-factor test should not apply to waiver requests.
UCC et al. FNPRM Comments at 44; see also supra note 510 (detailing the four factors). As we stated in the FNPRM, evidence
supporting considerations like those reflected in the four factors,
although not required, is also not discouraged if a waiver applicant
believes it would be useful in supporting its request. FNPRM, 29
FCC Rcd at 4452, para. 184.
542
The 2006 rule required a waiver applicant attempting to overcome a negative presumption to show, with clear and convincing evidence, that the merged entity would increase diversity and competition. 2006 Quadrennial Review Order, 23 FCC Rcd at 2049, para.
68. In the FNPRM, we proposed not to incorporate the requirement
into any presumptive waiver standard that we might adopt. FNPRM,
29 FCC Rcd at 4453, para. 187. FNPRM commenters did not address
the issue, and our concern remains that the requirement would impose “an overly burdensome evidentiary standard.” See FNPRM,
29 FCC Rcd at 44553, para. 187. Although the issue arguably is
mooted by our decision not to adopt a presumptive waiver standard,

280
can hone in quickly on the most important considerations of the proposed transaction and approach them
with an openness that might not occur with a set framework.543 We believe that, as a result, the Commission
will be able to determine more accurately and precisely
whether a proposed combination will have an adverse
impact on viewpoint diversity in the relevant local market. If a proposed combination does not present any
undue harm to viewpoint diversity, which is the underlying purpose of the rule, then it is not necessary in the
public interest to prohibit the combination.
185. We recognize that a case-by-case approach with
presumptive guidelines, such as the one described in the
FNPRM, potentially could offer waiver applicants greater
certainty and consistency. The criteria proposed in
this proceeding, however, were widely criticized and rejected by commenters.544 For example, while newspaper and broadcast industry commenters support a predictable waiver standard, these commenters assert that
it would be overly restrictive to distinguish markets below the top 20 DMAs and mergers with top-ranked television stations, as proposed in this proceeding.545 Ultimately, we are persuaded by the criticism in the record
that the proposed presumptive guidelines should not be
adopted. Moreover, we are concerned that any presumptive approach could result in an unduly rigid evaluation
we also will not incorporate that standard into our adopted waiver
approach.
543
See Free Press FNPRM Comments at 11; see also Free Press
FNPRM Reply at 10-11.
544
See supra paras. 179-181.
545
See NAA FNPRM Comments at 20-21; NAA FNPRM Reply
at 5; Cox FNPRM Comments at 11-12, 13-18.

281
of a waiver application. Instead, as discussed above,
we believe that the pure case-by-case approach is the
appropriate way to assess requests for-waiver of the
NBCO Rule. For all the reasons that favor a pure caseby-case approach, plus those stated in the FNPRM, we
decline to adopt Cox’s proposal for a two-part test that
would measure every proposed transaction against the
same set of fixed criteria.546 As we stated in the FNPRM,
we believe that the first part of Cox’s proposed test
would define independent media voices too broadly and
that the second part of Cox’s proposed test would be difficult to apply and enforce in an objective, content-neutral manner.547
186. In addition, we disagree with Cox that a pure
case-by-case approach is necessarily a retreat from a
presumptive waiver standard.548 Rather, a pure caseby-case approach lifts the potential burden of having to
overcome a negative presumption. Regardless, our intent in choosing a pure case-by-case approach over a
presumptive waiver standard is not to increase or decrease the number of waiver approvals; it is to increase
the likelihood of achieving the proper result in each individual case. Applying presumptive criteria can work
well in other contexts and for other rules, but, under the
current record and given the nature of viewpoint diversity and its dependency on the particular facts and circumstances of a specific market, we find that a pure

Cox FNPRM Comments at 13-18; see also FNPRM, 29 FCC
Rcd at 4447, para. 171.
547
FNPRM, 29 FCC Rcd at 4447, para. 171.
548
See Cox FNPRM Comments at 11-13.
546

282
case-by-case approach is best suited for handling requests for waiver of this rule.
187. We also disagree with Cox that a pure case-bycase approach is the equivalent of not having a waiver
standard.549 To be clear, our standard requires applicants seeking a waiver of the NBCO Rule to show that
their proposed combination would not unduly harm viewpoint diversity in the local market. The pure case-bycase approach describes the method by which we will determine whether this standard is met. Our method of
examining the totality of the circumstances may entail a
broad review, but the standard to be met is narrowly focused on the impact on viewpoint diversity. We anticipate that the precedent that evolves from future waiver
decisions will provide further guidance to entities considering a merger.
188. We clarify that this waiver standard is distinct
from the traditional waiver standard under Section 1.3,
which requires a showing of “good cause” and applies to
all Commission rules.550 By specifically allowing for a
waiver of the NBCO Rule in cases where applicants can
demonstrate that the proposed combination will not unduly harm viewpoint diversity, we signal our recognition
that there may be instances where enforcing the prohibition against ownership of a newspaper and broadcast
station is not necessary to serve the rule’s purpose of
promoting viewpoint diversity in the local market. In-

See id at 12.
47 CFR § 1.3; but see Free Press FNPRM Comments at 11 (appearing to equate a pure case-by-case approach with the Commission’s traditional waiver test); Free Press FNPRM Reply at 10-11.
549
550

283
deed, it is our determination herein that the public interest would not be served by restricting specific combinations that do not unduly harm viewpoint diversity.
While in the context of Section 1.3 waiver requests the
Commission has considered showings of undue hardship, the equities of a particular case, or other good
cause, in this particular context an applicant is required
to make a narrower showing, and a waiver will be granted
so long as the applicants can demonstrate that viewpoint
diversity will not be unduly harmed as a result of the
proposed combination. The NBCO waiver standard
does not replace or limit a waiver applicant’s available
options under Section 1.3. Indeed, while the NBCO
waiver standard we articulate focuses specifically on the
impact of the proposed merger on viewpoint diversity in
the local market and requires applicants to make a
showing as to such impact, waiver requests under Section 1.3 could include a broader public interest showing,
under which parties can assert any variety of considerations they believe warrant waiver of the rule consistent
with established precedent.551
Waiver of the Commission’s policies or rules under Section 1.3
is appropriate only if both (1) special circumstances warrant a deviation from the general rule, and (2) such deviation will serve the public interest. See Network IP, LLC v. FCC, 548 F.3d 116, 125-28 (D.C.
Cir. 2008); Northeast Cellular, 897 F.2d at 1166. Under this section,
the Commission may take into account considerations of hardship,
equity, or more effective implementation of overall policy on an individual basis. See WAIT Radio, 418 F.2d at 1157; Northeast Cellular, 897 F.2d at 1166. Although the Commission must give waiver
requests “a hard look,” an applicant for waiver under Section 1.3
“faces a high hurdle even at the starting gate” and must support its
waiver request with a compelling showing. See WAIT Radio, 418
F.2d at 1157; Greater Media Radio Co., Inc., Memorandum Opinion
and Order, 15 FCC Rcd 7090, 7094, para. 9 (1999) (citing Stoner
551

284
189. Finally, the FNPRM sought comment on whether
to adopt a waiver standard based on the divestiture
waiver criteria that the Commission contemplated at the
time it first adopted the NBCO Rule. At that time, the
Commission grandfathered most existing newspaper/
broadcast combinations, but it required divestiture for a
small number of combinations in areas where there was
an absence or near absence of other media.552 The Commission contemplated that a waiver of its divestiture requirement might be appropriate where: (1) there was
an inability to dispose of an interest to conform to the
rules; (2) the only possible sale was at an artificially depressed price; (3) separate ownership of the newspaper
and station could not be supported in the locality; or (4)
the purposes of the rule would be disserved by divestiture.553 Since then, these criteria also have been applied
prospectively to new newspaper/broadcast combinations.554
Broadcasting System, Inc., Memorandum Opinion and Order, 49
FCC 2d 1011, 1012, para. 5 (1974)).
552
1975 Second Report and Order, 50 FCC 2d at 1078-84, paras.
108-17.
553
Id. at 1084-85, paras. 117-19; see also Applications of Tribune
Co. and its Licensee Subsidiaries, Debtors In Possession, et al.,
Memorandum Opinion and Order, 27 FCC Rcd 14239, 14247, para.
24 (MB 2012).
554
See Shareholders of Tribune Co., Transferors, & Sam Zell, et
al. Transferees, 29 FCC Rcd 844, 845-46, para. 5 (2014) (summarizing rationale for denying temporary waivers and granting permanent waiver in prior order); id. at 850-52, paras. 19-23 (discussing
waiver criteria and rationale for granting permanent waiver in Chicago based on diversity considerations); see also Kortes Communications, Inc., (Assignor) and Stafford Broadcasting, L.L.C., (Assignee) for Consent to the Assignment of License of Stations
WPLB(AM), Greenville, MI, and WPLB-FM Lakeview, MI, Memorandum Opinion and Order, 15 FCC Rcd 11846, 11852-53, para. 18

285
FNPRM commenters did not address our question whether
a case-by-case approach should incorporate, or disavow,
these waiver criteria, which remain in effect along with
the current rule.555 Accordingly, in light of the lack of
comment on these criteria (for or against), and for the
reasons discussed above, we are adopting a new waiver
standard that replaces these earlier divestiture waiver
criteria.
e.

Grandfathering

190. In the FNPRM, the Commission tentatively
concluded that it should grandfather any existing combinations that would become non-compliant due to any
changes it made to the rule, such as an update to the
trigger requirement.556 It stated that it would continue
to allow existing combinations that previously were grandfathered or approved by permanent waiver. It sought
comment on its view that any grandfathered or approved
combinations that subsequently are transferred must
come into compliance with the revised rule.557 NPRM
(2000); Columbia Montour Broadcasting Co., Inc., (Assignor) and
Community Communications, Inc., (Assignee) for Consent to the
Assignment of License of Station WCNR(AM), Bloomsburg, PA,
Memorandum Opinion and Order, 13 FCC Rcd 13007, 13013, para.
20 (1998); Fox Television Stations, Inc., Licensee Of Television
Station WNYW New York, New York, Request for Waiver of the
Broadcast-Newspaper Cross-Ownership Rule Relating to WNYW
And the New York Post, Declaratory Ruling, 8 FCC Rcd 5341, 5348
n.19 (1993); Application Of Hopkins Hall Broadcasting, Inc. (Assignor) and Shelbyville Publishing Co., Inc. (Assignee) for Assignment of License of WLIJ (AM), Shelbyville, Tennessee, Memorandum Opinion and Order, 10 FCC Rcd 9764, 9765, para. 5 (1995).
555
See FNPRM, 29 FCC Rcd at 4440, para. 155.
556
Id. at 4444-45, para.166.
557
Id.

286
commenters representing newspaper and broadcast owners supported grandfathering and argued that grandfathered and approved combinations should be freely transferable.558 FNPRM commenters did not address grandfathering issues.
191. We will grandfather, to the extent required, any
existing newspaper/broadcast combinations that no
longer comply with the NBCO Rule as a result of our
changes to the scope of the rule. In addition, as stated
in the FNPRM, we will continue to allow all combinations currently in existence that have been grandfathered
or approved by permanent waiver to the extent that
grandfathering/permanent waivers are still necessary
to permit common ownership.559 Consistent with Commission precedent, grandfathered combinations, including those subject to permanent waivers, are not transferrable.560 We disagree with commenters that assert

See id. at 4444, para. 165.
Id. at 4445, para. 166 n.481 (citing 2006 Quadrennial Review
Order, 23 FCC Rcd at 2054-55, para. 76). As we explained, we leave
in place any filing deadlines the Commission has imposed previously
on specific parties related to cross-ownership proceedings. Id.
560
See id at 4444-45, para. 166; id. at 4386, para. 34 n.80 (citing 1975
Second Report and Order, 50 FCC 2d at 1076, para. 103 (requiring
divestiture upon the sale of an existing combination)); Incentive
Auctions Report and Order, 29 FCC Rcd at 6848-49, paras. 691-93
(grandfathering existing station combinations that otherwise would
no longer comply with the media ownership rules as a result of the
auction, but, upon transfer, requiring new owners to comply with the
rules in place at the time of the transfer or to obtain a waiver); 2002
Biennial Review Order, 18 FCC Rcd at 13809-10, para. 487 (rejecting the argument that grandfathered combinations should be freely
transferrable in perpetuity); 1999 Ownership Order, 14 FCC Rcd at
12909, para. 11 (“Any transfer of a grandfathered combination after
558
559

287
that, contrary to longstanding Commission precedent,
grandfathered and approved combinations should be
freely transferable in perpetuity.561 Our approach today strikes the appropriate balance between avoiding
imposition of the hardship of divestiture on owners of
existing combinations that have owned a combination in
reliance on the rules and moving the industry toward
compliance with current rules when owners voluntarily
decide to sell their properties. A transferee or assignee of the properties must comply with the NBCO
Rule in effect at the time of the transaction or obtain a
new waiver. This requirement applies to the transfer
of existing combinations already grandfathered or approved and to the transfer of combinations grandfathered as a result of becoming non-compliant due to our
changes to the scope of the rule.
f.

Minority and Female Ownership

192. The FNPRM provided commenters another opportunity to address the relationship of the NBCO Rule
to minority and female ownership.562 The Commission
the adoption date of this Report and Order (whether during the initial grandfathering period [or] after a permanent grandfathering
decision has been made) must meet the [existing] radio/TV crossownership rule.”); Applications of Stauffer Communications, Inc.,
Memorandum Opinion and Order, 10 FCC Rcd 5165, 5165, para. 3
(1995) (“[G]randfathered status under our multiple ownership rules
terminates upon Commission approval of a transfer of control.”); see
also supra para. 35.
561
As stated in the FNPRM, we will continue to allow grandfathered status to survive pro forma changes in ownership and involuntary changes of ownership due to death or legal disability of the
licensee. FNPRM, 29 FCC Rcd at 4386, para. 34 n.80 (citing 1975
Second Report and Order, 50 FCC 2d at 1076, para. 103).
562
FNPRM, 29 FCC Rcd at 4454, para. 189.

288
tentatively concluded that minority and female ownership would not be affected adversely by the proposed
modifications to the NBCO Rule. 563 The Commission
noted a lack of evidence in the existing record to support
the proposition that newspaper mergers with minority/
women-owned radio stations would result in greater
harm to viewpoint diversity in local markets than combinations involving radio stations that are not minorityor women-owned. 564 With respect to the newspaper/
television cross-ownership restriction, the Commission
was not persuaded that the modifications under consideration likely would affect minority and female ownership levels.565 The Commission sought further comment
on its views. In addition, the Commission described
comments addressing a study submitted by MMTC,
which found that cross-ownership generally is not a concern among minority and female broadcast station owners.566 The Commission stated that it could not draw
definitive conclusions based solely on the study, but it
invited commenters to provide new or additional evidence. 567 The Commission asked whether a waiver requirement would protect its diversity goals adequately.568
It rejected the argument that the Prometheus II decision prevents the Commission from making any changes

Id. at 4454-55, para. 190.
Id. at 4455, para. 191.
565
Id. at 4456-57, para. 193.
566
Id. at 4458-60, para. 196-98; see also id. at 4454, para. 189
n.553.
567
Id. at 4459-60, para. 198.
568
Id. at 4460, para. 199.
563
564

289
to the NBCO Rule without first showing that minority
ownership would not be harmed.569
193. Several commenters argue that newspaper/
broadcast cross-ownership does not have a material adverse effect on minority and female ownership, and they
assert that there are more targeted and effective means
of promoting ownership diversity than keeping the
NBCO Rule. 570 Bonneville/Scranton asserts that the
large number of radio stations offers plenty of ownership opportunities for minorities and women and that
elimination of the newspaper/radio cross-ownership restriction would be unlikely to incite newspaper purchases of radio stations, given the current industry trend
of spinning off newspaper properties. 571 NAA claims
that cross-ownership benefits minority communities because newspaper owners try to diversify newsrooms and
provide a voice for minority communities.572 Morris argues that increasing flexibility for broadcast owners
would benefit all owners, including minority and female
owners.573 NAA agrees with the Commission that the
agency is not required to show that a rule change would

Id. at 4454-55, para. 190.
Morris FNPRM Comments at 43-45; NAA FNPRM Comments
at 13-15; Bonneville/Scranton FNPRM Reply at 8-9; Bonneville/
Scranton June 6, 2016 Ex Parte at 1-2; Cox June 10, 2016 Ex Parte
at 2; see also Morris FNPRM Reply at 7.
571
Bonneville/Scranton FNPRM Reply at 8-9.
572
NAA FNPRM Comments at 14-15 (calling supporters’ demands for further studies a delay tactic).
573
Morris FNPRM Reply at 7.
569
570

290
have no impact on minority ownership levels before taking any action, and it questions how such a showing
could even be made.574
194. Free Press, by contrast, criticizes the Commission’s tentative finding that the NBCO Rule does not
have a significant effect on minority ownership.575 Free
Press argues that consolidation in general makes it difficult for small businesses, such as those owned by minorities, to compete.576 It reasons that the Commission
should not eliminate a restriction that promotes ownership diversity merely because the rule on its own may
not be enough to maintain or increase minority ownership.577 Free Press claims that the Commission has not
conducted a proper study of the potential adverse effects on ownership diversity and therefore has no basis
upon which to relax the rule.578 While recognizing the
small number of cross-owned properties available to
study, Free Press suggests that a proper study would
examine grandfathered newspaper/broadcast combinations separately from waived combinations, given the
different histories and market positions of these two categories.579 AFCP reiterates its plea for the Commission
NAA FNPRM Comments at 14.
Free Press FNPRM Comments at 12-13.
576
Id.
577
Id. Wick states that, although Free Press’ argument may be
the most convincing reason put forth by commenters for retaining
the ban, any positive effect that the ban has on minority and female
ownership is “miniscule.” Wick FNPRM Reply at 17.
578
Free Press FNPRM Comments at 13-14; Free Press FNPRM
Reply at 14; but see NAA FNPRM Comments at 14 (calling demands
for further studies a delay tactic).
579
Free Press FNPRM Comments at 13-14.
574
575

291
to study the effects of consolidation, including crossmedia consolidation, on smaller media owners, including
disadvantaged, female, and minority owners.580
195. WGAW argues that eliminating the newspaper/
radio cross-ownership restriction could encourage large
corporations to target radio stations for acquisition. 581
It warns that ownership diversity could decrease given
that radio remains one of the affordable entry points for
minorities and women into the communications industry.582 NHMC and UCC et al. likewise contend that the
radio cross-ownership rules help prevent consolidation
and promote opportunities for new entrants.583 In addition, NABOB argues that, if owners of large station
groups are allowed to purchase a newspaper, they will
strengthen their competitive advantage over minorityowned radio stations, which tend to own one or two stations, in attracting advertisers seeking a volume discount.584
196. As discussed above, we have declined to adopt
the potential rule changes that commenters argue could
lead to increased consolidation to the possible detriment
of minority- and women-owned businesses. Instead,
the rule we adopt generally prohibits common ownership of a broadcast station and daily newspaper in the
same local market but provides for a modest loosening
AFCP FNPRM Comments at 3-4, 8-9.
WGAW FNPRM Comments at 10-11; see also NHMC
FNPRM Comments at 12-13.
582
WGAW FNPRM Comments at 10-11; see also UCC et al.
FNPRM Comments at 41.
583
NHMC FNPRM Comments at 7, 12-13; UCC et al. FNPRM
Comments at 41-42.
584
NABOB FNPRM Comments at 13-15.
580
581

292
of the previous ban on cross-ownership through revisions to the rule’s geographic scope, creation of an exception for failed/failing entities, and adoption of a viewpoint diversity-based waiver standard. We do not believe that these modest revisions are likely to result in
significant new combinations, nor does the record establish that there is significant demand for newspaper/
broadcast combinations; indeed, the trend is in the opposite direction, as cross-owned combinations are being
severed.585 Moreover, as discussed in the FNPRM, we
find that the record fails to demonstrate that the modifications to the NBCO Rule that we adopt today are
likely to result in harm to minority and female ownership.586 Additionally, the study that Free Press proposes,
which would involve examining grandfathered combinations separately from waived combinations, would be unlikely to provide useful results given the small sample
size available for each of those categories (Free Press’s
own criticisms of the MMTC Cross-Ownership Study

See FNPRM, 29 FCC Rcd at 44556, para. 192; see also Gannett,
News Release, Gannett Completes Company Split to Move Forward
as the Nation’s Largest Local-to-National Media Company, http://
investors.gannett.com/press-release/gannett-completes-company-splitmove-forward-nations-largest-local-national-media (June 29, 2015);
Media General, News Release, Media General Completes Sale of
Newspapers to Berkshire Hathaway, http://www.mediageneral.com/
press/2012/june25_12.html (June 25, 2012) (announcing Media General’s sale of 63 daily and weekly newspapers to World Media Enterprises, Inc., a subsidiary of Berkshire Hathaway, Inc.).
586
See FNPRM, 29 FCC Rcd at 4455, para. 190. In addition, for
discussions regarding the potential impact of relaxation of the media
ownership limits on minority and female ownership, see paragraphs
73 through 81 (Local Television Ownership Rule) and 124 through
128 (Local Radio Ownership Rule).
585

293
are instructive in this regard).587 Nor is such a study
necessary in light of existing record evidence and the
modest revisions we adopt today.
197. Ultimately, while we adopt the revised NBCO
Rule based on our viewpoint diversity goal, and not with
the purpose of preserving or creating specific amounts
of minority and female ownership, we find that this rule
nevertheless helps to promote opportunities for diversity in broadcast television and radio ownership. The
rule helps to increase the likelihood of a variety of viewpoints and to preserve potential ownership opportunities for new voices.
D.

Radio/Television Cross-Ownership Rule
1.

Introduction

198. The Radio/Television Cross-Ownership Rule
prohibits an entity from owning more than two television stations and one radio station within the same market, unless the market meets the following size criteria.588 If at least 10 independently owned media voices
would remain in the market post-merger, an entity may
own up to two television stations and four radio stations.
If at least 20 independently owned media voices would
remain in the market post-merger, an entity may own
either: (1) two television stations and six radio stations, or (2) one television station and seven radio stations. In all instances, entities also must comply with
See Free Press MMTC Cross-Ownership Study Reply at 3
(“[T]he limited sample size and scope of the study render it unfit for
shaping policy.”).
587

47 CFR § 73.3555(c)(2). The rule applies only to commercial
stations.
588

294
the local radio and local television ownership limits.
The market is determined by looking at the service contours of the relevant stations.589 The rule specifies how
to count the number of media voices in a market, including television stations, radio stations, newspapers, and
cable systems.590
199. After consideration of the full record, including
the further comments received in response to the FNPRM,
we conclude that the Radio/Television Cross-Ownership
Rule continues to be necessary given that radio stations
and television stations both contribute in meaningful
ways to promote viewpoint diversity in local markets.
Our finding is consistent with the Commission’s decision
in the 2006 Quadrennial Review Order to retain the
rule, which the Third Circuit upheld.591 In the NPRM
and FNPRM, we asked whether the rule continues to
serve the public interest by preserving viewpoint diversity in local markets or whether the local radio and television ownership rules alone would protect our goals adequately.592 We have concluded that the rule continues
to play an independent role in serving the public interest
separate and apart from the local radio and television

Id. § 73.3555(c)(1).
Id. § 73.3555(c)(3)(i)-(iv).
591
2006 Quadrennial Review Order, 23 FCC Rcd at 2058-60, paras. 82-86 (retaining the rule “to provide protection for diversity
goals in local markets and thereby serve the public interest”); Prometheus II, 652 F.3d at 456-58 (finding that the Commission provided “a reasoned explanation” for its decision to retain the rule).
592
FNPRM, 29 FCC Rcd at 4460-61, 4465-67, paras. 200, 210-15;
NPRM, 26 FCC Rcd at 17533, 17537-38, paras. 119, 131-33 (tentatively concluding that the rule is not necessary based on the record
at that time).
589
590

295
ownership rules, which are designed primarily to promote competition. Accordingly, given the important
policy interests at stake, we will retain the cross-ownership rule in order to ensure that consumers continue to
have access to a multiplicity of media voices.
200. As detailed further below, we modify the rule
only to the extent necessary to update its references to
two analog television service contours that became obsolete with the transition to digital television service.
First, consistent with our update to the NBCO Rule, we
will use a television station’s digital PCC instead of its
analog Grade A contour when determining the rule’s
trigger.593 Second, we will use a television station’s digital NLSC instead of its analog Grade B contour when
counting the number of media voices remaining in the
market post-merger.594 We find that the benefits of retaining the rule (with minor contour modifications), outlined below, outweigh any burdens that may result from
adopting the rule.
201. Finally, although the NPRM and FNPRM inquired whether eliminating the Radio/Television Cross-

47 CFR § 73.625. Prior to this change, the Radio/Television
Cross-Ownership Rule was triggered when a television station’s
Grade A contour encompassed a radio station’s entire community of
license. Id. § 73.3555(c)(1)(i)-(ii).
594
Id. § 73.622(e). Previously, an independently owned television
station was counted as a media voice remaining in the market postmerger if it was in the same DMA as the television station(s) at issue
and had a Grade B signal contour that overlapped with the Grade B
signal contour of the television station(s) at issue. Id. § 73.3555(c)(3)(i).
593

296
Ownership Rule would affect minority and female broadcast ownership, 595 we have declined to eliminate the
rule. While we retain the rule in order to help promote
viewpoint diversity, we find that retaining the rule is
consistent with our goal of promoting minority and female ownership.
2.

Background

202. The Commission originally restricted crossownership of radio and television stations with “the
principal purpose” of promoting viewpoint diversity in
local markets, but with the expectation that competition
also would benefit.596 The original rule prohibited ownership of more than one broadcast station in a market.597
In 1999, the Commission modified the rule to its current
form.598 In the 2002 Biennial Review Order, the Commission replaced the rule, among others, with a set of
new cross-media limits that the Commission believed
could protect viewpoint diversity more effectively than
the existing rule.599 In Prometheus I, the Third Circuit
FNPRM, 29 FCC Rcd at 4469-71, paras. 222-25; NPRM, 26
FCC Rcd at 17538, para. 134.
596
Amendment of Sections 73.35, 73.240 and 73.636 of the Commission Rules Relating To Multiple Ownership of Standard, FM
and Television Broadcast Stations, First Report and Order, 22
F.C.C. 2d 306, 313, para. 25 (1970) (1970 First Report and Order).
597
Id. at 309, para. 11. The rule did not require divestiture of existing facilities. Id. It provided an exception allowing a licensee of
a Class IV AM station in a community with a population below 10,000
to obtain a license for an FM station in the same market. Id. at 309,
para. 14.
598
1999 Ownership Order, 14 FCC Rcd at 12903.
599
2002 Biennial Review Order, 18 FCC Rcd at 13775, para. 390.
As mentioned above, the cross-media limits were intended to replace
the NBCO Rule as well.
595

297
rejected and remanded the cross-media limits, leaving
in place the 1999 rule. 600 Subsequently, the Commission retained that rule in the 2006 Quadrennial Review
Order, finding that both radio and television contribute
to the “marketplace of ideas” and thus add to the diversity of viewpoints. 601 The Commission’s decision was
based in part on the concern that the local radio and television ownership rules were insufficient to protect viewpoint diversity because those rules are primarily intended to protect competition. 602 In Prometheus II,
the Third Circuit upheld the Commission’s decision to
retain the rule, finding that the Commission had provided a reasoned explanation for its conclusion that the
rule is necessary to protect viewpoint diversity.603
203. The Commission tentatively concluded in the
NPRM that, based on the record before it at the time,
the Radio/Television Cross-Ownership Rule is no longer
necessary to promote the public interest.604 Consistent
with past Commission findings, the NPRM tentatively
concluded that the rule does not promote competition or
localism.605 The NPRM also tentatively concluded that
the rule is no longer necessary to promote viewpoint diversity.606 It pointed to media ownership studies suggesting that radio/television cross-ownership does not

Prometheus I, 373 F.3d at 402-03.
2006 Quadrennial Review Order, 23 FCC Rcd at 2058-60, paras.
82-86.
602
Id. at 2059-60, para. 84.
603
Prometheus II, 652 F.3d at 456-57.
604
NPRM, 26 FCC Rcd at 17532-39, paras. 118-35.
605
Id. at 17535-37, paras. 123-30.
606
Id. at 17537-38, paras. 131-33.
600
601

298
diminish the amount of local news available to consumers or the diversity of such programming.607 In addition, the NPRM posited that repeal of the rule would not
lead to significant consolidation of broadcast facilities,
at least within the largest markets, and it tentatively
concluded that the local radio and television ownership
rules adequately protect the Commission’s policy
goals.608 The Commission sought comment on how the
rule’s repeal might affect minority and female broadcast
ownership. 609 Finally, it explored how to update the
rule, if retained, so that it would rely on digital, rather
than analog, television contours.610
204. In the FNPRM, we sought further comment on
the extent to which the Radio/Television Cross-Ownership
Rule promotes the public interest and asked commenters to submit any new evidence relevant to our consideration of the rule’s costs and benefits.611 We encouraged commenters to quantify, to the greatest extent possible, these costs and benefits and the costs and benefits
of any alternatives to the rule.612 We sought comment
on evidence in the record at that time suggesting that
radio stations are not primary outlets that contribute to
viewpoint diversity and that consumers rely on newspapers and television stations as their principal sources of
local news and information.613 We reiterated our tenta-

607
608
609
610
611
612
613

See id. at 17536-37, paras. 127-32.
Id. at 17533, 17535-36, 17537, paras. 119, 126-27, 131.
Id. at 17538, para. 134.
Id. at 17538-39, para. 135.
FNPRM, 29 FCC Rcd at 4460-61, 4465-67, paras. 200, 210-25.
Id. at 4460-6 1, para. 200.
Id. at 4465-68, paras. 210-17.

299
tive conclusions that the rule is not necessary to promote competition or to promote localism.614 We again
invited commenters to submit evidence bearing on our
view that repealing the rule would not have a significant
impact on minority and female broadcast ownership.615
205. Several commenters urge the Commission to
retain the Radio/Television Cross-Ownership Rule.616 UCC
et al. assert that further consolidation would disserve
the public interest because radio stations provide diverse programming as well as a means of market entry
for minority and women owners.617 According to UCC
et al., radio is a healthy, vibrant medium on which consumers rely for news and information.618 They note that,
according to the Radio Advertising Bureau, radio
reaches 91.5 percent of Americans over 12 years old on
a weekly basis, including 92 percent of African-American
consumers and 93 percent of Hispanic consumers.619 As
mentioned in the NBCO section above, UCC et al. cite
surveys finding that 33 percent of adults listened to
news on the radio “yesterday,” including 20 percent of
young adults aged 18 through 24, and that 51 percent of
people obtain local news on the radio at least once a
week.620 Also as discussed above, UCC et al. and NHMC
Id. at 4465, 4468-69, paras. 210, 218-21.
Id. at 4469-71, paras. 222-25.
616
SAG-AFTRA FNPRM Comments at 2, 3-4; UCC et al. FNPRM
Comments at 31; NABOB FNPRM Comments at 17.
617
UCC et al. FNPRM Comments at 32.
618
Id. at 35.
619
Id. at 33 (citing Radio Advertising Bureau, Why Radio, http://
www.rab.com/whyradio/index.cfm).
620
Id. at 34 (citing Laura Santhanam et al., Pew Research Center, Audio: Digital Drives Listening Experience, in The State of the News
614
615

300
claim that underserved communities in particular rely
on radio as a source of local news and information.621
UCC et al. dispute the notion that the Commission’s local radio and television ownership rules are sufficient to
constrain the harmful effects of consolidation.622 In addition, SAG-AFTRA claims that consolidation of broadcast station ownership reduces the number of jobs for
media professionals, which results in fewer independent
editorial perspectives in news coverage.623
206. In response, Morris discounts the findings that
UCC et al. cite, arguing that those studies also show that
radio has become a less important source of local news
in the past decade and that it places fourth behind television, newspapers, and the Internet as a breaking news
source.624 Morris additionally points to a study showing that most Latinos use two or three news media platforms on a typical weekday, underscoring that consumers have come to rely on an assortment of media to serve
their information needs and are exposed to a diverse

Media 2013 (2013), http://stateofthemedia.org/2013/audio-digitaldrives-listening-experience (Digital Drives Listening Experience);
How People Learn About Their Local Community at 35. UCC et al.
note that, by comparison, 29 percent of Pew respondents reported
reading a newspaper yesterday. However, that figure presumably
does not account for the shift in newspaper readership online.
621
See supra paras. 152, 156-157.
622
UCC et al. FNPRM Comments at 41-42.
623
SAG-AFTRA FNPRM Comments at 2, 3-4 (arguing that SSAs
exemplify this “pernicious impact”).
624
Morris FNPRM Reply at 3-4 (citing Digital Drives Listening
Experience at 1; How People Learn About Their Local Community
at 35).

301
range of viewpoints on any given topic.625 NAB argues
that the Radio/Television Cross-Ownership Rule should
be eliminated because it does not promote competition
or diversity and because it affirmatively harms localism.626 NAB also asserts that many Commission studies have concluded that cross-owned radio/television combinations produce greater amounts of news and public
affairs programming.627 In addition, NAB agrees with
the proposition that radio stations are not the primary
outlets contributing to viewpoint diversity.628
3.

Discussion

207. We conclude that the Radio/Television CrossOwnership Rule should be retained because, as discussed above in the context of the NBCO Rule, we find
that radio stations are meaningful contributors to viewpoint diversity within their communities. 629 We find
that broadcast radio and television stations are valuable
mediums for viewpoint expression such that losing a distinct voice through additional consolidation could disserve the public interest. We recognize that the current rule permits a degree of common ownership, especially in larger markets, but that latitude is not a sufficient reason to ignore the potential harms to viewpoint
diversity that may result from further consolidation.
Id. at 5 (citing Mark Hugo Lopez & Ana Gonzalez-Barrera, Pew
Research Center, A Growing Share of Latinos Get Their News in
English (2013), http://www.pewhispanic.org/2013/07/23/a-growingshare-of-latinos-get-their-news-in-english/ (Hispanic Trends Project)).
626
NAB FNPRM Comments at 85.
627
Id. at 86.
628
Id. at 86-87.
629
See supra paras. 150-159.
625

302
We believe that there is a significant risk of harm in potentially reducing the number of “diverse and antagonistic” information sources within a market.630 Therefore, we retain the Radio/Television Cross-Ownership
Rule, with modifications limited to updating its obsolete
references to analog television service contours, in order
to protect viewpoint diversity in local markets.631
208. Retaining the Rule. As discussed above in the
context of the NBCO Rule, while broadcast television
stations and newspapers may be the primary sources of
viewpoint diversity in local markets, the current record
shows that broadcast radio contributes to viewpoint diversity in meaningful ways.632 For example, by providing an over-the-air forum for live, interactive discussion
and expression of viewpoint on matters of local concern,
radio offers added opportunities for public participation
and civic engagement.633 Commenters that support retention of the cross-ownership restriction provide new
evidence of radio’s contributions to viewpoint diversity
with examples of radio programming containing local
news and public affairs content and with data showing

See Turner Broad. Sys., 512 U.S. 622, 663-64 (1994) (Turner I).
Consistent with our analysis in the NBCO context, we find that
Radio/Television Cross-Ownership Rule is not necessary to promote
competition or localism in local markets. In the FNPRM, we recognized that cross-ownership can create efficiencies that may result
in public interest benefits, such as localism. FNPRM, 29 FCC Rcd
at 4469, para. 221. However, there is no guarantee that owners will
use any gains produced by such efficiencies to benefit consumers, for
example, by increasing investment in local news production.
632
See supra paras. 150-159.
633
See supra para. 157.
630
631

303
that consumers regularly turn to radio for news and information.634 Moreover, platforms such as the Internet
or cable do not contribute significantly to viewpoint diversity in local markets and therefore do not meaningfully protect against the potential loss of viewpoint diversity that would result from increased radio/television
cross-ownership.635 We are cognizant of the fact that
consumers’ reliance on radio for local news and information has declined over time, as has the number of allnews commercial radio stations. 636 Nonetheless, we
find that it would be inconsistent with our goal of preserving viewpoint diversity to rescind the Radio/Television
Cross-Ownership Rule and allow greater consolidation
to diminish the viewpoint diversity available in local
markets.
209. As acknowledged in the FNPRM, the existing
rule already permits various levels of cross-ownership,
based on the size of the market.637 As the Commission

See, e.g., UCC et al. FNPRM Comments at 35-43, App. D (Examples of Editorial Programming on Minority-Owned Radio Stations); NHMC FNPRM Comments at 6-11.
635
See supra paras. 145-149.
636
See FNPRM, 29 FCC Rcd at 4467, para. 215 (“The number of
people who listen to some news on the radio dropped from 54 percent
to 34 percent during that period. Only 30 commercial radio stations
out of over 11,000 are all-news radio stations, a reduction from 50 in
the mid-1980s.”) (internal citations omitted). As discussed above,
while broadcast radio stations have historically been a less significant source of viewpoint diversity than newspapers and broadcast
television stations, the Commission has still been justified in its efforts to regulate cross-ownership. See supra para. 154.
637
We sought comment in the FNPRM on the extent to which the
rule constrains consolidation beyond what is permitted under the local television and local radio ownership rules and whether those rules
634

304
has found previously, however, the existing limits strike
an appropriate balance between the protection of viewpoint diversity and the potential public interest benefits
that could result from the efficiencies gained by common
ownership of radio and television stations in a local market.638 While relying solely on the local television and
local radio ownership rules, each designed to promote
competition, might result in only limited additional consolidation, there would still be a loss to viewpoint diversity if the Radio/Television Cross-Ownership Rule were
eliminated.639 As UCC et al. and NHMC show, a significant percentage of consumers, particularly in underserved communities, regularly obtain at least some of
their local news and information from radio.640 And although we continue to find that, in general, newspapers
and television stations are the main sources that consumers turn to for local news and information, and the
Commission previously has held that radio generally
plays a lesser role in contributing to viewpoint diversity,641 we nevertheless conclude that radio contributes
would be sufficient to protect our policy goals absent the Radio/ Television Cross-Ownership Rule. FNPRM, 29 FCC Rcd at 4467-68,
paras. 216-17; see also NPRM, 26 FCC Rcd at 17535-36, para. 126.
We tentatively concluded that eliminating the rule would have no effect on the number of television stations an entity could own in a
market and would permit the acquisition of only one or two additional radio stations in large markets. FNPRM, 29 FCC Rcd at
4467-68, paras. 216-17; see also NPRM, 26 FCC Rcd at 17535-36,
para. 126.
638
2006 Quadrennial Review Order, 23 FCC Rcd at 2059, para.
83.
639
See UCC et al. FNPRM Comments at 41-42.
640
See, e.g., id. at 35-43; NHMC FNPRM Comments at 6-11.
641
See, e.g., FNPRM, 29 FCC Rcd at 4436-37, para. 147.

305
meaningfully to viewpoint diversity. The record shows
that broadcast television and radio are both important
sources of viewpoint diversity in local markets; accordingly, we find that the public interest is best served by
retaining the existing rule in order to protect viewpoint
diversity in these markets.642
210. Finally, the Commission asked in the NPRM
how the results of Media Ownership Studies 8A and
8B, which found little to no correlation between radio/
television cross-ownership and viewpoint diversity, should
inform its analysis.643 As we explained in the FNPRM,
Media Ownership Study 8A analyzes the impact of radio/television cross-ownership on viewpoint diversity
available in local markets by examining how consumers
react to content.644 Media Ownership Study 8B examines the impact of media ownership, including radio/ television cross-ownership, on the amount of programming
provided in television news programs in three categories: politics, local programming, and diversity in coverage of news topics.645 We did not receive meaningful

The FNPRM referenced Prometheus I for the proposition that
“mergers involving media that are not significant sources of local
news do not pose a serious threat to viewpoint diversity.” Id. at
4465, para. 212 n.629 (citing Prometheus I, 373 F.3d at 404-05). The
cited discussion in Prometheus I does not contradict our conclusion
that radio’s contributions to viewpoint diversity are significant enough
to warrant the rule’s retention. Rather, Prometheus I supports our
current view that cable and satellite television and the Internet are
not significant sources of independently produced local news and information. Prometheus I, 373 F.3d at 404-08.
643
NPRM, 26 FCC Rcd at 17537, para. 132.
644
FNPRM, 29 FCC Rcd at 4461, para. 201 n.598.
645
Id.
642

306
comment on how the results of these studies should inform our analysis. Based on our review, these studies
provide some evidence that common ownership does not
always limit viewpoint diversity.646 We find, however,
that the conclusions in these studies are too limited to
serve as a basis for a rule change.647 Ultimately, while
the studies do present interesting findings based on indirect means of measuring viewpoint diversity, we do
not find that the results—standing in contrast to the
record evidence demonstrating the importance of broadcast radio and television stations to viewpoint diversity
in local markets-justify elimination of the Radio/Television Cross-Ownership Rule.

The Commission already has recognized that there is some evidence that cross-ownership does not always limit viewpoint diversity. However, the Commission also has found that the possibility
of a connection between ownership and viewpoint is not disproved by
evidence that a connection is not always present. Indeed, the Commission has noted previously the existence of ample evidence that
ownership can affect viewpoint. As noted in the context of the NBCO
Rule, we believe the best way to promote viewpoint diversity is by
maximizing the number of independently owned stations in a market, not by relying on a hope or expectation that cross-owned properties will maintain distinct voices. See supra para. 144.
647
The authors of Media Ownership Study 8A caution that their
evidence “does not provide any conclusive basis for policymaking,”
that they do not make “any claims of causality,” and that their findings are based on limited data. Media Ownership Study 8A, as revised, at 22-23. The authors of Media Ownership Study 8B, while
forming more detailed conclusions than in Media Ownership Study
8A, concede that they were “forced to rely on limited variation in
many policy variables, a constraint that leads to less precise estimates, making it difficult to identify the effects of interest.” Media
Ownership Study 8B, as revised, at 18-19.
646

307
211. Contour Modifications. In the NPRM, the
Commission sought comment on how the Radio/Television
Cross-Ownership Rule could be modified to account for
the fact that the analog broadcast television contours
upon which the rule relies became obsolete with the
transition to digital television service.648 The Commission observed that the digital NLSC approximates the
Grade B contour but that the Grade A contour does not
have a digital equivalent.649 Given that we are retaining the rule and did not receive any comments on this
issue in the context of this rule, we will draw from the
relevant discussions and comments in the context of
other rules to make the modifications necessary to update the Radio/Television Cross-Ownership Rule.
212. The first of these modifications updates the television contour used to determine when the rule is triggered. The digital PCC, as defined in Section 73.625 of
the Commission’s rules, will replace the analog Grade A
contour when assessing whether a television station’s
contour encompasses a radio station’s community of license.”650 This change is consistent with our replacement of the Grade A contour for purposes of the NBCO
Rule.651 Additionally, as we stated in the FNPRM, a
television station’s PCC ensures reliable service for the

648
649
650

NPRM, 26 FCC Rcd at 17538-39, para. 135.
Id.
See 47 CFR § 73.625. See Appendix A for the revised rule sec-

tion.
651

See supra paras. 168-169.

308
community of license, is already defined in the Commission’s rules, and can be verified easily in the event of a
dispute.652
213. The second modification updates the use of a
television station’s Grade B contour for purposes of determining how many media voices would remain in a
market following a station acquisition. A television station’s digital NLSC, the digital approximate of the Grade
B contour, will replace that analog measurement.653 Therefore, we will count as media voices those independently
owned and operating full-power broadcast television
stations within the DMA of the television station’s (or
stations’) community (or communities) of license that
have digital NLSCs that overlap with the digital
NLSC(s) of the television station(s) at issue. 654 This
digital NLSC substitution is consistent with our replacement of the Grade B contour in the Local Television Ownership Rule.655
214. Grandfathering. Due to the contour modifications we adopt herein, there may be circumstances in
which an existing combination now will be impermissible
under the revised rule.656 For example, because the PCC
is slightly larger than the previous analog Grade A contour, combinations that previously were permissible under the rule may now violate the ownership limits. Con-

FNPRM, 29 FCC Rcd at 4442, para. 160.
See NPRM, 26 FCC Rcd at 17538-39, para. 135.
654
See 47 CFR § 73.3555(c)(3)(i).
655
See supra paras. 32-33.
656
As noted above, we did not receive any comments on this issue.
Supra para. 211.
652
653

309
sistent with our approach in adopting technical modifications to the Local Television Ownership Rule and the
NBCO Rule, we will grandfather any existing combinations, so long as they are held by their current owners,
in order to avoid imposing the hardship of divestiture on
owners previously compliant with the rules. However,
subsequent purchasers must either comply with the rule
in effect at that time or obtain a waiver.657
215. Minority and Female Ownership.
The
FNPRM and NPRM asked whether repealing the Radio/
Television Cross-Ownership Rule would have an effect
on minority and female broadcast ownership.658 In the
FNPRM, we noted that we did not believe that there
was evidence in the record to suggest that eliminating
the rule would harm minority and female ownership or
that the rule has protected or promoted minority or female ownership.659 In response to the FNPRM, UCC
et al. argue that permitting further consolidation would
disserve the public interest because radio provides one

Thus, stations that are subject to license assignment or transfer
of control applications will be required to comply with the applicable
rules, except that grandfathering will continue to apply to stations
that are subject to pro forma changes in ownership and involuntary
changes of ownership due to death or legal disability of the licensee.
See supra notes 78, 561.
658
FNPRM, 29 FCC Rcd at 4469-71, paras. 222-25; NPRM, 26
FCC Rcd at 17538, para. 134.
659
FNPRM, 29 FCC Rcd at 4469-70, para. 222. For discussions
regarding the potential impact of relaxation of the media ownership
limits on minority and female ownership, see paragraphs 73 through
81 (Local Television Ownership Rule) and 124 through 128 (Local
Radio Ownership Rule).
657

310
of the few entry points into media ownership for minorities and women.660 No commenters dispute that radio
is a key entry point for minority and female ownership
in the broadcast industry. While we retain the existing
Radio/Television Cross-Ownership Rule (with minor contour modifications) based on our viewpoint diversity
goal, and not with the purpose of preserving or creating
specific amounts of minority and female ownership, we
find that retaining the existing rule nevertheless helps
to promote opportunities for diversity in broadcast television and radio ownership. The rule helps to increase
the likelihood of a variety of viewpoints and to preserve
ownership opportunities for new entrants.
E.

Dual Network Rule
1.

Introduction

216. Based on the record compiled in the 2010 and
2014 Quadrennial Review proceedings, we find that the
Dual Network Rule, which permits common ownership
of multiple broadcast networks but prohibits a merger
between or among the “top-four” networks (specifically,
ABC, CBS, Fox, and NBC),661 continues to be necessary

UCC et al. FNPRM Comments at 41-43 (arguing that radio stations owned by minorities and women promote diversity).
661
The rule provides that “[a] television broadcast station may affiliate with a person or entity that maintains two or more networks
of television broadcast stations unless such dual or multiple networks
are composed of two or more persons or entities that, on February
8, 1996, were ‘networks’ as defined in [Section] 73.3613(a)(1) of the
Commission’s regulations. . . . ” 47 CFR § 73.658(g) (emphasis
in original).
660

311
to promote competition and localism and should be retained without modification.662 We find that, in comparison to other broadcast and cable networks, the top-four
broadcast television networks have a distinctive ability
to attract larger primetime audiences on a regular basis,
which enables the top-four networks to earn higher
rates from those advertisers seeking to reach large, national mass audiences consistently. By reducing the
number of choices available to such advertisers, a combination among top-four broadcast networks could substantially lessen competition and lead the networks to
pay less attention to viewer demand for innovative, highquality programming. We also find that the Dual Network Rule remains necessary to preserve the ability of
affiliates to influence network decisions in a manner that
best serves the interests of their local communities,
thereby maintaining the balance of bargaining power
between the top-four networks and their affiliates. We
conclude that the benefits of retaining the rule outweigh
any potential burdens.
2.

Background

217. In the FNPRM, we tentatively concluded that
the Dual Network Rule should be retained in order to
promote competition and localism.663 We sought comment on these tentative findings and invited comment-

See 2006 Quadrennial Review Order, 23 FCC Rcd at 2082, para.
139; 2002 Biennial Review Order, 18 FCC Rcd at 13858, para. 621.
The Third Circuit upheld the Commission’s decision in the 2006 Quadrennial Review Order to retain the dual network rule to promote
competition and localism. Prometheus II, 652 F.3d at 463-64.
663
FNRPM, 29 FCC Rcd at 4471, para. 226.
662

312
ers to augment the record with any new or different evidence, data, or information relevant to our consideration of the rule.664
218. No new comments were filed in response to the
FNPRM advocating the repeal of the Dual Network
Rule. However, CBS and Fox resubmitted their earlier comments filed in response to the NPRM, in which
CBS and Fox each argued that the Dual Network Rule
should be repealed.665 According to CBS, developments
in the television marketplace have undermined the original rationales for the rule, and the Commission is no
longer justified in singling out the top-four broadcast
networks for disparate treatment vis-á-vis cable networks. 666 CBS stated that in recent years cable networks have modified their programming lineups to include more programming of the sort that, in the past,
has aired primarily on broadcast networks (e.g., original
scripted dramas and sitcoms, national and local news,
and sports programming). 667 CBS noted that, under
the Commission’s rules, “one entity can own an unlimited number of these cable networks . . . but cannot
own even two of the four broadcast networks named in
the Dual Network Rule, even if those networks are not
the most-watched.”668 Fox questions the basis for the

Id. at 4473, para. 232.
CBS FNPRM Comments, Attach., CBS NPRM Comments at
16-18; Fox Entertainment Group, Inc. and Fox Television Holdings,
Inc. FNPRM Comments, Attach. (Fox); Fox NPRM Comments at 3,
19; Fox FNPRM Comments, Attach., Fox NPRM Reply at 16-17.
666
CBS NPRM Comments at 16-18.
667
Id. at 17.
668
Id.
664
665

313
Dual Network Rule in today’s media environment, asserting that a merger between two networks would not
harm localism, diversity, or, absent a violation of antitrust
laws, competition.669
219. By contrast, several parties submitted comments in response to the FNPRM supporting our tentative conclusion to retain the Dual Network Rule.670 WGAW
states that the rule remains necessary to promote competition in the market for primetime programming. 671
WGAW notes that broadcast networks are increasingly
airing programming produced by affiliated studios, with
content produced by an affiliated studio comprising between 45 percent and 59 percent of the series airing on
each of the top-four networks during the 2012-2013 season. 672 WGAW argues that any merger between the
top national networks would place more content under
common control, which would harm competition and
limit consumer choice.673
220. Furthermore, the CBS Television Network Affiliates Association (CBS Affiliates) and the NBC Television Affiliates (NBC Affiliates) argue that the Dual

Fox NPRM Reply at 16-17.
CBS Television Network Affiliates FNPRM Comments at 1-3
(CBS Affiliates); NBC Television Affiliates FNPRM Comments at
1-3 (NBC Affiliates); WGAW FNPRM Comments at 11-13; NABOB
FNPRM Comments at 17; Communications Workers of America
FNPRM Comments at 4 (CWA).
671
WGAW FNPRM Comments at 11-12.
672
Id. According to WGAW, the CW, co-owned by CBS and
Warner Brothers, owned 75 percent of the series airing on the network during the 2012-2013 season. Id.
673
Id. at 12.
669
670

314
Network Rule remains necessary to promote localism.674
They argue that the rule maintains the balance between
the networks and their affiliates, which in turn protects
the independent discretion of local affiliates to make
programming decisions.675 These commenters state that
local network affiliates promote localism through the
provision of complementary local programming, such as
local news, sports, weather, and public information programming.676 According to these commenters, the loss
of an independent top-four network would reduce the
bargaining power that local affiliates have with the networks, which would harm the affiliates’ ability to serve
their local markets.677 The CBS Affiliates are also concerned that consolidation between top-four networks
could harm competition by discouraging networks from
bidding on or investing in more regional and national
sports programs, which may in turn result in such programming migrating away from free, over-the-air television.678 Furthermore, the NBC Affiliates assert that
the potential negative impacts of a top-four network
merger would be exacerbated in light of the recent horizontal and vertical integration involving MVPDs and
content providers.679

CBS Affiliates FNPRM Comments at 1-2;
FNPRM Comments at 1-2.
675
CBS Affiliates FNPRM Comments at 1-2;
FNPRM Comments at 1-2.
676
CBS Affiliates FNPRM Comments at 2;
FNPRM Comments at 1-2.
677
CBS Affiliates FNPRM Comments at 2-3;
FNPRM Comments at 2.
678
CBS Affiliates FNPRM Comments at 1.
679
NBC Affiliates FNPRM Comments at 3.
674

NBC Affiliates
NBC Affiliates
NBC Affiliates
NBC Affiliates

315
3.

Discussion

221. Competition. We conclude that the Dual Network Rule continues to be necessary in the public interest to foster competition in the provision of primetime
entertainment programming and the sale of national advertising time. As discussed in more detail below, we
find that the primetime entertainment programming
supplied by the top-four broadcast networks is a distinct
product and that the provision of this programming
could be restricted if two or more of the top-four networks were to merge. We continue to believe that at
present these four major networks continue to constitute a “strategic group” in the national advertising marketplace and compete largely among themselves for advertisers that seek to reach comparatively large, national audiences. Accordingly, we find that a top-four
network merger would substantially lessen competition
for advertising dollars in the national advertising marketplace, which would, in turn, reduce incentives for the
networks to compete with each other for viewers by
providing innovative, high-quality programming. Based
on their distinctive characteristics relative to other broadcast and cable networks, we conclude that the top-four
broadcast networks continue to serve a unique role in
the provision of primetime entertainment programming
and the sale of national advertising time that justifies
the retention of this rule specific to them.
222. We find that the top-four broadcast networks
continue to attract primetime audiences that are more
consistent and larger than those achieved by other
broadcast or cable networks, as measured both by the
audience size for individual programs and by the audience size for each network as a whole. The primetime

316
entertainment programming supplied by the top-four
broadcast networks generally is designed to appeal to a
mass audience, and financing such programming on the
scale needed for a consistent primetime lineup, in turn,
requires investment of substantial revenues that only a
consistently large, mass audience can provide. Thus,
the primetime entertainment programming that the
top-four networks provide to their affiliated local stations is intended to attract on a regular basis both mass
audiences and the advertisers that want to reach them.
This is in contrast to other broadcast networks, and
many cable networks, which tend to target more specialized, niche audiences.680
223. We note that in recent years some cable networks may have modified their primetime lineups to
more closely resemble those of broadcast networks 681
and that some online video providers have started offering original programming that may also attract sizable
audiences. Nonetheless, at this time we do not believe
For example, Univision targets Hispanic viewers, and the CW
network targets women between the ages of 18 and 34. See Univision Communications Inc., Univision—The #1 place to reach Hispanic America, http://corporate.univision.com/ (last visited June 8, 2016);
Warner Bros., The CW Television Network—WarnerBros.com—
The Studio, http://www.warnerbros.com/studio/divisions/television/cw-television-network (last visited June 8, 2016). Due to their
targeted approaches, programming on these networks attracts
smaller audiences than the top-four networks. For example, during
the 2014-2015 broadcast television season, the highest-rated broadcast program that aired on a non-top-four network was The Flash on
the CW, which ranked 109th among primetime programs airing on
broadcast networks during the 2014-2015 season. FCC staff analysis of broadcast television ratings data from Nielsen. Ratings data
are for total viewers (live plus DVR viewing within seven days).
681
CBS NPRM Comments at 17.
680

317
that cable networks or online providers have assembled
a platform of programming that is consistently of the
same broad appeal and audience share, on the whole, as
the primetime entertainment programming provided by
the top-four broadcast networks.
224. Although, as discussed further below, certain
individual cable primetime entertainment programs have
managed to achieve audiences of a size that is comparable to those achieved regularly by their broadcast network counterparts,682 we continue to believe that the ability of the top-four broadcast networks to attract consistent, large primetime audiences remains unmatched by
that of any other broadcast or cable network. In the
FNPRM, we noted that, while the highest-rated cable
primetime entertainment programs in 2011 attracted
between 8 and 9 million viewers at most, there were typically a dozen or more primetime entertainment programs on the top-four broadcast networks that attracted
more than 10 million viewers during any given week of
the 2010-2011 television season.683 We noted that the
highest-rated broadcast programs frequently attracted
more than 20 million viewers, based on Nielsen data.684
225. More recent data show that, while certain cable
networks have continued to air a discrete number of individual programs or episodes that have become increasingly capable of attracting primetime audiences on par

See infra paras. 226-227.
See FNPRM, 29 FCC Rcd at 4474-75, para. 234 & nn.696-97 (citing FCC staff analysis of week-by-week television ratings data from
Nielsen, as provided on the website TV by the Numbers).
684
Id.
682
683

318
with, or even greater than, the top-four broadcast networks, no one cable network—let alone several—has
been able to consistently deliver such audiences beyond
individual programs or episodes. For instance, during
2015, The Walking Dead on AMC attracted between 12
and 16 million primetime viewers per episode, placing it
among the 20 most-watched primetime entertainment
programs on broadcast and cable during the weeks that
it aired on the cable network.685 Other popular primetime entertainment programs on cable networks, such
as Game of Thrones on HBO and Fear the Walking
Dead on AMC, attracted between 7 and 11 million viewers for their highest-rated episodes and placed among
the 20 most-watched primetime entertainment programs
on broadcast and cable during some weeks but not others.686 Besides these few individual series or episodes,
however, the highest-rated primetime entertainment
programs on cable networks attracted, at most, between
6 and 7 million viewers, with one exception.687 By contrast, for most of 2015 there were, at minimum, a
FCC staff analysis of week-by-week broadcast and cable television ratings data from Nielsen. The staff ’s review excluded TV news
magazines and any series with fewer than four episodes (e.g., individual sports events, news events, movies, and awards shows). Ratings data are for total viewers (live plus same-day DVR viewing).
685

The Walking Dead was consistently the highest-rated primetime entertainment program on cable during the weeks that it aired in 2015,
attracting more than two times the number of viewers attracted by
the second-highest rated primetime entertainment program shown
on a cable network during the same week. During 2015, the program’s highest-rated episode attracted approximately 15.78 million
viewers during the week of March 23-29, 2015. Id.
686
Id.
687
Id. One episode of Talking Dead on AMC attracted approximately 7.53 million viewers during the week of March 23-29, 2015.

319
dozen—and in a number of weeks around two dozen or
so—primetime entertainment programs on the top-four
broadcast networks that attracted more than 7 million
viewers, with some of the highest-rated episodes attracting between 18 and 26 million viewers.688 Moreover, during any given week in 2015, primetime entertainment programs on the top-four broadcast networks
accounted for nearly all—if not all—of the 20 most
watched primetime entertainment programs on broadcast and cable networks, based on total viewership. 689
These data indicate that primetime entertainment programs on the top-four broadcast networks have continued to attract audiences that are larger and more consistent than those attracted by primetime entertainment programs on other broadcast and cable networks.
226. This conclusion is also supported by data on the
average primetime audience size of individual broadcast
and cable networks, as measured at the network level.
Even though an increasing number of individual cable
primetime entertainment programs or episodes have
achieved audiences of a similar size to their broadcast network counterparts, on average the primetime audience
size for each of the top-four broadcast networks has remained significantly larger than the audience size for
even the most popular cable networks. In 2011, the average primetime audience for a top-four broadcast network was more than three times larger than the average

That was the highest-rated episode of the program, however, and no
other episodes of the program attracted more than 7 million viewers
in 2015. Id.
688
Id.
689
Id.

320
primetime audience of the highest-rated non-sports cable networks and more than five times larger than that
of the next-highest rated English-language broadcast
network, based on Commission staff analysis of data from
SNL Kagan.690 Based on staff analysis of more recent

In 2011, the top-four broadcast networks had an average primetime audience of approximately 5.11 million households, compared to
approximately 1.70 million for the four highest-rated non-sports cable networks (USA, Disney Channel, TNT, and Nickelodeon/Nick At
Nite). Staff calculated an average for the top-four networks by adding together the average primetime audience of each of the four networks in the group and then dividing the total by four. Univision, a
Spanish-language network, was the fifth-highest rated broadcast
network, with an average primetime audience of approximately 1.92
million households during 2011, or less than half the size of the average primetime audience of the top-four broadcast networks and less
than half the size of the average primetime audience of the lowestrated top-four broadcast network, which was NBC at approximately
4.26 million. The next-highest rated English-language broadcast
network was the CW, which ranked sixth overall, with an average
primetime audience of approximately 0.94 million households. See
SNL Kagan, TV Network Summary, Broadcast Networks by Average Prime Time TVHH Delivery (000) as of June 8, 2016 (SNL Kagan Broadcast Networks by Average Prime Time TVHH Delivery
June 8, 2016); SNL Kagan, TV Network Summary, Basic Cable Networks by Average Prime Time TVHH Delivery (000) as of June 8,
2016 (SNL Kagan Basic Cable Networks by Average Prime Time
TVHH Delivery June 8, 2016). We find that it is appropriate, for
purposes of the Dual Network Rule, to exclude all-sports networks,
such as ESPN, from our review of network primetime viewership
data, advertising prices, and advertising revenue, because we believe that the focus of these networks (i.e., live sports and other
sports-related programming) distinguishes them from other broadcast and cable networks. Even if we included all-sports networks in
our review, however, these networks would not have a significant
impact on our analysis such that we would reach different conclusions.
690

321
data from 2014, we find that there continues to be a significant gap in size between the average primetime audience of the top-four broadcast networks and that of
other broadcast or cable networks. During 2014, the
average primetime audience for a top-four broadcast
network was approximately three and a half times larger
than the average primetime audience for the highestrated non-sports cable networks and nearly four times
larger than that of the next-highest rated English-language broadcast network, based on staff analysis of data
from SNL Kagan.691 Accordingly, we conclude that the
691
See SNL Kagan Broadcast Networks by Average Prime Time
TVHH Delivery June 8, 2016; SNL Kagan Basic Cable Networks by
Average Prime Time TVHH Delivery June 8, 2016. In 2014, the
top-four broadcast networks had an average primetime audience of
approximately 4.69 million households, compared to approximately
1.34 million for the four highest-rated non-sports cable networks
(USA, Disney Channel, TNT, and TBS). Staff calculated an average for the top-four networks by adding together the average primetime audience of each of the four networks in the group and then
dividing the total by four. The fifth-highest rated broadcast network, Univision, had an average primetime audience of 1.64 million
households, or less than half the size of the average primetime audience of the top-four broadcast networks and less than half the size
of the average primetime audience of the lowest-rated top-four broadcast network, which was Fox at approximately 3.45 million. The
next-highest rated English-language broadcast network was the CW,
which ranked sixth overall, with an average primetime audience of
approximately 0.99 million households.

Another way to examine the difference in ratings between the topfour broadcast networks and cable networks is to look at the gap between the lowest-rated top-four broadcast network and the highestrated non-sports cable network, which also increased between 2011
to 2014. In 2011, the average primetime audience of the lowestrated top-four broadcast network (NBC) was nearly 4.26 million
households, as stated above, while the average primetime audience

322
primetime entertainment programming provided by the
top-four broadcast networks continues to be a distinct
product capable of attracting large audiences of a size
that individual cable networks cannot consistently replicate, despite the ability of a few primetime cable network programs to achieve similarly large audiences on
an individual basis.
227. In addition, there continues to be a wide disparity in the advertising rates earned by the top-four
broadcast networks and the advertising rates charged
by other broadcast and cable networks, which further
indicates that the top-four broadcast networks are distinct from other networks. In the NPRM, the Commission noted that based on data for 2009, the top-four
broadcast networks generally earned higher advertising
rates than cable networks,692 and we find that this disparity continues to exist, as shown by more recent data.
For instance, based on staff analysis of SNL Kagan data
for 2011, the average advertising rate among the topfour broadcast networks, as estimated in cost per thousand views (referred to as cost per mille or CPM), was
of the highest-rated non-sports cable network (USA Network, which
is owned by NBCUniversal) was approximately 2.15 million households, or approximately half the size of NBC’s audience. In 2014,
the average primetime audience for the lowest-rated top-four broadcast network (Fox) was approximately 3.45 million households, as
stated above, while the average primetime audience of the highestrated non-sports cable network (USA Network) was approximately
1.42 million, or less than half the size of Fox’s audience. SNL Kagan Broadcast Networks by Average Prime Time TVHH Delivery
June 8, 2016; SNL Kagan Basic Cable Networks by Average Prime
Time TVHH Delivery June 8, 2016.
692
NPRM, 26 FCC Rcd at 17542-43, para. 143 (citing FCC staff
analysis of data from SNL Kagan).

323
approximately $19.19.693 By contrast, the four highest
CPMs among non-sports cable networks for the same
period (MTV, Bravo, Discovery Channel, and TBS) had
an average of approximately $10.95, or approximately 43
percent less than that of the top-four broadcast networks.694 This gap grew slightly between 2011 and 2014,
when the average of the four highest CPMs among nonsports cable networks (MTV, Bravo, Discovery Channel,
and Food Network) was approximately $12.43,695 or approximately 44 percent less than the average CPM among
the top-four broadcast networks, which was approximately $22.31.696
228. Data on net advertising revenues provide further indication that the top-four broadcast networks are
particularly appealing to advertisers seeking consistent,
693
FNPRM, 29 FCC Rcd at 4476, para. 236 (citing FCC staff
analysis of data from SNL Kagan).
694
Id.
695
See SNL Kagan, TV Network Summary, Basic Cable Networks
by Calculated CPM ($) as of June 8, 2016 (SNL Kagan Basic Cable
Networks by Calculated CPM June 8, 2016).
696
See SNL Kagan, TV Network Summary, Broadcast Networks
by Calculated CPM ($) as of June 8, 2016 (SNL Kagan Broadcast
Networks by Calculated CPM June 8, 2016). CPM data for other
broadcast networks is either not available, or it is not comparable
because of their more limited schedules. For instance, the CW had
a much higher calculated CPM of $31.77, but its programming schedule did not include same amount of programming as the major broadcast and cable networks. SNL Kagan Broadcast Networks by Calculated CPM June 8, 2016; CBS Corporation, The CW (The CW),
http://www.cbscorporation.com/portfolio/the-cw/ (last visited June
8, 2016). The CW delivers a total of 20 hours of programming a
week, half of which is original primetime entertainment programming. The CW. Advertising rates tend to be higher during primetime.

324
large national audiences. As noted in the FNPRM, in
2011, the top-four broadcast networks averaged approximately $3.17 billion in net advertising revenues, based
on Commission staff analysis of data from SNL Kagan.697 By contrast, the four non-sports cable networks
with the highest net advertising revenue totals (Nickelodeon, USA Network, TNT, and MTV) averaged just
under $1 billion in estimated net advertising revenues,
or less than a third of the average amount that the topfour broadcast networks are estimated to have received.698 This gap between the net advertising revenue generated by the highest-earning cable networks
and those generated by the top-four broadcast networks
persists. In 2014, the four non-sports cable networks
with the highest net advertising revenue totals (TNT,
USA, TBS, and Nickelodeon/Nick At Nite) averaged approximately $1.07 billion in estimated net advertising
revenues, or less than a third of the average amount that
the top-four broadcast networks are estimated to have
FNPRM, 29 FCC Rcd at 4476, para. 236 (citing FCC staff analysis of data from SNL Kagan). Fox had the lowest net advertising
revenues among the top-four broadcast networks in 2011, with approximately $2.72 billion. We note that Fox has a more limited schedule of programming, which reduces its total advertising revenues.
Meanwhile, Univision ranked fifth among broadcast networks, with
approximately $0.71 billion in net advertising revenues, and the CW
network ranked sixth, with approximately $0.44 billion. Id. at 4476,
n.706. As we note above, the CW delivers a total of 20 hours of programming a week, half of which is original primetime entertainment
programming, and advertising rates tend to be higher during primetime.
698
See FNPRM, 29 FCC Rcd at 4476, para. 236 (citing FCC staff
analysis of data from SNL Kagan). Nickelodeon had the highest
net advertising revenues among non-sports cable networks, with approximately $1.09 billion.
697

325
received, which is $3.46 billion.699 These four cable networks are projected to have received the highest net advertising revenues in 2015 as well, averaging approximately $1.04 billion in estimated net advertising revenues, or less than a third of the average amount that the
top-four broadcast networks are projected to have received, which is $3.31 billion.700 We find that these data
further support our conclusion that the top-four broadcast networks comprise a strategic group in the national
advertising marketplace and compete largely among

699
See SNL Kagan, TV Network Summary, Broadcast Networks
by Net Advertising Revenue ($000) as of June 8, 2016 (SNL Kagan
Broadcast Networks by Net Advertising Revenue June 8, 2016);
SNL Kagan, TV Network Summary, Basic Cable Networks by Net
Advertising Revenue ($000) as of June 8, 2016 (SNL Kagan Cable
Networks by Net Advertising Revenue June 8, 2016). As in 2011,
Fox had the lowest net advertising revenues in 2014, with approximately $2.72 billion in estimated net advertising revenues. Again,
we note that Fox has a more limited schedule of programming, which
reduces its total advertising revenues. Additionally, in 2014 Univision ranked fifth among broadcast networks, with approximately
$0.78 billion in estimated net advertising revenues; Telemundo
ranked sixth, with approximately $0.45 billion; and the CW network
ranked seventh, with approximately $0.40 billion. See SNL Kagan
Broadcast Networks by Net Advertising Revenue June 8, 2016. As
we note above, the CW delivers a total of 20 hours of programming
a week, half of which is original primetime entertainment programming, and advertising rates tend to be higher during primetime.
700
See SNL Kagan Broadcast Networks by Net Advertising Revenue June 8, 2016; SNL Kagan Cable Networks by Net Advertising
Revenue June 8, 2016. As in 2014, Fox ranked fourth among broadcast networks, with approximately $2.51 billion in estimated net advertising revenues; Univision ranked fifth, with approximately $0.73
billion; Telemundo ranked sixth, with approximately $0.48 billion;
and the CW ranked seventh, with approximately $0.40 billion.

326
themselves for advertisers that seek to reach large, national mass audiences consistently.
229. Therefore, we retain the existing Dual Network
Rule without modification in order to promote competition in the sale of national advertising time. We also
agree with WGAW that the rule remains necessary to
promote competition in the marketplace for primetime
programming.701 Specifically, we find that the top-four
broadcast networks have a distinctive ability to attract,
on a regular basis, larger primetime audiences than
other broadcast and cable networks, which enables them
to earn higher rates from those advertisers that are willing to pay a premium for such audiences. Thus, a combination between two top-four broadcast networks would
reduce the choices available to advertisers seeking large,
national audiences, which could substantially lessen competition and lead the networks to pay less attention to
viewer demand for innovative, high-quality program-

WGAW FNPRM Comments at 11-13; WGAW NPRM Comments
at 6-7. WGAW also proposed that the Commission consider other
measures, in addition to the Dual Network Rule, to limit the amount
of primetime entertainment programming owned by the top-four
networks. WGAW NPRM Comments at 9. WGAW stated that, as
a result of the repeal of the Commission’s former financial interest
and syndication (fin/syn) rules, the top-four broadcast networks now
own a majority of the primetime entertainment programming that
they provide to their affiliates. Id. at 6-8. The Commission’s former fin/syn rules, which limited the amount of programming in primetime and syndication that the broadcast networks could own, were repealed in the mid-1990s. Review of the Syndication and Financial
Interest Rules, Report and Order, 10 FCC Rcd 12165 (1995). We
decline to revisit the Commission’s decision to eliminate the fin/syn
rules or to consider implementing a similar set of restrictions in the
context of the 2014 Quadrennial Review.
701

327
ming. We therefore conclude that the primetime entertainment programming provided by the top-four broadcast networks and national television advertising time
are each distinct products—the availability, price, and
quality of which could be restricted, to the detriment of
consumers, if two of the top-four networks were permitted to merge.702 Accordingly, we conclude that the Dual
Network Rule remains necessary to foster competition
in the sale of national television advertising time and the
provision of primetime entertainment programming.703

702
In addition, the Commission sought comment in the NPRM on
the role of the top-four broadcast networks in the provision of national
news content. NPRM 26 FCC Rcd at 17544-45, para. 145. Although
no comments were filed on this issue, we note that the audience size
for each of the three broadcast network evening newscasts (ABC,
CBS, and NBC) further distinguishes these networks from other cable and broadcast networks. For instance, during 2011, more than
four times as many people watched the three broadcast network
evening newscasts than watched the highest-rated primetime shows
on the top three cable news networks (CNN, Fox News, and MSNBC).
The Pew Research Center’s Project for Excellence in Journalism,
The State of the News Media 2012: An Annual Report on American
Journalism, Network Essay (2012), http://www.s tateofthemedia.org/overview-2012/. More recent data indicate that this gap has
more than doubled. In 2014, the combined average viewership for
the ABS, CBS, and NBC evening newscasts was more than eight
times the combined median viewership for CNN, Fox News, and
MSNBC. Pew State of the News Media 2015 at 33, 36.
703
CBS questioned why a single entity is permitted to own multiple
cable networks, including in conjunction with a top-four broadcast
network, but is not permitted to own two of the top-four broadcast
networks. CBS NPRM Comments, Attach. at 17. We note, however, that issues related to the consolidation of cable network ownership are outside the purview of the Dual Network Rule. Instead,
the dual network rule effectively prohibits mergers among the topfour broadcast networks because we believe they possess distinctive

328
230. Localism. In addition to furthering the Commission’s competition goal, we conclude that, consistent
with past Commission findings, the Dual Network Rule
also continues to be necessary to foster localism.704 Specifically, we find that eliminating the rule could increase
the bargaining power of the top-four broadcast networks over their affiliate stations, thereby reducing the
ability of the affiliates to influence network programming decisions in a manner that best serves the interests of their local communities. Typically, a critical
role of a broadcast network is to provide its local affiliate
stations with high-quality programming.705 Because this
programming is distributed nationwide, broadcast networks have an economic incentive to ensure that the programming both appeals to a mass, nationwide audience
and is widely shown by affiliate stations. By contrast,
a network’s local affiliate stations provide local input on
network programming decisions and air programming
that serves the specific needs and interests of that specific local community. As a result, the economic incentives of the networks are not always aligned with the interests of the local affiliate stations or the communities
they serve.
231. In the context of this complementary networkaffiliate relationship, we agree with the CBS Affiliates
and the NBC Affiliates that a top-four network merger
characteristics, relative to other broadcast and cable networks, which
justify a rule specific to them. See supra paras. 221-228.
704
See 2006 Quadrennial Review Order, 23 FCC Rcd at 2083-84,
para. 141; 2002 Biennial Review Order, 18 FCC Rcd at 13856, para.
615.
705
See supra para. 222 (discussing the provision of primetime entertainment programming by the top-four broadcast networks).

329
would reduce the ability of a network affiliate station to
use the availability of other top, independently owned
networks as a bargaining tool to exert influence on the
programming decisions of its network,706 including the
affiliate’s ability to engage in a dialogue with its network
over the suitability for local audiences of either the content or scheduling of network programming. Elimination of the Dual Network Rule would increase the economic leverage of the top-four networks over their affiliate stations, which would harm localism by diminishing
the ability of the affiliates to serve their communities.707
The Commission has recognized that affiliate stations
play an important role in assuring that the needs and
tastes of local viewers are served.708 We also agree with
the ABC Television Affiliates Association, CBS Television
Network Affiliates Association, and NBC Television Affiliates (collectively, Affiliates Associations) that the Dual
Network Rule is “an important structural principle”
that helps to maintain equilibrium between the top-four
networks and their affiliate stations. 709 Accordingly,

See CBS Affiliates FNPRM Comments at 1-2; NBC Affiliates
FNPRM Comments at 1-2.
707
See CBS Affiliates FNPRM Comments at 2-3; NBC Affiliates
FNPRM Comments at 2; see also ABC Television Affiliates Association et al. NPRM Comments at 1-2 (Affiliates Associations) (stating
that the rule maintains a proper balance in the network-affiliate relationship, which in turn protects the independent discretion of local
affiliates to make programming decisions).
708
2002 Biennial Review Order, 18 FCC Rcd at 13855, para. 611.
709
See Affiliates Associations NPRM Comments at 2.
706

330
we conclude that the Dual Network Rule remains necessary to foster localism.710
232. Dual Affiliation. As noted previously, some
commenters have urged the Commission to prohibit a TV
station from affiliating with two or more top-four broadcast networks in a single market, claiming that dual affiliation allows a broadcaster to “do locally what the networks are forbidden from doing nationally,” which is to
consolidate the bargaining power of multiple top-four
network signals under the control of a single entity.711
We agree with Fox, however, that dual affiliation does
not implicate the Dual Network Rule and that the rule
should not be expanded to address dual affiliation practices.712 The Dual Network Rule addresses harms to competition and localism that would result from a decrease
In the NPRM, the Commission also sought comment on whether
antitrust laws and our public interest standard are sufficient to address any harms to competition or localism that might result from a
top-four network merger. See NPRM, 26 FCC Rcd at 17543-44, paras. 144, 146. As discussed above, our concern here is that a merger
of two or more top-four networks would restrict the availability,
price, and quality of primetime entertainment programming and the
bargaining power and influence of network affiliate stations, harming consumers and localism. Because these harms to consumers
and localism are not typically considered in a structural antitrust
analysis, we do not believe that antitrust enforcement would adequately protect against these harms. See 2006 Quadrennial Review
Order, 23 FCC Rcd at 2083, para. 141, n.451 (finding that antitrust
enforcement would not protect against certain harms addressed by
the Dual Network Rule: “reduce[d] program output, choices, quality, and innovation to the detriment of viewers, and with reduced affiliate power and influence”).
711
Time Warner Cable NPRM Reply at 13; ITTA NPRM Comments at 7-8.
712
Fox NPRM Reply at 17-18.
710

331
in the number of networks competing for national advertisers and the reduced ability of local affiliate stations to
use the availability of other top, independently owned
networks as a bargaining tool to influence network programming decisions. Because dual affiliation does not
reduce the number of network owners, we believe that dual
affiliation does not give rise to either of these harms.713 Accordingly, arguments related to dual affiliation are not
relevant to our consideration of the Dual Network Rule.
We believe that these issues are more relevant to the
Local Television Ownership Rule, and we address them
above in that context.714
233. Minority and Female Ownership. In this proceeding, we sought comment on the impact of our media
ownership rules on minority and female ownership of
broadcast stations. 715 No commenters, however, addressed the potential impact of the Dual Network Rule
on minority and female ownership. Given the distinct
nature of the Dual Network Rule and its focus on mergers involving the top-four broadcast networks, and not
ownership limits in local markets, we do not believe that
this rule would be expected to have any meaningful impact on minority and female ownership levels.
IV.

DIVERSITY ORDER REMAND

234. In addition to assessing each of our broadcast
ownership rules subject to quadrennial review pursuant
to Section 202(h), we are considering in this proceeding
the Third Circuit’s remand of the Commission’s 2008
Diversity Order, in particular the decision in that order
713
714
715

See id.
See supra paras. 68-72.
See, e.g., NOI, 25 FCC Rcd at 6109, para. 75.

332
to adopt a revenue-based eligible entity definition as a
race-neutral means of facilitating ownership diversity.
In Prometheus II, the Third Circuit held that the Commission’s decision to adopt the revenue-based definition
was arbitrary and capricious because the Commission
did not show how such a definition specifically would assist minorities and women, who were among the stated
intended beneficiaries of that action.716 In light of this
conclusion, the Third Circuit remanded each of the
measures that relied on the revenue-based eligible entity definition the Commission adopted in the Diversity
Order.717 The court also instructed the Commission to
consider the other eligible entity definitions that the
Commission discussed in the Third Diversity FNPRM
accompanying the Diversity Order, including a proposal
based on the socially disadvantaged business (SDB) definition employed by the Small Business Administration
(SBA).718 The NPRM sought comment on how the Commission should respond to the court’s remand and on
other actions that the Commission should consider to
enhance the diversity of ownership in the broadcast industry, including minority and female ownership of
broadcast stations. 719 The FNPRM offered tentative
conclusions in response to the court’s remand and sought
comment on whether any of those conclusions should be
reconsidered based on additional or new information in

Prometheus II, 652 F.3d at 469-72.
Id. at 471-73.
718
Id. at 471-72. The Third Circuit specifically instructed the Commission to consider the alternative eligibility standards it had proposed in the Diversity Order “before it completes its 2010 Quadrennial Review.” Id. at 471.
719
NPRM, 26 FCC Rcd at 17544-56, paras. 147-70.
716
717

333
the context of the 2014 Quadrennial Review.720 In Prometheus III, the Third Circuit ordered the Commission
“to act promptly to bring the eligible entity definition to
a close” by “mak[ing] a final determination as to whether
to adopt a new definition.”721
235. We discuss below the actions that we believe
are appropriate in response to the Third Circuit’s remand of the Diversity Order. As a threshold matter,
we discuss the Commission’s ongoing initiatives to promote diversity of ownership among broadcast licensees
and to expand opportunities for minorities and women
to participate in the broadcast industry. We also discuss the Commission’s ongoing improvements to the collection of data and other empirical evidence that are relevant to minority and female ownership issues. We
next discuss the measures we are adopting today to enhance ownership diversity. Based on the record in this
proceeding, the Third Circuit’s remand instructions,
and our analysis of the preexisting eligible entity standard and the measures to which it applied, we conclude
that we should reinstate the revenue-based eligible entity standard and apply it to the regulatory policies set
forth in the Diversity Order. We conclude that reinstating the previous revenue-based standard will serve
the public interest by promoting small business participation in the broadcast industry and potential entry by
new entrepreneurs. We find that small businesses
benefit from flexible licensing policies and that easing
certain regulations for small business applicants and li-

FNPRM, 29 FCC Rcd at 4478-4518, paras. 242-319.
Prometheus III, 824 F.3d at 49. The court stated that it did not
intend to “prejudge the outcome of this analysis.” Id.
720
721

334
censees will encourage innovation and enhance viewpoint diversity. We also believe that the benefits of reinstating the eligible entity standard and applying it to
the regulatory measures set forth in the Diversity Order outweigh any potential costs of our decision to do so.
Accordingly, we conclude that this action will advance
the policy objectives that traditionally have guided the
Commission’s analyses of broadcast ownership issues.
236. This action does not, of course, preclude our
consideration of other or additional eligibility standards
that have been put forward as means to promote minority and women ownership of broadcast stations. As
discussed further below, we decline to adopt an SDB eligibility standard, which expressly would recognize the
race and ethnicity of applicants, or any other race- or
gender-conscious measure in this proceeding.
We
have carefully studied the record, and the evidence does
not establish a basis for race-conscious remedies. Thus,
we do not believe that such measures would withstand
review under the equal protection component of the Due
Process Clause of the Constitution.722 Finally, we evaluate additional measures that commenters have proposed as potential means of promoting diversity of ownership, aside from the measures that the Third Circuit
remanded in Prometheus II, including a proposal that
the Commission adopt an Overcoming Disadvantage
Preference (ODP) standard.

See, e.g., Adarand Constructors, Inc. v. Peña, 515 U.S. 200, 227230, 235 (1995). The Supreme Court held in Adarand that any federal program in which the “government treats any person unequally
because of his or her race” must satisfy the “strict scrutiny” constitutional standard of judicial review. 515 U.S. at 229-30.
722

335
A.

Commission Diversity Initiatives and Data Collection Efforts
1.

Continuing Diversity Initiatives

237. Diversity Rules and Policies. The Commission strongly believes that a diverse and robust marketplace of ideas is essential to our democracy. As the Supreme Court has recognized, “[s]afeguarding the public’s right to receive a diversity of views and information
over the airwaves is . . . an integral component of
the FCC’s mission.” 723 The Commission has established numerous policies and rules intended to further
the proliferation of diverse and antagonistic sources.724
Toward this end, the Commission has a long history of
promulgating rules and regulations intended to promote
diversity of ownership among broadcast licensees, and
thereby foster a diversity of voices, by facilitating the
acquisition and operation of broadcast stations by small
businesses, new entrants, and minority- and femaleowned businesses.725 As explained above, the Commission’s broadcast ownership rules also help further this
Metro Broad., Inc. v. FCC, 497 U.S. 547, 567 (1990), overruled
in part on other grounds in Adarand, 515 U.S. at 227.
724
See Information Needs of Communities at 313. Furthermore,
as noted by the Third Circuit in Prometheus III, 824 F.3d at 40-41,
the Commission has a congressional mandate to disseminate spectrum licenses “among a wide variety of applicants, including . . .
businesses owned by members of minority groups and women.” 47
U.S.C. § 309( j)(3)(B). This statutory directive, however, does not
mandate race- or gender-conscious initiatives. Furthermore, as
discussed below and in the FNPRM, we would need to show that
such action satisfies constitutional standards. See infra Section
IV.C; FNPRM, 29 FCC Rcd at 4497-4509, paras. 284-302.
725
See, e.g., Statement of Policy on Minority Ownership of Broadcasting Facilities, Public Notice, 68 FCC 2d 979, 980-81 (1978).
723

336
purpose. For instance, the Commission’s Local Television Ownership Rule promotes opportunities for diversity in broadcast ownership by helping to ensure the
presence of independently owned broadcast television
stations in the local market, thereby increasing the likelihood of a variety of viewpoints and preserving ownership opportunities for new entrants.726
238. The Commission and Congress previously
adopted race- and gender-conscious measures intended
specifically to assist minorities and women in their efforts to acquire broadcast properties, such as tax certificates and distress sale policies.727 Following the Adarand
decision, however, the Commission discontinued those
policies and programs. Congress repealed the tax certificate policy in 1995 as part of its budget approval process. 728 Subsequently, the Commission continued its
efforts to promote viewpoint diversity through a variety
of race- and gender-neutral initiatives intended to promote diversity of broadcast ownership, and we currently
have a number of such rules and initiatives in place. As
discussed below, we are reinstating the revenue-based
eligible entity standard and applying it to the regulatory
policies set forth in the Diversity Order and remanded
in Prometheus II. We address the concerns raised by
the court in Prometheus II and find that reinstating the
revenue-based eligible entity standard and the related
See supra para. 75.
See Commission Policy Regarding the Advancement of Minority Ownership in Broadcasting, 92 FCC 2d 849, 855 (1982); Statement of Policy on Minority Ownership of Broadcasting Facilities,
68 FCC 2d 979, 983 (1978).
728
See Deduction for Health Insurance Costs of Self-Employed Individuals, Pub. L. No. 104-7, § 2, 109 Stat 93, 93-94 (1995).
726
727

337
regulatory policies will serve our broader goal of diversity of ownership, and thus viewpoint diversity, by facilitating small business and new entrant participation in
the broadcast industry. In addition to these measures,
the Commission also took a number of other actions in
the Diversity Order to promote viewpoint diversity
through diversity of ownership.729 Because the Third
Circuit expressly upheld those other actions, they remain in place.730 Those actions include, among others,
a ban on discrimination in broadcast transactions,731 a
“zero tolerance” policy for ownership fraud,732 and a requirement that non-discrimination provisions be included in advertising sales contracts.733 Similarly, the
Beyond fostering viewpoint diversity, the Commission has taken
steps to facilitate the entry of new participants into the broadcasting
industry to promote innovation in the field also. Diversity Order,
23 FCC Rcd at 5924, para. 2. As discussed below, we believe that in
addition to enhancing viewpoint diversity, easing certain regulations
for small business applicants and licensees by reinstating the revenue-based eligible entity standard and applying it to the measures
set forth in the Diversity Order will encourage innovation in the
broadcasting industry. See infra Section IV.B.
730
Prometheus II, 652 F.3d at 471 n.41.
731
See 47 CFR § 73.2090; NPRM, 26 FCC Rcd at 17545, para. 148;
Diversity Order, 23 FCC Rcd at 5939-40, paras. 40-42 (adopting “a
rule that bars discrimination on the basis of race or gender and related protected categories in broadcast transactions” and requiring
certification of compliance).
732
Diversity Order, 23 FCC Rcd at 5940-42, paras. 43-50 (explaining that the Commission will show no tolerance for applications seeking a preference that are not complete and correct or that “creat[e]
an appearance of qualification that does not accord with reality[,]”
will address such violations on a “fast track” basis, and will provide,
when permissible, confidentiality to whistleblowers).
733
See NPRM, 26 FCC Rcd at 17545, para. 148; Diversity Order,
23 FCC Rcd at 5940-42, paras. 43-50; see also id. at 5941-42, paras.
729

338
Prometheus II opinion did not question the Commission’s decision to reinstate the failed station solicitation
rule (FSSR), which is intended to provide out-of-market
buyers, including minorities and women, with notice of
a sale and an opportunity to bid on stations before the
seller seeks a waiver of certain ownership rules.734 Ac-

49-50 (requiring broadcasters renewing their licenses to certify that
their advertising sales contracts contain nondiscrimination clauses
that prohibit all forms of discrimination). The Commission has revised its Form 303-S license renewal application form to include this
certification requirement. FCC Form 303-S, Application for Renewal
of Broadcast Station License, Section II, Item 7, http://transition.
fcc.gov/Forms/Form303-S/303s.pdf; Media Bureau Announces Revisions to License Renewal Procedures and Form 303-S, Public Notice, 26 FCC Rcd 3809 (MB 2011). The court also expressly upheld
several other measures adopted by the Commission in the Diversity
Order, including the commissioning of longitudinal research on minority and women ownership trends, enabling the Commission’s Office of Communications Business Opportunities to coordinate with
the Small Business Administration to encourage local and regional
banks to make loans through SBA’s guaranteed loan programs, the
holding of “Access to Capital” conferences, and the creation of a
guidebook on diversity. Prometheus II, 652 F.3d at 471 n.41; see
also Diversity Order, 23 FCC Rcd at 5939-45, paras. 40-64.
734
The FSSR provides that, before selling a station to an in-market
buyer, an applicant for a failed or failing station waiver of the local
television ownership rule or the radio/television cross-ownership rule
must demonstrate that the in-market buyer is the only entity ready,
willing, and able to operate the station and that sale to a buyer outside the market would result in an artificially depressed price. 47
CFR § 73.3555, Note 7; see also 2006 Quadrennial Review Order, 23
FCC Rcd at 2069, para. 109; 1999 Ownership Order, 14 FCC Rcd at
12936-37, para. 74. In the 2002 Biennial Review Order, the Commission eliminated the FSSR, finding that the buyer most likely to
deliver public interest benefits by using the failed, failing, or unbuilt
station will be the owner of another station in the same market. 18

339
cordingly, this measure has remained in place and is retained as part of our action today on the local television
ownership rule.735 In addition, we note that anecdotal
evidence suggests that JSAs may have had the effect of
enabling large station owners to foreclose entry into
markets and that the Commission’s decision to attribute
JSAs has actually led to greater ownership diversity.736
239. OCBO Initiatives. Additionally, the Commission’s Office of Communications Business Opportunities
(OCBO) promotes diversity by serving as the principal
advisor to the Chairman and the Commissioners on issues, rulemakings, and policies affecting small, womenowned, and minority-owned communications businesses.
OCBO also hosts workshops and conferences designed
to help promote small business and minority participation in the communications marketplace. For example,
based on a recommendation from the Advisory Committee on Diversity for Communications in the Digital Age,
OCBO has hosted several capitalization strategies workshops in order to facilitate lending to and investment in
minority- and women-owned entities.737 OCBO has also
FCC Rcd at 13708, para. 225. The Prometheus I court remanded
the issue on the basis that the Commission did not consider the potential impact on minority owners when it eliminated the rule. 373
F.3d at 420-21. In the 2006 Quadrennial Review Order, the Commission reinstated the FSSR. 23 FCC Rcd at 2068, para. 105.
735
See supra para. 67.
736
See supra para. 76.
737
The workshops featured panel discussions with finance experts
that examined capitalization strategies for a range of media sectors,
including broadcast television. See, e.g., Capitalization Strategies
Workshop for Small, Minority-and Women-Owned Businesses
Thursday, December 8, 2011, 9:00 a.m. - 4:30 p.m., Public Notice
(OCBO Dec. 1, 2011), https://apps.fcc.gov/edocs_public/attachmatch/

340
hosted an Access to Capital Conference and Workshop
featuring representatives from the angel investment
community who discussed their investment strategies in
the telecommunications, technology, and media-related
industries. 738 In addition, OCBO has hosted multiple
Supplier Diversity Conferences and Workshops, which
have focused on private sector business opportunities
for small, minority- and women-owned businesses. 739
DOC-311309A1.pdf; Capitalization Strategies Workshop For Small,
Minority- And Women-Owned Businesses Friday, November 12,
2010, 9:00 a.m. - 5:00 p.m., Public Notice (OCBO Nov. 1, 2010), https://
apps.fcc.gov/edocs_public/attachmatch/DOC-302517Al pdf.
738
FCC to Host Access to Capital Conference and Workshop for
Small Businesses Thursday, July 11, 2013, 9:00 a.m. - 4:30 p.m.,
Public Notice (OCBO June 12, 2013), https://apps.fcc.gov/edocs_public/
attachmatch/DOC-321559Al.pdf. The event showcased angel investment experts to discuss their investment strategies in the telecommunications, technology, and media-related industries; highlighted the distinctions between venture capitalists and angel investors; and discussed the criteria these investors use to select their
projects. See FCC, Official FCC Blog, FCC Hosts a Power-Packed
Conference on Angel Investing for Small, Minority- and WomenOwned Businesses (June 18, 2013), http://www.fcc.gov/blog/fcc-shosts-power-packed-conference-angel-investin-small-minorityand-women-owned-businesses. An “angel” investor is a wealthy individual willing to invest in a company at its earlier stages in exchange for an ownership stake, often in the form of preferred stock
or convertible debt. Colleen Debaise, What’s an Angel Investor?,
Wall St. J. (Apr. 18, 2010), http://www.wsj.com/articles/
SB1000142405270 2303491304575188420191459904.
739
See, e.g., FCC to Host a Supplier Diversity Conference and
Workshop for Small, Minority- and Women-Owned Businesses,
Public Notice (OCBO July 22, 2015), https://apps.fcc.gov/edocs_public/attachmatch/DOC-334513Al.pdf; FCC to Host a Supplier Diversity Conference and Workshop for Small, Minority- and WomenOwned Businesses, Public Notice (OCBO June 20, 2014), https://
apps.fcc.gov/edocs_public/attachmatch/DOC-327775A1.pdf.

341
At these events, industry panelists discussed their organizations’ contracting procedures and provided insight on how to navigate the procurement process.
240. OCBO’s efforts to promote small business participation and ownership diversity—in broadcast, telecommunications, and new media—have continued since
the release of the FNPRM. In January and October
2015, OCBO hosted emerging technology events focused
on small businesses, and particularly minority and womenowned tech start-ups.740 These events included discussions on entity formation/incubation and early stage investment strategies; showcases of app designers, software/hardware manufacturers, and Internet-based business owners; and opportunities to pitch ideas and products to industry experts.741

740
FCC to Host a Small Business & Emerging Technologies Fair
in New York, Public Notice (OCBO Sept. 15, 2015), https://apps.fcc.
gov/edocs_public/attachmatch/DOC-335303Al.pdf; FCC to Host a
Small Business Emerging Technologies Conference and Tech Fair,
Public Notice (OCBO Jan. 13, 2015), https://apps.fcc.gov/edocs_public/attachmatch/DOC-331472A1.pdf.
741
While the Commission remains committed to promoting ownership diversity in broadcast services, new technologies also present
growing opportunities for small, minority- and women-owned businesses in the media and telecommunications industries. Indeed, in
recent years the MMTC conferences on access to capital, which previously focused on the broadcast industry, have been expanded to
include telecommunications and new technologies. See, e.g., MMTC,
MMTC’s 13th Annual Access to Capital and Telecom Policy Conference, http://mmtconline.org/accesstocapital/ (last visited June 17,
2016) (listing panel discussions that include “How to raise capital for
new technology, content, and infrastructure businesses, with a special focus on opportunities for new entrants and incubated businesses” and “The latest developments in the future of broadband for

342
241. Most recently, building off its Supplier Diversity Conference and Workshop, OCBO convened a Government Advertising Roundtable that addressed how
women- and minority-owned businesses in broadcasting
can participate in federal government procurements for
advertising services, among other topics.742 The March
2016 workshop featured broadcast industry and government procurement experts who discussed the procurement process for government advertising and how small
businesses and minority- and women-owned businesses
can position themselves to serve the advertising needs
of the federal government. 743 This event, along with
OCBO’s many other initiatives, demonstrate both the
Commission’s continued dedication to promoting small
business participation and ownership diversity, and the
many ways in which the Commission can leverage its resources and reach to connect existing owners, new entrants, minority- and women-owned businesses, and entrepreneurs with the government and private industry
representatives that can potentially help to facilitate
station ownership and business development.

communities of color, including a discussion of content, distribution
platforms, and deployment”).
742
The Office of Communications Business Opportunities Will
Host a Roundtable Discussion on Diversity and Government Advertising, Public Notice (OCBO Mar. 4, 2016), https://apps.fcc.gov/
edocs public/attachmatch/DOC-338082A1.pdf.
743
The panel included government representatives from the Department of Defense—the largest government advertiser—Department of Veterans Affairs, Department of Transportation, and FCC.
The broadcast industry was represented by Sherman Kizart of Kizart Media Partners; Melody Spann-Cooper of Midway Broadcasting Corporation; Steve Roberts of the Roberts Companies; and
James Winston, President of NABOB.

343
242. Foreign Ownership.
The Commission has
taken steps to help facilitate investment in the broadcast
industry, which a number of commenters suggest would
help to facilitate ownership diversity.744 As discussed
in the FNPRM, the Commission issued a Declaratory
Ruling in November 2013 clarifying that Section
310(b)(4) of the Communications Act provides the Commission the authority to review on a case-by-case basis
applications for approval of foreign investment in the
controlling U.S. parent of a broadcast licensee above the
25 percent statutory benchmark.745 The Commission
stated that such an application may be granted unless it

744
See, e.g., DCS Supplemental NPRM Comments at 7 (“[Rlelaxation [of the Commission’s foreign ownership restrictions for broadcast licensees] will . . . provide new funding opportunities for minority broadcast entrepreneurs. . . . ”); Letter from David Honig, President, MMTC, to Marlene H. Dortch, Secretary, FCC, at 1
(filed June 7, 2013) (“[R]elaxing the foreign ownership broadcasting
restrictions would enhance access to capital for minority broadcasters.”); NAB 2012 323 Report Reply at 3-4 (stating that the Commission can provide new opportunities to promote greater diversity in
broadcast ownership by clarifying that it will conduct a case-by-case
analysis of proposed foreign ownership in excess of 25 percent of the
parent company of a broadcast licensee).
745
FNPRM, 29 FCC Rcd at 4513, para. 310 (citing Commission
Policies and Procedures Under Section 310(b)(4) of the Communications Act, Foreign Investment in Broadcast Licensees, Declaratory Ruling, 28 FCC Rcd 16244 (2013) (Foreign Ownership Declaratory Ruling)). The Communications Act establishes a 25 percent
benchmark for foreign investment (by individuals, corporations, and
governments) in U.S.-organized entities that control a U.S. broadcast, common carrier, or aeronautical radio licensee; any foreign ownership exceeding 25 percent must be approved by the Commission.
See 47 U.S.C. § 3 10(b)(4).

344
finds that a denial will serve the public interest.746 In
issuing the Declaratory Ruling, the Commission noted
that limited access to capital is a concern in the broadcast industry, particularly for small entities, including
entities owned by minorities and women, and further
noted that a clear articulation of its “approach to Section
310(b)(4) in the broadcast context has the potential to
spur new and increased opportunities for capitalization
for broadcasters, and particularly for minority, female,
small business entities, and new entrants.”747 The Commission also observed that greater capitalization may in
turn yield greater innovation, particularly in programming directed at niche or minority audiences.748
243. Most recently, the Commission released a Notice of Proposed Rulemaking proposing to extend to
broadcast licensees the same streamlined procedures
and rules used to review foreign ownership in common

Foreign Ownership Declaratory Ruling, 28 FCC Rcd at 16249,
para. 10.
747
Id. at 16249, para. 10. As it has done in its review of foreign ownership of common carrier applicants and licensees, the Commission
indicated that it will continue to afford appropriate deference to the
expertise of the Executive Branch agencies on issues related to national security, law enforcement, foreign policy, and trade policy.
Id. at 16251, para. 14. Additionally, the Commission affirmed that
the controlling parent companies of licensees may not exceed the
statutory benchmark without prior Commission approval. Id at
16251, paras. 13-14.
748
Id. at 16249, para. 10; see also id. at 16249, para. 9 (“Commenters . . . assert that access to additional capital will support the
creation of more programming aimed at racial and ethnic minorities
and bilingual speakers, and foster new entrants into broadcast ownership.” (citation omitted)).
746

345
carrier licensees, with certain tailored modifications.749
These changes would, among other things, allow a broadcast licensee to request Commission approval for its
U.S. controlling parent to have up to and including 100
percent foreign ownership and for any noncontrolling
named foreign investor to increase its interest in the
U.S. parent up to and including a noncontrolling interest
of 49.99 percent.750 The item also sought comment on
whether and how to revise the methodology a licensee
should use to assess its compliance with the 25 percent
foreign ownership benchmark in Section 310(b)(4) in order to reduce regulatory burdens on applicants and licensees.751 These proposed changes, if adopted, could
facilitate investment from new sources of capital at a
time of growing need for investment in the broadcast
sector. Further, MMTC and others believe that these
proposed changes could potentially benefit minorityowned broadcasters and facilitate diverse programming.752

Review of Foreign Ownership Policies for Broadcast, Common
Carrier and Aeronautical Radio Licensees under Section 310(b)(4)
of the Communications Act of 1934, as Amended, Notice of Proposed
Rulemaking, 30 FCC Rcd 11830 (2015) (Foreign Ownership Policies
NPRM). Comments were due on December 21, 2015, and reply
comments were due on January 20, 2016. Review of Foreign Ownership Policies for Broadcast, Common Carrier, and Aeronautical
Radio Licensees, 80 Fed. Reg. 68815 (Nov. 6, 2015). This proceeding is ongoing.
750
Foreign Ownership Policies NPRM, 30 FCC Rcd at 11831,
para. 2.
751
Id. at 11840-43, paras. 26-36.
752
See, e.g., MMTC Reply, GN Docket No. 15-236, at 3 (Jan. 20,
2016); MMTC Comments, GN Docket No. 15-236, at 1 (Dec. 21,
2015); NAB Comments, GN Docket No. 15-236, at 4 (Dec. 21, 2015).
749

346
244. Tax Certificate Legislation. Consistent with
comments in the record, the Commission’s most recent
Section 257 Report to Congress includes a recommendation that Congress pass tax deferral legislation.753 Specifically, the report proposes a new tax incentive program to spur ownership diversity among small businesses, including those owned by women and minorities. 754 The report notes that such a program could
permit deferral of the taxes on any capital gain involved
in the sale of communications businesses to small firms,
as long as that gain is reinvested in one or more qualifying communications businesses, and states that such a
program could permit tax credits for sellers of communications properties who offer financing to small firms.755
245. AM Revitalization. As discussed in the FNPRM,
several of the Diversity and Competition Supporter’s
(DCS) proposals involve modifications to the AM broadcast service, and the AM Revitalization NPRM solicited comment on a number of the technical issues that
DCS raised in this proceeding.756 Given the nature of
Groups such as NAA, the Alliance for Women in Media (AWM),
NAB, and WGAW support reinstatement of the Tax Certificate Policy. Alliance for Women in Media, Inc. FNPRM Reply at 2 (AWM);
NAA FNPRM Comments at 15; NAB FNPRM Comments at 91-92;
WGAW FNPRM Comments at 15; Bonneville/Scranton July 27 Ex
Parte Letter at 4; see also Section 257 Triennial Report to Congress
Identifying and Eliminating Market Entry Barriers for Entrepreneurs and Other Small Businesses, Report, 26 FCC Rcd 2909, 296566, para. 155 (2011) (2011 Section 257 Report).
754
2011 Section 257 Report, 26 FCC Rcd at 2965-66, para. 155.
755
Id.
756
Those technical issues included (1) a modified daytime community coverage standard for existing AM stations; (2) modified nighttime community coverage standards for existing AM stations; and
753

347
these proposals, it is important to consider them in the
broader context of the Commission’s efforts to revitalize
the AM service. Since the release of the FNPRM, the
Commission has adopted the six proposals set forth in
the AM Revitalization NPRM, including a modified
daytime community coverage requirement for existing
licensed AM facilities, a modified nighttime community
coverage requirement for new and existing AM stations,
and modified AM antenna efficiency standards.757 We
believe that our actions in the AM Revitalization Order
will assist AM broadcasters to better serve the public,
thereby advancing the Commission’s fundamental goals
of diversity, competition, and localism in broadcast media. These actions address some of the technical issues
that DCS has raised in this proceeding with regard to
the AM broadcast service.758 In addition, the AM Revitalization FNPRM and AM Revitalization NOI seek
comment on other technical issues that DCS has raised
in this proceeding, including whether to require licensees with dual standard/Expanded Band authorizations
to surrender one of the two authorizations by a certain
time, whether to allow further utilization of the AM Expanded Band, and whether to modify the main studio
(3) modified AM antenna efficiency standards. FNPRM, 29 FCC
Rcd at 4516-17, para. 316 (citing AM Radio Revitalization NPRM,
28 FCC Rcd 15221).
757
AM Revitalization Order, AM Revitalization FNPRM, and
AM Revitalization NOI, 30 FCC Rcd 12145.
758
See DCS Supplemental NPRM Comments at 52 (Proposal 23:
Request the Removal of AM Nighttime Coverage Rules from Section 73.21(i)); id. at 56 (Proposal 24: Relax Principal Community
Coverage Rules for Commercial Stations); id. at 58 (Proposal 25:
Replace “Minimum Efficiency” Standard for AM Stations with a
“Minimum Radiation” Standard).

348
rule.759 We note that some commenters regard the AM
radio service as a critical point of entry for women and
minorities seeking to become broadcasters.760
246. Hispanic Television Study. In addition, the
Commission conducted a study of Hispanic television
viewing.761 The study is the Commission’s first systematic examination of the Hispanic television marketplace,
which comprises a growing segment of the nation’s population. The study incorporates comprehensive data
from our Form 323 biennial ownership reports. Specifically, the study considers: (1) the impact of Hispanicowned television stations on Hispanic-oriented programming and Hispanic viewership in selected local television
markets; and (2) the extent of Hispanic-oriented programming on U.S. broadcast television. The study was
released on May 12, 2016, with comments due on May
26, 2016, and replies on June 3, 2016; however, the Commission subsequently extended the deadlines to June 2,
2016, and June 9, 2016, respectively.762
247. The results of the study’s regression analysis—
which identifies correlations (but not necessarily causal
See AM Revitalization FNPRM, 30 FCC Rcd at 12176-77, paras. 75-76; AM Revitalization NOI, 30 FCC Rcd at 12177-81, paras.
77-88; see also FNPRM, 29 FCC Rcd at 4516, para. 316 & n.984.
760
E.g., Letter from James L. Winston, President, NABOB, Kim
Keenan, President and CEO, MMTC, and Gordon H. Smith, President and CEO, NAB, to Marlene H. Dortch, Secretary, FCC, MB
Docket No. 13-249, at 1 (filed Oct. 1, 2015); MMTC Comments, MB
Docket No. 13-249, at 13 (Jan. 22, 2014).
761
See Press Release, FCC, FCC Announces New Study Examining Hispanic Television Viewing as Part of Commitment to Encourage Broadcast Diversity (Oct. 24, 2013), http://transition.fcc.gov/
Daily_Releases/Daily_Business/2013/dbl024/DOC-323676A1.pdf.
762
See supra para. 14.
759

349
relationships) between Hispanic—owned stations and programming and viewing choices-indicate that, among
other things, Hispanic viewers favor the major Spanishlanguage networks, especially Univision (which is not
Hispanic-owned); watch local, Spanish-language news at
higher levels than English-language news; and watch
more telenovelas than other program types.
248. With regard to programming, the study finds
that Hispanic-owned stations are less likely to show
telenovelas relative to other programming types; paid
programming is strongly associated with Hispanic ownership; and Spanish-language programming and local
programming are more likely to be shown on Hispanicowned stations than other types of programming. For
example, Spanish-language programs are nearly 30
times more likely to appear on Hispanic-owned stations
than English-language programs, while local programs
are nearly six times more likely than non-local. Additionally, paid programs are three times more likely to be
shown on Hispanic-owned stations than other types of
programs, while telenovelas are about 30 percent less
likely to be found on Hispanic-owned stations and about
80 percent less likely to be on the Hispanic-owned independent stations.
249. The study finds some indication that Hispanic
ownership is associated with higher ratings among Hispanics, and in particular among Hispanics viewing Spanishlanguage local programming. This may suggest that
the programming choices of Hispanic-owned stations
may lead to increased viewership among Hispanics compared to their viewing of stations that are not Hispanicowned. The study notes, however, that these results

350
are only statistically significant when examining the viewing of individual programs. When averaging viewing
across programs to examine the ratings of a television
station, the study does not find a statistically significant
effect of Hispanic-ownership, perhaps due to small sample size. The study also finds that markets with large
Hispanic populations have more Hispanic programming
available, as would be expected. In addition, while certain kinds of programming on Hispanic-owned stations
seems to correspond with higher ratings, the results
largely indicate that the ratings of Hispanic-owned stations are well below the ratings of the non-Hispanicowned stations affiliated with the large Spanish-language networks such as Univision and Telemundo.
250. Numerous commenters supported the Hispanic
Television Study and the Commission’s efforts to analyze the relationships between Hispanic-owned television
stations, programming, and viewership.763 They recognize the difficulty and expense of undertaking such studies, and commend the Commission for conducting a study
of important issues relevant to minority ownership and
viewpoint diversity.764 NHMC applauds the Commission’s
completion of the Hispanic Television Study and encourages an aggressive research agenda.765
251. Some commenters, however, expressed concern
regarding the study design, including the focus on entertainment programming and the popularity of certain
See NHMC Hispanic TV Study Comments at 1-2; Public
Knowledge/Common Cause Hispanic TV Comments at 2; UCC et al.
Hispanic TV Study Comments at 2.
764
See, e.g., Public Knowledge/Common Cause Hispanic TV Study
Comments at 2.
765
See NHMC Hispanic TV Study Comments at 1-2.
763

351
programming, such as telenovelas.766 Because of the emphasis on program popularity and ratings, UCC et al.
contend that the study does “little to assist” the Commission in its ongoing review of broadcast ownership
rules pursuant to Section 202(h).767 They argue that programming popularity is unrelated to the agency’s longstanding goal of promoting viewpoint diversity.768 Additionally, NHMC asserts that by primarily equating
Spanish-language content with Hispanic-oriented content the study only focuses on a narrow subset of diverse
content and fails to fully value English-language content
that Hispanic viewers and the general public frequently
access, including English-language content produced by
Hispanic-owned stations.769 NHMC further asserts that
the Commission cannot rely on this study alone to justify
the impact of a particular “eligible entity” definition or
as evidence that it should move forward with relaxing
MMTC Hispanic TV Study Comments at 2; UCC et al. Hispanic TV Study Comments at 2-3.
767
UCC et al. Hispanic TV Study Comments at 2-3. To the contrary, the Hispanic Television Study did not analyze only ratings.
It examined the availability of Hispanic-oriented programming, finding some limited evidence that certain types of programming are associated with Hispanic ownership. These findings go to the availability of programming to the entire audience and not solely to the
nature of viewership.
768
Id. at 3 (“ . . . whether a broadcaster is more or less likely to
carry telenovelas is not of value in the current regulatory regime”).
769
NHMC Hispanic TV Study Comments at 2. NHMC observes
that the study authors admit that using language as a criterion to
determine whether programming is “Hispanic-oriented” is limited
“because a large fraction of the U.S. Hispanic community is bilingual
and one can easily imagine English-language content aimed at this
community.” Id. at 3 (citing Hispanic Television Study at 3-4, para.
9).
766

352
any of its media ownership rules because the Hispanic
Television Study does not speak to either issue.770
252. As noted above, many commenters support the
Commission’s undertaking of the Hispanic Television
Study. We recognize, however, that no one study, including the Hispanic Television Study, will be responsive to the many and varied concerns raised by commenters. The objective of the study was to attempt to
examine the nexus, if any, between Hispanic ownership
of broadcast television stations and Hispanic-oriented
program content.771 In view of the fact that many of the
Spanish-language television stations are not Hispanicowned, the examination was challenging, and the study
found only limited evidence to support a nexus between
Hispanic ownership and Hispanic-oriented program content.772 However, the study has improved the Commission’s and the public’s understanding of the potential relationship between ownership and content, particularly
as it relates to Hispanic ownership of broadcast television stations.
253. We also reject criticisms that the study was too
narrowly focused, i.e., focusing primarily on Spanishlanguage content and Hispanic audience members.773
We clarify that there was not an assumption that Hispanic-oriented programming benefits only Hispanic
viewers. Rather, the study noted that Hispanic viewers constitute virtually all of the viewers of Spanish-language programming. The study noted that for the non770
771
772
773

Id. at 5.
Hispanic Television Study at 1, para. 1.
Id. at 1, para. 3.
See, e.g., NHMC Hispanic TV Study Comments at 2.

353
Hispanic audience, 99 percent of viewing is English-language programming and 1 percent is of Spanish-language programming.774 Thus, the impact of Spanishlanguage programming on the non-Hispanic market is
apparently quite small. Further, as noted at Table 8 of
the study, the Hispanic-owned stations provide predominantly Spanish-language programming.775
254. We similarly dispute the suggestion by Public
Knowledge/Common Cause that the study is outdated
because certain of the stations in the study may no
longer be Hispanic-owned.776 We reiterate that the study
Hispanic Television Study at 22, Tbl.9—Share of All Spanish
and English Language Programming Viewed by Hispanics and NonHispanics.
775
Id. at 21, Tbl.8—Hispanic-Owned Stations in 23 Station Database; id. at 9.
776
Public Knowledge/Common Cause Hispanic TV Study Comments at 1-2; see also Media Vista Hispanic TV Study Comments at
5-6 (asserting that the study should have used more recent data).
In response to Media Vista, we note that the Hispanic Television
Study began in October 2013 and utilized the most recent broadcast
television ownership information available at that time. Those data,
providing a snapshot of ownership information as of October 1, 2011,
had been released by the Commission on November 14, 2012.
Building on the most recent ownership data then available, the Commission then purchased viewing data and programming data from
The Nielsen Company and Tribune Media Service (now Gracenote),
respectively, that matched the 2011 time period dictated by the ownership information. In order for the dataset to be consistent and
ensure the quality and integrity of the results, it was critical that the
time period covered by the various data sources match. Although
newer data on ownership, viewing, and programming became available over the course of the study, any attempt to substitute additional data would have resulted in significant additional expense and
delays due to the extremely intricate and complicated job of matching disparate data sets not designed to match one another.
774

354
attempted to discern the relationship between Hispanic
ownership and Hispanic-oriented programming. As
such, the data and time period are appropriate for studying those possible relationships even if some of the stations are no longer Hispanic-owned. While having more
recent data has its advantages, it is not clear that more
recent data would provide a significantly larger database of Hispanic-owned stations, nor does it change the
outcome of our analysis in the Hispanic Television
Study, which was based on observations during the relevant time periods.
255. Finally, Hispanic-owned television broadcaster
Media Vista claims that the Hispanic Television Study
“does not present a complete picture” of Hispanic broadcast ownership because it fails to take into account the
LPTV stations owned by Media Vista and other Hispanicowned LPTV stations. 777 Media Vista adds that the
Commission should not ignore data that it expressly
deemed to be necessary and valuable to provide a complete ownership picture.778 In constructing the dataset
for the markets in which Nielsen measures Hispanic
household viewing, Commission staff utilized the 2011
Form 323 ownership data. This was done in order to
align station ownership information with available Nielsen ratings data from the November 2011 and May 2012
sweeps periods. There was no decision to exclude any
particular class or type of television stations; rather,
Nielsen ratings data is not available for all stations.
See Media Vista Hispanic TV Study Comments at 2, 4-5. Media
Vista owns and operates LPTV stations in the Naples-Ft. Myers
Nielsen DMA and the Minneapolis-St. Paul Nielsen DMA and the
Kansas City Nielsen DMA. Id. at 2.
778
Id. at 6-8.
777

355
For the period examined in the Hispanic Television
Study, the stations identified by Media Vista did not
have reportable Nielsen data and were thus excluded
from the data set. And while the lack of Nielsen data
precluded inclusion of the stations in this particular
study, the Form 323 ownership data for these (and all)
stations helps to inform the Commission’s and the public’s understanding of the ownership characteristics of
the broadcast industry and may help inform subsequent
efforts to study issues of ownership and programming.
2.

Continuing Improvements to Data Collection

256. As explained in the FNPRM, the Commission
actively has sought to improve its collection and analysis
of broadcast ownership information.779 We noted that
the Commission had already implemented major changes
to its Form 323 biennial ownership reports to improve
the reliability and utility of the data reported on the
form, including data regarding minority and female
ownership of broadcast stations.780 We acknowledged
that previous shortcomings in the Form 323 data had
impaired the ability of the Commission and interested
parties to study and analyze issues related to minority
and female ownership. However, we noted that the Commission had responded to Form 323-related criticisms
and suggestions by substantially revising the form and
making certain data from the 2009 biennial Form 323
report filings, as well as previous data collected by the
Commission and third parties, available to the authors
of the 11 peer-reviewed media ownership studies that
779
780

FNPRM, 29 FCC Rcd at 4481-87, paras. 249-62.
Id. at 4481, para. 249.

356
are included in the record of this proceeding.781 And as
discussed in more detail below, the Commission recently
adopted additional, significant improvements to its
broadcast ownership data collection, including revisions
to Form 323-E for noncommercial educational broadcast
stations that will enhance the completeness of the data
collection, promote data integrity, and ensure that the
data are electronically readable and aggregable.782
257. In response to the FNPRM, several commenters take issue with the Form 323 collection process, including the response rate of respondents, completeness
of the data collection (e.g., no requirement that noncommercial educational (NCE) broadcast stations provide
race, ethnicity, and gender information), and analysis
and presentation of the data.783 For example, while acknowledging that the response rates have improved
since 2009, multiple commenters raise concerns about
the response rates for particular services, such as AM

Id. at 4482-84, paras. 252-53. These efforts are discussed below, as well as more recent actions that the Commission has taken to
improve its broadcast ownership data collection. See infra paras.
259-270.
782
See infra paras. 261-264.
783
See, e.g., Free Press FNPRM Comments at 16-17; Howard Media Group/Carolyn Byerly FNPRM Comments at 1-2, 4-5; Leadership Conference on Civil and Human Rights FNPRM Comments at
2 (LCCHR); UCC et al. FNPRM Comments at 16-23; Letter from
Cheryl A. Leanza, Policy Advisor, UCC, to Marlene H. Dortch, Secretary, FCC, at 1 & Attach., Ownership diversity Data Form 323 Action Items for 2015, and Attach., Summary of Studies Recommended
by UCC OC Inc. (filed Dec. 11, 2014) (UCC et al. Dec. 11, 2014 Ex
Parte Letter); Letter from Cheryl A. Leanza, Co-Chair, LCCHR, to
Marlene H. Dortch, Secretary, FCC, at 1 (filed Nov. 25, 2014).
781

357
radio and LPTV stations. 784 These commenters urge
the Commission to take steps to improve the response
rates, including the use of enforcement actions against
stations that fail to file.785 UCC et al. urge the Commission to complete its initiatives to improve the completeness and accuracy of its Form 323 data collection. 786
See Howard Media Group/Carolyn Byerly FNPRM Comments
at 5-6; LCCHR FNPRM Comments at 2; UCC et al. FNPRM Comments at 17-18. UCC et al. also suggests that filing rates for FM stations were lower than they should have been in 2013. UCC et al.
FNPRM Comments at 17-18.
785
See, e.g., Howard Media Group/Carolyn Byerly FNPRM Comments at 5-6; UCC et al. FNPRM Comments at 18; UCC et al. Dec.
11, 2014 Ex Parte Letter, Attach., Ownership Diversity Data Form
323 Action Items for 2015, and Attach., Summary of Studies Recommended by UCC OC Inc.
786
UCC et al. FNPRM Comments at 18-19; Letter from Andrew
Jay Schwartzman, Counsel to UCC et al., to Marlene H. Dortch, Secretary, FCC, at 2 (filed Feb. 5, 2015) (UCC et al. Feb. 5, 2015
Ex Parte Letter); UCC et al. Dec. 11, 2014 Ex Parte Letter at 1 &
Attach., Ownership Diversity Data Form 323 Action Items for 2015,
and Attach., Summary of Studies Recommended by UCC OC Inc.;
see also Letter from Cheryl A. Leanza, Co-Chair, LCCHR, to Marlene H. Dortch, Secretary, FCC, at 1 (filed May 6, 2016) (urging the
Commission “to remedy the errors of past quadrennial reviews, particularly with respect to the adequacy of data under consideration”);
Letter from Cheryl A. Leanza, Co-Chair, LCCHR, to Marlene H.
Dortch, Secretary, FCC, at 1 (filed Mar. 24, 2016) (urging the Commission to “collect high-quality data and conduct appropriate studies
to support action [to promote minority and female ownership of
broadcast stations]”); Letter from Cheryl A. Leanza, Co-Chair,
LCCHR, to Marlene H. Dortch, Secretary, FCC, at 2 (filed Oct. 30,
2014) (noting “the importance of FCC improvements to [broadcast
ownership] data”). In addition, UCC et al. urge the Commission to
collect additional information to assess the impact of retaining or
amending the media ownership limits on minority- and women-owned
businesses, such as information about television SSAs, local news
784

358
WGAW asks the Commission to make various changes
to the Consolidated Database System (CDBS) that, according to WGAW, would promote transparency.787

service agreements, and other joint ventures that station owners
may be using to circumvent the local television rule. Id. at 24-25.
As discussed below, we are adopting a definition of SSAs and requiring the disclosure of SSAs involving commercial television stations.
See supra Section V.
787
WGAW FNPRM Comments at 15 (“[T]he Commission should
update [CDBS] to include all information collected in the station file
and in the license application and make such data available in exportable file formats.”); id. (“Information on SSAs and JSAs should be
included in the CDBS and summarized in the Commission’s annual
video competition report.”). These proposed changes, however, do
not appear to improve the Commission’s data collection efforts for
diversity purposes, or otherwise promote ownership diversity, and
are therefore outside the scope of this proceeding. In addition, we
believe that the WGAW proposal would impose significant costs on
the Commission that appear to exceed any possible benefits at this
time. Prior to 2016, the Commission required only broadcast TV
stations to upload public file documents to a central, FCC-hosted
online database. The Commission recently expanded this obligation to broadcast radio stations and other entities, and at this time
only certain radio stations are required to upload public file materials to the Commission’s online public file database. Other radio stations are not required to upload their public file materials to the
Commission’s online database until March 2018. See Expansion of
Online Public File Obligations to Cable and Satellite TV Operators
and Broadcast and Satellite Radio Licensees, Report and Order,
31 FCC Rcd 526 (2016). The FCC-hosted online public file is a separate database from CDBS, where the Commission currently receives
and stores data from broadcast ownership filings. See FCC, TV
Station Profiles & Public Inspection Files, https://stations.fcc.gov/
(last visited June 17, 2016); FCC, CDBS Public Access, http://licensing.
fcc.gov/prod/cdbs/pubacc/prod/cdbs_pa.htm (last visited June 17,
2016). However, as discussed below, complete raw data from the
Commission’s broadcast ownership filings, as well as CDBS public

359
258. Commenters also restate earlier concerns that
the reports that Commission staff issue summarizing
323 data present the Commission’s ownership data in a
format that commenters assert is difficult for researchers to use and with no analysis. 788 In addition, some
database files, are available for download on the Commission’s website, and it is updated on a daily basis to account for new and amended
filings. Researchers and other parties currently can download the
data files from the Commission’s website at any time and study,
search, and manipulate the data in a wide variety of ways. See
infra paras. 267-268. This suggests that developing an extensive
catalog of complex query options within the public search functionality of our electronic filing system would impose unnecessary costs
on the Commission. Also, we note that the Commission decided in
the Form 323/CORES Report and Order to add a new positional interest category to Form 323 for parties that are attributable by virtue of a JSA or LMA. 31 FCC Rcd at 439, para. 84.
788
See Free Press FNPRM Comments at 16; Howard Media
Group/Carolyn Byerly FNPRM Comments at 1-4; LCCHR FNPRM
Comments at 2; UCC et al. FNPRM Comments at 20; UCC et al.
Dec. 11, 2014 Ex Parte Letter, Attach., Summary of Studies Recommended by UCC OC Inc. Howard Media Group/Carolyn Byerly also
argue that the ethnic and racial categories used in the 2014 323 Report create the impression that Hispanics/Latinos are not a minority
group, which Howard Media Group/Carolyn Byerly believe makes
the ethnic and racial categories “vague and confusing.” Id. at 4-5.
According to Howard Media Group/Carolyn Byerly, this obfuscates
the ownership data and renders the 2014 323 Report inaccurate and
unreliable. Id. The gender, ethnicity, and race categories identified on Form 323 follow the guidance provided by the Office of Management and Budget. See 2014 Quadrennial Regulatory Review—
Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, Report on Ownership of Commercial Broadcast Stations, 29 FCC Rcd 7835, 7837, n.9 (MB 2014) (2014 323 Report) (citing Revisions to the Standards for the Classification of Federal Data
on Race and Ethnicity, 62 Fed. Reg. 58782 (Oct. 30, 1997) (Race and
Ethnicity Data Standards)); 2010 Quadrennial Regulatory Review—

360
commenters criticize the 323 Reports for failing to provide certain information about minority owners, such as
call signs, broadcast location, and market information.789
According to UCC et al., this information is essential for
commenters to analyze how amending or retaining the
Commission’s media ownership limits would affect minority and female ownership.790 As discussed below, we
have taken significant steps to address these concerns.
259. Collection of Biennial Ownership Data. As
discussed above, the Commission has improved its collection and analysis of broadcast ownership information.
Indeed, our recent efforts have largely addressed the
concerns expressed by certain commenters. The Commission has been engaged in a sustained effort to improve the quality, utility, and reliability of broadcast
ownership data it collects on FCC Forms 323 and 323-E.
In 2009, the Commission substantially revised Form 323
to facilitate longitudinal comparative studies of broadcast station ownership.791 The changes also addressed
Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, Report on Ownership of Commercial Broadcast Stations, 27 FCC Rcd 13814, 13816, n.5 (MB 2012) (2012 323 Report)
(citing Race and Ethnicity Data Standards).
789
Asian Americans Advancing Justice FNPRM Comments at
16-17 (AAJC); UCC et al. FNPRM Comments at 20.
790
UCC et al. FNPRM Comments at 20.
791
Promoting Diversification of Ownership in the Broadcasting
Services, Report and Order and Fourth Further Notice of Proposed
Rulemaking, 24 FCC Rcd 5896, 5902-04, paras. 11-13 (2009) (323 Order and Fourth Diversity FNPRM), recon. granted in part, Memorandum Opinion and Order and Fifth Further Notice of Proposed
Rulemaking, 24 FCC Rcd 13040 (2009) (323 MO&O and Fifth Diversity FNPRM).

361
Form 323-related criticisms and suggestions from the
United States Government Accountability Office
(GAO) 792 and from researchers who had attempted to
use the data submitted on previous versions of Form 323
to analyze broadcast ownership issues in the 2006 Quadrennial Review proceeding.793
260. To improve the quality of its broadcast ownership data, the Commission adopted several significant
changes to Form 323 in the 323 Order. The Commission established a new, machine-readable Form 323 that
enabled for the first time electronic analysis of the reports filed by television and radio broadcasters. The
Commission also set a uniform filing deadline of November 1 for biennial ownership reports on Form 323 and
required filers to report their ownership interests as
they exist on October 1 of the filing year.794 These uniform dates make it possible to discern statistically valid

U.S. Gov’t Accountability Office, GAO-08-383, Media Ownership: Economic Factors Influence the Number of Media Outlets in
Local Markets, While Ownership by Minorities and Women Appears
Limited and is Difficult to Assess (2008) (GAO Report). GAO cited
several shortcomings with the Commission’s data collection process:
(1) exemptions from the biennial filing requirement for certain types
of broadcast stations; (2) inadequate data quality procedures; and (3)
problems with storage and retrieval. Id. at 5; see also 323 Order,
24 CC Rcd at 5901, para. 10; Promoting Diversification of Ownership in the Broadcasting Services, Sixth Further Notice of Proposed
Rulemaking, 28 FCC Rcd 461, 463, para. 4 (2013) (Sixth Diversity
FNPRM).
793
See 323 Order, 24 FCC Rcd at 5900-01, para. 7 & n.18.
794
47 CFR § 73.3615(a). In addition to the biennial filing of Form
323, licensees and permittees are required to file a non-biennial
Form 323 (1) within 30 days of a grant of an application for original
construction permit, (2) on the date the permittee applies for a sta792

362
trends in minority and female broadcast ownership over
time, which was not possible using the previous rolling
filing deadlines, and to ensure the timely collection of
the data. 795 The Commission also expanded the requirement to file Form 323 biennially to include sole
proprietors and partnerships of natural persons, as well
as low power television (LPTV) and Class A television
licensees.796
261. Most recently, the Commission in 2016 adopted
a number of additional enhancements to its broadcast
ownership data collection in order to further improve
the comprehensiveness and reliability of the data. These
recent enhancements will enable more effective analysis
of ownership trends in support of the Commission’s policy initiatives. In particular, the Commission implemented a Restricted Use FCC Registration Number
(Restricted Use FRN)—a new identifier within the
Commission’s Registration System (CORES)—that will
allow for unique identification of individuals listed on
broadcast ownership reports, without necessitating the
disclosure to the Commission of individuals’ full Social
Security Numbers.797 The Commission also eliminated

tion license, and (3) within 30 days of the consummation of authorized assignments or transfers of control of permits and licenses. Id.
§ 73.3615(b)-(c).
795
323 Order, 24 FCC Rcd at 5908-09, para. 22; Sixth Diversity
FNPRM, 28 FCC Rcd at 463, para. 4.
796
47 CFR § 73.3615(a); see also 323 Order, 24 FCC Rcd at 590405, paras. 14-16; Sixth Diversity FNPRM, 28 FCC Rcd at 463-64,
para. 4.
797
Promoting Diversification of Ownership in the Broadcasting
Services et al., Report and Order, Second Report and Order, and Order on Reconsideration, 31 FCC Rcd 398, 412-20, paras. 25-42 (2016)

363
the availability of the interim Special Use FRN for individuals reported on broadcast ownership reports, except
in certain limited circumstances. Because the Special
Use FRN offers no way for the Commission to identify
individuals reliably, restricting its use will improve the
integrity and utility of the Commission’s broadcast ownership data.”798
262. In addition, the Commission prescribed revisions to Form 323-E for NCE broadcast stations that
will conform the reporting requirements for NCE stations more closely to those for commercial stations filing
Form 323. Specifically, the Commission revised Form
323-E to collect race, gender, and ethnicity information
for attributable interest holders; to require that CORES
FRNs or Restricted Use FRNs be used; and to conform
the biennial filing deadline for NCE station ownership
reports to the biennial filing deadline for commercial
station ownership reports.799 These revisions to Form
323-E will enhance the completeness of the Commission’s broadcast ownership data collection, promote data
integrity, and ensure that the data are electronically
readable and aggregable. These revisions address criticisms that the Commission’s race, ethnicity, and gender data were incomplete because the Commission had

(Form 323/CORES Report and Order). Four parties have filed petitions for reconsideration of the Form 323/CORES Report and Order. Petitions for Reconsideration of Action in Rulemaking Proceeding, 81 Fed. Reg. 31223 (May 18, 2016).
798
Form 323/CORES Report and Order, 31 FCC Rcd at 413, para.
29.
799
Id. at 420-28, 432-33, paras. 43-55, 64-67.

364
not previously collected such data relating to NCE stations.800
263. The Commission also adopted a number of
other changes to Forms 323 and 323-E that will streamline the filing process and improve data quality.801 These
changes are intended to provide filers with additional
time for completing and submitting biennial ownership
reports, while reducing the amount of time and resources required to address the mechanical aspects of
the ownership report preparation and filing process,
thereby allowing parties to spend more time focused on
the accuracy and completeness of the ownership information they submit to the Commission.
264. Together, the further enhancements that we
adopted in the Form 323/CORES Report and Order will
enable the Commission to obtain data providing a more
useful, accurate, and thorough picture of minority and
female broadcast station ownership, while reducing filing burdens. These improvements also address the
Third Circuit’s directive that the Commission obtain
more and better data concerning broadcast ownership
to support its rulemaking decisions. Ultimately, we
believe that these actions will assist efforts to study and
analyze issues related to minority and female ownership, by both the Commission and third parties. And
as explained in the following discussion, the Commission
has also taken a number of other steps to improve its
collection of ownership data.

See, e.g., UCC et al. FNPRM Comments at 15.
Form 323/CORES Report and Order, 31 FCC Rcd at 429-39,
paras. 59-84.
800
801

365
265. Improving Response Rates and Data Quality.
In addition to substantially revising Forms 323 and 323E, the Commission has made ongoing outreach efforts
to assist filers in an effort to improve response rates and
to reduce common filing errors. Prior to the 2011,
2013, and 2015 biennial filing periods for Form 323, the
Media Bureau released public notices to remind licensees of commercial AM, FM, TV, LPTV, and Class A television stations, as well as all entities with attributable
interests in such stations, of their obligation to file a biennial ownership report.802 To assist both novice and
experienced filers, the Bureau has hosted information
sessions regarding the filing of biennial ownership reports on Form 323. During the most recent session,
which was held prior to the start of the 2015 biennial filing window, Bureau staff presented an overview of the
form, conducted a filing demonstration, discussed common filing mistakes, and responded to questions from

We note that in instances where a station fails to file a biennial
ownership report as required by the Commission’s rules, the Commission can use its enforcement authority to impose a forfeiture on
the licensee of the station. 47 U.S.C. § 503(b). Enforcement decisions are made on a case-by-case basis based on the facts and circumstances of each unique case before the Commission.
802

366
the public. 803 The Commission has made a video recording of this information session available on its website to assist filers.”804
266. In addition to these efforts, the Media Bureau has
established several online resources for filers. Those resources include a dedicated Form 323 webpage containing
links to notices and other documents regarding Form
323,805 a Frequently Asked Questions webpage providing
useful information about the form and its electronic filing
capabilities, and a webpage identifying some of the most
common filing errors and ways to avoid them, which Bureau staff compiled based on experience during previous
biennial filing periods. At Form323@fcc.gov, Bureau
staff also respond to inquiries received from filers (e.g.,
licensees and attributable entities) and the public regarding the filing of commercial biennial ownership reports. We believe these ongoing outreach efforts will
continue to further the Commission’s objective of improving its broadcast ownership data collection, and we
anticipate similar outreach efforts with respect to the
modified Forms 323 and 323-E, as filers transition to the
new forms and filing procedures.

Media Bureau Announces Biennial Form 323 Information
Session, Public Notice, 30 FCC Rcd 8455 (Aug. 20, 2015). The filing
window for the 2015 Form 323 biennial ownership report filings
closed on December 2, 2015. Commission staff is currently compiling a report based on those filings, and we expect that the forthcoming report will help inform future Commission proceedings.
804
The video recording is available at htts://www.fcc.gov/newsevents/events/2015/09/biennial-form-323-information-session.
805
The website is available at https://www.fcc.gov/media/ownershipreport-commercial-broadcast-station-form-323.
803

367
267. Analysis of Ownership Data. In order to assist parties in their ability to access and analyze the
ownership data, the Commission has ensured that the
data submitted on Form 323 are incorporated into a relational database, the most common database format,
which is standard for large, complex, interrelated datasets. Complete raw data from the Commission’s
broadcast ownership filings, both current and historical,
are available for download from the Commission’s website, and the data are updated on a daily basis to account
for new and amended filings.806 Researchers and other
parties may download the data files from the Commission’s website at any time and study, search, and manipulate the data in a wide variety of ways. The Commission has made explanatory documents publicly available
and easy to find. Also, in response to requests from
outside parties, the Commission now provides spreadsheets that contain additional ownership data, such as
call signs, broadcast location, and market information.
These spreadsheets are released with the 323 Reports
to help present a broader picture of the biennial Form
323 data.
268. In addition, the Media Bureau hosted an all-day
public workshop in September 2015 to assist individuals
and organizations that wish to use and study the large
amount of broadcast ownership data that is available to

See FCC, CDBS Database Public Files, https://www.fcc.gov/
media/radio/cdbs-database-public-files (last visited June 17, 2016);
FCC, Readme file for CDBS Public Files (Broadcast Database)
(Nov. 7, 2014), https://transition.fcc.gov/ftp/Bureaus/MB/Databases/
cdbs/_readme.html.
806

368
the public on the Commission’s website.807 The workshop addressed a number of topics concerning access to,
and use of, the Commission’s commercial broadcast ownership data, including relevant data that the Commission collects, how members of the public can access
those data, and mechanisms for querying, studying, and
visualizing the data, including in combination with data
available from non-FCC sources. The workshop, a video
of which is available online, provides researchers with the
tools and understanding to electronically search, aggregate, and cross reference the data in order to prepare
their own analysis.808
269. We reiterate that the Commission does not consider the 323 Reports to be studies that would help support the adoption of race- or gender-based preferences
or policies—indeed, they are not studies at all. These
Reports, and the accompanying spreadsheets, contain
valuable data about minority and female ownership of
broadcast stations. The Reports aggregate the data
and are not in and of themselves a study of ownership
information. The Commission has used the data from
the 2012 and 2014 323 Reports to inform its analyses in
this proceeding. 809 In addition, ownership data from
Form 323 filings have been incorporated into multiple
Media Bureau Announces Workshop on Access to, and Use of,
the FCC’s Form 323 Data, Public Notice, 30 FCC Rcd 8204 (MB
2015).
808
A video of the workshop is available on the Commission’s website at https://www.fcc.gov/newsevents/events/2015/09/form-323-dataworkshop.
809
See, e.g., supra paras. 77, 126 (using ownership data collected
through 2013 to examine minority ownership trends following relaxation of the Local Television Ownership Rule and the Local Radio
Ownership Rule).
807

369
studies. As noted above, seven of the 11 peer-reviewed
media ownership studies in the record as of the date of
the FNPRM incorporated the 2009 Form 323 data, as
well as previous data collected by the Commission and
third parties.810 These studies examine issues such as
media quality, innovation, viewpoint diversity, local information programming, the provision of programming
to minority audiences, and local television news.811 These
studies have been discussed extensively in the record,
both in the context of individual media ownership rules
and in the Commission’s response to the remand issues
from Prometheus II. We also note that the Hispanic
Television Study included 2011 Form 323 data. The
study is the Commission’s first systematic examination
of the Hispanic television marketplace and is one of the
first to incorporate comprehensive data from the recently improved 323 ownership form.
270. The Commission’s improved ownership data
are already contributing to meaningful analysis and
studies regarding media ownership and diversity policies. We are hopeful that interested parties will use
the data to conduct further studies and analyses—
particularly with respect to trends concerning broadcast
station ownership by minorities and women—endeavors
that should be aided by the Commission’s research
workshop, discussed above.
B.

Remand Review of the Revenue-Based Eligible
Entity Standard
1.

810
811

Background

FNPRM, 29 FCC Rcd at 4483, para. 253.
Id.

370
271. In the NPRM the Commission sought comment
on a number of actions it could take with respect to the
remanded eligible entity definition, including the possibility of reinstating the revenue-based definition to support policy objectives other than increased minority and
female ownership of broadcast stations.812 In particular, the Commission asked whether re-adoption of the
revenue-based standard would serve the Commission’s
traditional goals of fostering viewpoint diversity, localism, and competition by enhancing opportunities in
broadcasting for small businesses and new entrants.813
Recognizing the Third Circuit’s apparent skepticism
that the Commission would be able to demonstrate on
remand that the revenue-based eligible entity standard
promotes increased ownership of broadcast stations by
minorities and women, the Commission also asked commenters to supply any available evidence that would
show a stronger connection between the revenue-based
eligible entity definition and our goal of increasing minority and female ownership of broadcast stations.814
272. The Commission adopted the revenue-based eligible entity definition in the 2002 Biennial Review Order as an exception to the prohibition on the transfer of
grandfathered station combinations that violated the local radio ownership limits.815 The Commission adopted

NPRM, 26 FCC Rcd at 17550-51, paras. 159-62.
Id. at 17550-51, paras. 160-61.
814
Id. at 17550, para. 160.
815
2002 Biennial Review Order, 18 FCC Rcd at 13809-12, paras.
487-90. The exception permitted broadcast licensees to assign or
transfer control of a grandfathered combination to an eligible entity,
which the Commission defined as any entity that would qualify as a
812
813

371
this flexible transfer policy to promote diversity of ownership in broadcasting by facilitating new entry by and
growth of small businesses in the broadcast industry.816
Thereafter, in the Diversity Order, the Commission concluded that additional uses of the eligible entity definition would advance its objectives of promoting ownership diversity by facilitating greater small business participation in the broadcast industry. 817 The Commission stated at that time that the adoption of new measures
relying on this definition would “be effective in creating
new opportunities for broadcast ownership by a variety
of small businesses and new entrants, including minorities and women.818
273. In Prometheus II, the Third Circuit vacated
and remanded each of the measures adopted in the Diversity Order that incorporated the eligible entity definition.819 The court held that the Commission failed to

small business consistent with revenue-based standards for its industry grouping, as established by the SBA. The exception also allowed eligible entities to sell existing grandfathered combinations
intact to new owners, subject to limited restrictions. Id. at 1381012, paras. 488-90.
816
Id. at 13810-11,para. 488.
817
Diversity Order, 23 FCC Rcd at 5926, para. 7. The Commission adopted the following measures that relied on the eligible entity
definition: (1) Revision of Rules Regarding Construction Permit
Deadlines; (2) Modification of Attribution Rule; (3) Distress Sale
Policy; (4) Duopoly Priority for Companies that Finance or Incubate
an Eligible Entity; (5) Extension of Divestiture Deadline in Certain
Mergers; and (6) Assignment or Transfer of Grandfathered Radio
Station Combinations. Id. at 5928-45, paras. 10-61.
818
Id. at 5927, para. 9.
819
Prometheus II, 652 F.3d at 437.

372
show that measures based on the eligible entity definition “will enhance significantly minority and female
ownership,” which it found was a stated goal of the rulemaking proceeding culminating in the Diversity Order.820 The court further observed that, in discussing
its decision to adopt the eligible entity definition, the
Commission had referred “only to ‘small businesses,’
and occasionally ‘new entrants,’ as expected beneficiaries.”821 Between 2002 and the Third Circuit’s remand
of the measures relying on the eligible entity definition
in 2011, the Commission had used the revenue-based
standard to support a range of measures intended to encourage ownership diversity.
274. In response to the NPRM, several commenters,
including the Alliance for Women in Media (AWM) and
NAB, supported reinstatement of the revenue-based eligible entity definition and the measures to which it previously applied as a means of enhancing ownership opportunities for small businesses and new entrants generally, regardless of race or gender.822 In its comments,
NAB noted that reinstating the pre-existing eligible entity standard and the measures that relied on that standard would further the Commission’s statutory goal of
eliminating market barriers for entrepreneurs and

Id. at 471; see also id. at 470 (finding that the Commission had
failed to “explain how the eligible entity definition adopted [in the
Diversity Order] would increase broadcast ownership by minorities
and women”); id. at 471 (finding that the eligible entity definition
“lacks a sufficient analytical connection to the primary issue that Order was intended to address”).
821
Id. at 470.
822
AWM NPRM Comments at 6-7; NAB NPRM Comments at 5556; NAB NPRM Reply at 33.
820

373
small businesses.823 UCC et al. recommended that, instead of abandoning or repurposing the revenue-based
definition, the Commission should assess whether the
standard has had any measurable impact on minority
and female ownership of broadcast stations.824 In contrast, other commenters, such as DCS, argued that the
pre-existing eligible entity definition should not be reinstated because it had no measurable impact on minority
ownership.825 According to DCS, no meaningful impact
on minority ownership would be achieved by relying on
a definition based solely upon the revenue limits that the
SBA has established for small businesses.826
275. In the FNPRM, we tentatively concluded that reinstating the revenue-based eligible entity standard would
serve the public interest by enabling more small businesses to participate in the broadcast industry, thereby
encouraging innovation and expanding ownership and
viewpoint diversity.827 We tentatively concluded that such
a standard is an appropriate and worthwhile approach for
expanding ownership diversity regardless of whether the

NAB NPRM Comments at 56 (citing 47 U.S.C. § 257(a)); NAB
NPRM Reply at 33 (citing 47 U.S.C. § 257(a)).
824
UCC. et al. NPRM Comments at 32-33.
825
DCS NPRM Comments at 19. For this proposition, DCS quotes
Prometheus II, which stated that the revenue-based definition does
not increase minority ownership because “minorities comprise 8.5
percent of commercial radio station owners that qualify as small
businesses, but [only] 7.78 percent of the commercial radio industry
as a whole.” Id. (quoting Prometheus II, 652 F.3d at 470).
826
Id.
827
FNPRM, 29 FCC Rcd at 4489, para. 267.
823

374
standard was also effective in promoting ownership of broadcast stations specifically by women and minorities.828 Noting that the Commission has previously applied SBA standards to define eligible entities, we proposed to define an eligible entity as any entity—commercial or noncommercial—
that would qualify as a small business consistent with
SBA standards for its industry grouping, based on revenue. 829 We proposed to require an eligible entity to
satisfy one of several control tests to ensure that ultimate control rests in an entity that satisfies the revenue
criteria. 830 Further, we tentatively concluded that, if
we chose to reinstate the eligible entity definition, it
would be appropriate to re-adopt each of the previous
measures that relied on this definition prior to remand
in Prometheus II. We noted in the FNPRM that our
records indicated that a significant number of applicants
and permittees had previously availed themselves of one
or more of those measures.831

Id.
Id. at 4491, para. 272.
830
Id. at 4491-92, para. 272. Specifically, we proposed that the eligible entity would have to hold: (1) 30 percent or more of the stock/
partnership shares and more than 50 percent voting power of the
corporation or partnership that will hold the broadcast license; (2)
15 percent or more of the stock/partnership shares and more than
50 percent voting power of the corporation or partnership that will
hold the broadcast licenses, provided that no other person or entity
owns or controls more than 25 percent of the outstanding stock or
partnership interest; or (3) more than 50 percent of the voting power
of the corporation if the corporation that holds the broadcast licenses
is a publicly traded company. Diversity Order, 23 FCC Rcd at 592526, para. 6 n.14 (citing 2002 Biennial Review Order, 18 FCC Rcd at
13811, para. 489).
831
FNPRM, 29 FCC Rcd at 4489-90, paras. 269-71.
828
829

375
276. Although no commenters challenge the
FNPRM’s tentative conclusion that reinstating the
revenue-based eligible entity standard will promote
small business participation in broadcasting, some commenters assert that the standard has not been shown to
increase ownership of broadcast stations by minorities
and women specifically—something that the FNPRM
explicitly acknowledges.
MMTC states that the
FNPRM fails to include any meaningful proposals to advance minority ownership and does not promote the creation of a meaningful eligible entities program pursuant
to the Third Circuit’s remand.832 Rather, MMTC argues, the FNPRM reverts to a flawed eligible entities
definition based on SBA size standards with little regard
for whether this approach will promote minority media
ownership effectively. 833 UCC et al. state that the
Commission, by proposing to re-adopt a revenue-based
eligible entity definition, fails to act on their prior suggestion that the Commission assess whether a small
business definition had any impact on ownership by minorities and women.834 UCC et al. acknowledge that in
MMTC FNPRM Comments at 4-5.
Id.
834
UCC et al. FNPRM Comments at 15; UCC et al. FNPRM Reply
at 23-24. UCC et al. state that the Commission does not analyze the
race, gender, or ethnicity of any eligible entities that benefited from
the transfer of construction permits policies even though the Commission has collected race and gender data at least since 2009. UCC
et al. FNPRM Comments at 15. And, even though a majority (67
percent) of the eligible entities that utilized the construction permit
transfer extension policy are noncommercial educational stations
(NCEs), the Commission has never acted on its proposal to collect
race, gender, and ethnicity data for NCEs, state UCC et al. UCC
et al. FNPRM Comments at 15. UCC et al. FNPRM Comments at
15; UCC et al. FNPRM Reply at 23-24. As noted above, however,
832
833

376
the FNPRM the Commission cited data to support its
tentative conclusion that the revenue-based eligible entity standard promotes viewpoint diversity, but those
commenters suggest that the Commission should have
also analyzed whether any entities controlled by women
or minorities were among those that benefited from the
policies relying on the eligible entity standard.”835 According to UCC et al., the fact that the Commission did
not cite evidence demonstrating that the revenue-based
eligible entity standard will specifically promote minority and female ownership of broadcast stations, combined with the low number of stations controlled by minorities or women while the revenue-based standard
was in effect, confirms that the revenue-based standard
lacks a sufficient analytical connection to promoting
broadcast ownership by minorities and women.836
277. Native Public Media and the National Congress
of American Indians (NPM/NCAI) agree with those
commenters who oppose the tentative conclusion that
re-adopting the previous eligible entity definition is an
appropriate measure to further diversity in response to
the court’s remand.837 NPM/NCAI argue that, in order
to advance ownership diversity, the Commission could
expand the definition of eligible entity to include Tribes

the Commission recently adopted revisions to Form 323-E to collect
race, gender, and ethnicity data for NCE stations as part of the biennial ownership report filings. Supra Section IV.A.2.
835
UCC et al. FNPRM Comments at 15.
836
Id. at 16. UCC et al. FNPRM Comments at 15; UCC et al.
FNPRM Reply at 23-24.
837
Native Public Media and the National Congress of American Indians FNPRM Reply at 4-6 (NPM/NCAI).

377
and Tribal applicants until such time as sufficient evidence is developed to support a race-conscious eligible
entity definition. 838 NPM/NCAI advocate this expansion of the eligible entity definition as an interim step
that the Commission could take now while it conducts
further studies on which race- and gender-specific actions could be taken.839
278. Although they object to the reinstatement of
the revenue-based eligible entity standard, DCS urge
the Commission not to abandon the policy of allowing
the transfer of grandfathered radio combinations under
certain conditions or the policy of affording eligible entities that acquire broadcast construction permits additional time to construct their facilities under certain circumstances.” 840 Further, DCS and MMTC urge the
Commission to broaden the construction deadline extension policy to include construction permits for major
modifications of authorized broadcast facilities.841 NAB
NPM/NCAI FNPRM Reply at 6-7. Specifically, NPM/NCAI
request that the Commission alter the definition of eligible entities
to include “any Tribe or Tribal applicant as defined by 47 CFR
§ 73.7000.” Id. at 7.
839
NPM/NCAI FNPRM Reply at 7. In support of this approach,
NPM/NCAI state that the Commission has previously found that a
classification based on Tribes or Tribal members would not trigger
strict scrutiny. Id. According to NPM/NCAI, Tribal radio plays a
crucial role in Native communities, because Tribal lands often do not
have access to reliable cell service or broadband Internet. Consequently, NPM/NCAI assert that some Native communities depend
on radio to provide not only cultural information but also news and
public safety and health announcements. Id. at 8. We address this
proposal below. See infra note 847.
840
DCS NPRM Comments at 14-15, 19, 31.
841
MMTC FNPRM Comments at 8-9; DCS NPRM Comments at
31; DCS NPRM Supplemental Comments at 38-42.
838

378
similarly supports the policy regarding the transfer of
grandfathered radio station combinations, as well as
other race-neutral, incentive-based approaches that reduce barriers to entry, such as the reinstatement of the
higher Equity Debt Plus (EDP) attribution threshold
for eligible entities.842 However, UCC et al. argue that
without an alternative eligible entity definition that is
reasonably and explicitly related to the specific goal of
increasing ownership of broadcast stations by women
and minorities, re-adopting the higher EDP attribution
threshold and the policy regarding the transfer of
grandfathered radio combinations will not promote minority and female ownership.843
2.

Discussion

279. We conclude that the Commission’s prior revenuebased eligible entity definition should be reinstated and
applied to the regulatory policies set forth in the Diversity Order. We find that reinstating the eligible entity
definition and the measures to which it applied will serve
the public interest by promoting small business participation in the broadcast industry and potential entry by
new entrepreneurs. As discussed below, we find that
the record supports these conclusions. Accordingly,
we reinstate our previous revenue-based eligible entity
definition and the measures adopted in the Diversity
Order that were vacated and remanded by the Third
Circuit in Prometheus II.
280. We conclude that the revenue-based eligible entity standard is a reasonable and effective means of promoting broadcast station ownership by small businesses
842
843

NAB FNPRM Comments at 92-94.
UCC et al. FNPRM Reply at 22-25.

379
and potential new entrants. We continue to believe
that small business applicants and licensees often have
financial and operational needs that are distinct from
those of larger broadcasters, and that they require greater
flexibility with regard to licensing, construction, auctions,
and transactions. By easing certain regulations for small
business applicants and licensees, we believe we will increase station ownership opportunities for small businesses and new entrants, to the benefit of the public interest.
281. Moreover, we conclude that our traditional policy objectives will be served by enhancing opportunities
for small business participation in the broadcast industry via the eligible entity standard. We continue to believe that enabling more small businesses to participate
in the broadcast industry will encourage innovation and
promote competition and viewpoint diversity. As the
Commission has noted previously, greater small business participation in communications markets “will expand the pool of potential competitors” and “should bring
new competitive strategies and approaches by broadcast
station owners in ways that benefit consumers in those
markets. 844 We continue to believe that this is true.
Furthermore, increasing opportunities for small businesses to participate in the broadcast industry will foster viewpoint diversity by facilitating the dissemination
of broadcast licenses to a wider variety of applicants
than would otherwise be the case. Competition and
viewpoint diversity are two primary policy objectives
that have traditionally guided the Commission’s analysis of broadcast ownership issues.

844

2002 Biennial Review Order, 18 FCC Rcd at 13637, para. 51.

380
282. The record supports these conclusions. Commenters, including AWM and NAB, agree that re-adopting
the revenue-based eligible entity standard is an appropriate means of enhancing ownership opportunities for
small businesses and new entrants.845 Although UCC
et al. criticize our proposal to reinstate the revenuebased standard, they also acknowledge the data we cited
in the FNPRM to support our conclusion that the standard promotes viewpoint diversity. 846 UCC et al. and
other commenters that criticize the revenue-based eligible entity standard do so based on their view that the
standard is not an effective means of increasing ownership specifically by women and minorities.847 However,
AWM NPRM Comments at 6-7; NAB NPRM Comments at 53,
55-56; NAB NPRM Reply at 32-33; see also NAB FNPRM Comments at 91-92 (supporting incentives-based measures that reduce
barriers to entry into broadcasting for all small businesses).
846
UCC et al. FNPRM Comments at 15.
847
See MMTC FNPRM Comments at 4; UCC et al. FNPRM Comments at 15-16; UCC et al. FNPRM Reply at 23-24; NPM/NCAI
FNPRM Reply at 6; DCS NPRM Comments at 19. As noted above,
NPM/NCAI argue that, pending further action on a race- and genderconscious eligible entity standard, the Commission “can take another significant step towards overcoming th[e] underrepresentation [of Native Americans in broadcast station ownership] by expanding the definition of eligible entity to include Native Nations.”
See NPM/NCAI FNPRM Reply at 6-8. As discussed above, we are
re-instating the revenue-based eligible entity standard to promote
broadcast station ownership by small businesses and new entrants.
We do not believe it is necessary to expand our revenue-based eligible entity definition to include Tribes and Tribal Applicants in order
to enable more small businesses to participate in the broadcast industry. Moreover, as NPM/NCAI point out, the Commission has
adopted measures in a separate proceeding that are intended to expand broadcast opportunities for Tribal Nations and Tribal entities.
Id. at 6-7. To the extent that their proposal is intended to increase
845

381
this has no bearing on our conclusion that the standard
will help promote small business and new entrant participation in the broadcast industry.
283. Our decision to reinstate the revenue-based eligible entity standard is also supported by the Commission’s own records, which indicate that a significant
number of broadcast licensees and permittees availed
themselves of policies based on the revenue-based eligible entity standard between the implementation of that
standard and its suspension following Prometheus II.
One of those policies was to allow an eligible entity that
acquired an expiring broadcast construction permit to
obtain additional time to build out its facilities in certain
circumstances.848 In the FNPRM, we noted that many
broadcast service to Tribal lands, we believe it is outside the scope
of this quadrennial review proceeding. We note that, in the Rural
Radio proceeding, the Commission adopted a Tribal Radio Priority
in order to expand the number of radio stations owned or majority
controlled by federally recognized American Indian Tribes and Alaska
Native Villages, or Tribal consortia, broadcasting to Tribal lands.
See Policies to Promote Rural Radio Service and to Streamline Allotment and Assignment Procedures, First Report and Order and
Further Notice of Proposed Rule Making, 25 FCC Rcd 1583 (2010);
Policies to Promote Rural Radio Service and to Streamline Allotment and Assignment Procedures, Second Report and Order, First
Order on Reconsideration, and Second Further Notice of Proposed
Rule Making, 26 FCC Rcd 2556 (2011); Policies to Promote Rural
Radio Service and to Streamline Allotment and Assignment Procedures, Third Report and Order, 26 FCC Rcd 17642 (2011).
848
See Diversity Order, 23 FCC Rcd at 5930-3 1, paras. 15-16; see
also 47 CFR § 73.3598(a) (“An eligible entity that acquires an issued
and outstanding construction permit for a station in any of the services listed in this paragraph shall have the time remaining on the
construction permit or eighteen months from the consummation of
the assignment or transfer of control, whichever is longer, within
which to complete construction and file an application for license.”).

382
small businesses made use of this measure. Our records at the time indicated that Commission staff processed approximately 247 Form 314 construction permit
assignment applications in which the assignee selfidentified as an eligible entity during the period this
measure was in use. 849 Those 247 initial applications
resulted in the construction and operation of at least 132
new broadcast facilities.850 A more recent review of our
records indicates that nearly all of these stations remain
on the air. Based on a recent staff review, of the 132

new stations that were built and commenced operation,
118 stations (approximately 89.4 percent) were still operating and an additional three eligible entities that previously were not licensed or had not built out their facilities had since been licensed.851 In addition to the 247

FNPRM, 29 FCC Rcd at 4489-90, para. 269. FCC Form 314
requires that assignees in broadcast transactions indicate whether
the assignee is an eligible entity as that term is defined in the Diversity Order. FCC Form 314, Application for Consent to Assignment
of Broadcast Station Construction Permit or License, Section III—
Assignee, Question 6(d), (e)(A)-(B), http://transition.fcc.gov/Forms/
Form314/314.pdf. Specifically, the assignee must include a detailed
showing demonstrating proof of status as an eligible entity.
850
FNPRM, 29 FCC Rcd at 4489-90, para. 269. Eleven (4.5 percent) of the eligible entities were not yet licensed or had not built out
the facilities specified on their construction permits, and at the time
104 of the construction permits held by eligible entities had been
cancelled for various reasons. Id.
851
Based on staff analysis of CDBS data as of August 25, 2015, the
data reveal that 109 (90.1 percent) of these 121 stations are FM stations; 10 (8.3 percent) are AM stations; one (0.8 percent) is a digital
849

383
Form 314 applications that sought Commission consent
to the assignment of a construction permit to an eligible
entity, our records indicate that during the relevant period Commission staff processed 21 Form 315 construction permit transfer of control applications in which the
transferee self-identified as an eligible entity. 852 All
but one of these facilities (95.2 percent) were constructed
following approval of the transfer of control and are now
on the air.853

TV station; and one (0.8 percent) is an FM translator station. Moreover, 82 (67.8 percent) of these stations are noncommercial educational (NCE) stations. We note that in the past NCE licensees have
not been required to report information concerning the race, gender,
or ethnicity of individuals who hold attributable interests in NCE
stations. As discussed above, in January we updated our reporting
requirements for NCE stations to more closely parallel the requirements for commercial broadcast stations, including by requiring that
NCE licensees report race, gender, and ethnicity information for attributable interest holders in NCE stations. Form 323/CORES Report and Order.
852
Similar to Form 314, FCC Form 315 requires that transferees
in broadcast transactions indicate whether the transferee is an eligible entity as that term is defined in the Diversity Order. FCC
Form 315, Application for Consent to Transfer Control of Entity
Holding Broadcast Station Construction Permit or License, Section
IV—Transferee(s), Question 8(d), (e)(A)-(B), https://transition.fcc.
gov/Forms/Form315/315.pdf. The transferee must include a detailed showing demonstrating proof of status as an eligible entity.
853
One of these 21 construction permits was cancelled. Of the 20
stations that have been built and are operating, 11 (55 percent) are
FM stations; seven (35 percent) are AM stations; one (5 percent) is
a low-power FM station; and one (5 percent) is a low-power TV station. All but one of these stations are commercial stations. FCC
staff analysis of CDBS data as of August 25, 2015.

384
284. The data clearly suggest that providing additional time to construct broadcast facilities has facilitated market entry by small broadcasters. Further,
we note that the data reflect the use of the prior eligible
entity standard in a limited context and do not reflect
the total number of applicants and permittees that benefited from all the various broadcast policies that relied
on the revenue-based eligible entity standard. Even so,
this information supports our conclusion that the revenuebased eligible entity standard has been used successfully by a significant number of small firms and has not
only aided their entry, but also contributed to the sustained presence of small firms in broadcasting in furtherance of our public interest goals.
285. In addition to reinstating the revenue-based eligible entity standard, we believe it is in the public interest to apply the standard to the full range of construction, licensing, transaction, and auction measures to which
it previously applied. AWM and NAB support reinstatement of these measures,854 and DCS has urged the Commission to reinstate the measures concerning construction permit deadlines and transfers of grandfathered radio station combinations.855 Commenters that have argued against reinstatement have done so based on whether
the measures will specifically increase minority and female ownership of broadcast stations,856 which again has
no bearing on whether the measures will promote small
business participation in the broadcast industry. Ac-

AWM NPRM Comments at 6-7; NAB NPRM Comments at 53,
55-56; NAB NPRM Reply at 32-33.
855
DCS NPRM Comments at 14-15, 31.
856
See, e.g., UCC et al. FNPRM Reply at 22-25.
854

385
cordingly, the Commission hereby re-adopts each measure relying on this definition that was remanded in Prometheus II. Specifically, we reinstate the following
measures: (1) Revision of Rules Regarding Construction Permit Deadlines;857 (2) Modification of Attribution
Rule;858 (3) Distress Sale Policy;859 (4) Duopoly Priority
Diversity Order, 23 FCC Rcd at 5930, para. 15 (revising construction permit rules to allow the sale of an expiring construction
permit to an eligible entity that pledges to build out the permit
within the time remaining in the original construction permit or
within 18 months, whichever period is greater); see also 47 CFR
§ 73.3598(a). In reinstating this measure, the Commission emphasizes that this exception to our strict broadcast station construction
policy is limited to one 18-month extension based on one assignment
to an eligible entity.
858
Diversity Order, 23 FCC Rcd at 5936, para. 31 (relaxing the
equity/debt plus (EDP) attribution standard for interest holders in
eligible entities by “allow[ing] the holder of an equity or debt interest in a media outlet subject to the media ownership rules to exceed
the 33 percent threshold set forth in [the EDP standard] without
triggering attribution where such investment would enable an eligible entity to acquire a broadcast station provided (1) the combined
equity and debt of the interest holder in the eligible entity is less
than 50 percent, or (2) the total debt of the interest holder in the
eligible entity does not exceed 80 percent of the asset value of the
station being acquired by the eligible entity and the interest holder
does not hold any equity interest, option, or promise to acquire an
equity interest in the eligible entity or any related entity”); see also
47 CFR § 73.3555, Note 2(i)(2). In addition, pursuant to the new
entrant bidding credits available under the Commission’s broadcast
auction rules, the modified EDP attribution standard was available
to interest holders in eligible entities that are the winning bidders in
broadcast auctions. See 47 CFR § 73.5008(c)(2). We also reinstate
this application of the modified EDP standard.
859
Diversity Order, 23 FCC Rcd at 5939, para. 39 (modifying the
distress sale policy by allowing a licensee that has been designated
for a revocation hearing or has a renewal application that has been
857

386
for Companies that Finance or Incubate an Eligible Entity;860 (5) Extension of Divestiture Deadline in Certain
Mergers;861 and (6) Assignment or Transfer of Grandfathered Radio Station Combinations.862 Moreover, to ensure realization of our policy goals, in reviewing the sale
of a permit to an eligible entity, we will assess the bonafides of both the arms-length structure of the transaction and the assignee’s status as an eligible entity as proposed in the FNPRM.863 In addition, we clarify that this
exception to our broadcast station construction policy
applies both to original construction permits for the construction of new stations and to construction permits for
major modifications of authorized broadcast facilities.864
designated for hearing on basic qualification issues to sell the station
to an eligible entity prior to the hearing).
860
Id. at 5943, para. 56 (giving an applicant for a duopoly that
agrees to finance or incubate an eligible entity priority over other
applicants in the event that competing duopoly applications simultaneously are filed in the same market).
861
Id. at 5943-44, paras. 57-60 (agreeing to consider requests to extend divestiture deadlines when applicants actively have solicited
bids for divested properties from eligible entities and further stating
that entities granted such an extension must sell the divested property to an eligible entity by the extended deadline or have the property placed in an irrevocable trust for sale by an independent trustee
to an eligible entity).
862
Id. at 5944-45, para. 61 (permitting the assignment or transfer
of a grandfathered radio station combination intact to any buyer so
long as the buyer files an application to assign the excess stations to
an eligible entity or to an irrevocable divestiture trust for the ultimate assignment to an eligible entity within 12 months after consummation of the purchase of the grandfathered stations).
863
FNPRM, 29 FCC Rcd at 4490, n.797.
864
See MMTC FNPRM Comments at 8-9; DCS NPRM Comments
at 31; DCS NPRM Supplemental Comments at 38-42. We agree
with DCS that the purpose of this measure would be best served by

387
We also lift any prior suspension of Commission rules
implementing these measures and applying the eligible
entity standard.”865
286. Consistent with the Commission’s pre-existing
eligible entity definition, we define an eligible entity as
any entity—commercial or noncommercial—that would
qualify as a small business consistent with SBA standards for its industry grouping, based on revenue. 866
For all SBA programs, a radio or television station with
no more than $38.5 million in annual revenue currently
is considered a small business.867 To determine qualifi-

applying it in the manner stated above. DCS Supplemental NPRM
Comments at 40 (explaining that major modifications can be difficult
and time-consuming and concluding that an 18-month extension of
the construction deadline can be critical to the preservation of the
modification permit and would encourage the sales of stations undergoing such major changes to small businesses and new entrants).
865
See Media Bureau Provides Notice of Suspension of Eligible
Entity Rule Changes and Guidance on the Assignment of Broadcast
Station Construction Permits to Eligible Entities, Public Notice,
26 FCC Rcd 10370 (MB 2011); see also 47 CFR §§ 73.3555, Note
2(i)(2), 73.3598(a), 73.5008(c)(2). As of the effective date of the reinstated Eligible Entity measures, the suspension will no longer be
in effect.
866
Diversity Order, 23 FCC Rcd at 5925-26, para. 6; 2002 Biennial
Review Order, 18 FCC Rcd at 13810-11, paras. 488-89. As the Commission previously held, going forward we will include both commercial and noncommercial entities within the scope of the term “eligible
entity” to the extent that they otherwise meet the criteria of this
standard. In the FNPRM, we sought comment on whether to use
different eligible entity definitions for commercial and noncommercial entities, and no commenters have urged us to do so. FNPRM,
29 FCC Rcd at 4491, para. 272 n.803.
867
See 13 CFR § 121.201 (North American Industry Classification
System (NAICS) code categories). The definition of small business

388
cation as a small business, the SBA considers the revenues of domestic and foreign affiliates, including the
parent corporation and affiliates of the parent corporation, not just the revenues of individual broadcast stations.868 We will also require an eligible entity to satisfy one of several control tests to ensure that ultimate
control rests in an entity that satisfies the revenue criteria. Specifically, the eligible entity must hold: (1)
30 percent or more of the stock/partnership shares and
more than 50 percent voting power of the corporation or
partnership that will hold the broadcast license; (2) 15
percent or more of the stock/partnership shares and
more than 50 percent voting power of the corporation or
partnership that will hold the broadcast licenses, provided that no other person or entity owns or controls
more than 25 percent of the outstanding stock or partnership interest; or (3) more than 50 percent of the voting power of the corporation if the corporation that
holds the broadcast licenses is a publicly traded company.869
for the radio industry is listed in NAICS code 515112, and the definition of a small business for the television industry is listed in
NAICS code 515120.
868
Id. §§ 121.103, 121.105.
869
FNPRM, 29 FCC Rcd at 4491-92, para. 272; Diversity Order,
23 FCC Rcd at 5925-26, para. 6 n.14 (citing 2002 Biennial Review
Order, 18 FCC Rcd at 13811, para. 489). When the Commission, in
the 2002 Biennial Review Order, ruled that licensees would be allowed to transfer grandfathered station combinations to eligible entities, it required that control of the eligible entity purchasing the
grandfathered combination must meet one of several control tests,
as stated above, to meet the Commission’s public interest objectives
and ensure that the benefits of the exception flowed as intended.
See 2002 Biennial Review Order, 18 FCC Rcd at 13811, para. 489.
We readopt these requirements for the same reasons.

389
C.

Remand Review of a Race- or Gender-Conscious
Eligible Entity Standard
1.

Background
a.

Prometheus II and the NPRM

287. Our adoption of a revenue-based definition of
eligible entity to promote small business participation in
the broadcast industry does not, of course, preclude us
from considering whether to adopt an additional standard designed specifically to promote minority and female ownership of broadcast stations. The Third Circuit in Prometheus II instructed the Commission to consider the other eligible entity definitions it had proposed
when it adopted the revenue-based definition in the
Third Diversity FNPRM, including a proposal based on
the SDB definition employed by SBA.870 The NPRM
sought comment on the benefits and risks of adopting an
SDB standard, which expressly would recognize the
race and ethnicity of applicants. The NPRM also solicited input on other proposals that were included in the
Third Diversity FNPRM and any other race- or genderconscious standards the Commission should consider.871
288. In response to the NPRM, a number of commenters supported the adoption of a race- or genderconscious standard as a means to increase minority and

Prometheus II, 652 F.3d at 471-72. The Third Circuit specifically instructed the Commission to consider the alternative eligibility standards it had proposed in the Diversity Order “before it completes its 2010 Quadrennial Review.” Id. at 471.
871
See NPRM, 26 FCC Rcd at 17552-53, paras. 165-66.
870

390
female ownership of broadcast stations.872 Commenters asserted that, based on Prometheus II, the Commission must fully consider the feasibility of adopting an
SDB standard in this proceeding and is not permitted to
defer consideration of race- or gender-based action until
a future proceeding. 873 Some commenters also asserted that, prior to the conclusion of this proceeding,
the Commission must provide any further data and complete any additional empirical studies that may be necessary to evaluate or justify the adoption of an SDB
standard.874 Similarly, several commenters asked the
Commission not to make any changes to any of the media ownership rules until it collects and analyzes data on
broadcast ownership by women and minorities in a manner that they view as consistent with the court’s remand
of the eligible entity standard.875

See UCC et al. NPRM Comments at 30; DCS NPRM Comments
at 15-18; Free Press NPRM Comments at 12; Hawkins NPRM Reply at 4, 14-15; NHMC et al. NPRM Comments at 30-33; NABOB
2012 323 Report Comments at 3-6; see generally NABOB NOI Comments; LCCHR 2012 323 Report Comments at 4.
873
See Hawkins NPRM Reply at 14-15; Free Press NPRM Comments at 6, 9; UCC et al. 2012 323 Report Comments at 4; NHMC
2012 323 Report Comments at 4; LCCHR 2012 323 Report Comments at 4; Media Alliance 2012 323 Report Comments at 3-4.
874
See LCCHR 2012 323 Report Comments at 4; NHMC 2012 323
Report Comments at 4; UCC et al. 2012 323 Report Comments at 4,
10, 27. Several commenters further argued that the Commission’s
2012 323 Report does not satisfy the Third Circuit’s directive for the
Commission to fully consider the feasibility of adopting an SDB standard. See UCC et al. 2012 323 Report Comments at 10-16; NHMC
2012 323 Report Comments at 4-5.
875
See Letter from Michael J. Scurato, Policy Counsel, National
Hispanic Media Coalition, to Marlene H. Dortch, Secretary, FCC
872

391
289. Several commenters further seemed to assert
that Prometheus II not only obligates the Commission
to consider fully the feasibility of implementing a raceconscious eligible entity standard in this proceeding, but
also requires the Commission to adopt such a standard.876 However, other commenters suggested that the
Commission currently lacks evidence sufficient to implement a race- or gender-targeted standard.877 In light
of this perceived deficiency, one commenter suggested
that the Commission promptly implement an ODP standard, which the commenter described as race- and genderneutral, while the Commission develops the record necessary to adopt a constitutionally sustainable race(filed July 2, 2012); UCC et al. NPRM Comments at 38; Free Press
NPRM Comments at 10; LCCHR NPRM Comments at 1-4.
876
See, e.g., NABOB 2012 323 Report Comments at 10 (“The Court
in Prometheus II made clear that it believes the Commission can
adopt [a race-conscious] ‘eligible entity’ definition . . . and the
Court expects that definition to be along the lines of the SDB definitions used by other Federal agencies.”); NHMC 2012 323 Report
Comments at 7 (“[B]efore completing the 2010 Quadrennial Review
the Commission must develop a workable SDB definition. The
court has been expecting such action since its [Prometheus I decision], and it renewed that expectation in [Prometheus II].” (footnotes omitted)).
877
See NHMC et al. NPRM Comments at 32-33 (indicating that the
Commission has insufficient data to adopt a workable SDB definition); DCS NPRM Comments at 15, 17 (acknowledging that, in light
of Adarand, the Commission would face a high hurdle in developing
race-conscious remedies given current shortcomings in available
data and a need to update existing studies); DCS 2012 323 Report
Comments at 6-7 (recommending that the Commission adopt raceneutral policies while it conducts Adarand studies to develop a more
complete record should race- and gender-conscious proposals prove
to be necessary); LCCHR 2012 323 Report Comments at 3-4; UCC
et al. NPRM Comments at 30.

392
conscious definition.878 The ODP proposal is based on a
recommendation from the Diversity Advisory Committee that the Commission initiate a rulemaking proceeding to design, adopt, and implement a new preference in
its competitive bidding process that would award bidding credits to persons or entities that demonstrate that
they have overcome significant disadvantage.879
b.

The FNPRM

290. In the FNPRM, we rejected assertions that the
Commission is required to adopt an SBD standard or
another race- or gender-conscious eligible entity standard in this proceeding based on Prometheus II.880 We
See DCS NPRM Comments at 18.
Id. at 2. The Commission released a Public Notice in 2010 in
response to the Diversity Advisory Committee’s recommendation.
Media and Wireless Telecommunications Bureaus Seek Comment
on Recommendation of the Advisory Committee on Diversity for
Communications in the Digital Age for a New Auction Preference
for Overcoming Disadvantage, Public Notice, 25 FCC Rcd 16854
(MB/WTB 2010) (Auction Preference Public Notice). In its comments on the NPRM, DCS also recommended that the Commission
issue a Notice of Proposed Rulemaking to adopt an ODP standard in
the context of the competitive bidding process for broadcast licenses.
DCS NPRM Comments at 19-21. DCS asserted that the Commission should adopt a race-conscious standard that closely reflects the
SBA’s SDB standard once it gathers sufficient data to justify such
an approach. Id. at 15-16. DCS opined that most minorities seeking ownership in the broadcast industry likely will fit within the
SBA’s definitions of a socially and economically disadvantaged business or individual. Id. Citing the current low levels of minority and
female ownership of broadcast stations, DCS also asserted that an
SDB standard is appropriate because certain groups face considerable challenges in attempting to access spectrum opportunities. Id.
at 2, 6-8, 13-14.
880
FNPRM, 29 FCC Rcd at 4497, para. 283.
878
879

393
also rejected commenters’ arguments that the Commission is not permitted to conclude this quadrennial review
proceeding until we have completed any and all studies
or analyses that might enable us to take such action in
the future consistent with current standards of constitutional law.881
291. The FNRPM also provided a detailed discussion of the constitutional analysis that would apply to
any race- or gender-conscious measure that the Commission might adopt.882 The FNPRM first set forth a
constitutional analysis of the Commission’s interest in
enhancing viewpoint diversity. We noted that a raceconscious eligible entity standard would be subject to
strict constitutional scrutiny and that, under strict scrutiny, such a standard must be justified by a compelling
governmental interest and narrowly tailored to further
that interest.883
292. Based on our preliminary analysis, we tentatively concluded that we did not have sufficient evidence
to satisfy the constitutional tests that would apply to an
SDB standard or any other race- or gender-conscious

Id.
Id. at 4496-4512, paras. 282-306.
883
Id. at 4480, 4492-93, 4496-97, paras. 246, 276, 282 (citing, inter
alia, Adarand, 515 U.S. 200; Grutter v. Bollinger, 539 U.S. 306,
326 (2003)). See also Fisher v. University of Texas at Austin,
133 S. Ct. 2411, 2418 (2013) (Fisher I) (“[R]acial ‘classifications are
constitutional only if they are narrowly tailored to further compelling governmental interests.’ ” (quoting Grutter, 539 U.S. at 328));
Fisher v. University of Texas at Austin, No. 14-981, 2016 WL
3434399, at *7 (June 23, 2016) (Fisher II) (“Race may not be considered [by a university] unless the admissions process can withstand
strict scrutiny.” (quoting Fisher I, 133 S. Ct. at 2418)).
881
882

394
eligible entity standard that the Commission might
adopt.884 While we tentatively concluded that a reviewing court could deem the Commission’s interest in promoting a diversity of viewpoints compelling, we tentatively concluded that the record evidence did not demonstrate that adoption of race-conscious measures would
be narrowly tailored to further that interest. 885 We
also tentatively found that the record did not reveal a
feasible means of conducting the type of individualized
consideration that the Supreme Court would be likely to
require in order for a race-conscious measure to pass
constitutional muster under strict scrutiny.886
293. We noted that gender-based diversity measures
would be evaluated under an intermediate standard of
review and upheld as constitutional if the government’s
actions are deemed substantially related to the achievement of an important objective.887 We tentatively concluded that the record evidence does not establish a relationship between female ownership and viewpoint diversity that is as substantial as the Supreme Court is
likely to require under intermediate scrutiny.888
294. We also identified significant issues that would
need to be resolved prior to the implementation of an
ODP standard—as had been proposed by DCS—such as

FNPRM, 29 FCC Rcd at 4496-97, para. 282.
Id. at 4497-4505, paras. 284-98.
886
Id. at 4505-06, para. 299.
887
Id. at 4508, para. 301 (citing United States v. Virginia, 518 U.S.
515, 531-33 (1996); Nev. Dep’t of Human Res. v. Hibbs, 538 U.S. 721
(2003)).
888
Id.
884
885

395
(1) what social or economic disadvantages should be cognizable under an ODP standard, (2) how the Commission
could validate claims of eligibility for ODP status, (3)
whether applicants should bear the burden of proving
specifically that they would contribute to diversity as a
result of having overcome certain disadvantages, (4)
how the Commission could measure the overcoming of a
disadvantage if an applicant is a widely held corporation
rather than an entity with a single majority shareholder
or a small number of control persons, and (5) how the
Commission could evaluate the effectiveness of the use
of an ODP standard.889 We noted that it is not entirely
clear whether the proposed ODP standard would be subject to heightened scrutiny.890 Further, we noted that
the Commission may lack the resources necessary to
conduct the type of individualized consideration that an
ODP standard would require and that the Commission
would have difficulty fully evaluating the potential diversity contributions of individual applicants without
running afoul of First Amendment values.891
295. The FNPRM also provided a detailed constitutional analysis of the Commission’s interest in remedying past discrimination. We tentatively concluded that
the record contained some evidence that would support
a finding of discrimination in the broadcast industry but
that the evidence was not of sufficient weight to satisfy
the constitutional standards that apply to race- and genderbased remedial measures.892 In particular, we tentatively found that there was no evidence in the record
889
890
891
892

Id. at 4506-07, para. 300.
Id.
Id.
Id. at 4509-12 paras. 302-06.

396
demonstrating a statistically significant disparity between the number of minority- and women-owned broadcast stations and the number of qualified minority- and
women-owned firms. We tentatively concluded that
we could not demonstrate a compelling interest in remedying discrimination in the Commission’s licensing
process in the absence of such evidence.893 We sought
comment on these issues and our preliminary analysis,
including any other factors or relevant precedent that
we should consider.
296. As discussed in greater detail below, many commenters continue to support the adoption of a race- or
gender-conscious eligible entity standard as a means of
increasing minority and female ownership of broadcast
stations.894 While many commenters are critical of the
Commission’s analysis in the FNPRM, they generally
do not provide additional evidence or new analysis that
Id.
E.g., AAJC FNPRM Comments at 2; Free Press FNPRM Comments at 14-15; LCCHR FNPRM Comments at 2-3; MMTC FNPRM
Comments at 7-8; NABOB FNPRM Comments at 4-6; NPM/NCAI
FNPRM Reply at 4-6; UCC et al. FNPRM Reply at 27; WGAW
FNPRM Comments at 15. For example, NABOB advocates a policy approach to directly support industry entry by minorities akin to
policies such as the former minority tax certificate, minority distress
sale policy, and the minority credit in comparative hearings.
NABOB FNPRM Comments at 4, 6. It asserts that from 1934 to
1978, when the Commission had no such specific policies, there was
very little minority broadcast station ownership; from 1978 to 1995,
the Commission had such policies and minority ownership saw rapid
growth, asserts NABOB. Thereafter, following suspension of these
policies, NABOB asserts, minority broadcast ownership experienced
a severe decline. Id. at 4. As discussed above, however, NABOB’s
assertion that minority ownership has experienced a severe decline
is contrary to the record evidence. See supra paras. 77, 126.
893
894

397
would support a departure from our tentative conclusion
in the FNPRM that we cannot, as matters stand, adopt
race- or gender-conscious measures. Nor do they propose specific, executable studies that plausibly might
generate evidence that would support the adoption of
race- or gender-conscious measures.
2. Discussion

297. We decline to adopt an SDB eligibility standard
or other race- or gender-conscious eligible entity standard. As we further discuss below, we have studied this
issue repeatedly and find that there is no evidence in the
record that is sufficient to satisfy the constitutional standards to adopt race- or gender-conscious measures.
And no commenter has proposed actionable study designs that would likely provide the evidence necessary
to support race- and/or gender-conscious measures.
While we find that a reviewing court could find the Commission’s interest in promoting a diversity of viewpoints
over broadcast media compelling, we do not believe that
the record evidence sufficiently demonstrates that
adoption of race-conscious measures would be narrowly
tailored to further that interest. In particular, we find
that the evidence in the record, including the numerous
studies that have been conducted or submitted, does not
demonstrate a connection between minority ownership
and viewpoint diversity that is direct and substantial
enough to satisfy strict scrutiny. The two recent studies that directly address the impact of minority ownership on viewpoint diversity find almost no statistically
significant relationship between such ownership and

398
their measure of viewpoint diversity.895 Other studies
in the record examine the relationship between minority
ownership and other aspects of our diversity goal, such
as programming or format diversity, rather than the
viewpoint diversity that the Supreme Court has recognized as an interest “of the highest order” and that the
Commission believes is most central to First Amendment values.896 Many of the studies, too, demonstrate
at most a limited relationship between minority ownership and other aspects of our diversity goal.897
298. In addition, we do not believe that the record
evidence establishes a sufficiently strong relationship
between diversity of viewpoint and female ownership of
broadcast stations that would satisfy the constitutional
standards for gender-based classifications. We find
that the evidence in the record does not reveal that the
content provided via women-owned broadcast stations
substantially contributes to viewpoint diversity in a manner different from other stations or otherwise varies significantly from that provided by other stations.898 Because the studies in the record do not indicate that in-

See FNPRM, 29 FCC Rcd at 4501, para. 292 (“[Media Ownership Study 8A] finds that the relationship between minority ownership and viewpoint diversity is not statistically distinguishable from
zero.”); id. at 4501, para. 293 (“With respect to minority ownership
in particular, the authors [of Media Ownership Study 8B] find almost
no statistically significant relationship between such ownership and
their measure of viewpoint diversity.”).
896
Turner I, 512 U.S. at 663 (internal quotations omitted); see
FNPRM, 29 FCC Rcd at 4502-05, paras. 294-98.
897
See FNPRM, 29 FCC Rcd at 4501-05, paras. 292-98.
898
See id. at 4508, para. 301.
895

399
creased female ownership will increase viewpoint diversity, we believe that they do not provide a rationale for
adopting gender-based diversity measures.899
299. Moreover, we do not believe that the record evidence is sufficient to establish a compelling interest in
remedying past discrimination. We find that there is
no evidence in the record demonstrating a statistically
significant disparity between the number of minorityand women-owned broadcast stations and the number of
qualified minority- and women-owned firms, and we lack
a plausible way to determine the number of qualified
firms owned by minorities and women.900 We believe
that we cannot demonstrate a compelling interest in
remedying discrimination in the Commission’s licensing
process in the absence of such evidence.901 Because the
only statistical evidence in the record pertains to discriminatory access to capital and the rest is anecdotal
evidence that is of more limited value for purposes of
satisfying heightened scrutiny, we find that the record
evidence of past discrimination in the broadcast industry
—both by the Commission itself and by private parties
with the Commission acting as a passive participant—is
not nearly as substantial as that accepted by courts in

899
900
901

See id. at 4508-09, para. 301 n.923.
See id. at 4509, para. 303.
See id.

400
other contexts as satisfying strict scrutiny.902 Accordingly, we cannot adopt rules that explicitly rely on race
or gender.903
a. Enhancing Viewpoint Diversity.

300. Race-Based Diversity Measures. In the FNPRM,
we expressed our belief that the Commission’s interest
in promoting viewpoint diversity could be deemed sufficiently compelling to survive the first prong of the strict
scrutiny test, and we sought comment on this analysis.904
In response to the FNPRM, many commenters agree
that the Commission’s interest in promoting viewpoint
diversity could be deemed sufficiently compelling under
strict scrutiny, and we affirm this belief. 905 The U.S.
Supreme Court to date has accepted only two justifications for race-based action as compelling for purposes of
strict scrutiny: student body diversity in higher education and remedying past discrimination.906 In Metro
Broadcasting, the Court held, based on the application
See id. at 4509-12, paras. 302-06. As discussed below, some
courts have held that evidence of a governmental role in past gender
discrimination is not required for remedial gender-based measures,
which are subject to intermediate scrutiny. See infra note 947.
Based on our evaluation of the record evidence, we also conclude that
it is not of sufficient weight to support gender-based remedial action.
See infra Section IV.C.2.b.
903
The FNPRM also contains a detailed and thorough analysis of
these issues, and it reflects the Commission’s extensive efforts to
evaluate the current constitutional considerations and available evidence regarding the adoption of race- and gender-conscious measures.
904
FNPRM, 29 FCC Rcd at 4497-4500, paras. 284-88.
905
See, e.g., AAJC FNPRM Comments at 14; UCC et al. FNPRM
Comments at 25; UCC/Common Cause FNPRM Reply at 13-14.
906
See generally Grutter, 539 U.S. 306; Adarand, 515 U.S. 200.
902

401
of intermediate constitutional scrutiny, that “the interest in enhancing broadcast diversity is, at the very least,
an important governmental objective.” 907 However,
the D.C. Circuit held in Lutheran Church that broadcast
diversity does not rise to the level of a compelling governmental interest.908 Also, in 2007, the Supreme Court
declined to recognize a compelling interest in diversity
outside of “the context of higher education.”909 In the
FNPRM, we tentatively found that the case law nevertheless supports our position that viewpoint diversity
would be found to be compelling—even though the law

Metro Broad., 497 U.S. at 567. See also Turner I, 512 U.S. at
663 (finding that “assuring that the public has access to a multiplicity
of information sources is a governmental purpose of the highest order, for it promotes values central to the First Amendment”); FCC
v. Nat’l Citizens Comm. for Broad., 436 U.S. 775, 795 (1978); United
States v. Midwest Video Corp., 406 U.S. 649, 668 n.27 (1972) (plurality opinion); Associated Press v. United States, 326 U.S. 1 (1945).
In reaching its determination that broadcast diversity is, at the very
least, an important governmental objective, the Court stated that
“[s]afeguarding the public’s right to receive a diversity of views and
information over the airwaves is . . . an integral component of
the FCC’s mission” and that the Commission’s “ ‘public interest’
standard necessarily invites reference to First Amendment principles.” Metro Broad., 497 U.S. at 567 (quoting Nat’l Citizens, 436 U.S.
at 795). In Adarand, the Court overruled the application of intermediate scrutiny in Metro Broadcasting but did not disturb other
aspects of that decision, including the recognition of an important
governmental interest in broadcast diversity. See Adarand, 515 U.S.
200.
908
Lutheran Church-Missouri Synod v. FCC, 141 F.3d 344, 354-55
(D.C. Cir. 1998).
909
Parents Involved in Cmty. Sch. v. Seattle Sch. Dist. No. 1, 551 U.S.
701, 703 (2007).
907

402
is unsettled.910 Regardless of whether viewpoint diversity is a compelling interest, however, we find that we
still cannot adopt an SDB eligibility standard or other
race- or gender-conscious eligibility standard, as discussed below.
301. Assuming a reviewing court could be convinced
that diversity of viewpoint is a compelling governmental
interest, we find that the record in this proceeding fails
to satisfy the second prong of the strict scrutiny test,
i.e., that there is a sufficient nexus between minority
ownership of broadcast stations and viewpoint diversity.
As we explained in the FNPRM, the two recent studies
in the record that directly address the impact of minority ownership on viewpoint diversity find almost no statistically significant relationship between such ownership and their measure of viewpoint diversity.911 Also,
consistent with the FNPRM, we find that the body of
evidence contained in the other 2010 Media Ownership
Studies and the studies that commenters submitted in
this proceeding largely concerns program or format diversity rather than viewpoint diversity, which we believe is the only kind of diversity likely to be accepted as
a compelling governmental interest under strict scrutiny.912 Moreover, as explained in the FNPRM, many
FNPRM, 29 FCC Rcd at 4498-99, paras. 285-87.
See id. at 4501, para. 292 (“[Media Ownership Study 8A] finds
that the relationship between minority ownership and viewpoint diversity is not statistically distinguishable from zero.”); id. at 4501,
para. 293 (“With respect to minority ownership in particular, the authors [of Media Ownership Study 8B] find almost no statistically significant relationship between such ownership and their measure of
viewpoint diversity.”).
912
As stated in the FNPRM, the Supreme Court’s prior recognition of broadcast diversity as an interest “of the highest order”
910
911

403
of those studies support only limited conclusions.913 Although we invited commenters to provide additional evidence and other information that might be relevant to
our analysis, some commenters merely dispute our assessment of known evidence, rather than submit additional information that we did not consider in the
FNPRM.914 We reject claims that, in tentatively finding that the evidence in the record does not demonstrate
the requisite connection between minority ownership
seems to pertain to viewpoint diversity. FNPRM, 29 FCC Rcd at
4502, para. 294 (citing Turner I, 512 U.S. at 663).
913
See, e.g., FNPRM, 29 FCC Rcd at 4502-03, para. 295 (tentatively finding that the evidentiary value of a 2006 study commissioned by the Benton Foundation in the context of a strict scrutiny
analysis would be limited because it covered only three neighborhoods in one metropolitan area); id. at 4503-04, para. 297 (noting that
the Turner Radio Study and Turner/Cooper TV Study commissioned
by Free Press offer only limited analyses of the content provided by
minority stations and do not provide any definitive analysis of viewpoint diversity issues). Commenters have not submitted any studies in this proceeding that provide the type of evidence that we previously indicated we believe would be necessary to satisfy the constitutional standards that apply to race- and gender-conscious measures. See FNPRM, 29 FCC Rcd at 4500-05, paras. 289-98 (evaluating the record evidence and tentatively finding that it does not
demonstrate the “nearly complete” or “tightly bound” nexus between
diversity of viewpoint and minority ownership that would be required to justify a race-based eligible entity definition); id. at 4508,
para. 301 (tentatively finding that record evidence does not demonstrate that the content provided via women-owned broadcast stations substantially contributes to viewpoint diversity in a manner
different from other stations or otherwise varies significantly from
that provided by other stations); infra paras. 304, 308.
914
As discussed below, however, these commenters generally seem
to accept our view that the record evidence does not provide a sufficient basis for the Commission to adopt race-conscious measures
that will withstand strict scrutiny. See infra para. 304.

404
and viewpoint diversity, we relied on dissenting opinions
to establish “an artificial and unofficial standard” for
narrow tailoring or evaluated the record evidence inconsistently in order to “minimize” evidence of a connection
between minority ownership and viewpoint diversity.915

915
See AAJC FNPRM Comments at 14-15; UCC/Common Cause
FNPRM Reply at 6-14. See also AAJC FNPRM Comments at 15
(asserting that it is premature for the Commission to affirm its tentative conclusions on narrow tailoring without knowing “how it will
actually implement race-conscious policies”); NABOB FNPRM Comments at 12-13 (asserting that the FNPRM identifies several studies
that “clearly demonstrate” that minority audiences prefer minority
programming and that based upon this measure, the Commission
has a substantial amount of evidence demonstrating that minority
ownership leads to viewpoint diversity); UCC/Common Cause
FNPRM Reply at 14 (“AAJC correctly explains that, without a specific policy before [it], it is impossible for the Commission to use the
four-prong Grutter test to evaluate [whether race-conscious measures would be narrowly tailored to further the Commission’s interest in viewpoint diversity].”); UCC et al. FNPRM Comments at 25
(asserting that it is premature for the Commission to affirm its tentative conclusions on narrow tailoring). We disagree with assertions that it is premature for the Commission to reach any conclusions on narrow tailoring. The Third Circuit directed the Commission to consider the SDB eligibility standard and other eligible entity
definitions proposed in the Third Diversity FNPRM, and we are
complying with the court’s instruction based on an extensive analysis
of applicable judicial precedent and available empirical evidence.

In addition to criticizing the FNPRM’s assessment of the record evidence and the applicable evidentiary standard, UCC/Common Cause
also criticize the FNPRM for “ask[ing] whether a theory of viewpoint diversity or remediation is viable, when in fact the Commission
would likely need to pursue several legal theories jointly to succeed.”
UCC/Common Cause FNPRM Reply at 12. Because of the “complex relationships,” the unique role of broadcasting in the U.S., and
the nature of scholarship in this area, the Commission should con-

405
To the contrary, our narrow tailoring analysis included
a discussion of relevant judicial precedent, and our tentative findings were based on a careful reading of that
precedent, taken as a whole, and our assessment of the
body of evidence in this proceeding.916 We find no reason in the present record to depart from that analysis.
Other commenters suggest additional topics that they
believe the Commission should study but do not propose
specific, executable studies or claim that the additional inquiries they propose would establish the requisite nexus
between minority ownership and viewpoint diversity.917
302. Moreover, while we find that the Hispanic Television Study is an important contribution to the study
of the impact of ownership on programming and viewership, we do not believe that the study’s findings materially impact our constitutional analysis. Given the scope
of the study (i.e., examining the nexus between ownership, programming, and viewing), many of the study’s
findings do not inform our viewpoint diversity analysis
specifically, which focuses primarily on local news and
public affairs programming. However, certain findings
sider “the cumulative justifications of viewpoint diversity, remediation, and the additional compelling interests that are also impacted
by broadcasting,” assert UCC/Common Cause. UCC/Common Cause
FNPRM Reply at 12. As we explained in the FNPRM and continue
to believe, we do not believe that any interest other than viewpoint
diversity or remediation of discrimination (if established by the record) would be found to be a compelling governmental interest sufficient to satisfy the first prong of the strict scrutiny test. And we
know of no case law, nor does UCC/Common Cause cite any, which
analyzes justifications for race-conscious action on a “cumulative”
basis. Consequently, we reject UCC/Common Cause’s suggestion.
916
See FNPRM, 29 FCC Rcd at 4500-05, paras. 289-98.
917
See, e.g., UCC/Common Cause FNPRM Reply at 9, 11.

406
were instructive. Notably, the study found evidence suggesting that Hispanic viewers watch local, Spanishlanguage news at higher levels than English-language
news and that Hispanic ownership is associated with local, Spanish-language news programming.918 The study
cautions that these results are only suggestive and that
limitations in the data (such as the small sample size of
Hispanic-owned stations) makes it difficult to identify
statistically significant results. 919 Accordingly, while
the study is a useful addition to the research into these
issues, the suggestive results are insufficient for a final
conclusion of the relationships examined.920 Therefore,
we do not believe that the study changes our constitutional analysis, though it has helped inform the study of
these issues. Indeed, commenters generally agree with
our assessment that the study has not provided a basis
for the Commission to adopt race-conscious measures.921
303. Some commenters disagree with our analysis of
case law involving judicial review of race-based classifications, as discussed above, but they do not cite any precedent that we did not consider in the FNPRM. As we explained there, we believe that empirical evidence of a
stronger nexus between minority ownership and viewpoint diversity than was demonstrated in Metro Broadcasting would be required in order for a race-conscious
rule to withstand strict scrutiny. 922 We are not persuaded by Asian Americans Advancing Justice (AAJC)’s

918
919
920
921
922

Hispanic Television Study at 74-75, paras. 136-37.
Id. at 2 para. 5.
Id. at 1, para. 1.
See, e.g., NHMC Hispanic TV Study Comments at 5.
FNPRM, 29 FCC Rcd at 4500, para. 290.

407
assertions to the contrary, which we believe are substantially the same as those we considered and rejected in
the FNPRM.923
304. And while some commenters disagree with the
sufficiency of our efforts to study the connection between minority ownership and viewpoint diversity, the
evidence in the record, our assessment of the evidence,
and the applicable evidentiary standard in this proceeding,924 they generally seem to accept our view that the
evidence is not sufficient to enable the Commission to
adopt race-based measures.
For instance, NABOB
acknowledges that additional studies may not provide evidence that could support race-conscious measures and
“therefore [the Commission] cannot promise to create a
policy that is specifically designed to promote minority
ownership.”925 Similarly, UCC et al. suggest that the
record evidence does not provide a sufficient basis for
the Commission to adopt a race-conscious eligibility
standard.926 Other commenters also seem to concede,
implicitly or explicitly, that the evidence in the present

AAJC FNPRM Comments at 15; see also NABOB FNPRM
Comments at 5 (“Indeed, the Supreme Court has acknowledged and
accepted that minority ownership leads to programming diversity,
and the Third Circuit Court of Appeals has acknowledged that
the Supreme Court’s determination of the nexus between minority
ownership and programming diversity is still the law of the land.
. . . ” (citing Prometheus II, 652 F.3d at 471, n.42)). These commenters do not cite any additional judicial precedent to support their
argument here.
924
As discussed above, we reject these assertions. See supra
para. 301 & note 915.
925
NABOB FNPRM Comments at 17, n.39.
926
UCC et al. FNPRM Comments at 23-24.
923

408
record is insufficient to support race-conscious action by
the Commission.927
305. In addition, we continue to believe that implementing a program for awarding or affording preferences related to broadcast licenses based on the “individualized review” that the Supreme Court has required
under strict scrutiny would pose a number of significant
administrative and practical challenges for the Commission and would not be feasible. As we explained in the
FNPRM, where race-conscious governmental action is
concerned, the Supreme Court previously has found
that narrow tailoring requires individualized review, serious, good-faith consideration of race-neutral alternatives, minimal adverse impacts on third parties, and

See, e.g., Free Press FNPRM Comments at 14-15 (accepting
that the record evidence does not satisfy the, constitutional standards for race- or gender-conscious measures); id. at 19 (stating that
the Commission is “without evidence to support specific measures to
enhance ownership by women and people of color”); LCCHR
FNPRM Comments at 2 (stating that “the Commission must return
its focus to producing Adarand studies”); NHMC FNPRM Comments at 13-14 (stating that collecting and analyzing data and conducting studies exploring barriers to entry “are important first steps
that the Commission must take” in order to promote minority and
female ownership); NPM/NCAI FNPRM Reply at 6 (“Although the
FCC is committed to gathering evidence to support a race and gender conscious definition that would diversify ownership in radio, this
record is not likely to be completed in the immediate future.”); UCC/
Common Cause FNPRM Reply at 11-12 (recommending a model for
addressing “important evidentiary issues . . . that the Commission believes must be overcome . . . to take proactive steps to improve diversity in broadcasting”); WGAW FNPRM Comments at 15
(urging the Commission “to do the necessary work to develop a
sound legal theory for policies that expressly recognize the importance of race and gender in broadcast licensing”).
927

409
temporal limits. 928 In particular, the Court found in
Grutter that narrow tailoring demands that race be considered “in a flexible, non-mechanical way” alongside
other factors that may contribute to diversity and that
consideration of race was permissible only as one among
many disparate factors in order to evaluate individual
applicants for admission to an educational institution.929
We find that the manner in which the Commission allocates broadcast licenses differs from university admissions in many important respects. For instance, the
process of acquiring a new commercial broadcast license
is dictated by statute and involves a highly structured,
open, and competitive bidding process.930 Individuals
or entities must enter bids for broadcast allotments—a
market-based regime—and must offer the highest monetary value for the allotment in order to acquire a construction permit.931 As we explained in the FNPRM,
FNPRM, 29 FCC Rcd at 4505, para. 299.
Grutter, 539 U.S. at 334, 338-39; see also id. at 334 (stating that,
to be narrowly tailored a race-conscious admissions program may
consider race or ethnicity only as a “ ‘plus’ in a particular applicant’s
file,” i.e., it must be “flexible enough to consider all pertinent elements of diversity in light of the particular qualifications of each
applicant, and to place them on the same footing for consideration,
although not necessarily according them the same weight” (citing
Regents of Univ. of Cal. V. Bakke, 438 U.S. 265, 315-17 (1978))).
930
47 U.S.C. § 309( j).
931
See Auction of FM Broadcast Construction Permits Scheduled
for March 26, 2013 et al., Public Notice, 27 FCC Rcd 10830 (MB/WTB
2012) (seeking comment on, inter alia, simultaneous multiple-round
auction design, bidding rounds, reserve price or minimum opening
bids, bid removal/bid withdrawal, and post-auction payments); see
also Implementation of Section 309( j) of the Communications Act—
Competitive Bidding for Commercial Broadcast and Instructional
Television Fixed Service Licenses, First Report and Order, 13 FCC
928
929

410
we believe that this framework does not lend itself to the
type of case-by-case consideration envisioned by Grutter.932 Although the FNPRM sought comment on potential ways in which an individualized review process
could be incorporated feasibly, effectively, and efficiently into any race-conscious measures adopted by the
Commission, no commenter has offered such a proposal,
nor has the Commission been able to develop one. Therefore, we conclude that the record reveals no feasible
means of carrying out the type of individualized consideration that the Supreme Court has required under
strict scrutiny.933

Rcd 15920, 15923-24, 15961, paras. 7-9, 112 (1998), on recon., Memorandum Opinion and Order, 14 FCC Rcd 8724 (1999), on further
recon., Memorandum Opinion and Order, 14 FCC Rcd 12541 (1999).
932
FNPRM, 29 FCC Rcd at 4505-06, n.911.
933
UCC/Common Cause assert that the FNPRM confines its consideration of the proposed ODP standard to the Commission’s viewpoint diversity interest without considering whether the proposed
ODP standard could be applied as a remedial measure. UCC/Common
Cause FNPRM Reply at 13. We disagree. The administrative,
practical, and First Amendment issues that we have identified would
need to be resolved prior to the implementation of an ODP standard
regardless of whether that standard is used to further the Commission’s interest in viewpoint diversity or remedy past or present discrimination. See supra paras. 293, 305. Moreover, as we discuss
below, we do not believe that available evidence of discrimination in
the broadcast industry is of sufficient weight to demonstrate a compelling interest in remedying discrimination in the Commission’s
broadcast licensing process. See infra Section IV.C.2.b.
Contrary to the assertions of UCC/Common Cause, the FNPRM
did not tentatively conclude that the Commission “must emulate
university admissions in order to pursue viewpoint diversity.”
UCC/Common Cause FNPRM Reply at 13; see Letter from Cheryl
A. Leanza, Policy Advisor, UCC, to Marlene H. Dortch, Secretary,

411
306. ODP Proposal. As we noted in the FNPRM,
it is not entirely clear whether the proposed ODP standard would be subject to heightened constitutional scrutiny.934 Even assuming that it is not subject to heightened review under the equal protection component of
FCC, at 2 (filed May 25, 2016) (UCC May 25, 2016 Ex Parte Letter). Rather, the FNPRM noted that the Supreme Court relied in
part on the concept of “critical mass” to find the requisite nexus
between student body diversity and race-based admissions and that
this concept is not easily transferable to broadcasting. FNPRM,
29 FCC Rcd at 4504, n.905.
934
FNPRM, 29 FCC Rcd at 4506-07, para. 300. See, e.g., Miller v.
Johnson, 515 U.S. 900, 912-13 (1995) (facially race-neutral electoral
districting plan triggers strict scrutiny if predominantly motivated
by racial concerns); Vill. of Arlington Heights v. Metro. Hous. Dev.
Corp., 429 U.S. 252, 265-66 (1997) (developer failed to carry its burden of proving that racial discrimination was a motivating factor in
local authorities’ zoning decision that prevented the construction of
racially integrated low-cost housing); Fisher II, 2016 WL 3434399,
at *16-17 (petitioner cannot assert simply that increasing university’s reliance on facially neutral component of admissions policy
would make it more race neutral when its purpose is to boost minority enrollment). MMTC asserts that the FNPRM “mischaracterized” the ODP standard as a race-conscious measure that would be
subject to heightened scrutiny. MMTC FNPRM Comments at 5-6.
We disagree. The FNPRM did not describe the proposed ODP
standard as a race-conscious measure. Rather, the FNPRM noted
that it is not entirely clear whether the proposed ODP standard
would be subject to heightened constitutional scrutiny. FNPRM,
29 FCC Rcd at 4506, para. 300 & n.915; see UCC/Common Cause
FNPRM Reply at 13 (“[W]e do not disagree with the Commission’s
conclusion that [an ODP standard] would likely receive strict scrutiny if an individual’s race[] . . . or ethnicity could be used to presume eligibility for preferences.”). We explained that an ODP
standard that does not facially include race-conscious criteria, yet is
constructed for the purpose of promoting minority ownership, might
be subject to heightened scrutiny. FNPRM, 29 FCC Rcd at 4506
n.915. See Miller, 515 U.S. at 912-13; Fisher II, 2016 WL 3434399.

412
the Due Process Clause, we decline to adopt the proposed ODP standard in the absence of a feasible means
of implementing such a standard without running afoul
of First Amendment values. Several commenters express general support for the proposed ODP standard
but none have proposed a method for the Commission to
provide the type of individualized consideration that an
ODP standard would require without being unduly
resource-intensive and inconsistent with First Amendment values. Commenters also have not addressed
other specific issues that the FNPRM indicated would
need to be resolved prior to implementation of the ODP
proposal.935 In particular, no commenter has proposed
a means for the Commission to validate claims of eligibility for ODP status. Based on available information
about the proposal, we believe that validating a claim of
eligibility for ODP status would require a finding that
the applicant has faced and overcome a “substantial
disadvantage”—a determination that inherently would
be prone to some degree of subjectivity—as well as a
finding that the applicant would likely contribute to
viewpoint diversity by virtue of him or her facing and
overcoming a substantial disadvantage. We do not believe that there is a means for the Commission to administer such a program in a manner that is sufficiently objective and consistent,936 and that would ensure that the
See, e.g., MMTC FNPRM Comments at 5; NAB FNPRM Comments at 92-93; Bonneville/Scranton FNPRM Reply at 9.
936
See, e.g., Auction Preference Public Notice, 25 FCC Rcd at
16864 (Diversity Advisory Committee Recommendation on Preference for Overcoming Disadvantage) (“Importantly, a qualifying disadvantage would have to be ‘substantial.’ The definition of what
constitutes a substantial disadvantage would be addressed in the
rulemaking and would be further refined on a case-by-case basis.
935

413
Commission does not evaluate applicants based on a
subjective determination as to whether a particular applicant would be likely to contribute to viewpoint diversity.937 In addition, no commenter has offered input on
(1) what social or economic disadvantages should be cognizable under an ODP standard, 938 (2) whether applicants should bear the burden of proving specifically that
they would contribute to diversity as a result of having
overcome certain disadvantages, (3) how the Commission could measure the overcoming of a disadvantage if
an applicant is a widely held corporation rather than an
entity with a single majority shareholder or a small
To the extent possible, it is desirable to reduce subjectivity and
achieve consistency among individualized determinations.”); id. at
16864-65 (“This requirement does not contemplate that successful
applicants necessarily will have fully and finally overcome the disadvantages they faced. . . . The degree of success required to show
that a disadvantage has been sufficiently overcome would be further
refined in a rulemaking and case-by-case determinations.”).
937
See Metro Broad., 497 U.S. at 585 n.36 (noting that the Commission eschews involvement in licensees’ programming decisions to
avoid constitutional issues that would be raised if it “denied a broadcaster the ability to carry a particular program or to publish his own
views, if it risked government censorship of a particular program, or
if it led to the official government view predominating public broadcasting”) (citations and internal quotations omitted).
938
In its recommendation concerning a preference for overcoming
disadvantage, the Diversity Advisory Committee identified “a nonexhaustive list of disadvantages which, if substantial, would likely
qualify an individual for a preference.” Auction Preference Public
Notice, 25 FCC Rcd at 16860-71 (Diversity Advisory Committee Recommendation on Preference for Overcoming Disadvantage); DCS
NPRM Comments at 2 (urging the Commission to adopt the Diversity Advisory Committee’s ODP proposal). No commenters in this
proceeding have offered additional input on the social or economic
disadvantages that should be cognizable under an ODP standard.

414
number of control persons, and (4) how the Commission
could evaluate the effectiveness of the use of an ODP
standard. Accordingly, we are not adopting the proposed ODP standard.
307. Gender-Based Diversity Measures. Genderbased measures are subject to a less restrictive Constitutional standard—intermediate scrutiny—than racebased measures. Under intermediate scrutiny, a genderbased classification must be substantially related to the
achievement of an important objective.939 While Metro
Broadcasting established that viewpoint diversity is at
least an important government objective, Lamprecht v.
FCC found that available evidence failed to demonstrate
a statistically meaningful link between ownership of
broadcast stations by women and programming of any
kind. 940 As a result, the D.C. Circuit, in Lamprecht,
overturned the Commission’s former gender preference
policy.941 In order to overcome Lamprecht, the Commission must be able to establish the requisite connection between viewpoint diversity and ownership by
women; however, in the FNPRM we stated that, based
on our evaluation of relevant studies, we did not believe
there was evidence to demonstrate that the content provided via women-owned broadcast stations substantially
contributes to viewpoint diversity in a manner different
from other stations or otherwise varies significantly
from that provided by other stations.942

FNPRM, 29 FCC Rcd at 4508, para. 301 (citing Virginia,
518 U.S. at 531-33; Hibbs, 538 U.S. 721).
940
Id. (citing Lamprecht, 958 F.2d 382, 396-98 (D.C. Cir. 1992)).
941
Id. (citing generally Lamprecht, 958 F.2d 382).
942
Id. at 4508-09, para 301 & n.923.
939

415
308. In response to the FNPRM, UCC et al. question the tentative conclusion that women-controlled stations do not substantially contribute to viewpoint diversity in a manner that differs from other stations or otherwise varies significantly from that provided by other
stations, arguing that the Commission has done little to
no research on this issue.943 Commenters, however, did
not provide any additional evidence, studies, proposed
study designs, or other information that is relevant to
our analysis of this issue. The Commission has similarly been unable to identify such evidence or devise
study designs that are likely to provide such evidence.944
While commenters still express general support for genderbased initiatives,945 such support is not sufficient absent
evidence to establish a connection between viewpoint diversity and ownership by women. And while we acknowledge that the data show that women-owned stations are
not represented in proportion to the presence of women
in the overall population, we do not believe that the evidence reveals that the content provided via womenowned broadcast stations substantially contributes to
UCC et al. FNPRM Comments at 25 n.103.
In its efforts to create specific study designs (which includes
reaching out to experts in the field), the Commission has identified
a number of issues that significantly impede study of the connection
between ownership and viewpoint diversity. These issues include,
for example, the lack of a reliable measure of viewpoint; small sample size; accounting for potential variations from differences in the
way the data were collected rather than actual changes in the marketplace when combining old and new sets; and the lack of relevant
data sets from before and after policy changes or marketplace developments (if any can be identified) that would help demonstrate
causation regarding the impact of ownership on viewpoint diversity.
945
AAJC FNPRM Comments at 2; WGAW FNPRM Comments at
15; Free Press FNPRM Reply at 21; UCC et al FNPRM Reply at 21
943
944

416
viewpoint diversity in a manner different from other stations or otherwise varies significantly from that provided by other stations.”946 Therefore, we conclude that
there is insufficient evidence to satisfy the constitutional
standards that apply to gender-based measures.
b.

Remedying Past Discrimination

309. Similarly, we conclude that, although we have
studied extensively the question, there is no “strong basis in evidence”947 of discrimination in the award of broad-

946
As we explained in the FNPRM, the only study included in the
record of this proceeding that analyzes the relationship between female ownership and broadcast content is the Turner Radio Study,
which finds that markets that contain radio stations with either female or minority ownership are more likely to broadcast certain progressive and conservative talk shows. We do not believe that this
study demonstrates a causal relationship between female or minority ownership and the diversity of viewpoints or content available, as
it does not control for other factors that may explain both the presence of a greater diversity of talk shows and a higher percentage of
female or minority ownership in certain markets. Other studies in
the record establish that female ownership of broadcast stations is
well below the proportion of women in the population, a fact that is
not in dispute in this proceeding. See FNPRM, 29 FCC Rcd at
4508-09, n.923.
947
Richmond v. JA. Croson Co., 488 U.S. 469, 500 (1989). Less
evidence is required for gender-based measures, although an “exceedingly persuasive justification” is still necessary. Virginia,
518 U.S. at 530; see also Eng’g Contractors Ass’n of S. Fla., Inc. v.
Metro. Dade County, 122 F.3d 895, 909 (11th Cir 1997). The question of whether governmental participation is required is unsettled.
Some courts have held that private discrimination need not be linked
to governmental action under intermediate scrutiny. See Concrete
Works of Colo., Inc. v. City and Cty. of Denver, 321 F.3d 950, 959-60
(10th Cir.), cert. denied, 540 U.S. 1027 (2003) (citing See Ensley
Branch, NAACP v. Seibels, 31 F.3d 1548, 1580 (11th Cir. 1994);

417
cast licenses or other discrimination in the broadcast industry in which the government has actively or passively
participated that would satisfy the constitutional standards that apply to race- or gender-based remedial
measures. In the FNPRM, we noted that the Commission never has asserted a remedial interest in race- or
gender-based broadcast regulation. 948 We explained
that the evidence of discrimination offered in the studies
that commenters cited, while informative, was not
nearly as substantial as that accepted by courts in other
contexts.949 In response, commenters are generally critical of the Commission’s analysis but most do not cite any
additional relevant precedent or data that we did not
discuss in the FNPRM. 950 Although UCC/Common

Coral Cons. Co. v. King Cty., 941 F.2d 910, 932 (9th Cir. 1991), cert.
denied, 502 U.S. 1033 (1992)). As discussed in this section, we also
conclude that the record evidence is not of sufficient weight to support gender-based remedial action.
948
FNPRM, 29 FCC Rcd at 4509, para. 302.
949
Id. at 4509-12, paras. 302-06.
950
See, e.g., MMTC FNPRM Comments at 7 (encouraging the
Commission to “review the record, particularly the 2010 Initial Comments of the Diversity and Competition Supporters,” which, according to MMTC, details “the Commission’s history of erecting market
entry barriers that kept minorities out of the media industry and
validating [the] discriminatory practices of segregationist licensees.”); UCC/Common Cause FNPRM Reply at 3-6 (arguing, inter
alia, that the FNPRM incorrectly rejects the 2000 Historical Study
because the study does not show that the Commission itself engaged
in discrimination, even though such evidence is not the standard; rejects evidence of discrimination in the 2000 Capital Markets Study
without adequately explaining why the study’s focus on non-broadcast
industry information makes it less probative of discrimination in the
broadcast industry; ignores the 2000 Auction Utilization Study, in
which UCC/Common Cause believe there is evidence of discrimina-

418
Cause identify additional information that they believe
is relevant to an analysis of the Commission’s interest in
remedying past discrimination, they do not assert that
such information is sufficient to satisfy the relevant constitutional requirements.951 We have evaluated the evidence in the record, and we find that it is not of sufficient weight to support race- or gender-based remedial
measures.
310. We disagree with UCC/Common Cause’s assertion that we raised the bar in our remedial interest tentative conclusions and that we incorrectly rejected or ignored evidence of discrimination in the broadcast industry.952 Rather than rejecting evidence because it does not
tion in wireless auctions; ignores Part 3 of the 2000 Broadcast Licensing Study, in which UCC/Common Cause find “useful indicators” that might show that the Commission acted as a passive participant in private discrimination in the broadcast industry; wrongly
states that the Commission never has asserted a remedial interest
in race- or gender-based broadcast regulation and that commenters
have not focused on establishing a case for remedial measures; and
indicates a need for a large number of studies, such as those found
in Adarand, but then “dismisses the value of studies conducted in
the 1980s”).
951
See supra note 950. There is no inconsistency, as UCC/Common
Cause claim, between our conclusion in this proceeding that we lack
the strong basis in evidence of racial discrimination in the broadcast
industry in which the FCC has been complicit that is necessary to
adopt race-conscious remedial action and the Commission’s adoption of bans on discrimination in advertising contracts and in private
transactions. See UCC/Common Cause FNPRM Reply at 3. The
latter actions are not race-conscious measures and therefore did not
require an evidentiary foundation sufficient to withstand strict scrutiny. They were simply measures designed to combat private discrimination in the marketplace.
952
UCC/Common Cause FNPRM Reply at 3-6; see UCC May 25,
2016 Ex Parte Letter at 2.

419
prove that the Commission itself has engaged in discrimination, the FNPRM tentatively found that existing
evidence of past discrimination is not nearly as substantial in this case as the evidence that courts have required
in other contexts. In particular, we noted the absence
of evidence demonstrating a statistically significant disparity between the number of minority- and women-owned
broadcast stations and the number of qualified minorityand women-owned firms. We asked commenters to address whether evidence of a statistically significant disparity between the number of minority- and womenowned broadcast stations and the number of qualified
minority- and women-owned firms is ascertainable. As
discussed below, we find that the current research model
employed in existing disparity studies is unlikely to produce meaningful results in the broadcast context.953 In
the FNPRM, we also observed that the only statistical
evidence of discrimination in the record at the time pertained to discriminatory access to capital and that the
rest of the evidence was anecdotal and therefore of more
limited value in light of the heightened evidentiary requirements of strict scrutiny.954 As we explained there,
the Capital Markets Study found statistical evidence of

See infra para. 312.
FNPRM, 29 FCC Rcd at 4511-12, para. 306. As noted above,
UCC/Common Cause assert that the FNPRM ignored “useful indicators” in part 3 of the 2000 Broadcast Licensing Study that “might
indicate passive participation” but do not claim that this study would
enable the Commission to adopt race- or gender-based remedial
measures that would satisfy the relevant constitutional requirements.
UCC/Common Cause Reply at 5; see KPMG LLP, Logistic Regression Models of the Broadcast License Award Process for Licenses
Awarded by the FCC (2000).
953
954

420
discrimination in U.S. capital markets, but the study indicates that its results are not fully conclusive.955 Also,
its focus on wireless auctions and other non-broadcast
industry information makes it less probative of discrimination in the broadcast licensing process.956 Even considering the Capital Markets Study together with available anecdotal evidence in other studies,957 we find that
the evidence of past discrimination in the Commission’s
broadcast licensing process is not nearly as substantial
as that accepted by courts in other contexts.958
FNPRM, 29 FCC Rcd at 4510-11, para. 305.
Id. (citing Croson, 488 U.S. at 498). In Croson, the Supreme
Court found that the factual predicate for race-based action was deficient where, among other things, the government failed to make
findings specific to the market to be addressed by the remedy.
488 U.S. at 498. Because broadcasting is the industry that would be
addressed if we were to adopt remedial measures here, and neither
the 2000 Capital Markets Study nor the Auction Utilization Study
contains conclusive findings that reveal a governmental role in discrimination in the broadcast industry, we do not believe these studies establish a factual predicate for race-based action that the Court
would deem sufficient. Id.; see William D. Bradford, Discrimination
in Capital Markets, Broadcast/Wireless Spectrum Service Providers
and Auction Outcomes (2000) (Capital Markets Study); Ernst &
Young LLP, FCC Econometric Analysis of Potential Discrimination
Utilization Ratios for Minority- and Women-Owned Companies in
FCC Wireless Spectrum Auctions (2000).
957
See FNPRM, 29 FCC Rcd at 4510-12 paras. 304-06 (discussing
Capital Markets Study and studies that contain anecdotal evidence).
958
For instance, in Adarand v. Slater, a leading public contracting
case in which the Tenth Circuit found the requisite strong basis in
evidence, the record contained 39 studies revealing an aggregate 13
percent disparity between minority business availability and utilization in government contracting, a figure which the court found to be
“significant,” if not overwhelming, evidence of discrimination. In
reaching that determination, the court relied on evidence of private
955
956

421
311. We also disagree with suggestions that it is legally permissible for the Commission to infer past discrimination based on the disparity between the number
of minority- and women-owned broadcast stations and
the number of minorities and women in the general population.959 As explained in the FNPRM, the Supreme
Court has held that an inference of discrimination may
arise when there is a significant statistical disparity between the number of qualified minority contractors willing and able to perform a particular service and the number of such contractors actually engaged. 960 Although
UCC et al. suggest that no special qualifications are necessary to own a broadcast station, the Commission has
long required that broadcast applicants meet certain
character, financial, and other qualifications to operate

discrimination. The evidence was similar in nature to the evidence
in this case—denial of access to capital, as well as the existence of
exclusionary “old boy” networks and union discrimination that prevented access to the skills and experience needed to form a business
—but it was substantially greater in extent and weight. The court
had the benefit of a Department of Justice report, prepared in response to the Supreme Court’s decision in Adarand, summarizing 30
congressional hearings and numerous outside studies providing both
statistical and anecdotal evidence of such private discrimination.
See FNPRM, 29 FCC Rcd at 4511, para. 306 (discussing Adarand v.
Slater, 228 F.3d 1147 (10th Cir. 2000)).
959
UCC et al. FNPRM Comments at 23; see also Croson, 488 U.S.
at 501 (“When special qualifications are required to fill particular
jobs, comparisons to the general population (rather than to the smaller
group of individuals who possess the necessary qualifications) may
have little probative value.”).
960
See FNPRM, 29 FCC Rcd at 4509-10, para. 303; Croson, 488 U.S.
at 509.

422
a station.961 And, of course, not all members of the population are interested in operating a broadcast station.
Accordingly, we do not believe that evidence of a significant statistical disparity between the number of minorityand women-owned broadcast stations and the number of
minorities and women in the general population would
be sufficient by itself to overcome the constitutional hurdle that has been established for race- and gender-based
remedial measures. Instead, we continue to believe
that, absent evidence showing a statistically significant
disparity between the number of minority- and womenowned broadcast stations and the number of qualified
minority- and women-owned firms,962 we cannot demonstrate a compelling interest in remedying discrimination
in the Commission’s broadcast licensing process.

961
See Policy Regarding Character Qualifications in Broadcast
Licensing, Memorandum Opinion and Order, 7 FCC Rcd 6564 (1992);
Policy Regarding Character Qualifications in Broadcast Licensing
et al., Memorandum Opinion and Order, 6 FCC Rcd 3448 (1991); Policy Regarding Character Qualifications in Broadcast Licensing et
al., Policy Statement and Order, 5 FCC Rcd 3252 (1990); Certification of Financial Qualifications by Applicants for Broadcast Station Construction Permits, Public Notice, 2 FCC Rcd 2122 (1987);
Policy Regarding Character Qualifications in Broadcast Licensing, Amendment of Rules of Broadcast Practice and Procedure Relating to Written Responses to Commission Inquiries and the Making of Misrepresentations to the Commission by Permittees and Licensees, Report, Order and Policy Statement, FCC 85-648 (Jan. 14,
1986), 1986 WL 292574; New Financial Qualifications Standard for
Broadcast Television Applicants, Public Notice, FCC 79-299 (May
11, 1979), 1979 WL 44120; Financial Qualifications Standards for
Aural Broadcast Applicants, Public Notice, FCC 78-556 (Aug. 2,
1978), 1978 WL 35972.
962
As discussed below, the record does not reveal a method of identifying such firms. See infra para. 312.

423
312. UCC/Common Cause assert that the Commission is required to fund research to identify whether
such disparities exist.963 Based on our review of existing disparity studies, we do not believe that is true. In
particular, UCC/Common Cause identify no method of
studying this question that would produce meaningful
results in the broadcast context. For existing studies,
often employed in government contracting cases, there
is generally a ready database of minority or female contractors that are willing and able to perform a particular
service—or an established methodology to identify such
contractors—that can be compared to the number of
such contractors that are actually engaged by the government. Indeed, in most industries one need not be a
government contractor in order to operate a business
that provides the services that the government seeks
(e.g., construction or advertising). This provides an
ample pool of available contractors for the researchers
to identify, both nationally and locally, depending on the
nature of the program. And Supreme Court precedent
See UCC/Common Cause FNPRM Reply at 4, 13; see also
AAJC FNPRM Comments at 15 (recommending that the Commission “conduct the necessary statistical disparity studies” to establish
a compelling interest in remedying past discrimination in the allocation of licenses); UCC et al. FPRM Comments at 25 (asserting that
there is no basis for concluding that the existing evidence of discrimination in the broadcast industry is insufficient to satisfy constitutional standards, because the Commission has conducted very little
investigation of the impact of past discrimination on women and minorities). According to UCC et al., the Commission should refrain
from making any tentative conclusions until its work is complete, including examining its own records and history to evaluate evidence
in order to show that remedying past racial (or gender) discrimination is a compelling (or substantial) governmental interest. Id. at
25-26.
963

424
instructs that the appropriate comparison is to the number of qualified firms that would be interested in being
engaged by the government. However, there are no
broadcast station owners other than those already licensed to be broadcasters, and the record does not reveal any method for identifying otherwise qualified firms
that are not already broadcast licensees. In these circumstances, there is no pool of qualified non-licensee
minority- or women-owned broadcast firms to compare
against existing minority- or women-owned broadcast
stations. Without such evidence or a methodology for ascertaining such evidence, we find that a disparity study
similar to those relied on by other agencies for government contracting purposes is not feasible in the broadcast context. Given our determination of the infeasibility of this research, the lack of any support in the record
indicating that it would be feasible, and the very substantial funds and time it would take to conduct it—
likely millions of dollars and several years—we do not
believe it is in the public interest for the Commission to
undertake a disparity study.
c. Other Issues

313. Several commenters state that the FNPRM
falls short of what-these commenters assert to be the
Third Circuit’s directive that the Commission gather
relevant ownership data and develop policies to address
the paucity of female and minority owners among broadcast licensees.964 As we stated previously, we disagree
Free Press FNPRM Comments at 16; Free Press FNPRM Reply at 20; MMTC FNPRM Comments at 3-4; NABOB FNPRM
Comments at 9-10; NHMC FNPRM Comments at 5-6; NPM/NCAI
FNPRM Reply at 4-6; UCC et al. FNPRM Comments at 12-26; UCC
et al. Feb. 5, 2015 Ex Parte Letter at 2; see Howard Media
964

425
with arguments that the Prometheus II decision requires that we adopt a race- or gender-conscious eligible
entity standard in this quadrennial review proceeding or
that we continue this proceeding until the Commission
has completed whatever studies or analyses that will enable it to take race- or gender-conscious action in the future consistent with current standards of constitutional
law.965 By evaluating the feasibility of implementing a
race- or gender-conscious eligibility standard based on
an extensive analysis of the available evidence, we have
followed the Third Circuit’s direction in Prometheus II
and Prometheus III. We note that over the course of
this proceeding, the Commission has performed or commissioned a dozen studies. The FNPRM provides a
detailed analysis of the relevant studies that were available at the time, and we discuss herein more recent evidence and pertinent information that commenters submitted in response to the FNPRM.966 The Third Circuit court in Prometheus III stated that it did not intend
to prejudge the outcome of our analysis of the evidence
or the feasibility of implementing a race- or gender-con-

Group/Carolyn Byerly FNPRM Comments at 3; Letter from James
L. Winston, President, NABOB, to Marlene H. Dortch, Secretary,
FCC, at 1 (filed Aug. 4, 2016).
965
See, e.g., NABOB FNPRM Comments at 15. NABOB requests
that the Commission delay the issuance of a report and order in this
proceeding until the Commission has initiated all of the studies necessary to meet the strict scrutiny standard and has adopted a definition of “eligible entity” that can be used to implement rule and policy changes that have the potential to specifically promote minority
ownership of broadcast facilities. NABOB FNPRM Comments at
4, 9. We decline to do so for the reasons discussed herein.
966
See supra Sections IV.C.2.a-IV.C.2.b; FNPRM, 29 FCC Rcd
at 4496-4511, paras. 282-306.

426
scious standard that would be consistent both with applicable legal standards and the Commission’s practices
and procedures.967
314. Moreover, we do not believe that any relevant
statutory directive requires the adoption of race- or
gender-conscious measures in order to promote ownership diversity. The Commission has previously determined that it has a general mandate to promote ownership diversity under Section 257 of the 1996 Act and Section 309( j) of the Act, which includes promoting ownership by small businesses, new entrants, and minorityand women-owned businesses. 968 But this authority
does not mandate specific outcomes or ownership levels
or race- or gender-conscious action to foster diversity,
nor does it permit the adoption of rules and policies that
are not supported by the record or that conflict with the
Constitution. Therefore, we find the suggestion that
the Commission is compelled, either by the Third Circuit or by statute, to adopt race- or gender-conscious
measures to be untenable. The Third Circuit ordered
the Commission to make a final determination as to whether
to adopt a new eligible entity definition (including consideration of SDB- and ODP-based definitions), and we
have done so. As discussed herein, the Commission continues to take significant steps to improve its ownership
data and to promote ownership diversity, and our determination that we cannot take race- or gender-conscious
action at this time does not mean that the Commission

Prometheus III, 824 F.3d at 49-50.
See, e.g., 1998 Biennial Regulatory Review Order, 13 FCC Rcd
at 23095, para. 96.
967
968

427
has failed to act appropriately in furtherance of its goal
to promote ownership diversity.
315. Some commenters criticize the Commission
based on their perception that the Commission has not
made a substantial effort to gather evidence that would
support race- and gender-conscious measures.969 UCC
et al. assert that it is inappropriate for the Commission
to place the burden of providing additional evidence on
commenting parties without describing what it believes
is necessary to withstand strict scrutiny.970 As discussed

969
See, e.g., NABOB FNPRM Comments at 4, 12; Free Press
FNPRM Comments at 17-19; Letter from Wade Henderson, President & CEO, LCCHR, and Nancy Zirkin, Executive Vice President,
LCCHR, to Tom Wheeler, Chairman, FCC, at 1-3 (filed Mar. 22,
2016). Free Press notes that an analysis of ownership diversity
would be useful even if it fell short of justifying race- and genderbased policies. One “basic assessment” that the Commission has
not made is “a study of the types of market and ownership structures
that correlate with women’s and people of color’s entry into the market, success in the market, or exit from the market.” Free Press
FNPRM Comments at 17; see also id. at 19 (“Assessing what types
of market structures are more likely to support new entrants and
ownership by diverse and independent owners, and promulgating
Commission policy to encourage or mirror those structures, does not
implicate equal protection issues or require strict scrutiny.”). We
disagree. As discussed herein, the Commission has made significant efforts to analyze issues of ownership diversity and market
structure. See supra paras. 246-255, 267-270; infra para. 316 &
note 973.
970
UCC et al. FNPRM Comments at 25-26; see NHMC FNPRM
Comments at 17. See also NABOB FNPRM Comments at 16-17
(stating that the report and order should identify existing studies
and any new studies that must be prepared to meet the requirements
of Adarand, and provide a timetable for the Commission’s completion of such additional studies).

428
above, however, the Commission has not only commissioned a number of studies, none of which provided it a
constitutional basis to take race- or gender-conscious action; it has also taken a number of steps to improve the
quality of its broadcast ownership data and to facilitate
future additional studies that commenters, academics,
or others believe might provide a constitutional basis to
adopt race- and gender-conscious measures. Further,
we have provided a detailed and thorough analysis of
what is necessary to meet the relevant constitutional
standards and identified the reasons we believe that,
having studied the question, we do not have evidence
that would allow us to meet those standards.971
316. In addition, while some commenters have suggested study topics or broad research frameworks, none
has provided actionable study designs that the Commission or private researchers could execute.972 The Commission has expended considerable time and effort
throughout the course of this proceeding in an effort to
create such study designs; and it has commissioned or
performed a dozen studies that it was able to develop
over the course of the proceeding.973 At present, neither the record in this proceeding nor the Commission’s

See FNPRM, 29 FCC Rcd at 4496-4512, paras. 282-308.
See, e.g., UCC/Common Cause FNPRM Reply at 11-12; UCC
July 20, 2016 Ex Parte Letter, Attach., Summary of Studies Recommended by UCC OC Inc.
973
The media ownership studies commissioned by the Commission
and the Commission’s Hispanic Television Study are instructive examples of the type of study design that is required to effectively analyze issues of ownership and viewpoint, which includes identifying
a question, a data set that permits analysis of the question, defining
key concepts (e.g., Hispanic-oriented programming), and a theory
971
972

429
own efforts have produced additional study designs that
we expect would develop the evidence necessary to support race- and/or gender-conscious measures. Therefore, our decision today that the record does not support
the adoption of race- or gender-conscious measures reflects the inability of the Commission and commenters—
including many groups and individuals experienced in
research methodology—to identify relevant study designs that, if implemented, would be likely to support
such measures. While we believe it worthwhile to continue to explore these issues and to monitor the relevant
constitutional jurisprudence, we are exercising today
our responsibility to pass on the race- and gender-based
proposals before us at this time. Our action today does
not prevent the Commission from reassessing these
measures in the future if changed circumstances suggest a different outcome. Indeed, this decision does
not preclude a different finding in the future, including
the adoption of a race- and/or gender-conscious measure, based on new information. Additionally, the Commission will be on alert to any such data that may support such a finding and/or that may suggest steps that
may lead to the collection of other relevant data.
D.

Additional Proposals Related to Minority and Female Ownership

317. As discussed in the FNPRM, several commenters asked the Commission to consider additional measures
that they believed would foster ownership diversity.
by which the data could demonstrate causation or correlation between a policy and an outcome. Absent this level of specificity, general calls to “conduct Adarand studies” or to study the impact of the
Commission’s rules on ownership diversity do not help advance the
Commission’s research in these areas.

430
Those measures include: (1) relaxing the foreign ownership limitations under Section 310(b)(4) of the Communications Act; (2) encouraging Congress to reinstate and
update tax certificate legislation; (3) granting waivers of
the local radio ownership rule to parties that “incubate”
qualified entities; and (4) migrating AM radio to VHF
Channels 5 and 6.974 We also sought comment on various proposals that AWM asserted would help to promote ownership opportunities for women.975 We noted
that some of these measures have already been implemented by the Commission and tentatively concluded
that the other measures would raise public interest concerns, might not provide meaningful assistance to the
intended beneficiaries, or are outside the scope of this
proceeding.
318. Since the release of the FNPRM, the Commission has implemented more of these measures, including
several of the proposals regarding the AM band as discussed above.976 We also note that the 2008 Diversity
Order considered a number of DCS’s earlier diversity
proposals and adopted a dozen of those proposals, some
with modifications. 977 A number of commenters continue to support the Commission’s race-neutral efforts
to promote ownership diversity. For example, Bonneville/
Scranton state that they agree with other commenters
that the Commission should take concrete steps to address the problem of broadcast station financing for new
FNPRM, 29 FCC Rcd 4512, para. 307. Foreign ownership and
tax certificate legislation are discussed above in Section IV.A.1.
975
FNPRM, 29 FCC Rcd at 4517-18, paras. 318-19.
976
See supra Section IV.A.1.
977
See 2008 Diversity Order, 23 FCC Rcd at 5928-57, paras. 10101.
974

431
entrants. 978 Similarly, Morris recommends that the
Commission seek targeted solutions that directly address disparities in ownership for women and minorities.979 By contrast, UCC et al., while supportive of efforts to promote ownership diversity, state that the raceneutral solutions that certain commenters support are
unlikely to increase ownership opportunities for women
and minorities and/or would raise public interest concerns.980 We discuss the specific proposals below.
1.

Incubation

319. In the FNPRM, we stated our concern that proposals like DCS’s incubation proposal, which would allow blanket waivers of the local radio ownership rule to
broadcasters that finance or incubate an SDB or “valid
eligible entity,” would allow for more consolidation in local radio markets than our rules currently permit without sufficient offsetting benefits. 981 In addition, we
stated that implementation of an incubator program would
pose other concerns and administrative challenges, including challenges relating to the need to monitor over
time the types of complex financing and other arrangements that would qualify an entity for an incubation
waiver under DCS’s incubation proposal.982
Bonneville/Scranton FNPRM Reply at 9.
Morris FNPRM Comments at 44-45. Morris notes that it previously identified six specific proposals for the Commission to consider. Morris FNPRM Comments at 44-45 (citing Morris Communications 2012 323 Report Reply at 5-6 (supporting six of the DCS
proposals, including two of the measures that we are reinstating with
the revenue-based eligible entity standard above)).
980
UCC et al. FNPRM Reply at 22, 25.
981
FNPRM, 29 FCC Rcd at 4515, para. 313.
982
Id. at 4515-16, paras. 313-14.
978
979

432
320. In response to the FNPRM, NAA continues to
support an incubator program for broadcasters to finance disadvantaged businesses.983 NAB also urges the
Commission to remain open to proposals for a voluntary
incubation program, despite the Commission’s concerns
about DCS’s incubation proposal. NAB recommends
that the Commission use an incubator program as a means
of reexamining and testing an ODP standard, as MMTC
has proposed. 984 AWM and Bonneville/Scranton also
support this approach. 985 UCC et al., however, share
the Commission’s concern that an incubator program
that uses a broad definition of qualifying entity would be
difficult to administer and could create a substantial
loophole in the Commission’s ownership rules without
having any significant impact on minority and female
ownership.986
321. We do not believe that our concerns are addressed by the incubator program that NAB proposes,
which would rely on an ODP standard to define the class
of entities eligible to benefit from incubation. As discussed above, we find that the type of individualized consideration that would be required under an ODP standard would be administratively inefficient, unduly
resource-intensive, and potentially inconsistent with

NAA FNPRM Comments at 15.
NAB FNPRM Comments at 92-93 (citing Letter from David
Honig, President, MMTC, and Jane E. Mago, Executive Vice President & General Counsel, Legal & Regulatory Affairs, NAB, to Marlene H. Dortch, Secretary, FCC (filed Jan. 30, 2013)).
985
AWM FNPRM Reply Comments at 2; Bonneville/Scranton
FNPRM Reply at 9.
986
UCC et al. FNPRM Reply at 25.
983
984

433
First Amendment values.987 Therefore, limiting the incubator program in the manner that NAB suggests
would not address our concern that implementation of
an incubator program would pose administrative challenges, such as the need to monitor continually the complicated legal and financial agreements between broadcasters and the entities they seek to incubate. Other
commenters that urge the Commission to adopt an incubator program similarly do not address the policy and
practical concerns we identified above. Therefore, we
decline to adopt an incubator program as proposed by
NAB and others.
2. Migration of AM Radio to VHF Channels 5
and 6

322. In the FNPRM, we sought comment on our tentative conclusion not to adopt the proposal that most AM
radio be migrated to VHF Channels 5 and 6 in this proceeding. In response to the FNPRM, commenters did
not express opposition to this tentative conclusion. No
commenters dispute that implementation of this proposal would involve extensive changes to the Commission’s current licensing rules and spectrum policies.
As noted in the FNPRM, Congress directed the Commission to conduct an incentive auction of broadcast television spectrum—which is ongoing—in order to make additional spectrum available for wireless use.988 We find
that implementation of the Channel 5 and 6 proposal has
a realistic potential to interfere with the Commission’s
implementation of the incentive auction and is therefore

987
988

See supra Section IV.C.2.a.
FNPRM, 29 FCC Rcd at 4516-17, para. 316.

434
contrary to the spectrum policies established by Congress. Accordingly, we decline to adopt this proposal.
3.

Additional DCS Proposals

323. The FNPRM identified numerous other DCS
proposals that involved changes to various Commission
licensing, service, and engineering rules and policies.989
It also noted that some of the proposals related to the
AM band were already being considered in a separate
proceeding.990 MMTC continues to urge the adoption
of these proposals, while NAA expresses support for the
relaxation of the main studio rule (Proposal 16).991
324. As noted above, certain of these proposals regarding the AM band have already been addressed in another proceeding, so we need not address them herein.992
Moreover, we note that relaxation of the main studio
rule—among other DCS proposals—is being explored in

Id.
Id.
991
See MMTC FNPRM Comments at 8-12 (listing the proposals it
continues to support); NAA FNPRM Comments at 15 (supporting
relaxation of the main studio rule); see also Letter from Jacqueline
Clary, Senior Counsel and Assistant Policy Director, MMTC, to
Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50 et al., at
1-2 (filed Nov. 10, 2014) (urging the Commission to consider the DCS
proposals MMTC continues to support).
992
See supra para. 245. We also note that DCS asks the Commission to clarify that the 18-month construction extension policy applies both to original construction permits (for the construction of
new stations) and to construction permits for major modifications of
authorized broadcast facilities (Proposal 17). This is not a new
diversity-related proposal, but a request for a clarification of an existing policy, which we have provided herein. See supra para. 285
& note 864.
989
990

435
the AM Revitalization Proceeding.993 While there is
some general support for the remaining proposals—
primarily from MMTC—we do not believe that the record establishes that these changes to Commission licensing, service, and engineering rules and policies
would provide meaningful benefits to the intended beneficiaries. Commenters have had multiple opportunities
to voice support for these proposals and explain the potential benefits that would arise from their implementation, but the record contains almost no support for the
vast majority of these proposals.
325. The Commission has reviewed these proposals
multiple times throughout the course of this proceeding.
Those proposals that, based on our analysis, warranted
additional consideration have been explored in relevant
proceedings, such as the AM Revitalization Proceeding.
However, upon review, we determine that many of these
proposals would be ineffective or insufficient to address
the diversity issues under consideration in this proceeding. Despite multiple opportunities for comment, the
record reflects little support for the majority of these
proposals or evidence that would cause us to reconsider
our determination that these proposals warrant additional consideration or adoption. Accordingly, consistent with our tentative conclusion in the FNPRM, we
decline to adopt these proposals.994
AM Revitalization NOI, 30 FCC Rcd at 12179-81, paras. 85-88.
And while we decline to adopt a specific waiver standard for the main
studio rule in this proceeding, we note that currently licensees are
able to seek waiver of the rule under the Commission’s general wavier standard. 47 CFR § 1.3.
994
The proposals that we decline to adopt are as follows: (1) Bifurcate Channels for Share-Times with SDBs; (2) Use the Share993

436
326. In the FNPRM, we also tentatively concluded
that certain DCS proposals are outside the scope of this
proceeding. 995 We explained that some of those proposals extend into areas that are beyond the Commission’s authority and ultimately would require legislative
action or action by other federal entities aside from the
Commission in order to create changes in rules or policies.996 We further explained that other proposals involve non-broadcast services that are outside the scope
of our quadrennial review proceedings. 997 While we
stated that we that we did not anticipate taking further

Time Rule to Allow Broadcasters to Share Frequencies to Foster
Ownership of DTV and FM Subchannels; (3) Extend the Three-Year
Period for New Station Construction Permits for Eligible Entities
and SDBs; (4) Create Medium-Powered FM Stations; (5) Authorize
Interference Agreements; (6) Harmonize Regional Interference
Protection Standards; Allow FM Applicants to Specify Class C, CO,
Cl, C2 and C3 Facilities in Zones I and IA; (7) Relax the Limit of
Four Contingent Applications; (8) Create a New Local “L” Class of
LPFM Stations; (9) Redefine Community of License as a “Market”
for Section 307 Purposes; (10) Remove Non-Viable FM Allotments;
and (11) Issue a One-Year Waiver, on a Case-by-Case Basis, of Application Fees for Small Businesses and Nonprofits. See MMTC
FNPRM Comments at 9-11; DCS Supplemental NPRM Comments
at 17-18, 24-25, 28-33, 42-52, 61-62, 63-65, 76-77; see also Letter from
Kurt Wimmer, Counsel to NAA, to Marlene H. Dortch, Secretary,
FCC, Attach. at 1 (filed June 30, 2016) (NAA June 30, 2016 Ex Parte
Letter) (supporting proposal to issue a one-year waiver of application fees to small businesses and nonprofits).
995
FNPRM, 29 FCC Rcd at 4517, para. 317.
996
Id.
997
Id.

437
action on these proposals within this or successive quadrennial review dockets, we also noted that some of these
proposals may warrant further consideration.998
327. MMTC challenges the Commission’s decision
not to consider these 24 proposals in this proceeding.999
According to MMTC, these proposals were squarely
within the scope of the 2010 Quadrennial Review proceeding and “unquestionably” within the scope of the Diversity proceeding; thus, states MMTC, the Commission
appears to have declined to consider these proposals for
no valid reason.1000 MMTC also raised this issue in the
appeal of the FNPRM.1001 In the course of the Prometheus III litigation, the court issued a letter to MMTC
asking it to “address which, if any, of the 24 proposals
. . . met both of the following criteria: 1) the FCC
can adopt them without actions by Congress or other
regulators and 2) they relate to the broadcast industry.” 1002 In response, MMTC identified 17 proposals

Id.
MMTC FNPRM Comments at 3.
1000
Id. at 2-4; Letter from David Honig, President, MMTC, to Marlene H. Dortch, Secretary, FCC, at 2 (filed Apr. 25, 2014). MMTC
filed a petition for clarification requesting that the Commission issue
an erratum clarifying that MMTC’s proposals remain under consideration in the Diversity proceeding and will be ruled upon within a
year. MMTC Petition for Clarification. MMTC subsequently withdrew its petition. MMTC Withdrawal of Petition for Clarification.
1001
MMTC Motion for Leave to Intervene, Prometheus III, 824
F.3d 33 (No. 15-3866).
1002
Letter from Marcia M. Waldron, Clerk, U.S. Court of Appeals
for the Third Circuit, to Angela J. Campbell, Counsel to Prometheus
Radio Project, et al. (Apr. 20, 2016), Prometheus III, 2016 WL
3003675 (No. 15-3866) (emphasis in original).
998
999

438
that it asserted met both criteria;1003 in a reply letter to
the court, the Commission indicated that it would address the proposals in this item.1004 In Prometheus III,
the court declined to act on MMTC’s challenge, but indicated that it expected the Commission to adhere to its
representations to the court.1005
328. Following the release of Prometheus III, MMTC
met with Commission staff to discuss the 17 proposals
identified for the court. Following these discussions,
MMTC now requests that the Commission address five
of these proposals in this Order; the remaining 12 proposals are being withdrawn from consideration in the
context of this proceeding, though MMTC asserts that
it may pursue some of these proposals in other proceedings.1006 In addition, MMTC is also withdrawing from
Letter from David Honig, President Emeritus and Senior Advisor, MMTC, to Marcia M. Waldron, Clerk, U.S. Court of Appeals
for the Third Circuit (Apr. 26, 2016), Prometheus III, 824 F.3d 33
(No. 15-3866).
1004
Letter from David M. Gossett, Deputy General Counsel, FCC,
to Marcia M. Waldron, Clerk, U.S. court of Appeals for the Third
Circuit (May 2, 2016), Prometheus III, 824 F.3d 33 (No. 15-3866).
1005
Prometheus III, 824 F.3d at 50 n.11.
1006
The five proposals are: (1) Examine How to Promote Minority
Ownership as an Integral Part of All FCC General Media Rulemaking Proceedings; (2) Extend the Cable Procurement Rule to Broadcasting; (3) Mathematical Touchstones: Tipping Points for the
Non-Viability of Independently Owned Radio Stations in a Consolidating Market and Quantifying Source Diversity; (4) Engage Economists to Develop a Model for Market-Based Tradable Diversity
Credits as an Alternative to Voice Tests; and (5) Create a New Civil
Rights Branch of the Enforcement Bureau. Letter from Kim Keenan, President and CEO, MMTC, and David Honig, President
Emeritus and Senior Advisor, MMTC, to Hon. Tom Wheeler, Chairman, FCC, at 1-8 (filed June 24, 2016) (MMTC June 24, 2016 Ex
1003

439
consideration in this proceeding the seven proposals
that it did not identify to the Third Circuit, which largely
were legislative recommendations.1007 Consistent with
Parte Letter); NABOB July 11, 2016 Ex Parte Letter at 1 (supporting the five MMTC proposals). The remaining 12 proposals presented to the Third Circuit are: (1) Collect, Study and Report on
Minority and Women Participation in Each Step for the Broadcast
Auction Process; (2) Increase Broadcast Auction Discounts to New
Entrants; (3) Require Minimum Opening Bid Deposits on Each Allotment for Bidders Bidding for an Excessive Proportion of Available Allotments; (4) Only Allow Subsequent Bids to Be Made Within
No More than Six Rounds Following the Initial Bid; and (5) Require
Bidders to Specify an Intention to Bid Only on Channels with a Total
Minimum Bid of Four Times Their Deposits; (6) Grant Eligible Entities a Rebuttable Presumption of Eligibility for Waivers, Reductions, or Deferrals of Commission Fees; (7) Designate a Commissioner to Oversee Access to Capital and Funding Acquisition Recommendations; (8) Develop an Online Resource Directory to Enhance Recruitment, Career Advancement, and Diversity Efforts; (9)
Study the Feasibility of a New Radio Agreement with Cuba; (10)
Must-Carry for Certain Class A Stations; (11) Create a Media and
Telecom Public Engineer Position to Assist Small Businesses and
Nonprofits with Routine Engineering Matters; and (12) Conduct Tutorials on Radio Engineering Rules at Headquarters and Annual
Conferences. Id. at 9-10; see also NAA June 30, 2016 Ex Parte Letter, Attach. at 1-2 (supporting MMTC’s proposals to conduct radio
engineering tutorials at FCC headquarters and annual conferences
and to develop an online resource directory to enhance recruitment,
career advancement, and diversity efforts).
1007
These legislative recommendations include: (1) Legislative
Recommendation to Expand the Telecommunications Development
Fund (TDF) Under Section 614 and Finance TDF with Auction Proceeds; (2) Legislative Recommendation to Amend Section 257 to Require the Commission to Annually Review and Remove or Affirmatively Prohibit Known Market Entry Barriers; (3) Legislative Recommendation to Clarify Section 307(b) to Provide that Rules
Adopted to Promote Localism are Presumed to be Invalid if They
Significantly Inhibit Diversity; (4) Legislative Recommendation to

440
the direction from the Third Circuit and the revised request from MMTC, we will now address the five remaining proposals, as follows.1008
329. Proposal 5. MMTC requests that the Commission consider how to promote minority ownership as
part of all of its media-related proceedings.1009 At the

Amend the FTC Act (15 U.S.C. §§ 41-58) to Prohibit Racial Discrimination in Advertising Placement Terms and Advertising Sales
Agreements; (5) Legislative Recommendation to Amend Section 614
to Increase Access to Capital by Creating a Small and Minority
Communications Loan Guarantee Program; (6) Legislative Recommendation to Amend Section 614 to Create an Entity to Purchase
Loans Made to Minority and Small Businesses in the Secondary
Market; (7) Legislative Recommendation to Provide Tax Credit for
Companies that Donate Broadcast Stations to an Institution Whose
Mission is or Includes Training Minorities and Women in Broadcasting. Id at 10-11; see MMTC FNPRM Comments at 11-12; DCS
Supplemental NPRM Comments at 71, 75-76, 78-91; see also NAA
June 30, 2016 Ex Parte Letter, Attach. at 2 (supporting the legislative recommendations to create a small and minority communications loan guarantee program and to provide tax credits to companies that donate broadcast stations to institutions that train minorities and women in broadcasting).
1008
While these proposals were originally submitted in this proceeding as part of the DCS Supplemental NPRM Comments, we
note that MMTC submitted the comments on behalf of DCS; accordingly, we find that it is appropriate to rely on MMTC’s assertions
regarding the preferred treatment of these proposals in this proceeding. Moreover, consistent with the Third Circuit’s letter, we are
generally limiting our consideration of these proposals to the extent
that they relate to the broadcast industry. See supra para. 327.
1009
MMTC FNPRM Comments at 8 (Examine How to Promote
Minority Ownership as an Integral Part of All FCC General Media
Rulemaking Proceedings); see also DCS Supplemental NPRM Comments at 13; MMTC June 24, 2016 Ex Parte Letter at 2-3 (urging
the Commission to extend the proposal to “all FCC general rulemak-

441
outset, we note that OCBO “currently provides outreach
services to assist small businesses and new entrants into
the communications industry and input on how our proposed rules impact minority ownership.” 1010 While
OCBO already plays an important role in this process,
we find there is potentially room to do more to help inform our consideration of these important issues. Accordingly, going forward, the Commission will consider
how to promote minority ownership in relevant mediarelated rulemaking proceedings and include an inquiry
in any appropriate rulemaking to inform that question.
330. Proposal 10. MMTC also proposes that the
Commission extend the cable procurement requirements
to broadcasters and other regulated communications industries.1011 We note that the Commission’s OCBO has

ing proceedings”); NABOB July 11, 2016 Ex Parte Letter at I (supporting MMTC proposal to extend cable procurement rule to broadcasting).
1010
Diversity Order, 23 FCC Rcd at 5948, para. 74.
1011
DCS Supplemental NPRM Comments at 21 (Extend the Cable
Procurement Rule to Broadcasting); see also MMTC FNPRM Comments at 8; MMTC June 24, 2016 Ex Parte Letter at 3-6 (urging the
Commission to extend the procurement requirements to “all Commission regulates”); Letter from Hon. Reed Hundt, et al., to Hon.
Tom Wheeler, Chairman, FCC (filed Aug. 5, 2016) (supporting the
proposal to extend the procurement requirements to “all communications technologies”). Pursuant to Section 634 of the Communications Act, as amended, the Commission adopted what DCS and
MMTC refer to as the “cable procurement rule,” which generally requires that a cable system “encourage minority and female entrepreneurs to conduct business with all parts of its operation,” for example, by “[r]ecruiting as wide as possible a pool of qualified entrepreneurs from sources such as employee referrals, community groups,

442
already implemented various initiatives consistent with
this proposal, holding multiple supplier diversity conferences and a government advertising workshop-and we
anticipate that there will be more such events in the future.1012 However, we find that there is merit in exploring whether, and if so, how, to extend the cable procurement requirements to the broadcasting industry. Therefore, we will evaluate the feasibility of adopting similar
procurement rules for the broadcasting industry.
331. Proposal 33. MMTC proposes two formulas it
asserts are aimed at creating media ownership limits
that promote diversity. Specifically, it suggests a “Tipping Point Formula” that would be applied in the local
radio rule context, and a “Source Diversity Formula”
that appears to be more broadly applicable.1013 At present, neither of these proposals is sufficiently defined.

contractors, associations, and other sources likely to be representative of minority and female interests.” 47 CFR § 76.75(e); see
47 U.S.C. § 554(d)(2).
1012
See supra Section IV.A.1.
1013
DCS Supplemental NPRM Comments at 69-70 (Mathematical
Touchstones: Tipping Points for the Non-Viability of Independently Owned Radio Stations in a Consolidating Market and Quantifying Source Diversity); see also MMTC FNPRM Comments at 10;
MMTC June 24, 2016 Ex Parte Letter at 6-7. The “Tipping Point
Formula” would be applied in the local radio rule context to determine the tipping point in the distribution of radio revenue in a market between independent owners and owners of multiple stations in
that market. The theory is that the independent stations would no
longer be able to survive once the combined revenues of the owners
of multiple stations exceed the tipping point. DCS Supplemental
NPRM Comments at 69-70. The Source Diversity Formula is based
on the premise that increases in consumer utility flow from their access to additional sources, with diminishing returns to scale, and is

443
As MMTC itself notes, the Tipping Point Formula rests
on “admittedly rough assumptions,” and the record does
not provide us with sufficient information to justify or
refine the formula for general application across all radio markets. 1014 Similarly, the Source Diversity Formula “would require field-testing before it could be applied,” and we do not believe that the record provides us
with the information necessary to rely on the formula to
adopt media ownership limits. We therefore direct the
Media Bureau to consider these proposals further and
to solicit input on these ideas in the document initiating
the next quadrennial review of the media ownership
rules.
332. Proposal 37. MMTC also proposes that the
Commission engage economists to “develop a model for
market-based tradable diversity credits” that would
serve as an alternative method for adopting ownership
limits.1015 Broadly speaking, this proposal involves issuing “Diversity Credits” that could be traded in a marketbased system and redeemed by a station buyer to offset
increased concentration that would result from a proposed transaction.1016 While the Commission’s authority to adopt such a system is, at best, unclear, we think
there is merit in evaluating the underlying proposal.
We therefore direct the Media Bureau to consider this
intended to express “the consumer benefit derived from marginal
increases in source diversity.” Id.
1014
DCS Supplemental NPRM Comments at 70.
1015
DCS Supplemental NPRM Comments at 75 (Engage Economists to Develop a Model for Market-Based Tradable Diversity
Credits as an Alternative to Voice Tests); see also MMTC June 24,
2016 Ex Parte Letter at 7-8.
1016
Id.

444
proposal further and to solicit input on this idea in the
document initiating the next quadrennial review of the
media ownership rules.
333. Proposal 40. MMTC recommends the creation
of a new Civil Rights Branch of the Enforcement Bureau
that would enforce Media Bureau Equal Employment
Opportunity rules, as well as other rules impacting the
broadcasting, cable, satellite, wireless, and wireline industries.1017 We have evaluated this proposal, and we
find it warrants further consideration. Though we do
not see a need to denominate a separate branch, enforcement of the Media Bureau Equal Employment Opportunity rules, which is presently handled by the Media
Bureau, might be more appropriate as a function of the
Enforcement Bureau, given the Enforcement Bureau’s
existing mission and expertise in the enforcement of the
Commission’s regulations. We in no way, however, believe that the Media Bureau has failed to effectively enforce these rules. Accordingly, we direct the appropriate Commission Bureaus and Offices, including the Media Bureau, Enforcement Bureau, and Office of the
Managing Director, to discuss the feasibility, implications, and logistics of shifting the enforcement of the
Media Bureau Equal Employment Opportunity rules
from the Media Bureau to the Enforcement Bureau.
4.

AWM Proposals

DCS Supplemental NPRM Comments at 80-81 (Create a New
Civil Rights Branch of the Enforcement Bureau); see also MMTC
FNPRM Comments at 11; MMTC June 24, 2016 Ex Parte Letter at
8; Letter from David Honig, President Emeritus and General Counsel, MMTC, to Marlene H. Dortch, Secretary, FCC, at 1-2 (filed Dec.
12, 2014).
1017

445
334. In response to the NPRM, AWM proposed that
the Commission (i) prepare a primer on investment in
broadcast ownership for smaller and regional lenders
willing to provide loans to new broadcast entrants; (ii)
prepare a primer for new entrants that provides guidance on how to find financing; (iii) establish a link on the
Commission’s website to provide information on stations
that may be available for sale to small businesses; and
(iv) allow sellers to hold a reversionary interest in a Commission license in certain circumstances.1018 We sought
comment on these proposals in the FNPRM.1019 NAB,
in its FNPRM comments, states that it has previously
urged the Commission to sponsor primers on investment and financing of broadcast properties and allow
sellers to hold reversionary interests in broadcast licenses in certain circumstances.1020
335. We believe we have acted to achieve the purposes of these proposals to the extent appropriate for
the industry and the regulatory agency. As we noted
in the FNPRM, OCBO currently engages in a number
of activities that provide broadcasters and potential investors with resources that are similar in substance to
primers on investment and financing. 1021 We discuss

AWM NPRM Comments at 6 (urging the Commission to consider “[a]llowing sellers to hold a reversionary interest in a Commission license if Seller paper is involved”).
1019
FNPRM, 29 FCC Rcd at 4517-18, paras. 318-19 (discussing
AWM proposals).
1020
NAB FNPRM Comments at 93-94. AWM urges the Commission to further explore the various proposals advanced and supported by NAB to encourage ownership of broadcast stations by
women and minorities. AWM FNPRM Reply at 1-2.
1021
FNPRM, 29 FCC Rcd at 4518, para. 318.
1018

446
these activities above. 1022 Beyond those activities, we
continue to believe that specific advice about investment
and financing is more appropriately provided by private
parties that are directly involved in the financial marketplace than by the Commission. In particular, no additional commenters have urged us to adopt AWM’s proposal that the Commission create a public listing of stations that may be available for sale to small businesses,
and, as we explained in the FNPRM, the Commission
currently does not have at its disposal the information
that would be necessary to create such a resource.1023
336. With regard to the proposal to allow sellers to
hold reversionary interests in Commission licenses in
certain circumstances, we previously noted that AWM’s
proposal does not address the Commission’s historical
concerns about reversionary interests and is insufficiently developed to warrant departure from the Commission’s longstanding policy against the holding of such
interests. The Commission has traditionally held that
no right of reversion can attach to a broadcast license
and that a station licensee is fully responsible for the
conduct of the station and its operation in the public
interest—a responsibility that cannot be delegated by
contract. 1024 While NAB notes that it has previously
urged the Commission to allow sellers to hold reversionary interests in certain circumstances, NAB does not address the specific concerns we discussed in the FNPRM
See supra Section IV.A.1.
FNPRM, 29 FCC Rcd at 4518, para. 319.
1024
See, e.g., Applications of Kidd Communications, 19 FCC Rcd
13584 (2004); see also 47 CFR § 73.1150 (“In transferring a broadcast station, the licensee may retain no right of reversion of the
license. . . . ”).
1022
1023

447
regarding this proposal. 1025 Other commenters have
not contributed to building a record on our reversionary
interest policy in this proceeding.1026 Accordingly, we
decline to adopt these proposals.1027
V.

SHARED SERVICE AGREEMENTS
A.

Introduction

337. Today we bring transparency to the use of sharing agreements between independently owned commercial television stations. Through these agreements,
competitive stations in a local market are able to combine certain operations, with effectively the same station
personnel handling or facilities performing functions for
multiple, independently owned stations. While such
combined operations no doubt result in cost savings—
savings that could be reinvested in improved programming and other public interest-promoting endeavors—
we have an obligation to ensure that these agreements
are not being used to circumvent the Commission’s
broadcast ownership rules and are not otherwise inconsistent with the Commission’s rules and policies. Today’s decision is an important step in that process.
338. Specifically, in this Order and as discussed in
greater detail below, we adopt a comprehensive definition of SSAs and a requirement that commercial television stations disclose these agreements by placing them
FNPRM, 29 FCC Rcd at 4518, para. 319.
See AWM FNPRM Reply at 1-2; Morris FNPRM Comments
at 44-45 & n.150.
1027
If presented with appropriate evidence or analysis regarding
the Commission’s historical concerns, the Commission may consider
in a future proceeding a general review of its reversionary interest
policy, subject to resource constraints.
1025
1026

448
in the stations’ online public inspection files. This method
of disclosure will place a minimal burden on stations,
while providing the public and the Commission with
easy access to the agreements. Accordingly, we find
that the benefits of this rule outweigh the minimal burdens associated with disclosure.
B.

Background

339. The potential disclosure of SSAs has been considered in multiple Commission proceedings. In the
Enhanced Disclosure FNPRM, the Commission sought
comment on whether the disclosure of sharing agreements that were not already defined and required to be
disclosed under the Commission’s rules (e.g., local marketing agreements (LMAs) and JSAs) 1028 would serve
the public interest and whether to require stations to include such agreements in their public files. 1029 Ultimately, the Commission declined to adopt any new disclosure requirements for sharing agreements in that
proceeding but indicated that it would continue to monitor the issue and revisit the disclosure requirement in

The Commission’s rules define local marketing agreements,
also known as “time brokerage agreements,” as agreements where
a licensee sells discrete blocks of time to a “broker” that supplies the
programming to fill that time and sells the commercial spot announcements in it. 47 CFR § 73.3555, Note 1( j). JSAs (joint sales
agreements) are defined as agreements with a licensee of a “brokered station” that authorizes a “broker” to sell advertising time for
the “brokered station.” 47 CFR § 73.3555, Note 1(k).
1029
Standardized and Enhanced Disclosure Requirements for
Television Broadcast Licensee Public Interest Obligations, Order
on Reconsideration and Further Notice of Proposed Rulemaking,
26 FCC Rcd 15788, 15805-06, para. 35 (2011).
1028

449
the future.1030 Concurrent with the pendency of the Enhanced Disclosure proceeding, the Commission sought
comment in the NPRM in the 2010 Quadrennial Review
proceeding about various types of sharing agreements,
noting that commenters to the NOI in that proceeding
had specifically identified sharing agreements involving
commercial television stations and a subcategory of such
agreements, local news sharing (LNS) agreements, as
matters of concern, but acknowledging that these terms
were not defined in Commission rules.1031 The NPRM
invited views on the potential impact of such agreements
on the Commission’s ownership rules and fundamental
policy goals, invited submissions of further information
about how to define such agreements, and sought comment on whether they should be attributed or disclosed.1032
340. Building on the comments filed in response to
the NPRM, the FNPRM focused the inquiry onto
whether and how to require the disclosure of certain
SSAs. Specifically, the FNPRM proposed a comprehensive definition of SSAs designed to encompass the
universe of agreements that parties broadly referred to
as “sharing agreements.” The FNPRM also sought
comment on whether the proposed definition was too expansive and on ways in which the definition could be limited without negatively impacting the public’s and the
Commission’s interest in understanding the breadth and
Standardized and Enhanced Disclosure Requirements for
Television Broadcast Licensee Public Interest Obligations, Second Report and Order, 27 FCC Rcd 4535, 4575, para. 84 (2012) (Enhanced Disclosure Order).
1031
NPRM, 26 FCC Rcd at 17564-70, paras. 194-208.
1032
Id. at 17569, paras. 204-05.
1030

450
prevalence of these agreements. 1033 In addition, the
FNPRM asked whether disclosure of SSAs by commercial television stations was necessary to enable the public and the Commission to evaluate the impact of these
agreements, and if so, what method of disclosure would
best serve the public interest (e.g., placing SSAs in each
station’s online public file, or creating a new form to be
filed with the Commission). 1034 The item also sought
comment on related issues, such as whether to apply the
disclosure requirement to other services (e.g., commercial radio stations, noncommercial television and radio
stations) and whether to permit the redaction of confidential or proprietary information, as is permitted with
respect to the filing of LMAs and JSAs.1035
C.

Discussion

341. We find that commenters have raised meaningful concerns regarding the potential impact of sharing
agreements involving commercial television stations on
our competition, localism, and diversity policy objectives, particularly with respect to our local broadcast ownership rules. At the same time, resource sharing can
deliver meaningful public interest benefits, and the sharing of certain resources may have no negative impact on
any of our policy goals. At present, however, consideration of these issues is impeded because so little is
known by the Commission and the public about the content, scope, and prevalence of sharing agreements. 1036
FNPRM, 29 FCC Rcd at 4522-24, paras. 329-34.
Id. at 4524-26, paras. 335-39.
1035
Id. at 4524, 4526, paras. 334, 339.
1036
This is not the case, however, with respect to LMAs and JSAs,
which are well-known and understood subsets of sharing agreements
1033
1034

451
In order to assess these issues, we first adopt a clear
definition of SSAs—substantially similar to the definition proposed in the FNPRM—in order to identify the
agreements between stations that are relevant to our
improved understanding of how stations share services
and resources. Next, we adopt a mechanism for making such arrangements involving commercial television
stations transparent to the public and the Commission.1037 Specifically, commercial television stations will
now be required to disclose these agreements by placing
them in the participating stations’ online public inspection files. Through our actions today, the public and
the Commission will be able to better evaluate the impact of these agreements, if any, on our policy goals.
1.

Definition of Shared Service Agreement

342. Scope of definition. In the FNPRM, we proposed to define an SSA as any agreement or series of
agreements, whether written or oral, in which (1) a station, or any individual or entity with an attributable interest in the station, provides any station-related services, including, but not limited to, administrative, technical, sales, and/or programming support, to a station
that is not under common ownership (as defined by the
Commission’s attribution rules); or (2) stations that are
not under common ownership (as defined by the Commission’s attribution rules), or any individuals or entities with an attributable interest in those stations, collaborate to provide or enable the provision of stationthat are already attributable in certain circumstances. 47 CFR
§ 73.3555, Note 2(k).
1037
As discussed below, we decline to extend the SSA disclosure requirement to include agreements involving radio stations and/or
noncommercial television stations.

452
related services, including, but not limited to, administrative, technical, sales, and/or programming support, to
one or more of the collaborating stations.1038
343. Many commenters express support for the definition proposed in the FNPRM, asserting that it is important to adopt a definition broad enough to ensure
that all types of sharing agreements are identified (and
ultimately disclosed). 1039 In addition, Free Press asserts that a narrower definition would invite legal gamesmanship, whereby agreements would be drafted in such
a way as to avoid disclosure.1040
344. Broadcast commenters, however, assert that
the definition is overbroad.1041 The Smaller Market Coalition, for example, asserts that the proposed definition
of SSA greatly expands on the type of agreements commonly known as sharing agreements and would apply to
even minor collaborations between stations, including
community service initiatives and breaking news coverage.1042 Similarly, NAB argues that the definition is overbroad because it covers agreements that are not tied to
a station’s core operations and are not “reasonably related to any regulatory concern.1043 For example, NAB
states that sharing agreements covering administrative

FNPRM, 29 FCC Rcd at 4523, para. 330.
CWA FNPRM Comments at 6-7; Free Press FNPRM Comments at 23; UCC et al. FNPRM Comments at 6-7; UCC et al.
FNPRM Reply at 8; WGAW FNPRM Comments at 13.
1040
Free Press FNPRM Comments at 23.
1041
Smaller Market Coalition FNPRM Comments at 17; NAB
FNPRM Comments at 95-98.
1042
Smaller Market Coalition FNPRM Comments at 17.
1043
NAB FNPRM Comments at 96-97.
1038
1039

453
support or other back-office services do not raise attribution or transfer of control concerns; therefore, they
should not be included in the definition of SSAs for disclosure purposes.1044 NAB also objects to the definition
because it encompasses other types of agreements that
are already defined by the Commission and subject to
various regulations.1045 Although the FNPRM requested
possible alternatives to the proposed definition, no commenter submitted an alternate definition for consideration.1046
345. We find that the definition proposed in the
FNPRM, with a minor modification discussed below,
best comports with the informational needs that support
our efforts to define SSAs. Contrary to broadcaster
assertions, we do not believe it is appropriate to exclude
certain resource sharing, such as administrative support
or other back-office services, from the definition based
on premature assessments of the potential future regulatory treatment of such activities. In addition, we agree
with Free Press that a definition narrower than the one
we adopt today would invite legal gamesmanship whereby parties would be able to draft sharing agreements to
fall outside of the established definition to avoid disclosure.1047 For this reason, we will not adopt exclusions
from the definition of SSA, such as those based on the
duration of the agreement or a set dollar amount. Otherwise, an entity wishing to circumvent the disclosure
Id.
Id. at 99-101.
1046
FNPRM, 29 FCC Rcd at 4524, para. 333 (“We encourage those
who disagree with our proposed definition to provide specific alternative language to define SSAs for purposes of this proceeding.”).
1047
Free Press FNPRM Comments at 23.
1044
1045

454
requirement could merely break down an SSA into a series of shorter or smaller agreements that would each
fall below the established parameters. Similarly, as
noted in the FNPRM, a financial exclusion would omit
otherwise significant sharing agreements that involve
in-kind contributions. We do not believe that excluding these types of agreements from the definition of SSA
would further our objectives or serve the public interest.
346. In order to address concerns expressed by certain commenters, however,1048 we emphasize that the definition we adopt limits the scope of agreements to those
that involve station-related services. We also provide
non-exhaustive examples in the definition for guidance,
consistent with the proposal in the FNPRM.1049 Indeed,
it is not our goal to adopt a definition of SSAs that encompasses station interactions that do not relate to station operations or that are incidental in nature. For example, community service initiatives and charity events,
while worthwhile in their own regard, do not relate to
the operation of the broadcast station; accordingly, charitable collaborations involving independently owned
broadcast stations would not fit within the definition of
SSAs that we adopt here.
347. Similarly, we clarify that ad hoc or “on-the-fly”
arrangements during breaking news coverage are also
outside the definition of SSAs. While such interactions
may involve a station-related service, namely newsgathering, such informal, short-term arrangements are
Smaller Market Coalition FNPRM Comments at 17; NAB
FNPRM Comments at 96-97.
1049
FNPRM, 29 FCC Rcd at 4523, para. 330. Station-related services include, but are not limited to, administrative, technical, sales,
and/or programming support. Id.
1048

455
typically precipitated by unforeseen or rapidly developing events. Absent a covering agreement that facilitates such cooperation, we do not believe that these
types of interactions demonstrate that the stations are
working together; rather, they are acting in a manner
that allows each station to separately pursue its own
ends (e.g., the production of an independent news
story).1050 By contrast, such conduct would be evidence
of collaboration, and included in the definition of SSAs,
if the stations were parties to an LNS agreement (or
similar agreement) that governs the terms of news coverage, even if the stations retain the ability to produce
their own segments.
348. Text of Definition. While we find that a clear
definition of SSAs is appropriate, one technical change
to the text proposed in the FNPRM is necessary. In
the FNPRM, the proposed definition of SSAs was designed to identify the universe of agreements for the
provision of station-related services involving stations
that are not under common control.1051 Stations under
common control do not “share” services or collaborate
in the same way as stations that operate independently
for purposes of this definition. After review, we believe that the proposed language failed to appropriately
For example, if two news trucks from independently owned
broadcast television stations arrive at the scene of an accident at the
same time and agree to set up their camera shots from different angles or to rely on the footage shot by only one of the stations due to
limited space and safety concerns, this agreement does not evidence
actual collaboration between the stations to produce the news segments. Instead, the news teams are reacting to unforeseen circumstances and ensuring that each news team can safely and effectively
create its own news story.
1051
See, e.g., FNPRM, 29 FCC Rcd at 4523, para. 331.
1050

456
reflect our intent regarding the scope of the requirement, which covers agreements between stations “not
under common ownership.” Specifically, the phrase
“not under common ownership (as defined by the Commission’s attribution rules),” in the absence of context,
could be read to exclude from the definition those stations that simply share a single attributable interest
holder, which was not our intent for purposes of this
rule. To rectify this, we will replace this phrase with
one used by Congress in the STELA Reauthorization
Act of 2014, in which Congress banned all joint retransmission negotiations by stations in the same market that
are not under common de jure control.1052 In the statute, Congress defined stations as commonly owned
when they were “directly or indirectly under common
de jure control permitted under the Commission’s regulations.” Adopting this revised language will define
SSAs as agreements between stations that are not under common de jure control, which was our purpose in
the FNPRM.
349. Accordingly, we define an SSA as any agreement or series of agreements, whether written or oral,
in which (1) a station provides any station-related services, including, but not limited to, administrative, technical, sales, and/or programming support, to a station
that is not directly or indirectly under common de jure
control permitted under the Commission’s regulations;
or (2) stations that are not directly or indirectly under
common de jure control permitted under the Commission’s regulations collaborate to provide or enable the
provision of station-related services, including, but not
Pub. L. No. 113-200, 128 Stat. 2059 (2014); see 47 U.S.C.
§ 325(b)(3)(C) (as amended by Section 103 of the STELAR).
1052

457
limited to, administrative, technical, sales, and/or programming support, to one or more of the collaborating
stations. For purposes of this rule, the term “station”
includes the licensee, including any subsidiaries and affiliates, and any other individual or entity with an attributable interest in the station.1053 Consistent with previous Commission rules, the substance of oral agreements
shall be reduced to writing.1054

We emphasize that sharing agreements to which non-licensee
entities are a party (e.g., an operating subsidiary of the ultimate parent company) fall within the definition we adopt herein. We find
that including such entities within the term “station” is necessary to
foreclose the possibility that stations could use operating subsidiaries or similar entities to evade the SSA disclosure requirement. This
is consistent with our proposal in the FNPRM that we should not
limit the definition of SSAs to only those agreements to which licensees are parties. See FNPRM, 29 FCC Rcd at 4523, para. 332 (stating that limiting the definition of SSAs to agreements between licensees would exclude existing agreements intended for inclusion and
afford a means to evade disclosure requirements).
1054
See 47 CFR § 73.3613 (requiring the substance of oral contracts
to be reported in writing).
1053

458
2.

Disclosure of Shared Service Agreements

350. Justification for disclosure. Many commenters support the Commission’s proposed disclosure requirement. 1055 According to these commenters, broad
disclosure of SSAs is necessary to provide the public and
the Commission with the information necessary to evaluate the potential impact of these agreements on the
Commission’s rules and policies, as well as in license renewal proceedings.1056 In addition, Free Press asserts
that the disclosure requirement should apply both to the
brokered station and the brokering station.1057
351. Multiple broadcast commenters oppose the disclosure requirement based on concerns that the disclosure requirement is unduly burdensome.1058 These commenters argue that the requirement will—and is, in fact,
designed to—discourage stations from entering into

See Block FNPRM Comments at 6-11; CWA FNPRM Comments at 6-7; Free Press FNRPM Comments at 23-24; Free Press
FNPRM Reply at 14; LCCHR FNPRM Comments at 3; MMTC
FPRM Comments at 6; Morgan Wick FNPRM Reply at 5; SAGAFTRA FNPRM Comments at 3; UCC et al. FNRPM Comments at
1-2; UCC et al. FNPRM Reply at 7; WGAW FNPRM Comments at
13-14; see also NAB FNPRM Comments at 95 (supporting disclosure of SSAs in some circumstances, but opposing the specific requirements proposed in the FNPRM).
1056
See CWA FNPRM Comments at 6-7; LCCHR FNPRM Comments at 3; SAG-AFTRA FNPRM Comments at 3; UCC et al.
FNPRM Comments at 5; WGAW FNPRM Comments at 13-14.
1057
Free Press FNRPM Comments at 24-25.
1058
NAB states generally that the cost of compliance with the proposed disclosure requirement will be significant, though it provides
no cost estimates or specific information.
1055

459
SSAs, which will lead to a reduction in investment in local programming and station improvements.1059 NAB
also raises First Amendment concerns by asserting that
the disclosure requirement represents an intrusion into
the day-to-day operations of broadcast station—the newsroom, in particular.1060
352. While NAB states that it does not oppose disclosure of sharing agreements if the transparency would
promote the Commission’s policy goals, NAB argues
that the proposed broad disclosure requirement fails to
do so. 1061 While NAB concedes that the Commission
“can properly solicit information from private parties in
order [to] better fulfill its statutory mandate,” NAB contends that the Commission has failed to tie the “broad-

See NAB FNRPM Comments at 95, 104-05; NAB FNPRM Reply at 13; Smaller Market Coalition FNPRM Comments at 16-17, 18;
Sinclair FNPRM Comments at 12; Surtsey Media FNPRM Comments at 1-6.
1060
NAB FNPRM Comments at 103 (asserting that the disclosure
requirement is subject to intermediate scrutiny under the First
Amendment and that the proposed disclosure requirement would
likely not satisfy that test).
1061
Id. at 95. According to NAB, the only potential problems
raised by SSAs identified by the FNPRM are already covered by
existing regulations, so disclosure is not necessary. Id. at 99-100.
For example, NAB states that LMAs and JSAs—types of sharing
agreements—are already regulated, station staffing issues are addressed by the main studio rule, and issues of control can be addressed under the Commission’s de facto control standards. Id. at
100.
1059

460
ranging” disclosure requirement to any identified regulatory issue, statutory mandate, or proposed regulation.1062
According to NAB, the Commission must first identify a
specific problem or regulatory action before requiring
disclosure of SSAs.1063
353. Free Press and UCC et al. reject the claims that
the proposed disclosure requirement is too broad and
not sufficiently connected to specific regulatory concerns.
They argue that commenters have identified potential
concerns associated with these agreements, and the
Commission has determined that it lacks information on
the breadth and substance of SSAs, which hinders its
ability to evaluate the commenters’ concerns.1064 According to UCC et al., NAB is wrong to suggest that the
NAB FNPRM Comments at 97; NAB FNRPM Reply at 12-13;
see also Smaller Market Coalition FNPRM Comments at 17 (asserting that the Commission has failed to provide a rational justification
for imposing this burden).
1063
See NAB FNPRM Comments at 97-99. NAB argues that the
record demonstrates that SSAs are not problematic, and therefore,
that the disclosure requirement runs counter to the evidence before
the Commission. Id. at 99 (citing Motor Vehicle Mfrs. Ass’n v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983)); see also NAB
FNPRM Comments at 101-03. However, UCC et al. assert that the
Commission has broad authority—both statutory and under relevant case law—to adopt appropriate record-keeping requirements
and to require the disclosure of information necessary for the Commission to discharge its functions. See UCC et al. FNPRM Reply
at 12-13 (citing Stahlman v. FCC, 126 F.2d 124, 128 (D.C. Cir. 1942)
(Stahlman); United Church of Christ v. FCC, 779 F.2d 702, 707 (D.C.
Cir. 1985); and Sections 303( j), 303(r), 308(b), and 309(a) of the Communications Act).
1064
Free Press FNPRM Reply at 15, 16-18 (providing examples of
potential harms associated with SSAs); UCC et al. FNPRM Reply
at 8.
1062

461
Commission must identify regulatory violations before
requiring disclosure, as disclosure is first necessary to
allow the public and the Commission to review and analyze the agreements.1065 Similarly, Free Press disputes
NAB’s assertion that certain SSAs, such as those involving back-office or administrative services, should not be
disclosed because they do not pose any attribution or
other regulatory concerns. According to Free Press,
this is precisely the question at issue and such determinations cannot be made until the agreements have been
disclosed and analyzed.1066 According to UCC et al., these
agreements are not available from any other source, so
the disclosure requirement is necessary to facilitate this
analysis.1067 These commenters also reject contentions
that the disclosure requirement is overbroad because
certain subsets of SSAs, such as LMAs and JSAs, are
already defined and regulated by the Commission and
the disclosure requirement would have no impact on
these agreements (i.e., an agreement need only be disclosed once).1068
354. We require the disclosure of SSAs in each participating station’s online public inspection file, as explained in greater detail below. The SSA disclosure requirement shall apply regardless of whether the agreement involves stations in the same market or in different
markets. This approach follows the approach taken
with the public file disclosures for JSAs and LMAs and
is consistent with our intent to learn more about how
1065
1066
1067
1068

at 9.

UCC et al. FNPRM Reply at 8-9.
Free Press FNPRM Reply at 16.
UCC et al. FNPRM Reply at 8-9.
Free Press FNPRM Reply at 15-16; UCC et al. FNPRM Reply

462
commercial television stations use these agreements.1069
We find that this disclosure requirement is tied to a
clear regulatory purpose. Commenters in the proceeding have raised meaningful issues regarding the potential impact of the joint operation of independently owned
commercial broadcast television stations pursuant to
SSAs on the Commission’s rules and policy goals, including, but not limited to, the Commission’s local broadcast
ownership rules and rules regarding unauthorized transfer of control. 1070 These commenters have identified
specific provisions in sharing agreements that, according to the commenters, convey a significant degree of
influence over the core operating functions of an independent commercial television station (and potentially
de facto control over the station).1071 In addition, commenters have also provided examples of markets in
which sharing agreements have been executed and of
the asserted impact of these agreements on the market
(e.g., job losses and reductions in independently produced local news programming).1072 According to these
commenters, such sharing agreements impact the Commission’s competition, localism, and diversity goals, as
well as suggest violations of the Commission’s rules

See 47 CFR § 73.3526(e)(14), (e)(16).
Free Press FNPRM Reply at 16-18; Block FNPRM Comments
at 6-7; LCCHR FNPRM Comments at 3; see also FNPRM, 29 FCC
Rcd at 4520, para. 323 (summarizing commenters’ SSA concerns
from the 2010 quadrennial review proceeding).
1071
See, e.g., CWA FNPRM Comments at 9-20; Free Press
FNPRM Reply at 18-19.
1072
See, e.g., CWA FNPRM Comments at 12-15.
1069
1070

463
against unauthorized transfers of control. The disclosure of these agreements is necessary for the public and
the Commission to evaluate these potential impacts.
355. Moreover, the Commission’s rules have long required that television and radio broadcast stations enable public inspection of certain documents to provide information both to the public and to the Commission about
station operations.1073 The public and the Commission
rely on information about the nature of a station’s operations and compliance with Commission rules to verify
that a station is meeting its fundamental public interest
obligations. The Commission has consistently found
that disclosure requirements facilitate the Commission’s
regulatory purposes while imposing only a minimal burden on licensees.1074
356. Additionally, we disagree that the Commission
must first address the appropriate regulatory status of
sharing agreements (e.g., make them attributable) prior
to requiring their disclosure. For example, we agree
with Free Press and UCC et al. in rejecting NAB’s assertion that back-office or administrative agreements—
agreements that clearly relate to station operations within
the definition of SSAs we adopt herein—should be excluded from disclosure because they currently do not
raise any attribution or other regulatory concerns. Disclosure itself informs such decisions, and the Commission
See 47 CFR §§ 73.3526, 73.3527, 73.1943.
See, e.g., Review of the Commission’s Regulations Governing
Attribution of Broadcast and Cable/Mds Interests, Report and Order, 14 FCC Rcd 12559, 12601, para. 92 (1999) (1999 Attribution Order). As discussed in greater detail below, we find that broadcast
commenters have failed to provide any evidence to substantiate
claims that the disclosure requirement is unduly burdensome.
1073
1074

464
has wide latitude to impose such a requirement.1075 Moreover, such agreements may also help inform allegations
Enhanced Disclosure Order, 27 FCC Rcd at 4575, para. 84;
see also 1999 Attribution Order, 14 FCC Rcd at 12612-13, para. 123
(declining to change Commission attribution policies regarding
JSAs but requiring broadcasters to place JSAs in their public inspection files to facilitate monitoring of JSAs by the public, competitors, and regulatory agencies); Stahlman, 126 F.2d at 127 (“[F]all
authority and power is given to the Commission with or without
complaint to institute an inquiry concerning questions arising under the provisions of the Act or relating to its enforcement. This
. . . includes authority to obtain the information necessary to discharge its proper functions, which would embrace an investigation
aimed at the prevention or disclosure of practices contrary to public interest.”) (citing 47 U.S.C. § 403); Stahlman, 126 F.2d at 128
(Commission inquiry was “within the administrative powers of the
Commission to initiate the proposed investigation for the purpose
of ascertaining the facts for its guidance in making reasonable and
proper public rules, for application to existing stations, and in the
consideration of future requests.”); 47 CFR § 1.1 (“The Commission may on its own motion or petition of any interested party hold
such proceedings as it may deem necessary from time to time in
connection with the investigation of any matter which it has power
to investigate under the law, or for the purpose of obtaining information necessary or helpful in the determination of its policies, the
carrying out of its duties or the formulation or amendment of its
rules and regulations. For such purposes it may subpoena witnesses and require the production of evidence. Procedures to be
followed by the Commission shall, unless specifically prescribed in
this part, be such as in the opinion of the Commission will best
serve the purposes of such proceedings.”); 47 U.S.C. § 303(r) (authority to “[m]ake such rules and regulations and prescribe such
restrictions and conditions, not inconsistent with law, as may be
necessary to carry out the provisions of this chapter”); 47 U.S.C.
§ 303( j) (Commission has “authority to make general rules and regulations requiring stations to keep such records of programs, transmissions of energy, communications, or signals as it may deem desirable”); 47 U.S.C. § 154 (“The Commission may perform any and
1075

465
involving unauthorized transfers of control. In the
past, the Commission has first required the disclosure
of certain agreements that relate to station operations
prior to making a determination that such agreements
should be subject to additional regulation.1076 Our action today is consistent with this precedent. Indeed,
the Commission could hardly fulfill its obligation to ensure that station operations are consistent with Commission rules and policies if it were required to determine the regulatory status of certain agreements before
obtaining the information necessary to evaluate the
agreements. We do not think the public interest would
be served by adopting such a constricted view of the
Commission’s authority.
357. Furthermore, we are not persuaded that the
disclosure requirement adopted today will discourage
stations from entering into SSAs. First, the adopted
method for disclosure minimizes the cost of compliance
and utilizes a procedure with which commercial television broadcasters already have extensive experience.1077
It cannot be credibly stated that the burden associated
all acts, make such rules and regulations, and issue such orders, not
inconsistent with this chapter, as may be necessary in the execution
of its functions.”).
1076
1999 Attribution Order, 14 FCC Rcd at 12601, 12612-13, paras.
94, 123. We note that our action today does not predetermine that
any such additional regulation will be forthcoming for SSAs; rather,
the disclosure is necessary for the Commission to make such a determination.
1077
See Enhanced Disclosure Order, 27 FCC Rcd at 4536, para. 2;
Expansion of Online Public File Obligations to Cable and Satellite
TV Operators and Broadcast and Satellite Radio Licensees, Notice
of Proposed Rulemaking, 29 FCC Rcd 15943, 15944, para. 1 (2014)
(Expansion of Online Public File Obligations NPRM).

466
with disclosure would exceed the benefits of the agreements. Second, we find it instructive that there is no
evidence that the disclosure requirements for JSAs and
LMAs, specific types of SSAs, have inhibited the formation of those agreements. To the contrary, the
Commission first required the public filing of television
JSAs in 1999, and the prevalence of these agreements
increased significantly after the disclosure requirement
was adopted.1078 Ultimately, we do not find any evidence
to support the contention that disclosure of SSAs would
discourage stations from executing such agreements,
particularly if the agreements are as beneficial as broadcast commenters contend.
358. Finally, we reject NAB’s assertion that the SSA
disclosure requirement would violate the First Amendment because the Commission is “immersing itself in
broadcasting stations’ day-to-day operations.”1079 The
cases cited by NAB in support of its theory are readily
distinguishable from the disclosure requirement adopted
today, as neither case involves simply requiring disclosure of contracts relating to station operations.1080 Con-

1999 Attribution Order, 14 FCC Rcd at 12601, 12612-13, paras.
94, 123; FNPRM, 29 FCC Rcd at 4528, para. 342 & n.1048 (citing
Jonathan Make, Widespread, Cost-Saving TV JSAs Lead Executives to Question Why FCC Would Attribute Them, Communications
Daily, Nov. 29, 2012 (reporting that its own survey showed over 100
stations that were party to a television JSA and noting the increased
prevalence of such agreements in recent years)).
1079
NAB FNPRM Comments at 103.
1080
See CBS v. Democratic Nat’l Comm., 412 U.S. 94 (1973) (involving regulation of editorial decisions, specifically whether broadcasters must accept paid editorial advertisements); FCC v. League of
Women Voters of Cal., 468 U.S. 364, 366 (1984) (concerning whether
1078

467
trary to NAB’s claims, the Commission is not interfering with broadcasters’ editorial discretion.1081 Rather,
the Commission is simply requiring that commercial television stations place certain contracts in their public
file, just as the Commission has done numerous times in
the past.1082 In particular, we are not restricting broadcasters’ discretion to determine what content to offer,
nor are we mandating or prohibiting any particular contractual terms. Thus, the disclosure requirement does
not burden broadcasters’ speech.1083 Further, there is
no evidence that previous disclosure requirements have
resulted in such involvement. For example, television
LMAs or JSAs that include local news programming and/
or production have long been subject to disclosure, but
there is no evidence that the Commission has subsequently become immersed in the day-to-day production
of local news or that disclosure of the agreements has
otherwise impacted station operations. Indeed, the
Commission has a long history of deferring to a “licensee’s good faith discretion” in programming decisions—
particularly news programming—and we believe that
the SSA disclosure requirement is consistent with this
noncommercial educational broadcasters may be prohibited from
“engag[ing] in editorializing”).
1081
See NAB FNPRM Comments at 103.
1082
See, e.g., 1999 Attribution Order, 14 FCC Rcd at 12601, 1261213, paras. 94, 123; NAB FNPRM Comments at 103; see also 47 CFR
§ 73.3526 (requiring placement of various agreements in station public file).
1083
In particular, we are not compelling broadcasters to express a
message or viewpoint. See United States v. Sindel, 53 F.3d 874, 878
(8th Cir. 1995) (finding that IRS summons did not require plaintiff
to “disseminate publicly a message with which he disagrees” and
First Amendment therefore did not prevent enforcement of the summons).

468
precedent.1084 In this case, we are not even proposing
to regulate SSAs beyond the bare disclosure requirement.
359. NAB further argues that the disclosure requirement fails to satisfy the constitutional standards
for regulations that require businesses to disclose factual information, stating that the agency must show that
there is a “substantial government interest” that is “directly and materially advanced by the restriction” and
that the restriction is narrowly tailored to achieve the
government interest.1085 On the contrary, even assuming that the disclosure requirement burdens broadcasters’ speech to any extent (which we conclude above is
not the case), the requirement would be subject, at most,
to rational basis review, which is the same standard that
courts have applied to the Commission’s ownership
rules.1086 Under this standard of review, a rule does not
violate the First Amendment if it is “a reasonable means
See ABC, Inc., Memorandum Opinion and Order, 83 FCC 2d
302, 305 (1980) (stating that the Commission will not review a licensee’s news judgment absent evidence of news suppression or distortion or evidence that the licensee has ignored matters of significant
local concern); see also Shareholders of Univision, Inc., Memorandum Opinion and Order, 22 FCC Rcd 5842, 5855-56, para. 28 (2007)
(“Because journalistic or editorial discretion in the presentation of
news and public information is the core concept of the First Amendment’s free press guarantee, licensees are entitled to the broadest
discretion in the scheduling, selection and presentation of news programming.”).
1085
NAB FNPRM Comments at 103 (quoting Nat’l Ass’n of Mfgs.
v. SEC, 748 F.3d 359, 371 (D.C. Cir. Apr. 2014), aff ’d on reh’g. 800
F.3d 518 (D.C. Cir. 2015), and citing Central Hudson Gas & Elec.
Corp. v. Pub. Serv. Comm’n, 447 U.S. 557, 564-66 (1980)).
1086
Sinclair Broad. Grp., Inc. v. FCC, 284 F.3d 148, 167-69 (D.C.
Cir. 2002).
1084

469
of promoting the public interest in diversified mass communications.”1087
360. Our SSA disclosure requirement satisfies this
standard. SSAs relate to a broadcast station’s core operational functions and thus could have the effect of lessening competition, diversity, or localism by creating a
commonality of interests. They could also have beneficial effects. Public interest commenters and broadcasters have conflicting viewpoints about whether SSAs
should be deemed attributable for purposes of our ownership rules and whether they negatively or positively
affect our public interest goals of competition, diversity,
and localism. Without an industry-wide disclosure rule,
we lack the information necessary to determine the extent to which SSAs may affect diversity, competition,
and localism and whether SSAs in fact confer significant
influence or control warranting attribution for purposes
of our ownership rules or raising unauthorized control concerns. Although broadcasters have disclosed SSAs in connection with individual license assignments/transfers of
control applications, we do not know what types of SSA
are in place between stations that are not parties to such
pending Commission applications, nor do we know the
extent to which broadcasters across the industry utilize
SSAs that are not already required to be disclosed.
Thus, we believe industry-wide disclosure is necessary
to allow the Commission and public to evaluate in a comprehensive manner the extent to which broadcasters use
various types of SSA, the nature of the contractual relationships, and the manner in which specific types of

Prometheus I, 373 F.3d at 401-02 (quoting FCC v. Nat’l Citizens Comm. for Broad., 436 U.S. 775, 802 (1978)).
1087

470
agreements affect competition, diversity, or localism.1088
Broadcasters hold licenses issued by the Commission
and are obligated to operate in the public interest, and
thus they have no right to withhold from the Commission or the public agreements that may significantly affect their service to the public. Therefore, our rule is a
reasonable means of promoting the Commission’s diversity, competition, and localism goals and assuring that
SSAs do not raise unauthorized control concerns and
satisfies the criteria for First Amendment rational basis
review.
361. The case law NAB cites in support of a higher
standard of review concerns requiring a regulated entity to undertake new speech,1089 and presents the question of whether a restriction on commercial speech, normally subject to intermediate scrutiny, satisfies the criteria for rational basis review under the exception applicable to compelled commercial speech that is strictly
UCC et al. FNPRM Reply at 8-9; see also GAO, Report to the
Chairman, Committee on Commerce, Science, and Transportation,
U.S. Senate, Media Ownership: FCC Should Review the Effects of
Broadcaster Agreements on its Policy Goals, GAO-14-558, at 29 (June
2014) (concluding that the “lack of analysis and information [about
the prevalence and nature of SSAs] could undermine [the] FCC’s efforts to ensure its media ownership regulations achieve their intended goals.”).
1089
Nat’l Ass’n of Mfgs., 748 F.3d at 363 (concerning a requirement
that mining firms investigate and disclose the origin of minerals extracted from a conflict zone). Ultimately, NAB seems to be relying
on Central Hudson for the proposition that restrictions on commercial speech are subject to intermediate scrutiny. Central Hudson,
447 U.S. at 557. In Central Hudson, the Court invalidated a state
regulation that prohibited public utilities from promoting the use of
electricity in their advertising and marketing materials. Id. at 55758.
1088

471
factual.1090 Here, in contrast, the Commission is simply
requiring broadcasters to publicly disclose contracts
they have already executed, not undertake new speech.
Further, although the SSA disclosure rule does nothing
more than require placement of SSAs in the broadcasters’ public inspection file, it is subject to rational basis
review for a different reason (i.e., because it is a contentneutral rule that furthers our scheme of broadcast ownership regulation and the policy goals supporting such
regulation).1091 Thus, if the SSA disclosure requirement
burdens speech at all, the rational basis review applicable to structural broadcast regulations—not the intermediate scrutiny standard applicable to commercial
speech—applies to the disclosure requirement.
362. Finally, even assuming that the intermediate
scrutiny standard of Central Hudson applies, which we
conclude is not the case, the rule “directly and materially” advances governmental interests that the Supreme
Court has recognized as substantial.1092 The purpose of
the rule is to provide information that is directly relevant to our regulation of broadcast ownership and the
policy goals that underlie our ownership rules. The fil-

Nat’l Ass’n of Mfgs., 748 F.3d at 370-71.
See Sinclair, 284 F.3d at 168.
1092
See Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622, 663 (1994)
(“Likewise, assuring that the public has access to a multiplicity of
information sources is a governmental purpose of the highest order,
for it promotes values central to the First Amendment.”); id. at 664
(“[T]he Government’s interest in eliminating restraints on fair competition is always substantial, even when the individuals or entities
subject to particular regulations are engaged in expressive activity
protected by the First Amendment.”) (citations omitted); Time
Warner Cable Inc. v. FCC, 729 F.3d 137, 160 (2d Cir. 2013).
1090
1091

472
ing of SSAs will further our goal of collecting the necessary information. We have tailored the requirement to
exclude agreements that are already subject to disclosure in a station’s public file and to exclude agreements
that are not likely to implicate our policy concerns.
The rule does not restrict or dictate the ways in which
broadcasters may share resources but simply requires
them to disclose contracts that already exist. The filing requirement is therefore narrowly tailored to achieve
the regulatory objective, and the burden is minimal. Accordingly, we find that the disclosure requirement does
not violate the First Amendment even under the higher
standard of review that NAB advocates.
363. Disclosure in station’s online public inspection
file. We will require commercial broadcast television
stations to post SSAs to each participating station’s online
public inspection file that is hosted by the Commission.
Multiple commenters support SSA disclosure in a station’s public inspection file (online, physical, or both).1093
According to Free Press, the nominal cost of scanning
and uploading an SSA into a station’s online public in-

See Free Press FNRPM Comments at 25 (supporting disclosure in both the online and physical public inspection file); SAGAFTRA FNPRM Comments at 3 (supporting disclosure in a station’s public inspection file); UCC et al. FNRPM Comments at 7 (advocating for disclosure in a station’s online public file); WGAW
FNPRM Comments at 14. Free Press asserts that television
LMAs and JSAs must be placed both in a station’s online and physical public inspection files, so it would be consistent to require the
same for SSAs. See Free Press FNPRM Comments at 25. This,
however, is not consistent with the public file rule, which requires
only that television LMAs and JSAs be placed in the online public
file.
1093

473
spection file would be exceeded by the benefits of disclosure.1094 UCC et al. oppose limiting disclosure of SSAs
to just the physical public inspection file or by filing directly with the Commission, as these methods would
make it difficult for members of the public to access the
agreements; rather, UCC et al. argue that disclosure in
the stations’ online public inspection files is the right approach.1095 In addition, they support the creation of a
permanent docket in ECFS for all new SSAs and material amendments thereto, which would be updated by
the Commission each time a filing is uploaded to the station’s online public inspection file.1096
364. We find that the online public filing requirement, pursuant to Section 73.3526 of the Commission’s
rules, best facilitates the disclosure of SSAs.1097 In the
Enhanced Disclosure Order, the Commission updated
the disclosure requirements to make information concerning broadcast service more accessible to the public
by having stations post their public files online in a central, Commission-hosted database.1098 Consistent with
our findings in that order, we find that an online public

Free Press FNPRM Comments at 25; Free Press FNPRM
Reply at 18.
1095
UCC et al. FNPRM Comments at 8. We note that the Commission recently proposed to eliminate the correspondence file requirement for commercial broadcast stations; if adopted, these stations would no longer be required to maintain local public inspection
files. See generally Revisions to Public Inspection File RequirementsBroadcaster Correspondence File and Cable Principal Headend Location, Notice of Proposed Rulemaking, FCC 16-62 (May 25, 2016).
1096
UCC et al. FNPRM Comments at 6-7.
1097
See 47 CFR § 73.3526.
1098
Enhanced Disclosure Order, 27 FCC Rcd at 4536, para. 1.
1094

474
filing requirement best comports with Commission policy to modernize the procedures that television broadcasters use to inform the public about how stations are
serving their communities. 1099 Having stations post
their SSAs online in a central, Commission-hosted database utilizes existing technology to make information
concerning broadcast service more accessible to the public
and reduces broadcasters’ costs of compliance over time.1100
We are not convinced that other disclosure methods, such
as an ECFS docket or filing with the Commission pursuant to Section 73.3613 of the Commission’s rules, are
less burdensome than the online public file requirement
or that such methods provide meaningful advantages to
the public and the Commission in terms of identifying
and accessing SSAs.
365. NAB asserts that under the State Farm decision the Commission must consider less-restrictive alternatives than those proposed in the FNPRM and proposes that stations instead submit an aggregate list of
SSAs in their biennial ownership reports, which, according to NAB, would give the Commission the ability to
evaluate, over time, whether these agreements have a
negative impact on the Commission’s policy goals. 1101
In reply, however, UCC et al. assert that NAB’s proposal is insufficient, as an aggregate list of agreements
would not provide the public or the Commission with information regarding the content or the scope of the
agreements—information that is critical for an analysis

See id.
See id.
1101
NAB FNPRM Comments at 105 (citing State Farm, 463 U.S.
at 43).
1099
1100

475
of the impact of SSAs on the Commission’s rules and policy goals.1102 UCC et al. also assert that the Commission is not required to consider other solutions to a problem, so long as the option selected is not irrational.1103
Moreover, UCC et al. state that NAB’s reliance on State
Farm is misplaced, because NAB’s proposal does not
address the problems identified by the Commission—
i.e., a lack of information regarding the breadth, content, and scope of SSAs—therefore, NAB’s proposal
cannot be considered a significant alternative worthy of
Commission consideration.1104
366. We decline to adopt NAB’s proposed alternative to require that stations submit an aggregate list of
SSAs as part of the biennial ownership reports. We
agree with UCC et al. that a mere list of agreements
would be insufficient for the purpose we seek.1105 Such
a limited disclosure would not permit the public or the
Commission to develop a full and complete understanding of SSAs and their impact on the broadcast television
industry. Simply submitting a list of agreements would
not provide the public or the Commission with any information about the nature and scope of the agreements,
only that the agreements exist. While the prevalence
of SSAs is of some importance, the terms of the agreements and their impact on station operations are far more
critical to an analysis of the potential impact of SSAs on
the Commission’s rules and policy goals. In addition,
UCC et al. FNPRM Reply at 10.
Id. (citing Ass’n of Pub.-Safety Commc’ns Officials v. FCC, 76
F.3d 395, 400 (D.C. Cir. 1996) (citing Loyola Univ. v. FCC, 670 F.2d
1222, 1227 (D.C. Cir. 1982))).
1104
UCC et al. FNPRM Reply at 10.
1105
See id.
1102
1103

476
disclosure only in biennial ownership reports would not
result in timely disclosure of these agreements, which
would frustrate continued efforts to study SSAs. Moreover, searching for SSAs disclosed in biennial ownership
reports would be a more laborious task for the public
and the Commission than searching the online public
files. Indeed, a significant benefit of the online public
file is that it improves public access to documents while
minimizing burdens on stations. NAB’s proposal ignores this significant benefit without identifying any
meaningful benefits in return.
367. Disclosure by noncommercial stations, radio,
and newspapers. In the FNPRM, we proposed to apply
the disclosure requirement to commercial television stations only but sought comment on whether agreements
involving other entities, such as radio stations and noncommercial television stations, should also be included
in the disclosure requirement. 1106 Some commenters
urge the Commission to expand the disclosure requirement beyond full-power commercial television stations.
These commenters argue that expanding the disclosure
requirement will allow the public and the Commission to
analyze whether these SSAs are impacting the Commission’s rules and policies with regard to other media platforms. Specifically, the Communications Workers of
America (CWA) asks the Commission to require disclosure of SSAs involving noncommercial television stations as well as broadcast radio stations; SAG-AFTRA
advocates expanding the requirement to commercial radio stations; and UCC et al. support expanding the dis-

1106

FNPRM, 29 FCC Rcd at 4524, para. 334.

477
closure requirement to SSAs involving same-market television stations and daily newspapers, and those involving same-market radio stations.1107
368. We decline to expand the SSA disclosure requirement beyond commercial television stations, as commenters have not provided sufficient justification for
such an expansion at this time.1108 Commenters provided
the Commission with numerous examples of sharing
agreements involving commercial television stations.1109
Based on these examples, commenters raised meaningful
concerns about the potential impact of such agreements on
the Commission’s public interest goals.1110 The evidence
in the record, however, does not demonstrate that SSAs
involving noncommercial stations, radio stations, or
newspapers are common or that they present the same
kinds of potential public interest concerns. However,
we may revisit our decision to limit disclosure to commercial television stations in the future if evidence suggests that additional disclosure may be appropriate.

See CWA FNPRM Comments at 6; SAG-AFTRA FNPRM
Comments at 3; UCC et al. FNPRM Comments at 9.
1108
See CWA FNPRM Comments at 6; SAG-AFTRA FNPRM
Comments at 3; UCC et al. FNPRM Comments at 9.
1109
Free Press FNPRM Reply at 16-18; Block FNPRM Comments
at 6-7; AFTRA NPRM Comments at 4-7; CWA NPRM Comments
at 5-6; Free Press NPRM Comments at 52-56; UCC et al. NPRM
Comments at 4-8; Mediacom Communications Corp. and Suddenlink
Communications NPRM Comments at 22-23 (Mediacom/Suddenlink).
1110
See Free Press FNPRM Reply at 16-18; Block FNPRM Comments at 6-7; AFTRA NPRM Comments at 4-7; CWA NPRM Comments at 5-6; Free Press NPRM Comments at 52-56; UCC et al.
NPRM Comments at 4-8; Mediacom/Suddenlink NPRM Comments
at 22-23.
1107

478
369. Redaction of confidential or proprietary information. As part of the SSA disclosure requirement, we
adopt provisions that permit stations to redact confidential or proprietary information, just as we have for
LMAs and JSAs.1111 We note, however, that the redacted information must be made available to the Commission upon request. The redaction allowance directly
addresses the concerns of commenters that oppose the
disclosure of SSAs on the grounds that it will require
stations to disclose sensitive, confidential business information.1112
370. NAB nevertheless argues that the redaction allowance proposed in the FNPRM is not sufficient to protect the business interests of stations that are subject to
the disclosure requirement. 1113 NAB argues that the
disclosure of the mere existence of SSAs will provide
competitive information to competitors. 1114 In reply,
UCC et al. assert that the potential disclosure of sensitive business information is not a sufficient reason to
abandon the proposed disclosure requirement, as the
public and the Commission need to know the content of
these agreements in order to evaluate their impact on
the public interest.1115 CWA asks that the Commission
carefully scrutinize redacted material if a dispute arises
and hold that information that “is not financial in nature

1111
1112
1113
1114
1115

See 47 CFR § 73.3526(e)(14), (e)(16).
Smaller Market Coalition FNPRM Comments at 18.
NAB FNRPM Comments at 104.
Id.
UCC et al. FNPRM Reply at 10-11.

479
will be presumptively non-confidential or proprietary.”1116
371. We reject NAB’s argument that the redaction
allowance will not be sufficient to protect broadcast stations’ business interests because the disclosure of the
mere existence of these agreements will provide useful
information to competitors. 1117 All broadcasters have
long been required to attach copies of transactionrelated SSAs to a license assignment or transfer application, including placing the application and relevant
agreements in the station’s public inspection file until final action has been taken on the application.1118 There
is no evidence in the record that this requirement has
resulted in any competitive harm. In addition, we note
that broadcast commenters have failed to provide evidence that the business interests of television broadcast
stations have been inhibited by the adoption of the LMA
and JSA disclosure requirements or that such interests
are likely to be inhibited by the substantially similar
SSA disclosure requirement adopted today. Furthermore, we find that NAB’s argument is at odds with its
own proposed alternative for stations to submit aggregate lists of SSAs as part of their biennial ownership reports, which would disclose the existence of such agreements.1119 We conclude that the adopted redaction allowance sufficiently balances the informational needs of

CWA FNPRM Comments at 6.
See NAB FNRPM Comments at 104.
1118
See, e.g., FCC Form 314, Application for Consent to Assignment of Broadcast Station Construction Permit or License.
1119
See NAB FNPRM Comments at 105.
1116
1117

480
the public and the Commission with the business interests of broadcasters to keep proprietary information
confidential.
372. Cost of compliance. In the FNPRM, we requested comment on alternative filing methods and
their associated costs.1120 NAB, however, criticizes the
Commission for failing to inquire whether the benefits
of disclosure will outweigh the costs of compliance, argues that the costs will exceed the benefits, and disputes
the Commission’s rationale that the costs will not be significant because the requirement is limited to commercial television stations and because SSAs are typically
multi-year agreements. 1121 However, Free Press asserts that the costs and effort associated with the proposed disclosure requirement will be minimal and the
benefits of transparency will outweigh the costs.1122
373. Consistent with Commission precedent, we find
that an online public filing requirement minimizes the
cost to broadcasters while ensuring that the public has
easy and convenient access to the information. As the
Commission has previously stated, we find that the electronic upload or scanning and upload of SSAs is not unduly burdensome.1123 We do not find arguments to the
contrary to be persuasive or supported by evidence.
Aside from general statements that disclosure will be

1120
1121
1122
1123

27.

FNPRM, 29 FCC Rcd at 4525, para. 337.
NAB FNPRM Comments at 105.
Free Press FNPRM Reply at 18.
See Enhanced Disclosure Order, 27 FCC Rcd at 4547, para.

481
too costly, NAB and the Smaller Market Coalition provide no cost estimates to support their assertions. 1124
Moreover, in light of our clarifications above, we find
that we have adequately addressed concerns that the
definition of SSAs is overly broad and would result in a
significant increase in the number of agreements stations would be required to upload to their public inspection file.1125 Television broadcasters should also be well
versed in uploading documents to the Commission’s
online public inspection file database, as they have been
required to use the database since 2012.1126
374. Duplicative filings. As the Commission already
requires broadcasters to submit JSAs and LMAs in accordance with its public file disclosure requirements,1127
we confirm that, to the extent that the SSA disclosure
requirement would duplicate established JSA and LMA
disclosures, a broadcaster would have to place these
agreements in their public inspection file only once. A
broadcaster will not be required to file additional copies
of JSAs and LMAs for the SSA disclosure requirement
if the broadcaster’s public inspection file already contains a copy of the agreement. This clarification reduces the burden of compliance to broadcasters and is

See NAB FNRPM Comments at 104-05; Smaller Market Coalition FNPRM Comments at 17.
1125
See, e.g., Smaller Market Coalition FNPRM Comments at 17.
1126
See Expansion of Online Public File Obligations NPRM, 29
FCC Rcd at 15944, para. 1 (noting the successful transition by television broadcasters to online public filing in the past two years).
1127
See 47 CFR § 73.3526(e)(14), (e)(16); see also 47 CFR
§§ 73.3613(b), (c) (requiring stations to disclose agreements when
they relate to control of a licensee or involve management consulting
or similar agreements).
1124

482
consistent with previous Commission decisions regarding duplicative filings.1128
375. Procedural matters. Each station that is party
to an SSA executed prior to the effective date of the disclosure requirement we adopt herein, which is subject to
OMB approval, shall place a copy of the SSA in its public
inspection file within 180 days after the disclosure requirement becomes effective, provided that the agreement is not already in the station’s public inspection
file.1129 SSAs that are executed after the disclosure requirement is effective must be placed in the stations’
online public files in a timely fashion, and stations are
reminded to maintain orderly public files.1130
3.

Attribution

376. Finally, in response to the FNPRM, multiple
commenters assert that the Commission should immediately make SSAs attributable based on the existing record and the Commission’s experience with SSAs in the

See Enhanced Disclosure Order, 27 FCC Rcd at 4546, para. 20
(noting that broadcast stations are not required to upload material
to the online public file that is already filed with the Commission or
available on a Commission database).
1129
See 47 CFR § 73.3526(e)(18) (as amended herein). We will
seek OMB approval for the disclosure requirement, and, upon receiving approval, the Commission will release a Public Notice specifying the date by which SSAs must be placed in the stations’ online
public files. The Public Notice will also provide further details on
how the SSA files are to be designated within each station’s online
public file.
1130
See Enhanced Disclosure Order, 27 FCC Rcd at 4582, para.
102.
1128

483
context of assignments/transfers of control of station licenses. 1131 These commenters believe that SSAs—a
term that heretofore has not been defined or applied
consistently—harm the public interest and that disclosure alone is insufficient to address these harms.1132 According to these commenters, SSAs provide similar—
perhaps even greater—incentives for the station providing the services to exert influence over the core operations of the station receiving the service than already attributable agreements, such as certain LMAs and
JSAs.1133 Multiple broadcast commenters, however, urge
the Commission to reject the calls to make SSAs attributable based on the existing record.1134
377. We decline to make SSAs attributable. As
noted in the FNPRM, and as confirmed herein, we believe that it is necessary to first define SSAs and to require their disclosure before making any decisions regarding attribution or any other regulatory action that
may be appropriate based on review of these agreements.1135 Unlike the resource sharing provided for in
See, e.g., CWA FNPRM Comments at 7-20; Free Press
FNPRM Comments at 25-27; Free Press FNPRM Reply at 18-19;
SAG-AFTRA FNPRM Comments at 2-3; UCC et al. FNPRM Comments at 1-2, 10-11.
1132
See, e.g., Block Communications FNPRM Comments at 6-11;
CWA FNPRM Comments at 12-20; Free Pres FNPRM Comments
at 21-22, 25-27; SAG-AFTRA FNPRM Comments at 2-3; UCC et al.
FNPRM Comments at 10-11.
1133
CWA FNPRM Comments at 10; SAG-AFTRA FNPRM Comments at 2-3; UCC et al. FNPRM Comments at 10.
1134
See NAB FNPRM Reply at 14; Sinclair FNPRM Comments at
12 (opposing any restrictions on SSAs); Smaller Market Coalition
FNPRM Comments at 9.
1135
FNPRM, 29 FCC Rcd at 4518-19, para. 320.
1131

484
LMAs and JSAs—which are specific types of SSAs involving discrete, easily defined activities with a clear impact on a station’s core operating functions—the types
of resource sharing in other SSAs are not easily categorized and their potential impact on a station’s core operating functions is not well understood at this time,
largely due to the lack of a definition of SSAs and lack
of disclosure.1136 Accordingly, our action today is a necessary step before the Commission can consider
whether attribution of any additional types of SSAs or
any other regulatory action is appropriate. The Commission has traditionally taken an incremental approach
in determining whether and how to attribute agreements between and among broadcasters. 1137 In these
circumstances, we find that it is appropriate and reasonable to proceed in this fashion, “one step at a time,”
when addressing these complicated issues. 1138 Once
the Commission has had an opportunity to evaluate the
potential impact of SSAs on the Commission’s rules and
policy goals, it will be in a position to consider whether
attribution or other regulatory action is warranted.

Id.
See id. at 4529-30, paras. 343-44.
1138
See U.S. Cellular Corp. v. FCC, 254 F.3d 78, 86 (D.C. Cir.
2001) (quoting National Association of Broadcasters v. FCC, 740
F.2d 1190, 1207 (D.C. Cir. 1984)); see also id. (“[A]gencies need not
address all problems ‘in one fell swoop.’ ”). We note also that the
court in Prometheus III rejected the argument that the Commission acted “arbitrarily and capriciously by not attributing all . . .
SSAs” in the Report and Order, finding instead that the Commission was justified in its sequential approach in addressing this issue. Prometheus III, 824 F.3d at 60 n.18. Though we reiterated
that our action today is not intended to prejudge whether attribution or any other regulatory actions are appropriate for SSAs.
1136
1137

485
VI. PROCEDURAL MATTERS
A.

Regulatory Flexibility Act

378. Final Regulatory Flexibility Analysis. As required by the Regulatory Flexibility Act of 1980, as
amended (RFA),1139 the Commission has prepared a Final Regulatory Flexibility Analysis (FRFA) of the possible significant economic impact on small entities of the
policies and rules addressed in the Report and Order.
The FRFA is set forth in Appendix B.
B.

Paperwork Reduction Act Analysis

379. Final Paperwork Reduction Act Analysis.
This Report and Order contains information collection
requirements subject to the Paperwork Reduction Act
of 1995 (PRA), Public Law 104-13. The requirements
will be submitted to the Office of Management and
Budget (OMB) for review under Section 3507(d) of the
PRA. OMB, the general public, and other Federal
agencies will be invited to comment on the information
collection requirements contained in this proceeding.
The Commission will publish a separate document in the
Federal Register at a later date seeking these comments.
In addition, we note that pursuant to the Small Business
Paperwork Relief Act of 2002, Public Law 107-198, see
44 U.S.C. § 3506(c)(4), the Commission previously sought
specific comment on how it might further reduce the information collection burden for small business concerns
with fewer than 25 employees. In this present document, we have assessed the effects of the SSA disclosure
requirement, and find that the disclosure requirement
will not impose a significant filing burden on businesses
1139

See 5 U.S.C. § 603.

486
with fewer than 25 employees. In addition, we have described impacts that might affect small businesses,
which includes most businesses with fewer than 25 employees, in the FRFA set forth in Appendix B.
C.

Congressional Review Act

380. The Commission will send a copy of this Second
Report and Order to the Government Accountability
Office pursuant to the Congressional Review Act, see
5 U.S.C. § 801(a)(1)(A).
VII. ORDERING CLAUSES

381. Accordingly, IT IS ORDERED, that pursuant to
the authority contained in Sections 1, 2(a), 4(i), 303, 307,
309, 310, and 403 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152(a), 154(i), 303, 307, 309,
310, and 403, and Section 202(h) of the Telecommunications Act of 1996, this Second Report and Order IS
ADOPTED. The rule modifications attached hereto as
Appendix A shall be effective thirty (30) days after publication of the text or summary thereof in the Federal
Register, except for those rules and requirements involving Paperwork Reduction Act burdens, which shall
become effective on the effective date announced in the
Federal Register notice announcing OMB approval.
Changes to Commission Forms required as the result of
the rule amendments adopted herein WILL BECOME
EFFECTIVE on the effective date announced in the
Federal Register notice announcing OMB approval.
382. IT IS FURTHER ORDERED, that the proceedings MB Docket No. 09-182 and MB Docket No. 14-50
ARE TERMINATED.
383. IT IS FURTHER ORDERED that the Commission’s Consumer and Governmental Affairs Bureau,

487
Reference Information Center, SHALL SEND a copy of
this Second Report and Order, including the Final Regulatory Flexibility Analysis, to the Chief Counsel for Advocacy of the Small Business Administration.
384. IT IS FURTHER ORDERED that the Commission SHALL SEND a copy of this Second Report and Order to the Government Accountability Office pursuant
to the Congressional Review Act.
FEDERAL COMMUNICATIONS COMMISSION
Marlene H. Dortch
Secretary

488
APPENDIX A
Final Rule Changes

Part 73 of Title 47 of the Code of Federal Regulations
is amended as follows:
PART 73—RADIO BROADCAST SERVICES
1. The authority citation for Part 73 continues to read
as follows:
AUTHORITY:

47 U.S.C. 154, 303, 334, 336 and 339.

2. Amend § 73.3526 by adding paragraph (e)(18) to
read as follows:
§ 73.3526 Local public inspection file of commercial stations.
*

*

*

*

*

(18) Shared Service Agreements. For commercial television stations, a copy of every Shared Service Agreement for the station (with the substance of oral agreements reported in writing), regardless of whether the
agreement involves commercial television stations in the
same market or in different markets, with confidential
or proprietary information redacted where appropriate.
For purposes of this paragraph, a Shared Service Agreement is any agreement or series of agreements in which
(1) a station provides any station-related services, including, but not limited to, administrative, technical,
sales, and/or programming support, to a station that is
not directly or indirectly under common de jure control
permitted under the Commission’s regulations; or (2)
stations that are not directly or indirectly under common de jure control permitted under the Commission’s

489
regulations collaborate to provide or enable the provision of station-related services, including, but not limited to, administrative, technical, sales, and/or programming support, to one or more of the collaborating stations. For purposes of this paragraph, the term “station” includes the licensee, including any subsidiaries
and affiliates, and any other individual or entity with an
attributable interest in the station.
*

*

*

*

*

3. Amend § 73.3555 by removing paragraphs (d)(3)
through (d)(7); revising paragraphs (b), (c), (d)(1), and
(d)(2); revising Note 4 and Note 5; and adding Note 11
and Note 12:
§ 73.3555 Multiple ownership.
*

*

*

*

*

(b) Local television multiple ownership rule. An entity may directly or indirectly own, operate, or control
two television stations licensed in the same Designated
Market Area (DMA) (as determined by Nielsen Media
Research or any successor entity) if:
(1) The digital noise limited service contours of the
stations (computed in accordance with § 73.622(e)) do
not overlap; or
* * *

(ii) At least 8 independently owned and operating, full-power commercial and noncommercial TV
stations would remain post-merger in the DMA in
which the communities of license of the TV stations in question are located. Count only those

490
TV stations the digital noise limited service contours of which overlap with the digital noise limited service contour of at least one of the stations
in the proposed combination. In areas where
there is no DMA, count the TV stations present in
an area that would be the functional equivalent of
a TV market. Count only those TV stations digital noise limited service contours of which overlap
with the digital noise limited service contour of at
least one of the stations in the proposed combination.
(2) [Reserved]
*

*

*

*

*

(c) Radio-television cross-ownership rule.
(1) This rule is triggered when:
(i) The predicted or measured 1 mV/m contour
of an existing or proposed FM station (computed
in accordance with § 73.313) encompasses the entire community of license of an existing or proposed commonly owned TV broadcast station(s),
or the principal community contour(s) of the TV
broadcast station(s) (computed in accordance with
§ 73.625) encompasses the entire community of license of the FM station; or
(ii) The predicted or measured 2 mV/in groundwave contour of an existing or proposed AM station (computed in accordance with § 73.183 or
§ 73.186), encompasses the entire community of license of an existing or proposed commonly owned
TV broadcast station(s), or the principal community contour(s) of the TV broadcast station(s)

491
(computed in accordance with § 73.625) encompass(es) the entire community of license of the AM
station.
* * *

(3) To determine how many media voices would remain in the market, count the following:
(i) TV stations: independently owned and operating full-power broadcast TV stations within the
DMA of the TV station’s (or stations’) community
(or communities) of license that have digital noise
limited service contours (computed in accordance
with § 73.622(e)) that overlap with the digital noise
limited service contour(s) of the TV station(s) at
issue;
*

*

*

*

*

(d) Newspaper/broadcast cross-ownership rule. (1)
No party (including all parties under common control)
may directly or indirectly own, operate, or control a daily
newspaper and a full-power commercial broadcast station (AM, FM, or TV) if:
(i) the predicted or measured 2 mV/in groundwave contour of the AM station (computed in accordance with § 73.183 or § 73.186) encompasses the
entire community in which the newspaper is published and, in areas designated as Nielsen Audio
Metro markets, the AM station and the community of publication of the newspaper are located in
the same Nielsen Audio Metro market;
(ii) the predicted or measured 1 mV/in contour of
the FM station (computed in accordance with
§ 73.313) encompasses the entire community in

492
which the newspaper is published and, in areas
designated as Nielsen Audio Metro markets, the
FM station and the community of publication of
the newspaper are located in the same Nielsen Audio Metro market; or
(iii) the principal community contour of the TV
station (computed in accordance with § 73.625) encompasses the entire community in which the
newspaper is published; and the community of license of the TV station and the community of publication of the newspaper are located in the same
DMA.
(2) The prohibition in paragraph (d)(1) of this section shall not apply upon a showing that either the
newspaper or television station is failed or failing.
*

*

*

*

*

Note 4 to § 73.3555:

Paragraphs (a) through (d) of this section will not be
applied so as to require divestiture, by any licensee,
of existing facilities, and will not apply to applications
for assignment of license or transfer of control filed
in accordance with § 73.3540(f ) or § 73.3541(b), or to
applications for assignment of license or transfer of
control to heirs or legatees by will or intestacy, or to
FM or AM broadcast minor modification applications
for intra-market community of license changes, if no
new or increased concentration of ownership would
be created among commonly owned, operated or controlled media properties. Paragraphs (a) through
(d) of this section will apply to all applications for new
stations, to all other applications for assignment or

493
transfer, to all applications for major changes to existing stations, and to all other applications for minor
changes to existing stations that seek a change in an
FM or AM radio station’s community of license or
create new or increased concentration of ownership
among commonly owned, operated or controlled media properties. Commonly owned, operated or controlled media properties that do not comply with paragraphs (a) through (d) of this section may not be assigned or transferred to a single person, group or entity, except as provided in this Note, the Report and
Order in Docket No. 02-277, released July 2, 2003
(FCC 02-127), or the Second Report and Order in MB
Docket No. 14-50, FCC 16-107 (released August 25,
2016).
*

*

*

*

*

Note 5 to § 73.3555:

Paragraphs (b) through (e) of this section will not be
applied to cases involving television stations that are
“satellite” operations. Such cases will be considered
in accordance with the analysis set forth in the Report and Order in MM Docket No. 87-8, FCC 91-182
(released July 8, 1991), in order to determine whether
common ownership, operation, or control of the stations in question would be in the public interest. An
authorized and operating “satellite” television station, the digital noise limited service contour of which
overlaps that of a commonly owned, operated, or controlled “non-satellite” parent television broadcast station, or the principal community contour of which
completely encompasses the community of publication of a commonly owned, operated, or controlled daily
newspaper, or the community of license of a commonly

494
owned, operated, or controlled AM or FM broadcast
station, or the community of license of which is completely encompassed by the 2 mV/m contour of such
AM broadcast station or the 1 mV/m contour of such
FM broadcast station, may subsequently become a
“non-satellite” station under the circumstances described in the aforementioned Report and Order in
MM Docket No. 87-8. However, such commonly
owned, operated, or controlled “non-satellite” television stations and AM or FM stations with the aforementioned community encompassment, may not be
transferred or assigned to a single person, group, or
entity except as provided in Note 4 of this section.
Nor shall any application for assignment or transfer
concerning such “non-satellite” stations be granted if
the assignment or transfer would be to the same person, group or entity to which the commonly owned,
operated, or controlled newspaper is proposed to be
transferred, except as provided in Note 4 of this section.
*

*

*

*

*

Note 11 to § 73.3555: An entity will not be permitted
to directly or indirectly own, operate, or control two
television stations in the same DMA through the execution of any agreement (or series of agreements)
involving stations in the same DMA, or any individual
or entity with a cognizable interest in such stations,
in which a station (the “new affiliate”) acquires the
network affiliation of another station (the “previous
affiliate”), if the change in network affiliations would
result in the licensee of the new affiliate, or any individual or entity with a cognizable interest in the new
affiliate, directly or indirectly owning, operating, or

495
controlling two of the top-four rated television stations in the DMA at the time of the agreement. Parties should also refer to the Second Report and Order
in MB Docket No. 14-50, FCC 16-107 (released August 25, 2016).
Parties seeking waiver of paragraph (d)(1) of this section, or an exception pursuant
to paragraph (d)(2) of this section involving failed or
failing properties, should refer to the Second Report
and Order in MB Docket No. 14-50, FCC 16-107 (released August 25, 2016).
Note 12 to § 73.3555:

*

*

*

*

*

496
APPENDIX B
Final Regulatory Flexibility Analysis

1.
As required by the Regulatory Flexibility Act
of 1980, as amended (RFA),1 an Initial Regulatory Flexibility Analysis (IRFA) was incorporated in the NPRM
that initiated this proceeding.2 The Commission sought
written public comment on the proposals in the NPRM,
including comment on the IRFA. In addition, the
Commission incorporated a Supplemental Initial Regulatory Flexibility Analysis (SIRFA) in the FNPRM in
this proceeding.3 The Commission sought written public comment on the proposals in the FNPRM, including
comment on the SIRFA. The Commission received no
comments in direct response to the IRFA or the SIRFA.
This present Final Regulatory Flexibility Analysis
(FRFA) conforms to the RFA.4

1
5 U.S.C. § 603. The RFA, id. §§ 601-12, has been amended by
the Small Business Regulatory Enforcement Fairness Act of 1996
(SBREFA), Pub. L. No. 104-121, Title II, 110 Stat. 857 (1996).
2
See 2010 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Notice of Proposed Rulemaking, 26 FCC Rcd 17489, Appx. C
(2011) (NPRM).
3
See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Further Notice of Proposed Rulemaking and Report and Order, 29 FCC Rcd 4371, Appx. D (2014) (FNPRM).
4
See 5 U.S.C. § 604.

497
A.

Need for, and Objectives of, the Second Report and
Order

2.
The Second Report and Order (Order) concludes
the 2010 and 2014 Quadrennial Reviews of the broadcast
ownership rules, which were initiated pursuant to Section 202(h) of the Telecommunications Act of 1996 (1996
Act).5 The Commission is required by statute to review
its media ownership rules every four years to determine
whether they “are necessary in the public interest as the
result of competition” 6 and to “repeal or modify any
regulation it determines to be no longer in the public interest.”7

Telecommunications Act of 1996, Pub. L. No. 104-104, § 202(h),
110 Stat. 56, 111-12 (1996) (1996 Act) (codified as amended at 47
U.S.C. § 303 note); Consolidated Appropriations Act, 2004, Pub. L.
No. 108-199, § 629, 118 Stat. 3, 99-100 (2004) (Appropriations Act)
(amending Sections 202(c) and 202(h) of the 1996 Act).
6
1996 Act § 202(h). In Prometheus Radio Project v. FCC, 373
F.3d 372 (3d Cir. 2004) (Prometheus I), the Third Circuit concluded
that “necessary in the public interest” is a “‘plain public interest’ standard under which ‘necessary’ means ‘convenient,’ ‘useful,’ or ‘helpful,’
not ‘essential’ or ‘indispensable.’ ” Id. at 394. The court stated that
“the first instruction [of § 202(h)] requires the Commission to take a
fresh look at its regulations periodically in order to ensure that they
remain ‘necessary in the public interest.’ ” Id. at 391. In 2004,
Congress revised the then-biennial review requirement to require
such reviews quadrennially. See Appropriations Act § 629.
7
47 U.S.C. § 303 note (Section 202(h) of the 1996 Act as amended).
Contrary to the claims of certain commenters, there is no “presumption [in Section 202(h)] in favor of repealing or modifying the ownership rules.” See, e.g., CBS NPRM Comments at 2-3 (citing Fox Television Stations v. FCC, 280 F.3d 1027, 1048 (D.C. Cir. 2002); Sinclair Broad. Group, Inc. v. FCC, 284 F.3d 148, 159 (D.C. Cir. 2002)).
The court in Prometheus I determined that Section 202(h) does not
carry a presumption in favor of deregulation. See Prometheus I,
5

498
3.
The media ownership rules that are subject to this
quadrennial review are the Local Television Ownership
Rule, the Local Radio Ownership Rule, the Newspaper/
Broadcast Cross-Ownership (NBCO) Rule, the Radio/
Television Cross-Ownership Rule, and the Dual Network Rule.8 Ultimately, while the Commission acknowledged the impact of new technologies on the media marketplace, it concluded that some limits on broadcast
ownership remain necessary to protect and promote the
Commission’s policy goals of fostering competition, localism, and diversity. As discussed in more detail below, the Order retains two rules without modification—
the Local Radio Ownership Rule and the Dual Network
Rule—and adopts changes to three others—the Local
Television Ownership Rule, the NBCO Rule, and the
Radio/Television Cross-Ownership Rule. In particular, the Order adopts a new waiver standard for the
NBCO Rule and changes to the contours and market
definitions used in application of the rule. The Order
also adopts contour changes to the Radio/Television
Cross-Ownership Rule. In addition, the Order adopts
373 F.3d at 395 (rejecting the “misguided” findings in Fox and Sinclair regarding a “deregulatory presumption” in Section 202(h)); see
also Prometheus Radio Project v. FCC, 652 F.3d 431, 444-45 (3d Cir.
2011) (Prometheus II) (confirming the standard of review under Section 202(h) adopted in Prometheus I). Moreover, when modifying
an existing rule, the Commission has the discretion “to make [the
rule] more or less stringent”; Section 202(h) is not a “one-way
ratchet.” Prometheus I, 373 F.3d at 394-95; see also Prometheus
II, 652 F.3d at 445. Whether the Commission determines that a
rule should be retained, repealed, or modified, the decision must be
in the public interest and must be supported by reasoned analysis.
See Prometheus I, 373 F.3d at 395; Prometheus II, 652 F.3d at 445.
8
These rules are found, respectively, at 47 CFR §§ 73.3555(b), (a),
(d), (c), and 73.658(g).

499
a definition of and disclosure requirements for shared
service agreements (SSAs). Lastly, the Order addresses issues referred to us in the Third Circuit’s remand in Prometheus Radio Project v. FCC (Prometheus
II)9 of certain aspects of the Commission’s 2008 Diversity Order.10
4.
Local Television Ownership Rule. In the Order, the Commission finds that the current Local Television Ownership Rule remains necessary in the public
interest and should be retained with a limited modification.11 Specifically, the Commission finds that the public interest would be best served by replacing the Grade
B contour overlap test used to determine when to apply
the Local Television Ownership Rule with a digital noise
limited service contour (NLSC) test—as proposed in the

Prometheus II, 652 F.3d at 437.
Promoting Diversification of Ownership in the Broadcasting
Services, Report and Order and Third Further Notice of Proposed
Rulemaking, 23 FCC Rcd 5922 (2008) (Diversity Order and Diversity Third FNPRM).
11
47 U.S.C. § 303 note (Section 202(h) of the 1996 Act as amended).
Under the modified television ownership rule adopted in the Order,
an entity may own up to two television stations in the same DMA if
(1) the digital NLSCs of the stations (as determined by Section
73.622(e) of the Commission’s rules) do not overlap; or (2) at least
one of the stations is not ranked among the top four stations in the
market and at least eight independently owned television stations
will remain in the DMA following the combination. In calculating
the number of stations remaining post-merger, only those stations
whose digital NLSC overlaps with the digital NLSC of at least one
of the stations in the proposed combination will be considered,
which is consistent with the contour overlap provision of the previous rule. In addition, the Commission retains the existing failed/
failing station waiver policy.
9

10

500
FNPRM—rather than the DMA-based approach proposed in the NPRM. The Order adopts grandfathering
provisions for any existing combinations that violate the
revised rule, though such combinations must comply
with the rule in effect at the time of any subsequent assignment or transfer of control.
5.
The Commission finds that Local Television Ownership Rule is necessary to promote competition. In
addition, the Commission finds that the competitionbased rule adopted in this Order will also promote viewpoint diversity by helping to ensure the presence of independently owned broadcast television stations in local
markets and is consistent with the Commission’s localism goal, though the Order does not rely on these goals
to retain the rule. Furthermore, the Order finds that extending the application of the top four-prohibition to affiliation swaps will help enforce the existing Local Television Ownership Rule. The Commission ultimately
concludes that the limited modification of the rule will
better promote competition, and that this benefit outweighs any burdens, which are minimized further by the
grandfathering provisions.
6.
The Order also concludes that the Local Television Ownership Rule proposed in the FNPRM remains
consistent with the goal of promoting minority and female ownership of broadcast television stations. In addition, while the Order does not retain the rule with the
specific purpose of preserving the current levels of minority and female ownership, it finds that retaining the
existing rule effectively addresses the concerns of those
commenters who suggested that additional consolidation would have a negative impact on minority and female ownership of broadcast television stations.

501
7.
The Commission also concludes that retaining
the existing failed/failing station waiver criteria is in the
public interest. The Commission evaluated the various
proposed waiver standards proffered by commenters and
expressed concern that many of the proposed waiver criteria would be difficult to monitor or enforce, are not rationally related to the ability of each station to compete
in the local market, and could be manipulated in order
to obtain a waiver. Ultimately, the Commission predicts that such standards would significantly expand the
circumstances in which a waiver of the Local Television
Ownership Rule would be granted. The Order finds
that such expansion is inconsistent with the decision to
retain the existing television ownership limits. Moreover, the Commission believes that the existing waiver
standard is not unduly restrictive and that it provides
appropriate relief in markets of all sizes. The Commission finds that the existing waiver criteria strike an appropriate balance between enforcing the ownership limits and providing relief from the rule on a case-by-case
basis.
8.
Local Radio Ownership Rule. In the Order,
the Commission finds that the current Local Radio Ownership Rule remains necessary in the public interest and
should be retained without modification. 12 The Com-

Id. Under the local radio ownership rule, an entity may own:
(1) up to eight commercial radio stations in radio markets with 45 or
more radio stations, no more than five of which can be in the same
service (AM or FM); (2) up to seven commercial radio stations in radio markets with 30-44 radio stations, no more than four of which can
be in the same service (AM or FM); (3) up to six commercial radio
stations in radio markets with 15-29 radio stations, no more than four
of which can be in the same service (AM or FM); and (4) up to five
12

502
mission finds that the rule is necessary to promote competition. The radio ownership limits also promote viewpoint diversity by ensuring a sufficient number of independent radio voices and by preserving a market structure that facilitates and encourages new entry into the
local media market. Similarly, the Commission finds
that a competitive local radio market helps to promote
localism, as a competitive marketplace will lead to the
selection of programming that is responsive to the needs
and interests of the local community. However, the
Order does not rely on viewpoint diversity or localism as
a justification for retaining the rule. The Commission
finds also that the Local Radio Ownership Rule is consistent with the goal of promoting minority and female
ownership of broadcast radio stations. The Commission ultimately concludes that these benefits outweigh
any burdens that may result from the decision to retain
the rule without modification.
9.
The Order retains the AM subcaps in order to
promote new entry. The Order finds that broadcast radio, in general, continues to be a more likely avenue for
new entry in the media marketplace—including entry by
small businesses and entities seeking to serve niche
audiences—as a result of radio’s ability to more easily
reach certain demographic groups and the relative affordability of radio stations compared to other mass media. AM stations remain generally the least expensive

commercial radio stations in radio markets with 14 or fewer radio
stations, no more than three of which can be in the same service (AM
or FM), provided that an entity may not own more than 50 percent
of the stations in such a market, except that an entity may always
own a single AM and single FM station combination.

503
option for entry into the radio market, often by a significant margin, and therefore permit new entry for far less
capital investment than is required to purchase an FM
station. While some commenters suggested that eliminating the subcaps could result in divestiture of properties that could be acquired by new entrants, the Commission did not find this rationale persuasive.
10. The Commission also finds that there continue
to be technical and marketplace differences between
AM and FM stations that justify retention of both the
AM and FM subcaps to promote competition in local radio markets. As the Commission has noted previously,
FM stations enjoy technical advantages over AM stations, such as increased bandwidth and superior audio
signal fidelity. In addition, AM signal propagation varies with the time of day (i.e., AM signals travel much farther at night than during the day), and many AM stations are required to cease operation at sunset. These
technological differences often, but not always, result in
greater listenership and revenues for FM stations.
11. While the technological and marketplace differences between AM and FM stations generally benefit
FM stations, and thus support retention of the FM subcaps, there continue to be many markets in which AM
stations are significant radio voices. Therefore, the
Commission finds that retention of the existing AM subcaps is necessary to prevent a single station owner from
acquiring excessive market power through concentration of ownership of AM stations in markets in which AM
stations are significant radio voices.
12. In addition, the Order adopts certain clarifications and other measures designed to fulfil the intent of
the revisions to the ownership rule adopted in the 2002

504
Biennial Review Order. Specifically, the Order (1)
clarifies the exception to the two-year waiting period for
certain Nielsen Audio Market changes; (2) adopts an exemption from the Note 4 grandfathering requirements
for “intra-Metro” community of license changes; and (3)
redefines the Puerto Rico market.
13. Newspaper/Broadcast Cross-Ownership Rule.
The Order retains and modestly relaxes the NBCO
Rule, which prohibits common ownership of a daily
newspaper and a full-power broadcast station (AM, FM,
or TV) within the same local market.13 The Commission concluded that the rule is necessary to promote
viewpoint diversity at the local level because broadcast
stations and daily newspapers remain the predominant
sources of local news and information. The Commission found that television stations, radio stations, and local newspapers continue to contribute in meaningful
ways to viewpoint diversity within their communities.
14. The Order updates the geographic scope of the
newspaper/television cross-ownership restriction by replacing its use of the analog Grade A contour with the
digital principal community contour (PCC) and by add-

Id. Prior to the revisions adopted in the Order, the rule prohibited the licensing of an AM, FM, or TV broadcast station to a party
(including all parties under common control) that directly or indirectly owns, operates, or controls a daily newspaper, if the entire
community in which the newspaper is published would be encompassed within the service contour of the station, namely: (1) the
predicted or measured 2 mV/m contour of an AM station, computed
in accordance with Section 73.183 or Section 73.186; (2) the predicted
I mV/m contour for an FM station, computed in accordance with Section 73.313; or (3) the Grade A contour of a TV station, computed in
accordance with Section 73.684. 47 CFR § 73.3555(d) (2015).
13

505
ing a requirement that the newspaper and television station must be located within the same Nielsen DMA.
The Order adopts a parallel approach for newspaper/
radio combinations that uses both a radio station’s Nielsen Audio Market, when one is defined, and the station’s
service contour. The Order states that the Commission will evaluate requests for waiver of the rule based
on the individual merits of a proposed transaction, taking into consideration the totality of the circumstances.
It will assess each waiver request independently to determine the likely effect of the proposed transaction on
viewpoint diversity in the local market.14 In addition,
the Order creates an exception for proposed mergers involving a failed or failing broadcast station or newspaper. It also provides for the grandfathering of combinations, if any, that are impacted by the updates to the
geographic scope of the rule. Finally, the Order finds
that the Commission’s approach does not have a negative effect on minority and female broadcast ownership.
15. Radio/Television Cross-Ownership Rule. The
Order retains the Radio/Television Cross-Ownership
Rule, which restricts common ownership of television
stations and radio stations in the same market based on
the number of media voices in the market.15 The Com-

To allow for more timely and effective public participation in a
waiver proceeding, the Order stipulates that if the owner of a broadcast station seeks to acquire a newspaper under conditions that trigger the NBCO Rule, it must file a waiver request prior to consummating the acquisition, rather than at the time of its license renewal.
15
47 U.S.C. § 303 note (Section 202(h) of the 1996 Act as amended).
If at least 10 independently owned media voices would remain in the
market post-merger, an entity may own up to two television stations
and four radio stations. If at least 20 independently owned media
14

506
mission concluded that the rule continues to be necessary to promote viewpoint diversity in local markets because radio stations and television stations continue to
contribute in meaningful ways to viewpoint diversity
within their communities. The Order modifies the rule
only to the extent necessary to update its references to
two analog television service contours that became obsolete with the transition to digital television service.
First, consistent with the update to the NBCO Rule, a
television station’s digital PCC will be used instead of its
analog Grade A contour when determining the rule’s
trigger.16 Second, a television station’s digital NLSC will
be used instead of its analog Grade B contour when counting the number of media voices remaining in the market
post-merger.17 The Order provides for the grandfathering of combinations, if any, that are impacted by the updates to the service contours utilized in the rule. The
voices would remain in the market post-merger, an entity may own
either: (1) two television stations and six radio stations, or (2) one
television station and seven radio stations. In all instances, entities
also must comply with the local radio and local television ownership
limits. The market is determined by looking at the service contours
of the relevant stations. The rule specifies how to count the number
of media voices in a market, including television stations, radio stations, newspapers, and cable systems. See 47 CFR § 73.3555(c).
16
47 CFR § 73.625. Prior to this change, the radio/television crossownership rule was triggered when a television station’s Grade A
contour encompassed a radio station’s entire community of license.
Id. § 73.3555(c)(1)(i)-(ii).
17
Id. § 73.622(e). Previously, an independently owned television
station was counted as a media voice remaining in the market
post-merger if it was in same DMA as the television station(s) at
issue and had a Grade B signal contour that overlapped with
the Grade B signal contour of the television station(s) at issue. Id.
§ 73.3555(c)(3)(i).

507
Order finds no negative impact on minority and female
ownership of broadcast stations given the Commission’s
decision to retain the rule with only these limited modifications.
16. Dual Network Rule. In the Order, the Commission finds that the Dual Network Rule, which permits common ownership of multiple broadcast networks,
but prohibits a merger between or among the “top four”
networks (ABC, CBS, Fox, and NBC), continues to be
necessary to promote competition and localism and
should be retained without modification.18
17. The Order finds that the Dual Network Rule remains necessary in the public interest to foster competition in the provision of primetime entertainment programming and the sale of national advertising time.
Specifically, it finds that the primetime entertainment
programming supplied by the top-four broadcast networks is a distinct product, the provision of which could
be restricted if two of the four major networks were to
merge. It also finds that, consistent with past Commission findings, the top-four broadcast networks comprise
a “strategic group” in the national advertising market
and compete largely among themselves for advertisers
that seek to reach large, national mass audiences. The
top-four broadcast networks have a distinctive ability to
47 U.S.C. § 303 note (Section 202(h) of the 1996 Act as amended).
The rule provides that “[a] television broadcast station may affiliate
with a person or entity that maintains two or more networks of television broadcast stations unless such dual or multiple networks are
composed of two or more persons or entities that, on February 8,
1996, were ‘networks’ as defined in [Section] 73.3613(a)(1) of the
Commission’s regulations. . . . ” 47 CFR § 73.658(g) (emphasis
in original).
18

508
attract, on a regular basis, larger primetime audiences
than other broadcast and cable networks, which enables
them to earn higher rates from those advertisers willing
to pay a premium for such audiences. Accordingly, the
Commission concludes that a top-four network merger
would substantially lessen competition for advertising
dollars in the national advertising market, which would,
in turn, reduce incentives for the networks to compete
with each other for viewers by providing innovative,
high quality programming. Based on their distinctive
characteristics relative to other broadcast and cable networks, the Commission finds that the top-four broadcast
networks serve a unique role in the provision of primetime entertainment programming and the sale of national advertising time that justifies retaining a rule
specific to them.
18. The Order also finds that, consistent with past
Commission findings, the Dual Network Rule remains
necessary to promote the Commission’s localism goal.
Specifically, the Order finds that the rule remains necessary to preserve the balance of bargaining power between the top-four networks and their affiliates, thus
improving the ability of affiliates to exert influence on
network programming decisions in a manner that best
serves the interests of their local communities. Typically, a critical role of a broadcast network is to provide
its local affiliates with high quality programming. Because this programming is distributed across the country, broadcast networks have an economic incentive to
ensure that the programming both appeals to a mass,
nationwide audience and is widely shown by affiliates.
A network’s local affiliates serve a complementary role
by providing local input in network programming decisions and airing programming that serves the specific

509
needs and interests of that specific local community.
As a result, the economic incentives of the networks are
not always aligned with the interests of the local affiliates or the communities they serve.
19. Diversity Order Remand and Eligible Entity
Definition. In addition to evaluating each of its broadcast ownership rules, the Commission responds in the
Order to the Third Circuit’s remand of certain aspects
of its 2008 Diversity Order. Based on analysis of the
preexisting eligible entity standard as well as the
measures to which it applied, the Third Circuit’s remand
instructions, and the record in this proceeding, the Commission reinstates the revenue-based eligible entity standard and will apply it to the regulatory policies set forth
in the Diversity Order.19 While the Commission recog-

The preexisting eligible entity standard includes those entities
—commercial or noncommercial—that would qualify as small businesses consistent with SBA standards for its industry grouping,
based on revenue. Diversity Order, 23 FCC Rcd at 5925-26, para.
6; see also 2002 Biennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Communications Act of 1996, Report
and Order and Notice of Proposed Rulemaking, 18 FCC Rcd 13620,
13810-12, paras. 488-89 (2003) (2002 Biennial Review Order). As
the Commission previously held, going forward the Commission will
include both commercial and noncommercial entities within the scope
of the term “eligible entity” to the extent that they otherwise meet
the criteria of this standard. See Order at para. 286 (describing the
SBA’s small business standards, which are used to define an “eligible
entity”). Furthermore, the Commission will readopt each of the following measures, which rely on the eligible entity definition and
were remanded in Prometheus II: (1) Revision of Rules Regarding
Construction Permit Deadlines; (2) Modification of Attribution Rule;
19

510
nizes that it does not have an evidentiary record demonstrating that this standard specifically increases minority and female broadcast ownership, the Commission
finds that reinstating the previous revenue-based standard will promote small business participation in the broadcast industry. The Commission believes that small
businesses benefit from flexible licensing policies and
that making it easier for small business applicants to
participate in the broadcast industry will help encourage
innovation and enhance viewpoint diversity. The Commission finds that this action will advance the policy objectives that traditionally have guided its analyses of
broadcast ownership issues and will serve the public interest. The Commission also considered and rejected,
based on legal impediments and considerations relating
to implementation issues, proposals to adopt raceconscious regulatory measures using the Small Business
Administration’s (SBA) “socially and economically disadvantaged” definition, regulatory measures based on
an “Overcoming Disadvantage Preference,” and additional proposals related to minority and female ownership.20

(3) Distress Sale Policy; (4) Duopoly Priority for Companies that Finance or Incubate an Eligible Entity; (5) Extension of Divestiture
Deadline in Certain Mergers; and (6) Transfer of Grandfathered Radio Station Combinations. See id. at para. 285 (describing these
measures).
20
For the discussion of these proposals, see paragraphs 297 through
316 (considering race-conscious regulatory measures using the SBA’s
“socially disadvantaged business” definition and regulatory measures
based on an “Overcoming Disadvantage Preference”), 319 through
321 (considering incubator proposal), 322 (considering proposal to
migrate AM radio to VHF Channels 5 and 6), 323 through 328 and

511
20. The changes adopted in the Order provide a
comprehensive framework for broadcast regulation that
recognizes both the dynamic changes taking place in the
media marketplace as well as the vital roles that traditional media outlets continue to serve in local communities. The record in this proceeding is replete with examples of the ways in which broadband Internet and
other technologies have changed the way that consumers access media content. The record, however, also
firmly establishes that traditional media outlets continue to thrive and remain the most significant sources
of local news content. Moreover, the Commission recognizes that millions of Americans continue to lack access to sufficient broadband speeds necessary to take
advantage of online content available via streaming or
download. For these consumers, many of whom reside
in low income and rural areas, broadcast media serve as
a critical source for entertainment and local news. It is
with these considerations in mind that the Commission
adopts its broadcast media ownership rules. The Commission believes that these rules will continue to promote the Commission’s longstanding policy goals of
competition, localism, and diversity in the manner described herein.
21. Shared Service Agreements. In the Order, the
Commission adopts a definition of SSAs and requires
commercial broadcast television stations to disclose SSAs
entered into between commercial broadcast television

334 through 336 (considering additional proposals related to minority and female ownership) of the Order. The Commission also determined that certain proposals warranted additional consideration,
as discussed in paragraphs 329 through 333 of the Order.

512
stations to allow the Commission and the public to better understand the terms, operation, and prevalence of
these agreements and their potential impact on the
Commission’s competition, localism, and diversity goals.
Because the Commission does not currently require the
filing or disclosure of all sharing agreements that do not
contain time brokerage or joint advertising sales provisions, the Commission has limited information about the
content or breadth of such agreements or the frequency
of their use. Because the Commission desires to expand
the public’s knowledge of these agreements, it adopts a
comprehensive definition of SSAs. Commercial television stations will be required to place copies of such
agreements in their public inspection files. The SSA
disclosure requirement is subject to the same redaction
allowances made available to local marketing agreements and joint sales agreements, namely, that licensees may redact confidential or proprietary information.
B.

Summary of Significant Issues Raised by Public
Comments in Response to the IRFA and the
SIRFA

22. The Commission received no comments in direct response to the IRFA or the SIRFA.
C.

Response to Comments by the Chief Counsel for
Advocacy of the Small Business Administration

23. Pursuant to the Small Business Jobs Act of
2010, which amended the RFA, the Commission is required to respond to any comments filed by the Chief

513
Counsel for Advocacy of the SBA and to provide a detailed statement of any change made to the proposed
rules as a result of those comments.21
24. The Chief Counsel did not file any comments in
response to the proposed rules in this proceeding.
D.

Description and Estimate of the Number of Small
Entities to Which Rules Will Apply

25. The RFA directs the Commission to provide a
description of and, where feasible, an estimate of the
number of small entities that will be affected by the
rules adopted.22 The RFA generally defines the term
“small entity” as having the same meaning as the terms
“small business,” “small organization,” and “small governmental jurisdiction”23 In addition, the term “small
business” has the same meaning as the term “small business concern” under the Small Business Act.24 A “small
business concern” is one which: (1) is independently
owned and operated; (2) is not dominant in its field of
operation; and (3) satisfies any additional criteria established by the SBA.25 The final rules adopted herein affect small television and radio broadcast stations and
5 U.S.C. § 604(a)(3).
Id. § 604(a)(3).
23
Id. § 601(6).
24
Id. § 601(3) (incorporating by reference the definition of “smallbusiness concern” in the Small Business Act, 15 U.S.C. § 632). Pursuant to 5 U.S.C. § 601(3), the statutory definition of a small business
applies “unless an agency, after consultation with the Office of Advocacy of the Small Business Administration and after opportunity
for public comment, establishes one or more definitions of such term
which are appropriate to the activities of the agency and publishes
such definition(s) in the Federal Register.”
25
15 U.S.C. § 632.
21
22

514
small entities that operate daily newspapers. A description of these small entities, as well as an estimate
of the number of such small entities, is provided below.
26. Television Broadcasting. The SBA defines a
television broadcasting station that has no more than
$38.5 million in annual receipts as a small business.
The definition of business concerns included in this
industry states that establishments are primarily engaged in broadcasting images together with sound.
These firms operate television broadcasting studios and
facilities for the programming and transmission of programs to the public. These firms also produce or transmit visual programming to affiliated broadcast television stations, which in turn broadcast the programs to
the public on a predetermined schedule. Programming
may originate in their own studio, from an affiliated network, or from external sources.26 Census data for 2012
indicate that 751 such firms were in operation for the
duration of that entire year. Of these, 656 had annual
receipts of less than $25.0 million per year and 95 had
annual receipts of $25.0 million or more per year. 27
Based on this data and the associated size standard, the

U.S. Census Bureau, 2012 NAICS Definition, http://www.census.
gov/cgibin/sssd/naics/naicsrch?code=515120&search=2012 (NAICS
Search) (June 8, 2016). Separate census categories pertain to businesses primarily engaged in producing programming. See Motion
Picture and Video Production, NAICS code 512110; Motion Picture
and Video Distribution, NAICS Code 512120; Teleproduction and
Other Post-Production Services, NAICS Code 512191; and Other
Motion Picture and Video Industries, NAICS Code 512199.
27
U.S. Census Bureau, American Fact Finder, http://factfinder.
census.cov/faces/tableservices/isf/pages/productview.xhtml?pid=ECN_
2012_US_51SSSZ4&prodType=table (visited June 8, 2016).
26

515
Commission concludes that the majority of such firms
are small.
27. Additionally, the Commission has estimated the
number of licensed commercial television stations to be
1,387. 28 According to Commission staff review of the
BIA/Kelsey, LLC’s Media Access Pro Television Database on June 2, 2016, about 1,264 of an estimated 1,387
commercial television stations (or approximately 91 percent) had revenues of $38.5 million or less. The Commission has estimated the number of licensed noncommercial educational television stations to be 395.29 The
Commission notes, however, that, in assessing whether
a business concern qualifies as small under the above
definition, business (control) affiliations 30 must be included. The Commission’s estimate, therefore, likely
overstates the number of small entities that might be affected by its action, because the revenue figure on which
it is based does not include or aggregate revenues from
affiliated companies. The Commission does not compile and otherwise does not have access to information
on the revenue of NCE stations that would permit it to
determine how many such stations would qualify as
small entities.

See Broadcast Station Totals as of March 31, 2016, News Release (MB Apr. 6, 2016), http://transition.fcc.gov/Daily Releases/
Daily Business/2016/db0406/DOC-338754Al.pdf (Broadcast Station
Totals).
29
See id.
30
“[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13 CFR
§ 121.103(a)(1).
28

516
28. In addition, an element of the definition of
“small business” is that the entity not be dominant in its
field of operation. The Commission is unable at this
time to define or quantify the criteria that would establish whether a specific television station is dominant in
its field of operation. Accordingly, the estimate of small
businesses to which rules may apply do not exclude any
television station from the definition of a small business
on this basis and are therefore over-inclusive to that extent. Also, as noted, an additional element of the definition of “small business” is that the entity must be independently owned and operated. The Commission
notes that it is difficult at times to assess these criteria
in the context of media entities and its estimates of small
businesses to which they apply may be over-inclusive to
this extent.
29. Radio Broadcasting. The SBA defines a radio
broadcasting entity that has $38.5 million or less in annual receipts as a small business.31 Business concerns
included in this industry are those “primarily engaged
in broadcasting aural programs by radio to the public.”32
Census data for 2012 indicate that 3,187 such firms were
in operation for the duration of that entire year. Of
these, 3,134 had annual receipts of less than $25.0 million per year and 53 had annual receipts of $25.0 million

See id. § 121.201 (2012 NAICS code 515112).
2012 NAICS Definitions (2012 NAICS definition for 515112,
Radio Stations).
31
32

517
or more per year.33 Based on this data and the associated size standard, the Commission concludes that the
majority of such firms are small.
30. Further, according to Commission staff review
of the BIA/Kelsey, LLC’s Media Access Pro Radio Database on June 2, 2016, about 11,386 (or about 99.9 percent) of 11,395 commercial radio stations in the United
States have revenues of $38.5 million or less. The
Commission has estimated the number of licensed noncommercial radio stations to be 4,096.34 The Commission does not have revenue data or revenue estimates for
these stations. These stations rely primarily on grants
and contributions for their operations, so it will assume
that all of these entities qualify as small businesses.
The Commission notes, however, that, in assessing whether a business concern qualifies as small under the above
definition, business (control) affiliations 35 must be included. The Commission’s estimate, therefore, likely
overstates the number of small entities that might be affected by its action, because the revenue figure on which
it is based does not include or aggregate revenues from
affiliated companies.

U.S. Census Bureau, American FactFinder, Tbl.EC1251SSSZ4,
Information: Subject Series-Estab & Firm Size: Receipts Size of
Firms for the U.S.: 2012 Economic Census of the United States,
http://factfinder.census.gov/faces/tableservices/isf/pages/productview.
xhtml?pid=ECN 2012 US 51SSSZ4&prodType=table (last visited
June 8, 2016) (NAICS code 51511).
34
Broadcast Station Totals.
35
“[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13 CFR
§ 121.103(a)(1).
33

518
31. In addition, an element of the definition of “small
business” is that the entity not be dominant in its field
of operation. The Commission is unable at this time to
define or quantify the criteria that would establish
whether a specific radio station is dominant in its field
of operation. Accordingly, the estimate of small businesses to which rules may apply does not exclude any
radio station from the definition of a small business on
this basis and therefore may be over-inclusive to that
extent. Also, as noted, an additional element of the
definition of “small business” is that the entity must be
independently owned and operated. The Commission
notes that it is difficult at times to assess these criteria
in the context of media entities and the estimates of
small businesses to which they apply may be over-inclusive
to this extent.
32. Daily Newspapers. The SBA has developed a
small business size standard for the census category of
Newspaper Publishers; that size standard is 1,000 or
fewer employees.36 Business concerns included in this
category are those that “carry out operations necessary
for producing and distributing newspapers, including
gathering news; writing news columns, feature stories,
and editorials; and selling and preparing advertisements.”37 Census Bureau data for 2012 show that there
were 4,466 firms in this category that operated for the
entire year.38 Of this total, 4,378 firms had employment
Id. § 121.201 (NAICS code 511110).
2012 NAICS Definitions (2012 NAICS definition for 511110,
Newspaper Publishers). These establishments may publish newspapers in print or electronic form. Id.
38
See U.S. Census Bureau, American FactFinder, Tbl.EC1251SSSZ5,
Information: Subject Series-Estab & Firm Size: Employment Size
36
37

519
of 499 or fewer employees, and an additional 88 firms had
employment of 500 to 999 employees. 39 Therefore, the
Commission estimates that the majority of Newspaper
Publishers are small entities that might be affected by
its action.
E.

Description of Reporting, Record Keeping, and
other Compliance Requirements for Small Entities

33. The Order adopts rule changes that will affect
reporting, recordkeeping, and other compliance requirements. The need for and content of each of these
rule changes is described in detail in Section A above
and the Commission’s efforts to minimize the impact of
each of these rules is described in detail in Section F below. Additionally, the Order adopts a requirement that
commercial broadcast television stations must place a
copy of any SSA entered into between commercial broadcast television stations in their online public inspection
files within 180 days after the filing requirement becomes effective. 40 Going forward, commercial broadcast television stations must place copies of such agreements in their online public inspection files in a timely
fashion following execution.
34. As a result of these new or modified requirements, we do not believe that small businesses will need
of Firms for the U.S.: 2012 Economic Census of the United
States, http://factfinder.census.gov/faces/tableservices/jsf/pages/
productview.xhtml?pid=ECN 2012 US 51SSSZ5&prodType=table
(last visited June 8, 2016) (NAICS code 511110).
39
Id.
40
The Commission will seek OMB approval for the filing requirement, and, upon receiving approval, the Commission will release a
Public Notice specifying the date by which SSAs must be filed.

520
to hire additional professionals (e.g., attorneys, engineers, economists, or accountants) to comply with the
new reporting, recordkeeping, and other compliance requirements. For example, commercial television stations should already have staff capable of placing SSAs
in the stations’ online public files, given the existing public file requirements.
F.

Steps Taken to Minimize Significant Economic
Impact on Small Entities, and Significant Alternatives Considered

35. The RFA requires an agency to describe any
significant alternatives that it has considered in reaching its approach, which may include the following four
alternatives (among others): (1) the establishment of
differing compliance or reporting requirements or timetables that take into account the resources available to
small entities; (2) the clarification, consolidation, or simplification of compliance or reporting requirements under the rule for small entities; (3) the use of performance,
rather than design, standards; and (4) an exemption
from coverage of the rule, or any part thereof, for small
entities.41
36. In conducting the quadrennial review, the Commission has three chief alternatives available for each of
the Commission’s media ownership rules—eliminate the
rule, modify it, or, if the Commission determines that
the rule is “necessary in the public interest,” retain it.
The Commission finds that the rules adopted in the Order, which are intended to achieve the policy goals of
competition, localism, and diversity, will continue to
benefit small entities by fostering a media marketplace
41

5 U.S.C. § 603(c)(1)-(4).

521
in which they are better able to compete and by promoting additional broadcast ownership opportunities, as described below, among a diverse group of owners, including small entities. The Commission discusses below
several ways in which the rules may benefit small entities as well as steps taken, and significant alternatives
considered, to minimize any potential burdens on small
entities.
37. Local Television Ownership Rule (Paragraphs
17-81). In the Order, the Commission finds that the
Local Television Ownership Rule remains necessary in
the public interest and should be maintained with a limited modification. Accordingly, under the modified television ownership rule an entity may own up to two television stations in the same DMA if (1) the digital noise
limited service contours (NLSCs) of the stations (as determined by Section 73.622(e)) do not overlap; or (2) at
least one of the stations is not ranked among the top four
stations in the market and at least eight independently
owned television stations will remain in the DMA following the combination.42 In calculating the number of stations remaining post-merger, only those stations whose
digital NLSC overlaps with the digital NLSC of at least
one of the stations in the proposed combination will be
considered. In addition, the Commission retains the
existing failed/failing station waiver policy.
38. In the Order, the Commission affirms the
FNPRM’s proposal to grandfather existing ownership
combinations that would exceed the numerical limits under the revised contour approach, though it finds that,

42

See Order at Appx. A; see also 47 CFR § 73.622(e).

522
going forward, the sale of such combinations must comply with the Local Television Ownership Rule then in effect. The Commission finds that this approach will
avoid disruption of settled expectations and prevent any
impact on the provision of television service by smaller
stations operating in rural areas. Moreover, the Commission finds that by preventing stations with the largest market shares from combining to achieve excessive
market power, the Local Television Ownership Rule
protects against potential harm to broadcasters with
smaller market shares, including small entities. Accordingly, the Commission finds that the rule, as modified, will continue to help ensure that local television
markets do not become too concentrated and, by doing
so, will allow more firms, including those that are small
entities, to enter local markets and compete effectively.
39. The Order also addresses the competitive challenges faced by broadcasters that operate in small
markets—including small entities—by retaining the existing failed/failing station waiver policy. The Order
finds that the existing waiver standard is not unduly restrictive and provides appropriate relief in markets of
all sizes. In particular, the Commission notes that a review of recent transactions demonstrates that waivers
under the failed/failing station policy are frequently
granted in small and midsized markets, which often provides relief for small entities. 43 Moreover, the Commission finds that the existing waiver criteria strike an
See, e.g., Freedom Broadcasting of New York Licensee, L.L.C.,
Letter Order, 27 FCC Rcd 2498 (MB 2012) (granting waiver under
the failed/failing station policy in the Albany-Schenectady-Troy,
New York, DMA—DMA #58); Riverside Media, LLC, Letter Order, 26 FCC Rcd 16038 (MB 2011) (granting waiver under the
43

523
appropriate balance between enforcing the ownership
limits and providing relief from the rule in circumstances where it is truly appropriate.
40. Local Radio Ownership Rule (Paragraphs 82128). In the Order, the Commission retains the Local
Radio Ownership Rule, including the AM/FM subcaps,
finding that AM subcaps in particular promote new entry in the broadcast radio marketplace. Accordingly,
an entity may own: (1) up to eight commercial radio
stations in radio markets with 45 or more radio stations,
no more than five of which can be in the same service
(AM or FM); (2) up to seven commercial radio stations
in radio markets with 30-44 radio stations, no more than
four of which can be in the same service (AM or FM); (3)
up to six commercial radio stations in radio markets with
15-29 radio stations, no more than four of which can be
in the same service (AM or FM); and (4) up to five commercial radio stations in radio markets with 14 or fewer
radio stations, no more than three of which can be in the
same service (AM or FM), provided that an entity may
not own more than 50 percent of the stations in such a
failed/failing station policy in the Ft. Smith-Fayetteville-SpringdaleRogers, Arkansas, DMA—DMA #101); ACME Television, Inc.,
Letter Order, 26 FCC Rcd 5189 (MB 2011) (granting waiver under
the failed/failing station policy in the Green Bay-Appleton, Wisconsin, DMA—DMA #69); Estes Broadcasting, Inc., Letter Order, 25
FCC Rcd 7956 (MB 2010) (granting waiver under the failed/failing
station policy in the Tyler-Longview, Texas, DMA—DMA #107);
Borger Broadcasting, Inc., Debtor in Possession, Letter Order, 25
FCC Rcd 1204 (MB 2010) (granting waiver under the failed/failing
station policy in the Amarillo, Texas, DMA—DMA #130); Davis
Television Clarksburg, LLC, Memorandum Opinion and Order, 23
FCC Rcd 5472 (MB 2008) (granting waiver under the failed/failing
station policy in the Clarksburg-Weston, West Virginia, DMA—
DMA #170).

524
market, except that an entity may always own a single
AM and single FM station combination.44
41. The Order concludes that, consistent with previous Commission findings, broadcast radio continues to
be a viable avenue for new entry in the media marketplace, including by small businesses, minorities, women,
and entities seeking to serve niche audiences. Specifically, the Commission finds that AM stations are generally the least expensive option for entry into the radio
market, often by a significant margin, and therefore
permit new entry for far less capital investment than is
required to purchase an FM station. The Commission
finds that retention of the local radio ownership limits,
including the AM/FM subcaps, will help foster opportunities for new entry in local radio markets, including by
small entities. Moreover, the Commission believes
that by limiting the consolidation of market power
among the dominant groups, the rule will help ensure
that small radio station owners remain economically viable.
42. Newspaper/Broadcast Cross-Ownership Rule
(Paragraphs 129-197). In several ways, the Commission’s decisions regarding the NBCO Rule minimize the
economic impact on small entities, namely small broadcasters and newspaper owners. First, retaining the
prohibition on newspaper/broadcast combinations in local markets will help small entities compete on more equal
footing with larger media owners that may have pursued
consolidation strategies through cross-ownership. Several commenters expressed concern that permitting
consolidation by relaxing or eliminating all or part of the
44

47 CFR § 73.3555(a).

525
rule would have harmed small broadcast stations, including those owned by women and minorities, and reduced opportunities for new small businesses to enter
the market.45 Second, by entertaining waiver requests
on a pure case-by-case basis, taking into consideration
the totality of circumstances surrounding a proposed
transaction and the potential harm to viewpoint diversity, the Commission will have the flexibility to accord
the proper weight to any factors that are particularly
relevant for small media owners. The significant alternatives that the Commission considered, such as allowing combinations under either a bright-line rule or a presumptive waiver standard, would not have afforded the
Commission the same degree of flexibility. Third,
adopting a more lenient approach for proposed combinations involving a failed or failing broadcast station or
newspaper will benefit entities in financial distress,
which may be more likely to include small entities.
Fourth, grandfathering existing combinations will avoid
disruption of settled expectations of existing licensees
and prevent any impact on the provision of service by
smaller entities that are part of such combinations. Finally, requiring subsequent purchasers of grandfathered combinations to comply with the rule in effect at
that time will provide opportunities for new entrants to
acquire a divested media outlet.

See, e.g., Free Press FNPRM Comments at 12-13; Association of
Free Community Papers FNPRM Comments at 3-4, 8-9 (AFCP);
Writers Guild of America, West FNPRM Comments at 10-11 (WGAW);
National Hispanic Media Coalition FNPRM Comments at 7, 12-13
(NHMC); UCC et al. FNPRM Comments at 41-42; National Association of Black Owned Broadcasters, Inc. FNPRM Comments at
13-15 (NABOB).
45

526
43. Radio/Television Cross-Ownership Rule (Paragraphs 198-215). By retaining the Radio/Television
Cross-Ownership Rule, the Commission minimizes the
economic impact on small entities. The Commission
considered the significant alternative of eliminating the
rule but concluded that it remained necessary to promote viewpoint diversity. Retaining the rule will benefit small broadcast stations by limiting the growth of
existing combinations of radio stations and television
stations in local markets. In addition, grandfathering
existing combinations will avoid disruption of settled expectations of existing licensees and prevent any impact
on the provision of service by smaller stations that are
part of such combinations; requiring subsequent purchasers of grandfathered combinations to comply with
the rule in effect at that time will provide opportunities
for new entrants to acquire a divested media outlet.
The Commission’s decision also alleviates the concern
expressed by commenters that further consolidation
would harm small businesses because radio provides one
of the few entry points into media ownership for minorities and women.46
44. Dual Network Rule (Paragraphs 216-233). In
the Order, the Commission retains the Dual Network
Rule without modification. As noted above, the Order
concludes that a combination between top-four broadcast networks would reduce the choices available to advertisers seeking large, national audiences, which could
substantially lessen competition and lead the networks
to pay less attention to viewer demand for innovative,
high quality programming. Furthermore, the Com-

46

See UCC et al. FNPRM Comments at 41-43.

527
mission finds that the rule remains necessary to preserve the balance of bargaining power between the topfour networks and their affiliates, thus improving the
ability of affiliates to exert influence on network programming decisions in a manner that best serves the interests of their local communities. The Commission
believes that these benefits to affiliates are particularly
important for small entities that may otherwise lack
bargaining power.
45. Diversity Order Remand/Eligible Entity Definition (Paragraphs 234-336). As noted above, the Order concludes that the Commission should reinstate the
preexisting revenue-based eligible entity definition, which
includes those entities—commercial or noncommercial
—that would qualify as small businesses consistent with
SBA standards for its industry grouping, based on revenue. 47 Specifically, the Commission finds that reinstating the revenue-based standard will help promote
small business participation in the broadcast industry.
The Commission believes that small-sized applicants
and licensees benefit from flexible licensing, auctions,
transactions, and construction policies. Often, smallbusiness applicants have financing and operational
needs distinct from those of larger broadcasters. By
easing certain regulations for small broadcasters, the

Diversity Order, 23 FCC Rcd at 5925-26, para. 6; see also 2002
Biennial Review Order, 18 FCC Rcd at 13810-12, paras. 488-89. As
the Commission previously held, going forward the Commission will
include both commercial and noncommercial entities within the scope
of the term “eligible entity” to the extent that they otherwise meet
the criteria of this standard. See Order at para. 286 (describing the
SBA’s small business standards, which are used to define an “eligible
entity”).
47

528
Commission believes that it will promote the public interest goal of making access to broadcast spectrum
available to a broad range of applicants. The Commission also believes that enabling more small businesses
to participate in the broadcast industry will help encourage innovation and expand viewpoint diversity.
46. In addition, the Commission will readopt each
measure relying on the eligible entity definition that was
remanded in Prometheus II. These measures include:
(1) Revision of Rules Regarding Construction Permit
Deadlines;48 (2) Modification of Attribution Rule;49 (3)

48
Diversity Order, 23 FCC Rcd at 5930, para. 15 (revising construction permit rules to allow the sale of expiring construction permits to eligible entities that agree to complete construction within
the time remaining on the permit or within 18 months, whichever
period is greater); see also 47 CFR § 73.3598(a).
49
Diversity Order, 23 FCC Rcd at 5936, para. 31 (relaxing the
equity/debt plus (EDP) attribution standard for interest holders in eligible entities by “allow[ing] the holder of an equity or debt interest
in a media outlet subject to the media ownership rules to exceed the
33 percent threshold set forth in [the EDP standard] without triggering attribution where such investment would enable an eligible
entity to acquire a broadcast station provided (1) the combined equity and debt of the interest holder in the eligible entity is less than
50 percent, or (2) the total debt of the interest holder in the eligible
entity does not exceed 80 percent of the asset value of the station
being acquired by the eligible entity and the interest holder does not
hold any equity interest, option, or promise to acquire an equity interest in the eligible entity or any related entity”); see also 47 CFR
§ 73.3555, Note 2(i)(2). In addition, pursuant to the new entrant
bidding credits available under the Commission’s broadcast auction
rules, the modified EDP attribution standard is available to interest
holders in eligible entities that are the winning bidders in broadcast
auctions. See id § 73.5008(c)(2). This application of the modified
EDP standard also is being reinstated by the Commission.

529
Distress Sale Policy;50 (4) Duopoly Priority for Companies that Finance or Incubate an Eligible Entity;51 (5)
Extension of Divestiture Deadline in Certain Mergers;52
and (6) Transfer of Grandfathered Radio Station Combinations.53 The Commission’s intent in reinstating the
previous revenue-based eligible entity definition—and
in applying it to the construction, licensing, transaction,
and auction measures to which it previously applied—is
to expand broadcast ownership opportunities for new
entrants, including small entities. Therefore, the Commission anticipates that these measures will benefit small
entities, not burden them.

50
Diversity Order, 23 FCC Rcd at 5939, para. 39 (modifying the
distress sale policy by allowing a licensee that has been designated
for a revocation hearing or has a renewal application that has been
designated for hearing on basic qualification issues to sell the station
to an eligible entity prior to the hearing).
51
Id. at 5943, para. 56 (giving an applicant for a duopoly that agrees
to finance or incubate an eligible entity priority over other applicants
in the event that competing duopoly applications simultaneously are
filed in the same market).
52
Id. at 5943-44, paras. 57-60 (agreeing to consider requests to extend divestiture deadlines when applicants actively have solicited
bids for divested properties from eligible entities and further stating
that entities granted such an extension must sell the divested property to an eligible entity by the extended deadline or have the property placed in an irrevocable trust for sale by an independent trustee
to an eligible entity).
53
Id. at 5944-45, para. 61 (permitting the assignment or transfer of
a grandfathered radio station combination intact to any buyer so
long as the buyer files an application to assign the excess stations to
an eligible entity or to an irrevocable divestiture trust for the ultimate assignment to an eligible entity within 12 months after consummation of the purchase of the grandfathered stations).

530
47. Shared Services Agreements (Paragraphs 337377). In the Order, the Commission requires commercial broadcast television stations to disclose SSAs entered into between commercial broadcast television stations. Commercial television stations will be required
to place copies of such agreements in their public inspection files to allow the Commission and the public to understand better the terms, operation, and prevalence of
these agreements and their potential impact on the
Commission’s competition, localism, and diversity goals.
Although the Commission does not currently require
the filing or disclosure of sharing agreements that do
not contain time brokerage or joint advertising sales
provisions, broadcasters are required to file many types
of documents in their public inspection files. Therefore, broadcasters, including those qualifying as small
entities, are well versed in the procedures necessary for
compliance and will not be overly burdened with having
to add SSAs to their public inspection files. In addition, the Commission considered various disclosure alternatives in the record, but determined that such measures would either be more burdensome than the disclosure method adopted in the Order or that the proposals
would not adequately address the concerns raised by the
Commission. Ultimately, as the Commission finds that
the new SSA disclosure requirement will not be especially burdensome to small entities, it is therefore unnecessary to adopt any special measures for small entities with respect to this new disclosure requirement.
48.

Reports to Congress and Government Accountability Office: The Commission will send a copy of the

Order, including this FRFA, in a report to be sent to Congress and the Government Accountability Office pursuant

531
to the Congressional Review Act.54 A copy of the Order
and FRFA (or summaries thereof ) will also be published
in the Federal Register.55

54
55

See 5 U.S.C. § 801(a)(1)(A).
See id. § 604(b).

532
STATEMENT OF
COMMISSIONER MIGNON L. CLYBURN

Re:

2014 Quadrennial Regulatory Review—Review of
the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202
of the Telecommunications Act of 1996, MB
Docket No. 14-50; 2010 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast
Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, MB Docket No. 09-182; Promoting
Diversification of Ownership in the Broadcasting
Services, MB Docket No. 07-294; Rules and Policies Concerning Attribution of Joint Sales Agreements in Local Television Markets, MB Docket
No. 04-256.

Last month, in the wake of the horrific shootings in
Dallas, Texas, Washington, D.C. Police Chief Cathy Lanier held a press conference to reassure the citizens in
our nation’s capital that her department would continue
to build strong community relationships while it protects and serves. Who covered this press conference?
Local broadcast television outlets, area radio stations,
and the city’s daily and weekly newspapers . . . the
ones that have been on the scene, covering these types
of events for decades.1

See, e.g., WTOP, Lanier Talks Community Relations after Dallas Sniper Shootings (July 8, 2016); WJLA, D.C. Police to Change
Protocol after Officer Shootings in Dallas (July 8, 2016); The
Washington Post, Police Nationwide Order Officers to Ride in
Pairs after Dallas Police Ambush (July 8, 2016).
1

533
This was not an anomaly. Broadcasters and newspapers have been and continue to play a uniquely relevant role in our society when it comes to covering news
and events. In fact, a 2010 Pew Research Center study
of 98 major metropolitan cities found that nearly 89 percent of news and information about local government
came from area newspapers and local broadcast television stations.2 More to the point, this study found that
over half of the 928 local stories it examined came from
daily and weekly newspapers. 3 Even more telling is
what the National Association of Broadcasters (NAB)
stated earlier this year: “nobody wants to do what we
do—live and vital localism.” 4 Couple that statement
with a 2015 study published in the Journal of Politics
which found a diminished local news environment depresses citizen engagement. 5 It then becomes real
clear, that any rule which threatens or jeopardizes “live
and vital localism” should never see the light of day.
There is no question that our media landscape looks
very different than it did thirty years ago. The Internet and cable news networks and other portals, have
given birth to a host of options when it comes to news
and information dissemination. Popular outlets like
BuzzFeed, Huffngton Post, Twitter and hyperlocal
blogs found in communities across the country, allow
Pew Research Center, Media Coverage of City Governments
(last visited August 16, 2016).
3
Id.
4
National Association of Broadcasters (NAB), Gordon Smith Keynote at 2016 NAB Show (April 18, 2016).
5
The Journal of Politics, As Local News Goes, So Goes Citizen Engagement: Media, Knowledge, and Participation in US House
Elections (February 4, 2015).
2

534
Americans to consume great quantities of information
from multiple sources. But make no mistake, more options do not necessarily translate into access to original
local news gathering, reporting or sourcing. Using
data from Nielsen, Pew Research Center in 2011 found
that legacy news organizations, meaning those attached
to another platform such as television or print, represent about two-thirds of the top 25 news websites.6
And yes, as the former publisher and general manager of a small Charleston-based weekly newspaper for
14 years, I am very much aware that the newspaper
business is not what it used to be. Nationally, the number of daily newspapers over the past 40 years has decreased by nearly 25 percent.7 Circulation has fallen
from 60.7 million in 1975 to 40.4 million in 2014.8 But if
the real fear is that a failed or failing newspaper or
broadcast station will jeopardize the number of local
voices in a given market, the Commission has adopted
an exception to its newspaper/broadcast cross-ownership
rule that can actually prevent these voices from vanishing by allowing for an injection of new investment capital into the particular news outlet.
Further, with the broadcast incentive auction well
underway, we are on the cusp of seeing major changes
to the television landscape. While it is not publicly
known which stations will participate, one thing is certain: there will be fewer broadcast television stations

Pew Research Center, The Top 25 (last visited August 16, 2016).
Newspaper Association of America, Newspaper Circulation
Volume (last visited August 16, 2016).
8
Id.
6
7

535
on the air post-auction. Relaxing the Commission’s media ownership rules at this time, will neither increase the
number of diverse stations nor will it create additional
local voices.
What is extremely troubling to me is that despite
comprising nearly 13 percent of the U.S. population, African Americans held a majority interest in just nine of
the nearly 1,400 full power commercial television stations, according to data from 2013.9 While the Order
tees up for further consideration five proposals offered
by the Multicultural Media, Telecom and Internet Council (MMTC), which I applaud, more proactive steps must
be taken. To satisfy-judicial scrutiny and demonstrate
the Commission’s commitment to ownership diversity
that is so desperately wanting, we need a robust record
of data that paints a comprehensive picture of today’s
media landscape. Today, this simply does not exist.
Commenters in the record point to six categories of
research that could be a starting point for a more comprehensive set of data examining the impact of ownership diversity. 10 Some of the ideas put forward include
looking at the impact of existing FCC policies on ownership by women and people of color; examining local news
sharing agreements and how they affect the production
of diverse and competitive local news; and undertaking
additional research necessary to support Congressional
See 2014 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996
et al., Report on Ownership of Commercial Broadcast Stations, 29
FCC Rcd 7835 (MB 2014) (2014 323 Report).
10
Letter from Cheryl A. Leanza, Policy Advisor, UCC, to Marlene
H. Dortch, Secretary, FCC, at 2 (filed July 7, 2016).
9

536
action on the minority tax certificate. If we are serious
about our commitment to implementing informed and
forward-looking policies that are in the public interest,
these ideas should be considered.
Everyone should stop making excuses. The Third
Circuit, in its most recent decision was crystal clear: if
more data is needed, we “must get it.” I stand ready to
work with the Commission and interested researchers
to fulfill this goal so that the Commission has the information it needs to ensure that the right policies are in
place to promote a vibrant and diverse media landscape.
Without “it” . . . well let me simply say, “the proof
of the pudding is in the eating.”

537
DISSENTING STATEMENT OF
COMMISSIONER AJIT PAI

Re:

2014 Quadrennial Regulatory Review—Review of
the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202
of the Telecommunications Act of 1996, MB
Docket No. 14-50; 2010 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast
Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, MB Docket No. 09-182; Promoting
Diversification of Ownership in the Broadcasting
Services, MB Docket No. 07-294; Rules and Policies Concerning Attribution of Joint Sales Agreements in Local Television Markets, MB Docket
No. 04-256.

“The more things change, the more they stay the
same.” When French journalist Jean-Baptiste Alphonse
Kerr first expressed that sentiment 167 years ago, he
obviously didn’t have the FCC’s media ownership regulations in mind. But his words ring true as the Commission finally gets around to finishing the 2010 Quadrennial Review.
Congress instructed the FCC to reassess its media
ownership regulations every four years. It also provided that the agency “shall” get rid of outdated rules.1

Compare Telecommunications Act § 202(h) (FCC “shall” review
media ownership rules on quadrennial basis, “shall determine whether
any of such rules are necessary in the public interest,” and “shall
repeal or modify” any unnecessary regulations) with Letter from
Tom Wheeler, Chairman, FCC, to the Honorable Anna Eshoo, U.S.
House of Representatives (Mar. 18, 2016) (“Section 629 of the Com1

538
This was because Congress recognized that regulations
designed to promote localism, diversity, competition,
and investment in media could have exactly the opposite
effect if they didn’t keep up with the times.
But here, the FCC has failed on both counts. In
terms of timing, the Commission has thumbed its nose
at Congress for the past eight-and-a-half years by refusing to complete a single quadrennial review. This is
the regulatory equivalent of completing your figureskating routine for the 2010 Vancouver Winter Olympics
after the Olympic flame has been extinguished at the
closing ceremony of the 2016 Games in Rio de Janeiro.
What took us so long? Based on the “substance” of this
Order, I have no idea, for the agency essentially does
nothing but stick its head in the sand.
The changes to the media marketplace since the FCC
adopted the Newspaper-Broadcast Cross-Ownership
Rule in 1975 have been revolutionary. Over the last
four decades, newspaper circulation and advertising
revenue have plummeted, and hundreds of publications
have gone out of business. The Internet has become
the go-to source for news. National and regional cable
news networks have flourished. The days of Americans waiting for the morning newspaper to learn about
what is going on around them are long gone. Yet, instead of repealing the Newspaper-Broadcast Crossmunications Act is explicit: The Commission shall . . . adopt regulations to assure the commercial availability [of set-top boxes].”),
available at http://go.usa.gov/xDjbA; Statement of Chairman Tom
Wheeler, August 2016 Open Meeting Press Conference at 1:03:08,
http://go.usa.gov/xDjbJ (“Make no mistake, we will obey the law.
The law [section 629] says, ‘the Commission shall’ provide for competitive choice [in navigation devices]. We will obey the law.”).

539
Ownership Rule to account for the massive changes in
how Americans receive news and information, we cling
to it.
And over the near-decade since the FCC last finished
a “quadrennial” review, the video marketplace has transformed dramatically. Especially with the rise of overthe-top video, the market is now more competitive than
ever. Never before have Americans been able to choose
from such a wide array of content. They now demand
to view that content when they want and on the device
of their choice. And high-profile news is increasingly
made and distributed on online video networks that
didn’t even exist just a few years ago.2 Yet, instead of
loosening the Local Television Ownership Rule to account for the increasing competition to broadcast television stations, we actually tighten that regulation.
And instead of updating the Local Radio Ownership
Rule, the Radio-Television Cross-Ownership Rule, and
the Dual Network Rule, we merely rubber-stamp them.
The more the media marketplace changes, the more
the FCC’s media regulations stay the same.
This ostrich of an Order is not at all what Congress
envisioned. And it is a thumb in the eye of the United
States Court of Appeals for the Third Circuit, too.

See, e.g., Daniel Victor & Mike McPhate, “Critics of Police Welcome Facebook Live and Other Tools to Stream Video,” The New
York Times (July 7, 2016) (discussing “the power of [online] video,
especially when live, in drawing public attention”), available at
http://nyti.ms/291MKOS.
2

540
Five years ago, the Third Circuit vacated the FCC’s definition of “eligible entity.”3 Earlier this year, the Third
Circuit said “enough is enough”4 and demanded that the
FCC take prompt action on its “stalled efforts to promote diversity in the broadcast industry.” 5 So what
does the Commission do here in response to the court?
Precisely one thing: It readopts the exact same “eligible entity” definition that the Third Circuit rejected in
2011!
This proceeding is proof of this agency’s plenary and
purposeful abdication of its statutory duty. It shows
that this Commission that does not believe it is accountable to Congress or the courts. And it is evidence that
unless Congress or a court steps in and takes action, this
is the way that it will continue to be: The Commission’s
media ownership regulations will never be relaxed.
Efforts to promote diversity will remain stalled. The
law, the marketplace, and common sense will continue
to be ignored.
Today’s result is all the more unfortunate because
compromise was well within reach. For example, a bipartisan majority of commissioners was willing to repeal
the outdated Newspaper-Broadcast Cross-Ownership
Rule. But for some reason, we were told that this rule

Prometheus Radio Project v. FCC, 652 F.3d 431, 437 (3d Cir.
2011).
4
Prometheus Radio Project v. FCC, 824 F.3d 33, 37 (3d Cir. 2016)
(quoting Public Citizen Health Research Group v. Chao, 314 F.3d
143, 158 (3d Cir. 2002)) (emphasis and internal quotation marks omitted) (Prometheus III).
5
Id.
3

541
would not be repealed unless all commissioners agreed.
And sadly, one chose to exercise that veto.
As someone who has been on the losing end of more
3-2 votes than I care to remember, I am baffled by this
new requirement for unanimity. We’ve been told for
years by the FCC’s leadership that 3-2 votes are what
democracy is all about. Except, I guess, when it isn’t.
Or more precisely, 3-2 votes are what democracy is all
about so long as the commissioners are divided cleanly
along party lines. As a result, we end up keeping a rule
on the books that almost no one at the FCC actually believes make sense any longer. This is a shame because
our regulations should always be shaped only by the
facts and law—not crass political considerations.
If I were to detail all of this Order’s deficiencies, my
dissenting statement would be almost as long as the Order itself (161 pages). In the interest of space, I’ll focus
on what I consider to be the Order’s most problematic
aspects: (1) doubling down on the Newspaper-Broadcast
Cross-Ownership Rule; (2) tightening, rather than loosening, the Local Television Ownership Rule; and (3) failing to take meaningful action to promote diversity.
I.
The newspaper industry is in crisis. Since the FCC
adopted the Newspaper-Broadcast Cross-Ownership
Rule in 1975, approximately one-quarter of newspapers
in the United States have gone out of business.6 That’s
See Letter from Rick Kaplan, General Counsel and Executive
Vice President, and Jerianne Timmerman, Senior Vice President
and Deputy General Counsel, NAB, to Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50, 09-182, at 2 (July 7, 2016) (NAB
July 7 Ex Parte Letter).
6

542
over 400 publications.7 In the last decade, newspapers
have shut down in Denver, Tucson, Cincinnati, Honolulu, Tampa, and other major cities. 8 Other newspapers, including the New Orleans Times-Picayune and
the Birmingham News, no longer publish on a daily basis.9 Still others, such as the Seattle Post-Intelligencer,
have abandoned the print medium altogether and now
exist only as a digital platform.10
Since 1975, the population of the United States has
increased 49% while total newspaper circulation is down
by one-third, with the substantial majority of that decline occurring since 2000.11 Adjusting for inflation, newspaper advertising revenues, both print and digital, are
down 64% since 2000, from $65.8 billion to $23.6 billion.12
And since 2000, employment in newspaper newsrooms
has dropped by 42%.13
Earlier this month, Warren Buffett, whose company
owns 32 newspapers across the country, summarized the
bleak picture: “[L]ocal newspapers continue to decline
See id.
See Newspaper Death Watch: Chronicling the Decline of Newspapers and the Rebirth of Journalism, http://newspaperdeathwatch.
com/ (Aug. 16, 2016).
9
See id.
10
See William Yardley and Richard Pérez Peña, “Seattle Paper
Shifts Entirely to Web,” The New York Times (Mar. 16, 2009), available at http://nyti.ms/2bM4ytt.
11
Daily circulation was 60.655 million in 1975, 55.773 million in
2000, and 40.420 million in 2014. See Newspaper Association of America, Newspaper Circulation Volume, http://bit.ly/2b2r9f2 (linked spreadsheet) (Aug. 16, 2016).
12
See NAB FNPRM Comments at 71.
13
See NAB July 7 Ex Parte Letter at 3-4.
7
8

543
at a very significant rate. And even with the economy improving, circulation goes down, advertising goes down,
and it goes down in prosperous cities, it goes down in
areas that are having urban troubles, it goes down in
small towns—that’s what amazes me.”14
Of course, newspaper reporters continue to do important work throughout our country each and every
day. Many were recently reminded of the impact that
their stories can have through the 2015 film Spotlight,
which won the Academy Award for Best Picture. The
movie focused on The Boston Globe’s investigation into
widespread child sex abuse by Roman Catholic priests
in and around Boston—reporting that ended up having
a worldwide impact on the Catholic Church. But given
the newspaper industry’s profound financial troubles, it
is becoming harder and harder for publications to do
this type of investigatory journalism, hold our elected
officials to account, and let Americans know what is going on in their communities.
That’s why it makes no sense for the government to
be discouraging investment in the newspaper industry.
In this day and age, if you are willing to invest in a newspaper, we should be thanking you, not imposing regressive regulations. But that is precisely what the Commission is doing in this Order by maintaining the NewspaperBroadcast Cross-Ownership Rule.

Jake Sherman and Anna Palmer with Daniel Lippman, “EXCLUSIVE PLAYBOOK INTERVIEW: Warren Buffett!—Dem
EMAIL HACK ‘wider than believed’—KASIE HUNT engaged—
B’DAY: David Brooks,” Politico, http://politi.co/2aMjqC1 (Aug. 11,
2016).
14

544
Our action (or, to be more accurate, lack of action) is
particularly unfortunate because broadcasters are wellsituated to partner with newspapers. The reason is
simple. Investments in newsgathering are more likely
to be profitable when a company can distribute information over multiple platforms. This is not just a theory.
Because the FCC grandfathered newspaperbroadcast combinations that predated the 1975 adoption
of the Newspaper-Broadcast Cross-Ownership Rule, we
have seen this theory play out in practice across the
United States.
The National Association of Broadcasters has pointed
to no fewer than 15 studies demonstrating that newspapertelevision cross-ownership increases the quantity and/or
quality of news broadcast by cross-owned television stations. 15 These studies span almost four decades, and
some were commissioned by the FCC itself. For example, one FCC-sponsored study in 2007 found that newspaper cross-owned TV stations supply about 7-10% more
local news coverage and about 25% more coverage of
state and local politics, on average, than non-cross-owned
stations.16 And another FCC-sponsored study that same
year found that cross-owned TV stations broadcast 11%
more news programming than non-cross-owned stations. 17 The same is true with respect to newspaperradio cross-ownership. An FCC-sponsored study found
that a cross-owned radio station is four to five times more

NAB FNPRM Comments at 75-76.
See Jeffrey Milyo, The Effects of Cross-Ownership on the Local
Content and Political Slant of Local Television News (2007).
17
See Daniel Shiman, The Impact of Ownership Structure on Television Stations’ News and Public Affairs Programming (2007).
15
16

545
likely to have a news format than a non-cross-owned station.18
And we need not rely on statistics alone. The record
contains numerous unrebutted examples of how
newspaper-broadcast cross-ownership has provided
more comprehensive news coverage to communities
throughout our nation, including Atlanta, Cedar Rapids,
Milwaukee, Phoenix, South Bend, Spokane, Topeka, and
Amarillo.19 In Dayton, for example:
Cox Media Group’s cross-ownership of the Dayton
Daily News and CBS affiliate WHIO-TV helped to
uncover one of the most prominent stories of [2014]:
the mismanagement of the Department of Veterans
Affairs. Working together, journalists at the newspaper and television station analyzed the quality of
care that veterans were receiving, and discovered
that the Department had paid more than $36 million
to settle claims resulting from treatment delays.
Months of congressional inquiries, national and global
media studies, and, ultimately, the resignation of the
Secretary of Veterans Affairs followed. These treatment delays would not have come to light had it not
been for the dogged efforts of both the newspaper
and television reporters, working together.20
So in the face of all of this data and evidence, why
does the Commission choose to retain the NewspaperBroadcast Cross-Ownership Rule? It claims that this
See Craig Stroup, Factors that Affect a Radio Station’s Propensity to Adopt a News Format (2007).
19
See NAA FNPRM Comments at 3-10; Morris Communications
Co., LLC FNPRM Comments at 17-23.
20
NAA FNPRM Comments at 5-6 (emphasis in original).
18

546
regulation remains necessary to promote viewpoint
diversity. 21 But the evidence overwhelmingly shows
that there is little if any connection between viewpoint
diversity and ownership.22 Most notably, a 2011 FCCsponsored study found no statistically significant relationship between ownership and viewpoint diversity,
and a 2012 update to that study actually found viewpoint
diversity to be positively associated with the number of
co-owned television stations in a market.23 Indeed, research generally shows that a media outlet’s viewpoint
is driven by the preferences of its audience rather than
ownership.24
But the larger problem with the Commission’s conclusion is that it ignores the realities of the modern media marketplace. This isn’t the 1970s anymore. Most
Americans don’t wait for the morning newspaper or the
11:00 PM newscast to learn what’s going on around the
globe or at home. That world set sail with The Love
Boat. Today, most Americans get the information they
want when they want it by going online and scouring a
wide variety of sources, including digital-only news outlets and social networks such as Facebook and Twitter.
Order at para. 142.
See NAB FNPRM Comments at 79-82, App. C (listing 15 studies).
23
See Adam D. Rennhoff and Kenneth C. Wilbur, Local Media
Ownership and Viewpoint Diversity in Local Television News (2011);
Adam D. Rennhoff and Kenneth C. Wilbur, Further Revisions to Local Media Ownership and Viewpoint Diversity in Local Television
News (2012).
24
See, e.g., Matthew Gentzkow and Jesse M. Shapiro, What Drives
Media Slant? Evidence from U.S. Daily Newspapers, 78 ECONOMETRICA 35 (2010); Sendhil Mullainathan and Andrei Shleifer, The
Market for News, 95 AM. ECON. REV. 1031 (2005).
21
22

547
When it comes to news, we can now choose from an
amazingly diverse array of options. Last year, for example, Pew Research Study counted 143 news providers
in Denver alone.25
The record contains a plethora of statistics detailing
how the Internet has transformed the American people’s consumption of news and information, and I don’t
believe that it is necessary to review all of them here.
Instead, I’ll focus on two other glaring problems with
the Commission’s analysis that render its decision to retain the Newspaper-Broadcast Cross-Ownership rule in
the name of viewpoint diversity fatally flawed.
First, the Commission contends that newspapers and
broadcast television stations “continue to be the predominant providers of local news and information upon
which consumers rely.”26 But then, in order to justify
retaining the prohibition against common ownership of
a newspaper and a radio station, the Commission also
claims that “broadcast radio stations continue to be an
important source of viewpoint diversity in local markets.”27
These statements place the Commission on the horns
of a dilemma. The only reason that the Commission
performs a stunning about-face and suddenly claims
that radio stations are a significant source of viewpoint
diversity28 is so that it can retain the Newspaper-RadioSee Pew Research Center, Local News in a Digital Age at 4
(Mar. 5, 2015).
26
Order at para. 142.
27
Id.
28
See e.g., 2014 Quadrennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules and Other Rules Adopted
25

548
Cross Ownership Rule (which generally prohibits crossownership). But if radio stations are an important
source of viewpoint diversity, then they must be included in the total number of voices in the market. And
if that is true, then there is no way that the agency’s
Newspaper-Broadcast Cross-Ownership Rule can survive.29
Take the New York City media market, for example.
If there are five major newspapers, over twenty television stations, and about 60 radio stations in the market
contributing to viewpoint diversity, then how can prohibiting a newspaper from purchasing a single one of
those radio stations or television stations be necessary
to preserve viewpoint diversity? With over 80 voices in
the market, how can common ownership of just two
cause a problem?
Second, the Commission discounts the rise of the Internet by arguing that most of the news found there is
provided by websites affiliated with traditional providers, such as newspapers.30 (This myopic conclusion itself would be news to a wide variety of popular online
upstarts, ranging from locally-focused platforms such as
The Texas Tribune, which earned two Online News Association awards last year for explanatory and topical

Pursuant to Section 202 of the Telecommunications Act of 1996
et al., MB Docket No. 14-50, Further Notice of Proposed Rulemaking and Report and Order, 29 FCC Rcd 4371, 4435-36, paras. 14445 (2014) (2014 Quadrennial Review Notice).
29
Conversely, if radio stations are not an important source of viewpoint diversity, then the Newspaper-Radio Cross-Ownership Rule
must be eliminated.
30
See Order at para. 148 & note 389.

549
reporting, and Voice of San Diego, which has won national awards for its investigative reporting, to more
nationally-focused platforms like BuzzFeed, Vox Media,
and Yahoo! News.) But the FCC’s regulation only precludes the common ownership of a broadcast station and
a newspaper if the newspaper publishes at least four
times a week. So, for example, newspapers such as the
Patriot-News of Harrisburg, Pennsylvania, or the PressRegister of Mobile, Alabama, which print only three
days a week but update their websites constantly, may
be commonly owned with a television station.
How does this make any sense? If the content that
a newspaper provides on its website is critical to the retention of the Newspaper-Broadcast Cross-Ownership
Rule, why should it matter how many days a week it circulates a print edition? So long as newspapers regularly update their websites with breaking news and information, why should a newspaper that offers a print
edition seven days a week be treated differently than
one that only distributes three print editions a week?
Or a newspaper that has chosen to go entirely online?
Why should we create an incentive for newspapers to cut
back on print editions in order to get more favorable
regulatory treatment? The Order offers no answers to
these questions. That there are no good ones highlights how outdated the Newspaper-Broadcast CrossOwnership Rule has become. At a time when more and
more content is being consumed over the Internet, it
makes no sense to base ownership regulations on whether
a news outlet distributes a print edition and/or how
many times a week it does so. The product, not pulp,
is what matters.

550
Perhaps recognizing its difficulty in justifying the retention of the Newspaper-Broadcast Cross-Ownership,
the Commission purports to “provide for a modest loosening” of it.31 However, the modest steps that it sets
forth are entirely inadequate and largely illusory.
To begin with, the Commission adopts an express exception “for proposed combinations involving a failed or
failing newspaper, television station, or radio station.”32
But the newspaper industry has explained that this
standard’s specific criteria “will not open any opportunities for newspaper companies to obtain investment
from the media industry, and certainly will not serve the
public interest.” 33 And there is an even more fundamental problem with this exception. By the time that
a newspaper has failed or is failing, it might be too late
to save and/or might not be an attractive investment opportunity for a broadcaster. Our goal should be to
maintain newspapers as healthy and vibrant institutions. We shouldn’t deprive them of the investment
they need to thrive until they are at death’s doorstep and
then hope that someone will swoop in at the last minute
to save them.
Additionally, the Commission states that companies
may obtain a waiver of the Newspaper-Broadcast CrossOwnership Rule if they are able “to show that their pro-

Order at para. 130.
Order at para. 173.
33
Letter from Danielle Coffey and Kurt Wimmer, Newspaper Association of America, to Marlene H. Dortch, Secretary, FCC, MB
Docket Nos. 14-50, 09-182, 07-294, at 2 (Aug. 9, 2016).
31
32

551
posed combination would not unduly harm viewpoint diversity in the local market.” 34 What does this mean?
Who knows? Curiously, the Commission rejects readopting the four-factor test that applied to waiver requests under the vacated 2007 modification of the
Newspaper-Broadcast Cross-Ownership Rule because
it claims that those factors (e.g., whether the combined
entity would significantly increase the amount of local
news in the market) “would be vague, subjective, difficult to verify, and costly to enforce.”35 But the waiver
standard adopted by the Commission today is far vaguer
and more subjective than the 2007 standard for it lacks
any objective criteria. “Knowing it when we see it” is
hardly the stuff of administrative precision.
Moreover, we’ve seen this song-and-dance before.
When the Commission adopted JSA restrictions two
years ago, it set up a similar waiver process to preserve
beneficial JSAs that it publicly touted when useful for
defending its new policy. 36 But that process was a
sham. For the entire time that the Commission’s JSA
restrictions were in effect, not one waiver request was
granted. (That may have been one reason why Congress, in an overwhelming bipartisan vote, required that
the FCC protect existing JSAs.37) I have little doubt
that the same thing will happen here.

Order at para. 187.
Order at note 542.
36
See 2014 Quadrennial Review Notice, 29 FCC Rcd at 4540,
para. 364.
37
See Consolidated Appropriations Act, 2016, § 628, Pub. L. No.
114-113 (2015).
34
35

552
Where does that leave us? In the face of overwhelming evidence of the newspaper industry’s dire
condition, the benefits that newspaper-broadcast crossownership could bring, and a media marketplace transformed by the Internet, the Commission chooses to
leave in place an absurdly antiquated rule that reduces
investment in the newspaper business. The FCC’s decision is not based on the law or the facts in the record.
Nor is it based on common sense. For example, does
anyone seriously believe that allowing a newspaper to
buy a single radio station in any American city would
harm anyone? But politics—in particular, fear of partisan special interests in the Beltway that have banged
the same sad drum for years (ironically, mainly online)
—has made it impossible for us to repeal this rule.
At this rate, absent congressional or judicial intervention, the Newspaper-Broadcast Cross-Ownership
Rule will outlive print newspapers themselves.
II.
In this Order, the Commission refuses to relax its Local Television Ownership Rule. This rule prohibits anyone from owning two television stations in a Designated Market Area (DMA) unless at least one of those
stations falls outside the top-four stations in the market
(top-four prohibition) and there are at least eight
independently-owned television stations in the DMA
(eight-voices test).
However, record evidence demonstrates that the
eight-voices test lacks any foundation in economics or
the realities of today’s television marketplace. Indeed,
repealing that test would promote competition and localism in the video marketplace.

553
For one, the eight-voices test has no basis in modem
competition theory and is inconsistent with fundamental
antitrust principles.38 The test often prohibits mergers
that “are unlikely to have adverse competitive effects
and ordinarily require no further analysis,” according to
the United States Department of Justice & Federal
Trade Commission’s Horizontal Merger Guidelines.39 And
it often prohibits transactions that do not create a presumption of increased market power according to those
guidelines.40 Simply put, in no other industry does the
government condition mergers and acquisitions on the
maintenance of eight independent competitors in a market. Indeed, under modem antitrust principles, the government does not impose any rigid screen at all.41
For this reason, economists Kevin Caves and Hal
Singer have concluded that the eight-voices test “does
not constitute a reliable competitive screening device.
Instead, [it] imposes a presumption of anticompetitive
effects over transactions that would not justify such
a presumption under standard antitrust practice. [It]

Kevin W. Caves and Hal J. Singer, An Economic Analysis of the
FCC’s Eight Voices Rule, at 9-16 (July 19, 2016) (Caves & Singer
Study), attached to Letter from Rick Kaplan, General Counsel and
Executive Vice President, and Jerianne Timmerman, Senior Vice
President and Deputy General Counsel, NAB, to Marlene H. Dortch,
Secretary, FCC, MB Docket Nos. 14-50, 09-182 (July 19, 2016).
39
See Caves & Singer Study at 12, 14.
40
See id. at 14.
41
See id. at 13. Rather, the starting point for merger analysis is
the Herfindahl-Hirschman Index (HHI), which is used to assess how
much individualized scrutiny a transaction requires.
38

554
compounds this error by making its presumption impossible to overturn, regardless of evidence of procompetitive merger-driven efficiencies.”42
Caves and Singer’s analysis of advertising prices in
all local television markets bears out their conclusion.43
Controlling for other factors, they found no statistically
meaningful difference between advertising rates in markets with eight or more independently owned and operated television stations and advertising rates in markets
with fewer voices.44 Moreover, their econometric analysis demonstrated that reducing the number of voices in
a market has the impact of lowering advertising rates
rather than raising them, and that this effect holds true
whether or not there are fewer than eight voices in a
market. 45 Specifically, in markets with fewer than
eight voices, local advertising rates are expected to fall
by 2.9% with each decrease in the voice count. And in
markets with eight or more voices, such rates are expected to fall by 2.4% with each decrease in the voice
count.46
These findings are fatal to the eight-voices test.
First, they demonstrate that there is no meaningful
competitive difference between markets with fewer than
eight voices and those with eight or more. In each type
of market, the response to the reduction in the voice
count is similar; advertising rates are statistically the

42
43
44
45
46

See id. at 15-16.
See id. at 21-28.
See id. at 24-26.
See id. at 26-28.
See id. at 28.

555
same controlling for other factors. There is no significance to maintaining eight independently owned and operated stations in a market. Thus, that number is entirely arbitrary.
Second, the Caves and Singer findings demonstrate
that reducing the voice count by one in a market with
fewer than eight voices leads to a more competitive market, not a less competitive one. As reviewed above,
when the voice count is reduced by one in such markets,
advertising prices fall, not rise, in a statistically significant way.47

Unable to formulate a substantive response to the Caves &
Singer Study, the Commission refuses to consider it, claiming that it
was submitted too late. See Order at note 147. But this study merely
provides additional empirical support for arguments that the National Association of Broadcasters (NAB) has advanced throughout
the 2010 and 2014 Quadrennial Reviews. See, e.g., NAB FNRPM
Comments at 39, 55 (arguing that the eight-voices test is “arbitrary”
and “makes no sense”). As such, the Commission may not simply
disregard it, and the authority that the Order relies upon for doing
so is inapposite. In Verizon v. FCC, 770 F.3d 961, 968 (D.C. Cir.
2014), for example, the D.C. Circuit said that the Commission was
not obliged to consider a late-filed proposal for partial forbearance.
Here, however, the Caves & Singer Study and NAB’s accompanying
ex parte letter advanced no new proposal. Rather, they provided
support for the NAB’s longstanding proposal in this proceeding for
the FCC to eliminate the eight-voices test. Similarly, in Globalstar,
Inc. v. FCC, 564 F.3d 476, 484 (D.C. Cir. 2009), the D.C. Circuit ruled
that a party had not provided the Commission with a fair opportunity
to pass upon an argument by raising it the day an order had been
adopted. That case, however, deal with an entirely new claim of inadequate notice. Here, by contrast, NAB merely submitted additional support for a claim that it has advanced for years during this
proceeding. Moreover, the Caves & Singer Study was submitted
weeks before this Order was adopted, not the day of adoption.
47

556
Another indication that the eight-voices test impedes
competition and localism in the video marketplace is the
mass of record evidence showing that common ownership of television stations in local television markets
leads to more local news and information programming.48
According to the Commission, “[t]he data demonstrate
that the duopolies permitted subject to the restrictions
of the current rule have created tangible public interest
benefits for viewers in local television markets that offset any potential harms associated with common ownership. Such benefits include substantial operating effi-

While the Commission notes that UCC cites rule 1.415(d) (“No additional comments may be filed unless specifically requested or authorized by the Commission”) in opposing consideration of the Caves
& Singer Study, see Order at note 147 (citing 47 C.F.R. § 1.1415(d)),
the note to that rule specifically provides that in some rulemaking
proceedings, “interested persons may also communicate with the
Commission and its staff on an ex parte basis, provided that certain
procedures are followed.” In this proceeding, ex parte communications were specifically allowed by the Commission. See 2014 Quadrennial Review Notice, 29 FCC Rcd at 4546, para. 378. Indeed, this
Order is replete with references to ex parte communications. See,
e.g., Order at note 204. Moreover, NAB indisputably complied with
all relevant procedures in submitting the Caves & Singer Study.
Finally, it is important to recognize that the Commission frequently
accepts and relies upon data and studies that it receives shortly before an order is adopted. See, e.g., Amendment of Part 15 of the
Commission’s Rules for Unlicensed Operations in the Television
Bands, Repurposed 600 MHz Band, 600 MHz Guard Bands and
Duplex Gap, and Channel 37 et al., ET Docket No. 14-165, Report
and Order, 30 FCC Rcd 9551, 9636, 9639, nn.523, 539 (2015) (citing
and relying upon a 128-page technical study and a 16-page technical
study that had been submitted to the Commission as an ex parte filing seventeen days before the Order’s adoption).
48
See, e.g., Order at note 86.

557
ciencies, which potentially allow a local broadcast station to invest more resources in news or other public interest programming that meets the needs of its local
community.”49 In other words, common ownership increases competition and localism by creating stronger,
better-funded competitors.
But the eight-voices test denies those benefits produced by common ownership to viewers in most of our
nation’s television markets. And those markets are the
ones where the efficiencies of common ownership can
yield the greatest benefits: smaller markets where advertising dollars (typically the source of funding for local programming) are scarce.
In contrast, the Order’s justification for maintaining
the eight-voices test is utterly devoid of factual support.
Indeed, all the Commission can muster in support of the
eight-voices test is two paragraphs of unsupported assertions. In the first, the Order says:
Nearly every market with eight or more full-power
television stations—absent a waiver of the Local Television Ownership Rule or unique circumstances—
continues to be served by each of the Big Four networks and at least four independent competitors unaffiliated with a Big Four network. Competition
among these independently owned stations serves an
important function by motivating both the major network stations and the independent stations to improve their programming, including increased local
news and public interest programming. This competition is especially valuable during the parts of the
day in which local broadcast stations do not transmit
49

Order at para. 38.

558
the programming of affiliated broadcast networks
and rely on local content uniquely relevant to the stations’ communities.50
Let’s unpack this. The Commission begins by arguing that competition between stations affiliated with the
Big Four networks and at least four independent competitors unaffiliated with a Big Four network “serves an
important function by motivating both the major network stations and the independent stations to improve
their programming, including increased local news and
public interest programming.” 51 But what evidence
does the Commission cite to support this proposition?
What evidence does it marshal to show that the presence
of stations unaffiliated with a Big Four network improves the quality of programming in a television market? What evidence does it produce to show that such
independent stations lead to increased local news and
public interest programming? The answer to each of
these questions is the same: None.52
And even if the Commission were able to offer some
evidence to back up its assertions, the question would
then become: Why is it important to have at least four
independent competitors unaffiliated with a Big Four
network in a market? Why wouldn’t two or three suffice? Or, on the other hand, why not five or six? The
Order at para. 56 (footnotes and citations omitted).
Id.
52
Neither does the Order offer any explanation for why stations
unaffiliated with a Big Four network play a distinct competitive role
in the marketplace than those affiliated with a Big Four network.
Many of these stations, after all, are not independent stations. Rather, they are affiliated with a national network, such as the CW or
Univision.
50
51

559
Order makes a feeble attempt to address those questions in its next paragraph:
We continue to believe the minimum threshold maintained by the eight-voices test helps to ensure robust
competition among local television stations in the
markets where common ownership is permitted under the rule. The eight-voices test increases the
likelihood that markets with common ownership will
continue to be served by stations affiliated with each
of the Big Four networks as well as at least four independently owned and operated stations unaffiliated with these major networks. Also, because a
significant gap in audience share persists between
the top-four stations in a market and the remaining
stations in most markets—demonstrating the dominant position of the top-four-rated stations in the
market—we continue to believe that it is appropriate
to retain the eight-voices test, which helps to promote
at least four independent competitors for the top-four
stations before common ownership is allowed. Accordingly, we retain the eight-voices test.53
This explanation brings to mind the classic Peggy
Lee song: Is That All There Is?
To be sure, I agree that the eight-voices test “increases the likelihood that markets with common ownership will continue be served by stations affiliated with
each of the Big Four networks as well as at least four
independently owned and operated stations unaffiliated
with these major networks.”54 But again, the key ques-

53
54

Order at para. 57 (footnotes and citations omitted).
Id.

560
tion is: Why is it important to have “four independently owned and operated stations unaffiliated with
these major networks?” The only justification the
Commission provides is the assertion that “a significant
gap in audience share persists between the top-four stations in a market and the remaining stations in most
markets.” 55 But even assuming that to be true, how
does this justify the choice of maintaining “four independently owned and operated stations unaffiliated with
the major networks,” as opposed to two, three, five, or
six? The Order offers no explanation, cites no evidence, and refers to no economic theory. It appears
that the number four, and thus the eight in the “eightvoices test,” was plucked out of thin air. Moreover, if
there is a significant gap in audience share between the
top-four stations and the other stations in a market,
wouldn’t that suggest common ownership of non-top
four stations would be pro-competitive, insofar as it
would allow for stronger competitors to the top-four stations to emerge?
But it gets even worse. The Commission readopts
the restrictions on joint sales agreements (JSAs) that
were vacated by the Third Circuit in Prometheus III—
restrictions which have the practical effect of tightening
the Local Television Ownership Rule. The Commission provides little new analysis to justify these limits.
Rather, it “incorporate[s] by reference the rationale articulated” in its 2014 Order.56 As such, rather than repeat at length the arguments that I advanced against
the Commission’s JSA decision two years ago, I similarly incorporate by reference the relevant portions of
55
56

Id.
Order at para. 62.

561
my 2014 dissenting statement.57
emphasizing three points.

However, it is worth

First, just as the Commission is unable to point to
any evidence to justify retaining the eight-voices test,
neither is it able to cite any evidence supporting its decision to readopt JSA restrictions. Back in 2014, the
Commission based its decision on its hypothesis that a
JSA allows one station to exert undue influence over another station’s programming decision and operations.
But as I pointed out at the time, the Commission couldn’t
come up with “a single example of a station in a JSA exercising undue influence over another station.” 58 Indeed, it couldn’t round up “a single instance where a JSA
has allowed one station to influence a single programming decision of another station.”59
Flash forward two years. Despite the fact that numerous television stations across the country have participated in JSAs for many years, the Commission still
cannot find a single case in which one station in a JSA
has exercised undue influence over another station or
influenced a single programming decision of another
station. The Commission’s JSA analysis remains unjustified jabberwocky.
Second, in my 2014 dissenting statement, I reviewed
at length all of the public interest benefits that have
been produced by JSAs.60 In this Order, the Commission does not contest any of those benefits. Instead, it
2014 Quadrennial Review Notice, 29 FCC Rcd at 4590-95, 459799 (Dissenting Statement of Commissioner Ajit Pai).
58
Id. at 4597.
59
Id. (emphasis in original).
60
See id. at 4592-95.
57

562
claims that “[t]he arguments that television JSAs should
not be attributed because they produce public interest
benefits are essentially indistinguishable from arguments that the ownership limits should be relaxed because common ownership produces public interest benefits. We acknowledge and address these arguments
throughout; however, we ultimately determine that the
Local Television Ownership Rule should be retained
with a minor modification to the contour standard.”61
But here’s the problem with that evasion. Maintaining the status quo with respect to JSAs is not the equivalent of relaxing the Local Television Ownership Rule.
Rather, as the Third Circuit recognized, “[a]ttribution
of television JSAs modifies the Commission’s ownership
rules by making them more stringent.” 62 And the
Commission’s JSA decision here does not contain any
rationale whatsoever for why the local television ownership rule should be tightened. In fact, it concludes that
the benefits of making the rule more stringent are outweighed by the harms of taking that step.63
So on one side of the ledger, we have uncontested evidence of the public interest benefits yielded by JSAs.
And on the other side of the ledger, the Commission
points to no evidence of any corresponding harms and
does not advance any argument for why the Local Television Ownership Rule should be made any stricter.
Yet, it does just that. This deliberate refusal to make
a “rational connection between the facts found and the

61
62
63

Order at note 176.
Prometheus III, 824 F.3d at 58.
See Order at para. 38.

563
choice made” defines arbitrary and capricious decisionmaking.64
Third, the decision to attribute television JSAs is
fundamentally inconsistent with the Commission’s other
recent attribution decisions.65 Consider, for example,
last year’s repeal of the attributable material relationship (AMR) rule in the context of wireless spectrum.
The AMR rule used to require that the revenues of any
company leasing or reselling more than 25% of the spectrum capacity of a small business’s wireless license must
be attributed to that small business. In 2015, however,
the same Commission majority as here concluded that the
AMR rule was “overbroad” and “we no longer need[ed] a
bright-line, across-the-board, attribution rule to ensure
that a small business makes independent decisions about
its business operations.”66 This followed a 2014 decision
where the same Commission majority as here waived
the AMR rule for a private equity firm that leased 100%
of its spectrum capacity to our nation’s two largest wireless carriers. There, the Commission reasoned that
the firm in question would not necessarily be “unduly
influence[d]” by the wireless carriers leasing all of their
Prometheus III, 824 F.3d at 40 (quoting Motor Vehicle Manufacturers Association of the United States, Inc. v. State Farm Mutual Automobile Insurance Co., 463 U.S. 29, 43 (1983).
65
See Letter from Rick Kaplan, General Counsel and Executive
Vice President, and Jeannine Timmerman, Deputy General Counsel
and Senior Vice President, NAB, to Marlene H. Dortch, Secretary,
FCC, MB Docket Nos. 14-50, 09-182, at 2-3 (July 29, 2016).
66
Updating Part 1 Competitive Bidding Rules et al., WT Docket
Nos. 14-170 et al., Report and Order, Order on Reconsideration of
the First Report and Order, Third Order on Reconsideration of the
Second Report and Order, Third Report and Order, 30 FCC Rcd
7493, 7504, para. 21 (2015).
64

564
spectrum capacity because of the firm’s representation
that the “agreements at issue did not confer any” such
influence.67
So here is where we are today. Under the Commission’s rules, a small business can lease 100% of its spectrum capacity to a Fortune 50 wireless carrier—that is,
engage in pure, profitable arbitrage—without any attribution requirement being triggered. Yet, as a result
of today’s Order, attribution will automatically kick in
whenever one television station sells more than 15% of
another television station’s advertising time.
How does this make any sense? The Commission
purports to attribute television JSAs because selling
16% of a station’s advertising inventory gives licensees
“the opportunity, ability, and incentive to exert significant influence over the brokered station.” 68 Yet, one
company leasing all of another company’s spectrum
does not give rise to the same concerns regarding undue
influence? A company depending upon a 100% spectrum lease is plainly more subject to undue influence
than a television station that agrees to let another station sell 16% of its advertising. However, the Order offers no reason why the latter relationship, but not the
former, triggers an attribution requirement. As I’ve
written before in commenting upon the 2014 waiver of

Grain Management, LLC’s Request for Clarification or Waiver
of Section 1.2110(b)(3)(iv)(A) of the Commission’s Rules et al., WT
Docket Nos. 05-211 et al., Order, 29 FCC Rcd 9080, 9084-85, paras.
13-14 (2014) (Grain Waiver Order).
68
2014 Quadrennial Review Notice, 29 FCC Rcd at 4527, para.
340.
67

565
the AMR rule, “A foolish consistency may be the hobgoblin of little minds, but a deliberate inconsistency is
the ogre of arbitrariness.”69
III.
The Commission spends almost 50 pages discussing
the issue of ownership diversity in this Order. That’s
certainly a lot of talk. But what concrete action does
this Commission take to advance diversity in the Order?
One thing: It reinstates the very same “eligible entity”
definition that the Third Circuit rejected five years ago.
To describe this decision is to discredit it.
During my time at the Commission, I have made it a
priority to encourage greater diversity in the broadcast
industry. Each summer, for example, I meet with those
participating in the Broadcast Leadership Training
(BLT) Program, run by the National Association of Broadcasters Education Foundation. The BLT program educates a diverse group of executives who aspire to be
station owners or managers by exposing them to “the
fundamentals of purchasing, owning, and running a successful operation of radio and television stations.70 Each
time, I come away inspired by their spirit and optimistic
about the future of broadcasting. These sessions also
reinforce my determination to do what I can at the FCC
to expand opportunities in the industry.

Grain Waiver Order, 29 FCC Rcd at 9091 (Dissenting Statement of Commissioner Ajit Pai).
70
See National Association of Broadcasters Education Foundation, Broadcast Leadership Training, http://nabef.org/blit/default.
asp (last visited Aug. 18, 2016).
69

566
Occasionally, I have been successful. For example,
the progress that the FCC has been able to make in revitalizing AM radio, the nation’s most diverse broadcast
service, has been a big step forward. But too often, the
Commission has fallen short. The FCC’s leadership
has prioritized setting aside spectrum for unlicensed operations in the post-auction television band over saving
low-power television stations that often serve minority
communities. It has allowed the Advisory Committee
for Diversity in the Digital Age to lay dormant. And in
this Order, it falls short once again.
I am particularly disappointed that the Commission
refuses once again to adopt an incubator program, which
would allow established broadcasters to provide financing and other forms of assistance to new entrants looking to break into the broadcasting business. This proposal
enjoys the support of civil rights organizations, including
the National Urban League, LULAC, the Rainbow/PUSH
Coalition, the National Council of La Raza, the Minority
Media and Telecommunications Council, and the Asian
American Justice Center.71 It enjoys the support of industry. 72 One would think that moving forward with
this initiative would be a no-brainer.
The Commission claims that an incubator program
would be too difficult to administer and consume too
many staff resources.73 But it is difficult to take that
argument seriously. When the FCC’s leadership thinks
See, e.g., Initial Comments of the Diversity and Competition
Supporters in Response to the Third Further Notice of Proposed
Rulemaking, MB Docket No. 07-294, at 19-21 (July 30, 2008).
72
See, e.g., NAB FNPRM Comments at 92-93; NAA FNRPM
Comments at 15.
73
See Order at paras. 319-21.
71

567
that an issue is important, it is more than willing to
adopt regulations that are difficult to administer and
consume an enormous amount of staff resources, far
more than any incubation program would. Moreover,
as detailed in the Order itself,74 the Commission has expended a lot of staff resources studying the broadcast
diversity issue. If we think that diversity is important,
why not spend less time researching the issue and more
time actually doing something to make things better?
In my view, the real reason why the Commission refuses to adopt an incubator program is ideological in nature. In order to incentivize broadcasters to incubate
a new entrant, the FCC would allow participating broadcasters to own one more radio station in a market than
they otherwise could under the local ownership rule. A
small number oppose this because they fear that this
slight and targeted relaxation of our ownership rules
would promote concentration in the radio industry.
But my response to them is simple. The benefits of incubating a new voice in a market would far outweigh any
such harm, especially since an incubator is likely to be
most valuable in small-town markets where finding
broadcast spectrum is easy but the economics of the
broadcast business are hard.
*

*

*

As we bring our 2010 Quadrennial Review to an end,
it is worth stepping back and looking at the FCC’s actions over the past few years from a broader perspective. In the many years in which the 2010 Quadrennial
Review has been pending, the Commission has approved
74

See Order at paras. 246-70.

568
the $13.8 billion purchase by our nation’s largest cable
operator (Comcast) of one of our nation’s top four broadcast networks (NBC). It has signed off on the $49 billion merger of our nation’s second and fifth largest multichannel video programming distributors (AT&T and
DIRECTV). And it has blessed a single $79 billion
transaction combining our nation’s second, third, and
sixth largest cable providers (Charter, Time Warner
Cable, and Bright House).
Yet today, after many years of delay and “deliberation,” the FCC tells us the prospect of a newspaper purchasing a single television or radio station for relative
pocket change still shocks the conscience? One television station selling more than 15% of another’s advertising inventory in order to cut costs is a dire threat to competition? A program to incubate diverse voices in the
broadcast industry is a bridge too far because it would
allow some companies to own an additional radio station
in a market? It makes no sense at all.
Soon, I expect outside parties to deliver us to the denouement: a decisive round of judicial review. I hope
that the court that reviews this sad and total abdication
of the administrative function finds, once and for all,
that our media ownership rules can no longer stay stuck
in the 1970s consistent with the Administrative Procedure Act, the Communications Act, and common sense.
The regulations discussed above are as timely as “rabbit
ears,” and it’s about time they go the way of those relics
of the broadcast world. I am hopeful that the intervention of the judicial branch will bring us into the digital
age.
For all of these reasons, I dissent.

569
DISSENTING STATEMENT OF
COMMISSIONER MICHAEL O’RIELLY

Re:

2014 Quadrennial Regulatory Review—Review of
the Commission’s Broadcast Ownership Rules
and Other Rules Adopted Pursuant to Section 202
of the Telecommunications Act of 1996, MB
Docket No. 14-50; 2010 Quadrennial Regulatory
Review—Review of the Commission’s Broadcast
Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications
Act of 1996, MB Docket No. 09-182; Promoting
Diversification of Ownership in the Broadcasting
Services, MB Docket No. 07-294; Rules and Policies Concerning Attribution of Joint Sales Agreements in Local Television Markets, MB Docket
No. 04-256.

The Commission’s role with regard to the Quadrennial Review is quite straightforward. While I strongly
disagree with parameters set by past precedent—such
as the idea that the pendulum can swing in both deregulatory and regulatory directions, or the misinterpretation of the word “necessary” contained in the law—we
still are obligated to review the media landscape and determine whether each of our media ownership rules is
“necessary in the public interest as the result of competition.”1 I still believe that the Commission can—and
must—thoughtfully update our ownership rules while
preserving competition, localism, and diversity. For
numerous reasons, however, the Commission has failed
to comply with Congress’ directive for almost a decade.
Telecommunications Act of 1996, P.L. 104-104, §202(h), 110
Stat. 56, 111-12 (1996).
1

570
And yet, we were told by the Chairman almost two years
ago that this time would be different.2 The end result,
as represented in this item, is more of the same obfuscation, ignorance, hyper-partisanship and defiance as
before.
Prodded at long last by court order into completing
the statutorily-mandated Quadrennial Review, the Commission has managed to produce a thoroughly objectionable document divorced from the realities of today’s media marketplace. Social media giants, online news sites,
over-the-top video content, traditional pay TV, and many
other media sources are eating away at the audiences of
broadcasters and newspapers by the day. Congress
anticipated this type of upheaval in the dynamic media
environment, and designed the Quadrennial Review requirement to address it by forcing us to adjust our media ownership rules in response. However, it seems
that to my colleagues, all evidence of the myriad new
challenges to the past dominance of newspapers and
broadcasters serves merely as fodder for interesting
gee-whiz anecdotes to be trotted out, never as a prompt
for any responsive action by the Commission.
Incredibly, the only significant changes this Commission is willing to make are those that serve to render
current media ownership rules, last effectively amended
in 1999, even more restrictive. While grudgingly allowing for Congress’ damage-minimizing directive to
grandfather existing Joint Service Agreements (JSAs),
the Order reinstalls the Commission’s 2014 JSA attribution rule, ignoring the evidence that JSAs have served

2

See FNPRM, 29 FCC Rcd at 4582.

571
the public interest well in many circumstances, and narrowing the options for broadcasters attempting to
stretch scarce resources.3 And the Order doubles down
on this punitive stance by requiring disclosure of Shared
Service Agreements (SSAs) as a waystation en route to
a promised proceeding regarding SSA attribution.4
Those are the only real modifications this Commission approves for media ownership rules that in some
cases date back to the 1960’s. No proposal to loosen or
eliminate any rule, including proposals made by this
same majority in the 2014 FNPRM to eliminate the restrictions on newspaper/radio and radio/television combinations, made the cut. These cross-ownership bans
create artificial silos that are preventing broadcasters
and newspapers from competing with new entrants and
serving the needs of consumers. With newspapers, in
particular, facing well-documented struggles and in some
instances, fighting for their very survival, eliminating
the cross-ownership bans might provide some with muchneeded relief in the form of committed and knowledgeable investors. But it seems my colleagues would rather
throw the newspaper industry to the wolves than consider so much as a tweak to their article of faith that media ownership rules are forever. And the new exception for failed or failing newspapers is an obvious procedural cover rather than a potential means of any relief,
as it is highly unlikely that anyone will want to partner

3
4

Supra para. 62.
Supra paras. 338, 377.

572
with a company that is in such distress.5
too late.

By then, it’s

The Commission also insists on maintaining the television duopoly rule, a restriction on ownership of two
television stations in the same market, that may have
made sense at its origin in 1964 when consumers’ video
options were limited to a few broadcast networks via
rabbit ears. To say it is still needed in an era of literally hundreds of competitive pay TV channels and essentially unlimited competitive Internet content defies belief. And keeping this rule ensures that several other
equally anachronistic regulatory artifacts will make it to
the year 2020 intact, such as the “Eight Voices Test.”
This condition for duopoly ownership was previously
struck down by the D.C. Circuit in 2002,6 and a previous
Commission concluded that it could not be justified. 7
Fourteen years later, it makes even less sense. Why
should the arbitrary number of eight stations be needed
in order for a market to be considered competitive?
Why has this number never changed despite the changes

Supra para. 174. Specifically, a “failed” newspaper must show
that it “had stopped circulating . . . due to financial distress for
at least four months immediately prior to the filing of the assignment
or transfer of control application, or that it was involved in courtsupervised involuntary bankruptcy or involuntary insolvency proceedings.” A “failing” newspaper would need to show a negative
cash flow for the previous three years, and in addition that “the inmarket buyer is the only reasonably available candidate willing and
able to acquire and operate the failed or failing newspaper . . .
and that selling the newspaper . . . to any out-of-market buyer
would result in an artificially depressed price.”
6
Sinclair, 284 F.3d at 165.
7
2002 Biennial Review Order, 18 FCC Rcd at 13671.
5

573
in the media landscape? More than half of U.S. markets do not have—and cannot support—eight independently owned stations, 8 so potentially pro-competitive
combinations that would benefit stations, and their
viewers, cannot even be considered in most of the country.
The Commission’s multiple errors stem from its indefensible failure to acknowledge any non-broadcast or
non-newspaper competitors as market participants in
any context. As the Order asserts, “[t]raditional media
outlets . . . are still of vital importance to their local
communities and essential to achieving the Commission’s goals of competition, localism, and viewpoint diversity.”9 But it is possible to agree to this sentiment
while also realistically assessing and acknowledging the
impact of new media on the marketplace. In a recent
Pew Research Center study focusing on the flow of local
news in three U.S. markets, between 45 and 33 percent
of residents stated that the internet is very important in
keeping up with local news, while about 10 percent went
so far as to say that social media are the most important
way they get local news. 10 And while it is true that
some online news sources have a relationship with legacy print or TV players, 25 out of the 143 identified local
news providers in one of the markets studied, Denver,

Letter from Rick Kaplan, NAB to Marlene Dortch, FCC, MB
Docket Nos. 14-50, 09-182 (filed July 19, 2016) https://ecfsapi.fcc.gov/
file/1071905276260/OwnershipExParte8VoicesStudy071916nm.pdf.
9
Supra para. 1.
10
Pew Research Center, Local News in a Digital Age (March 5,
2015), http://www.journalism.org/2015/03/05/local-news-in-a-digitalage/.
8

574
were pure digital-only outlets.11 The digital media future is here. And it is, of course, having a tangible impact on local markets:
Taken together, the data illustrate that when it comes
to news ecologies, the greater digital orientation and
array of providers in Denver widen the local news
system somewhat with less reliance on the major legacy providers, especially the local newspaper, and a
greater mix of coverage more often driven by enterprising work from journalists.12
Further, to the extent that social media may have
once predominantly used traditional media links in timeline updates, tweets and the like, that practice has changed
significantly. Online media platforms have become much
more news first environments as crowdsourcing users
often post faster and more accurately than traditional
media sources. In reality, consumers are more likely
to learn about the latest Michael Phelps gold medal at
the Rio Olympics on a Twitter feed than to wait for an
update to a sports or news website or to see the local ten
p.m. newscast.
While the evolution of the legacy media world is clearly
far from complete, the Commission’s duty is to respond
to the obvious and far-reaching changes that Americans,
and our legacy media, are living under today. However, while “recogniz[ing] that broadband Internet and
other technological advances have changed the ways in
which many consumers access entertainment, news and
information programming,” 13 the Commission fails to
11
12
13

Id.
Id.
Supra para 1.

575
reflect that recognition by changing a single one of its
media ownership rules, thus missing the entire point of
the Quadrennial Review exercise. What good does it
do for the Commission to “recognize” the full 2016 media
landscape if it does absolutely nothing in response?
With many news stories being broken over social media
or news websites already this year, it is hard to imagine
what it would take for reality set in and convince this
Commission to budge, absent a court mandate or change
in law.
One reason provided for inaction on the media ownership rules involving television is that the Commission
is in the midst of the broadcast spectrum incentive auction, creating uncertainty for the future of the media
marketplace.14 This excuse rings extremely hollow when
considering that despite Congress’ full knowledge of
section 202(h), it declined to include an exemption or delay of the Quadrennial Review when it crafted and enacted the incentive auction legislation. As I have previously argued, this Commission can’t read an exemption in the law where one does not exist. Does the ongoing incentive auction make our job more complex?
Perhaps, but not impossible. Thus, no weight should
be given to this weak and misapplied argument.
In a disturbing echo of process fouls past, the Chairman chose to continue his practice of only approving an
item if the majority party commissioners are in unison.
Clearly, there were at least three votes, and perhaps

See Fact Sheet: Updating Media Ownership Rules in the Public
Interest (June 27, 2016), https://apps.fcc.gov/edocs_public/attachmatch/
DOC-340033A1.pdf.
14

576
four, for eliminating the cross-ownership rules, especially the newspaper/radio prohibition. But that wasn’t
good enough. The fact that one Democratic member
objected effectively meant that no changes were permitted. This blatant political move should be seen for
what it is. In some regards, it is hard to be surprised
at this approach in the current political atmosphere in
Washington D.C., except that is not how an “independent” Commission should operate. How can any claimed
attempt at consensus-building be taken seriously when
the consensus supposedly sought can and will be so easily set aside?
In retrospect, the biggest problem with the Quadrennial Review that Congress likely couldn’t anticipate was
that those seeking to maintain the status quo could continuously “win” through Commission intransigence and
court remands. In fact, the more flawed the item is,
the more likely the court can be used as an instrument
of delay. More specifically, court review of the Commission’s work in this area has served as just another
tool of the public “interest” groups seeking to prevent
any modernization of our rules. By remanding the
item back to the Commission to comply with some objective, the court merely extends the life of all the media
ownership rules—a total victory for the forces of inertia.
In short, rarely have I seen a proceeding take so long
and a document say so much in order to accomplish
nothing of value. I dissent.

577
BEFORE THE
FEDERAL COMMUNICATIONS COMMISSION
WASHINGTON, D.C. 20554

MB Docket No. 17-289
IN THE MATTER OF RULES AND POLICIES TO PROMOTE
NEW ENTRY AND OWNERSHIP DIVERSITY IN THE
BROADCASTING SERVICES
Adopted: Aug. 2, 2018
Released: Aug. 3, 2018
REPORT AND ORDER

By the Commission: Chairman Pai and Commissioners O’Rielly and Carr issuing separate statements; Commissioner Roseworcel dissenting and issuing a statement.
TABLE OF CONTENTS

Heading
I.
II.
III.
IV.

Paragraph#

INTRODUCTION .......................................................... 1
BACKGROUND ............................................................. 2
OVERVIEW OF INCUBATOR PROGRAM .............. 6
DISCUSSION—INCUBATOR PROGRAM ............. 11
A. Services Eligible for Incubator Program ............... 11
B. Defining Entities Eligible for Incubation............... 16
C. Qualifying Incubation Relationships ..................... 35
D. Benefit to Incubating Entity ................................... 57
E. Procedures for Filing, Reviewing, and
Monitoring Compliance of Incubation
Relationships .............................................................. 74

578

V.
VI.

1. Bureau Review of Incubation Proposals........ 76
2. Compliance During Term of Incubation
Relationship ...................................................... 84
3. Final Bureau Review and Grant of
Reward Waiver to Incubator .......................... 86
PROCEDURAL MATTERS ........................................ 89
ORDERING CLAUSES ............................................... 92

APPENDIX—Final Regulatory Flexibility Analysis
I.

INTRODUCTION

1.
With this Report and Order, we establish the
requirements that will govern the incubator program
that the Commission previously decided to adopt to support the entry of new and diverse voices into the broadcast industry.1 Last year, the Commission decided to
adopt an incubator program with the goal of creating
ownership opportunities for new entrants and small
businesses, thereby promoting competition and diversity in the broadcast industry. We recognize the need
for more innovative approaches to encourage access to
capital, as well as technical, operational, and management training, for those new entrants and small businesses that, without assistance, would not be able to own
broadcast stations. Thus, the incubator program is designed with those specific entities in mind—small businesses, struggling station owners, and new entrants that
do not have any other means to access the financial assistance and operational support the incubator program
See 2014 Quadrennial Review—Review of the Commission’s
Broadcast Ownership Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of 1996 et al., Order on
Reconsideration and Notice of Proposed Rulemaking, 32 FCC Rcd
9802, 9859, para. 126 (2017) (Order on Reconsideration and NPRM).
1

579
seeks to provide. In keeping with that goal, the program requirements we adopt today will enable the pairing of small aspiring, or struggling, broadcast station
owners with established broadcasters. These incubation relationships will provide new entrants and struggling small broadcasters access to the financing, mentoring, and industry connections that are necessary for
success in the industry but to date have been unavailable
to many.
II.

BACKGROUND

2.
The Commission has long contemplated the potential for an incubator program to provide new sources
of capital and support to entities that may otherwise
lack access to financing or operational experience.2 In
concept, an incubator program seeks to provide an established broadcaster with an inducement in the form of
an ownership rule waiver or similar benefit to invest the
time, money, and resources needed to facilitate broadcast station ownership by new and diverse entrants.
An incubator program contemplates that, in exchange
for a defined benefit, an established company could assist a new owner by providing “management or technical
assistance, loan guarantees, direct financial assistance
through loans or equity investments, training, or business planning assistance.”3
3.
Although the concept of an incubator program
has been discussed since at least the early 1990s4 and
has received general support, the Commission had never

2
3
4

NPRM, 32 FCC Rcd at 9859, para. 127.
Id.
Id. at 9859, para. 128.

580
undertaken the creation of such a program, and explicitly declined to adopt a program as part of its 2010/2014
Quadrennial Media Ownership Review.5 In late 2017,
however, the Commission reconsidered that determination and at long last decided to adopt an incubator program to help address the lack of access to capital and
technical expertise faced by potential new entrants and
small businesses. 6 While the Commission committed
to initiating an incubator program, it desired further input regarding how best to structure and implement a
comprehensive program in light of current market and
regulatory conditions.7 Accordingly, the NPRM sought
comment on eligibility criteria for the incubated entity;
appropriate incubating activities; potential benefits to

2014 Quadrennial Review—Review of the Commission’s
Broadcast Ownership Rules and Other Rules Adopted Pursuant
to Section 202 of the Telecommunications Act of 1996 et al., Second
Report and Order, 31 FCC Rcd 9864, 10001-02, paras. 319-21 (2016)
(Second Report and Order) (declining to adopt an incubator program for a variety of reasons, including lack of a sufficient record);
see also Order on Reconsideration, 32 FCC Rcd at 9857, nn.35758. The Commission had previously adopted a filing preference
for an applicant seeking Commission consent to the formation of a
television station duopoly if the applicant had funded or incubated
an eligible entity (as defined by the FCC’s revenue-based standard). Order on Reconsideration and NPRM, 32 FCC Rcd at 9857,
9859, nn.357-58, 370. This filing preference was rarely, if ever,
used, in part because “the Commission did not provide details regarding the structure and operations of the incubation activities.”
Id. at 9857 n.358.
6
Order on Reconsideration, 32 FCC Rcd at 9858, para. 124.
7
Id.
5

581
the incubating entity; how such a program would be reviewed, monitored, and enforced; and the attendant
costs and benefits created.8
4.
The record developed in this proceeding presents a range of thoughtful suggestions and recommendations for the incubator program. We are particularly grateful to the Commission’s Advisory Committee
on Diversity and Digital Empowerment (ACDDE) for
the group’s extensive consideration of the incubator program and the elements that should define it. The ACDDE working group members devoted many hours to
meetings and review of empirical data before making
recommendations to the full committee on how to structure the incubator program.9 The resulting extensive
comments provided invaluable research and proposals
that the Commission has carefully considered.
5.
With this Report and Order, we implement a
long overdue mechanism to address the primary barriers to station ownership by new and diverse entities:
lack of access to capital and the need for technical and
operational experience. In implementing this program,
our expectation is that each successful incubation relationship will result in the acquisition of a broadcast radio
NPRM, 32 FCC Rcd at 9861, para. 130.
The Broadcast Diversity and Development Working Group of the
ACDDE specifically considered the Incubator NPRM and drafted
the comments for review and adoption by the full advisory committee. See FCC Announces Agenda for March 27, 2018 Meeting of the
Advisory Committee on Diversity and Digital Empowerment, Public Notice, 33 FCC Rcd 2236 (2018); Comments of Federal Communications Commission’s Advisory Committee on Diversity and Digital Empowerment, A Proposal for an Incubator Program, MB Docket
No. 17-289 (filed Apr. 2, 2018) (ACDDE Comments).
8
9

582
station by a new entrant or small business, or the
preservation of an existing, but struggling, small broadcaster. Accordingly, successful implementation of the
incubator program we adopt today will promote ownership diversity by fostering entry into the broadcasting
sector by entrepreneurs and small businesses, including
those owned by women and minorities.
III. OVERVIEW OF INCUBATOR PROGRAM

6.
The Commission expects the incubator program
to support the entry of new and diverse voices in the
broadcasting industry by facilitating broadcast station
ownership for entities with limited financial resources
and operational experience. The program seeks to do
so by pairing together, in a mentoring and supportive
relationship, established broadcasters with either new
entrants to the broadcasting industry or small broadcasters, including struggling station owners. Through
our program, the established broadcasters (i.e., incubating entities) will provide the new entrants or small broadcasters (i.e., incubated entities) with the training, financing, and access to resources that would be otherwise
inaccessible to these entities. At the end of the incubation relationship, the incubated entity will either own a
broadcast station or will retain ownership of a previously struggling station, now set on a firmer footing.
In return for its support, the incubating entity will receive a waiver of the applicable local radio ownership
rule that it can use either in the incubated market or in
a comparable market (as defined below) within three
years of the successful conclusion of a qualifying incubation relationship.
7.
The program we implement today will apply in
the radio market, as radio has traditionally been the more

583
accessible entry point for new entrants and small businesses seeking to enter the broadcasting industry, and
a waiver of the local radio rules provides an appropriate
reward for incubation. Owning and operating a radio
station requires a lower capital investment and less
technical expertise than owning and operating a television station, and it also requires less overhead to operate. In addition, we believe that the Commission’s existing ownership limitations on local radio markets provide a sufficient incentive for incumbent broadcasters to
participate in an incubator program with the promise of
obtaining a waiver to acquire an additional station in a
market. Accordingly, the program we implement today will apply only to incubation relationships in the radio sector.
8.
In establishing the structure of the incubator
program, a significant challenge has been how to identify those new or small broadcasters that would not otherwise be able to enter, or expand in, the broadcasting
sector, and how to encourage established broadcasters
to provide incubated entities with the requisite level of
support. To identify potential incubated entities, we
adopt a two-pronged eligibility standard. In order to
be eligible to be considered for the program, the incubated entity must meet both prongs. The first prong is
a modified version of the Commission’s existing new entrant bidding credit standard, and the second prong derives from the revenue-based eligible entity definition
contained in the Commission’s broadcast rules.10 Under the first prong of our new standard, a potential in-

See 47 CFR § 73.5007(a); infra Section IV.B (defining entities
eligible for incubation).
10

584
cubated entity, including its attributable interest holders, may hold existing attributable interests in no more
than three full-service AM or FM stations and no TV
stations. In addition, pursuant to the second prong,
the potential incubated entity must also qualify as a
small business consistent with the Small Business Administration (SBA) standard for its industry grouping.
9.
With respect to soliciting participation by incumbent station owners, we believe that a waiver of our
Local Radio Ownership Rule (including the AM/FM subcap) is the best incentive to encourage established station owners with the requisite financial means and expertise to assist incubated entities in overcoming the obstacles to independent ownership and operation of a radio station. Thus, if an incumbent broadcaster successfully incubates a new, small entrant as part of the
incubator program, it will be eligible to receive a waiver
of the Local Radio Ownership Rule following the conclusion of the qualifying incubation relationship.11 Such a
waiver can be used for up to three years after the successful completion of the qualifying incubation relationship and must be used in either the incubated market or
a comparable radio market, as defined below. While
we will apply the “good cause” standard contained in
Section 1.3 of our rules in determining whether to grant
any waivers contemplated by our program, there will be
a rebuttable presumption that such a waiver is in the
public interest if the incubation relationship conforms to
Our decision today does not prejudge whether the current Local
Radio Ownership Rule will be maintained or modified as a result of
the Commission’s next quadrennial review of the media ownership
rules. That decision will be based on the record compiled in that
proceeding.
11

585
the elements of the program articulated herein.12 In
addition, to the extent the incubating entity needs a
waiver of the Local Radio Ownership Rule to engage in
a qualifying incubation relationship (for example, if the
incumbent broadcaster is already at the applicable local
radio ownership limit in the market and its investment
in the incubated station would exceed that limit), we will
grant a temporary waiver of the Local Radio Ownership
Rule (including the AM/FM subcap) to allow the incubating entity to acquire an otherwise impermissible noncontrolling, attributable interest in the incubated station for the duration of the qualifying incubation relationship.
10. To qualify for participation in the incubator
program, the parties must seek prior approval from the
Commission that their proposed incubation relationship
comports with the program requirements. The key factors guiding review of incubation proposals will be whether the potential incubated entity would have been able
to obtain the necessary financing and support absent the
proposed incubation relationship; whether the proposal
provides the incubated entity with adequate financing,
training, and support over the course of the incubation
relationship to ensure its success; and whether the incubated entity retains de jure and de facto control over the
station to be incubated. The standard term required
for a qualifying incubation relationship will be three
years, but the relationship may be extended up to an additional three years.13 We discuss the specifics of how
the program will operate further below.

12
13

See 47 CFR § 1.3.
See infra paras. 45-47.

586
IV. DISCUSSION - INCUBATOR PROGRAM
A.

Services Eligible for Incubator Program

11. The incubator program we outline today will apply to full-service AM and FM radio broadcast stations,14
as we find that the radio industry provides the best opportunities for successful incubation relationships and
the best opportunity for an appropriate reward. In the
NPRM, the Commission sought comment on whether its
incubator program should be focused on radio, as the
proposal was initially conceived, or should apply to television as well.15 The NPRM further queried whether
the Commission should adopt a phased approach, whereby
the incubator program would be implemented on a trial
basis in radio and then evaluated for possible expansion
to the television market.16 Based on the record of this
proceeding, we find that the radio market has several
advantages over the television market as an incubation
setting.
12. Perhaps most importantly, the cost of obtaining
a radio station is significantly lower than the cost of obtaining a television station.1717 Indeed, the cost of acquiring a television station is generally many times that
See 47 CFR § 73.14 et seq. (AM broadcast station); id. § 73.310
et seq. (FM Technical Definitions).
15
NPRM, 32 FCC Rcd at 9863, para. 139.
16
Id.
17
See ACDDE Comments at 5, 31, 50 (suggesting that full-service
TV and major market FM stations are “high value” properties and
that acquiring a TV station requires more capital than acquiring a
radio station); see also Letter from DuJuan McCoy, President and
CEO, Bayou City Broadcasting, LLC, to Marlene H. Dortch, Secretary, FCC, MB Docket No. 17-289 et al., at 2, n.2 (filed May 22, 2018)
(“BCB Ex Parte”) (stating that the average sales price for a full14

587
of a radio station. For example, in 2016 the average
sales price of a radio station on the secondary market
was approximately $1 million, and the average price of a
television station was $53 million.1818 Due to their lack
of broadcasting experience and financial collateral, new
entrants and small broadcasters often face significant
difficulties in accessing the capital needed to purchase
broadcast stations in the secondary market or to participate in Commission broadcast auctions for new construction permits.1919 Indeed, the record reveals that ac-

service TV station is over $20 million); Letter from W. Lawrence
Patrick, Managing Partner, Patrick Communications, to Marlene H.
Dortch, Secretary, FCC, MB Docket No. 17-289, at 2 (June 4, 2018)
(“Patrick Communications Ex Parte”) (stating that new entrants today are often looking at deals ranging from $1-3 million for purchasing a single station or at best an AM/FM combination).
18
SNL Kagan, State Summary of 2016 Full Power Radio Station
Sales, S&P Global Market Intelligence, 2018; SNL Kagan, State
Summary of 2016 Full Power Television Station Sales, S&P Global
Market Intelligence, 2018.
19
ACDDE Comments at 2, 19, n.43. The predecessor diversity advisory committee also noted the financial barriers to broadcast ownership: “The current state of financing for media transactions is
dire.” Report and Recommendations of the Funding Acquisition
Task Force of the FCC Federal Advisory Committee on Diversity in
the Digital Age (Dec. 3, 2009), https://www.fcc.gov/diversity-committeeadopted-recommendations. The committee also noted that “the inability to access capital is a primary market entry barrier.” Id.
See also Letter from Diane Sutter, President/CEO, ShootingStar
Inc., to Marlene H. Dortch, Secretary, FCC, MB Docket No. 17-289,
at 2 (filed May 16, 2018) (ShootingStar Ex Parte) (“Banks are also
often less inclined to take a chance on a first-time station owner and
broadcast properties offer little tangible collateral.”); Patrick Communications Ex Parte at 2 (“[Many banks] do not like to loan to parties with an unproven track record of past ownership or senior, multistation management experience.”); Letter from Hugues Jean to

588
cess to capital is most often the barrier to broadcast station ownership.2020 Furthermore, given the larger numbers of radio stations in the country (11,371 commercial,
full-service AM and FM stations) versus television stations (1,377 commercial, full-service stations), we find
Marlene H. Dortch, Secretary, FCC, MB Docket No. 17-289, at 2
(filed May 18, 2018) (“[W]ithout some form of collateral, it will be
very difficult to secure a loan [to purchase a radio station].”); Letter
from Lyle Banks, Vice President and General Manager, WGCL/
WPCH, to Marlene H. Dortch, Secretary, FCC, MB Docket No.
17-189, at 1 (filed June 6, 2018) (Banks Ex Parte) (“I found that national banks were only interested in financing deals for entities with
significant physical assets to collateralize their loans.”); Letter from
Trila Bumstead, Chief Executive Officer and President, Ohana Media Group, LLC, to Marlene H. Dortch, Secretary, FCC, MB Docket
No. 17-289, at 2 (filed May 14, 2018) (Ohana Media Ex Parte) (“Minority and female owners are at a significant disadvantage [when
obtaining financing] . . . because they often lack sufficient personal assets to collateralize the loan.”).
20
See, e.g., National Association of Broadcasters (NAB) Comments at 5 (NAB Comments) (stating that access to capital is the
greatest barrier to entry for prospective owners of broadcast stations); Skip Finley Comments at 3 (stating that access to capital has
remained the largest impediment to ownership); ShootingStar Ex
Parte at 1 (stating that access to capital is one of the primary challenges that new entrants face in the broadcasting industry); Ohana
Media Ex Parte Letter at 2 (stating that access to capital is a significant barrier for new entrants and small broadcasters seeking to
grow); Letter from James Z. Hardman, Chief Executive Officer and
President, Hardman Broadcasting, Inc., to Marlene H. Dortch, Secretary, FCC, MB Docket No. 17-289, at 1 (filed May 22, 2018) (Hardman Broadcasting Ex Parte) (stating that access to capital is the
greatest barrier to station ownership); Letter from Francisco R.
Montero, Managing Partner, Fletcher, Heald & Hildreth, to Marlene H. Dortch, Secretary, FCC, MB Docket No. 17-289, at 2 (filed
May 15, 2018) (stating that many small businesses, particularly minority- and women-owned businesses, fail to secure financing and
never get a foothold in the broadcast marketplace).

589
that radio is a more accessible entry point than television.2121 In addition, the operating costs of running a radio station are significantly lower than those for operating a television broadcast station. As a going concern,
radio is less cash flow intensive, requires fewer personnel to operate, and requires programming resources that
are less costly than those for television stations.2222 For
these reasons, we find that transitioning from a qualifying incubation relationship to independent ownership
will be more feasible for incubated entities in the radio
service than in television. Consequently, for entities
with already limited capital resources and operational
experience, we conclude that radio is a significantly
more accessible entry point into the broadcasting industry than television.
13. We expect that implementing an incubator program focused on the radio market will also motivate the
participation of incumbent broadcasters, who are key to
the success of the program, as they have the power to
ensure that the new entrants and small businesses attracted to the radio industry are able to acquire, operate, and grow a broadcast station. As noted above, we
anticipate that the inducement of a waiver of the Commission’s Local Radio Ownership Rule will provide sufficient incentive for incumbent broadcasters to partici-

Press Release, FCC, Broadcast Station Totals as of June 30,
2018 (July 3, 2018), https://docs.fcc.gov/public/attachments/DOC352168A1.pdf.
22
See Order on Reconsideration, 32 FCC Rcd at 9836, para. 77
(stating that “the record suggests that local television news programming is typically one of the largest operational costs for broadcasters”).
21

590
pate in the program. That is, we expect that radio station group owners will seek to incubate a new entrant or
small broadcaster in order to obtain permission to exceed the applicable ownership limit in a market. In
reaching this conclusion, we note that the local radio numerical limits and the AM/FM service caps have remained unchanged since they were prescribed by Congress over 20 years ago in the Telecommunications Act
of 1996.23 23 Thus, the existing Local Radio Ownership
Rule has restricted the ability of incumbent broadcasters to grow larger in any given market for over two decades. In addition, Joint Sales Agreements (JSAs) for
greater than 15 percent of a station’s time remain attributable in radio.2424Accordingly, given the longstanding strictures remaining on radio ownership, we believe
a waiver of the Local Radio Ownership Rule will provide
an effective incentive for incumbent broadcasters to incubate either new entities seeking entry into the broadcasting industry or small broadcasters.

Telecommunications Act of 1996, Pub. L. No. 104-104, § 202(b),
110 Stat. 56, 110 (1996). Subsequently, in the 2002 Biennial Review
Order, the Commission retained the local radio numerical limits and
AM/FM subcaps from the 1996 Act but revised the rule to use an
Arbitron Metro market definition, attribute certain radio station
Joint Sales Agreements (JSAs) toward the brokering licensee’s permissible ownership totals, and include noncommercial stations when
determining the number of radio stations in a market for purposes
of the rule. See 2002 Biennial Regulatory Review—Review of the
Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996,
Report and Order and Notice of Proposed Rulemaking, 18 FCC Rcd
13620, 13712-13, 13724-28, 13742-46, paras. 239, 273-81, 316-25 (2003).
24
See 47 CFR § 73.3555, Note 2(k).
23

591
14. By contrast, the Commission has recently revised the rules governing local television ownership, including eliminating the attribution of television JSAs;
eliminating the eight voices test, which required that at
least eight independently owned television stations remain in the market after combining ownership of two
stations in a market; and, adopting a hybrid approach to
application of the top-four prohibition, permitting caseby-case review of the restriction on ownership of two
top-four ranked stations in the same market. In light
of these changes and the state of the record in this proceeding as it pertains to television station incubation, we
do not believe that it would be appropriate at this time
to offer a waiver of the Local Television Ownership Rule
as a reward for incubating a television station. However, we do not foreclose the possibility of reaching a
different conclusion following the completion of our next
quadrennial review depending on the record that is compiled regarding the local television marketplace in that
proceeding. Additionally, were Congress to provide an
alternative benefit for incubating broadcasters, we
would be strongly inclined to expand the program to include television stations.
15. Based on our consideration of the record and
the current broadcast marketplace, including the existing broadcast ownership rules, we conclude that an incubator program has the greatest likelihood of success
in the radio industry. Although some commenters, including NAB, advocate for an incubator program for
both radio and television broadcast services,2525for the
NAB Comments at 7-8, 13. NAB asserts that the incubator
program should be designed to provide maximum flexibility and incentives for incubating entities to participate. NAB Comments at
25

592
reasons stated in this section, we determine that the better approach at this time is to focus our program on the
radio market. We note, however, that the “leg up” provided to these new and small broadcasters via the incubator program, by allowing them to establish a track
record of successful station ownership and providing
them increased access to capital, may ultimately position them to add television stations to their radio holdings. For all the reasons provided above, we determine
that our initial foray into the use of an incubator program as a mechanism to increase broadcast ownership
diversity should be limited to full-service radio. As we
gain more experience with the program and assess evolving market and regulatory trends in the television sector, we will be able to analyze whether it is appropriate
to expand the program to television.
B.

Defining Entities Eligible for Incubation

16. In this section, we establish the eligibility criteria governing which entities may qualify for incubation
under our program. Our criteria consist of both a numeric limit on the number of stations a potential incubated entity may own prior to entering into a qualifying
incubation relationship (based on our existing new entrant bidding credit), as well as a revenue cap (based on
our existing eligible entity definition). Additionally, as
discussed below, we adopt certain safeguards to ensure
further that a potential incubated entity genuinely lacks
the necessary resources that would have enabled it to
enter or succeed in the broadcast industry absent the

13, n.32; see also Gray Television, Inc., Reply at 1, 3 (Gray Television
Reply) (supporting NAB); Bonneville International Corporation Reply at 1, 3-4 (Bonneville Reply) (supporting NAB).

593
incubation relationship. Finally, we also address alternative eligibility criteria that were proposed in our record.
17. The NPRM sought comment on how to determine eligibility for participation in the incubator program2626and put forth several options, including the new
entrant bidding credit model,27 a revenue-based eligible
entity standard,2828a socially and economically disadvantaged businesses (SDB) model,29 29 and an Overcoming
27

NPRM, 32 FCC Rcd at 9861, para. 131.
The new entrant definition is used for the bidding credit eligibility definition applicable in the broadcast auctions context. See
47 CFR § 73.5007(a). A 35 percent bidding credit is awarded to a
qualifying new entrant who has no attributable interest in any other
media of mass communication, while a 25 percent bidding credit is
awarded to a qualifying new entrant who holds an attributable interest in no more than three mass media facilities. Id.
28
An eligible entity under this definition is any commercial or noncommercial entity that qualifies as a small business consistent with
the SBA revenue grouping according to industry, in this case broadcast radio. The Commission’s rules require that an eligible entity
hold: (1) 30 percent or more of the stock/partnership shares and
more than 50 percent voting power of the corporation or partnership
that will hold the broadcast license; (2) 15 percent or more of the
stock/partnership shares and more than 50 percent voting power of
the corporation or partnership that will hold the broadcast license,
provided that no other person or entity owns or controls more than
25 percent of the outstanding stock or partnership interests; or (3)
more than 50 percent of the voting power of the corporation if the
corporation that holds the licenses is a publicly traded corporation.
See id. § 73.3555, Note 2(i)(2)(ii); see also Second Report and Order,
31 FCC Rcd at 9983, para. 286 (the Commission re-adopted a revenuebased eligible entity standard to identify those qualified to take advantage of certain preferential regulatory policies).
29
The SDB standard is based on the definition employed by the
SBA. Pursuant to the SBA’s program, persons of certain racial or
26
27

594
Disadvantages Preference (ODP) standard.3030The NPRM
also sought comment on which of these standards best
aligns with the Commission’s goal of facilitating ownership opportunities for entities that lack access to capital
and operational experience and, thereby, best promotes
competition and viewpoint diversity in local markets.3131
18. The ultimate goal of the incubator program is to
encourage new entry into the broadcast industry, an industry which—as our record demonstrates—is extremely
capital-intensive.3232The Commission has previously rec-

ethnic backgrounds are presumed to be disadvantaged; all other individuals may qualify for the program if they can show by a preponderance of the evidence that they are disadvantaged. See 13 CFR
§§ 124.103(b)-(c), 124.104(a). To qualify for this program, a small
business must be at least 51 percent owned and controlled by a socially and economically disadvantaged individual or individuals.
See id. § 124.105; see also U.S. Small Business Administration, Small
Disadvantaged Businesses, https://www.sba.gov/contracting/governmentcontracting-programs/small-disadvantaged-businesses (last visited
May 8, 2018). The SDB standard is explicitly race-conscious and,
therefore, subject to heightened constitutional review. In the Second Report and Order, the Commission determined that evidence in
the record was not sufficient to satisfy the constitutional standards
to adopt the SDB standard or any other race- or gender-conscious
definition of an eligible entity for certain preferential regulatory policies. Second Report and Order, 31 FCC Rcd at 9987-88, 999910000, paras. 297, 315-16.
30
The ODP standard would employ various criteria to demonstrate that an individual or entity has overcome significant disadvantage. The Second Report and Order declined to adopt an ODP
standard, citing concerns with the approach, including administrability and First Amendment concerns. Second Report and Order,
31 FCC Rcd at 9993-94, para. 306.
31
NPRM, 32 FCC Rcd at 9862, para. 132.
32
See supra note 19.

595
ognized, and the record here confirms, that new entrants and small businesses have had longstanding difficulties accessing the needed capital to participate in
broadcast ownership.33 33 For example, Diane Sutter,
President of ShootingStar Inc., notes that “[t]he size of
a deal is extremely important to most banks. Many entrants are limited to purchasing smaller broadcast stations, given their resources; however, banks often consider it not worth the potential risk to finance smaller
deals for a new owner.”3434For our incubator program to
redress the lack of access to capital, as well as to facilitate operational, managerial, and technical support, it is
critical that our eligibility criteria properly identify
those entities that are most likely to benefit from program participation and, thereby, increase diversity in
the broadcast sector.
19. After careful consideration of the record in this
proceeding and the various standards discussed in the
NPRM, we adopt today a two-pronged eligibility standard that combines a modified version of the existing new

See supra, note 20; see also 2014 Quadrennial Regulatory
Review—Review of Commission’s Broadcast Ownership Rules and
Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996 et al., MB Docket No. 14-50, Further Notice of
Proposed Rulemaking and Report and Order, 29 FCC Rcd 4371,
4470, para. 224 (2014) (2014 FNPRM and Report and Order) (stating, “[w]e recognize the presence of many disparate factors, including most significantly, access to capital, as longstanding, persistent
impediments to ownership diversity in broadcasting.”).
34
See ShootingStar Ex Parte at 2.
33

596
entrant bidding credit standard,3535long used in the context of broadcast auctions, with the revenue-based eligible entity definition contained in our broadcast rules.3636As
detailed below, under the first prong, the potential incubated entity, including its attributable interest holders,
may hold attributable interests in no more than three fullservice AM or FM radio stations and no TV stations.3737The ownership limit of three full-service radio
stations does not include the radio station to be incubated. Under the second prong of our standard, the
entity must also qualify as a small business consistent
with the SBA standards for the radio industry based on
annual revenue, currently $38.5 million or less.3838
20. New Entrant Prong. With respect to the first
prong of our standard, we find that modifying the new
entrant eligibility standard for this purpose by limiting
permissible interests to three full-service AM or FM radio broadcast stations (licenses or unbuilt construction
See 47 CFR §§ 73.5007-.5008(b). Note that the new entrant bidding credit applied in the broadcast auction context looks to ownership of “a medium of mass communications,” which includes ownership of a daily newspaper, a cable television system, or a license or
construction permit for a television broadcast station, an AM or FM
broadcast station, or a direct broadcast satellite transponder.
36
See id. § 73.3555, Note 2(i)(2)(ii).
37
The incubated entity is not restricted from owning low-power
FM and/or FM translator stations.
38
Under 13 CFR § 121.201, radio stations (North American Industry Classification System code 515112) that are considered small
businesses have an annual revenue of up to $38.5 million. See
47 CFR § 73.3555, Note 2(i)(2)(ii) (revenue-based eligible entity definition); see also Second Report and Order, 31 FCC Rcd at 9983,
para. 286 (re-adopting revenue-based eligible entity standard to
identify those qualified to take advantage of certain preferential regulatory policies).
35

597
permits) and no TV stations will focus the program on
entities that are new or comparatively new to the broadcasting industry (i.e., those with no existing broadcast
interests) and small broadcasters (i.e., those with three
or fewer full-service radio stations, and no TV stations).
The record reflects that individuals seeking to purchase
their first or second broadcast station are the ones that
often face the most challenging financial hurdles.3939Thus,
the eligibility standard we adopt today is targeted specifically to benefit those small entities seeking to enter
the broadcast industry for the first time and to help
broadcasters with one, two, or three radio stations to secure the toehold they have obtained in the industry.
While we acknowledge that an entity with interests in
four or more radio stations or a television station may
not necessarily be considered a large or established
broadcaster, we expect that a broadcaster with such interests will have more access to traditional financing
and capital resources available, such that the resources
anticipated to flow through the Commission’s incubator
program would not be as critical to their entry or survival. Consequently, limiting the eligibility criteria to
those who have no more than three radio stations (consistent with the current new entrant bidding credit
rule’s limitation to “three mass media facilities”), and no

See, e.g., Ohana Media Ex Parte at 2 (“[A]ccess to capital is a
significant barrier to entry for those trying to purchase their first
broadcast stations and for small broadcasters trying to acquire additional stations. Regulatory reforms that create incentives for established broadcasters to provide needed financial and technical support to new entrants will help foster a more diverse broadcast industry.”).
39

598
TV stations, best promotes the purposes of the program.4040
21. Moreover, analyses of Commission broadcast
auctions data provided in the record show that the new
entrant bidding credit—a modified version of which we
adopt herein—has increased successful participation of
small businesses owned by women and minorities in the
auction of construction permits for AM, FM, and TV stations. NAB performed an analysis of the Commission’s
broadcast auctions data and found that winning bidders
relying on the Commission’s new entrant bidding credits were more likely to have indicated that they were
owned by women and minorities than winning bidders
who did not use the credit. NAB’s analysis focused on
nine FM broadcast auctions that utilized the new entrant bidding credit.4141Its study concluded that winning

We note that the ACDDE’s comments seem to suggest that
the Commission’s new entrant bidding credit rule allows ownership
of up to three media of mass communications in each market.
ACDDE Comments at 10, n.27. In fact, however, the new entrant
bidding credit limits a new entrant to holding interests in three media of mass communications in total anywhere in the country. See
47 CFR § 73.5007(a) (“No bidding credit will be given if any of the
commonly owned mass media facilities serve the same area as the
proposed broadcast or secondary broadcast station, or if the winning
bidder, and/or any individual or entity with an attributable interest
in the winning bidder, have attributable interests in more than three
mass media facilities.” (emphasis added)). We follow this convention here, and under the standard we adopt today applicants will
be restricted to holding attributable interests in three or fewer fullservice radio stations.
41
Letter from Rick Kaplan, General Counsel and Executive Vice
President, Legal and Regulatory Affairs, NAB, to Marlene H. Dortch,
Secretary, FCC, MB Docket No. 17-289 et al., at 2 (filed Mar. 26, 2018)
40

599
bidders relying on new entrant bidding credits were 93
percent more likely to be women, and 40 percent more
likely to be minorities, than winning bidders who did not
use the credit.42 42 In addition, NAB found that collectively winning bidders using new entrant bidding credits
were 64 percent more likely to be minorities or women
than other winning bidders.4343
(NAB Mar. 26 Ex Parte). Specifically, NAB evaluated the demographic data that are voluntarily provided on the FCC Form 175 by
applicants interested in participating in broadcast auctions. Id. at
3. FCC Form 175 seeks information regarding the applicant’s gender, race, ethnic origin, and new entrant bidding status.
42
NAB Mar. 26 Ex Parte at 4.
43
Id. Free Press asserts that the use of the new entrant bidding
credit to induce successful auction bidding is greatly dependent upon
each auction’s specific circumstances. See Letter from Jessica J.
González, Deputy Director and Senior Counsel, and S. Derek Turner,
Research Director, Free Press, to Marlene H. Dortch, Secretary,
FCC, at 4 (July 3, 2018) (“Free Press July 3, 2018 Ex Parte”). Free
Press does not, however, address the evaluation of 20 broadcast auctions performed by the ACDDE. See infra para. 22. Free Press
and UCC contend that the applicability of NAB’s new entrant bidding credit analysis to other situations “is limited,” and that the
Commission makes an “unsupported analytical leap” to conclude
that the success of the new entrant bidding credit in broadcast auctions is directly applicable to the successful completion of an incubator program. Id.; see also Letter from Cheryl A. Leanza, Policy Advisor, UCC, et al., to Marlene H. Dortch, Secretary, FCC at 4 (July
26, 2018) (“UCC et al. July 26, 2018 Ex Parte”). The significance of
the experiences with the “new entrant bidding credit” criterion in
the auction context for purposes of the incubator program, however,
is merely that the criterion provides a known mechanism for identifying smaller entities and that entities that indicated eligibility for
the bidding credit often also indicated that they were minority or
female owned businesses. Because use of the criteria in the auction
context appears to have led to greater female and minority participation, we anticipate similar results in the instant context.

600
22. We note that the ACDDE also found that the
use of the “new entrant” standard in auctions revealed a
statistically significant improvement in female and minority participation after its review of 20 FCC broadcast
auctions, more than twice the number evaluated by
NAB.4444 The ACDDE determined that these auctions
attracted a total of 2,531 applicants, of which 1,681 were
determined to be qualified bidders. Of the 1,681 qualified bidders, the ACDDE found that 1) 1,457 were new
entrants (i.e., held three or fewer mass media interests);
2) qualified minority new entrants (12.4 percent) were
more prevalent than qualified minority-owned applicants who were not new entrants (8.7 percent); and 3)
qualified women-owned new entrants (10.8 percent)
were more prevalent than qualified women-owned bidders who were not new entrants (7.9 percent).4545 Based
on this review, the ACDDE agrees that, while not its
preferred approach, the new entrant definition “might
have some utility” as a means of determining eligibility
for participation in the incubator program.4646
23. Commission staff also evaluated data from a
number of Commission broadcast auctions conducted
over the past several years, and that data reveal that the

ACDDE Comments at 10, n.27.
Id. at 10-11, n.27.
46
Id. The ACDDE prefers adoption of an ODP standard and expresses concern about the difficulty in preventing abuse of a “new
entrant” definition, recommending that the Commission consider
omitting legacy applicants (e.g., spouses or the children of broadcasters) if it adopts a “new entrant” definition. Id. We address
this concern in the section on safeguards applicable to entities eligible for a qualifying incubation relationship.
44
45

601
new entrant bidding credit has increased successful participation of small businesses owned by women and minorities in the auction process for AM, FM, and TV construction permits. The Commission collects data on information voluntarily filed by auction participants utilizing FCC Form 175.4747 Staff analysis of auctions data for
20 auctions48 shows that of the 2,534 total applicants for
those auctions, 1,457 of them, or 57.5 percent of the applicants, indicated that they qualified for the new entrant bidding credit. A total of 408 new entrant bidders were successful in their auction. The percentage
of winning bidders that used a new entrant bidding
credit and identified as women-owned was three times
larger (12 percent) than the percentage of bidders that
won without a new entrant bidding credit and were
women-owned (4 percent). Similarly, the percentage
of winning bidders that used a new entrant bidding
credit and identified as minority-owned was almost
three times larger (14 percent) than the percentage of
48

See FCC Form 175, Application to Participate in an FCC Auction, http://transition.fcc.gov/Forms/Form175/175.pdf. Although
eligibility for the new entrant bidding credit must be specified in an
applicant’s Form 175 application, applicants are not required to provide information about their race, ethnicity, or gender. Rather, applicants have the option of indicating that the business is minorityowned or woman-owned, or both. As the provision of this information is voluntary and not detailed further on the auction application, the ability to make definitive statements about the participation
of minorities and women in Commission broadcast auctions is limited, as the Commission has noted in the past. See 2014 FNPRM,
29 FCC Rcd at 4507-08, n.917.
48
Staff reviewed data for AM, FM, and TV Broadcast Auctions 25,
27, 28, 32, 37, 62, 64, 68, 70, 79, 80, 81, 82, 84, 88, 90, 91, 93, 94, and
98.
47

602
bidders that won without the new entrant bidding credit
and were minority-owned (5 percent).4949
24. NAB’s and the ACDDE’s evaluations of the
Commission’s broadcast auctions data, like the Commission staff ’s analysis, suggest that the Commission’s use
of the new entrant bidding credit standard has been effective in diversifying the pool of successful bidders in
the broadcast auctions context. Our assessment encompassed twice as many auctions as those reviewed by
NAB, and the overall results of those evaluations were
similar—that the percentage of winning bidders who
used a new entrant bidding credit and identified as either women-owned or minority-owned consistently exceeded the percentage of winning bidders who did not
use a new entrant bidding credit and were womenowned or minority-owned. Thus, we expect that use of
a similar new entrant eligibility standard will be an effective means to diversify the applicant pool for the incubator program, by targeting those small broadcasters

We reject UCC et al.’s assertion that the Commission may not
rely on its own simple analysis of broadcast auction data because it
has not first placed a “study or data” into the record. See UCC
et al. July 26, 2018 Ex Parte at 3. The Commission did not conduct
any complex or technical study, nor did it introduce any new methodology. Instead, it merely tallied the responses of bidders in specified FCC broadcast auctions from information that is publicly available on its website, in a manner similar to that of two commenters in
the proceeding. The Commission’s analysis was supplementary information that expanded on and confirmed the findings of the other
two analyses of broadcast auction data in the record and provided additional support, and—in any event—UCC has not demonstrated any
prejudice from the Commission’s use of that analysis in its decisionmaking.
49

603
most in need of the support provided by the incubator
program, including minority and female applicants.
25. Small Business Prong. The second prong of
our eligibility standard requires that incubated entities
also qualify as small businesses consistent with the SBA
standards for their industry grouping, based on annual
revenue, currently $38.5 million or less for radio.5050NAB
supports use of a revenue-based eligible entity standard
in combination with a new entrant standard.51 51 The
ACDDE objects to a revenue-based standard standing
alone, asserting that this type of definition “has little or
no value in advancing ownership diversity in the broadcast context.”5252We conclude, however, that the revenue
cap, in conjunction with the first eligibility prong as well
as other safeguards discussed herein, will assist in identifying entities that are more likely to be in need of incubation by established broadcasters.5353 The combination of the new entrant eligibility criteria and the small
See 13 CFR § 121.201 (North American Industry Classification
System code 515112); see also 47 CFR § 73.3555, Note 2(i)(2)(ii) (revenuebased eligible entity definition); see also Second Report and Order,
31 FCC Rcd at 9983, para. 286 (re-adopting revenue-based eligible
entity standard to identify those qualified to take advantage of certain preferential regulatory policies).
51
NAB Comments at 19.
52
ACDDE Comments at 11, n.28.
53
See NAB Comments at 18. In a joint filing, the Office of Communication, Inc., of the United Church of Christ (UCC), Free Press,
Communications Workers of America, and Common Cause erroneously claim that the small business prong of our eligibility standard
is meaningless given our estimate that 99.9 percent of commercial
radio stations had annual revenues of $38.5 million or less as of June
22, 2018. See UCC et al. July 26, 2018 Ex Parte at 2. This assertion disregards the fact that the eligibility standard for our incubator
program applies to entities, not individual radio stations, and thus it
50

604
business revenue standard will narrow the scope of eligible applicants to those applicants most in need of assistance via our incubator program. In this way, we expect to achieve our overarching goal of increasing ownership diversity by facilitating entry and developing
broadcast expertise amongst new and small broadcasters.
26. After close review of the record, we find that
the eligibility standard set forth above is the best means
for identifying incubated entities whose lack of access to
capital and operational experience has impeded their
ability to participate successfully in the broadcast sector. We expect that pairing such entities with established incumbent broadcasters who can provide the necessary capital, knowledge, and operational support will
ultimately promote competition and viewpoint diversity
in local markets. The combination of a numerical cap
on broadcast interests and a revenue limitation will ensure that incubated entities participating in the program
are truly new or small broadcasters.5454

would exclude entities with attributable interests in multiple radio
stations that, in aggregate, have more than $38.5 million in annual
revenues. For instance, staff review of S&P Global Market Intelligence data show that iHeartMedia, Inc., owned over 700 radio stations in 2017 and had $2.2 billion in radio station ad revenues. See
S&P Global Market Intelligence, 2017 Top Radio Station Owners
Ranked by Total Radio Station Ad Revenue (2018).
54
In the absence of such limits, the incubator program might allow
those who do not truly need incubation to benefit from the program,
squeezing out potential opportunities for others. See Letter from
Rick Kaplan, General Counsel and Executive Vice President, Legal
and Regulatory Affairs, NAB, to Marlene H. Dortch, Secretary,
FCC, MB Docket 17-289 et al., at 4, n.4 (filed Apr. 25, 2018) (NAB
Apr. 25 Ex Parte) (raising the prospect of an “unusual circumstance”

605
27. Moreover, drawn from existing Commission
rules, the standard we adopt today provides a clear, objective metric that is familiar to broadcasters. Use of
an objective standard has the advantage of being straightforward and transparent for potential applicants, as well
as administrable for the Commission without application
of significant additional processing resources. Furthermore, unlike some of the other proposals contained
in the record, because the new entrant bidding credit
standard is race and gender neutral, it does not raise
constitutional concerns.5555
28. Other Proposals. We decline to adopt an Overcoming Disadvantage Preference (ODP) standard.56 56
The ACDDE advocates for such a standard, which it describes as a “race-and-gender-neutral preference” focused on the experiences and efforts of an individual
person that affords a preference to those who strived,
through superior individual efforts, to attempt to overcome major impediments to success.57 57 According to
where a “broadcaster operates radio or television stations in twenty
markets and wishes to enter into an incubation relationship in all of
its markets with the same incubated entity” (emphasis added)).
55
See supra note 33. Commenters have not identified changes to
proposed race- or gender-based definitions that would address previous concerns expressed by the Commission or provided analysis
that persuades us that such a standard could withstand a constitutional challenge. See NPRM, 32 FCC Rcd at 9862, para. 132.
56
See ACDDE Comments at 20 (stating “the Commission should
not institute a bright-line test defining the extent of the disadvantage that has been overcome. Instead the Commission could compare the net socioeconomic status of the applicant to the net socioeconomic status of other persons who have experienced a similar substantial disadvantage.”).
57
Id. at 13. At the same time, however, the ACDDE adds that it
“may be that members of minority groups and women will be more

606
the ACDDE, “success or failure in overcoming obstacles
is not pertinent;” rather, what would matter is “effort,
the steps the person took to persevere.”5858We note the
concerns raised by NAB that a standard such as ODP
will require the Commission to make subjective decisions on the qualifications of candidates proposed to be
the incubated entity, which could be time-consuming,
complex, and subject to disputes.5959
29. The Commission has previously assessed ODP
and articulated its concern that the agency lacks the resources to conduct the individualized reviews recommended as a central component of implementing ODP.6060 In
the broadcast licensing context, the Commission indicated that the type of individualized consideration that
would be required under an ODP standard could prove
to be “administratively inefficient, unduly resource intensive, and inconsistent with First Amendment values.”6161We do not find the ACDDE’s current filing to
have assuaged those concerns. In the Part I Competitive Bidding Rules proceeding, the Commission stated
that “it is not clear what proof should be required from
those individuals or entities seeking to receive such a
preference or how to apply the ODP on a neutral basis.
likely than others to obtain a preference, but that would only be because they tend to face more disadvantages.” Id. at 15.
58
Id. at 18.
59
NAB Reply Comments at 10.
60
2014 FNPRM, 29 FCC Rcd at 4507, para. 300.
61
Id.; see also In the Matter of Updating Part I Competitive Bidding Rules, Report and Order, Order on Reconsideration of the
First Report and Order, Third Order on Reconsideration of the Second Report and Order, Third Report and Order, 30 FCC Rcd 7493,
7551, para. 138 (2015) (stating concerns about the complexity of implementing such a preference).

607
We are also concerned that our review of such a claim
would involve a costly and lengthy process.6262 While the
ACDDE did offer suggestions for the administration of
an ODP standard, the standard remains inherently subjective and, we believe, inappropriate for the broadcast
licensing context.6363 Consequently, we affirm our earlier decisions regarding the administrative infeasibility
of an ODP standard.6464 For all of the reasons stated
above, we decline to implement an ODP standard for the
incubator program.
30. In addition to advocating for the use of ODP as
the eligibility standard, the ACDDE also proposes that

Id.
ACDDE Comments at 23. The ACDDE recommends that the
Commission construct a multi-tiered system of review, beginning
with a team of three Commission employees to evaluate the applications. At the first stage of the selection process, according to the
ACDDE, the candidate’s qualifications to control a license would
count for 33 percent of the score given by the evaluators; the remaining 67 percent would be awarded based on the severity of the disadvantage. The ACDDE concedes that there is “necessarily some
subjectivity concerning determinations of the severity of a disadvantage and a person’s degree of success in overcoming it.” After
scoring, the ACDDE proposes that the applicants would be permitted to make oral presentations of 30-60 minutes to the committee.
Id. at 22-24.
64
Second Report and Order, 31 FCC Rcd, at 9987, para. 294; 2014
FNPRM, 29 FCC Rcd at 4507, para. 300.
62
63

608
“mission-based entities”65 65 and Native American Nations6666be automatically presumed to be eligible for incubation.6767 Although the ACDDE’s incubator proposal
and the benefits that it would provide incubators—
namely the award of tax certificates for stations donated
to a mission-based entity or Native American Nation—
are not the same as the incentives that we adopt today,
we share the ACDDE’s goal of including diverse participants in our incubator program. We encourage them
to apply and establish clearly in their certified supplemental statements how their participation in the incubator program is consistent with the goals of the program.
We recognize that, unlike small, aspiring, and struggling broadcasters, many mission-based entities and
Native American Nations have broader missions that
encompass much more than broadcasting and thus these
entities may be less likely to learn of our incubator program absent education and outreach by the Commission. Therefore, the Commission will conduct outreach
to help encourage participation in the incubator program by mission-based entities and Native American

The ACDDE describes “Mission-Based Institutions” as Historically Black Colleges and Universities, Hispanic Serving Institutions, Asian American Serving Institutions, and Native American
Serving Institutions. ACDDE Comments at 27. The ACDDE states
that these institutions are defined by their missions of multicultural
education, and not by the race of their students; thus, the ACDDE
asserts that they are regarded as race-neutral for equal protection
purposes. Id.
66
The ACDDE defines a “Native American Nation” as a selfgoverning Indian territory recognized by the federal government
pursuant to a treaty. Id. at 28, n.60.
67
Id. at 27-29.
65

609
Nations that meet the program’s eligibility requirements.6868 We decline, however, to adopt the proposed automatic presumption of eligibility.6969
31. Safeguards Associated with Eligibility Standard. We recognize that the ACDDE has raised concerns about the potential for abuse of an eligibility
standard based on the Commission’s new entrant bidding credit.7070 In particular, the ACDDE references the
Commission’s comparative broadcast hearings, long since
discontinued, in which the ACDDE asserts spousal and
parent-child relationships were used to “game the system and defeat minority new entrants.”7171 The ACDDE
acknowledges, however, that the new entrant definition
might be useful in promoting minority and female
broadcast ownership if the Commission were able to address these “legacy applicant” concerns.7272

See Letter from David Honig to Marlene H. Dortch, Secretary,
FCC, MB Docket No. 17-289 et al., at 1 (filed July 26, 2018) (Honig
July 26, 2018 Ex Parte) (urging the Commission to conduct outreach
to “mission-based entities” and Native American Nations to encourage them to participate in the incubator program).
69
See id.
70
Id. at 10, n.27. Free Press also raises concerns about the need
for transparency in the relationship between the incubated entity
and the incubating entity, stating that the incubating entity will have
100 percent control over whom they choose to incubate, and they
may have a “strong incentive” to incubate “a cousin of the owner or
a banker friend.” Free Press July 3, 2018 Ex Parte at 5.
71
ACDDE Comments at 10, n.27.
72
Id. Similarly, on reply, 22 members of the ACDDE (22 ACDDE Members) state that if the Commission ultimately prefers a
new entrant definition, a modified definition “should be considered.”
22 Members of the ACDDE Reply at 3 (22 ACDDE Members Reply).
68

610
32. To address such concerns, we adopt certain
safeguards in conjunction with our two-pronged eligibility standard. As part of the application process, which
is described in greater detail below,73 potential incubated entities must demonstrate that they have met
both the numeric and revenue limitation for the preceding three years. Thus, an entity must not only comply
with the eligibility standard at the time it applies to participate in a qualifying incubation relationship, but also
for the three years prior to its application. NAB proposed a one-year certification period, which would require that applicants certify that, for the year prior to
applying for participation in the incubator program,
they have met the applicable eligibility standards in
terms of the number of stations owned.7474 Such a certification would, in NAB’s view, help to discourage any potential manipulation of the program by applicants who
dispose of financial interests in additional broadcast
properties prior to applying for participation in the incubator program.75 75 NAB further proposes that program applicants be required to certify compliance with
any revenue eligibility standards that are adopted.7676 We
concur with NAB that a certification requirement will
safeguard our eligibility concerns; however, we find that
a longer 3-year period is more likely to deter any fraud
or manipulation than a shorter timeframe.
73

33. In addition, as part of the incubator program
application process, we will require a potential incu-

73
74
75
76

See infra Section E.1 (Bureau Review of Incubation Proposals).
NAB Comments at 18.
Id.
Id. at 18-19.

611
bated entity to include in its application a certified statement attesting that it would be unable to acquire a station, or continue to operate successfully a station proposed for incubation that it already owns, absent the
proposed incubation relationship and the funding, support, or training provided thereby. The Commission,
in its discretion, may investigate the accuracy of the certification if it is made aware of information that suggests
that the potential incubated entity does not, in fact, need
the incubation relationship to purchase and operate a
broadcast radio station. All applicants will further be
required to detail any attributable interests in broadcast
stations held by family members pursuant to FCC Forms
301, 314, and 315, thereby revealing any familial or spousal
relations as part of the application process.7777 If at any
point the Commission determines that the certified statement contained misrepresentations,78 both the incubated and incubating entities may suffer negative consequences. Pursuant to the Commission’s Character
78

FCC Form 301, Application for Construction Permit for a Commercial Broadcast Station, https://transition.fcc.gov/Forms/Form301/
301.pdf; FCC Form 314, Application for Consent to Assignment of
Broadcast Station Construction Permit or License, https://transition.
fcc.gov/Forms/Form314/314.pdf; FCC Form 315, Application for Consent to Transfer Control of Entity Holding Broadcast Station Construction Permit or License, https://transition.fcc.gov/Forms/
Form315/315.pdf.
78
See 47 CFR § 1.17 (requiring the submission of factually correct
information to the Commission); id. § 73.1015 (providing that statements of fact relevant to determining whether a broadcast application should be granted or denied are subject to Section 1.17 of the
Commission’s rules).
77

612
Policy Statement, we would examine the qualifications
of both parties to hold or retain broadcast licenses.7979
34. The incubator program is designed to assist
those new or small broadcasters who do not have access
to the necessary capital or technical expertise absent a
qualifying incubation relationship. Thus, an individual
who provides evidence of a meager bank account and attests to limited resources might subsequently be disqualified from the program, while also being subject to
any penalties associated with making misrepresentations to a federal agency, if it is later determined that
this individual also had access to a large personal trust
fund designed to assist him or her in business ventures.
Likewise, the incubating entity affiliated with this incubation relationship may find its reward waiver withheld
or revoked, depending on whether it knew, or should
reasonably have known, about the incubated individual’s
access to such a trust fund or other assets. We expect
that the possibility of negative consequences for both
the incubated and incubating entities for any misrepresentations regarding the incubated entity’s need for the
program should serve as a sufficient deterrent against
such behavior.
C.

Qualifying Incubation Relationships

35. In this section, we adopt requirements for qualifying incubation relationships. As discussed below,
we will require that qualifying incubation relationships
provide the incubated entity with the financial and oper-

See Policy Regarding Character Qualifications in Broadcast
Licensing, Report, Order and Policy Statement, 102 F.C.C.2d 1179,
1180, para. 2 (1986).
79

613
ational support it lacks (including management training), that such relationships include an option for the incubated entity to purchase the incubating entity’s equity
interest in the incubated station and/or terminate the incubating entity’s creditor-debtor relationship with the
incubated entity, and that the standard time period for
such relationships be three years, with the option to extend for up to another three years. We also adopt certain safeguards to ensure that the incubated entity retains control of the incubated station.
36. The NPRM sought comment on the combination of activities that should be required to qualify as incubation and whether there should be any conditions or
limitations on the financial and operational aspects of a
qualifying incubation relationship. 80 Noting that proponents had previously proposed that an incubator program include management or technical assistance, loan
guarantees, direct financial assistance through loans or
equity investment, training, and business planning assistance, the NPRM asked whether the program should
also include other activities, such as donating stations to
certain organizations or arrangements whereby a new
entrant gains operational experience without first acquiring a station (e.g., pursuant to a Local Marketing
Agreement (LMA)). 81 In addition, the NPRM asked
what additional safeguards the Commission should include in order to ensure that the incubated station licensee retains control of its station.82

80
81
82

NPRM, 32 FCC Rcd at 9862, paras. 133-34.
Id.
Id. at 9863, para. 136.

614
37. We conclude that qualifying incubation relationships are those in which an experienced AM or FM
broadcaster provides an eligible new or small broadcaster with support that it cannot obtain on its own and
that is essential to its ability to independently own and
operate a full-service AM or FM station. We expect
qualifying incubation relationships to provide the incubated entity with financial and operational support (including management training) that it needs and that will
ultimately enable the incubated entity to own and operate independently either the incubated full-service AM
or FM station or another full-service AM or FM station
acquired at the completion of the program.83 We allow
parties the flexibility to tailor each proposed incubation
relationship to the specific needs of the incubated entity
while adopting certain safeguards to ensure that the incubated entity retains full control of the incubated station.
38. Financial and Operational Support. Commenters that support an incubator program agree that the incubating entity should provide the financial and operational support that the incubated entity needs and that
the parties should have flexibility to determine the specific combination of elements needed to support the incubated station according to its particular circumstances.84
As discussed below, we use the term “operational support”
broadly to refer not only to assistance with the day-to-day operations
of a station, such as technical, programming, office, or sales assistance, but also to refer to assistance with developing the skills and
expertise necessary to manage broadcast stations successfully in the
long term, including training on management, finances, and business
planning/strategy. See infra para. 41.
84
See, e.g., NAB Comments at 6-8 (stating that in addition to substantial financial support, “[t]he incubating entity should also make
83

615
Requiring the incubating entity to provide the financial
and operational support that the incubated entity needs
is consistent with the goal of the incubator program,
which is to help address the lack of access to capital and
operational expertise faced by potential new entrants
and small businesses, as discussed above. The record
also indicates, however, that there may be some benefit
to requiring an incubated entity to make a financial contribution to the incubation relationship to solidify its
own commitment towards the endeavor.85
39. Rather than dictate specific minimums for the
financial and/or operational support that an incubating
entity must provide, we conclude that the better ap-

available the technical support, training and other assistance needed
by the incubate[d] [entity] to successfully operate the station,” and
that the specific details may be best left to the discretion of the parties); ACDDE Comments at 30-33 (stating that, under a “joint venture” model, incubating entity would provide most of the financing
and the full range of engineering, technical, sales, management training, and mentoring the incubated entity needs to grow the incubated station).
85
See BCB Ex Parte at 2 (describing how DuJuan McCoy put the
majority of his net worth into his first station acquisition); Bonneville
Reply at 3-4 (stating that both the established broadcaster and the
incubated entity must demonstrate their respective commitments to
the incubation relationship). According to Mr. McCoy, although his
cash investment was less than 10 percent of the transaction cost, “the
amount of ‘skin in the game’ I invested showed my intense commitment to the transaction and the partnership.” BCB Ex Parte at 2.
While not arguing for a financial commitment per se on the part of
the incubated entity, Bonneville does state that “the incubated entity
must demonstrate a commitment to learning the broadcast industry
and to active participation in the day-to-day operations of the station, with a goal of becoming an independent operator of the station.”
Bonneville Reply at 3-4.

616
proach is to give parties the flexibility to tailor an incubation plan to the needs of the incubated entity, the realities of the marketplace, and the needs of the community in which the incubated station operates. For example, an incubated entity that already owns and operates an AM or FM station will likely need less financial
and operational support than a first-time owner of a
broadcast station. Similarly, an incubated entity that
has previously programmed a station and sold advertising time will likely need less operational support than a
new owner with less experience. Thus, the financial
and operational needs of each incubated entity will likely
differ depending on how much experience it has in broadcasting and its other assets. It is possible that in some
cases, an incubated entity will just need one form of support or the other—i.e., financial or operational. For instance, if a broadcaster donates a station to a missionbased entity, as suggested by the ACDDE, the broadcaster may not necessarily need to provide any additional financing to fund the incubation activities.86 Nevertheless, a broadcaster that chooses to incubate in this
manner would still be required to provide the incubated
station with operational support, as discussed herein, to

We agree with the ACDDE that, if the mission-based entity does
not have the financial resources needed to operate the donated station successfully, it would be appropriate for the donor-incubating
entity to provide the financial support required for the missionbased entity to operate the donated station successfully, and we will
require the donor-incubating entity to do so. See ACDDE Comments at 41-42 (stating that in such instances it may be appropriate
for the donor-incubating entity to provide working capital and perhaps a loaned executive to ensure the financial solvency and economic
success of the incubated station).
86

617
enable the mission-based entity to operate the station
independently in the long term.
40. These are just a few examples of how the specific financial and operational needs of an incubated entity may differ depending on the circumstances. We
emphasize that qualifying incubation relationships must
provide an incubated entity with the level of support
needed to enable the incubated entity to own and operate a full-service AM or FM station independently at the
conclusion of the qualifying incubation relationship.
Depending on the needs of the incubated entity, a qualifying incubation relationship will likely provide or guarantee a substantial share of the financing needed to acquire the incubated full-service AM or FM station and
operate it effectively.87 The incubation relationship must
ensure that the incubated entity has sufficient financial
resources to hire enough employees to oversee the operation of the station, acquire and produce station programming, acquire and maintain station equipment and
facilities, etc. While the incubating entity may often
provide the bulk of the financial resources, we do expect
the incubated entity to contribute a substantial amount
of funding to support the incubated station. We find
that requiring the incubated entity to assume some of
the financial risk by making a meaningful financial contribution to the incubation relationship will provide further assurance of the incubated entity’s commitment to
the success of the relationship. Consequently, as discussed below, we require the incubated entity to hold a

See, e.g., id. at 31-32, 40-42; NAB Comments at 6-7; NAB Apr.
25 Ex Parte at 1-2.
87

618
minimum equity interest in the incubated station consistent with the control test contained in our existing
revenue-based eligible entity definition.88
41. For operational support, a qualifying incubation relationship will likely also provide operational assistance and intensive training in the following areas:
engineering/technical operations, office support, sales,
programming, and management, including business planning, finances, and administration. These areas of operational support encompass those that commenters
have proposed and that proponents have traditionally
conceived of as part of a comprehensive incubator program.89
42. The specific components of a qualifying incubation relationship may vary based on the amount of industry experience an incubated entity has previously
obtained, the incubating entity’s existing resources, and
the specific needs of the station to be incubated. Parties may be able to demonstrate that an incubated entity
already has significant experience in some of the areas
listed above and that a qualifying incubation relationship for that entity requires fewer components. Regardless of which of these specific components are included in a particular incubation relationship, the support required by a qualifying incubation relationship
must ultimately enable the incubated entity to own and
operate independently either the incubated station or
another full-service AM or FM station at the conclusion
See infra para. 50 (requiring incubated entity to satisfy control
test consistent with our existing revenue-based eligible entity definition).
89
ACDDE Comments at 2, 33; NAB Comments at 5-8, 10, 12; REC
Networks Comments at 3; Bonneville Reply at 3.
88

619
of the incubation relationship. We expect that an incubation relationship where both parties have established
a plan for the incubated entity to own and operate independently either the incubated station or a newly acquired full-service AM or FM station at the end of the
incubation relationship, with progress indicators identified as part of a contract between the parties, holds the
greatest likelihood of success. As discussed below, after the second year of incubation we will not allow any
brokering or sharing arrangements involving the incubated station to ensure that the incubated entity demonstrates its ability to operate the incubated station independently prior to the end of the relationship.90
43. Option to Buy Out Incubating Entity or Obtain
Assistance in Acquiring a New Station. We agree
with the ACDDE’s proposal that qualifying incubation
relationships must include an option that provides the
incubated entity with the right, but not the obligation, to
purchase the incubating entity’s equity interest in the
incubated station, if it holds one.91 The price and terms
of this buy-out option must be commercially reasonable
and must not strongly favor the incubating entity, and
the purchase price must not exceed the station’s fair
market value. The fair market value must be determined through customary valuation methods that rely
on audited financial statements prepared by a certified
public accountant, real estate appraisals, and other information such as market size, total radio dollars available market-wide, market growth, market competition,
and the potential for signal upgrades, to the extent such
information is relevant to determining the fair market
90
91

See infra para. 53.
See ACDDE Comments at 33.

620
value of the station.92 At the end of the qualifying incubation relationship, the incubated entity may decide not
to exercise this option and choose instead to retain its
existing controlling interest in the incubated station.
Alternatively, the incubated entity may choose to sell its
interest in the incubated station and use the proceeds
from sale to acquire another full-service AM or FM station.93 In that case, we expect the incubating entity to
help the incubated entity identify a full-service AM or
FM station to buy and obtain the financing necessary to
purchase the station.94 Absent a showing at the end of
the qualifying incubation relationship that the incubated
entity holds a controlling interest in the incubated station or a newly acquired full-service AM or FM station,
the incubating entity will not be eligible to receive a
waiver of the Local Radio Ownership Rule.95
44. By requiring an option as described in the preceding paragraph, we ensure that, before the incubating
entity is eligible to receive a waiver, the incubated entity
has acquired independent ownership of a full-service
AM or FM station, consistent with our program goal of
introducing new, independent broadcasters to the industry. Because our approach will provide multiple paths

Id.
To receive a reward waiver, the incubating entity must demonstrate that it has successfully completed a qualifying incubation relationship as discussed below. See infra paras. 72-73.
94
As discussed below, the parties may seek an extension of their
incubation relationship if they need more time to identify a station
for the incubated entity to acquire or if the incubated entity needs
additional time to close on the pending acquisition of a station. See
infra paras. 45-47.
95
See infra paras. 72-73.
92
93

621
for an incubated entity to achieve the goal of independent station ownership, we conclude that our approach
will not unduly direct or limit the incubated entity’s activities following its participation in the program, thereby
preserving options as NAB suggests.96
45. Duration of Qualifying Incubation Relationships. We agree with the ACDDE that in most cases a
three-year incubation period will provide enough time
for an incubated entity to develop the skills and expertise needed to be able to own and operate a broadcast
station independently.97 NAB offers a similar recommendation, stating that broadcasters’ experience in this
arena suggests that the term of an incubation relationship should be no less than three years but that an incubated entity may need additional time to obtain the necessary funds or expertise to be self-sufficient, or that an
extension may be needed due to marketplace or financing conditions.98 While we agree that an incubated entity may need more than three years to develop the requisite operational expertise or secure the financing needed
to be self-sufficient, we believe we must adopt a maximum time limit of six years for qualifying incubation relationships so that the incubated entity has an incentive

See NAB Reply at 7-8, n.20; NAB Apr. 25 Ex Parte at 2 & n.2.
ACDDE Comments at 32, n.70.
98
NAB Comments at 4, 10; see also Gray Television Reply at 1
(urging the Commission to adopt NAB’s recommendations); 22 ACDDE Members Reply at 6, n.25 (concurring with NAB’s recommendation on the duration of incubation relationships).
96
97

622
to develop the skills and expertise needed to operate a
full-service AM or FM station independently.99
46. As the ACDDE notes, there may also be instances in which an incubated entity makes exceptional
progress towards becoming an independent owner and
operator of the incubated station and seeks to acquire
full equity ownership and independent control of the incubated station before the incubation term ends.100 In
such circumstances, we will consider granting requests
from parties seeking to conclude their incubation relationship before the end of the term.
47. Accordingly, we will require that the incubation
agreement provide that the parties must perform the incubation activities for three years, although the parties
may jointly seek to conclude their incubation relationship early or request a one-time extension of an additional three years or less, depending on need, upon a
showing of good cause.101 The three-year time period
will begin on the effective date of the incubation contract. Extension requests must be submitted before
the initial term expires. We direct the Media Bureau
(Bureau) to find good cause to grant an extension where
1) the parties need additional time to incubate the fullservice AM or FM station as discussed below,102 or 2)
See NAB Comments at 10 (“NAB recognizes the value of a deadline in helping ensure that an incubated entity will become independent at some point.”).
100
ACDDE Comments at 33, n.71.
101
See 47 CFR § 1.3.
102
See infra para. 53 (discussing how our safeguards for the program will facilitate a more informed assessment of the incubated entity’s progress and any areas where it may need additional training
and support).
99

623
the parties need more time to identify a full-service AM
or FM station for the incubated entity to acquire or additional time for the incubated entity to close on the
pending acquisition of a full-service AM or FM station.
The parties to the incubation contract must demonstrate
that by the end of the extended term they will have resolved the issues that resulted in the need for more time
and that the incubated entity will be able to own a fullservice AM or FM station and have demonstrated its ability to operate such a station independently. Unless otherwise specified by the parties and approved by the Commission, the terms of the initial incubation contract will govern the incubation relationship during any Commissionapproved extension period.103
48. Independence of Incubated Entity. The incubator program is designed to provide a “hands on”
learning process in which the incubated entity learns by
“doing” with the benefit of a mentor. To ensure that
the incubated entity derives the maximum benefit from
the training and mentoring provided by the incubating
entity, we require that the incubated entity be the licensee of the incubated station and maintain ultimate authority over station personnel, programming, and finances. It is by engaging in station management activities independently that the incubated entity will best
develop its skills. As NAB notes, “this level of independence is essential to promoting the new entrant’s business growth and experience.” 104 Indeed, the goals of
the incubator program, including encouraging new and
As discussed below, revisions to the initial incubation contract
must be submitted to and approved by the Commission. See infra
Section E.3.
104
NAB Comments at 7.
103

624
diverse ownership of broadcast stations, require that we
adopt safeguards to ensure that the incubated entity retains control of the incubated station and remains independent of the incubating entity and thus develops the
skills necessary to own and operate the station independently. While the incubating entity will devote considerable financial, operational, managerial, and technical resources during the incubation relationship, the
incubated entity must retain control of the incubated
station and remain independent of the incubating entity
to ensure it derives the full measure of intended benefits, in the form of “hands on” learning, during the entire
incubation relationship.105
49. Below, we adopt certain safeguards to ensure
that the incubated entity has the requisite level of autonomy during the incubation relationship. As a threshold matter, we require the incubated entity to satisfy a
control test as discussed below, consistent with our
revenue-based eligible entity definition. In addition,
we place limits on the use of brokering and sharing arrangements. We agree with the ACDDE that JSAs
and shared service agreements (SSAs) may be used only
to assist in, and must not be used to substitute for, incubation.106 Finally, both to promote the incubated entity’s
autonomy and to guard from potential conflicts of interest, we place limits on the ability of individuals to take
on management or oversight positions in both the incubating entity and incubated entity.
50. First, we require the incubated entity to satisfy
the following control test consistent with our existing
105
106

Id.
ACDDE Comments at 39.

625
revenue-based eligible entity definition, 107 upon which
we are basing the second prong of the eligibility standard
for our incubator program as discussed above.108 Specifically, we require that the incubated entity hold more
than 50 percent of the voting power of the licensee of the
incubated station,109 and if the licensee is not a publicly
traded company (which will almost assuredly be the
case), a minimum of either 15 percent or 30 percent of
the equity interests, depending on whether someone
else owns or controls more than 25 percent of the equity
interests.110 Both the ACDDE and NAB agree that the
incubated entity must hold more than 50 percent of the

107
See 47 CFR § 73.3555, Note 2(i)(2)(ii) (revenue-based eligible
entity definition); Second Report and Order, 32 FCC Rcd at 9983,
para. 286 (re-adopting revenue-based eligible entity standard to
identify those qualified to take advantage of certain preferential regulatory policies).
108
See supra para. 25.
109
As discussed below, we also adopt safeguards relating to control
of the board of directors or management committee of the incubated
station licensee. See infra para. 55.
110
See 47 CFR § 73.3555, Note 2(i)(2)(ii) (requiring same minimum
voting and equity interests for “eligible entities” under revenuebased eligible entity definition re-adopted in Second Report and Order); see also Second Report and Order, 32 FCC Rcd at 9983, para.
286 (re-adopting revenue-based eligible entity standard to identify
those qualified to take advantage of certain preferential regulatory
policies). While the control test in our revenue-based eligible entity
rule refers to ownership of “stock/partnership shares,” see 47 CFR
§ 73.3666, Note 2(i)(2)(ii), we find that referring instead to ownership
of “equity interests” in the control test for our incubator program
will help clarify that the test applies not only to corporations and
partnerships but also to other types of entities, such as limited liability companies (LLCs).

626
voting power to control the incubated station. 111 The
ACDDE, however, also calls for the incubated entity to
hold a minimum equity interest of 20 percent.112 Veteran broadcaster Skip Finley proposes that the Commission limit the investment of the incubating entity to
25 percent, which he argues would not permit control or,
standing alone, create an attributable ownership interest.113 We conclude that applying the control test in our
existing eligible entity rule will best ensure that the incubated entity retains control of the incubated station
while still giving the parties some flexibility to establish
incubation relationships that suit their specific needs.
Also, as noted above, we find that it is important for the
incubated entity to have some minimum “skin in the
game” as a sign of its commitment to the success of the
incubation relationship. In this regard, we find that
the minimum equity holding requirements of the control
test contained in the revenue-based eligible entity definition are appropriate. Using these existing requirements should facilitate both participation in and administration of the incubator program, as the requirements
are already familiar to licensees. Hence, as discussed

ACDDE Comments at 31. NAB concurs with the ACDDE’s
position that control should be reflected in the incubated entity’s
ownership of a 51 percent or greater voting interest. NAB Reply
at 7, n.20.
112
ACDDE Comments at 31.
113
Skip Finley Comments at 4. The 25 percent limit on investment,
Finley states, would be analogous to the Commission’s foreign ownership limits. Finley further suggests that the incubating entity
participate in a non-attributable fashion, without board participation
and holding only non-voting stock in a C corporation or only insulated interests in a limited partnership or LLC. Id.
111

627
more fully below, all incubation applications must demonstrate that control will rest with the incubated entity
and that the incubated entity meets the requisite minimum holding level discussed herein.
51. We remind parties that our rules prohibit unauthorized transfers of control, including de facto transfers of control.114 Thus, even if the incubated entity has
a controlling interest in the incubated station, we will
also look to whether the incubated entity maintains control over the station’s core operations, including programming, personnel, and finances, when addressing
questions relating to control.115
52. To ensure that the incubated entity retains autonomy over the incubated station’s core operating functions so as to gain the necessary level of operational expertise, and in light of concerns raised by the ACDDE
and REC Networks,116 we place certain restrictions on
the use of LMAs, JSAs, and SSAs. Our current attribution standards recognize that same-market radio
LMAs and JSAs above a certain percentage of the station’s broadcast day may confer on the brokering station
the potential to exert a significant degree of influence
47 U.S.C. § 310(d); 47 CFR § 73.3540.
See WGPR, Inc., Memorandum Opinion and Order, 10 FCC Rcd
8140, 8142 (1995); Choctaw Broadcasting Corp., Memorandum Opinion and Order, 12 FCC Rcd 8534, 8538-39 (1997); Southwest Texas
Broadcasting Council, 85 F.C.C.2d 713, 715 (1981); WHDH, Inc.,
Memorandum Opinion and Order, 17 F.C.C.2d 856, 863 (1969). As
discussed above, the incubation relationship must ensure that the incubated entity has sufficient financial resources to hire enough employees to oversee the operation of the station. See supra para. 40.
116
See ACDDE Comments at 38-39; REC Networks Comments
at 3.
114
115

628
over core station operating functions (i.e., programming
decisions). Specifically, our attribution standards regard as attributable ownership interests same-market
radio LMAs and JSAs in which the brokering station
brokers more than 15 percent of the broadcast time or
sells more than 15 percent of the advertising time per
week.117 Given our rationale for attributing these arrangements and the concerns raised in the record of this
proceeding, we adopt the following safeguards.
53. First, to ensure that the incubated entity retains control of the programming aired on the incubated
station, we prohibit LMAs involving the incubated station. As defined in our rules, an LMA is any agreement
that involves “the sale by a licensee of discrete blocks of
time to a ‘broker’ that supplies the programming to fill
that time and sells the commercial spot announcements
in it,” 118 regardless of how the agreement is titled.
Second, to ensure that the incubated entity is able to
gain operational expertise by performing the core operations of the incubated station, we limit any JSAs or
SSAs involving the incubated station to the first two
years of the initial incubation period. Pursuant to the
definitions in our rules, we consider a JSA to be any
agreement with the licensee of a brokered station that
authorizes a broker to sell advertising time for the brokered station, 119 and we consider an SSA to be any
47 CFR § 73.3555, Note 2( j)-(k). In addition, under our equity
debt plus (EDP) attribution standard, an intermarket LMA also is
attributable if it involves more than 15 percent of a station’s programming and is accompanied by a financial investment that is above
the relevant threshold specified in the rule. See id, Note 2(i).
118
Id., Note 2( j).
119
Id., Note 2(k).
117

629
agreement or series of agreements in which (i) a station
provides any station-related services to a station that is
not directly or indirectly under common de jure control
permitted under the Commission’s regulations, or (ii)
stations that are not directly or indirectly under common de jure control permitted under the Commission’s
regulations collaborate to provide or enable the provision of station-related services. 120 While our attribution standards do not regard SSAs as attributable ownership interests, we are concerned that allowing these
arrangements to be used for the full duration of an incubation relationship could deprive the incubated entity of
its incentive to gain the operational expertise needed to
operate the station independently at the end of the relationship. Permitting limited use of JSAs and SSAs appropriately balances broadcasters’ representations that
these arrangements can make incubation more successful with the need to ensure that each incubated entity
learns how to perform essential station functions independently in order to be viable in the long term as an
independent broadcaster. 121 We do not believe that
Id. § 73.3526(e)(18). Station-related services include but are
not limited to administrative, technical, sales, and/or programming
support. Id. As discussed above, we prohibit outright any arrangement in which the licensee of the incubated station sells discrete
blocks of time to a broker that supplies the programming to fill that
time and sells the commercial spot announcements in it, regardless
of how the arrangement is characterized.
121
Compare NAB Reply at 8, n.20 (“[R]estricting the ability of the
parties to use sharing agreements . . . may unduly hinder incubation activities that could make incubated stations more successful.”), and Banks Ex Parte at 2 (“[S]tations involved in an incubation
arrangement should be permitted to enter into sharing arrangements (e.g., joint sales or shared services agreements).”), with
ACDDE Comments at 39 (“[JSAs and SSAs] should not be long-lasting
120

630
prohibiting LMAs and restricting the use of JSAs and
SSAs will reduce the utility of our program for incubated entities, as the record and our experience indicate
that new owners of radio stations need assistance primarily with financing and technical issues, rather than
programming and advertising sales.122
54. Moreover, these safeguards will enable the parties to evaluate whether the incubated entity is prepared
to operate independently before the incubation period
has ended and while the incubating entity remains contractually obligated to provide support. By requiring
that the incubated entity actually obtain or produce programming, sell advertising, and perform other core operating functions for the incubated station for at least

elements of incubation. If they are used at all, they should be used
upon proof of need, and they should never last for more than one
year.” (emphasis in original)).
122
See ACDDE Comments at 2 (stating that incubator program
would incentivize companies to provide entrepreneurs with access to
capital, assistance with engineering/technical issues, and mentorship, enabling experienced station managers to transition to ownership); id. at 39 (stating that minority broadcasters previously
learned how to sell ads on their own and that qualified candidates for
incubation should be able to develop the necessary skills within a
year); NAB Comments at 5 (stating that access to capital is the
greatest barrier to entry for prospective owners of broadcast stations); Skip Finley Comments at 3 (stating that access to capital has
remained the largest impediment to ownership); ShootingStar Inc.
Ex Parte at 1 (stating that access to capital is one of the primary
challenges that new entrants face in the broadcasting industry);
Ohana Media Ex Parte at 2 (stating that access to capital is a significant barrier for new entrants and small broadcasters seeking to
grow); Hardman Broadcasting Ex Parte at 1 (stating that access to
capital is the greatest barrier to station ownership).

631
one full year prior to the expiration of the incubation relationship, these protections will provide for a more informed assessment of the incubated entity’s progress
and any areas where it needs additional training and
support to be viable as an independent owner and operator of the incubated station or another full-service AM
or FM station. The incubated entity’s experience performing core operating functions may provide a persuasive justification for extending the incubation relationship if the parties determine that more time is needed to
incubate the station; thus, we are likely to rely on the
parties’ assessment that an extension of the incubation
relationship is needed. While we are allowing limited
use of JSAs and SSAs, we emphasize that these agreements, if used, must be accompanied by proper training
in the relevant area(s)—e.g., administrative, technical,
sales, etc.—covered by any such arrangement(s) involving the incubated station.
55. Finally, we require that none of the officers, directors, managing partners, or managing members of
the incubated entity hold an attributable interest in or
be an employee of the incubating entity.123 We are con-

As discussed below, see infra Section E.1, all incubation proposals submitted to the Commission must include the certifications
and disclosures required by FCC Form 301, 314, or 315, including
those concerning the media interests (if any) of the immediate family
members of the incubated station licensee’s principals. See FCC
Form 301, Application for Construction Permit for a Commercial
Broadcast Station, Worksheet # 2 at p. 9, https://transition.fcc.
gov/Forms/Form301/301.pdf; FCC Form 314, Application for Consent to Assignment of Broadcast Station Construction Permit or License, Worksheet # 3 at p. 9, https://transition.fcc.gov/Forms/Form314/
314.pdf, FCC Form 315, Application for Consent to Transfer Control
123

632
cerned that allowing an employee or an attributable interest holder of the incubating entity to serve as an officer, director, managing partner, or managing member
of the incubated entity may jeopardize the independence
of the incubated station given the significant conflicts of
interests that could arise for these individuals and the
significant authority and potential for influence they
would wield over the incubated station. While U.S. antitrust laws prohibit, with certain exceptions, one individual from serving as an officer or director of two competing corporations, we believe that an additional safeguard is needed to address circumstances that may be
exempt from or not covered by the antitrust laws, such
as where the two companies are not competitors, where
either company is not a corporation or does not meet
certain financial thresholds, or where an officer or director of one company is an employee but not an officer or
director of the other company. 124 We note that NAB
and MMTC previously stated that the incubating entity
and the incubated entity should not share common officers or directors.125 As discussed above, we believe that

of Entity Holding Broadcast Station Construction Permit or License, Worksheet # 3 at p. 9, https://transition.fcc.gov/Forms/Form315/
315.pdf.
124
See 15 U.S.C. § 19.
125
See Letter from David Honig, President, MMTC, and Jane E.
Mago, Executive Vice President and General Counsel, Legal and
Regulatory Affairs, NAB, to Marlene H. Dortch, FCC, Secretary,
MB Docket No. 09-182, attach. at 2 (filed Jan. 30, 2013) (MMTCNAB Jan. 30, 2013 Joint Ex Parte); NAB Comments at 2 (noting that
NAB joined with MMTC to propose some of the key elements of an
incubator program and citing the MMTC-NAB Jan. 30, 2013 Joint
Ex Parte).

633
an even stronger safeguard is necessary to ensure the
independence of the incubated station.
56. Limitations on Incubation Relationships Per
Market. We will allow each incubating entity to incubate no more than one station per market, as defined for
purposes of determining compliance with the Local Radio Ownership Rule. 126 This will help ensure that the
benefits that flow from our incubator program reach
multiple markets and that our program is not used to
restrict the limited number of local broadcast radio
channels to one or a few radio station owners.127 While
an established broadcaster that is already in an approved incubation relationship may not concurrently incubate multiple stations in the same market, the incubating broadcaster may apply to incubate a different
station in another market. Consistent with the certifications and other requirements discussed herein,128 the
established broadcaster would need to demonstrate that
it will provide the resources necessary to incubate the
additional station(s). Moreover, a prospective incubating entity may seek to incubate a station in a market
where there is already an ongoing incubation relation-

See 47 CFR § 73.3555(a); see also Order on Reconsideration, 32
FCC Rcd at 9841-46, paras. 87-95 (discussing methodology used to
determine radio markets for purposes of the Local Radio Ownership
Rule).
127
See infra paras. 67-70; Second Report and Order, 31 FCC Rcd
at 9897, para. 82.
128
See infra Section E.
126

634
ship involving a different station if the prospective incubating entity is not a party to or participant in that ongoing relationship.129
D.

Benefit to Incubating Entity

57. In this section, we discuss the benefit that an
established broadcaster will be eligible to receive for
successfully completing a qualifying incubation relationship, namely a waiver of the Local Radio Ownership
Rule. We discuss below the terms associated with the
waiver and the standard for granting such a waiver.
58. Acknowledging that proponents of a broadcast
incubator program have previously suggested that incubating entities receive a waiver of our local broadcast
ownership rules in exchange for participating in an incubator program, the NPRM sought comment on how
to structure the waiver element or other appropriate incentive.130 In particular, the NPRM sought comment
on whether the waiver should allow the incubating entity
to obtain an otherwise impermissible non-controlling,
attributable interest in the incubated station or to acquire a different station in the same market or any similarly sized market.131 Among other things, the NPRM
also sought comment on whether a waiver should be tied
to the success of the incubation relationship, whether

As discussed below, we believe that the requirements we adopt
herein regarding the use of waivers under our incubator program
will help ensure that the program does not work against our local
radio ownership limits and that it preserves a market structure that
facilitates and encourages new entry into the local media market.
See infra Section D.
130
NPRM, 32 FCC Rcd at 9863, para. 137.
131
Id. at 9863, paras. 137-38.
129

635
the waiver should continue when the incubator program
ends, and whether the waiver should be transferrable if
the incubating entity sells a cluster of stations that does
not comply with the ownership limits at the time.132
59. Why a Reward Waiver as Opposed to Another
Type of Benefit. We conclude that our incubator program must provide a meaningful economic incentive in
order to encourage established broadcasters to commit
the substantial financial and other resources needed to
incubate a new entrant successfully as discussed below.133 We recognize that, without active participation
by incumbent broadcasters, any incubator program we
design will be doomed to fail. Both supporters and opponents of an incubator program agree that a strong incentive is needed to entice prospective incubating entities.134 Indeed, the ACDDE states that an important
goal of the incubator program is to create a sufficient
incentive for established broadcasters to incubate new
entrants, allowing established broadcasters to grow

Id. at 9863, para. 137.
See infra para. 72-73 (discussing criteria for determining
whether an incubation relationship was successful).
134
ACDDE Comments at 2-4; NAB Comments at 11-12; Bonneville
Reply at 3; Skip Finley Reply at 2; Gray Television Reply at 1, 3;
Meredith Corporation Reply at 2 (Meredith Reply); see also 22 ACDDE Members Reply at 2, n.4 (“[T]he amount of money involved [in
a regulatory fee exemption] is probably too small to provide a sufficient incentive for incubation.”); Office of Communication, Inc., of
the United Church of Christ (UCC) et al. Comments at 8 (UCC et al.
Comments) (“[E]ven the best designed incubator program will not
be effective without any incentive for in-market licensees to participate.”).
132
133

636
their businesses while sharing with others the opportunities they may have enjoyed earlier in their careers.135
60. There is, however, a divergence of views over
what would be the best incentive. According to the
broadcasters, a waiver of the local broadcast ownership
rules is the appropriate incentive.136 The ACDDE, on
the other hand, advocates for two forms of tax relief: a
tax certificate entitling the incubating entity to defer
capital gains taxes on the sale of its interest in the incubated station upon reinvestment in a comparable property, and a tax credit of an amount equal to the appraised fair market value of the station if the incubating
entity donates the station to a mission-based entity or a
Native American Nation.137 REC Networks proposes a
regulatory fee exemption.138
61. We conclude that allowing an incubating entity
to seek a waiver of the Local Radio Ownership Rule, including the AM/FM subcap (reward waiver), in exchange
for successfully completing a qualifying incubation relationship will provide a meaningful economic incentive to
established broadcasters and thereby encourage them

ACDDE Comments at 2-3.
NAB Comments at 11-15; see also Skip Finley Comments at 35; Bonneville Reply at 3; Gray Television Reply at 1; Meredith Reply
at 2; NAB Reply at 4-9.
137
ACDDE Comments at 5-6, 30-31, 34-38 & n.74, 40 & n.83; 22
ACDDE Members Reply at 5-6. The ACDDE states that under
current law an incubating entity could be eligible for a tax deduction
upon donating a station in accordance with the ACDDE’s proposal
but that “[o]ften—especially if the station has little revenue—a tax
deduction is not a sufficient incentive to donate a station.” ACDDE
Comments at 40 & n.83.
138
REC Networks Comments at 3-4.
135
136

637
to incubate a new entrant.139 Those broadcasters who
have the experience and resources needed to incubate a
new or small broadcaster successfully are likely to be
longtime station group owners that may be at or near
the local ownership limits in one or more markets.
Consequently, based on the record in this proceeding,
we expect that a waiver of the Local Radio Ownership
Rule will be sufficiently attractive to these prospective
incubating entities to entice them to participate in the
incubator program.140 While some commenters assert
that granting waivers of local ownership rules to incu-

139
47 CFR § 73.3555(a). The Local Radio Ownership Rule permits an entity to own (i) up to eight commercial radio stations in radio markets with 45 or more radio stations, no more than five of
which can be in the same service (AM or FM); (ii) up to seven commercial radio stations in radio markets with 30-44 radio stations, no
more than four of which can be in the same service (AM or FM); (iii)
up to six commercial radio stations in radio markets with 15-29 radio
stations, no more than four of which can be in the same service (AM
or FM); and (iv) up to five commercial radio stations in radio markets
with 14 or fewer radio stations, no more than three of which can be
in the same service (AM or FM), provided that an entity may not
own more than 50 percent of the stations in such a market, except
that an entity may always own a single AM and single FM station
combination. Id.
140
We also recognize that in some instances a prospective incubating entity’s ownership interests in the market designated for incubation may require a waiver to enable a qualifying incubation relationship. We will treat these as “temporary waivers” solely for the
purposes of the qualifying incubation relationship, and we describe
in more detail below how they may be obtained. Such waivers should
not be confused with the reward waivers described here. See infra
paras. 71-72.

638
bating entities could harm rather than promote ownership diversity,141 we find that the record demonstrates a
waiver of the Local Radio Ownership Rule is the benefit
within our authority that will best provide a sufficient
incentive for established broadcasters to participate in
our incubator program. In establishing requirements
for the use of reward waivers under our incubator program for full-service AM and FM stations, we balance
our goal of preserving our local radio ownership limits
with the need to provide enough flexibility to foster participation in our program by incubating entities. We
conclude that the requirements we adopt herein regarding the use of reward waivers will help ensure that they
do not work against our local radio ownership limits and
that our incubator program preserves a market structure that facilitates and encourages new entry into the
local media market, as discussed below.142
62. We decline to rely on regulatory fee exemptions
or tax incentives to encourage participation in our incubator program. With regard to a regulatory fee exemption, we agree with the 22 ACDDE Members who
filed reply comments that a six-to-twelve-month exemption of this sort would not provide a sufficient incentive

Free Press Comments at 2-3; UCC et al. Comments at 6-8; see
also REC Networks Comments at 3-4 (“[T]here may be very few options [for encouraging established broadcasters to participate in an incubator program] other than waivers of ownership rules, which would
in turn increase the concentration of existing owners. . . . ”); ACDDE Comments at 37 (stating that awarding tax certificates in lieu
of waivers, if Congress passes legislation authorizing the Commission to do so, would not create an exception to the multiple ownership
rules and would “bend toward deconsolidation”).
142
See infra paras. 66-70.
141

639
for established broadcasters to incubate new entrants.143
In addition, we note that the Commission has previously
found that it does not have the authority to waive or defer fees categorically.144
63. As for tax certificates and tax credits, we agree
that they can provide an incentive for established broadcasters to enter qualifying incubation relationships and
143
22 ACDDE Members Reply at 2, n.4 (discussing regulatory fee
exemptions and stating that “the amount of money involved is probably too small to provide a sufficient incentive for incubation”).
144
See Establishment of a Fee Collection Program to Implement
the Provisions of the Consolidated Omnibus Budget Reconciliation
Act of 1985, Report and Order, 2 FCC Rcd 947, 961, para. 88 (1987)
(“[T]hose requesting a [case-specific] waiver or deferral [of an application fee] will have the burden of demonstrating that, for each request, a waiver would override the public interest, as determined by
Congress, that the government should be reimbursed for that specific regulatory action of the FCC.”); Implementation of Section 9 of
the Communications Act, Report and Order, 9 FCC Rcd 5333, 534446, paras. 29-35 (1994) (similarly restricting waivers of regulatory
fees only to those requests that unambiguously articulate “extraordinary and compelling circumstances” outweighing the public interest in recouping the cost of the Commission’s regulatory services
from a particular regulatee). The RAY BAUM’s Act of 2018 amended
Sections 8 and 9 of the Communications Act and provided an effective date of October 1, 2018 for such changes. Consolidated Appropriations Act, 2018, Division P—Ray Baum’s Act of 2018, Title I,
FCC Reauthorization, Public Law No. 115-141, § 102, 132 Stat. 348,
1082-86 (2018) (to be codified at 47 U.S.C. §§ 158-59, 159a). Congress envisioned a transition between fees adopted before and after
the effective date of the amendments to Sections 8 and 9. In particular, Congress provided that application fees in effect on the day before the effective date of the RAY BAUM’s Act shall remain in effect
until such time as the Commission adjusts or amends such fee. Id.
Our holding here does not address how we might view incubators
under future fee schedules adopted pursuant to Section 8 and 9 as
amended by the RAY BAUM’s Act.

640
that some believe tax certificates have been successful
in the past in bringing new and diverse entrants to the
broadcasting industry,145 but we are unable to use such
measures to encourage participation in our incubator
program absent authorization from Congress. Since the
prior tax certificate program was eliminated in 1995,146
supporters have from time to time advocated for the return of the program. Indeed, the Commission itself
has previously supported the effort to reinstate tax certificates as a means for increasing ownership diversity.147 To date, however, those efforts have been unavailing. Thus, rather than indefinitely delaying implementation of an incubator program pending Congressional introduction and passage of the necessary tax legislation, we find that it is in the public interest to proceed
with the program we implement today, which will provide a meaningful incentive for established broadcasters
to incubate new entrants that genuinely need financial
and/or operational support to become independent owners. Of course, following our action today, Congress
would be able to adopt legislation either authorizing or

See ACDDE Comments at 59-60 (noting the scale of participation in the 1978-1995 Tax Certificate Program).
146
See Second Report and Order, 31 FCC Rcd at 9962, para. 238
(stating that the Commission discontinued its tax certificate policy
following the Supreme Court’s decision in Adarand Constructors,
Inc. v. Peña, 515 U.S. 200 (1995), and that Congress subsequently
repealed the tax certificate policy as part of its budget approval process).
147
Section 257 Triennial Report to Congress, Report, 31 FCC Rcd
12037, 12078, para. 139 (2016) (Fifth Section 257 Report); see also
Second Report and Order, 31 FCC Rcd at 9966, para. 244 (stating
that the Commission’s most recent Section 257 Report included a
recommendation that Congress pass tax deferral legislation).
145

641
mandating the use of tax certificates and tax credits in
our incubator program, either in addition to or in lieu of
reward waivers, should it so choose.
64. Timing and Duration of Reward Waiver. The
reward waiver will be available to the incubating entity
after the successful completion of a qualifying incubation
relationship. The process for determining whether an incubation relationship has been successful is described
more fully below.148 While NAB proposes that the reward waiver be available to the incubating entity prior
to the end of the incubation relationship,149 we believe
that an incubating entity will have a much stronger incentive to cultivate the incubated entity as an independent broadcaster if the reward waiver is available to the
incubating entity only after it successfully completes the
qualifying incubation relationship.150 To use its reward
waiver, the incubating entity must seek to acquire a fullservice AM or FM station and file the waiver request
within three years after the successful conclusion of the

Specifically, successful incubation requires the incubating entity to certify: (i) that it complied in good faith with its incubation
agreement, as submitted to and approved by the Media Bureau (Bureau), and the requirements of our incubator program discussed
herein; and (ii) either that the incubated entity holds a controlling
interest in the incubated station or a newly acquired station, or if the
incubated station was a struggling station, that the incubation relationship has resolved any financial and/or technical difficulties that
the owner of the previously struggling station faced prior to incubation. See infra para. 72.
149
See NAB Comments at 13-15; see also Bonneville Reply at 3
(supporting NAB proposals); Gray Television Reply at 1 (supporting
NAB proposals); Meredith Reply at 2 (supporting NAB proposals).
150
See infra Section E.
148

642
qualifying incubation relationship. 151 We believe it is
necessary to require that each reward waiver be used in
proximity to the associated incubation relationship in order to aid our tracking and recordkeeping, and so the
Commission is able to consider the availability of such
benefits in the context of ownership rules and competition in radio markets close in time to when the incubation relationship occurs. We also believe that the incubating entity will have every incentive to acquire a fullservice AM or FM station using the reward waiver as
quickly as possible following the successful conclusion of
the qualifying incubation relationship. Therefore, we
reject NAB’s assertion that an unused reward waiver
should not expire.152
65. We do, however, recognize that retaining the
value of a station cluster that includes a reward waiver
is an important part of the benefit afforded to an incubating entity.153 Consequently, as long as the cluster
that is initially formed using the reward waiver is transferred intact, we will permit the waiver to be transferred
with the station group.154 Permitting transfer of the initial cluster preserves any increase in value achieved by
the incubating entity for its efforts in bringing a new
broadcaster into the market. We do not, however, permit the waiver to move separately from the station cluster, as we also seek to ensure that those who have not
See infra Section E.3 (discussing Bureau review and grant of
reward waiver requests).
152
See NAB Comments at 14.
153
See Letter from Patrick McFadden, Associate General Counsel,
NAB, to Marlene H. Dortch, Secretary, FCC, MB Docket No.
17-289 et al., at 5 (filed July 26, 2018).
154
See NAB Comments at 13, n.32.
151

643
advanced diversity via participation in the program do
not receive a windfall. Consequently, the waiver will
continue in effect as long as the cluster remains intact.155
Further, a single party may not hold the benefit of more
than one waiver in a market granted under our incubation program, meaning that a station cluster that exceeds the applicable ownership rule by virtue of an incubation reward waiver may not be transferred to an entity that already holds such a waiver in the market. In
addition, we will permit the incubating entity to use its
reward waiver to engage in an in-market station swap,
which will not impact ownership diversity in the market
or allow a broadcaster to obtain a reward waiver without
making a countervailing contribution to ownership diversity.
66. Markets Where Reward Waiver May Be Used.
We will allow an incubating entity to use a reward
waiver to acquire an otherwise impermissible attributable interest to: (i) purchase a full-service AM or FM station located in the same market as the incubated station,
(ii) purchase a full-service AM or FM station located in
a market that is comparable to the market in which the

This is consistent with the one-waiver-per-market limitation we
discuss below, which permits an incubating entity that receives multiple reward waivers under our program (as a result of incubating
multiple new entrants) to use no more than one reward waiver per
market. See infra para. 70. In addition, as a result of our onewaiver-per-market limitation, the purchaser of a cluster of stations
acquired by an incubating entity through use of its reward waiver
will not be able to incubate a station in any market in which the purchaser owns such a cluster of stations.
155

644
incubation occurred,156 as defined below, or (iii) if the incubated entity chooses not to exercise its option to purchase the incubating entity’s non-controlling interest in
the incubated station,157 to retain an otherwise impermissible attributable interest in the incubated station after the incubation relationship ends (including acquiring
a controlling interest in the incubated station if the incubated entity acquires a controlling interest in another
full-service AM or FM station). An incubating entity
that uses a reward waiver in a comparable market may
also choose to retain its non-controlling attributable interest in the incubated station if permitted by our ownership rules. Commenters that support the use of
waivers in our incubator program agree that we should
allow an incubating entity to use a reward waiver in a
market other than the incubation market, and we believe this will expand opportunities for incubation by not
limiting participants only to markets where the incubating entity is at or near the applicable local radio ownership limits.158 To preserve competition in even the
smallest markets, however, we will not allow an incubating entity to use a reward waiver in a market where the
waiver would result in the incubating entity holding attributable interests in more than 50 percent of the fullservice, commercial and noncommercial radio stations in
See Skip Finley Comments at 3-5 (proposing that incubating entity be allowed to use reward waiver in comparable markets as long
as the proposed combination would not exceed a 40 percent revenue
share); see also NAB Reply at 5 (stating that incubating entity
should be allowed to use its waiver in a different market than where
the incubated station is located).
157
See infra paras. 43-44.
158
NAB Comments at 13-15; NAB Reply at 5, n.14; Bonneville Reply at 3; see Gray Television Reply at 1; Meredith Reply at 1-3.
156

645
a market. Thus, consistent with our existing Local Radio Ownership Rule,159 an incubating entity will not be
able to hold an attributable interest in more than 50 percent of the full-service, commercial and noncommercial
radio stations in a market unless the combination of stations comprises not more than one AM and one FM station.160 Given our decision to allow a reward waiver to
be used only if the incubating entity will not hold an attributable interest in more than 50 percent of the fullservice, commercial and noncommercial radio stations in
a market, we do not think it is necessary to adopt a cap
on the in-market revenue share of station combinations
resulting from the use of a reward waiver as one commenter proposes. 161 We believe that a cap on the inmarket revenue share of station combinations, which is
more likely to change from year to year, would not be as
effective as a cap on the share of stations that an incubating entity may own in a reward market.
67. We will consider a market to be “comparable”
to the market where the incubation relationship occurred if, at the time the incubating entity seeks to use
the reward waiver, the chosen market and the incubated
market fall within the same market size tier under our
Local Radio Ownership Rule and the number of independent owners of full-service, commercial and noncommercial radio stations in the chosen market is no fewer
than the number of such owners that were in the incu-

See supra note 143 (summarizing Local Radio Ownership
Rule).
160
See 47 CFR § 73.3555(a).
161
See Skip Finley Comments at 3-4.
159

646
bation market at the time the parties submitted their incubation proposal to the Commission.162 Restricting an
incubating entity that uses a reward waiver to purchase
a station in another market to a comparable market will
help ensure that the local impact of the reward waiver
on the number of independent owners is similar to that
of the incubated station in its market.163 Thus, it balances our desire to limit the impact of any potential consolidation that could result from the use of a reward
waiver with our goal of expanding broadcast station

162
In the Order on Reconsideration, the Commission revised the
Local Television Ownership Rule to eliminate the Eight-Voices Test.
Order on Reconsideration, 32 FCC Rcd at 9834-36, paras. 73-77.
Because our market comparability standard does not require a specific number of independent voices in a market, it is consistent with
the decision in the Order on Reconsideration to eliminate the EightVoices Test. We note that Skip Finley, an experienced minority
broadcaster, proposes that the Commission allow an incubating entity to use its reward waiver in a market that is comparable to the
incubation market, and we agree that doing so will help promote the
broad distribution of the benefits of our incubator program. Skip
Finley Comments at 4-5.
163
For instance, if an established broadcaster incubates a station
in a market that already has five independent owners at the time the
parties submit the incubation proposal for the station, the incubating
broadcaster will be able to use its waiver only in a market with at
least five independent owners. As a result, the number of independent owners in the market where incubation occurred would either
remain at five or increase by 20 percent, depending on whether the
incubated entity already owned a station in the market prior to the
incubation relationship, and similarly the number of independent
owners in the reward market would either remain at a minimum of
five or decrease by no more than 20 percent, depending on whether
the reward waiver is used to acquire a station from an owner of an
individual station or an owner of group of in-market radio stations.

647
ownership opportunities for small businesses and potential new entrants by allowing an incubating entity to incubate in markets other than those in which it is at or
near the applicable local radio ownership caps. To the
extent NAB seeks even greater flexibility and proposes
that we permit an incubating entity to use a reward
waiver in any market it wishes,164 we reject that element
of NAB’s proposal. For the reasons discussed above,
we believe that the better approach is to require that a
reward waiver be used either in the same market where
the incubation relationship occurred or in a comparable
market.165
68. A group of commenters contend that our definition of comparable market could result in applying a reward waiver in a much larger market than that in which
incubation occurred and propose limiting the definition
of a “comparable market” to those markets ranked
“5 Up/5 Down” from the incubation market based on
Nielsen’s population rankings. 166 We conclude, however that the proposed definition would not necessarily
lead to incubation and use of waivers in markets that are
truly more “comparable” with respect to the number of
See, e.g., NAB Reply at 5, n.14.
Thus, a broadcaster that incubates a new independently owned
and operated FM station in a market with six independent radio station owners will not be able to use its reward waiver in a market with
only three such owners. Conversely, a broadcaster that incubates
an AM station in a market that falls within the smallest market-size
tier under our Local Radio Ownership Rule will not be able to use a
reward waiver on an FM station in a market that falls within the
largest tier. See Skip Finley Comments at 4 (stating that the Commission could require that the value of the reward station be proportional to the value of the incubated station).
166
Honig July 26, 2018 Ex Parte at 2.
164
165

648
stations and independent owners than the definition we
adopt above. As an initial matter, we note that the
Nielsen rankings are based on the population of the relevant market, not on the number of stations in a given
market or the number of independent owners. Thus,
the markets five up or five down from the incubation
market might not have the same number of stations or
independent owners as the incubation market—the very
factors we find most relevant in assessing the diversity
of the market. For example, according to Nielsen data
from Fall 2017, Baltimore is ranked as market 21 and St.
Louis is ranked as market 23, yet Baltimore has only 35
stations, while St. Louis has 68 stations, resulting in the
markets being subject to different ownership caps under our rules.167 In crafting our standard, we focused
primarily on preventing the potential for ownership consolidation in a market with fewer stations and independent owners than the market in which the incubation relationship added a new entrant. In addition, we note
that ownership interests and circumstances vary widely
among incumbent broadcasters, and it is not self-evident
that an incubating entity will seek to use a reward
waiver in the market with the largest population possible. Rather, we expect the decision will be driven by
where the group owner faces ownership restrictions or
wishes to grow a successful cluster. Finally, it is possible that the incubating entity does not own any stations in markets that are within five up or five down
from the incubation market, in which case it would have
no flexibility to use the reward waiver. In this regard,
we agree with NAB that the “5 Up/5 Down” proposal is
Nielsen, Radio Market Survey Population, Rankings & Information (2017).
167

649
“unduly restrictive” and could have the effect of inhibiting participation by potential incubating broadcasters.168
For all of the foregoing reasons, therefore, we decline to
adopt the “5 Up/5 Down” proposal.
69. While we believe that incubating entities will
have no difficulty using reward waivers under our market comparability standard, we may allow an incubating
entity to use a reward waiver in a market that does not
meet our comparability standard if, due to changed circumstances following the parties’ submission of their incubation proposal, there is no longer a comparable market in which the incubating entity is at the local radio
ownership cap or AM/FM subcap and the incubating entity demonstrates why doing so is consistent with the
public interest. However, we anticipate that incubating entities will consider our market comparability
standard when choosing a candidate to incubate given
our decision to allow an incubating entity to use its reward waiver in a market that meets that standard.
70. We will allow an incubating entity that receives
multiple reward waivers under our program (as a result
of incubating multiple new entrants) to use no more than
one reward waiver per market. This, as well as our decision above to grant an incubating entity a reward
waiver only after the incubating entity successfully completes a qualifying incubation relationship and only in
the same market as the incubated station or a comparable market, will help ensure that reward waivers do not
work against our local radio ownership limits. Indeed,
our local radio ownership limits promote competition
and viewpoint diversity by ensuring a sufficient number
168

NAB July 25, 2018 Ex Parte at 4.

650
of independent radio voices and by preserving a market
structure that facilitates and encourages new entry into
the local media market. 169 The safeguards that we
adopt today will help ensure that our incubator program
preserves such a market structure while further promoting the entry of new and diverse voices in broadcast
radio.
71. Temporary Waiver for Purposes of Qualifying
Incubation Relationships. In some cases, a prospective incubating entity may already hold attributable interests in the maximum number of radio stations permitted by our Local Radio Ownership Rule in the market where it seeks to engage in a qualifying incubation
relationship. To ensure that, in such circumstances, a
prospective incubating entity may still participate in our
program, we will grant such an incubating entity a temporary waiver of the Local Radio Ownership Rule (including the AM/FM subcap) if the incubation relationship would result in the incubating entity holding an otherwise impermissible, non-controlling attributable interest in the incubated station. If such a waiver is necessary, the Bureau will consider and approve such a
waiver when reviewing the incubation proposal.170 This
temporary waiver will expire when the incubation relationship ends. 171 At that point, if the incubating entity

See Second Report and Order, 31 FCC Rcd at 9897, para. 82.
See infra Section E.1 (discussing procedures for filing incubation proposals).
171
As discussed below, if the incubating entity seeks to use its reward waiver to retain an otherwise impermissible attributable interest in the incubated station, the incubating entity’s temporary waiver
(if it has one) will remain in effect during the Bureau’s review of the
169
170

651
has met all its obligations under the approved incubation
relationship and demonstrates that the relationship was
successful as discussed below, the incubating entity will
be able to obtain a reward waiver as discussed herein.
72. Criteria for Granting a Waiver. We will review requests for both the reward and temporary waiver
pursuant to Section 1.3 our rules, which requires a showing of “good cause” and applies to all Commission rules.172
With regard to the temporary waiver, the incubating entity and incubated entity must demonstrate, as described in greater detail below, that they are both eligible for, and intend to engage in, a qualifying incubation
relationship. To receive a reward waiver, the incubating entity must demonstrate that it has completed a successful qualifying incubation relationship.
Specifically, the incubating entity must certify (i) that it complied in good faith with its incubation agreement, as submitted to and approved by the Bureau, and the requirements of our incubator program discussed herein; and
(ii) either that the incubated entity holds a controlling
interest in the incubated station or a newly acquired fullservice AM or FM station, or if the incubated station
was a struggling station, that the incubation relationship has resolved the financial and/or operational difficulties that the owner of the previously struggling station faced prior to incubation and sought to remedy
through the incubation relationship. If these criteria
are met, we will consider the qualifying incubation relationship to be successful even if the incubating entity re-

incubating entity’s timely filed waiver request. See infra Section
E.3.
172
47 CFR § 1.3.

652
tains a non-controlling attributable interest in the incubated station when the relationship concludes, provided
that the incubating entity’s interest in the station complies with the applicable ownership limits or is permissible pursuant to a waiver of the local radio ownership
limit (including the AM/FM subcap). After the incubating entity demonstrates that it has completed a successful qualifying incubation relationship as discussed
herein, the incubating entity need not engage in any
other actions to receive a reward waiver, beyond seeking to use the waiver in a comparable market and otherwise being in compliance with Commission rules and requirements, and there will be a rebuttable presumption
that granting the waiver is in the public interest.
73. We find that “good cause” exists to grant these
temporary and reward waivers because doing so yields
benefits to competition and ownership diversity in a local market that outweigh the impact on local competition
in the market in which a waiver is granted. By tying
grant of the reward waiver directly to station ownership
by a new or previously struggling entity and restricting
the use of reward waivers as discussed herein, any consolidation resulting from the use of a reward waiver will
be limited and accompanied by the establishment of a
new, or stronger, broadcaster in the same or a comparable market. Indeed, it is our determination herein
that the public interest would not be served by strictly
applying the Local Radio Ownership Rule (including the
AM/FM subcaps) where an established broadcaster that
engages in a qualifying incubation relationship seeks a
waiver of the rule as discussed in this Order. While in
the context of Section 1.3 waiver requests, the Commis-

653
sion has considered showings of undue hardship, the equities of a particular case, or other good cause,173 in this
particular context an applicant is required to make a
narrower showing as discussed herein. If the applicant
demonstrates that it has engaged in a successful qualifying incubation relationship and that grant of a waiver
is consistent with the goals of our incubator program,
there will be a rebuttable presumption that granting a
waiver in the incubation market or a comparable market
is in the public interest.
E.

Procedures for Filing, Reviewing, and Monitoring Compliance of Incubation Relationships

74. Before the parties commence a qualifying incubation relationship, the Bureau must determine that the
relationship is designed to help a new entrant, small
broadcaster, or struggling broadcaster gain the ability
to own and operate a full-service AM or FM station independently and that the relationship otherwise qualifies for the program. This section lays out the process
for submission and review of incubation relationship
proposals and how compliance will be monitored during
the incubation relationship. In addition, this section
describes how the Bureau will determine whether a particular incubation relationship has been successful, such
that the incubating entity is eligible to seek a reward
waiver. We direct the Bureau to implement these procedures.

See Northeast Cellular Tel. Co., L.P. v. FCC, 897 F.2d 1164,
1166 (D.C. Cir. 1990); WAIT Radio v. FCC, 418 F.2d 1153, 1157
(D.C. Cir. 1969).
173

654
75. As a threshold matter, we note that all incubation proposals must be based on prospective relationships. Incubating broadcasters will derive a significant
benefit by receiving the reward waiver. Consequently,
all incubation proposals must demonstrate a strong likelihood of promoting the ultimate program goal of bringing greater ownership diversity to the broadcast sector.
This will be done by either enabling the incubated entity
to own and operate a newly acquired full-service AM or
FM radio station independently, or by improving the incubated entity’s ability to retain and operate independently the struggling station it currently owns. To ensure that a proposed incubation relationship comports
with the program’s goal of broadening ownership diversity, we require prior Bureau review of the proposal
with an eye towards its adherence to the program requirements described in the instant order.
1.

Bureau Review of Incubation Proposals

76. Process for Submitting Incubation Proposals.
There are several ways in which an incubation proposal
might come before the Bureau. We expect that most incubation proposals will accompany an assignment, transfer of control, or construction permit application.174 We

FCC Form 301, Application for Construction Permit for a Commercial Broadcast Station, https://transition.fcc.gov/Forms/Form301/
301.pdf FCC Form 314, Application for Consent to Assignment of
Broadcast Station Construction Permit or License, https://transition.
fcc.gov/Forms/Form314/314.pdf; FCC Form 315, Application for Consent to Transfer Control of Entity Holding Broadcast Station Construction Permit or License, https://transition.fcc.gov/Forms/Form315/
315.pdf. We note that, in addition to filing with the Bureau, parties
must retain a copy of all application materials, including the proposed incubation agreement, in their public inspection files.
174

655
direct the Bureau authority to modify the FCC Forms, including instructions and worksheets, as needed to enable applicants to indicate on the relevant FCC Form
that the submission involves an incubation proposal.
Such applications seeking to transfer, assign, or obtain
an authorization are subject to public notice and petitions to deny and informal objections under the Commission’s rules,175 and in addition to reviewing such applications pursuant to its routine review processes, 176
the Bureau will review accompanying incubation proposals and approve or reject such proposals.177 As part
of this review, the Bureau will also assess whether any
request for temporary waiver of the ownership rules in
the incubated market should be granted to permit the
incubation relationship.
77. For any incubation relationship that does not
trigger a FCC Form filing requirement, the proposal
must be filed as a Petition for Declaratory Ruling in the
Incubator docket, MB Docket No. 17-289, in the Commission’s Electronic Comment Filing System (ECFS).178
Just as in the application context, if a temporary waiver
See 47 CFR § 73.3584 (procedure for filing petitions to deny for
broadcast applications); id. § 73.3587 (procedures for filing informal
objections to broadcast applications).
176
We remind incubator program applicants that they are also subject to our qualifications standards and other requirements for
broadcast applicants, as discussed in our rules and the relevant application forms. See, e.g., 47 CFR Pts. 1, 73; Form 301; Form 314;
Form 315.
177
We anticipate that applicants will be cognizant that the Bureau
may need additional time to process a Form 301, Form 314, or Form
315 application where the application includes an incubation proposal.
178
See 47 CFR § 1.2 (discussing petitions for declaratory ruling).
175

656
of the ownership rules is needed for the incubation relationship, then the waiver request must accompany the
Petition for Declaratory Ruling. The Bureau will act
on such petitions and temporary waiver requests pursuant to its standard processes. As described above, any
temporary waivers needed for the incubator program,
irrespective of whether the proposal comes via an application or a Petition for Declaratory Ruling, will be
granted (or denied) pursuant to section 1.3 of the Commission’s rules.179
78. The key factors guiding review of an incubation
proposal will be whether: 1) the potential incubated
entity has the wherewithal to obtain the necessary financing and support, absent the proposed incubation relationship; 2) the proposal provides for an incubation relationship addressing the needs that the incubated entity has (e.g., financial, technical, managerial, etc.) to be
able to own and operate a full-service AM or FM station
independently after the relationship has ended;180 and
3) the incubated entity retains de jure and de facto control over the station to be incubated. To assess whether
the incubation proposal meets these factors, the Bureau
will review two forms of documentation: 1) a written incubation contract between the parties; and 2) a certified
statement that the incubated and incubating entities
must each submit. These submissions will be the Bureau’s best indications of whether the proposed incubation relationship is likely to promote the program’s goals
of increasing diverse station ownership by enabling a
See id § 1.3.
See supra paras. 38-42 (discussing the types of support that an
incubating entity must provide during a qualifying incubation relationship).
179
180

657
qualified incubated entity to own and operate a full-service
AM or FM station independently. The Bureau, however, may also require the applicants to submit additional information if needed to determine whether the
proposed incubation relationship is likely to promote the
goals of our incubator program as discussed herein.
79. Written Incubation Contract. The incubation
proposal must contain a written contract between the
parties memorializing all aspects of the incubation relationship, so as to demonstrate both compliance with program requirements (e.g., that the incubated entity has
both de jure and de facto control) and the steps the parties will take to put the incubated entity in a position to
own and operate a full-service AM or FM radio station
independently.181
80. The contract must detail the level of equity interest each party will bring to the relationship. The incubated entity must show that it is providing a minimum
equity stake as detailed above. 182 The contract must
also detail the parties’ plan to unwind the incubation relationship and the steps they will take to enable the incubated entity to own and operate a full-service AM or
FM station independently, be it the station that is the
subject of incubation or another station to be acquired
upon conclusion of the incubation relationship.183 The

See supra Section C. (discussing qualifying incubation relationships).
182
See supra para. 50 (requiring incubated entity to satisfy control
test consistent with our existing revenue-based eligible entity definition).
183
NAB Comments at 10 (stating that “the agreement also should
specify how and when the incubation relationship will conclude”).
181

658
contract must provide the incubated entity with the option to buy out the incubating entity’s non-controlling
interest in the incubated station. As described above,184
the incubated entity can choose not to pursue this option
and maintain the existing relationship along with its
controlling interest. Alternatively, the incubated entity may choose to sell its interest in the incubated station and use the proceeds from the sale to acquire another full-service AM or FM station. In that case, we
expect the incubating entity to help the incubated entity
identify a full-service AM or FM station to buy and obtain the financing necessary to purchase the station.
The contract must also provide for this alternative option. We require the contract to contain both options
because we recognize that the incubated entity may not
be well-positioned at the outset of the relationship to determine which approach best suits its long-term business interests in the broadcast sector. The incubated
entity’s anticipated growth trajectory may change as a
result of the incubating entity’s mentorship and introduction to capital sources that may have been previously
unavailable. 185 Indeed, we hope this will be the case.

See supra Section C.
See, e.g., Patrick Communications Ex Parte at 4 (describing how
the initial entry of several now successful broadcast station owners
was facilitated by sponsors who helped them with their initial purchases); Skip Finley Comments at 3 (stating that access to capital
has remained the largest impediment to ownership); ShootingStar
Ex Parte at 1 (stating that access to capital is one of the primary
challenges that new entrants face in the broadcasting industry);
Ohana Media Ex Parte at 2 (stating that access to capital is a significant barrier for new entrants and small broadcasters seeking to
grow); Hardman Broadcasting Ex Parte at 1 (stating that access to
capital is the greatest barrier to station ownership).
184
185

659
Consequently, while still ensuring that the incubated entity ultimately independently owns and operates a radio
station, we do not mandate a pre-determined mechanism for how this goal will be achieved. As described
below, however, the parties must notify the Bureau no
later than six months before the end of the contract term
which option they intend to pursue.
81. Certified Statements. Along with a written
agreement detailing the terms of the incubation relationship and the rights and obligations of each party, the
incubating and incubated entities must each file a certified statement describing, among other things, each
party’s background, qualifications, and resources, and
how these will enable the party, via the incubation relationship, to promote the goals of the incubator program
—i.e., enabling a new entrant or small business to own
and operate a full-service AM or FM station independently or to place a previously struggling station on
a firmer footing. As part of the statement, the incubated entity must certify that its annual revenues for the
previous three years did not exceed the SBA revenue
standard and that during the preceding three years it
held attributable interests in no more than three fullservice AM and FM stations (listing the stations, community of license, and facility IDs of each), and that it
did not hold an attributable interest in any TV stations,
consistent with the eligibility standards adopted above.
In addition, if the incubation proposal is being filed as a
Petition for Declaratory Ruling, the potential incubated
entity must make the same certifications and attribution

660
disclosures that it would have had to submit were it filing the FCC Form 301, 314, or 315.186 We also require
a potential incubated entity to include in its application
a certified statement laying out why it is unable to acquire a controlling interest in the incubated station, or
successfully operate the station, absent the proposed incubation relationship and the funding, support, or training provided thereby.187
82. Likewise, the incubating entity must certify
that it has the resources and experience necessary to
help the incubated entity become an independent owner
and operator of the incubated station or another full-service
AM or FM station and that it will devote those resources
and experience to achieve that goal.188 Dedicating executive and management personnel to provide training,
strategic advice, and other support to the incubated entity may help demonstrate that an experienced broadcaster is committed and has the resources necessary to
incubate a new entrant successfully.189 Longtime ownership of radio stations that are in the same service as
the incubated station and in multiple markets is another
indicator of the owner’s potential for success as an incubator. Indeed, due to their resources and experience,
As discussed above, we require these certifications and disclosures to address the ACDDE’s concerns about familial and spousal
relations. See supra para. 33.
187
See supra paras. 28-33 (describing concerns about legacies and
others who may not need the assistance of an incubator program).
188
See supra paras. 37-42 (describing the types of support that an
incubating entity must provide during a qualifying incubation relationship).
189
See supra para. 41 (providing examples of the type of operational
support the incubating entity might provide during an incubation relationship).
186

661
station group owners may be in a particularly good position to help persons not only become radio licensees
but also succeed in radio station ownership. In addition, the incubated and incubating entities must both
certify that the incubated entity will maintain operational and management control of the station, including
decisions regarding programming, personnel, and finances.190 These submissions will enable the Bureau to
verify that the incubated entity is a bona fide entity,
without links to the incubating entity absent the incubation relationship, and truly needs the resources of the
incubator program.
83. The goal of this program is to bring new voices
to the local radio market and to stabilize those small
broadcasters that might otherwise drop out of the market. While recognizing that the waiver the incubating
entity will receive at the end of the incubation relationship is the best way to encourage participation in our
program by established broadcasters, we do not grant
these waivers lightly. The submissions described above
provide an additional opportunity to ensure that both
the incubating and incubated entities are legitimate participants in the program. If the Commission determines
at a later date that either submission contained a misrepresentation this could lead to a withholding or revocation of a waiver, as well as referral to the Enforcement
Bureau for further action.

See supra paras. 48-55 (requiring that the incubated entity
maintain control of the incubated station).
190

662
2.

Compliance During Term of Incubation
Relationship

84. Once the incubation contract has gone into effect, on the annual anniversary of the effective date of
the contract, the incubating and incubated entities must
jointly file a certified statement describing the incubation activities during the preceding year and how these
comport with the commitments laid out in the incubation
contract. The statement must describe the progress
being made towards the ultimate goal of station ownership, or greater stability regarding current ownership,
by the incubated entity.191 This annual certified statement must be filed both in the Incubator docket via
ECFS and the parties’ public inspection files, so as to
enable public review. These statements will be the primary mechanism by which the Commission and the public can gauge compliance with the terms of the incubation contract and progress towards the goal of independent station ownership. If, upon review of an annual
statement, the Bureau has questions or concerns, staff
may follow up with the parties.192
85. No later than six months before the contract
termination date, the parties must make a submission to
the Commission stating which option for station owner-

See REC Comments at 4 (describing how periodically filed reports should indicate the types of training, mentoring or other activity that the incubating entity is conducting as well as a statement
about how far the incubated station’s learning path has progressed
and where additional education may be necessary).
192
See Comments of REC at 4 (stating “[c]ompliance can’t be outsourced to be self-policed by the industry, it must be enforced at the
Commission”).
191

663
ship the incubated entity plans to pursue at the conclusion of the relationship—e.g., indicating that the incubated entity intends to buy out the incubating entity’s
non-controlling interest in the incubated station or that
the parties will work together to identify and secure another full-service AM or FM station for the incubated
entity to acquire. Accordingly, during the remainder
of the contract period, both parties can devote some resources towards effectuating the station ownership goal.
For example, both parties may need to commit some resources towards finding a new station or obtaining financing for the incubated entity or both.
3.

Final Bureau Review and Grant of Reward
Waiver to Incubator

86. At the end of the three-year contract period, the
parties must again file a joint certified statement reporting on the previous year’s incubation activities. This submission will, however, also state whether the incubated
entity has acquired a new station or will continue to retain its controlling interest in the incubated station, either with or without pursuing its option to buy out the
incubating entity’s non-controlling interest. If the goal
of the incubation relationship was to stabilize a previously struggling station, this third annual filing must describe the current status of the incubated station and
whether it is now on a firmer footing. In the event of a
shorter incubation relationship due to exceptional progress on the part of the incubated entity in becoming an
independent owner and operator of a full-service AM or
FM station, the same filing requirement will apply, only
the filing may be made before the third year. The Bureau will have 120 days after the filing of this statement

664
to review the submission and ensure that the expectations for the incubation relationship and all program requirements were met.193 The Bureau may extend the
review period if needed. If the incubation relationship
required a temporary waiver of the ownership cap and
the incubating entity plans to use its reward waiver to
retain an otherwise impermissible attributable interest
in the incubated station, including buying out the incubated entity’s interest in the incubated station, then the
incubating entity must file a waiver request along with
the final joint statement. The temporary waiver will
remain in effect during the Bureau’s review period. In
the event that the incubation relationship is deemed unsuccessful and the incubating entity cannot receive a reward waiver, the Bureau will extend the temporary waiver
for a set time period as necessary to give the parties an
opportunity to unwind the relationship.
87. In the absence of any negative determination
from the Bureau by the end of the 120-day review period, following submission of a final joint statement, the
incubating entity will then have three years in which to
submit a request to use the presumptive reward waiver.
The request must be submitted with a copy of the Bureau document(s) that approved the qualifying incubation relationship, including any document(s) that approved an extension of the original term as discussed
above. 194 If the incubation relationship proposal was

The 120-day timelines discussed herein do not apply to the Bureau’s processing and review of assignment or transfer of control applications.
194
See supra para. 45 (discussing duration of qualifying incubation relationships).
193

665
submitted and approved as part of a Form 301 construction permit application or a Form 314 or Form 315 assignment or transfer of control application, the waiver
request must also include the file number of the approved application. As described above, there is a rebuttable presumption that granting a reward waiver is
in the public interest if the incubating entity seeks the
waiver for either the incubated market or a comparable
market and the incubating entity is otherwise in compliance with the Commission’s rules and requirements. If
the incubating entity wishes to use its reward waiver to
purchase the incubated station, it must file its application seeking an assignment of license or transfer of control application contemporaneously with its final annual
certified statement. It is necessary for the incubating
entity to do this to ensure that the ownership limits in
the incubated market are not violated when the temporary waiver for the incubation period expires.
88. While incubation contracts are intended to last
no longer than three years, parties may extend the incubation relationship for one additional period of up to
three years subject to Bureau approval. For example,
if the parties believe they need an additional six months
beyond the initial three-year period to complete a new
station purchase then they must seek an extension for
six months. Parties that wish to extend their relationships must file this request no later than 120 days before
the end of the initial three-year contract period. The
incubating entity, however, may only seek a reward waiver,
either for the incubated market or another market, after
the successful completion of the incubation relationship,
whatever the extended time period is—be it six months
or three years. If, as part of the extension, there are

666
any revisions to the initial incubation contract, the proposed revised contract must be filed along with the extension request. The Bureau will have 120 days to review the revised contract and request for extension.
Absent Bureau action to the contrary within the 120-day
period, the revised contract and request for extension
time will be deemed effective, assuming they do not involve an assignment or transfer of control of a station.
If there are no changes in the ownership/attribution/control structure of the agreement (e.g., incubator’s control
over the incubated station has not increased), it is unlikely to raise concerns for the Bureau. As a general
matter, the requirements for the standard three-year
contract period will apply during this extended period,
but there may need to be some modifications depending
on the circumstances. For example, an annual filing
requirement will not make sense for a three-month extension. The Bureau will notify the parties of any such
modifications.
V.

PROCEDURAL MATTERS

89. Final Regulatory Flexibility Analysis.—As required by the Regulatory Flexibility Act of 1980, as
amended (RFA),195 the Commission has prepared a Final Regulatory Flexibility Analysis (FRFA) relating to
this Order. The FRFA is set forth in the Appendix.

See 5 U.S.C. § 603. The RFA, see 5 U.S.C. § 601 et seq., has been
amended by the Small Business Regulatory Enforcement Fairness
Act of 1996 (SBREFA), Pub. L. No. 104-121, Title II, 110 Stat. 857
(1996). The SBREFA was enacted as Title II of the Contract with
America Advancement Act of 1996 (CWAAA).
195

667
90. Paperwork Reduction Act Analysis.—This Order contains information collection requirements subject to the Paperwork Reduction Act of 1995 (PRA),
Public Law 104-13. The requirements will be submitted to the Office of Management and Budget (OMB) for
review under Section 3507(d) of the PRA. OMB, the
general public, and other Federal agencies will be invited to comment on the information collection requirements contained in this proceeding. The Commission
will publish a separate document in the Federal Register
at a later date seeking these comments. In addition,
we note that, pursuant to the Small Business Paperwork
Relief Act of 2002, Public Law 107-198, see 44 U.S.C.
§ 3506(c)(4), the Commission previously sought specific
comment on how it might further reduce the information
collection burden for small business concerns with fewer
than 25 employees. We have described impacts that
might affect small businesses, which includes most businesses with fewer than 25 employees, in the FRFA in
the Appendix, infra.
91. Congressional Review Act.—The Commission
will send a copy of this Order in a report to Congress
and the Government Accountability Office pursuant to the
Congressional Review Act, see 5 U.S.C. § 801(a)(1)(A).
VI. ORDERING CLAUSES

92. Accordingly, IT IS ORDERED that, pursuant to
the authority contained in Sections 1, 2(a), 4(i), 257, 303,
307-310, and 403 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152(a), 154(i), 257, 303, 307310, and 403, this Report and Order IS ADOPTED.

668
93. IT IS FURTHER ORDERED that this Report
and Order SHALL BE EFFECTIVE thirty (30) days after publication of the text or a summary thereof in the
Federal Register, except for those requirements involving Paperwork Reduction Act burdens, which shall become effective on the effective date announced in the
Federal Register notice announcing OMB approval.
94. IT IS FURTHER ORDERED that the Media Bureau is hereby directed to make all necessary changes
to Form 301, Form 314, Form 315, and the Commission’s
electronic database system to implement the changes
adopted in this Report and Order.
95. IT IS FURTHER ORDERED that the Commission’s Consumer and Governmental Affairs Bureau,
Reference Information Center, SHALL SEND a copy of
this Report and Order, including the Final Regulatory
Flexibility Analysis, to the Chief Counsel for Advocacy
of the Small Business Administration.
96. IT IS FURTHER ORDERED that, pursuant to
Section 801(a)(1)(A) of the Congressional Review Act,
5 U.S.C. § 801(a)(1)(A), the Commission SHALL SEND
a copy of the Report and Order to Congress and to the
Government Accountability Office.
FEDERAL COMMUNICATIONS COMMISSION
Marlene H. Dortch
Secretary

669
APPENDIX
Final Regulatory Flexibility Analysis

1.
As required by the Regulatory Flexibility Act
of 1980, as amended (RFA),1 an Initial Regulatory Flexibility Analysis (IRFA) was incorporated in the Notice
of Proposed Rulemaking (NPRM) in this proceeding.2
The Federal Communications Commission (Commission) sought written public comments on proposals in
the NPRM, including comment on the IRFA. The Commission received no comments on the IRFA. The present Final Regulatory Flexibility Analysis (FRFA) conforms to the RFA.3
A.

Need for, and Objectives of, the Rule Changes

2.
The Report and Order adopts requirements
that will govern the incubator program that the Commission previously decided to adopt to support the entry
of new and diverse voices into the broadcasting industry. 4 The incubator program seeks to provide established broadcasters with an inducement in the form of
an ownership rule waiver to invest the time, money, and

See 5 U.S.C. § 603. The RFA, see 5 U.S.C. §§ 601-612, has been
amended by the Small Business Regulatory Enforcement Fairness
Act of 1996 (SBREFA), Pub. L. No. 104-121, Title II, 110 Stat. 857
(1996). The SBREFA was enacted as Title II of the Contract With
America Advancement Act of 1996 (CWAAA).
2
Rules and Policies to Promote New Entry and Ownership Diversity in the Broadcasting Services et al., Order on Reconsideration and Notice of Proposed Rulemaking, 32 FCC Rcd 9802, 9883-87,
Appx. C (2017) (NPRM).
3
See 5 U.S.C. § 604.
4
Report and Order, para. 1.
1

670
resources needed to facilitate broadcast station ownership by new and diverse entrants.5 Through the incubator program, established broadcasters (i.e., incubating entities) will provide new entrants or small broadcasters (i.e., incubated entities) with the training, financing, and access to resources that would be otherwise unavailable to these entities.6 At the end of the
incubation relationship, the incubated entity will either
own a broadcast station or will retain ownership of a previously struggling station, now set on firmer footing. 7
In return for its support, the incubating entity will receive a waiver of the Commission’s Local Radio Ownership Rule that the incubating entity can use either in the
incubated market or in a comparable market as discussed in the Report and Order, within three years of
the successful conclusion of a qualifying incubation relationship.8
3.
The incubator program will apply to full-service
AM and FM radio broadcast stations.9 To identify potential incubated entities, the Report and Order adopts
a two-pronged eligibility standard. The first prong is
a modified version of the Commission’s existing new entrant bidding credit standard, and the second prong derives from the revenue-based eligible entity definition
contained in the Commission’s broadcast rules.10 Under the first prong of the eligibility standard, a potential

See id., para. 2.
Id., para. 6.
7
Id.
8
Id.
9
Id., Section IV.A.
10
Id., Section IV.B.
5
6

671
incubated entity, including its attributable interest holders, may hold existing attributable interests in no more
than three full-service AM or FM stations and no TV
stations.11 In addition, pursuant to the second prong,
the potential incubated entity must also qualify as a
small business consistent with the Small Business Administration (SBA) standard for its industry grouping.12
4.
To qualify for participation in the incubator
program, the parties must seek prior approval from the
Commission that their proposed incubation relationship
comports with the program requirements. 13 The key
factors guiding review of incubation proposals will be
whether the potential incubated entity would have been
able to obtain the necessary financing and support absent the proposed incubation relationship; whether the
proposal provides the incubated entity with adequate financing, training, and support over the course of the incubation relationship to ensure its success; and whether
the incubated entity retains de jure and de facto control
over the station to be incubated.14 The standard term
required for a qualifying incubation relationship will be
three years, but the relationship may be extended up to
an additional three years.15
5.
Qualifying incubation relationships must provide the incubated entity with an option to purchase the
incubating entity’s equity interest in the incubated station, if it holds one, for a price that is no more than fair
11
12
13
14
15

Id.
Id.
Id., Section IV.E.
Id.
Id., Section IV.C.

672
market value and/or terminate the incubating entity’s
creditor-debtor relationship with the incubated entity at
the conclusion of the incubation relationship.16 At the
end of the qualifying incubation relationship, the incubated entity may decide not to exercise this option and
choose instead to retain its existing controlling interest
in the incubated station.17 Alternatively, the incubated
entity may choose to sell its interest in the incubated
station and use the proceeds from the sale to acquire another full-service AM or FM station. In that case, the
Commission expects the incubating entity to help the incubated entity identify a full-service AM or FM station
to buy and obtain the financing necessary to purchase
the station.18 Absent a showing at the end of the qualifying incubation relationship that the incubated entity
holds a controlling interest in the incubated station or a
newly acquired full-service AM or FM station, the incubating entity will not be eligible to receive a waiver of
the Local Radio Ownership Rule. If the goal of the incubation relationship was to stabilize a previously struggling station, then the joint certified filing must describe
the status of the incubated station and whether it is now
on a firmer footing. The Commission expects qualifying incubation relationships to provide the incubated entity with financial and operational support (including
management training) that it needs and that will ultimately enable the incubated entity to own and operate
independently either the incubated full-service AM or

16
17
18

Id.
Id.
Id.

673
FM station or another full-service AM or FM station acquired at the completion of the program.19 If an incumbent broadcaster successfully incubates a new, small entrant, or a small struggling station owner, as part of the
incubator program, it will be eligible to receive a waiver
of the Local Radio Ownership Rule following the conclusion of the qualifying incubation relationship.20 Such a
waiver can be used for up to three years after the successful completion of the qualifying incubation relationship and must be used in either the incubated market or
a comparable radio market, as discussed in the Report
and Order.21 To receive a reward waiver, the incubating entity must demonstrate that it has completed a successful qualifying incubation relationship.22 Specifically,
the incubating entity must certify (i) that it complied in
good faith with its incubation agreement, as submitted
to and approved by the Bureau, and the requirements of
our incubator program discussed herein; and (ii) either
that the incubated entity holds a controlling interest in
the incubated station or a newly acquired full-service
AM or FM station, or if the incubated station was a
struggling station, that the incubation relationship has
resolved the financial and/or operational difficulties that
the owner of the previously struggling station faced
prior to incubation and sought to remedy through the
incubation relationship.23
6.
In addition, to the extent the incubating entity
needs a waiver of the Local Radio Ownership Rule to
19
20
21
22
23

Id.
Id., Section IV.D.
Id.
Id.
Id.

674
engage in a qualifying incubation relationship (for example, if the incubating entity is already at the applicable
local radio ownership limit in the market and its investment in the incubated station would exceed that limit),
we will grant the incubating entity a temporary waiver
of the Local Radio Ownership Rule (including the
AM/FM subcap) to allow the incubating entity to acquire
an otherwise impermissible noncontrolling, attributable
interest in the incubated station for the duration of the
qualifying incubation relationship. 24 With regard to
the temporary waiver, the incubating entity and incubated entity must demonstrate that they are both eligible for, and intend to engage in, a qualifying incubation
relationship, as discussed in the Report and Order.25
7.
The Report and Order implements a long overdue mechanism to address the primary barriers to station ownership by new and diverse entities: lack of access to capital and the need for technical and operational
experience.26 In implementing this incubator program,
the Commission’s expectation is that each successful incubation relationship will result in the acquisition of a
broadcast radio station by a new entrant or small business, or the preservation of an existing, but struggling,
small broadcaster. 27 Accordingly, successful implementation of this incubator program will promote own-

24
25
26
27

Id.
Id.
Id., para. 5.
Id.

675
ership diversity by fostering new entry in the broadcasting sector by entrepreneurs and small businesses, including those owned by women and minorities.28
B.

Summary of Significant Issues Raised by Public
Comments in Response to the IRFA

8.
The Commission received no comments in response to the IRFA.
C.

Response to Comments by the Chief Counsel for
Advocacy of the Small Business Administration

9.
Pursuant to the Small Business Jobs Act of
2010, which amended the RFA, the Commission is required to respond to any comments filed by the Chief
Counsel for Advocacy of the Small Business Administration (SBA), and to provide a detailed statement of any
change made to the proposed rules as a result of those
comments.29 The Chief Counsel did not file any comments in response to the proposed rules in this proceeding.
D.

Description and Estimates of the Number of
Small Entities to Which the Rules Will Apply

10. The RFA directs agencies to provide a description of and, where feasible, an estimate of the number of
small entities that may be affected by the proposed
rules, if adopted.30 The RFA generally defines the
term “small entity” as having the same meaning as the
terms “small business,” “small organization,” and “small

28
29
30

Id.
5 U.S.C. § 604(a)(3).
Id. § 603(b)(3).

676
governmental jurisdiction.” 31
In addition, the term
“small business” has the same meaning as the term “small
business concern” under the Small Business Act. 32 A
small business concern is one which: (1) is independently owned and operated; (2) is not dominant in its
field of operation; and (3) satisfies any additional criteria established by the SBA.33
11. The rules proposed herein will directly affect
small radio broadcast stations. Below, we provide a
description of these small entities, as well as an estimate
of the number of such small entities, where feasible.
12. Radio Stations. This Economic Census category “comprises establishments primarily engaged in
broadcasting aural programs by radio to the public.
Programming may originate in their own studio, from an
affiliated network, or from external sources.34 The SBA
has established a small business size standard for this
category as firms having $38.5 million or less in annual
Id. § 601(6).
Id. § 601(3) (incorporating by reference the definition of “small
business concern” in 15 U.S.C. § 632). Pursuant to 5 U.S.C. § 601(3),
the statutory definition of a small business applies “unless an agency,
after consultation with the Office of Advocacy of the Small Business
Administration and after opportunity for public comment, establishes one or more definitions of such term which are appropriate to
the activities of the agency and publishes such definition(s) in the
Federal Register.” Id. § 601(3).
33
Id. § 632. Application of the statutory criteria of dominance in
its field of operation and independence are sometimes difficult to apply in the context of broadcast television. Accordingly, the Commission’s statistical account of television stations may be over-inclusive.
34
U.S. Census Bureau, 2017 NAICS Definitions, “515112 Radio
Stations,” https://www.census.gov/cgibin/sssd/naics/naicsrch?input=
515112&search=2017+NAICS+Search&search=2017.
31
32

677
receipts.35 Economic Census data for 2012 shows that
2,849 radio station firms operated during that year. 36
Of that number, 2,806 firms operated with annual receipts of less than $25 million per year. 37 Therefore,
based on the SBA’s size standard the majority of such
entities are small entities.
13. According to Commission staff review of the
BIA/Kelsey, LLC’s Media Access Pro Radio Database
on June 22, 2018, about 11,365 (or about 99.9 percent) of
11,371 commercial radio stations had revenues of $38.5
million or less and thus qualify as small entities under
the SBA definition. 38 The Commission has estimated
the number of licensed commercial AM radio stations to
be 4,633 stations and the number of licensed commercial
FM radio stations to be 6,738, for a total number of
11,371.39 We note the Commission has also estimated
the number of licensed noncommercial (NCE) FM radio
stations to be 4,128. 40 Nevertheless, the Commission
does not compile and otherwise does not have access to
information on the revenue of NCE stations that would
permit it to determine how many such stations would
qualify as small entities.
13 CFR § 121.201; NAICS code 515112.
U.S. Census Bureau, Table No. EC0751SSSZ4, Information: Subject Series—Establishment and Firm Size: Receipts Size of Firms
for the United States: 2012 (515112), https://factfinder.census.gov/
bkmk/table/1.0/en/ECN/2012 US/51SSSZ4//naics-515112.
37
Id.
38
Press Release, FCC, Broadcast Station Totals As of June 30, 2018
(July 3, 2018), https://docs.fcc.ov/public/attachments/DOC-352168A1.
pdf.
39
Id.
40
Id.
35
36

678
14. We also note, that in assessing whether a business entity qualifies as small under the above definition,
business control affiliations must be included.41 The
Commission’s estimate therefore likely overstates the
number of small entities that might be affected by its
action, because the revenue figure on which it is based
does not include or aggregate revenues from affiliated
companies. In addition, to be determined a “small
business,” an entity may not be dominant in its field of
operation.42 We further note that it is difficult at times
to assess these criteria in the context of media entities,
and the estimate of small businesses to which these rules
may apply does not exclude any radio station from the
definition of a small business on these bases; thus, our
estimate of small businesses may therefore be overinclusive. Also, as noted above, an additional element
of the definition of “small business” is that the entity
must be independently owned and operated. The Commission notes that it is difficult at times to assess these
criteria in the context of media entities, and the estimates of small businesses to which they apply may be
over-inclusive to this extent.
E.

Description of Projected Reporting, Recordkeeping, and Other Compliance Requirements

15. In this section, we identify the reporting, recordkeeping, and other compliance requirements adopted in
the Report and Order and consider whether small enti-

“[Business concerns] are affiliates of each other when one concern controls or has the power to control the other, or a third party or
parties controls or has power to control both.” 13 CFR § 121.103(a)(1).
42
Id. § 121.102(b).
41

679
ties are affected disproportionately by any such requirements. The Commission decided to adopt an incubator
program with the goal of creating ownership opportunities for new entrants and small businesses, thereby promoting competition and diversity in the broadcast industry.43 In keeping with that goal, the program requirements that the Commission adopted in the Report and
Order will enable the pairing of small aspiring, or struggling, broadcast station owners with established broadcasters. 44 These incubation relationships will provide
new entrants and struggling small broadcasters access
to the financing, mentoring, and industry connections
that are necessary for success in the industry but to date
have been unavailable to many.45 Participation in the
incubator program is optional, not mandatory. The
Commission’s expectation is that each successful incubation relationship will result in the acquisition of a broadcast radio station by a new entrant or small business, or
the preservation of an existing, but struggling, small
broadcaster.46 Therefore, the Commission anticipates
that the incubator program will benefit small entities
that participate in the program, not burden them.
16. Reporting Requirements.47 The Commission
expects that most incubation proposals will accompany
an assignment, transfer of control, or construction permit application. The Commission directs its Media Bureau (Bureau) authority to modify the relevant FCC
Forms, including instructions and worksheets, as needed
43
44
45
46
47

Report and Order, para. 1.
Id.
Id.
Id., para. 5.
See id., Section IV.E.

680
to enable applicants to indicate on the form that the submission involves an incubation proposal. Such applications seeking to transfer, assign, or obtain an authorization are subject to public notice and petitions to deny
and informal objections under the Commission’s rules,
and in addition to reviewing such applications pursuant
to its routine review processes, the Bureau will review
accompanying incubation proposals and approve or reject such proposals. For any incubation relationship
that does not trigger an FCC form filing requirement,
the proposal must be filed as a Petition for Declaratory
Ruling in the Incubator docket, MB Docket No. 17-289,
in the Commission’s Electronic Comment Filing System
(ECFS). Just as in the application context, if a temporary waiver of the ownership cap is needed for the incubation relationship, then the waiver request must accompany the Petition for Declaratory Ruling.
17. The incubation proposal must contain a written
contract between the parties memorializing all aspects
of the incubation relationship, so as to demonstrate both
compliance with program requirements (e.g., that the
incubated entity has both de jure and de facto control)
and the steps the parties will take to put the incubated
entity in a position to own and operate a full-service AM
or FM radio station independently. The contract must
detail the level of equity interest each party will bring to
the relationship. The incubated entity must show that
it is providing a minimum equity stake as detailed above.48
The contract must also detail the parties’ plan to unwind
the incubation relationship and the steps they will take
See supra para. 50 (requiring incubated entity to satisfy control
test consistent with our existing revenue-based eligible entity definition).
48

681
to enable the incubated entity to own and operate a fullservice AM or FM station independently, be it the station that is the subject of incubation or another station
to be acquired upon conclusion of the incubation relationship. The contract must provide the incubated entity with the option to buy out the incubating entity’s
non-controlling interest in the incubated station. The
incubated entity can choose not to pursue this option and
instead maintain its existing controlling interest in the
incubated station. Alternatively, the incubated entity
may choose to sell its interest in the incubated station
and use the proceeds from the sale to acquire another
full-service AM or FM station. In that case, we expect
the incubating entity to help the incubated entity identify a full-service AM or FM station to buy and obtain
the financing necessary to purchase the station. The
contract must also provide for this alternative option.
18. Along with an agreement detailing the terms of
the incubation relationship and the rights and obligations of each party, the incubating and incubated entities
must each file a certified statement describing, among
other things, each party’s background, qualifications, and
resources, and how these will enable the party, via the
incubation relationship, to promote the goals of the incubator program—i.e., enabling a new entrant or small
business to own and operate a full-service AM or FM
station independently or to place a previously struggling
station on a firmer footing. As part of the statement,
the incubated entity must certify that its annual revenues for the previous three years did not exceed the
SBA revenue standard and that during the preceding
three years it held attributable interests in no more than
three full-service AM and FM stations (listing the stations, community of license, and facility IDs of each),

682
and that it did not hold an attributable interest in any
TV stations, consistent with the eligibility standards
adopted in the Report and Order. In addition, if the incubation proposal is being filed as a Petition for Declaratory Ruling, the potential incubated entity must make
the same certifications and attribution disclosures that
it would have had to submit were it filing the FCC Form
301, 314, or 315. The Report and Order also requires a
potential incubated entity to include in its application a
certified statement laying out why it is unable to acquire
a controlling interest in the incubated station, or successfully operate the station, absent the proposed incubation relationship and the funding, support, or training
provided thereby.
Likewise, the incubating entity
must certify that it has the resources and experience
necessary to help the incubated entity become an independent owner and operator of the incubated station or
another full-service AM or FM station and that it will
devote those resources and experience to achieve that
goal.
19. In addition, the incubated and incubating entities must each certify that the incubated entity will maintain operational and management control of the station,
including decisions regarding programming, personnel,
and finances. These submissions will enable the Bureau to verify that the incubated entity is a bona fide entity, without links to the incubating entity absent the incubation relationship, and truly needs the resources of
the incubator program.
20. Once the incubation contract has gone into effect, on the annual anniversary of the effective date of
the contract, the incubating and incubated entities must

683
jointly file a certified statement describing the incubation activities during the preceding year and how these
comport with the commitments laid out in the incubation
contract. The statement must describe the progress
being made towards the ultimate goal of station ownership, or greater stability regarding current ownership,
by the incubated entity. This annual certified statement must be filed both in the Incubator docket via
ECFS and the parties’ public inspection files, so as to
enable public review. These statements will be the primary mechanism by which the Commission and the public can gauge compliance with the terms of the incubation contract and progress towards the goal of independent station ownership. If, upon review of an annual
statement, the Bureau has questions or concerns, staff
may follow up with the parties. No later than six months
before the contract termination date, the parties must
make a submission to the Commission stating which option for station ownership the incubated entity plans to
pursue at the conclusion of the relationship—e.g., indicating that the incubated entity intends to buy out the
incubating entity’s non-controlling interest in the incubated station or that the parties will work together to
identify and secure another full-service AM or FM station for the incubated entity to acquire.
21. At the end of the three-year contract period, the
parties must again file a joint certified statement reporting on the previous year’s incubation activities. This submission will, however, also state whether the incubated
entity has acquired a new station or will continue to retain its controlling interest in the incubated station, either with or without pursuing its option to buy out the
incubating entity’s non-controlling interest. If the goal

684
of the incubation relationship was to stabilize a previously struggling station, this third annual filing must describe the current status of the incubated station and
whether it is now on a firmer footing. In the event of a
shorter incubation relationship due to exceptional progress on the part of the incubated entity in becoming an
independent owner and operator of a full-service AM or
FM station, the same filing requirement will apply, only
the filing may be made before the third year. If the incubation relationship required a temporary waiver of
the ownership cap and the incubating entity plans to use
its reward waiver to retain an otherwise impermissible
attributable interest in the incubated station, including
buying out the incubated entity’s interest in the incubated station, then the incubating entity must file a
waiver request along with the final joint statement.
22. While incubation contracts are intended to last
no longer than three years, parties may extend the incubation relationship for one additional period of up to
three years subject to Bureau approval. Parties that
wish to extend their relationships must file this request
no later than 120 days before the end of the initial threeyear contract period. The incubating entity, however,
may only seek a reward waiver, either for the incubated
market or another market, after the successful completion of the qualifying incubation relationship, whatever
the extended time period is—be it six months or three
years. If, as part of the extension, there are any revisions to the initial incubation contract, the proposed revised contract must be filed along with the extension request.

685
23. In the absence of any negative determination
from the Bureau by the end of the 120-day review period, following submission of a final joint certified statement, the incubating entity will then have three years in
which to submit a request to use the presumptive reward waiver. The request must be submitted with a
copy of the Bureau document(s) that approved the qualifying incubation relationship, including any document(s) that approved an extension of the original term
as discussed in the Report and Order. If the incubation
relationship proposal was submitted and approved as
part of a Form 301 construction permit application or a
Form 314 or Form 315 assignment or transfer of control
application, the waiver request must also include the file
number of the approved application. If the incubating
entity wishes to use its reward waiver to purchase the
incubated station, it must file its application seeking an
assignment of license or transfer of control contemporaneously with its final annual certified statement. It is
necessary for the incubating entity to do this to ensure
that the ownership limits in the incubated market are
not violated when the temporary waiver for the incubation period expires.
24. Recordkeeping Requirements.49 Under the Commission’s existing public file rules, licensees and permittees of commercial and noncommercial AM and FM stations are already required to retain in their public inspection file a copy of any application tendered for filing
with the Commission and related materials as discussed
in the rules. Thus, in addition to filing with the Bureau,
parties to incubation contracts must retain a copy of all
application materials, including the proposed incubation
49

See id., Section IV.E.

686
contract, in their public inspection files. Similarly, a
copy of each annual certified statement discussed above
must be filed both in the Incubator docket via ECFS and
the parties’ public inspection files. Consistent with the
Commission’s existing public file rules, items in the public file that are required to be filed with the Commission
will be automatically imported into the entity’s online
public file, and entities will only be responsible for uploading to the online file items that are not also filed in
the Consolidated Database System (CDBS) or Licensing and Management System (LMS) or otherwise maintained by the Commission on its own website.50
25. Other Compliance Requirements. In addition
to the other compliance requirements discussed in Section A above, the Report and Order also adopts the following:
26. To ensure that the incubated entity derives the
maximum benefit from the training and mentoring provided by the incubated entity, the Report and Order requires that the incubated entity be the licensee of the
incubated station and maintain ultimate authority over
station personnel, programming, and finances,.51 The
Report and Order adopts certain safeguards to ensure
that the incubated entity has the requisite level of autonomy during the incubation period.52

See 47 CFR §§ 73.3526(b)(4), 73.3527(b)(3); Expansion of Online
Public File Obligations to Cable and Satellite TV Operators and
Broadcast and Satellite Radio Licensees, Report and Order, 31
FCC Rcd 526, 534, 555, paras. 17, 77 (2016).
51
Report and Order, Section IV.C.
52
Id.
50

687
27. First, the Report and Order requires the incubated entity to satisfy the following control test consistent with the Commission’s existing revenue-based
eligible entity definition, upon which the Report and Order bases the second prong of the eligibility standard for
the incubator program.53 Specifically, the Report and
Order requires that the incubated entity hold more than
50 percent of the voting power of the licensee, and if the
licensee is not a publicly traded company (which will almost assuredly be the case), a minimum of either 15 percent or 30 percent of the equity interests, depending on
whether someone else owns or controls more than 25
percent of the equity interests.54 The Report and Order concludes that applying the control test from the
Commission’s existing eligible entity rule will best ensure that the incubated entity retains control of the incubated station while still giving the parties some flexibility to establish incubation relationships that suit their
specific needs.55 Moreover, using the existing standard
should facilitate both participation in and administration
of the program, as the standard is already familiar to
licensees.56
28. To ensure that the incubated entity retains autonomy over the incubated station’s core operating functions so as to gain the necessary level of operational expertise, and in light of concerns raised by some commenters, the Report and Order places certain restrictions
on the use of local marketing agreements (LMAs), joint

53
54
55
56

Id.
Id.
Id.
Id.

688
sales agreements (JSAs), and shared service agreements (SSAs).57 The Commission’s current attribution
standards recognize that same-market radio LMAs and
JSAs above a certain percentage of the station’s broadcast day may confer on the brokering station the potential to exert a significant degree of influence over core
station operating functions (i.e., programming decisions).58 Specifically, the Commission’s attribution standards regard as attributable ownership interests samemarket radio LMAs and JSAs in which the brokering
station brokers more than 15 percent of the broadcast
time or sells more than 15 percent of the advertising
time per week.59 Given the Commission’s rationale for
attributing these arrangements and the concerns raised
in the record of this proceeding, the Report and Order
adopts the following safeguards.60
29. First, to ensure that the incubated entity retains control of the programming aired on the incubated
station, the Report and Order prohibits LMAs involving
the incubated station. 61 As defined in the Commission’s rules, an LMA is any agreement that involves “the
sale by a licensee of discrete blocks of time to a ‘broker’
that supplies the programming to fill that time and sells

Id.
Id.
59
Id. In addition, under the Commission’s equity debt plus (EDP)
attribution standard, an inter-market LMA also is attributable if it
involves more than 15 percent of a station’s programming and is accompanied by a financial investment that is above the relevant threshold specified in the rule. Id.
60
Id.
61
Id.
57
58

689
the commercial spot announcements in it,”62 regardless
of how the agreement is titled. Second, to ensure that
the incubated entity is able to gain operational expertise
by performing the core operations of the incubated station, the Report and Order limits any JSAs or SSAs involving the incubated station to the first two years of the
initial incubation period.63 Pursuant to the definitions
in the Commission’s rules, a JSA is any agreement with
the licensee of a brokered station that authorizes a broker to sell advertising time for the brokered station,64
and an SSA is any agreement or series of agreements in
which (i) a station provides any station-related services
to a station that is not directly or indirectly under common de jure control permitted under the Commission’s
regulations, or (ii) stations that are not directly or indirectly under common de jure control permitted under
the Commission’s regulations collaborate to provide or
enable the provision of station-related services.65 While
the Commission’s attribution standards do not regard
SSAs as attributable ownership interests, the Commission is concerned that allowing these arrangements to
be used for the full duration of an incubation relationship could deprive the incubated entity of its incentive
to gain the operational expertise needed to operate the
station independently at the end of the relationship.
Permitting limited use of JSAs and SSAs appropriately

47 CFR § 73.3555, Note 2.j.
Report and Order, Section IV.C.
64
47 CFR § 73.3555, Note 2.k.
65
Id. § 73.3526(e)(18). Station-related services include but are not
limited to administrative, technical, sales, and/or programming support. Id.
62
63

690
balances broadcasters’ representations that these arrangements can make incubation more successful with
the need to ensure that each incubated entity learns how
to perform essential station functions independently in
order to be viable in the long term as an independent
broadcaster.66 The Commission does not believe that
prohibiting LMAs and restricting the use of JSAs and
SSAs will reduce the utility of the incubator program for
incubated entities, as the record and the Commission’s
experience indicate that new owners of radio stations
need assistance primarily with financing and technical
issues, rather than programming and advertising sales.67
30. Moreover, these safeguards will enable the parties to evaluate whether the incubated entity is prepared
to operate independently before the incubation period is
complete and while the incubating entity remains contractually obligated to provide support.68 By requiring
that the incubated entity actually obtain or produce programming, sell advertising, and perform other core operating functions for the incubated station for at least
one full year prior to the expiration of the incubation relationship, these protections will provide for a more informed assessment of the incubated entity’s progress
and any areas where it needs additional training and
support to be viable as an independent owner and operator of the incubated station or another full-service AM
or FM station.69 The incubated entity’s experience performing core operating functions may provide a persua-

66
67
68
69

Report and Order, Section IV.C.
Id.
Id.
Id.

691
sive justification for extending the incubation relationship if the parties determine that more time is needed to
incubate the station.70 While the Report and Order allows limited use of JSAs and SSAs, the Report and Order also emphasizes that these agreements, if used,
must be accompanied by proper training in the relevant
area(s)—e.g., administrative, technical, sales, etc.—
covered by any such arrangement(s) involving the incubated station.71
31. Finally, the Report and Order requires that
none of the officers, directors, managing partners, or
managing members of the incubated entity hold an attributable interest in or be an employee of the incubating entity.72 The Commission is concerned that allowing an employee or an attributable interest holder in the
incubating entity to serve as an officer, director, managing partner, or managing member of the incubated entity may jeopardize the independence of the incubated
station given the significant conflicts of interests that
could arise for these individuals and the significant authority and potential for influence they would wield over
the incubated station.73 While U.S. antitrust laws prohibit, with certain exceptions, one individual from serving as an officer or director of two competing corporations, the Commission believes that an additional safeguard is needed to address circumstances that may be
exempt from or not covered by the antitrust laws, such
as where the two companies are not competitors, where
either company is not a corporation or does not meet
70
71
72
73

Id.
Id.
Id.
Id.

692
certain financial thresholds, or where an officer or director of one company is an employee but not an officer or
director of the other company.74
F.

Steps Taken to Minimize Significant Economic
Impact on Small Entities, and Significant
Alternatives Considered

32. The RFA requires an agency to describe any
significant, specifically small business, alternatives that
it has considered in reaching its proposed approach, which
may include the following four alternatives (among others): (1) the establishment of differing compliance or
reporting requirements or timetables that take into account the resources available to small entities; (2) the
clarification, consolidation, or simplification of compliance and reporting requirements under the rule for such
small entities; (3) the use of performance, rather than
design, standards; and (4) an exemption from coverage
of the rule, or any part thereof, for small entities.75
33. As discussed above, the Commission decided to
adopt an incubator program with the goal of creating
ownership opportunities for new entrants and small
businesses, thereby promoting competition and diversity in the broadcast industry. In adopting the requirements that will govern the incubator program, the Commission considered various options and alternatives that
were proposed in the NPRM and public comments, and
based on the record, the Commission concluded that
structuring the incubator program as discussed in the
Report and Order will provide small new entrants and
struggling small broadcasters access to the financing,
74
75

Id.
5 U.S.C. § 603(c)(l)-(c)(4).

693
mentoring, and industry connections that are necessary
for success in the broadcasting industry. The Commission’s expectation is that each successful incubation relationship will result in the acquisition of a broadcast radio station by a new entrant or small business, or the
preservation of an existing, but struggling, small broadcaster.76 Participation in the incubator program is optional, not mandatory, and the Commission anticipates
that the incubator program will benefit small entities
that participate in the program, not burden them.
G.

Report to Congress

34. The Commission will send a copy of the Order,
including this FRFA, in a report to be sent to Congress
pursuant to the Congressional Review Act.77 In addition, the Commission will send a copy of the Order, including this FRFA, to the Chief Counsel for Advocacy
of the SBA. A copy of the Order and FRFA (or summaries thereof ) will also be published in the Federal
Register.78

76
77
78

Report and Order, para. 5.
See 5 U.S.C. § 801(a)(1)(A).
See id. § 604(b).

694
STATEMENT OF CHAIRMAN AJIT PAI

Re:

Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289

Everyone needs help from time to time, even the
greatest among us. Hercules learned from Chiron,
Luke learned from Yoda, Daniel learned from Mr.
Miyagi, and Harry Potter needed to learn from Dumbledore before taking on Voldemort. Sometimes we need
someone to show us the ropes before we venture out on
our own.
That’s the basic idea of an incubator program: Established broadcasters will pair with, and provide support to, small new entrants, including women and minorities, to help promote diversity of ownership in the broadcast sector. Relationships like these will help address
the significant barriers that currently make it hard for
many to enter the broadcast industry, including lack of
access to capital.
The idea of an incubator program has been discussed
for decades. The National Association of Black Owned
Broadcasters first advanced the idea to the FCC way
back in 1990, and the FCC first sought comment on it in
1992. And in the last 26 years, the proposal has been
discussed in no fewer than seven different dockets.
That’s a lot of talk. But talk doesn’t get the job done.
So, this Commission has adopted a different attitude,
one borrowed from Elvis Presley: “A little less conversation, a little more action.”
Action came at long last this past November, when
the FCC agreed to adopt an incubator program. And

695
today, we establish rules for this program to enable it to
get off the ground.
Under the procedures we are adopting, incubating
stations will be able to pair up with small new entrants
or existing struggling stations for a three-year incubation period. Among other things, the incubating station will provide invaluable support to the incubated entity in the form of mentoring, financial, engineering,
and/or technical assistance, and operational support.
The program will initially apply to the radio industry, as
radio has traditionally been the most accessible entry
point for new entrants and small businesses seeking to
enter the broadcasting sector, and there is an appropriate incentive that is within our authority to grant to incubating stations.
For an incubation relationship to be deemed successful at the end of the three-year period, the incubated entity must either own a new full-service radio station or
its previously struggling station must be on a firmer
footing. In exchange, if the incubation relationship is
successful, the incubating entity can receive a waiver of
the FCC’s local radio ownership rule that it can use in
the incubated market or a comparable market.
Getting to this point took a lot of time, energy, and
patience. In particular, I’d like to thank the Advisory
Committee on Diversity and Digital Empowerment for
its hard work on this issue. I’d also like to thank the FCC
staff who worked so diligently on this Order. From the
Media Bureau: Francesca Campione, Michelle Carey,
Christopher Clark, Brendan Holland, Thomas Horan,
Jamila Bess Johnson, Radhika Karmarkar, Holly Saurer,

696
Al Shuldiner, and Sarah Whitesell. And from the Office of General Counsel: Bill Dever, Bill Scher, and
Royce Sherlock.

697
STATEMENT OF
COMMISSIONER MICHAEL O’RIELLY

Re:

Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289

I commend the Chairman for bringing to order the
incubator program he officially proposed in November
after years of previous advocacy.
The number of
women-owned and -controlled broadcast stations and
the number of African-American-owned and -controlled
stations in the United States is abysmally low. In fact,
according to the Commission’s most recent report on the
ownership of commercial broadcast stations, women collectively or individually held a majority of the voting interests in only 760 radio stations, or 8.4 percent. African Americans fared even worse, holding collectively or
individually a majority of the voting interest in just 159
radio stations, or 1.8 percent. These are anemic statistics resulting from the FCC’s longstanding, archaic media ownership rules, which we took important steps to
modernize in November.
I truly believe that updating our rules to reflect the
actual marketplace will allow broadcasters to compete
and thrive. As I stated at a Congressional hearing last
October, the situation we have today is a result of our
media ownership rules, and those rules have not worked.
We must try something new. Today, the Commission
does just that, as we set up the parameters for a radio
incubator program. First, I want to thank the Chairman for recognizing in the item that although our incubator program will offer reward waivers from certain
aspects of our Local Radio Ownership Rule, including
the AM/FM subcap, nothing in this item precludes the

698
Commission from reconsidering these rules in future
items. Specifically, sometime this year the Commission will launch our 2018 Quadrennial Review. In that
review, I will pursue an elimination or at least to drastically lift, our AM/FM subcap restrictions. This item specifically confirms that our decision today does not prejudge or speak to whether the current Local Radio Ownership Rule will be maintained or modified as a result of
this review. We successfully eliminated the Newspaper/
Broadcast Cross-Ownership rule in November, perhaps
a decade too late. We cannot rest on our laurels by
maintaining the same regulatory climate for radio that
helped seal the fate of many newspapers.
Next, I want to thank the Chairman for reversing the
draft’s policy position on transferability. I believe that
preventing the reward waiver from being freely transferable would harm participation rates and undermines
sound policy. Once the incubator earns the benefit from
a successful incubation, the reward waiver should apply,
period. It should not matter which station owner ultimately receives the benefit, as it should not artificially
expire if the station is sold to another individual. This
was an important edit, and again demonstrates that, despite making our drafts publicly available in advance of
our meetings, significant edits can still occur prior to our
final approval of the items.
Finally, I thank my colleagues for accepting other
minor edits I proposed, including jettisoning the use of
delegated authority and clarifying the Commission’s views
on the previous success rate of tax certificates. I am
aware that some have suggested that we include a recommendation in our item that Congress adopt tax relief
for incubation as an alternative to ownership waivers.

699
Such an edit would do nothing but cause extensive delay
and a further continuation of the tragically low diversity
ownership rate in the broadcast space. I also was unable to support altering the comparable markets algorithm to disallow comparability more than five market
rank sizes removed in either direction from the incubated station’s market. This is an overly complex alternative that I fear will restrict participation in our program. Finally, I could not support any report to Congress that revisits the Overcoming Disadvantages Preference (ODP) concept as it is constitutionally flawed and
more than problematic to implement.
I truly hope that the incubation program we launch
today is a success. I must admit that some questions
do remain. For example, I wonder what will happen to
incubators who take on an incubatee that is less than
stellar. Will they be forced into pouring resources into
a company that simply cannot get off the ground?
There is no easy answer for this, other than the need for
incubators to choose their incubatees wisely. Time will
tell how much of a factor this becomes. I approve.

700
STATEMENT OF
COMMISSIONER BRENDAN CARR

Re:

Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289

Anyone who has spent any time at a tech or telecom
conference—from New York to Silicon Valley—knows
that there’s more progress to be made on diversity.
For decades, the Commission talked about ways to
help close the gap, including by establishing an incubator program to promote diverse voices in the broadcast
industry. After years of inaction, today, we take a
small but important step in the right direction by doing
just that.
By providing the right incentives for established
broadcasters to incubate new entrants, we aim to address two longtime impediments to minority ownership:
access to capital and operational experience. The average sales price for a radio station in 2016 was about $1
million, and new entrants and small broadcasters often
lack the deep pockets necessary to get off the ground.
To incentivize incubators, this Order will waive the
Local Radio Ownership Rule for broadcasters who provide the necessary funding and training for a new entrant to stand on their own. And the program will include safeguards to prevent fraud and abuse.
Maintaining the status quo isn’t going to bring more
diversity and new entry into the market, and the Local
Radio Ownership Rule has remained largely unchanged
since 1996. So I am glad we’re modernizing our rules to
provide the right incentives to increase diversity in broad-

701
cast ownership. I look forward to seeing how this program develops, and whether the lessons we learn from
this approach can be applied more broadly. I thank the
Media Bureau for its work on this item. It has my support.

702
DISSENTING STATEMENT OF
COMMISSIONER JESSICA ROSENWORCEL

Re:

Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289

For decades, at the direction of Congress, the Federal Communications Commission maintained limits on
the number of broadcast stations that a single company
can own. These rules prevented a single entity from
owning the top television stations in the same market.
They also placed limits on the number of television stations and radio stations a single entity could control in
any community. These policies were designed to sustain media diversity, localism, and competition. Those
values may not be especially trendy, but I think they are
solid. I think they support journalism and jobs. I
think they play a critical role in advancing the mix of
facts we all need to make decisions about our lives, our
communities, and our country.
In a decision late last year, the FCC dismantled those
values. Instead of engaging in thoughtful reform that
modernizes our rules—which we should do—it set our
most basic values on fire. They are gone. As a result,
wherever you live the FCC has given the green light for
a single company to own the newspaper and multiple television and radio stations in your community. I am
hard pressed to see any commitment to diversity, localism, or competition in that result.
We should be troubled. Because we are not going to
remedy what ails our media today with a rush of new
consolidation. We are not going to fix our ability to fer-

703
ret out fact from fiction by doubling down on just a handful of companies controlling our public airwaves. We
are not going to be able to remedy the way the highest
level in government is now comfortable stirring up angry sentiment, denouncing news as false facts, and bestowing favors on outlets with narratives that flatter
those in power rather than offer the hard-hitting assessments we need as citizens. Despite all this, our policy
changes have greased the way for mergers of ever greater
magnitude—which let’s be honest, will not do a thing to
make it more likely that women and minorities become
owners of broadcast stations.
To apologize for this set back, today the FCC offers
the most modest of proposals. It will provide existing
radio station owners with the right to exceed radio ownership limits if they offer a bit of aid to a qualifying new
entrant in the market. There is nothing bold here. I
fail to see how it will make a material difference in the
diversity of media ownership. Its scope is too narrow,
its consequences too small, and its impact on markets
too muddled. Moreover, I fail to see how this will satisfy the Court of Appeals for the Third Circuit which
on—count them—three occasions has directed the FCC
to take meaningful actions to address the shameful lack
of racial and gender diversity in broadcast station ownership.
Media ownership matters because what we see and
hear over the air says so much about who we are as individuals, as communities, and as a nation. Study a bit
of history and you can only come to one conclusion: consolidation will make our stations look less and less like
the communities they serve. Women and minorities
have struggled for too long to take the reins at media

704
outlets. Because today’s action will do too little to change
that reality for too many who have waited too long, I dissent.

